<html>
<title> - DEPARTMENTS OF COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2006</title>
<body><pre>[Senate Hearing 109-300]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-300
 
    DEPARTMENTS OF COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2006

=======================================================================

                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                                   on

                               H.R. 2862

  AN ACT MAKING APPROPRIATIONS FOR SCIENCE, THE DEPARTMENTS OF STATE, 
JUSTICE, AND COMMERCE, AND RELATED AGENCIES FOR THE FISCAL YEAR ENDING 
               SEPTEMBER 30, 2006, AND FOR OTHER PURPOSES

                               __________


                         Department of Commerce
                         Department of Justice
  Executive Office of the President: Office of Science and Technology 
                                 Policy
             National Aeronautics and Space Administration
                      National Science Foundation
                       Nondepartmental Witnesses

                               __________

         Printed for the use of the Committee on Appropriations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html



                    U.S. GOVERNMENT PRINTING OFFICE
99-851                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001
                               __________
                      COMMITTEE ON APPROPRIATIONS

                  THAD COCHRAN, Mississippi, Chairman
TED STEVENS, Alaska                  ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         PATRICK J. LEAHY, Vermont
CHRISTOPHER S. BOND, Missouri        TOM HARKIN, Iowa
MITCH McCONNELL, Kentucky            BARBARA A. MIKULSKI, Maryland
CONRAD BURNS, Montana                HARRY REID, Nevada
RICHARD C. SHELBY, Alabama           HERB KOHL, Wisconsin
JUDD GREGG, New Hampshire            PATTY MURRAY, Washington
ROBERT F. BENNETT, Utah              BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
MIKE DeWINE, Ohio                    TIM JOHNSON, South Dakota
SAM BROWNBACK, Kansas                MARY L. LANDRIEU, Louisiana
WAYNE ALLARD, Colorado
                    J. Keith Kennedy, Staff Director
              Terrence E. Sauvain, Minority Staff Director
                                 ------                                

    Subcommittee on Commerce, Justice, Science, and Related Agencies

                  RICHARD C. SHELBY, Alabama, Chairman
JUDD GREGG, New Hampshire            BARBARA A. MIKULSKI, Maryland
TED STEVENS, Alaska                  DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         PATRICK J. LEAHY, Vermont
MITCH McCONNELL, Kentucky            HERB KOHL, Wisconsin
KAY BAILEY HUTCHISON, Texas          PATTY MURRAY, Washington
SAM BROWNBACK, Kansas                TOM HARKIN, Iowa
CHRISTOPHER S. BOND, Missouri        BYRON L. DORGAN, North Dakota
THAD COCHRAN, Mississippi (ex        ROBERT C. BYRD, West Virginia
    officio)                           (ex officio)
                           Professional Staff
                          Katherine Hennessey
                           Jill Shapiro Long
                            Jessica Roberts
                              Allen Cutler
                             Nancy Perkins
                        Paul Carliner (Minority)
                      Gabrielle Batkin (Minority)
                        Alexa Sewell (Minority)

                         Administrative Support
                      Kate Fitzpatrick (Minority)

                            C O N T E N T S

                              ----------                              

                      Thursday, February 17, 2005

                                                                   Page
Executive Office of the President: Office of Science and 
  Technology 
  Policy.........................................................     1
National Science Foundation......................................    15
    National Science Board.......................................    25

                         Thursday, May 12, 2005

National Aeronautics and Space Administration....................    41

                         Tuesday, May 24, 2005

Department of Justice:
    Office of the Attorney General...............................   101
    Federal Bureau of Investigation..............................   129

                         Thursday, May 26, 2005

Department of Commerce: Office of the Secretary..................   175
Nondepartmental Witnesses........................................   215
[Note.--Before the Committee organized its subcommittees for the 109th 
  Congress, the following hearing was held under the Subcommittee on 
  Veterans Affairs and Housing and Urban Development and Independent 
                               Agencies.]



 DEPARTMENTS OF VETERANS AFFAIRS AND HOUSING AND URBAN DEVELOPMENT AND 
        INDEPENDENT AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2006

                              ----------                              


                      THURSDAY, FEBRUARY 17, 2005

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:01 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Christopher S. Bond (chairman) 
presiding.
    Present: Senators Bond, Stevens, and Mikulski.

                   EXECUTIVE OFFICE OF THE PRESIDENT

                Office of Science and Technology Policy

STATEMENT OF DR. JOHN H. MARBURGER, III, DIRECTOR, AND 
            SCIENCE ADVISOR TO THE PRESIDENT


            opening statement of senator christopher s. bond


    Senator Bond. Good morning. The Senate Appropriations 
Committee's Subcommittee on VA, HUD, and Independent Agencies' 
hearing on the 2006 budget request for NSF and OSTP will come 
to order.
    My apologies for the confusion today. We are starting early 
because, as most of you know, this is a day when Secretary Rice 
will be testifying on the urgent supplemental at 10 o'clock. My 
colleague, Senator Mikulski, is in traffic and will be here 
about 9:15. She has asked that I proceed, and I apologize 
because we were held up for a half an hour by a traffic 
accident, so that is why the scramble.
    This is a very important hearing that we wanted to begin. I 
welcome Dr. John Marburger from OSTP, Dr. Arden Bement from the 
National Science Foundation, and Dr. Warren Washington from the 
National Science Board.
    Congratulations, Dr. Bement, for being confirmed last year 
as NSF's Director. I look forward to working with all three of 
you and hearing your testimony today.
    Before I proceed with the business at hand, I recognize 
there are several questions surrounding the future structure of 
our committee. While this is an important issue and my staff 
and I have had to spend far too much time on it, I strongly 
believe that we cannot hold up work of the Senate and the 
taxpayers by waiting for this issue to be resolved. We intend 
to resolve it appropriately. We have to move forward. That is 
why we are here today.
    While our colleagues across the Capitol say they want to 
avoid another omnibus, the hasty and ill-advised action they 
took last week will do just the opposite, forcing an omnibus, 
unless we can arrive at an accommodation. That is very 
unfortunate. As this particular panel knows, when we go into an 
omnibus, funds are cut out of the basic research that we need 
so badly. That is what happened last year.
    I have been, as Senator Mikulski has been, and will 
continue to be a very strong supporter of NSF and a robust NSF 
budget. My support for the work at NSF has not and will not 
diminish.
    I think this is a very important hearing today because it 
gives us an opportunity to talk about the critical role NSF 
plays in the economic, scientific, and intellectual growth of 
this Nation. Our country's future depends upon our ability to 
lead the world in science and technology, especially in the 
global marketplace. NSF is a primary tool in meeting the global 
challenges of the 21st century, pushing the boundaries of 
scientific research and technology. NSF's work should give us a 
better insight into the world around us. This work will build 
our economy, provide jobs, speed innovation, and improve the 
quality of life for all our people.
    Unfortunately, the Federal Government has not adequately 
supported NSF in the physical sciences. I strongly believe that 
the funding disparity between life sciences and the physical 
sciences has grown too large. And I have had numerous 
physicians, medical researchers, scientists tell us that we are 
holding back work in developments in the life sciences because 
we are not funding the basic NSF sciences that support them. 
The funding imbalance directly jeopardizes our ability to lead 
the world in scientific innovation. As I said, the NIH work is 
jeopardized because by undermining the physical sciences, we 
are undermining the underpinning for medical technological 
advances.
    Inadequate funding for NSF also hurts our economy and the 
creation of jobs. In recent years, there has been an outcry 
about outsourcing jobs to other countries. The best remedy for 
this issue is not protectionism but investing in education and 
skills of our future work force. This means better science and 
math education and technological skills, such as computer 
literacy. This is a major part of NSF's mission.
    I met earlier this week with leaders of our Nation's major 
computer companies, and they were absolutely stunned by the 
lack of commitment and investment in this research. They point 
out that it takes 25 years for this basic research to translate 
into jobs and to practical applications, and by not funding it 
now, we are short-changing our Nation several years down the 
road.
    Sadly, the budget request for NSF does not provide it with 
adequate resources to meet its mission. While Dr. Marburger and 
our friends at OMB will state that the NSF budget is one of the 
few increases in the Federal budget, I am not happy. Dr. 
Marburger chided me for the slim funding for NSF last year, and 
Jack, do you remember what I said? I said I cannot do it if OMB 
undercuts us. And guess what? OMB has undercut us once again. 
It is especially disappointing because Senator Mikulski and I 
and my other colleagues have made great efforts to get on a 
path to double funding for NSF. We have fallen off that path 
drastically, but we are not going to give up.
    This should be one of the highest priorities not just for 
this subcommittee but for the full committee, for the Congress 
and for the Nation. It means a greater effort by the research 
and high-tech sector in advocating and selling the virtues of 
NSF to the general public. Please, ladies and gentlemen, come 
out of your laboratories, come out of your think tanks, and let 
people know how important this funding is.
    Now, I know there are significant shortfalls throughout the 
Federal budget, and our own committee, the VA-HUD subcommittee, 
such as it is or was or may be, has underfunding for VA medical 
care, community development block grants, and in EPA Clean 
Water. It is obviously going to be a major challenge to find 
the funds for NSF in 2006. But, Senator Mikulski and I are 
committed to NSF and we are going to work with the 
administration to increase the NSF budget as we move forward.
    Given this constrained funding environment, it is even more 
critical that the National Science Board develop a long-term 
vision for NSF. In other words, Dr. Washington, we need a 
strategy that outlines what our priorities are, how we can get 
the biggest bang for our bucks through programs and activities 
supported by NSF. This does not mean looking into NSF to alter 
its grant size and duration. This means articulating a vision 
for the future of science and technology, including what are 
the new, bold, cutting-edge areas of research. We need a plan, 
a business plan, if you would, on how NSF will lead the 
research community in meeting these new, bold challenges. The 
Board has a tremendous talent pool available and we need you 
and the Board to tell us what are the activities that we must 
pursue for the future.
    One of the specific areas that the Board should examine is 
the future of our Nation's math and science education. In its 
budget request, the administration has made some disturbing 
cuts to NSF's education portfolio, especially those programs 
serving K through 12 education. Every major assessment of math 
and science has shown how far our country's students have 
fallen behind the rest of the world in math and science 
proficiency. I understand that up to fourth grade, boys and 
girls are doing well, but by the time they get to the eighth 
grade, our students are out-performed by 8 countries in science 
and by 14 countries in math, including Latvia and Malaysia. 
Now, what are we thinking about? We have to address this 
problem before it is too late.
    Our scientific education and research system must also 
ensure that no one is left behind. I am pleased that the budget 
request emphasizes the importance of broadening the 
participation of programs to under-represented groups such as 
minorities, women, and people with disabilities. Nevertheless, 
while OMB did not continue its routine practice of the past in 
cutting these types of programs, flat funding is not an 
overwhelming response.
    Moreover, flat funding programs that support under-
represented groups is hurting our ability to address a growing 
national crisis where there is a shortage of new homegrown 
scientists and engineers. We are not attracting enough young 
students, especially minorities, into these disciplines.
    In the past, we used to bring in students from foreign 
countries. We would educate them here and they would stay here 
and provide great resources for our country, and their 
intellectual capability was one of the assets that we could 
rely on. Now many of these students are going home because they 
can do the work in their home countries. We cannot continue to 
rely on foreign students coming and staying in the United 
States to fill the gap by retiring engineers and the 
scientists. We need to develop our students to fulfill those 
roles.
    In addition, I have a strong interest in nanotechnology. 
The budget provides $344 million for this important program. 
There is a tremendous amount of excitement about nanotechnology 
because of its far-reaching benefits from computers to 
manufacturing processes, to agriculture, to medicine.
    And as everyone knows, I am also a very big supporter of 
plant biotechnology because it has generated exciting 
possibilities for improving human health and nutrition. 
Impressive research is being done with plant genomics that can 
eventually be a powerful tool for addressing hunger in 
developing countries like those in Africa and Southeast Asia. I 
am very pleased by the recent progress on sequencing the maize 
genome, led by researchers at the Danforth Plant Science Center 
and the collaboration between the University of Missouri-
Columbia and Nepal on oilseeds from soybeans. I thank our good 
friend, Dr. Mary Clutter, for her work on these efforts and 
look forward to hearing more about it from her.
    In addition to my concerns about funding, I have to address 
one particular area of concern. Specifically I remain concerned 
about the Foundation's continuing deficiencies in managing and 
overseeing its large research facility projects. I will not go 
into detail about the Inspector General's statement, which is 
made a matter for the record, but it indicates that NSF's 
progress in addressing large facility management problems has 
been slow. Dr. Bement, I understand you have taken these issues 
more seriously than your predecessor, but I need your firm 
commitment that you will immediately implement the IG and 
National Academy of Sciences' recommendations to correct these 
problems. I also believe the Board should oversee these more 
closely.
    Lastly, the Board and Foundation must finalize the 
priority-setting process guidelines for large research 
facilities. I do not want to hear any more excuses. This is not 
rocket science. It is just good management.
    I look forward to hearing the testimony of our witnesses 
today, and I will call on my colleague and partner, Senator 
Mikulski, when she arrives.


                           PREPARED STATEMENT


    Now, because of the tightened time schedule, I would ask--
Dr. Marburger gets 7\1/2\ minutes and Dr. Bement and Dr. 
Washington get 5. While you get ready, I will now turn it over 
to my colleague, Senator Mikulski. I have told them how the cow 
eats the cabbage, and you can continue from here.
    [The statement follows:]

           Prepared Statement of Senator Christopher S. Bond

    The subcommittee will come to order. This morning, the VA-HUD and 
Independent Agencies Subcommittee will conduct its first hearing of the 
year and we begin with the fiscal year 2006 budgets for the National 
Science Foundation, the National Science Board, and the Office of 
Science and Technology Policy. I welcome back Dr. John Marburger from 
OSTP, Dr. Arden Bement from NSF, and Dr. Warren Washington from the 
National Science Board to our subcommittee. I congratulate Dr. Bement 
for being confirmed last year as NSF's new Director. I look forward to 
working with all three of you and hearing your testimony today.
    Before I proceed with the business at hand, I recognize that there 
are a lot of questions surrounding the future structure of our 
committee. While this is an important issue, I strongly believe that we 
cannot hold up the work of the Senate and the taxpayers by waiting for 
this issue to be resolved. We must move forward. That is why we are 
here today. While our colleagues across the Capitol say they want to 
avoid another Omnibus, the hasty and ill-advised action they took this 
week will do just the opposite, forcing an Omnibus. That is 
unfortunate.
    As many of you know, I have been, and will continue to be a strong 
supporter of NSF and a robust budget for NSF as well. My support for 
the work done at NSF has not, and will not diminish.
    This is a very important hearing because it gives me the 
opportunity to talk about the critical role NSF plays in the economic, 
scientific and intellectual growth of this Nation. Our country's future 
resides in our ability to lead the world in science and technology, 
especially in the global marketplace. NSF is one of our primary tools 
in meeting the global challenges of the 21st Century by pushing the 
boundaries of scientific research and technology. NSF's work will give 
us a better insight into the world around us. This work will grow our 
economy and speed innovation, improving the quality of life for all 
people.
    Unfortunately, the Federal Government has not adequately supported 
NSF and the physical sciences. I strongly believe that the funding 
disparity between the life sciences and the physical sciences has grown 
too large. This funding imbalance is alarming because it directly 
jeopardizes our Nation's ability to lead the world in scientific 
innovation. Further, we are jeopardizing the work of the National 
Institutes of Health because we are undermining the physical sciences, 
which provide the underpinning for medical technological advances.
    Inadequate funding for NSF also hurts our economy and the creation 
of good jobs. In recent years, there has been an outcry of outsourcing 
jobs to other countries. The best remedy to this issue is not 
protectionism but investing in the education and skills of our future 
workforce. This means better math and science education and 
technological skills, such as computer literacy. This is also a major 
part of NSF's mission.
    Sadly, the budget request for NSF does not provide it with the 
adequate resources to meet its mission. While Dr. Marburger and our 
friends at OMB will state that NSF's budget is one of the few increases 
in the Federal budget, it does not give me any solace. This is 
especially disappointing given the efforts of myself, Senator Mikulski, 
and many of my other colleagues to double the funding of NSF. We have 
fallen off the path for doubling NSF's budget, but we must not give up. 
This must remain one of our highest priorities, not of the 
subcommittee, but also the Nation. This must mean a greater effort by 
the research and high-tech sector in advocating and ``selling'' the 
virtues of NSF to the general public.
    I recognize that there are significant funding shortfalls 
throughout the Federal budget, including some notable accounts within 
the VA-HUD jurisdiction such as VA medical care, HUD CDBG, and EPA 
Clean Water SRF. It is obviously going to be a major challenge to find 
additional funds for NSF for fiscal year 2006. Nevertheless, I am 
committed to NSF and I want to work with the administration to increase 
NSF's budget as we move forward.
    Given the constrained funding environment, it is even more critical 
that the National Science Board develop a long-term vision for NSF. In 
other words, we need a strategy that outlines how we can get the 
biggest bang for our buck through programs and activities supported by 
NSF. This does not mean how NSF will alter its grant size and duration. 
This means articulating a vision for the future of science and 
technology, including the next bold cutting-edge areas of research. We 
also need a plan on how NSF will lead the research community in meeting 
these new bold challenges. The Board is ideally suited for this 
responsibility and I believe strongly that it is a core activity of the 
Board's mission.
    One of the specific areas that the Board should examine is the 
future of our Nation's math and science education. In this budget 
request, the administration has frankly made some disturbing cuts to 
NSF's education portfolio, especially to those programs serving K-12 
education. Every major assessment of math and science has shown how far 
our country's students have fallen behind the rest of the world in math 
and science proficiency. In one recent study, our 8th grade students 
were outperformed by eight countries in science and by 14 countries in 
math including Latvia and Malaysia. That is simply unacceptable. We 
must obviously address this problem before it is too late.
    Our scientific education and research system must also ensure that 
no one is left behind. I am pleased that NSF's budget recognizes the 
importance of broadening the participation of its programs to under-
represented groups such as minorities, women, and people with 
disabilities. Nevertheless, while OMB did not continue its routine 
practice of the past in cutting these types of programs, flat-funding 
them in this budget request is still disappointing.
    Moreover, flat-funding programs that support under-represented 
groups is hurting our ability to address a growing national crisis 
where there is a shortage of new homegrown scientists and engineers. We 
are not attracting enough young students, especially minorities, into 
these disciplines. We cannot continue to rely on using foreign students 
to stay in the United States and fill the gap created by retiring 
engineers and scientists.
    In addition to the education programs, I have a strong interest in 
nanotechnology. The budget request provides NSF with $344 million for 
this important program. There is a tremendous amount of excitement 
about nanotechnology because of its far-reaching benefits from 
computers to manufacturing processes to agriculture to medicine.
    As everyone knows, I am a big supporter of plant biotechnology 
because it has generated exciting possibilities for improving human 
health and nutrition. The impressive research being done with plant 
genomics can eventually be a very powerful tool of addressing hunger in 
many developing countries such as those in Africa and Southeast Asia. I 
am pleased by the recent progress on sequencing the maize genome led by 
researchers at the Donald Danforth Plant Science Center and the 
collaboration between the University of Missouri-Columbia and Nepal on 
oilseeds from soybeans. I thank Dr. Clutter for her work on these 
efforts and look forward to hearing more about it from her.
    In addition to my concerns about funding, I address one particular 
area of concern. Specifically, I remain troubled by the Foundation's 
continuing deficiencies in managing and overseeing its large research 
facility projects. Without going into detail, the Inspector General's 
statement for the record indicates that NSF's progress in addressing 
its large facility management problems has been slow. I understand that 
you, Dr. Bement, have taken these issues more seriously than your 
predecessor but I need your firm commitment that you will immediately 
implement the IG and National Academy of Sciences' recommendations to 
correct these problems. I also believe that the Board should get more 
heavily involved in this matter. Lastly, the Board and the Foundation 
must finalize the priority-setting process guidelines for large 
research facilities. I do not want to hear any more excuses. This is 
not rocket science.
    I look forward to hearing the testimony of all the witnesses today 
and I now turn to my colleague and ranking member, Senator Mikulski, 
for her statement.

    Senator Mikulski. Good morning, everybody. Senator Bond, it 
is the vagaries of traffic coming in from Baltimore.
    Why do we not go to our witnesses and then when I go to my 
questions, I will give my opening statement. It gives me a 
chance to kind of regroup.

                STATEMENT OF DR. JOHN H. MARBURGER, III

    Senator Bond. Dr. Marburger.
    Dr. Marburger. Thank you, Chairman Bond and Ranking Member 
Mikulski, members of the subcommittee. I am happy to appear 
before you once again to discuss the President's R&D budget for 
the fiscal year 2006 and I would like to thank you, Mr. 
Chairman, for your strong words of support for basic research 
and for research at NSF. We agree completely about the 
importance of science done by this agency. It is central to the 
scientific enterprise and a major funder of research in 
universities.
    As you know, despite the exceptional pressures on this 
budget, it does propose an increase in Federal R&D funds. The 
budget does maintain a strong focus on winning the war against 
terrorism while moderating the growth in overall spending, and 
this focus is reflected in the proposed R&D investments. The 
administration has made difficult choices and maintains 
strength in priority areas such as nanotechnology, information 
technology, and so forth. Furthermore, while overall non-
security discretionary spending is reduced by 1 percent, non-
security R&D is not correspondingly diminished. The fiscal year 
2006 proposal preserves the substantial increases made with 
your support during the first term of this administration, and 
my written testimony summarizes the extraordinary growth of R&D 
funding during the past 4 years.

                             BUDGET REQUEST

    This budget requests $132.3 billion for Federal R&D, an 
increase of $733 million over the current year's 2005 R&D 
budget, which is a record. The budget allocates 13.6 percent of 
the total discretionary outlays to R&D which is the highest 
level in 37 years. Non-defense R&D accounts for 5.6 percent of 
the total discretionary outlays, an amount significantly 
greater than the 5 percent average over the last three decades.
    So in my oral testimony, I am going to focus first on the 
OSTP budget, which is appropriated by this subcommittee, and 
then mention just very brief highlights on agency budgets 
within the jurisdiction of this subcommittee. And then Dr. 
Bement and Dr. Washington have much more detail about the 
budget of the National Science Foundation.
    So first, OSTP. As you know, OSTP has primary 
responsibility in the White House for prioritizing and 
recommending Federal R&D, as well as for coordinating 
interagency research initiatives. The fiscal year 2006 request 
for my office is $5,564,000, which represents a net decrease of 
about 12 percent below the 2005 enacted level. The major 
contributing factor for this reduction is that more than 
$650,000 previously required to cover our costs of after-hour 
utilities and space rental is now requested by the Office of 
Administration within the Executive Office of the President's 
budget as part of its effort to administer centrally common 
enterprise services. So this explains a major shift in how the 
budget is put together.
    The 2006 estimate reflects our continuing commitment to 
operate more efficiently and cost effectively without 
compromising the essential elements of a high-caliber science 
and technology agency, which is to say high-quality personnel. 
We continue to reduce funding in many object classes, non-
personnel classes, such as equipment and transportation of 
things rather than people, to meet our operating priorities. 
And we will continue to provide high quality support to the 
President and information to Congress, as well as to fulfill 
significant national homeland security and emergency 
preparedness responsibilities.
    I will be glad to answer more questions about the OSTP 
budget, if there are any, but let me briefly summarize just in 
one bullet each, the budgets for the three agencies of this 
committee.
    First, as you noted, NSF's budget would increase by 2.4 
percent to $5.6 billion in fiscal year 2006. This is, as you 
noted, an extremely important centerpiece for the Nation's 
science budget.

             NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

    The request for NASA is $16.46 billion which is also a 2.4 
percent increase from 2005, which does reflect a strong 
commitment by the administration to the missions of this 
agency. This budget request also makes some hard decisions, Mr. 
Chairman, trading off some projects with high technical risks 
to maintain others with high scientific value.

                    ENVIRONMENTAL PROTECTION AGENCY

    In EPA, the science and technology request is $792 million, 
which is a 2 percent increase over the previous year enacted, 
even before removing $70 million in earmarks.
    We have a number of interagency initiatives which my office 
has responsibility for coordinating. With President Bush's 2006 
budget request of $2.2 billion for the Network and Information 
Technology R&D initiative, the investment in this area over 5 
years will total more than $10.4 billion.
    The National Nanotechnology initiative, which you expressed 
interest in and have supported strongly, President Bush's 2006 
budget provides over $1 billion for this multi-agency program, 
bringing the total investment under this program to $4.7 
billion.
    We continue to support climate change, approximately $1.9 
billion, and with this request the administration will have 
invested more than $9 billion over 5 five years to improve our 
understanding of the global climate system.
    The hydrogen fuel initiative has a budget request of $260 
million, which is an increase of 16 percent from 2005 enacted. 
This initiative remains on track to meet President Bush's 5-
year $1.2 billion commitment to hydrogen research and 
development announced in his State of the Union address in 
2003.
    And in homeland security, the Science and Technology 
Directorate funding is to increase from $1.1 billion to $1.4 
billion. The R&D there is focused on countering chemical, 
biological, radiological, nuclear, and other catastrophic 
threats.

                           PREPARED STATEMENT

    So, Mr. Chairman and members of the subcommittee, America's 
science and technology capabilities are the envy of the world. 
I believe the President's fiscal year 2006 budget proposal 
maintains and selectively strengthens these capabilities in 
areas that are important to the Nation's national, homeland, 
and economic security. And I would be pleased to answer 
questions about these or other aspects of the budget. Thank 
you.
    [The statement follows:]

            Prepared Statement of Dr. John H. Marburger, III

    Chairman Bond, Ranking Minority Member Mikulski, and members of the 
subcommittee, I am pleased to appear before you once again to discuss 
the President's research and development (R&D) budget. As I have said 
many times before, I greatly appreciate the effective working 
relationship between our office and your committee, which I believe has 
resulted in good outcomes for the Nation's science and technology 
enterprise.
    The budget this year is subject to considerable pressure, as you 
know, and the President is committed to cutting the budget deficit in 
half by 2009. These factors make this year's budget proposal the 
tightest in nearly two decades.
    Despite these pressures, Federal R&D funds will increase in the 
President's Fiscal Year 2006 Budget. The budget maintains a strong 
focus on winning the war against terrorism, while moderating the growth 
in overall spending, and this focus is reflected in the proposed R&D 
investments. The administration has also maintained high levels of 
support for priority areas such as nanotechnology, information 
technology, the hydrogen initiative, and space exploration. 
Furthermore, while overall ``non-security'' discretionary spending is 
reduced by 1 percent, ``non-security'' R&D is not correspondingly 
diminished. The fiscal year 2006 proposal preserves the substantial 
increases made--with your support--during the first term of this 
administration. This treatment of R&D is consistent with the 
President's commitment to science and technology and the vital role 
they play in meeting the Nation's goals for national and economic 
security and the quality of life.
    Comparing R&D investments in this administration with investments 
in other top national priorities demonstrates this commitment: from 
fiscal year 2001 to this fiscal year 2006 proposal, Federal spending on 
Department of Homeland Security (DHS) activities will have increased 83 
percent; Department of Education programs are up 40 percent; and 
Department of Defense spending is up 37 percent. At the same time total 
Federal investment in R&D will have increased 45 percent. The 
percentage increase in R&D has been second only to the increase in the 
Department of Homeland Security during President Bush's first 5 budget 
years.
    This historic increase in R&D has not been confined to a single 
agency or field of science. It does include a significant investment in 
defense R&D, whose value to the Nation's technical enterprise extends 
well beyond the defense establishment. Defense R&D funds significant 
university and private sector research, supports a large number of 
scientists, engineers and technical experts, and is instrumental in 
training and recruiting the next generation of technical talent for the 
Nation. Non-defense R&D, however, has also benefited from similar large 
increases during the past 5 years.
    I am emphasizing these historical data to provide a context for 
this year's request. Within a pattern of overall budget constraint, 
funds are provided that we believe are appropriate to maintain and 
refine the large program increases of previous years. Within the 
pattern of detailed agency budgets, priorities have been established 
and choices made that preserve the Nation's investment in the 
critically important assets of science and technology.

              THE PRESIDENT'S FISCAL YEAR 2006 R&D BUDGET

    The President's Fiscal Year 2006 Budget requests $132.3 billion in 
Federal Research and Development funds, an increase of $733 million 
over this year's (2005) record R&D budget. The Budget allocates 13.6 
percent of total discretionary outlays to R&D--the highest level in 37 
years. Non-defense R&D accounts for 5.6 percent of total discretionary 
outlays, an amount significantly greater than the 5.0 percent average 
over the past three decades.
    While non-defense discretionary program budget authority is reduced 
by 0.26 percent in this proposal, non-defense R&D funds are increased 
by 0.74 percent. The category of Basic Research is maintained near its 
historically high level at $26.6 billion in fiscal year 2006, slightly 
down from $26.9 billion in fiscal year 2005.
    The fiscal year 2006 request for the ``Federal Science and 
Technology'' (FS&T) budget, (a focus more on basic research, as 
recommended by the National Academy of Sciences to) is $61 billion, or 
a 1 percent reduction from the fiscal year 2005 enacted level. However, 
this reduction is entirely attributable to the removal of earmarks, 
most notably in the Department of Defense (over $1 billion) and the 
Department of Agriculture (approximately $340 million). The President's 
Fiscal Year 2006 Budget request does not continue fiscal year 2005 
earmarks beyond fiscal year 2005, instead increasing programs of 
priority to research agencies. Earmarks are not consistent with using 
funds most efficiently to target agency missions or to support the best 
research. The administration strongly supports awarding research funds 
based on merit review through a competitive process, and we are 
prepared to work with Congress to achieve consistency in Legislative 
and Executive priorities to fund the best scientific research possible.
    Not all programs can or should receive equal priority, and this 
budget reflects priority choices consistent with recommendations from 
numerous expert sources. In particular, this budget is informed by 
recommendations from the President's Council of Advisors on Science and 
Technology (PCAST), and reflects an extensive process of consultation 
among the Federal agencies, the Office of Management and Budget (OMB), 
and the Office of Science and Technology Policy (OSTP).
    As in previous years this R&D budget highlights collaborations 
among multiple Federal agencies working together on broad themes. I 
will describe some individual agency highlights, followed by the five 
multi-agency R&D priorities highlighted in the President's Fiscal Year 
2006 Budget: Networking and Information Technology R&D; National 
Nanotechnology Initiative; Climate Change R&D; Hydrogen Fuel 
Initiative; and Homeland Security R&D.

                        AGENCY BUDGET HIGHLIGHTS

Office of Science and Technology Policy (OSTP)
    The Office of Science and Technology Policy, which I lead, has 
primary responsibility in the White House for prioritizing and 
recommending Federal R&D, as well as for coordinating interagency 
research initiatives. The fiscal year 2006 request for OSTP is 
$5,564,000, which represents a net decrease of $764,000, or 12.1 
percent, below the fiscal year 2005 enacted level. The major 
contributing factor for this reduction is that $653,000, previously 
required to cover OSTP's cost of after-hour utilities and space rental, 
is now requested by the Office of Administration, within the Executive 
Office of the President, as part of its effort to centrally administer 
common enterprise services.
    The estimate for fiscal year 2006 reflects OSTP's continuing 
commitment to operate more efficiently and cost-effectively without 
compromising the essential element of a top-caliber science and 
technology agency--high quality personnel. OSTP continues to reduce 
funding in many object classes, such as equipment and transportation of 
things, to meet operating priorities. OSTP will continue to provide 
high quality support to the President and information to Congress, as 
well as to fulfill significant national and homeland security and 
emergency preparedness responsibilities.

National Science Foundation (NSF)
    Funds are requested to increase the budget for NSF by 2.4 percent 
to $5.6 billion in fiscal year 2006, 26 percent above 2001's $4.4 
billion level. Similar investments in the past have yielded important 
scientific discoveries, which boost economic growth and enhance 
Americans' quality of life.
    NSF leads two administration priority research areas that promise 
to strengthen the Nation's economy: the National Nanotechnology 
Initiative (NNI) and the Networking and Information Technology R&D 
program (NITRD). NSF-funded nanotechnology research, proposed at $344 
million in fiscal year 2006, a 1.6 percent increase over 2005 and 129 
percent since 2001, has advanced our understanding of materials at the 
molecular level and has provided insights into how innovative 
mechanisms and tools can be built atom by atom. This emerging field 
holds promise for a broad range of developing technologies, including 
higher-performance materials, more efficient manufacturing processes, 
higher-capacity computer storage, and microscopic biomedical 
instruments and mechanisms. NSF's investments in NITRD, funded at $803 
million in 2006, a 1 percent increase over 2005 and 26 percent since 
2001, support all major areas of basic information technology (IT) 
research. NSF also incorporates IT advances into its scientific and 
engineering applications, supports using computing and networking 
infrastructure for research, and contributes to IT-related education 
for scientists, engineers, and the IT workforce.
    Growing concerns about the vulnerability of computers, networks and 
information systems have prompted increased NSF investments in cyber 
security research, education and training. The Fiscal Year 2006 Budget 
provides $94 million for these activities.
    Every research discipline in the agency is increased between 1 to 
3.5 percent, allowing the grant funding rate to be restored to 21 
percent (from 20 percent in 2005). Funding is provided for the five 
Major Research Equipment (MRE) projects already approved (Atacama Large 
Millimeter Array, EarthScope, the IceCube Neutrino Observatory, the 
Rare Symmetry Violating Processes (RSVP) installation, the National 
Ecological Observatory Network (NEON), and the Scientific Ocean 
Drilling Vessel).
    In order to most effectively and efficiently support the Nation's 
polar research activities in Antarctica, funding for three polar 
icebreakers is being transferred from the U.S. Coast Guard to NSF ($48 
million). In the future, this will permit NSF to define the options for 
refurbishment or replacement of two of the ships, as well as 
operational options for the third (Arctic) icebreaker.
    The Fiscal Year 2006 Budget will continue NSF's efforts to prepare 
U.S. students for the science and engineering workforce, with funds for 
4,600 graduate research fellowships and traineeships. NSF provides 
annual stipends in these programs of $30,000, which is significantly 
higher than the average stipend of $18,000 in 2001.
National Aeronautics and Space Administration (NASA)
    During the year since the President outlined a bold vision for 
sustained and affordable human and robotic exploration of space, NASA 
has restructured its organization and reprioritized its programs. The 
current human spaceflight programs, Shuttle and International Space 
Station, are focusing research and technology development on enabling 
the vision, while requirements are being established for the next 
generation of space transportation. An exciting array of space science 
missions are being planned that will enhance our understanding of the 
solar system, including interactions between the Earth and the space 
environment, and building observatories that will peer further into the 
cosmos to understand the origin of the universe, its structure, 
evolution and destiny.
    The President's Fiscal Year 2006 Budget request for NASA is $16.456 
billion, a 2.4 percent increase from 2005, reflecting a strong 
commitment by the administration to pursue the exploration vision. The 
Fiscal Year 2006 Budget request also makes some hard decisions, 
canceling some projects with high technical risk and others whose cost 
estimates would have led to the certain cancellation and delay of 
several other important programs. The budget request maintains NASA's 
focus on exploration and science while strengthening the long-term 
foundation for continued success.
    The budget requests about $3.2 billion in fiscal year 2006 for new 
vehicles and technologies to enable sustained human and advanced 
robotic exploration far from Earth. NASA has identified the major 
requirements for a Crew Exploration Vehicle that will carry astronauts 
to the Moon. NASA plans to perform risk reduction tests in 2008 and 
stage its first crewed flight by 2014. NASA will also continue pursuing 
nuclear technologies for space applications, optical communications for 
high data rate connectivity to space probes, radiation shielding, and 
other advanced technologies to support the exploration vision. In 
addition, NASA is pursuing innovative means to engage private industry 
including offering space prizes to spur innovation.
    The budget requests approximately $5.5 billion in fiscal year 2006 
to continue advancing our scientific understanding of the Sun, Earth, 
and planets and to inform decisions regarding appropriate human 
exploration missions. NASA will also build on its legacy of 
revolutionizing astronomy by continuing current operations of space 
telescopes such as Hubble, Chandra, and Spitzer while planning for the 
next generation of spacecraft that will enhance our ability to find 
planets around other stars, peer deep into the history of the universe, 
and improve our understanding of its structure.
    The Fiscal Year 2006 Budget continues to fund critical investments 
in Earth science satellites, technologies, and research. NASA will 
continue to play a major part in the interagency Climate Change Science 
Research Program, and contribute to the international initiative on the 
Global Earth Observing System of Systems.
    The budget requests approximately $6.4 billion in fiscal year 2006 
for operating the Space Shuttle and continuing assembly and operations 
of the International Space Station. NASA is examining configurations 
that meet the needs of both the new space exploration vision and our 
international partners using as few Shuttle flights as possible to 
enable Shuttle retirement by 2010, following completion of its role in 
ISS assembly. In concert with the new vision, NASA will refocus U.S. 
Space Station research on activities that prepare human explorers to 
travel beyond low Earth orbit, such as developing countermeasures 
against space radiation and understanding long-term physiological 
effects of reduced gravity.
    As the United States implements the Vision for U.S. Space 
Exploration, the administration recognizes the value of effective 
cooperation with Russia to further our space exploration goals. At the 
same time, we have to appropriately reflect U.S. nonproliferation 
policy and objectives in our relationship with Russia. The 
administration is thus interested in seeking a balanced approach that 
continues to protect our nonproliferation goals while advancing 
potential U.S. cooperation with Russia on the Vision for U.S. Space 
Exploration. Such a balanced approach must include the Iran 
Nonproliferation Act of 2000 (INA), which currently complicates 
cooperation with Russia on the International Space Station (ISS), and 
will also have an adverse impact on cooperation with Russia on our 
future space exploration efforts related to human space flight. To that 
end, the administration looks forward to working with Congress to 
ensure that the Vision for U.S. Space Exploration is able to succeed 
while remaining fully consistent with broader U.S. national security 
and nonproliferation goals.

Environmental Protection Agency (EPA)
    The fiscal year 2006 request for science and technology funding at 
EPA is $792 million, a 2 percent increase over fiscal year 2005, even 
before removing $70 million in earmarks. This investment supports core 
Agency programs and strengthens the application of science to EPA 
regulatory actions and other programs.
    The administration is directing $20 million of S&T funding to a new 
pilot program within EPA that the program offices (e.g., Water, Office 
of Solid Waste and Emergency Response, Air) would then use to fund 
applied research in the Office of Research and Development (ORD). This 
is intended to improve the use of ORD (to avoid duplicative program 
efforts), coordination between the program offices and ORD, and 
responsiveness and accountability. This program contributes to the 
overall increase in S&T funding.
    Seventy-nine million dollars in new funding will support homeland 
security projects and research at EPA related to water security 
monitoring and surveillance, post-incident building and environmental 
decontamination, and Environmental Laboratory Preparedness and 
Response.
    The Fiscal Year 2006 Budget requests approximately $65 million for 
the Science to Achieve Results (STAR) program, which includes a 
decrease in exploratory research grants. Given the overall tightness of 
EPA's budget (-6 percent from 2005 enacted), and the need to fund core 
programmatic needs, STAR grants, which cannot focus on EPA program 
needs, were reduced.

Department of Veterans Affairs (VA)
    The Fiscal Year 2006 Budget requests that over three quarters of a 
billion dollars ($786 million) be directly appropriated to VA for 
medical and prosthetic R&D, an 11 percent increase since fiscal year 
2001. Another $866 million is anticipated to be provided from other 
government agencies and private entities to support VA-conducted 
research, bringing total VA R&D program resources to $1.7 billion, 3 
percent more than fiscal year 2005.
    The proposed VA R&D budget provides for a comprehensive intramural 
research program to acquire veteran-specific medical knowledge and 
create targeted innovations that address the special health care needs 
of the Nation's veterans. This includes biomedical disease research, 
disability rehabilitation R&D, development of best practices for more 
effective and efficient health care delivery, clinical pharmacological 
and surgical studies in veterans, and indirect costs. The research is 
focused on trauma-related illness, sensory loss, military occupational 
effects, environmental exposures, mental illness, substance abuse, 
chronic disease and aging.

                          PRIORITY INITIATIVES

    The 2006 budget highlights priority interagency initiatives 
described briefly below. These initiatives are coordinated through the 
National Science and Technology Council (NSTC) for which my office has 
responsibility for day-to-day operations. The Council prepares research 
and development strategies that cross agency boundaries to form a 
consolidated and coordinated investment package.
    Networking and Information Technology R&D.--With President Bush's 
Fiscal Year 2006 Budget request of $2.2 billion for the Networking and 
Information Technology R&D (NITRD) program, the investment in this area 
over 5 years will total more than $10.4 billion. Research in networking 
and information technologies underpins advances in virtually every 
other area of science and technology and provides new capacity for 
economic productivity. Through active coordination, NITRD agencies 
mutually leverage resources to make broader advances in networking and 
information technology than any single agency could attain.
  --NSF continues to provide the largest share of Federal NITRD 
        funding, reflecting the Foundation's broad mission as well as 
        its leadership role in coordinating NITRD activities. The 
        fiscal year 2006 request for NSF is $803 million, an $8 million 
        increase from the 2005 estimate.
  --High-end computing continues to be a major focus within the NITRD 
        program. In fiscal year 2004, the interagency High End 
        Computing Revitalization Task Force (HECRTF) produced the 
        Federal Plan for High-End Computing, which describes a roadmap 
        for progress in core technologies for high-end computing, 
        mechanisms for improving access to high-end computing 
        resources, and strategies for improving Federal procurement and 
        coordination of high-end systems. The Fiscal Year 2006 Budget 
        reflects the continuation of NITRD activities that are 
        consistent with recommendations described in the Federal Plan, 
        such as investments in new high-end systems by NASA and DOE's 
        Office of Science.
  --NASA continues to emphasize high-end computing within its NITRD 
        portfolio through the recently-completed acquisition of the 
        Project Columbia supercomputer, a portion of which NASA plans 
        to make available to other Federal users. Following completion 
        of the acquisition of Columbia, NASA's expenditure in high-end 
        computing is normalizing at a lower level.
  --The Department of Energy's (DOE's) Office of Science has also 
        committed to operate their new Leadership Class Computing 
        facility at the Oak Ridge National Laboratory as a national 
        user facility. DOE's fiscal year 2006 request of $25 million 
        for the Leadership facility brings that Federal investment to 
        $100 million.
    National Nanotechnology Initiative.--President Bush's Fiscal Year 
2006 Budget provides over $1 billion for the multi-agency National 
Nanotechnology Initiative (NNI), bringing the total NNI investment 
under this administration to $4.7 billion. This sustained investment 
will advance our understanding of the unique phenomena and processes 
that occur at the nanometer scale and expedite the responsible use of 
this knowledge to achieve advances in medicine, manufacturing, high-
performance materials, information technology, and energy and 
environmental technologies.
  --The largest investments continue to be made by NSF where the fiscal 
        year 2006 NSF request is $344 million, an increase of $6 
        million over the 2005 estimate.
  --DOE contribution to the initiative ramps up dramatically with 
        commencement of operations in four of its five new major 
        Nanoscale Science Research Centers located across the country. 
        The Centers will provide research equipment and infrastructure 
        that will be broadly available to researchers from across the 
        scientific research community. Construction completion keeps 
        total DOE NNI spending flat in fiscal year 2006, but a portion 
        of construction roll-off funds are made available for 
        operational support.
  --The fiscal year 2006 request of $147 million by the Department of 
        Health and Human Services (HHS) includes programs at the 
        National Institutes of Health (NIH) emphasizing nanotechnology-
        based biomedical advances occurring at the intersection of 
        biology and the physical sciences, such as the National Cancer 
        Institute's Alliance for Nanotechnology in Cancer, and at the 
        National Institute of Occupational Safety and Health (NIOSH) 
        that address implications and applications of nanotechnology 
        for health and safety in the workplace.
  --With the addition of NIOSH, 11 Federal agencies currently fund 
        nanotechnology research and development under the NNI, and 
        another 11 participate in coordination. Agencies that have 
        joined the NNI as participants over the past year include the 
        U.S. Patent and Trademark Office and the Consumer Product 
        Safety Commission, indicating the increasing importance of 
        commercialization activities.
    Climate Change Research and Development.--The Fiscal Year 2006 
Budget continues strong support for the Climate Change Science Program 
(CCSP) and the Climate Change Technology Program (CCTP).
  --The CCSP budget continues to support the goals outlined in the CCSP 
        Strategic Plan, which was released in July 2003. Beginning in 
        fiscal year 2006, CCSP will formally track the expected 
        actions, deliverables, and milestones for each of its programs 
        in order to assess overall performance.
  --The Fiscal Year 2006 Budget proposes approximately $1.9 billion to 
        fund CCSP, virtually the same as 2005 despite reductions in 
        NASA (-$102 million) due to re-prioritization of programs. With 
        this request, the administration will have invested more than 
        $9 billion over 5 years to improve our understanding of the 
        global climate system.
  --The Fiscal Year 2006 Budget provides approximately $2.9 billion for 
        the U.S. Climate Change Technology Program (CCTP), which 
        supports research, development, deployment, and voluntary 
        programs to reduce greenhouse gas emissions via renewable 
        energy, fossil energy and nuclear energy, efficiency 
        improvements, and carbon sequestration.
  --In 2005, the CCTP will publish a draft Strategic Plan and solicit 
        comments from the scientific community and the public. The CCTP 
        will also identify within its portfolio a subset of National 
        Climate Change Technology Initiative (NCCTI) priority 
        activities.
    Hydrogen Fuel Initiative.--The Hydrogen Fuel Initiative (HFI) seeks 
to develop new science and technology to support a major shift toward 
the use of hydrogen as an energy medium, particularly for 
transportation. The Fiscal Year 2006 Budget for HFI is $260 million, 
$35 million (16 percent) greater than the fiscal year 2005 level. The 
Initiative remains on track to meet President Bush's 5-year, $1.2 
billion commitment to hydrogen research and development announced in 
his 2003 State of the Union address. Some highlights include:
  --$20 million, an $11 million (122 percent) increase over fiscal year 
        2005, will fund the Nuclear Hydrogen Initiative. This 
        initiative will conduct the R&D on enabling technologies, 
        demonstrate nuclear-based hydrogen production technologies, and 
        study potential hydrogen production schemes to support the 
        President's vision for a future Hydrogen economy.
  --$33 million for fundamental research within DOE's Office of 
        Science. This research seeks to overcome key technical hurdles 
        in hydrogen production, storage, and conversion, by seeking 
        revolutionary breakthroughs in areas such as non-precious-metal 
        catalysts, high-temperature membrane materials, multifunctional 
        nanoscale structures, biological and photoelectrochemical 
        hydrogen production, and precision manufacturing processes.
  --Congressional earmarking is slowing progress on HFI, however, and 
        may jeopardize the ability of the administration to achieve its 
        goal of a 2015 decision by industry to commercialize fuel cell 
        vehicles and infrastructure. In 2005, DOE's Hydrogen Technology 
        Program, a key component of HFI, received 17 earmarks totaling 
        $37 million, about 40 percent of the program's funding.
    Homeland Security.--Technology continues to help secure our Nation 
against terrorism. Research and development over the past 3 years in 
detectors against weapons of mass destruction (WMD) threat agents, 
medical countermeasures to improve public health preparedness and to 
protect our Nation's food and livestock, and advances in protecting the 
First Responders are moving from laboratory to operational use. The 
President's Fiscal Year 2006 Budget continues an aggressive investment 
in research, development, and the research infrastructure so as to 
further enhance our Nation's security. Priority research areas include:
  --$227 million to fund the creation of a Domestic Nuclear Defense 
        Office (DNDO) in DHS, whose responsibility will be to develop a 
        comprehensive system to detect and mitigate any attempt to 
        import or transport a nuclear explosive device, fissile 
        material or radiological material intended for illicit use 
        within the United States.
  --$1.8 billion to the HHS to fund research and development of 
        countermeasures against biological, chemical and radiological 
        threat agents.
  --$596 million is allocated for the U.S. Department of Agriculture, 
        HHS and DHS to improve food and agriculture defense. This 
        includes funding for research on exotic and emerging diseases 
        of plants and animals and to prevent and detect food 
        contamination, expanding and improving laboratory facilities, 
        and enhancing disease monitoring, surveillance and vaccine 
        storage.
  --$94 million will fund new and ongoing research at EPA related to 
        their role in water security and post-incident decontamination. 
        Systems for monitoring and surveillance of terrorist threat 
        agents in drinking water will be piloted in several U.S. 
        cities. Decontamination capabilities will be strengthened by 
        testing new cleaning methods, systems and antimicrobial 
        products for buildings and outdoor areas and by conducting risk 
        assessment work to support decontamination/revision of cleanup 
        guidance goals.

                  MANAGING THE FEDERAL RESEARCH BUDGET

    Consistent with the President's Management Agenda, the 
administration is improving the effectiveness of the Federal 
Government's investments in R&D by applying transparent investment 
criteria in analyses that inform recommendations for program funding 
and management. R&D performance assessment must be done carefully to 
avoid negatively impacting scientific productivity. Research often 
leads scientists and engineers down unpredictable pathways with 
unpredictable results. This characteristic of research requires special 
consideration when measuring an R&D program's performance against its 
initial goals.
    Elements of good R&D program management include establishing 
priorities with expected results, specifying criteria that programs or 
projects must meet to be started or continued, setting clear milestones 
for gauging progress, and identifying metrics for assessing results.
    The R&D Investment Criteria accommodate the very wide range of R&D 
activities, from basic research to development and demonstration 
programs, by addressing three fundamental aspects of R&D:
  --Relevance.--Programs must be able to articulate why they are 
        important, relevant, and appropriate for Federal investment;
  --Quality.--Programs must justify how funds will be allocated to 
        ensure quality; and
  --Performance.--Programs must be able to monitor and document how 
        well the investments are performing.
    R&D projects and programs relevant to industry are expected to meet 
criteria to determine the appropriateness of the public investment, 
enable comparisons of proposed and demonstrated benefits, and provide 
meaningful decision points for completing or transitioning the activity 
to the private sector.
    OSTP and OMB are continuing to assess the strengths and weaknesses 
of R&D programs across the Federal Government in order to identify and 
apply good R&D management practices throughout the government.

                               CONCLUSION

    Making choices is difficult even when budgets are generous. But 
tight budgets have the virtue of focusing on priorities and 
strengthening program management. This year's R&D budget proposal 
maintains levels of funding that allow America to maintain its 
leadership position in science and move ahead in selected priority 
areas. It is responsible in its treatment of security-related science 
and technology, and it rewards good planning and management.
    America currently spends one and a half times as much on Federally 
funded research and development as Europe does, and three times as much 
as Japan, the next highest investor in R&D. Our scientists collectively 
have the best laboratories in the world, the most extensive 
infrastructure supporting research, the greatest opportunities to 
pursue novel lines of investigation, and the most freedom to turn their 
discoveries into profitable ventures if they are inclined to do so.
    We lead not only in science, but also in translating science to 
economically significant products that enhance the quality of life for 
all people.
    This budget will sustain this leadership and maintain science and 
technology capabilities that are the envy of the world. I would be 
pleased to respond to questions.

    Senator Bond. Thank you very much, Dr. Marburger. Let me 
point out, in the interest of full disclosure, the 2.4 percent 
increase actually--part of it, $48 million, is attributed to 
transferring from the National Science Foundation funds to fund 
the icebreaking costs for operations in Antarctica. This has 
been in the budget, so the true increase for NSF is $84 
million, or only a 1.5 percent increase, and it is still 
significantly below the high-water mark for this budget in 
2004. It is $47 million short of where we were 2 years ago. 
Thank you very much, Dr. Marburger.
    Dr. Bement.

                      NATIONAL SCIENCE FOUNDATION

STATEMENT OF DR. ARDEN L. BEMENT, JR., DIRECTOR
    Dr. Bement. Thank you, Chairman Bond, Ranking Member 
Mikulski. It is a pleasure to appear before you today to 
discuss NSF's fiscal year 2006 budget request and to express my 
personal appreciation for the strong support you and your 
colleagues have shown for NSF over the years.

                             BUDGET REQUEST

    NSF's fiscal year 2006 budget request reflects the 
administration's support for our mission. In light of the tight 
fiscal climate, we have fared relatively well. For the coming 
fiscal year, NSF requests $5.6 billion, an increase of $132 
million, or 2.4 percent over last year's appropriation levels.
    The total funding for NSF research and related activities 
account in this request increases by $113 million, nearly 3 
percent, to $4.33 billion. As you pointed out, of this amount, 
$48 million is transferred to NSF from the Coast Guard for 
operation and maintenance expenses related to icebreaking in 
the Antarctic. We are working with the Coast Guard to explore 
options for funding icebreaker services in support of science 
within available NSF resources.
    Maintaining strong and robust research programs in support 
of individual investigators and small groups of researchers is 
at the core of NSF's mission. In many scientific disciplines, 
NSF is a major source for Federal funding to academic 
institutions. One goal in this year's request is to strengthen 
our research support across all areas in our portfolio.
    Research, however, is only part of the NSF equation. Our 
mission includes education as well. In our request, we will 
maintain a total investment of almost $400 million for programs 
with a proven track record in broadening the participation of 
under-represented groups in the science and engineering arena. 
The Louis Stokes Alliances for Minority Participation, the 
Centers for Research Excellence in Science and Technology, and 
the Robert Noyce Scholarship Program, the STEM Talent Extension 
Program, and EPSCoR, just to name a few, are protected from 
reductions in this request.
    Overall, the Education and Human Resources Directorate at 
NSF will be funded at $737 million, down 12.4 percent from last 
year. Although we have found it necessary to make cuts in these 
programs, we are also finding ways to leverage other resources 
in support of education. We will, for example, continue to 
encourage the types of partnerships between researchers and 
students in our R&RA portfolio that provides hands-on learning 
experiences.
    We are committed to ensuring that future generations gain 
the skills, knowledge, and insight that comes from working at 
the frontier of discovery. We will also maintain our strong 
working relationship with the Department of Education to 
implement best practices in their initiatives supporting math 
and science education.

         RESEARCH EQUIPMENT AND FACILITIES CONSTRUCTION ACCOUNT

    While there are no new starts in our major research 
equipment and facilities construction account, NSF is 
increasing funding in this account by $76 million, for a total 
of $250 million, to continue to fund ongoing projects.
    NSF directly supports roughly 200,000 scientists, 
educators, and students and processes over 40,000 proposals a 
year. Balancing the needs of a growing, increasingly complex 
portfolio with new requirements for security, e-business 
practices, accountability, and award oversight presents an 
ongoing challenge. In order to meet these management goals, NSF 
will increase funding for activities that advance 
organizational excellence by $46 million to a total of $336 
million. This increase will allow for the recruitment of 23 
additional full-time employees, enhancement of and security of 
our e-government systems and continuing the implementation of 
the business analysis recommendations that we have been working 
on during the past 3 years.

                          PREPARED STATEMENTS

    Mr. Chairman, I have only touched upon the variety and 
richness of the NSF portfolio. NSF research and education 
efforts contribute greatly to the Nation's innovation-driven 
economy and help keep America at the forefront of science and 
engineering. NSF-supported researchers produce leading-edge 
discoveries that serve society and spark the public's curiosity 
and interest. Extraordinary discoveries coming from dozens of 
NSF programs are enriching the entire science and engineering 
enterprise and making education fun, exciting, and achievement-
oriented.
    Thank you and I will be glad to answer any of your 
questions.
    Senator Bond. Thank you, Dr. Bement.
    [The statements follow:]

               Prepared Statement of Arden L. Bement, Jr.

    Chairman Bond, Ranking Member Mikulski, and members of the 
committee, thank you for this opportunity to discuss NSF's Fiscal Year 
2006 Budget Request. It is a pleasure to appear before you today. For 
over 50 years, NSF has been charged with being a strong steward of the 
scientific discovery and innovation that has been crucial to increasing 
America's economic strength, global competitiveness, national security, 
and overall quality of life.
    For many years, the United States economy has depended heavily on 
investments in research and development--and with good reason. 
America's sustained economic prosperity is based on technological 
innovation made possible, in large part, by fundamental science and 
engineering research. Innovation and technology are the engines of the 
American economy, and advances in science and engineering provide the 
fuel.
    Investments in science and technology--both public and private--
have driven economic growth and improved the quality of life in America 
for the last 200 years. They have generated new knowledge and new 
industries, created new jobs, ensured economic and national security, 
reduced pollution and increased energy efficiency, provided better and 
safer transportation, improved medical care, and increased living 
standards for the American people. Innovation and technology have 
become the engines of the American economy, and advances in science and 
engineering provide the fuel.
    Investments in research and development are among the highest-
payback investments a Nation can make. Over the past 50 years 
technological innovation has been responsible for as much as half of 
the Nation's growth in productivity.
    Sustaining this innovation requires an understanding of the factors 
that contribute to it. The Council on Competitiveness, a consortium of 
industry, university, and labor leaders, has developed quantitative 
measures of national competitiveness: the number of R&D personnel in 
the available workforce; total R&D investment; the percentage of R&D 
funded by private industry; the percentage of R&D performed by the 
university sector; spending on higher education; the strength of 
intellectual property protection, openness to international 
competition; and per capita gross domestic product. A similar set of 
indicators has been developed by the World Bank Group, and voluminous 
data have been compiled by NSF. The important point underscored by 
these indicators is that, for America to remain a prosperous and secure 
country, it must maintain its technological leadership in the world.
    Perhaps the Council on Competitiveness' 2004 National Innovation 
Initiative report captured it best by simply stating, ``Innovation has 
always been the way people solved the great challenges facing 
society.''
    Often times, the connection between an area of research, or even a 
particular scientific discovery, and an innovation may be far from 
obvious. Fundamental research in physics, mathematics and high-flux 
magnets supported by NSF led to the development of today's Magnetic 
Resonance Imaging (MRI) technology. Today, MRIs are used widely to 
detect cancer and internal tissue damage. Fundamental research on 
extremophiles, or microorganisms living in extreme environments, led to 
the polymerase chain reaction, a procedure paramount to modern 
biotechnology, as well as one that allows us to use DNA for forensic 
evidence. Continuing progress in basic science and engineering research 
promises more discoveries as well as further improvements in living 
standards and economic performance.
    And still, science and engineering is becoming an ever-larger 
portion of our Nation's productivity. In the early 1950's, Jacob 
Bronowski wrote, ``The world today is powered by science.'' I would 
take this premise one step farther, ``No science; no economic growth.'' 
Our current level of scientific and technological productivity is what 
keeps us ahead of our global competitors as the playing field continues 
to become more level.
    NSF has helped advance America's basic science and engineering 
enterprise for over 50 years. Despite its small size, NSF has an 
extraordinary impact on scientific and engineering knowledge and 
capacity. While NSF represents only 4 percent of the total Federal 
budget for research and development, it accounts for 50 percent of non-
life science basic research at academic institutions. In fact, NSF is 
the only Federal agency that supports all fields of science and 
engineering research and the educational programs that sustain them 
across generations. NSF's programs reach over 2,000 institutions across 
the Nation, and they involve roughly 200,000 researchers, teachers, and 
students.
    NSF specifically targets its investments in fundamental research at 
the frontiers of science and engineering. Here, advances push the 
boundaries of innovation, progress and productivity.
    Compared to other commodities, knowledge generated from basic 
science investments is unique, long lasting and leverages on itself. 
Knowledge can be shared, stored and distributed easily, and it does not 
diminish by use. Incremental advances in knowledge are synergistic over 
time. NSF is proud to have built the foundation for this knowledge base 
through decades of peer-reviewed, merit-based research.

                    FISCAL YEAR 2006 BUDGET REQUEST

    The Foundation's Fiscal Year 2006 Budget Request reflects the 
administration's confidence in our continuing with this mission. In 
light of the tight fiscal climate, NSF fared relatively well. For the 
coming fiscal year, NSF requests $5.6 billion, an increase of $132 
million, or 2.4 percent, over last year's appropriated levels.
    At a time when many agencies are looking at budget cuts, an 
increase in our budget underscores the administration's support of 
NSF's science and engineering programs, and reflects the agency's 
excellent management and program results.
    With the wealth of benefits that investments in science and 
engineering bring to the Nation, perhaps none is more powerful than the 
capability to respond quickly and effectively to challenges of all 
kinds. NSF's programs reach over 2,000 institutions across the Nation, 
and they involve researchers, teachers, and students in all fields of 
science and engineering and at all levels of education. They also keep 
us abreast of scientific advances throughout the world. This breadth of 
activity in and of itself creates a vital national resource, as it 
provides the Nation with a constantly invigorated base of knowledge, 
talent, and technology. For example, in areas ranging from terrorism 
threats to natural disasters, NSF's ongoing support of research in 
areas such as advanced information technologies, sensors, and 
earthquake engineering ensures a broad base of expertise and equipment 
that allows the science and engineering community to respond quickly in 
times of need and in partnership with scientists and engineers from 
other countries.
    Four funding priorities centering this year's request are designed 
to address current national challenges and strengthen NSF's core 
research investments. They include: (1) Strengthening core disciplinary 
research; (2) Providing broadly accessible cyberinfrastructure and 
world-class research facilities; (3) Broadening participation in the 
science and engineering workforce; and (4) Sustaining organizational 
excellence in NSF management practices.
    This year's investments will strengthen the core disciplines that 
empower every step of the process from discovery at the frontier to the 
development of products, processes, and technologies that fuel the 
economy. At the same time, NSF's investments will enable increasing 
connections and cross-fertilization among disciplines.
    NSF's focus on a clear set of priorities will help the Nation meet 
new challenges and take advantage of promising opportunities, while at 
the same time spurring the growth and prosperity needed to secure the 
Nation's long-term fiscal balance. The fiscal year 2006 budget will 
emphasize investments that address established interagency research 
priorities, meet critical needs identified by the science and 
engineering community, and advance the fundamental knowledge that 
strengthens the Nation's base of innovation and progress. NSF will 
respond to these challenges by supporting the best people, ideas, and 
tools in the science and engineering enterprise, and by employing the 
best practices in organizational excellence.

                RESEARCH AND RELATED ACTIVITIES ACCOUNT

    For fiscal year 2006, total funding for NSF's Research and Related 
Activities account increases by $113 million--nearly 3 percent--to 
$4.33 billion. This increase largely reflects NSF efforts to strengthen 
fundamental research in the core scientific disciplines as well as 
promote emerging areas of research. The fiscal year 2006 portfolio 
balances research in established disciplines with research in emerging 
areas of opportunity and cross-disciplinary projects. The most fertile 
opportunities sometimes lie in novel approaches or a collaborative mix 
of disciplines.
    Maintaining a strong and robust core is critical during such a 
budget climate as certain segments of the academic community rely 
heavily on NSF funding. In many scientific disciplines, NSF is a major 
source of Federal funding to academic institutions, including 
mathematics (77 percent), computer sciences (86 percent), the social 
sciences (49 percent), the environmental sciences (50 percent), 
engineering (45 percent) and the physical sciences (39 percent).
    Research, however, is only part of the NSF equation. Training the 
Nation's next generation of scientists and engineers is another key 
component of NSF's mission, and critical for maintaining economic 
prosperity and global competitiveness. Here, we are finding ways to 
leverage our resources. For example, as we strengthen our core 
disciplinary research programs, we will continue to encourage the types 
of partnerships between researchers and students that provide hands-on 
experience while ensuring that future generations gain the skills, 
knowledge and insight that come from working at the frontier of 
discovery.

   PROVIDING BROADLY ACCESSIBLE CYBERINFRASTRUCTURE AND WORLD-CLASS 
                          RESEARCH FACILITIES

    Twenty-first century researchers and the students who will bring 
new skills into the workforce rely on cutting edge tools. In fiscal 
year 2006, NSF is placing a high priority on investments in 
cyberinfrastructure and in unique, widely shared research equipment and 
facilities.
    An infrastructure of power grids, telephone systems, roads, bridges 
and rail lines buttressed this Nation's industrial economy and allowed 
it to prosper. However, cyberinfrastructure--a networked system of 
distributed computer information and communication technology--is the 
lynchpin of today's knowledge based economy. In fiscal year 2006, NSF 
cyberinfrastructure investments total $509 million, an increase of $36 
million (7.6 percent) over the fiscal year 2005 level.
    Modeling, simulation, visualization, data storage and communication 
are rapidly transforming all areas of research and education. NSF 
investments in cyberinfrastructure support a wide mix of projects and 
encourage participation from broad segments of the research community 
that rely on such technology as they tackle increasingly complex 
scientific questions. Thanks to cyberinfrastructure and information 
systems, today's scientific tool kit includes distributed systems of 
hardware, software, databases and expertise that can be accessed in 
person or remotely. In fact, programs such as Teragrid, a multi-year 
effort to create the world's largest distributed infrastructure for 
open scientific research, are specifically designed to transcend 
geographic boundaries and accelerate virtual collaborations.
    NSF is also increasing funding for the Major Research Equipment and 
Facilities Construction by $76 million or 44 percent, in fiscal year 
2006 for a total of $250 million. There are no new starts, but we will 
continue to fund ongoing projects. Work will proceed on five major 
facilities that will serve a spectrum of the science and engineering 
community. These include world-class astronomy, physics, and 
geosciences observatories identified as the highest priorities for 
advancing science and engineering.
  --The Atacama Large Millimeter Array (ALMA), in Chile, is a model of 
        international collaboration. It will be the world's largest, 
        most sensitive radio telescope.
  --The EarthScope facility is a multi-purpose array of instruments and 
        observatories that will greatly expand the observational 
        capabilities of the Earth Sciences and permit us to advance our 
        understanding of the structure, evolution and dynamics of the 
        North American continent.
  --Ice Cube, the world's first high-energy neutrino observatory will 
        be located under the ice at the South Pole.
  --RSVP, the Rare Symmetry Violating Processes Project will enable 
        cutting edge physics experiments to study fundamental 
        properties of nature. Studies will probe questions ranging from 
        the origins of our physical world to the nature of dark matter.
  --SODV, the Scientific Ocean Drilling Vessel, is a state-of-the-art 
        ship that will be a cornerstone of a new international 
        scientific ocean drilling program. Ocean core sediment and rock 
        collected by the vessel will help investigators explore the 
        planet's geological history and probe changes in the earth's 
        oceans and climate.
    Additionally, In fiscal year 2006, NSF will assume the 
responsibility, from the U.S. Coast Guard, for funding the costs of 
icebreakers that support scientific research in polar regions; $48 
million was transferred for those purposes.

                        BROADENING PARTICIPATION

    To feed our knowledge-based economy, the Nation needs to capitalize 
on all of its available talent to produce a workforce of skilled 
technologists, scientists and engineers. That means developing the 
largely untapped potential of those underrepresented in the science and 
engineering workforce--minorities, women and persons with disabilities. 
It also means supporting science education and training in all regions 
of the country--not just at large universities or in a handful of 
States.
    To achieve these goals, the Fiscal Year 2006 Request maintains a 
total investment of almost $400 million. Funding will be targeted to 
programs with a proven track record of progress in these areas. 
Included in this is $8 million in additional support from the research 
directorates that will supplement the Education and Human Resources 
Account to help achieve our goal of broadening science and engineering 
participation. Working closely with the directorates offers a dual 
benefit of providing educational opportunities and hands-on research 
experience to prepare students for the 21st century workforce.
    NSF will invest $396.5 million in a range of programs with proven 
track records. Several highly successful programs for broadening 
participation--the Louis Stokes Alliances for Minority Participation, 
the Alliances for Graduate Education and the Professoriate, the Centers 
for Research Excellence in Science and Technology (CREST), Robert Noyce 
Scholarship program, STEM Talent Expansion Program and EPSCoR--just to 
name a few, are secured in this request. Each of these serve as models 
for integrating educational and research resources to improve 
recruitment and retention in science and engineering to all sectors of 
our diverse population.

    SUSTAINING ORGANIZATIONAL EXCELLENCE IN NSF MANAGEMENT PRACTICES

    NSF directly supports over 210,000 scientists, educators and 
students and processes over 40,000 proposals a year. Balancing the 
needs of a growing, increasingly complex portfolio with new 
requirements for e-business practices, security, accountability, and 
award oversight presents a challenge. NSF sets high standards for its 
business practices and strives to create an agile, innovative 
organization through state-of-the-art business conduct and continual 
review. In order to meet these management goals, NSF will be increasing 
funding for activities that advance organizational excellence by $46 
million, to a total of $336 million. In addition to critically needed 
upgrades to our information technology infrastructure, this increase 
will allow for the recruitment of 25 full-time employees--23 for NSF 
and one each for the National Science Board and the Office of the 
Inspector General--which will improve our ability to manage our 
increasingly complex portfolio.
    Expanding our e-government systems and the implementing of our 
ongoing business analysis recommendations are high priorities for 
fiscal year 2006.
    Over the past 2 years, as part of the administration's Program 
Assessment Rating Tool, NSF has worked with OMB to rate eight of our 
investment categories. All of these areas have received the highest 
rating of Effective. As such, NSF programs fall within the top 15 
percent of 600 government programs evaluated to date.

                        CROSSCUTTING ACTIVITIES

    Beyond our budget priorities lie dozens of programs and initiatives 
that cut across NSF directorates and enrich the overall science and 
research enterprise. NSF sets priorities based on a continual dialogue 
and exchange of ideas with the research community, NSF management and 
staff and the National Science Board. Programs are initiated based on 
several criteria: intellectual merit, broader impacts of the research, 
balance across disciplines and synergy with research in other agencies. 
The Committee of Visitors process ensures a continuous evaluation of 
our merit review process and feedback on how NSF programs are 
performing. In fiscal year 2006, NSF will emphasize four crosscutting 
areas.
    Crosscutting Areas of Emerging Opportunity.--Over several years, 
NSF has funded exceptionally promising interdisciplinary efforts aimed 
at advancing our knowledge, addressing national needs, and probing the 
grand challenges of science. The fiscal year 2006 request supports the 
following priority areas: $84 million for Biocomplexity in the 
Environment, $243 million for Nanoscale Science and Engineering, $89 
million for the Mathematical Sciences Priority Area and $39 million for 
Human and Social Dynamics.
    International Collaborations.--Science and engineering research are 
increasingly global endeavors. International partnerships are critical 
to the United States in maintaining a competitive edge, capitalizing on 
global opportunities, and addressing global problems. The Office of 
International Science and Engineering's recent move to the director's 
office, and the budget request reflects this important trend. The 
fiscal year 2006 budget provides $35 million for NSF's Office of 
International Science and Engineering.
    The recent Indian Ocean Tsunami disaster represents the finest in 
international cooperation--and clearly demonstrates an international 
desire to develop scientific methods for natural disaster prediction 
and ways to reduce losses when such catastrophic events do inevitably 
occur. A network of more than 128 sensors--which NSF has a 20-year 
investment in--recorded shock waves from the recent earthquake as they 
traveled around the earth. This network is the primary international 
source of data for earthquake location and tsunami warning and its data 
forged the critical core of the early knowledge of this event. Within 
days of the disaster NSF research teams deployed to the region to 
gather critical data before it was lost to nature and reconstruction. 
Their work will help scientists and engineers better understand the 
warning signs of natural disasters, the design of safer coastal 
structures, the development of early warning and response systems, and 
effective steps for disaster recovery.
    Interagency Initiatives.--NSF will continue to play a lead role in 
interagency collaborations to address national needs and take advantage 
of economic growth opportunities. In fiscal year 2006, NSF investments 
in the National Nanotechnology Initiative increase by $6 million over 
fiscal year 2005 levels to total $344 million. NSF participation in the 
Networking Information Technology Research and Development initiative 
will increase to $803 million--$8 million over the fiscal year 2005 
level. The NSF contribution to the Climate Change Science Program 
decreases slightly to $197 million.
    Homeland Security Activities.--The Fiscal Year 2006 Request 
includes a $2 million increase for government-wide efforts in homeland 
security research and development. This $344 million investment will 
strengthen NSF's commitment to cybersecurity by supporting innovations 
to secure today's computer and networking systems, embed cybersecurity 
into future systems and preparing tomorrow's workforce with state-of-
the-art security skills.

                               CONCLUSION

    Mr. Chairman, I've only touched upon the variety and richness of 
the NSF portfolio. NSF research and education efforts contribute 
greatly to the Nation's innovation economy and help keep America at the 
forefront of science and engineering. At the same time, NSF supported 
researchers produce leading edge discoveries that serve society and 
spark the public's curiosity and interest. Extraordinary discoveries 
coming from dozens of NSF programs and initiatives are enriching the 
entire science and engineering enterprise, and making education fun, 
exciting and achievement-oriented. In fact, just this month, two of the 
most widely-read and emailed stories from the national press were the 
discoveries of NSF-supported researchers.
    In one, scientists using new bio-bar-code technology created a 
detection method for a protein implicated in Alzheimer's disease. It's 
the first test designed for use in living patients and holds promise 
for diagnosing Alzheimer's at an early stage. In the second 
development, scientists generated an entirely new classification system 
for the brains of birds based on recent studies showing that birds are 
much closer in cognitive ability to mammals than previously thought. 
The new scheme will affect thousands of scientists, and help merge 
research efforts on both birds and mammals. These two examples, fresh 
off the press, illustrate NSF's motto ``Where Discoveries Begin.''
    Mr. Chairman and members of the committee, I hope that this brief 
overview conveys to you the extent of NSF's commitment to advancing 
science and technology in the national interest. I am very aware and 
appreciative of the committee's long-standing bipartisan support for 
NSF. I look forward to working with you in months ahead, and would be 
happy to respond to any questions that you have.
                                 ______
                                 
Prepared Statement of Dr. Christine Boesz, Inspector General, National 
                           Science Foundation

    Chairman Bond, Senator Mikulski, and distinguished members of the 
subcommittee, I am Dr. Christine Boesz, Inspector General at the 
National Science Foundation (NSF). I once again appreciate the 
opportunity to present to you information as you consider NSF's fiscal 
year 2006 budget request. NSF's work over the past 55 years has had an 
extraordinary impact on scientific and engineering knowledge, laying 
the groundwork for technological advances that have shaped our society 
and fostered the progress needed to secure the Nation's future. 
Throughout, NSF has maintained a high level of innovation and 
dedication to American leadership in the discovery and development of 
new technologies across the frontiers of science and engineering.
    As you know, however, the nature of the scientific enterprise has 
changed over the past few decades. Consequently, the challenges facing 
NSF have changed. My office has and will continue to work closely with 
NSF management to identify and address issues that are important to the 
success of the National Science Board and NSF. I have now been the 
Inspector General of NSF for 5 years and am pleased to have the 
opportunity to work with both Dr. Washington and Dr. Bement, sharing in 
their vision of a truly successful organization. For the past 4 years, 
I have testified before this subcommittee on the issues that pose the 
greatest challenges for NSF management. This year, I will provide an 
update, from my perspective as Inspector General, on the progress being 
made at NSF to address the most critical of these challenges.

                          AWARD ADMINISTRATION

    In a given year, NSF spends roughly 90 percent of its appropriated 
funds on awards for research and education activities. Awarding and 
managing these grants, cooperative agreements, and contracts is NSF's 
primary business activity. While NSF has a system for administering its 
peer review and award disbursement responsibilities, it still lacks a 
comprehensive, risk-based program for monitoring its grants and 
cooperative agreements once the money has been awarded.
    In response to a reportable condition identified in the Independent 
Auditors Report for the past 4 years, the agency developed an Award 
Monitoring and Business Assistance Program Guide that includes post-
award monitoring policies and procedures, a systematic risk assessment 
process for classifying high-risk grantees, and various grantee 
analysis techniques. NSF also developed an annual grantee-monitoring 
plan, conducted site visits on selected high-risk grantees, and 
provided grant-monitoring training for its reviewers. In addition, 
during the past year, NSF realigned staff and resources to better 
address this challenge and contracted with a consultant to 
independently assess its post-award monitoring program.
    While these efforts represent positive steps toward an effective 
award-monitoring program, concerns remain about the limitations of the 
risk model in identifying all high-risk awards and the adequacy of site 
visit procedures and the necessary resources provided to the post-award 
monitoring program. In addition, a recent audit by my office further 
highlights the need for increased post-award monitoring. My auditors 
found that a significant number of both annual and final project 
reports required by the terms and conditions of NSF's grants and 
cooperative agreements were either submitted late or not at all. This 
was due in part because of a lack of emphasis placed on the importance 
of these reports, and because NSF staff do not have the time to 
adequately address this facet of award administration. In addition, my 
auditors found that contrary to its policy, NSF has continued to fund 
some principal investigators who have not yet submitted their final 
project reports.
    But I am encouraged by the results of NSF's consultant's 
independent assessment of the post-award monitoring program, which 
contained concerns similar to ours. The consultant's report identifies 
many opportunities for improvement and recommendations for positive 
change. Implementing a plan to address these opportunities for 
improvement would address many of our concerns and would be a 
significant step for NSF towards successfully meeting this challenge.

              MANAGEMENT OF LARGE INFRASTRUCTURE PROJECTS

    Throughout my 5-year tenure as Inspector General of NSF, we have 
considered management of large facility and infrastructure projects to 
be one of NSF's top management challenges.\1\ While this is certainly a 
subset of award administration, I continue to feel strongly that large 
facility management warrants independent attention. As you know, NSF 
has been increasing its investment in large infrastructure projects 
such as accelerators, telescopes, research vessels and aircraft, 
supercomputers, digital libraries, and earthquake simulators. Many of 
these projects are large in scale, require complex instrumentation, and 
involve partnerships with other Federal agencies, international science 
organizations, and foreign governments. Some, such as the construction 
of the new South Pole Station, present additional challenges because 
they are located in harsh and remote environments.
---------------------------------------------------------------------------
    \1\ Memorandum from Christine C. Boesz, Inspector General, National 
Science Foundation, to Warren Washington, Chairman, National Science 
Board, and Arden Bement, Acting Director, National Science Foundation 
(Oct. 15, 2004); Memorandum from Christine C. Boesz, Inspector General, 
National Science Foundation, to Warren Washington, Chairman, National 
Science Board, and Rita R. Colwell, Director, National Science 
Foundation (Oct. 17, 2003); Memorandum from Christine C. Boesz, 
Inspector General, National Science Foundation, to Warren Washington, 
Chairman, National Science Board, and Rita R. Colwell, Director, 
National Science Foundation (Dec. 23, 2002); Memorandum from Christine 
C. Boesz, Inspector General, National Science Foundation, to Eamon M. 
Kelly, Chairman, National Science Board, and Rita R. Colwell, Director, 
National Science Foundation (Jan. 30, 2002); Letter from Christine C. 
Boesz, Inspector General, National Science Foundation, to Senator Fred 
Thompson, Chairman, Senate Committee on Governmental Affairs (Nov. 30, 
2000).
---------------------------------------------------------------------------
    As I have testified in the past, the management of these awards is 
inherently different from the bulk of awards that NSF makes. While 
oversight of the construction and operations of these large facility 
projects must always be sensitive to the scientific endeavor, it also 
requires a different set of management skills for the NSF staff 
involved. It requires expertise in the construction and oversight of 
large facilities; close attention to tracking costs and meeting 
deadlines; and effective coordination with scientists, engineers, 
project managers, and financial analysts. Although NSF does not 
directly operate these facilities, it is ultimately responsible and 
accountable for their success. Consequently, it is vital that NSF, 
through disciplined project management, exercise proper stewardship 
over the public funds invested in these large projects.
    In fiscal years 2001 and 2002, my office issued two audit reports 
on large facilities with findings and recommendations aimed at 
improving NSF's management of these projects.\2\ Primarily, our 
recommendations were aimed at (1) increasing NSF's level of oversight 
with particular attention to updating and developing policies and 
procedures to assist NSF managers in project administration, and (2) 
ensuring that accurate and complete information on the total costs of 
major research equipment and facilities is available to decision 
makers, including the National Science Board, which is responsible for 
not only approving the funding for these large projects, but also 
setting the relative priorities for their funding.
---------------------------------------------------------------------------
    \2\ Office of Inspector General, National Science Foundation, Audit 
of the Financial Management of the Gemini Project, Report No. 01-2001 
(Dec. 15, 2000); Office of Inspector General, National Science 
Foundation, Audit of Funding for Major Research Equipment and 
Facilities, Report No. 02-2007 (May 1, 2002).
---------------------------------------------------------------------------
    NSF continues to make gradual progress towards addressing the 
reports' recommendations. The most significant progress was the hiring 
of a new Deputy Director for Large Facility Projects. During the past 
year, NSF has made further progress by providing this Deputy Director 
with 1.5 FTE's, which allowed him to begin to develop the detailed 
guidance needed by program officers to adequately manage their large 
facility projects. Among numerous duties related to large facility 
project management, the Deputy Director chairs a facilities panel that 
has responsibility for approving management plans for projects, and he 
receives periodic reports on active projects.
    However, the Large Facility Projects Office continues to face a 
number of obstacles to successfully implementing a viable large 
facility management and oversight program. To enable this Office to 
develop a more influential role, NSF's senior management must clearly 
recognize and champion the Large Facility Projects Office's oversight 
responsibility, and provide it with the independent authority and 
resources to handle it. These resources need to include funding for 
staff, contract support, travel, and other necessary resources. Without 
this management framework, the role of NSF's Large Facility Projects 
Office is likely to remain one that is primarily advisory and 
collaborative, rather than one that has a formal charge to 
substantively and positively influence project management decisions.

                 STRATEGIC MANAGEMENT OF HUMAN CAPITAL

    While the previous two management challenges are of an ongoing and 
urgent nature, they may be symptomatic of a larger, more pressing need 
for improved strategic management of NSF's human capital. In order to 
fully address its award management challenges, NSF will need to devote 
more resources and attention to making business and process 
improvements, while at the same time, planning for its future workforce 
needs. Although advances in technology have enhanced the workforce's 
productivity, NSF's rapidly increasing workload has forced the agency 
to become increasingly dependent on temporary staff and contractors to 
handle the additional work. NSF's efforts in the past to justify an 
increase in staff have been impeded by the lack of a comprehensive 
workforce plan that identifies workforce gaps and outlines specific 
actions for addressing them. Without such a plan, NSF cannot determine 
whether it has the appropriate number of people or the types of 
competencies necessary to accomplish its strategic goals.
    NSF has recognized the seriousness of this challenge and, as I 
testified last year, has now identified investment in human capital and 
business processes, along with technologies and tools, as objectives 
underlying its new Organizational Excellence strategic goal.\3\ NSF 
also contracted in fiscal year 2002 for a comprehensive, $14.8 million, 
3- to 4-year business analysis, which includes a component for a Human 
Capital Management Plan. Preliminary assessments provided by the 
contractor confirmed that NSF's workforce planning to date has been 
limited and identify specific opportunities for NSF to improve in this 
area. NSF's Human Capital Management Plan, which was delivered in 
December 2003, links Human Capital activities to the NSF business plan 
and to the Human Capital Assessment and Accountability Framework 
provided by the Office of Personnel Management. While the current plan 
provides a roadmap for identifying NSF's future workforce needs, the 
needs themselves are still in the process of being defined. I continue 
to believe NSF cannot afford to wait long to address its workforce 
issues. If not adequately resolved, these issues will undermine NSF's 
efforts to confront its other pressing management challenges and to 
achieve its strategic goal of Organizational Excellence.
---------------------------------------------------------------------------
    \3\ National Science Foundation, Strategic Plan Fiscal Year 2003-
Fiscal Year 2008 (Sept. 30, 2003) <http://www.nsf.gov/od/gpra/
Strategic_Plan/fiscal year 2003-2008.pdf>.
---------------------------------------------------------------------------
    NSF's reliance on ``non-permanent'' personnel is another area of 
concern. Forty-seven percent of NSF's 700 science and engineering staff 
are either visiting personnel, temporary employees, or intermittent 
employees. Visiting personnel make an important contribution to NSF's 
mission by enabling the agency to refresh and supplement the knowledge 
base of its permanent professional staff. But managers who serve at NSF 
on a temporary basis frequently lack institutional knowledge and are 
less likely or able to make long-term planning a priority. Moreover, 
there are substantial administrative costs that NSF incurs in 
recruiting, hiring, processing, and training personnel that rotate 
every 1 to 4 years. In fiscal year 2004, my office conducted an audit 
that identified the additional salary, fringe benefits, travel and 
other costs of visiting or temporary personnel, and found three areas 
where NSF could improve its administration of the programs.\4\ In 
short, while visiting personnel are an important resource for NSF, the 
agency must continually balance the benefits of their services against 
the additional costs involved.
---------------------------------------------------------------------------
    \4\ Office of Inspector General, National Science Foundation, Audit 
of Costs Associated with Visiting Personnel, Report No. 04-2006 (July 
23, 2004). Opportunities for improvement cited in the report include 
consulting income documentation, IPA pay computations, and VSEE cost of 
living adjustments.
---------------------------------------------------------------------------
    In conclusion I would like to comment briefly on my office's fiscal 
year 2006 budget request of $11.5 million. Although this request 
represents a $1.47 million (14.7 percent) increase over the Fiscal Year 
2005 Current Plan, the increase is primarily to fund the annual audit 
of NSF's financial statements, which previously has been provided 
through NSF's appropriations. The contract for this audit will be re-
competed in 2005, and we anticipate that its cost in fiscal year 2006 
will increase dramatically, consuming 75 percent or more of our total 
requested increase.\5\ The bulk of the remaining increase will be 
applied towards the expected pay increase for civilian personnel.
---------------------------------------------------------------------------
    \5\ Our survey of the current audit market shows that audit costs 
in general are on the rise because of Sarbanes-Oxley and other 
government requirements. While the audit cost $800,700 in fiscal year 
2004 and is projected to be $855,800 in fiscal year 2005, the audit 
under a new contract is expected to exceed $1.0 million in fiscal year 
2006.
---------------------------------------------------------------------------
    My office will continue to focus its audit attention on NSF's most 
pressing management challenges, some of which I have described for you 
today. In addition, we will also maintain a focus on specific issues 
that emerge concerning the management of NSF programs, procurement and 
acquisition, information technology, human capital, awardee financial 
accountability and compliance, and OMB Circular A-133 audits. We have 
recently made a strong commitment to improving the quality of audits 
conducted by our contract CPA firms, and the increase in time and 
effort required to meet the higher standards is significantly raising 
the costs of contracted audits.\6\ In recent years, these audits have 
uncovered material issues concerning unallowable indirect costs, 
unfunded cost-sharing commitments, and records maintained by large 
school systems that were so inadequate they could not be audited. It is 
likely that the continuing increase in costs may result in a reduction 
in the number of contracted audits in fiscal year 2006. We will also 
have to more gradually phase in our assessments of NSF actions 
resulting from the agency's multiyear business analysis contract and 
workforce plan, which are scheduled for completion in fiscal year 2005. 
Finally, while we will be able to initiate an audit on international 
collaborations, which are an integral part of NSF's portfolio, with 
particular attention to the accountability and audit requirements of 
international partners, major efforts in this area may also have to be 
phased in.
---------------------------------------------------------------------------
    \6\ Most contract CPA audits currently range from $67,000 to 
$160,000.
---------------------------------------------------------------------------
    Mr. Chairman, this concludes my written statement. I would be happy 
to answer any additional questions you or other members of the 
subcommittee may have, or to elaborate on any of the issues that I have 
addressed today.

                         National Science Board

STATEMENT OF DR. WARREN M. WASHINGTON, CHAIRMAN
    Senator Bond. Dr. Washington.
    Dr. Washington. Mr. Chairman Bond, Senator Mikulski, and 
Senator Stevens, I appreciate the opportunity to testify before 
you. My testimony today is in my capacity as Chairman of the 
National Science Board.
    On behalf of the Board and the widespread community 
involved in various aspects of education, as well as research, 
I want to thank the Senate for the long-term commitment to the 
investments in science, engineering, mathematics, technology, 
and education.
    The Board greatly appreciates the Senate's very prompt 
action in confirming eight new members of the Board and the NSF 
Director.
    The Congress established the National Science Board in 1950 
and gave it dual responsibilities: First, oversight of 
activities and establishing policies for the National Science 
Foundation and second, serving as an independent national 
science body to render advice to the President and Congress on 
policy issues related to science and engineering research and 
education.
    During our recent Board Retreat, which was only a week or 
so ago, the Board re-affirmed their strong commitment to 
fulfilling our obligations. The Board members, including the 
NSF Director, discussed the important role of the Board in 
establishing a new vision and setting priorities for the 
Foundation.
    The Board has reviewed and approved the NSF fiscal year 
2006 budget request that was submitted to OMB in September 
2004, and we generally support the President's budget request.
    We are certain that members of this subcommittee fully 
understand the unique and long-term value of NSF programs to 
ensure the future economic health of our Nation, to maintain 
U.S. preeminence in discovery and innovation, and to provide 
valuable contributions to homeland security efforts.
    The Board fully supports the fiscal year 2006 budget focus 
on the four funding priorities that address current national 
challenges, as well as making NSF's core portfolio of research 
investment even stronger.
    Should additional funds beyond the administration's request 
be made available to NSF, the Board has these following 
recommendations: to more strongly support the investment in 
science and engineering education, to address the backlog of 
Board-approved major research equipment and facilities 
construction projects, and to address the additional financial 
burden to the Foundation related to the transfer of financial 
responsibility for icebreaker ships from the Coast Guard to the 
NSF.
    I would like to briefly highlight some of the Board's 
accomplishments last year. Regarding the large research 
facilities, we are in the process of developing and 
implementing the setting of priorities for the MREFC projects, 
and we have approved a draft of ``Setting Priorities for Large 
Research Facility Projects Supported by the National Science 
Foundation'' report. And we are now seeking input from the 
larger community about that report, and we expect full 
implementation of the revised process by the fall.
    The Board has examined the policies and the positions that 
came out of the NAPA report--those have to do with the Sunshine 
Act, the use of IPA's and other employees who rotate in and out 
of the Foundation, the appointment process of the NSF Inspector 
General, and the role of the Board in oversight and setting 
policies for NSF.
    During this year, the Board will begin a revision of our 
strategic plan with a focus on vision and long-term goals for 
NSF, while working with the NSF management to set clear, near-
term priorities for the Foundation that are linked to budget 
realities.
    At the request of Congress, we will also be carrying out an 
examination of the NSF Merit Review System and report our 
initial findings before the end of this fiscal year.

                           PREPARED STATEMENT

    The Board is going to be examining long-lived data 
collections, how to support transformative research more 
effectively, and how to ensure an adequate and diverse S&E work 
force for the future.
    We will also be examining our investments in NSF centers 
versus PI-type grants.
    I thank you very much, and I will be happy to answer any 
questions.
    Senator Bond. Thank you very much, Dr. Washington.
    [The statement follows:]

             Prepared Statement of Dr. Warren M. Washington

    Chairman Bond, Senator Mikulski, and members of the committee, I 
appreciate the opportunity to testify before you. I am Warren 
Washington, Senior Scientist and Section Head of the Climate Change 
Research Section at the National Center for Atmospheric Research. My 
testimony today is in my capacity as the Chairman of the National 
Science Board (the Board, NSB).
    On behalf of the Board and the widespread and diverse research and 
education communities that we all serve, I thank the Senate for its 
long-term commitment to a broad portfolio of investments in science, 
engineering, mathematics, and technology research and education.
    The Congress established the National Science Board in 1950 and 
gave it dual responsibilities:
  --oversee the activities of, and establish the policies for, the 
        National Science Foundation (the Foundation, NSF); and
  --serve as an independent national science policy body to render 
        advice to the President and the Congress on policy issues 
        related to science and engineering research and education.
    The Board greatly appreciates the Senate's very prompt action in 
confirming eight new NSB Members and the NSF Director before our 
December 2004 meeting. This Senate action allowed the Board to move 
forward with our new Members able to participate fully in addressing 
the Board's demanding responsibilities.
    I would like to provide some general comments regarding the NSF 
fiscal year 2006 budget request, then update you on National Science 
Board activities over the last year and some of our priorities for the 
coming year.

                  FISCAL YEAR 2006 NSF BUDGET REQUEST

    The National Science Board has reviewed and approved NSF's fiscal 
year 2006 budget request that was submitted to the Office of Management 
and Budget (OMB) in September 2004, and we generally support the 
President's budget request before you today. Given the overall cut to 
non-defense domestic discretionary spending, the Board respects and 
appreciates that the President's budget request recognizes the 
importance of returning NSF to positive growth. We are cognizant of the 
current Federal fiscal constraints that our Nation faces and that there 
are many worthy competing interests for a limited resource. However, we 
are also certain that the members of this Senate Appropriations 
Subcommittee fully understand the unique and long-term value of NSF 
programs in science and engineering research and education to ensuring 
the future economic health of our Nation, maintaining U.S. preeminence 
in discovery and innovation, and providing valuable contributions to 
homeland security efforts.
    The Board fully supports the fiscal year 2006 NSF budget focus on 
the four funding priorities that address current national challenges as 
well as strengthening the core portfolio's of NSF's research 
investment. We also recognize that a budget request of $5.605 billion, 
representing a 2.4 percent increase over NSF's fiscal year 2005 budget, 
is a significant investment in NSF programs in a time of national 
fiscal austerity. Nevertheless, it is incumbent on the Board to note 
that this request remains below the level of the 2004 NSF operating 
budget.
    Should this subcommittee determine that additional funds, beyond 
the administration's request, can be made available to NSF in fiscal 
year 2006, the National Science Board would recommend support for a 
strong and growing role for the NSF in the Nation's investment in 
science and engineering (S&E) education, addressing the backlog of 
Board approved and prioritized Major Research Equipment and Facilities 
Construction (MREFC) projects, and addressing the financial burden to 
the Foundation related to the transfer of financial responsibility for 
icebreaker ships from the Coast Guard to the NSF.
    Adequate preparation of future participants in the U.S. workforce, 
at all levels of education, will require increasing mathematics and 
science understanding and skills if the United States is to sustain 
global preeminence in S&T. The Board has underscored its concern about 
the poor performance of U.S. citizens in essential knowledge and skill 
areas in science, technology, engineering, and mathematics (STEM) 
fields, in comparison with other high technology countries. It is 
impossible to conclude that growth in our national capabilities can 
occur without continual enhancement of the skills of our workforce. We 
have relied too heavily on attracting international students and 
professionals to meet our workforce needs, and, as a result, we need to 
do a better job of preparing U.S. students for joining the S&E 
workforce. Other nations are competing with the United States for the 
best international students and most accomplished S&E professionals. We 
must recognize the critical challenge our Nation now faces in 
sustaining a U.S. science and technologies (S&T) workforce that will be 
competitive over the long term in an increasingly global and 
competitive S&T environment.
    The Board fully supports the proposed fiscal year 2006 funding for 
MREFC projects, and appreciates the significant increase in funding for 
this budget category. Members of the Senate Appropriations Subcommittee 
are aware of the exciting opportunities at the frontiers of knowledge 
that we are unable to pursue without the cutting edge facilities that 
are funded under this account. While funding for ongoing MREFC projects 
is the highest priority for the Board, the lack of implementing any new 
projects in fiscal year 2006 will increase the concern of the science 
community that the United States is losing its ability to sustain 
cutting edge S&E research. Should additional funding for MREFC projects 
be available, the Board recommends, in priority order, support for 
Ocean Observatories and the Alaska Regional Research Vessel.
    The third area for which the Board would recommend any additional 
NSF funding be allocated is appropriate support for the costs that NSF 
will incur with the transfer of financial responsibility for 
icebreaking activities previously supported by U.S. Coast Guard. The 
administration's fiscal year 2006 NSF budget request allocated $48 
million. The Board is very concerned that the true costs to NSF for 
these new responsibilities will be greatly more that $48 million and 
will, therefore, drain resources from NSF research and related 
activities. We understand that a new NSF-Coast Guard Joint Working 
Group is discussing various options for dealing with this issue. In 
addition, we also understand that the National Academies Polar Research 
Board is studying this issue and expects to provide an interim report 
in September 2005. When these two groups have completed their 
discussions and assessments, we urge Congress to factor their 
conclusions into any final budget decisions and provide adequate 
funding to fully support this new NSF responsibility.
    Again, the NSB supports the integrated portfolio of investments in 
S&E research and education represented in the NSF fiscal year 2006 
budget proposal. It thoughtfully blends support for the core 
disciplines with encouragement for interdisciplinary initiatives, 
brings together people from diverse and complementary backgrounds, 
provides infrastructure for research and STEM education, and 
strengthens the NSF's management of the enterprise.
    Further, in this time of National emergency, this budget for NSF 
continues to foster S&T that enhances our homeland security. NSF 
activities in this area include Critical Infrastructure Protection, 
Research to Combat Bioterrorism, Cybercorps/Scholarships for Service, 
Counterterrorism, and Physical/Information Technology Security. Of 
course, by enabling future discovery and innovation, NSF supports our 
Nation's long-term prosperity and economy security.

            OVERVIEW OF NSB ACTIVITIES DURING THE LAST YEAR

    During the last calendar year, even while going through a 
continuing evolution in terms of its operation, the Board has 
accomplished a great deal in terms of our mission to provide oversight 
and policy direction to the Foundation.
    I would like to briefly highlight some of these accomplishments, 
but will not attempt to discuss them all here.
    In terms of providing oversight for the Foundation, the Board has:
  --reviewed and endorsed the Office of Inspector General Semi-annual 
        Reports to Congress, and approved NSF management responses;
  --approved the NSF fiscal year 2006 budget request for transmittal to 
        OMB;
  --reviewed the Foundation's report on its merit review system;
  --provided review and decisions on nine major awards or proposal 
        funding requests;
  --developed and implemented a Board process for re-prioritization of 
        all Board approved, but not yet funded, MREFC projects; and
  --provisionally approved the report ``Setting Priorities for Large 
        Research Facility Projects Supported by the National Science 
        Foundation'' (NSB/CPP-04-20).
    The Board and Foundation are implementing the principles of the 
revised process described in this provisionally approved document for 
the fiscal year 2006 budget. At the same time, the Board Office has 
implemented an extensive outreach effort to invite comments from nearly 
400 individuals and organizations that would be expected to have 
particular interest in large facilities. We expect final revisions 
based on this additional review and input, Board approval of all 
revised procedures and policies, and full implementation of the revised 
process over the next few months.
    With respect to providing policy direction to the Foundation, the 
Board has:
  --approved a report on ``Broadening Participation in Science and 
        Engineering Faculty'' (NSB 04-41) that addresses the need to 
        increase the diversity of this component of the S&E workforce 
        to more nearly reflect the diversity of the student body it 
        serves, and
  --approved elimination of agency requirements for cost sharing, 
        beginning this year (2005), while retaining the 1 percent 
        statutory cost-sharing requirement.
    In terms of advice to the President and the Congress, the Board 
has:
  --published and distributed widely ``Science and Engineering 
        Indicators 2004'', the 16th volume of this statutory, biennial 
        series and initiated the ``Science and Engineering Indicator 
        2006'' report;
  --published a policy statement accompanying Indicators 2004, ``An 
        Emerging and Critical Problem of the Science and Engineering 
        Labor Force'' (NSB 04-07), which draws attention to the 
        disturbing long-term trends in U.S. education and the 
        globalization of S&T that, if ignored, may result in a loss of 
        U.S. leadership in innovation and high technology;
  --approved the draft report on ``Long Lived Data Collections: 
        Enabling Research and Education in the 21st Century'' (NSB/CPP-
        04-21);
  --reported to the Congress on Delegation of Authority in accordance 
        with Section 14 of the NSF Act of 2002;
  --responded to four specific IPA-related questions that NSB's 
        Executive Officer received from House Appropriations 
        Subcommittee for VA, HUD, and Independent Agencies;
  --published and disseminated ``Fulfilling the Promise: A Report to 
        Congress on the Budgetary and Programmatic Expansion of the 
        National Science Foundation'' (NSB-03-151);
  --provided testimony to congressional hearings;
  --interacted with Office of Science and Technology Policy (OSTP) and 
        OMB on NSF and S&E issues;
  --provided briefings and presentations to the Congress and other 
        policy organizations concerning the Board's reports and 
        statements; and
  --responded to specific questions and inquiries from Senators and 
        Representatives.
    In an effort to facilitate more openness of Board meetings in 
accord with the Sunshine Act, we expanded our practices for:
  --providing public notice of all our meetings in press releases, the 
        Federal Register, and the NSB Web site;
  --treating teleconferences of committees as open meetings;
  --providing much more information to the public in a more timely 
        manner regarding meeting discussions and decisions; and
  --encouraging public comment during the development of Board 
        publications.
    Also, this past year the Board:
  --examined our policies and positions relevant to the recommendations 
        of the National Academy of Public Administration report 
        concerning the Board's implementation of the Sunshine Act, the 
        use of Intergovernmental Personnel Act (IPA) employees and 
        other rotators at NSF, the oversight of the NSF Inspector 
        General, and the role of the National Science Board in 
        oversight and setting policies for NSF;
  --began implementing recommendations of the Office of Inspector 
        General to continue enhancing our procedures and policies 
        related to compliance with the Sunshine Act; and
  --significantly increased and improved our direct outreach and 
        communication with OMB, OSTP, Congress, other Federal agencies, 
        various interest groups and the outside S&E research and 
        education community.
    To that end, the Board Office is contracting to develop monitoring 
and evaluation tools, to expand outreach, and measure the impacts of 
NSB statements, resolutions and reports; and to redesign the NSB Web 
site for greater accessibility and utility to the public.
    One thematic area of significant accomplishment was transformative 
or ``high risk'' research where the Board organized a Workshop on 
``Identifying, Reviewing, and Funding Transformative Research'' and 
established within the Committee on Programs and Plans a Task Force on 
Transformative Research. Another thematic area of accomplishment this 
year was long-lived data collections where the NSB established within 
the Committee on Programs and Plans a Task Force on Long-Lived Data 
Collections; and prepared a draft report, ``Long-Lived Date 
Collections: Enabling Research and Education in the 21st Century'' 
(NSB/CPP-04-21).
    The year 2004 also saw the Board's examination of NSF issues 
related to broadening participation in S&E; as well as efforts toward 
obtaining industry perspectives on workforce issues. The Board has also 
continued its recognition of outstanding science, engineering and 
science education accomplishments through the Vannevar Bush Award, Alan 
T. Waterman Award, and Public Service Awards.

                      FISCAL YEAR 2006 NSB BUDGET

    The administration's Fiscal Year 2006 Budget Request of $4.0 
million for the NSB will be adequate to support Board operations and 
activities during fiscal year 2006. The request seeks resources to 
carry out the Board's statutory authority and to strengthen its 
oversight responsibilities for the Foundation. We expect that the 
Foundation will continue to provide accounting, logistical and other 
necessary resources in support of the NSB and its missions, including 
expert senior S&E staff serving as a cadre of executive secretaries to 
Board committees and task forces.
    At the urging of Congress, in fiscal year 2003 the Board began 
examining options for augmenting its professional staffing levels. At 
its May 2003 meeting, the Board decided to begin a process to assess 
the feasibility of recruiting for positions that would broaden its 
policy support, provide additional legal advice, and enhance the 
Board's capabilities in advanced information technology. The Board 
Office has continued to implement the staff enhancement plan, adding 
four positions this fiscal year for support staff, including 
information technology staff, science assistants, national awards 
assistant, and filling the vacancy for an editor/writer. The Board 
Office will be recruiting two senior professionals to provide policy 
and legal support to the Board this year. The Board is very pleased 
with the progress of the staff enhancement process.
    The NSB Office staff provides the independent resources and 
capabilities for coordinating and implementing S&E policy analyses and 
development. It also provides operational support essential for the 
Board to fulfill its mission. By statute, the Board is authorized five 
professional positions and other clerical staff as necessary. In 
consultation with the Congress, the Board has defined these 
professional positions as NSB senior S&E policy staff, and the clerical 
and technical positions as NSB staff that support Board operations and 
related activities. The full impact of increasing the number of 
professional positions closer to the statutory level is expected to 
occur in fiscal year 2005, emphasizing a broadening of professional 
skills to support the Board.
    In addition to the NSB Office's essential and independent resources 
and capabilities, external advisory and other services are especially 
critical to support production of NSB reports, and supplement the NSB 
staff's general research and administration services to the Board. 
These external services provide the Board and its Office with the 
flexibility to respond independently, accurately and quickly to 
requests from Congress and the President, and to address issues raised 
by the Board itself.
    In fiscal year 2006, the Board will expand its ongoing examinations 
of its role and responsibilities regarding the NSF's MREFC programs as 
it finalizes the development and implementation of a new protocol for 
the process by which major research equipment and facilities proposals 
are developed, prioritized, and funded; NSF policies for Long-lived 
Data Collections; NSF policies regarding the identification, 
development and funding of transformative ``high risk'' research; and 
policies to ensure an adequate and diverse S&E workforce for the 
future.
    The Board will continue to review and approve NSF's actions for 
creating major NSF programs and funding large projects. Special 
attention will be paid to impacts of budget constraints on the S&T 
workforce, broadening participation in higher education, national S&T 
infrastructure, and the size and duration of NSF grants.
    Effective communications and interactions with our constituencies 
contribute to the Board's work of identifying priority S&T policy 
issues, and developing policy advice and recommendations to the 
President and Congress. To this end, the Board will increase 
communication and outreach with the university, industry and the 
broader S&E research and education community, Congress, Federal S&T 
agencies, and the public. These activities will support U.S. global 
leadership in discovery and innovation based on a continually expanding 
and evolving S&T enterprise in this country, and will insure a 
principal role for NSF programs in providing a critical foundation for 
S&E research and education.
    With our new Board Members, new openness, and new modes of 
operations, the Board has much to do in 2005. However the most daunting 
challenge we face is making the tough choices and prioritizing NSF 
programs and projects in the face of constrained Federal budgets and a 
growing competition for those funds.

                            CLOSING REMARKS

    This is a difficult time for Federal budgets for S&E research and 
education and the institutions and individuals in the nonprofit and 
public sectors that rely on Federal support. For over 50 years the 
Federal Government has sustained a continual, visionary investment in 
the U.S. research and education enterprise in the expectation that such 
investment would redound to the benefit of all Americans. That Federal 
effort has expanded the horizon of scientific discovery and engineering 
achievements far and wide, leading to the realization of enormous 
benefits to our Nation and, indeed, all of humanity.
    In recognition of the Federal fiscal realities our Nation faces, 
the National Science Board pledges that we will be a force for causing 
the NSF to set priorities, to make hard programmatic budget decisions 
and, as a result, to obtain the most benefits from the funds provided. 
However, even in a time of budget constraints, as a Nation we cannot 
ignore our growing dependence as a society on innovation for economic 
prosperity and the ever-improving quality of life Americans have come 
to expect. The Federal compact in research and education with the 
nonprofit sectors is an essential pillar of our Nation's global 
dominance in S&T.
    We know what works--we have a very long history of success to draw 
on. We know the expanding frontiers of knowledge offer enormous 
opportunities for research and innovation. We also know that the 
education of all our citizens in the fundamentals of math, science and 
engineering must be addressed if the United States is to remain eminent 
in S&T when we enter the 22nd century. As other nations ramp up their 
investment in the infrastructure for S&E research and innovation, we 
cannot be complacent. The Federal investment in the Nation's S&T is a 
necessity for the Nation's future prosperity and security. The United 
States must sustain its advantages through continued wise, adequate 
Federal support for our S&E enterprise.

    Senator Bond. I am now going to turn to Senator Mikulski 
for her opening statement and questions. Then we will turn to 
Senator Stevens, our President pro tem, for his comments and 
questions. Senator Mikulski.

                STATEMENT OF SENATOR BARBARA A. MIKULSKI

    Senator Mikulski. Thank you very much. Good morning to 
everybody.
    Senator Bond and Senator Stevens, we know that we have a 
full appropriations hearing with Secretary Rice. So I am going 
to ask unanimous consent that my opening statement go into the 
record.
    Senator Bond. Without objection.
    Senator Mikulski. I want to make two points about it before 
I go into questions.
    First of all, to our panel here today and all in the 
scientific community, I think we noted the passing of Dr. 
Bromley, who was a Science Advisor to President Bush's father, 
that this subcommittee worked so closely with. He was a great 
person to work with and I would just like to acknowledge his 
passing and hope we would all hold him in our heart and just to 
also acknowledge when we can work together on a bipartisan 
basis and nonpartisan--see, I think science should be 
nonpartisan. You know, science belongs to America, not to a 
particular party. So we just want to note that.
    Coming back, though, as we look at the budget, I must say I 
am deeply disturbed about it. Senator Bond has said that 2 
percent is really 1 percent. Let us say it is 2 percent for the 
sake of conversation. That would mean our mutual goal of 
doubling the National Science Foundation budget, which is in 
law, signed by President Bush, would take, at this current 
funding, 36 years. Thirty-six years. That would take us to 
2040.
    Now, I think that America cannot wait. If we are going to 
have an innovation economy, which you support, we need to be 
able to have this, I believe, on a more robust path, focusing 
on certainly the four goals that you have outlined. They are 
exactly, I think, the national goals.
    Really, it is two broad-based functions. No. 1, research. 
Unlike NIH and some of the others and our great Federal labs, 
academia will tell us, as you know, that it is the National 
Science Foundation that funds the basic research that leads to 
the basic breakthroughs that lead to the new ideas that lead to 
the new technologies. So, that has to be our mission.
    And then the other is education. Where is the next 
generation of scientists and technology? We do not have a work 
force shortage. We do not have a talent shortage. We have to 
make sure we do not have an opportunity shortage when we look 
at a variety of levels of education. I know Senator Bond will 
be talking very much about the education budget.

                           PREPARED STATEMENT

    Before I go to my questions, I just wanted to make those 
points. Should we yield to Senator Stevens and then go to your 
questions and come back?
    [The statement follows:]

           Prepared Statement of Senator Barbara A. Mikulski

    Welcome Dr. Marburger, Dr. Bement and Dr. Washington. I want to 
thank Senator Bond for holding this hearing. I am glad we are moving 
forward with our work.
    The proposed budget for NSF is just 2.4 percent above last year for 
a total of $5,605,000,000. This barely keeps pace with inflation. Most 
disturbing is the cut to education programs. This budget actually cuts 
education programs by 12 percent and research is increased by almost 3 
percent which barely keeps pace with inflation. Yet, salaries and 
expenses go up by 20.5 percent, and major equipment goes up by 44 
percent. I do not doubt the value, need, or resources devoted to major 
equipment but when every other part of the NSF budget is starved for 
resources, a huge increase like that stands out.
    Senator Bond and I are committed to doubling the NSF budget over 5 
years. We have increased NSF's budget by an average of 10 percent over 
the President's budget for the last several years. This administration 
has broken its promise to NSF. In 2002, the President signed the NSF 
Authorization into law. It authorized a doubling of the NSF budget 
between 2002 and 2007. In 2006, NSF is authorized to be funded at 
$8,500,000,000. Yet the President's 2006 budget funds NSF at 
$5,605,000,000--34 percent below where it should be.
    Not only does this budget fail to double the NSF budget in 5 years, 
it actually cuts education programs by 12 percent. How can we raise 
test scores if we are cutting the very programs that are designed to 
raise test scores? A recent international study found that U.S. fourth 
grade students in mathematics came in 12th place--just behind Hungary. 
We are falling behind in innovation, job creation and education and 
this budget does nothing to address any of these issues.
    Teacher training programs are cut by 35 percent. K-12 education 
programs are cut by 23 percent. How can we train the next generation of 
teachers, and how can we prepare the 21st century workforce, when we 
are cutting the very programs that address this problem?
    Every major report on long term U.S. economic competitiveness has 
cited the need for a large increase in research--basic research into 
the physical sciences (physics, chemistry), and strategic research 
(nano, bio and info tech). It used to be we won the Nobel Prizes and 
other countries won market share. That was bad enough. Now, we are even 
falling behind in our Nobel Prizes. After peaking in the 1990's, the 
American share of Nobel Prizes is now falling for the first time in 
over 40 years. America's share of patents is also falling while patents 
granted to researchers in other countries is increasing. India, China, 
Japan, Korea--these are the countries we are competing against. 
Innovation is the key to economic growth and the Federal Government 
must take the lead but this budget fails to make the investment we need 
to innovate.
    Community Colleges should be at the forefront of training a high 
tech workforce. Yet, this budget cuts funding for community colleges. 
We should be increasing funding for community colleges, not decreasing 
it.
    The Tech Talent program which was started by this subcommittee and 
was designed to produce more math, science and engineering students, 
was cut. Again, we see a pattern of cutting education programs that 
address our most fundamental competitiveness and workforce development 
needs.
    If we are going to increase minority participation in the sciences, 
then we have to start with our Historically Black Colleges and 
Universities. In my own State of Maryland, I am proud to represent 
Morgan State, Bowie State and the University of Maryland, Eastern 
Shore.
    Fortunately, graduate stipends, which I lead the fight to raise, 
remain at the $30,000 level.
    I am also pleased to see a proposal for an expanded Tsunami warning 
system. We know that NOAA and the U.S. Geological Survey are the lead 
agencies but we look forward to hearing about NSF's role and other 
agencies that are participating in this program.
    Finally, I believe it is time to renew our commitment to oceans 
research. The U.S. Commission on Ocean Policy, chaired by Admiral 
Watkins, has given us an outstanding set of recommendations to pursue.
    Unfortunately, with a flat budget, cuts to education, workforce 
development and no real increase in research, the promise of innovation 
will be delayed. Other countries will continue to accelerate their 
commitment to research and development. The jobs of tomorrow depend 
upon the research of today. Unless we increase our commitment to 
workforce training, education and research, we will fall behind the 
rest of the world.

    Senator Bond. That is a very generous idea. Senator 
Stevens.
    Senator Stevens. Thank you very much.
    Senator Mikulski. But that is the direction I am going to 
be going in.

                     BARROW ARCTIC RESEARCH CENTER

    Senator Stevens. I do want to move on to the other 
committee and get prepared for that too.
    I only have one question. I am particularly talking to Dr. 
Bement. Alaska is the one place in the United States that 
really has shown the early effects of global climate change. We 
have plants growing further north. We have timber growing 
further north. The permafrost is thinner. We have the offshore 
ice that is thinner, if not gone. We have changes in some of 
the ocean mammals. We have considerable inundation of coastal 
villages, if not destruction of many.
    In 2004, I asked Congress to provide $5.8 million to NSF to 
reconstruct the Barrow Arctic Research Center. You have not 
spent a dime of it. Why?
    Dr. Bement. Well, I had the impression that was in NOAA's 
budget. We have been working with Admiral Lautenbacher----
    Senator Stevens. That was Science Foundation money that I 
earmarked as chairman of the committee, $5.8 million. Not one 
word from you since then.
    I do not want to embarrass you. I would ask you to give us 
a report because I think that is really a terrible situation 
when this area is the worst hit in the United States, and we 
cannot restore that center. The industry wants it. The State 
wants it. The science community wants it. It is the central 
location to try and study what is going on up there. You used 
to have a center there and the Navy was part of it then. I 
think you took it over after the Navy and then closed it down.
    Dr. Bement. Well, Senator, let me report to you that we are 
working on the Barrow Center. We have invested in the Barrow 
Center. We have a plan. We have implemented every element of 
the plan to date. I have met with NOAA executives, Admiral 
Lautenbacher. We are trying to develop a joint plan to fully 
fit out that center. That plan is currently in progress and we 
will have a report to you as quickly as we can put it together.
    Senator Stevens. Good. I thank you very much.
    Thank you very much, Senators.
    Senator Bond. Thank you, Senator Stevens.

                NATIONAL SCIENCE BOARD LONG-TERM VISION

    Let me ask two quick questions and I am going to turn it 
back to Senator Mikulski for her questions. First, Dr. 
Washington, as I stated in my opening remarks, I think the 
Science Board has to develop a long-term vision, and I think 
the Board is perfectly suited to do that. I agree with Dr. 
Marburger's statement that tight budgets have the virtue of 
focusing on priorities. So does a hanging in a fortnight.
    But I hope we are not in that bad a condition, but 
developing a clear strategy is critical so that we are focused 
on limited funds.
    May I have your commitment that you will have the Board 
immediately begin working on this matter? And how soon can the 
Board tackle it and when can you get it done?
    Dr. Washington. At the retreat that we had just a couple 
weeks ago, we did extensively talk about updating and coming up 
with a new strategic plan. You have my assurance that I will 
make this a high priority for next year.
    Senator Bond. How about a date? When will we have it?
    Dr. Washington. Hopefully we can have it by December. Now, 
you know I have 24 members and----
    Senator Bond. Well, tell the 24 members that Senator 
Mikulski and I----
    Senator Mikulski. And 48 opinions.
    Senator Bond. You are scientists, not economists. We do not 
have one on the one hand and on the other hand.
    Dr. Washington. Yes.
    Senator Bond. December, okay.

              MANAGEMENT AND OVERSIGHT OF LARGE FACILITIES

    Next, Dr. Bement and then Dr. Washington. The IG's 
statement for the record on the slow progress in addressing 
management and oversight of large research facility projects 
was disappointing. I think we understand you have a very good 
Deputy Director in Mark Coles. But I get the sense that he is 
not being utilized adequately as recommended.
    And I have three problems we would like you to fix 
immediately: No. 1, changing the roles and responsibilities of 
the LFP office so that they are authoritative and independent 
as originally intended, rather than advisory and collaborative.
    No. 2, the LFP needs resources. I understand you have begun 
addressing this and I applaud you but the current 1.5 FTE's are 
not going to cut the mustard given the complexity of the 
projects. I would suggest that even more resources be made 
available, maybe 5.
    No. 3, we ask that you ensure your systems can act quickly, 
track the cost of these projects so there is accountability. 
That is one thing that drives us nuts.
    So I would like your commitment today that you will take 
action on these recommendations and I would ask Dr. Washington 
as part of the Board's oversight role to hold the Science 
Foundation accountable for implementing it. Dr. Bement.
    Dr. Bement. Senator, we take guidance from the Inspector 
General quite seriously. On the other hand, there were some 
things I believe the Inspector General did not take into 
account.
    First of all, I hold myself accountable for our large 
facilities management and I take that responsibility very 
seriously. I rely on Mark Coles to be my early warning system 
to advise me on things going right and things going wrong. He 
has my complete confidence and has full responsibility for 
oversight.
    But the Inspector General did not take into account that he 
has access to 127 people in the budget and finance office to do 
full cost accounting, which is currently being implemented.
    Now, in addition to that, we have under contract--so he has 
access to contract personnel--to automate that full cost 
accounting system and make it an e-system and that will be 
implemented yet this year.
    On top of that, we do have plans to augment his capability 
by additional staff, not only full-time equivalent Federal 
personnel, but also additional contract personnel.
    Now, his role is business oversight. In addition to that, 
we have scientific oversight by all of our program officers 
assigned to each of these projects, and he has the 
responsibility to coordinate their activities and provide 
oversight as well.
    So in my evaluation, in all due respect to the Inspector 
General, I think that we have made great progress. We have more 
progress yet to make, but it is not a process that is broken.
    Senator Bond. I commended you on the steps that you have 
taken, but having access to 127 people is not the same as 
having the few that work for him, and we would like to see that 
business aspect totally handled. We want to see the science 
coordinated. We want to make sure these projects and these 
large facilities do function properly.
    Dr. Washington, a comment on that?
    Dr. Washington. Well, I concur with what Arden said.
    Now, the thing is the Board has been trying to step up to 
the oversight responsibilities with respect to the facilities 
issues, and I think that the report that is going to come out 
this fall, hopefully, will have all of the steps, both 
internally to NSF, and as the Board steps in how we approve, as 
well as monitor, these projects as they go through their life 
cycle.
    Senator Bond. We look forward to continuing that discussion 
and having some response from the IG as well.
    Senator Mikulski.
    Senator Mikulski. Thank you, Mr. Chairman. I think our 
colleagues should know that because of the Condoleezza Rice 
hearing, this will be compressed.
    My question goes to the impact of the R&D funding here. 
When we look at the $5 billion in the NSF budget for basic 
research, we are concerned that when we look at it, the 
industry share has fallen down. They are under so much pressure 
to meet bottom lines so the private sector that used to do 
breakthroughs, the demise of flagship institutions or the 
shrinkage like a Bell Lab with so many breakthroughs, so many 
patents, so many things that then were important to our society 
and led the way.
    Now, what we are concerned about is either the flat or the 
declining Federal investment in R&D while other nations like 
China and India, the new turbo powers in the global economy, 
are increasing their investment. Can you share with us what you 
think the consequences are going to be to our country? And if 
we stay at this point, while we are looking, as Senator Bond 
has pressed for, a strategic plan--but it is a strategic plan 
for not only NSF but for our country. Could you give us your 
thoughts on that?
    We know that your testimony has been vetted and all of 
those other kinds of things, but it would seem to me that if we 
had our druthers, we would have the NSF budget at at least 7.5 
to 8 this year.
    Dr. Marburger. With your permission, Senator, I would like 
to take a crack at that too.
    It is true that China, India, and other countries are 
increasing their investment. They are trying to look like the 
United States and they are trying to build a base of research 
and technically trained people to improve their economies, and 
we look forward to having new colleagues to help the entire 
world economy.
    But the United States maintains an extraordinary lead over 
these countries. We have huge investments. We are spending 
three times in Federal support of research and development that 
Japan, the next largest investor in these areas, does. During 
the past 5 years, there has been an enormous increase in the 
R&D capacity of the United States. This budget is tight, but it 
also maintains that strength and it does move ahead in selected 
areas such as nanotechnology and information technology and in 
other areas that are important to our leadership role.
    So, yes, we do have to be careful and make sure that we 
establish priorities that maintain our leadership. I believe 
that we are far in the lead now and will continue to be so for 
the foreseeable future. But this is a time when we have to make 
priorities and hard decisions, and this budget reflects that.
    Senator Mikulski. Dr. Washington, I know you are an old 
hand at these types of questions and have devoted a lot of 
thought. As we look at the allocation, presuming Senator Bond 
and I will have the National Science Foundation account--you 
know, we have been bonded for a long time.
    And we do not want to have a barb in the appropriations 
process.

                       FUNDING FOR BASIC RESEARCH

    Senator Bond. Not bad for 10 o'clock.
    Senator Mikulski. Not bad.
    How would you allocate this? Would you then say we should 
stay the course in funding basic research? You know my own 
orientation to the multidisciplinary approaches on 
breakthroughs like nano. How would you do this? But I am 
concerned that if you stay flat-funded, you are really in 
decline.
    Dr. Washington. Yes. In fact, if I can just add to that. We 
are seeing an enormous increase in proposals being sent to the 
Foundation, and with limited resources, we are going to be 
seeing the acceptance rate probably dropping, and that means 
lost opportunities.
    Senator Mikulski. Can you give us a quantifiable statement 
on that? How many do you get and how many can you fund that you 
would consider meritorious?
    Dr. Washington. Yes. I think it was last year that there 
was roughly $1 billion of excellent proposals that were not 
able to be funded, and I expect it will be a larger number in 
this coming year. I think that we are up to roughly 43,000 
proposals being sent to the Foundation, and with limited 
resources we just are not going to be able to fund all of 
those.
    If I could just add one more thing to your earlier comment. 
I went to the White House at the signing of the authorization 
bill, and I had great hopes that the NSF budget would be 
increasing enormously, maybe by a factor of 2 over maybe 7 or 8 
years. That hope is not there now. In other words, I think it 
is going to be a lost opportunity for our Nation to not have a 
greatly increased budget for NSF.
    Senator Mikulski. Dr. Bement, did you want to say anything?
    Dr. Bement. Well, I think my response would be that more 
and more economists are determining that what is driving our 
economy right now is not just savings, but investment in 
research and development and education. That equation has been 
picked up by almost every nation in the world, and so we are 
locked in competition for future economic growth and also in 
job creation. That is especially important to the United States 
because we want to capture the high end of new discovery and 
innovation. Even today, there has been a great ramping up of 
the number of patents that are citing recent discoveries 
through basic research.
    So it is an area where we have to pay attention. We have to 
take a longer view. And I am somewhat concerned that if you 
look at the mix of what is being funded in the private sector 
and the public sector, that too much of it is short-term. It is 
not just short-term in the private sector, but more of it in 
the public sector is becoming short-term.

                    K-12 MATH AND SCIENCE EDUCATION

    Senator Mikulski. Well, I am concerned not only about the 
R&D issues but about education.
    There are going to be wonderful Marylanders associated with 
Hopkins that are going to receive White House medals on March 
14, Dr. Giacconi, the founding father of the Space Telescope 
Institute and the Hubble initiative, and Dr. Saul Snyder, the 
head of neuroscience at Hopkins. They are both in their 
seventies, and they both have been professional advisors to me, 
as well as personal friends. If they were sitting here, in our 
many conversations in their homes and in the cafes of 
Baltimore, they would say we need not only money for research, 
but we are in our seventies. We need to be able to fund those 
people in their twenties, those young, upstart people that are 
bursting to go, and then also these children, all this talent 
that is out there bursting at the seams with people who want to 
get into the honors programs in middle school, as well as in 
high school.
    Now, I am concerned about this 12 percent cut in education. 
Would you tell us then how do you think you are going to 
address it and the consequences of this 12 percent? Because 
there are the Giacconis. There are the Snyders. One is someone 
who emigrated to this country. Again, I do not think we have a 
talent shortage. I never want us to have an opportunity 
shortage.
    Senator Bond. Senator Mikulski, if I may add on that. That 
was going to be my next question. The math and science 
partnership program continues to fund only the ongoing grants 
NSF has already awarded. The program is supposed to be placed 
in the Department of Education. We never thought it would. It 
has not gotten proposed funding. Furthermore, the current 
budget proposes to reduce the number of K through 12 teachers 
involved with math and science education by 17,000, with 
teacher and material development both being cut by over 30 
percent.
    I think we are going in the wrong direction. Dr. Marburger, 
does the administration not think we have a problem with K 
through 12 math and science education? Is it not important? 
What is the rationale behind cutting the resources that the NSF 
needs to make sure that we have math and science education at 
the K through 12 level effectively addressed? I will send a 
strong letter to follow.
    Dr. Marburger. Senator, the administration agrees that it 
is very important to have strength in teaching math and science 
in the lower grades. It is not obvious that putting all the 
money into some of these programs is the only way to go. We 
support strengthening education through a variety of means, 
through programs not only in NSF or not only in the Department 
of Education, but in investments in educational programs, 
educationally oriented programs in NASA, in the Department of 
Energy, and other areas. Even the research grants that NSF 
gives to the universities turn out to have an impact at 
education at all levels.
    We believe that a sort of across-the-board consciousness 
raising about the importance of K through 12 education is 
having an impact on those areas and the budget recommendations 
in this proposal address a sort of across-the-board philosophy 
that tries to put the money in the agencies that are 
appropriate to this task.
    Dr. Bement. Senator Mikulski, last year when I appeared 
before you, I was relatively new in the Foundation.

                        BROADENING PARTICPATION

    Senator Mikulski. Yes. You came to us from NIST, another 
special agency.
    Dr. Bement. And you asked me about ATE and ISE and I was 
not very sharp on that, but I learned very quickly. I felt that 
we did, as you pointed out, need to give higher priority to 
broadening participation. We just have to address our total 
population to bring people in the STEM work force.
    So taking all those special programs that address 
broadening participation, and if we take Math and Science 
Partnership aside, I took the enacted budget and actually added 
$10 million to those special programs. That adds up to about 
$400 million all together.
    But that is not the end of the story because we have now 
engaged the directorates. We are taking a much more integrated 
approach because the science directorates also have a 
responsibility for education. If you take in their 
contributions to broadening participation, actually the total 
investment in the Foundation amounts to about $597 million.
    Now, with regard to K to 12 education, even though the 
results may appear to be disappointing from the budgetary point 
of view, there is a success story there because the school 
districts that we have funded have discovered what works. And 
we have been working with the Department of Education to take 
the lessons learned, the best practices of ``what works'' and 
work with them in making ``what works'' work throughout all the 
other school districts in the country. That is being done 
through an interdepartment tiger team. We are going to continue 
to work very closely with them. I have requested a meeting with 
Secretary Spellings, and we will have a lot to talk about on 
that score.

                             K-12 EDUCATION

    Senator Mikulski. I just want to be clear about this. The 
math and science initiatives in curriculum, teacher 
development, and so on were to be research-driven. And when we 
work on No Child Left Behind, we want research-based solutions, 
not just whatever gimmicks that are being sold, et cetera.
    Now, are you saying that now the results are coming in and 
now you see this then disseminating to the 50 States, to the 
180-some school districts----
    Dr. Bement. No, Senator.
    Senator Mikulski [continuing]. In terms of research 
knowledge, symposiums, this type of thing?
    Dr. Bement. The administration fully supports our research 
activities in this area, and we intend to continue our mission 
in doing research in this area.
    Senator Mikulski. You said you have got lessons learned, 
best practices. You want to meet with her.
    Dr. Bement. Yes.
    Senator Mikulski. What is the point of the meeting?
    Dr. Bement. The point of that is that in our pilot programs 
with the various districts that we support, we are learning 
through our research what can be effective in improving science 
and mathematics education. We will never have the resources or 
personnel to propagate that throughout the entire Nation. We 
have to rely on the Department of Education to carry out the 
propagation role.
    Senator Mikulski. Well, that is the point, to take the 
lessons learned, the best practices, go to I think a very 
dynamic Secretary of Education and experienced and seasoned in 
the field to then propagate that.
    Dr. Bement. We have that partnership.
    Senator Mikulski. Well, actually I will look forward to 
hearing about that because we do not want research mortuaries 
where we just collect the data and it just gets banked 
somewhere, you know, the way they freeze things for the future.
    There are so many interesting things to be covered.

                              PLANT GENOME

    Senator Bond. Senator Mikulski, we have all noted the 
research mortuaries.
    We have run out of time.
    Dr. Mary Clutter is here. Dr. Clutter, will you stand up 
please? Thank you very much. I was going to ask you to give a 
report. Unfortunately, we have run out of time, but I want 
everybody here to know how important the work is that is going 
on in the plant genome area. We have 800 million children 
worldwide that are hungry or malnourished. We know that 
nutrition and food production are critical to the health and 
economic opportunity for all countries, and there are a lot of 
new industrial energy and pharmaceutical applications to new 
food technologies that can serve to ensure our Nation's 
producers and the world's population and we can benefit from 
this with aggressive work. I would ask for the record you 
update us on the genome project and your efforts to create 
collaborative partnerships between U.S. and developing country 
research institutions.
    I would note for you, without asking for any endorsement 
from the NSF, the fact that Senator Mikulski and I have 
introduced a measure recommended by Dr. Danforth's blue ribbon 
committee to establish a food and agricultural research arm to 
do the basic research. We want to bring with that additional 
funding because we know how strapped your Foundation funding 
is. But the best minds in the scientific community have steered 
us in this direction to say that we need basic research to 
utilize the tremendous potential in this area. Senator Mikulski 
and I and a number of others will be reintroducing that. We 
would welcome your comments and suggestions on it and would 
look forward to having a report that we will try to publicize. 
I hope everybody who is here will read it. Certainly Senator 
Mikulski and I will.
    Senator Mikulski, any closing thoughts?
    Senator Mikulski. No. I think we just want to thank you for 
what you do. As you can see, we certainly have the will to be 
supportive and we need to find a national wallet. So thank you.
    Senator Bond. Thanks so much to our witnesses, to all those 
who attended. We apologize. Due to other commitments, we have 
to bring this hearing to a close, but we certainly hope to have 
the opportunity to continue to work with you. Stay tuned and we 
will find out whether we do.

                          SUBCOMMITTEE RECESS

    The hearing is recessed.
    [Whereupon, at 10:03 a.m., Thursday, February 17, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2006

                              ----------                              


                         THURSDAY, MAY 12, 2005

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2 p.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Richard C. Shelby (chairman) 
presiding.
    Present: Senators Shelby, Hutchison, Cochran, and Mikulski.

             NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

STATEMENT OF MICHAEL D. GRIFFIN, ADMINISTRATOR

             OPENING STATEMENT OF SENATOR RICHARD C. SHELBY

    Senator Shelby. The subcommittee will come to order.
    This hearing of the Senate Commerce, Justice, Science and 
Related Agencies Subcommittee is the first meeting of the 
restructured committee. I want to welcome the new NASA 
Administrator, Dr. Michael Griffin, who is joining us to 
discuss the President's fiscal year 2006 budget request for the 
National Aeronautics and Space Administration (NASA).
    Dr. Griffin, in assuming your new post as the NASA 
Administrator, I can only imagine how busy the past few weeks 
have been for you. Now that you have had some time to 
reacquaint yourself with NASA's activities, we look forward to 
discussing your thoughts about how NASA is doing and hearing 
your insights as to what they could be doing better.
    I also anticipate that we will have an ongoing and open 
dialogue about NASA's progress with return to flight and 
achieving the President's Vision for Space Exploration. I am 
very interested in discussing how we can preserve their 
expertise within the activities and institutions that will be 
necessary to take this ambitious journey.
    More than 1 year ago, the President presented a Vision for 
Space Exploration that calls for a return to the Moon and 
eventually a manned mission to another planet. I am excited 
myself by the opportunities that lie ahead with the exploration 
vision at NASA.
    However, there are fiscal realities that, like it or not, 
may affect the vision. That is what we deal with on this 
subcommittee, and I believe it is one of the difficulties that 
you will face as the NASA Administrator: having to balance 
NASA's limited resources with its programs and requirements.
    I believe that we all appreciate the inherent risk involved 
with many of the activities NASA undertakes. We also appreciate 
that with risk comes the potential for failure. Inevitably, 
failures increase the overall cost of the activity, and one of 
the problems that I anticipate along the path to the Moon is 
the potential for failures that could pose a significant 
challenge to the forward momentum of the program and vision. Of 
course, we all hope there will not be any failures, but I 
believe we have to build in the possibility.
    We have already experienced such a challenge with NASA's 
return-to-flight requirements. Specifically, we have seen a 
strain on science missions and aeronautics as NASA has 
redirected funds to pay for return-to-flight cost overruns. 
These fund shifts have caused programs and facility projects to 
be deferred, created uncertainty regarding the fate of the 
Hubble telescope and resulted in aeronautic spending being 
flat.
    Dr. Griffin, I believe you have the knowledge, the 
background, and the ability to guide NASA. But I also believe 
that you must begin your journey on a firm foundation. Getting 
back to the Moon will take more than just plans for a rocket. 
It will also take a sound financial structure and capable 
management in order to balance all of the important activities 
that NASA undertakes to make this exploration vision a reality.
    I believe there are several looming issues that must be 
addressed to maintain the forward momentum of NASA's 
exploration goals. The first, as I alluded to before, is the 
Shuttle fleet and how that impacts any future crew exploration 
vehicle--CEV. NASA has been working diligently to complete the 
necessary changes to the Shuttle that will provide additional 
safety for our astronauts and the vehicle itself. However, the 
Shuttle is targeted to be decommissioned by 2010. The next U.S. 
manned space vehicle, the crew exploration vehicle, is not 
currently scheduled for a manned flight until 2014. I am 
concerned by such a gap in U.S. manned space flight and, more 
importantly, I am concerned that the time schedule for the 
current 25 or more Shuttle flights prior to the 2010 retirement 
is quite optimistic. Any deviation in these schedules as they 
relate to funding could cause this gap to widen even further 
than is currently anticipated.
    I understand that you have your own ideas, Dr. Griffin, as 
to how the gap between the Shuttle retirement and the CEV could 
be closed. I am interested in hearing how you believe this is a 
possibility during a tight funding environment.
    The second challenge, the completion of the International 
Space Station, is directly linked to the first. The 
construction of the station is dependent on the Shuttle for 
critical supplies and parts that cannot be delivered by any 
other vehicle. Our international partners have done an 
admirable job filling in while the Shuttle is undergoing 
repair, but there is an expectation that the Shuttle will 
return as it is essential to complete the Space Station.
    The United States has a commitment to our international 
partners to complete the station. I believe we must maintain 
that commitment, and I am interested in hearing your thoughts 
about NASA's plans for completing the International Space 
Station and, further, how that will impact our ability to work 
cooperatively with other countries in the future on the vision 
we have.
    Finally, I believe NASA faces a significant challenge in 
building the technical workforce necessary to carry us into the 
future. NASA is one of the most publicly recognized agencies 
within the Federal Government. We all know something about 
NASA, whether it is the stunning pictures of the universe from 
the Hubble space telescope photos from Mars, or even the 
astronauts living on the Space Station. Such high visibility 
and name recognition can be powerful tools in inspiring and 
recruiting future scientists and engineers. But I believe the 
success of NASA programs in science and exploration that 
students see today is the inspiration necessary to attract the 
young people of this Nation to these careers in the future.
    I know you realize that the missions of tomorrow will not 
be possible if there are no scientists and engineers being 
developed today. This is a serious issue that must be addressed 
in order to ensure that future exploration in space can occur.
    I want to thank you again for being here today. It is my 
hope that this will be the beginning, Dr. Griffin, of a 
productive relationship between NASA and this newly constituted 
subcommittee.
    Senator Mikulski.

                STATEMENT OF SENATOR BARBARA A. MIKULSKI

    Senator Mikulski. Thank you very much, Mr. Chairman. And 
today is really the first hearing of the new Commerce, Justice, 
Science Subcommittee, and I want to say how much I look forward 
to working with you, Chairman Shelby. Though we are new 
together in our assignment on this subcommittee, Senator Shelby 
and I have a very long and collegial history together. We 
served on the same committee in the House of Representatives, 
on Energy and Commerce. We were on the Appropriations Committee 
since our arrival in the Senate, and we have worked closely 
with Senator Shelby when he has had other committee 
responsibilities. And I must say, Senator Shelby, I have always 
found you to be a good friend and a very collegial colleague, 
and I look forward to that relationship.
    Also, in your remarks and the priorities that you have laid 
out in your opening statement, I want to assure all those are 
also my priorities and that we can work on a bipartisan basis 
in the interest of the United States of America and look 
forward with you since we both have a parallel will to finding 
the wallet.
    I am excited about this new subcommittee, though I was 
initially disappointed at the dissolution of the VA/HUD 
Subcommittee. But what we see here, I think you and I have a 
new opportunity for a true science subcommittee. I recall that 
our colleague and former astronaut John Glenn said that we 
should have done this a long time ago, that too much of our 
science was stovepiped into too many different subcommittees. 
But here now on this subcommittee we have something quite 
unique. We are bringing together NASA, the National Oceanic and 
Atmospheric Administration (NOAA), the National Science 
Foundation, the National Institutes of Standards, the Patent 
Office, and the President's Science Advisor. So we would hope 
that this would be the beginning of kind of a leveraged science 
policy.
    I am excited about this because I believe that science is 
the key to innovation, and innovation is the key to our future. 
If we are going to have a safer country, a stronger economy, we 
need to be smarter, and that involves really leveraging our 
research and technology development and a world-class 
workforce. Our economy and our national security will depend 
upon it.
    I also think that we, because of this subcommittee, both 
through NASA and the National Oceanic and Atmospheric 
Administration, could present an incredible opportunity in 
terms of far-reaching research and far-reaching exploration of 
the stars, but in a way that we would focus efforts on Earth 
science that would save lives, save livelihoods, and advance 
our technological competitive edge.
    So today I am looking forward to hearing from Dr. Griffin, 
our new head at the helm of NASA. I personally want to thank 
President Bush for appointing an actual rocket scientist to 
head NASA. But I would also like to take this opportunity to 
thank someone in the audience, Mr. Chairman--Mr. Fred Gregory, 
who served as the Acting Director of NASA and provided a very 
steady hand. And, sir, we would like to thank you and salute 
you for the job you did during that time, but also in your 
career at NASA. And I think it points out the wonderful civil 
service we have at NASA, these wonderful men and women who give 
their lives to scientific exploration, who work in the 
Government sphere to advance our national priorities. So we 
want to say thank you to you personally and to you representing 
really what an outstanding civil service we have. So thanks 
again.
    We are looking forward, though, to hearing from Mr. 
Griffin. As the chairman said, we have got to talk about the 
Shuttle. We have got to make sure the Shuttle flies when it 
should fly so that it can go to space and return our astronauts 
safely. At the same time, I too am concerned about the fact 
that we could be without a crew exploration vehicle for 4 
years. We know that the Shuttle is aging technology. We know 
that it will get us through a difficult time now. But I believe 
that we owe it to the country, we owe it to our astronauts, 
that we really look at what is a wide, prudent way to 
accelerate this crew transportation system.
    The United States of America should always have its own 
access to space. The Space Station, too, we need to be able to 
finish that, keep our commitment to our international partners, 
and keep it as a premier research facility.
    And, of course, then there is Hubble. Everyone knows my 
position on Hubble, and I believe it has been the greatest 
telescope invention since Galileo himself stood on that rooftop 
in Florence. And as Dr. Griffin knows, I have stood on those 
rooftops in Baltimore with the Space Telescope Institute and 
our beloved Hubble.
    But Hubble has resulted in enormous scientific 
breakthroughs. We look forward to the next generation, but we 
think if we can repair Hubble, give it new batteries and new 
optics, it will take us far into the future at many different 
levels.
    But, of course, then we look at the NASA budget. I am 
concerned about the Shuttle cost and our ability to pay for it, 
the Space Station and our ability to maintain it, that aging 
infrastructure that Senator Shelby has talked about, and our 
new vision, the President's vision to go into space. But along 
the way, I really hope that we do not neglect the other 
dimension of the NASA responsibility, and that is aeronautics.
    Twenty years ago, the United States had over 90 percent of 
the market share for commercial airlines. Today we have 50 
percent of that market, and the National Institute of 
Aeronautics told us we must really continue to focus on our 
aeronautics for our national security and our economic 
security. And, Mr. Chairman, I look forward to working with 
you, as always, on a balanced program: a reliable space 
transportation system, always supporting the daring and the 
outcome of human exploration, but also a special emphasis on 
science both in terms of understanding our own planet, others 
out there, and also new breakthroughs in aeronautics that will 
help our country be safer and stronger.
    So, Mr. Chairman, I look forward to working with you, 
listening to Mr. Griffin, and again, Mr. Gregory, thank you 
very much.
    Senator Shelby. Senator Hutchison.

               STATEMENT OF SENATOR KAY BAILEY HUTCHISON

    Senator Hutchison. Thank you, Mr. Chairman. And welcome 
again, Mr. Administrator. I certainly look forward to having 
you at my subcommittee next week as well to talk about Space 
Shuttle and beyond.
    The proposed budget for NASA is certainly one that reflects 
difficult choices, but given the overall reductions in 
discretionary spending, I think it is generous and fair. 
Undoubtedly, many areas of traditional NASA activity feel the 
pressure from our new priority: preparing humans for missions 
back to the Moon and on to Mars. This is a new direction. It is 
a bold direction and one that I totally support. NASA should be 
bold, and having the long-term vision is essential for NASA.
    Where I have questions and concerns about NASA, they 
revolve around longer-term impacts to our current investments 
in human space flight capabilities. As you know, Mr. 
Administrator, I am concerned about the possibility of a gap 
between the planned retirement of the Shuttle and the 
availability of the replacement crew return vehicle. I think a 
5-year gap is unacceptable. I think it is not only a risk to 
the important scientific research that we are doing, but it is 
a security risk to our country. And I am pleased that you have 
shared the same concerns, and I know both the chairman and the 
ranking member here have also expressed those concerns.
    I also am concerned about the investment that our Nation 
and our international partners have made in the International 
Space Station and wanting to assure that with the budget 
priorities that we have, we keep the commitments to the 
International Space Station and finishing the job of building 
it out.
    In addition, of course, I believe that the science is going 
to be the most important thing that we do with humans in space, 
and, therefore, we need to have the Space Station totally ready 
with its buildout and with the scientific emphasis that is so 
important for the missions to succeed.
    So I am looking forward to working with you. I think what 
you have done in delaying the return to flight is exactly the 
right thing. Your concern for safety and your jumping right in 
and going to the bottom, not just the top, to determine that we 
were ready to go was exactly right. And as my friend and 
colleague Senator Mikulski said, we want it to go badly but we 
want it to go at the right time more. So thank you very much 
for being here, and I look forward to being able to hear you 
and then ask questions.
    Thank you, Mr. Chairman.
    Senator Shelby. Dr. Griffin, your written statement will be 
made part of the record in its entirety. Proceed as you wish.

         SUMMARY STATEMENT OF ADMINISTRATOR MICHAEL D. GRIFFIN

    Mr. Griffin. Thank you, Senators. It is also my pleasure to 
be here. I thank you for the invitation to appear before your 
subcommittee and begin the process of communication with you, 
which I pledge will be thorough and ongoing throughout my 
tenure.
    In the spirit of Senator Mikulski's remarks, I would like 
also to take a moment and thank Colonel Gregory for his service 
between Administrator O'Keefe's departure and my arrival. Fred 
is a personal friend of more than 15 years' standing, a person 
who has risked his life on behalf of this country in Vietnam, 
in military test flying, in weather flying, weather research 
flying, and on the Space Shuttle. His services in linking the 
tenures of Administrator O'Keefe and myself have been 
invaluable, and he continues to be invaluable today, and I want 
to take this opportunity to thank him publicly. So thank you, 
Fred.
    Chairman Shelby, ranking member Mikulski, Senator 
Hutchison, members of the subcommittee, thank you for this 
opportunity to discuss the President's fiscal year 2006 budget 
request for NASA and our strategic direction in carrying out 
the Nation's civil aeronautics research, space and Earth 
science, and space exploration activities.
    A month ago today, I appeared before the Senate Commerce, 
Science, and Transportation Committee as the President's 
nominee to be the NASA Administrator. I want to thank the 
Senate for your prompt consent to my nomination. It has been a 
busy month, and the Agency is well underway toward implementing 
the Vision for Space Exploration.
    I have said before and will say again that, as a Nation, we 
can clearly afford vigorous, well-executed programs in both 
robotic and human space exploration, Earth science, and 
aeronautics research. In presenting the vision last year, the 
President put forth a commitment that our Nation will undertake 
a journey of space exploration over the next several decades. I 
am personally committed to carrying out that vision.
    Every journey begins with a single step. The first step in 
that journey is to return--not rush--the Space Shuttle to 
flight. The next launch window for the first Space Shuttle 
mission following the Columbia tragedy begins in mid-July. 
Space Shuttle Discovery mission STS-114 will be commanded by 
Eileen Collins. I might add ``Colonel'' Eileen Collins. Our top 
priority in my tenure will be to make each successive flight 
safer for the crew than we believed the last one to have been.
    The second step in the vision is to complete the 
construction of the International Space Station and to retire 
the Space Shuttle by 2010. After two successful return-to-
flight Shuttle test flights, the Agency will complete its 
assessment of the relative risks of a Space Shuttle mission to 
service the Hubble space telescope to increase its capabilities 
and to extend its operational life.
    The next step in the Vision for Space Exploration is to 
develop the crew exploration vehicle that will be capable of 
ferrying the next generation of astronauts to the Space 
Station, the Moon, and Mars. As you may know, I recently kicked 
off an exploration systems architecture study team to examine 
ways to accelerate the development of the crew exploration 
vehicle in order to minimize any gaps in the United States' 
capability for human space flight. As I think all of you know, 
I completely share your concern about any gap between the 
retirement of the Shuttle and initiation of flights of the 
follow-on vehicle. I hope to share with you by mid-July NASA's 
plan for how we can accelerate development of the CEV, as well 
as that of the rocket needed to launch it. I also hope to share 
with you NASA's plan for the space architecture that will allow 
us to return to the Moon and eventually head onwards to Mars.
    NASA's fiscal year 2006 budget also funds a variety of 
satellite missions and scientific research in Earth science as 
well as other planets in our solar system. It funds development 
of even more advanced space telescopes to follow the Hubble, 
such as the James Webb space telescope.
    NASA's fiscal year 2006 budget for aeronautics research is 
focused on achieving results, such as reducing noise emissions, 
improving aircraft safety and security, and improving the 
capacity and efficiency of the National Airspace System. NASA 
is working closely with the FAA, the Defense Department, the 
Department of Homeland Security, and others to achieve those 
results.
    While today's hearing concerns the upcoming fiscal year, I 
also want to update the subcommittee concerning the difficult 
choices that must be made in executing NASA's fiscal year 2005 
budget and my guiding philosophy in dealing with those 
challenges.
    First, I want to thank this subcommittee and the Congress 
for providing NASA with the additional flexibility to address 
our challenges in this year's appropriation bill. It is my 
pledge to keep you fully informed as to how this Agency spends 
its allocated resources in accordance with the flexibility you 
have given us.
    In our fiscal year 2005 operating plan, which has been 
provided to this subcommittee, NASA is fully funding a $762 
million cost increase for Space Shuttle Return to Flight 
consistent with the recommendations of the Columbia Accident 
Investigation Board, over $400 million in congressionally 
directed items, $291 million for Hubble servicing options, and 
over $500 million in programmatic cost increases for various 
programs, including the Mars Reconnaissance Orbiter, set to 
launch in August, and the New Horizons mission to Pluto set for 
launch in early January--and numerous others, I might add, not 
just those two.
    To find offsets needed to fund these items, we have made 
some difficult choices. NASA cannot afford everything that is 
on its plate today. We must set clear priorities to remain 
within the budget NASA has been allocated.
    In order to preserve the option of servicing the Hubble 
space telescope and to provide for a safe deorbit, NASA must 
defer work on even more advanced astronomy missions planned 
after the Webb telescope. These projects, which are phenomenal 
technical achievements, will be done, but at a slower pace 
because we cannot afford to do everything at once.
    We will also look at deferring some Mars missions in their 
formative stages, currently in their formative stages, and 
restructuring Project Prometheus space nuclear power efforts. 
We must focus on nuclear technology efforts on our highest 
priorities for near-term needs, and we will examine alternative 
nuclear systems, including surface nuclear power, nuclear 
thermal propulsion, and nuclear electric propulsion systems to 
support human and robotic missions.
    Turning to NASA's fiscal year 2006 budget request, I think 
it is useful to emphasize that the proposal is balanced, 
allowing us to address national priorities in aeronautics and 
Earth science, while maintaining our focus on the vision for 
space exploration introduced in NASA's fiscal year 2005 budget.
    Budget highlights include a $5.5 billion request for the 
Science Mission Directorate. This will support 55 missions in 
orbit, 26 in development--including the Lunar Reconnaissance 
Orbiter which will map the Moon's surface in great detail--and 
34 projects in the design phase. NASA has a robust science 
agenda.
    Our $3.2 billion request for the Exploration Systems 
Mission Directorate includes $753 million, a down payment 
toward the crew exploration vehicle, so that we will have the 
capability to launch humans into space as soon as possible 
after the Shuttle's retirement.
    One of the ways we may accelerate development of the CEV is 
by down-selecting to a single contractor in early 2006 as 
opposed to the previously planned 2008. Likewise, we may also 
need to defer work in certain exploration-related technologies 
that are not needed in the early years of implementing the 
vision for exploration.
    The funding request of $6.8 billion for the Space 
Operations Mission Directorate includes $4.5 billion for the 
Space Shuttle and $1.9 billion for the International Space 
Station. NASA is currently examining alternative configurations 
for the Space Station that meet the needs of the United States 
and our international partners. We hope to provide the 
subcommittee our results from this study of the station 
configuration this summer.
    NASA's request for the Aeronautics Research Mission 
Directorate is $852 million. NASA's technical expertise and its 
facilities for aeronautics research must continue to become 
more focused and results-oriented. NASA must set realistic 
priorities for its aeronautics program within its limited 
resources. As we move forward, a broader national dialogue on 
aeronautics R&D goals may be appropriate as we enter the second 
century of aviation. These discussions must include a range of 
stakeholders and customers, including the Congress, Department 
of Defense, commercial civil aviation, and, of course, NASA.
    NASA's education initiatives need to establish clear goals, 
metrics, and monitoring techniques in the coming months to 
ensure that the funds the Congress provides will achieve the 
greatest benefit.
    I also intend to review how NASA can best harness the 
unique capabilities of the workforce at its field centers to 
achieve our Nation's objectives in aeronautics research, space 
science, and exploration.
    To conclude, let me stress my firm belief that as a Nation, 
we can clearly afford vigorous and well-executed programs in 
both robotic and human space exploration, Earth science, and 
aeronautics research.

                           PREPARED STATEMENT

    I plan to work closely with your subcommittee to help 
achieve these ends.
    Thank you once again for the opportunity to appear before 
you this morning.
    [The statement follows:]

                Prepared Statement of Michael D. Griffin

    Mr. Chairman and Members of the Subcommittee, thank you for this 
opportunity to appear today to discuss NASA's plans for the future as 
represented in the President's fiscal year 2006 budget request for 
NASA.
    On January 14, 2004, President George W. Bush announced the Vision 
for Space Exploration. The President's directive gave NASA clear 
objectives as well as a new and historic focus. The fundamental goal of 
this directive for the Nation's space exploration program is ``. . . to 
advance U.S. scientific, security, and economic interests through a 
robust space exploration program.'' In issuing this directive, the 
President committed the Nation to a journey of exploring the solar 
system and beyond, returning humans to the Moon, and sending robots and 
ultimately humans to Mars and other destinations. He challenged us to 
establish new and innovative programs to enhance our understanding of 
the planets, to ask new questions, and to answer questions as old as 
humankind. NASA embraced this directive and began a long-term 
transformation to enable us to achieve this goal.
    In June 2004, the President's Commission on Implementation of the 
United States Space Exploration Policy, led by E.C. ``Pete'' Aldridge, 
Jr. (the Aldridge Commission), reported its findings and 
recommendations to the President. The Aldridge Commission emphasized 
the crucial role that technological innovation, national and 
international partnerships, and organizational transformation must play 
if we are to implement the President's vision for an affordable and 
sustainable space exploration program. NASA is committed to making the 
necessary transformation to achieve the Vision for Space Exploration.
    On December 21, 2004, the President signed a new national policy 
directive that establishes guidelines and implementation actions for 
United States space transportation programs and activities to ensure 
the Nation's continued ability to access and use space for national and 
homeland security, and civil, scientific, and commercial purposes. NASA 
will play a significant role in implementing this directive, fostering 
and enabling the development of space transportation capabilities for 
human space exploration beyond low-Earth orbit with the Crew 
Exploration Vehicle (CEV), consistent with the goals of the Vision for 
Space Exploration.
    The President demonstrated his commitment to the Vision for Space 
Exploration by making it a priority in his fiscal year 2005 budget 
request, and Congress responded positively by providing funding for 
NASA at the level requested by the President. The President has 
reaffirmed his commitment to the Vision by again making it a priority 
in his fiscal year 2006 budget request in a very challenging budget 
environment. The $16.46 billion requested for NASA reflects an increase 
of 2.4 percent over fiscal year 2005.
    While today's hearing concerns the President's fiscal year 2006 
budget request for NASA, I must also use this opportunity to update the 
Committee regarding the difficult choices that need to be made in 
executing NASA's fiscal year 2005 budget, and my guiding philosophy in 
dealing with these challenges.
    First, and most importantly, I want to thank this Committee and the 
Congress for providing NASA additional flexibility in the fiscal year 
2005 appropriations bill to address the challenges facing the Agency. 
It is my pledge to keep you fully informed of how this Agency spends 
the funds you have provided us. A detailed fiscal year 2005 Operating 
Plan update was recently provided to all of the Committees in Congress 
which oversee NASA.
    With this fiscal year 2005 Operating Plan update, NASA is fully 
funding--within our fiscal year 2005 budget--the $762 million increase 
for returning the Space Shuttle safely to flight, consistent with the 
recommendations from the Columbia Accident Investigation Board (CAIB), 
over $400 million in Congressionally-directed items, $291 million for 
Hubble servicing, and over $500 million in necessary programmatic cost 
increases, notably to cover cost growth in several space science 
missions, including the Mars Reconnaissance Orbiter, scheduled to be 
launched this August, and the New Horizons mission to Pluto set to 
launch in early January 2006.
    Identifying offsets needed to fund these items has created some 
difficult choices for the Agency. Given a choice, I generally favor 
eliminating lower-priority programs rather than reducing all programs 
in the face of budget difficulties, because this allows for the more 
efficient execution of the programs which remain. Thus, we must set 
clear priorities to remain within the budget which has been allocated.
    Allow me to be as clear as possible on what the impact of these 
costs means to other programs. The Agency has adopted a ``go-as-you-
can-pay'' approach toward space exploration. Several NASA missions and 
activities will need to be deferred or accomplished in other ways in 
order to ensure adequate funding for the priorities of the President 
and the Congress in fiscal year 2005. NASA cannot do everything that 
we, and our many stakeholders, would like to accomplish. Several 
missions will have to be delayed, deferred, or cancelled in order to 
pay for the missions where the priorities were set by the President and 
Congress. We have tried to be sensitive to the priorities of the 
affected research communities, and have listened carefully to their 
input. For example, we seek to balance among planetary science, Earth 
science, solar physics, and astronomy within the overall science 
program by revisiting our Mars exploration program strategy and mission 
sequence. Deferring the Mars Science Lab to 2011 is an option in this 
reassessment.
    In order to service the Hubble Space Telescope and provide for a 
safe deorbit, NASA will need to defer work on even more advanced space 
telescopes like the Space Interferometry Mission (SIM) and Terrestrial 
Planet Finder (TPF). The extent of this deferral and an appropriate 
follow-on strategy for the Origins program is currently under review. 
Space nuclear power and propulsion are absolutely essential for future 
space exploration. However, we must focus our nuclear technology 
efforts on our highest priorities for near-term needs. NASA will 
examine alternative nuclear systems--including surface nuclear power, 
nuclear thermal, and nuclear electric systems--to support human and 
robotic missions. As a result, we are able to restructure Prometheus 
Nuclear Systems and Technology, which, in the near-term, helps pay for 
fiscal year 2005 unrequested Congressional items and Agency priorities.
    As we complete future planning activities later this summer, we 
will need to further examine resources to accelerate the CEV. Likewise, 
NASA's research and technology efforts to support human space 
exploration missions farther out into the future will need to be 
curtailed, to focus on near-term needs of developing the CEV to be 
available as soon as possible.
    As someone who has managed many space and advanced technology 
programs, I believe that NASA's one-of-a-kind spacecraft missions must 
combine technical requirements and budget authority under clear lines 
of management authority and accountability. When I arrived at NASA a 
month ago, I found some programs (namely, the Hubble servicing mission, 
Robotic Lunar Exploration, and ISS crew/cargo) with overlapping 
responsibilities among Mission Directorates. We are simplifying the 
management chain-of-command and, in the May update to the fiscal year 
2005 Operating Plan, are transferring management responsibilities to 
the appropriate line managers.
    Likewise, when I arrived at NASA, the role of the CEV in supporting 
the International Space Station (ISS) was not clear. While the recently 
established Exploration Systems Architecture Study team will carefully 
define the CEV's requirements, I have specifically directed that the 
CEV will visit the ISS. As I testified during my confirmation hearing, 
I believe that the CEV development must be accelerated in order to 
minimize the gap between the Space Shuttle retirement and the first 
operational flight of the CEV. To that end, NASA's Exploration Systems 
Mission Directorate (ESMD) will be responsible for developing and 
acquiring crew and cargo capabilities to support the ISS, and funds 
have been transferred to that Directorate in the May update to NASA's 
fiscal year 2005 Operating Plan.

                            NASA PRIORITIES

    Over the past year, NASA has made great strides in implementing the 
Vision for Space Exploration and meeting other national priorities:
  --Shuttle Return to Flight.--We are making final preparations for the 
        Space Shuttle return-to-flight planned for mid-July.
  --International Space Station.--The ISS began its fifth year of 
        continuous human presence on-orbit.
  --Exploring our Solar System and the Universe.--The Mars rovers, 
        Spirit and Opportunity, have exceeded all expectations and made 
        unprecedented discoveries; the Cassini/Huygens mission is 
        providing stunning views of Saturn and Titan; the Genesis 
        mission, despite its hard landing, has returned primordial 
        samples from space; new missions have been launched to Mercury 
        and to comets; and amazing discoveries continue with Hubble, 
        Chandra, and Spitzer.
  --Laying the Groundwork for the Future.--We awarded initial contracts 
        in preparation for a major milestone in 2008 with the mapping 
        of the Moon in unprecedented detail by the Lunar Reconnaissance 
        Orbiter (LRO).
  --Engaging the Public.--We engaged the public and enhanced national 
        excitement for space exploration thanks to the President's 
        announcement of the Vision for Space Exploration. Indeed, in a 
        Gallup poll, seven out of ten Americans supported the 
        objectives of this Vision.
  --Aeronautics.--We are continuing to execute a portfolio of focused, 
        results-oriented technology demonstrations of next-generation 
        aircraft along with aviation safety, security, and airspace 
        systems. NASA, with its industry partners, recently 
        demonstrated the feasibility of significantly reducing the 
        sonic boom from supersonic aircraft, and, last November, NASA's 
        hypersonic X-43A demonstrated that an air-breathing engine can 
        fly at nearly 10 times the speed of sound.
  --Earth Science.--We have completed deployment of the Earth Observing 
        System and are supporting investments in the Global Change 
        Science and Technology Program and the next generation Earth 
        observing satellites for numerous applications, including 
        improved weather forecasts, earthquake prediction, resource 
        management, and other hazard warnings.
  --Education.--We are continuing to educate the public and inspire the 
        next generation of explorers.

                    AFFORDABILITY AND SUSTAINABILITY

    In his February 2nd State of the Union Address, the President 
underscored the need to restrain spending in order to sustain our 
economic prosperity. As part of this restraint, it is important that 
total discretionary and non-security spending be held to levels 
proposed in the fiscal year 2006 Budget. The budget savings and reforms 
in the Budget are important components of achieving the President's 
goal of cutting the budget deficit in half by 2009, and we urge the 
Congress to support these reforms. The fiscal year 2006 Budget includes 
more than 150 reductions, reforms, and terminations in non-defense 
discretionary programs, of which 3 affect NASA programs. The Agency 
wants to work with the Congress to achieve these savings.
    To achieve the Vision for Space Exploration, NASA is proceeding, as 
directed by the President, to plan and implement a sustainable and 
affordable, integrated robotic and human exploration program, 
structured with measurable milestones, and executed on the basis of 
available resources, accumulated experience, and technology readiness. 
Last year, we provided a long-range roadmap through 2020 to outline 
this program:
  --The Space Shuttle will be retired by 2010. Prior to its retirement, 
        it will be utilized primarily for the assembly of the ISS. Our 
        top priority will be to make each flight safer than the last 
        one.
  --The crew transportation capability provided by the Shuttle will be 
        replaced by the new CEV and its associated launch system. The 
        CEV will be developed in the latter part of this decade and 
        deployed operationally as soon as possible after Shuttle 
        retirement. The CEV will conduct missions in Earth orbit, 
        including missions to the ISS, but its primary mission will be 
        to support exploration of the Moon and other destinations.
  --A balanced program of robotic missions will continue to increase 
        our understanding of our home planet and will continue the 
        exploration of the solar system, traveling to the Moon and Mars 
        in anticipation of later human visits, as well as to other 
        destinations such as Mercury, Saturn, Pluto, asteroids, and 
        comets. Observatories will be deployed to search for Earth-like 
        planets and habitable environments around distant stars, and to 
        explore the universe to understand its origin, structure, 
        evolution, and destiny. Funding for these areas would 
        significantly increase over the coming years, with Science 
        investments growing from 33 percent to 38 percent of the 
        Agency's total budget.
  --Human explorers will return to the Moon, possibly as early as 
        2015--with the CEV as the first core element of a new 
        exploration architecture. Major development of the other 
        elements in the exploration architecture will commence later 
        this decade and will accelerate upon the retirement of the 
        Space Shuttle. These exploration elements will include launch 
        vehicles, in-space transfer systems, lunar landers, and surface 
        habitation systems. Critical research and technology investment 
        decisions will be guided by the development requirements of 
        these elements.
    These human and robotic explorers will enable our exploration and 
scientific plans. A recent report released on February 3, 2005, by the 
National Research Council, entitled Science in NASA's Vision for Space 
Exploration, states, ``Exploration done properly is a form of science. 
Both robotic spacecraft and human spaceflight should be used to fulfill 
scientific roles in NASA's mission to explore.'' To that end, NASA has 
initiated an Exploration Systems Architecture Study, to be completed in 
mid-July, which will provide the analytical support for a number of key 
near-term decisions for NASA, the White House, and Congress. We will 
keep Congressional Committees informed as this study effort progresses.
    This study effort has four products:
  --Complete assessment of the top-level CEV requirements and plans to 
        enable the CEV to provide crew transport to the ISS and to 
        accelerate the development of the CEV and crew launch system to 
        reduce the gap between Shuttle retirement and initial CEV 
        flights to the ISS.
  --Definition of top-level requirements and configurations for crew 
        and cargo launch systems to support the Lunar and Mars 
        exploration programs.
  --Development of a reference Lunar exploration architecture concept 
        to support sustained human and robotic Lunar exploration 
        operations.
  --Identification of key technologies required to enable and 
        significantly enhance these reference exploration systems, and 
        a re-prioritization of near-term and far-term technology 
        investments.
    NASA is also currently examining alternative configurations for the 
Space Station that meet the goals of the Vision and the needs of our 
international partners, while requiring as few Shuttle flights as 
possible to complete assembly.

         NASA PRIORITIES IN THE FISCAL YEAR 2006 BUDGET REQUEST

    The President's fiscal year 2006 budget request for NASA reaffirms 
the funding strategy outlined above. NASA's fiscal year 2006 request 
endeavors to provide a balanced portfolio of programs to meet the needs 
of our national priorities in aeronautics and civil space. It maintains 
focus on key priorities, milestones, and schedules for the Vision 
introduced in the fiscal year 2005 budget.
    To support the Administration's goal of reducing the deficit, 
NASA's budget was reduced $0.5 billion in fiscal year 2006 below the 
level planned in the 2005 budget for fiscal year 2006. In addition, 
returning the Shuttle safely to flight will cost $0.4 billion more in 
fiscal year 2006 than previously estimated. To address these and other 
items, we proposed a budget that provided $0.4 billion (11 percent) 
less for Exploration Systems than previously planned for, $0.3 billion 
(5 percent) less in Science, $0.1 billion (11 percent) less in 
Aeronautics, and $0.2 billion (4 percent) more in Space Operations. 
These changes were not easy, but in the end, we made the decisions to 
protect the priorities outlined above.

                                SCIENCE

    The fiscal year 2006 budget request of $5.5 billion for the Science 
Mission Directorate will support 55 missions in orbit, 26 in 
development, and 34 in design phase. By 2010, the Science budget will 
increase by 23 percent over current levels.
    The fiscal year 2006 budget includes $858 million for Mars and 
Lunar robotic exploration. The Mars rovers, Spirit and Opportunity, 
have far exceeded all goals with their unprecedented discoveries and 
longevity. Last year, the rovers found definitive evidence of an 
ancient body of water on the Red Planet, and they continue to gather 
data more than a year after their successful landing. We recently 
awarded contracts for six instruments to be flown on the 2008 LRO that 
promises unprecedented mapping of the Moon's surface. The 2008 LRO will 
be the first step in revolutionizing our understanding of the Moon, in 
much the same way that our Mars missions have transformed our 
understanding of Mars. As mentioned earlier, to simplify the management 
chain-of-command among mission directorates, our fiscal year 2005 
Operating Plan update transfers management responsibility for the Lunar 
Exploration program, including LRO, to the ESMD. This will help to 
maximize the exploration and science benefits of this important 
program.
    The budget also includes $218 million to maintain competitive 
efforts for the Explorer Program, $56 million for the Beyond Einstein 
program to study the universe, $234 million for studying the Sun in the 
Living With a Star program, and $136 million for competitive 
opportunities in the Earth System Science Pathfinder program. With our 
international partners, we also continue to add to the constellation of 
Earth-observing satellites that monitor our planet while extending our 
reach and presence further into the solar system. NASA launched Aura to 
look back at Earth and give us a better picture of our atmosphere and 
changing climate, and the entire Earth Observing System continues to 
return trillions of bytes of information about our dynamic Earth. In 
the future, NASA plans to develop a ``sensor-web'' to provide timely, 
on-demand data and analysis to users who can enable practical benefits 
for scientific research, national policymaking, economic growth, 
natural hazard mitigation, and the exploration of other planets in this 
solar system and beyond.
    NASA will continue to expand its exploration reach with an armada 
of existing and new space observatories operating in many different 
wavelengths and looking at different parts of our exotic universe. The 
three ``Great Observatories''--Hubble, Spitzer, and Chandra--will 
continue to bring wondrous images to our eyes and exciting new 
scientific discoveries. Missions such as Kepler will provide a new 
understanding and knowledge of the planets orbiting stars far from our 
solar system, perhaps identifying new targets for voyages of 
exploration by future generations of explorers.
    This budget also includes $372 million to continue developing the 
James Webb Space Telescope for a 2011 launch and provides $93 million 
in development funds for the Hubble Space Telescope to extend its 
scientific productivity. This investment in the Hubble, together with 
the synergistic use of the other two Great Observatories, and combined 
with the greatly increased capability of ground-based assets and the 
emergent science of optical interferometry, will ensure many years of 
new scientific discoveries.
    NASA's decision in January 2004 not to service the Hubble was a 
very difficult one, given the Hubble's record of spectacular successes. 
That decision was made at a time when significant uncertainty remained 
regarding the technical solutions and risks associated with return to 
flight. After the two successful Space Shuttle flights needed to 
achieve our return to flight objectives, NASA will have learned a great 
deal more regarding the risks and operations of the vehicle than was 
known when the previous decision was made. I am committed to 
reassessing this earlier decision after return to flight, based on the 
relative risks to the Space Shuttle as well as the costs and benefits 
to our Nation's astronomy program. As a result, we are continuing our 
efforts to preserve the option for a Shuttle servicing mission for 
Hubble. Consistent with this ongoing activity, NASA's fiscal year 2005 
Operating Plan update has fully funded the $291 million identified in 
the Conference Report accompanying the fiscal year 2005 Consolidated 
Appropriations bill and has consolidated the funding and management 
responsibility within the Science Mission Directorate. NASA will use 
the balance of the fiscal year 2005 funds to maintain options for HST 
servicing and deorbit. NASA has also begun the analysis of how a de-
orbit module for the Hubble Space Telescope could be added to the 
manifest of such a Space Shuttle servicing mission. I will make a 
decision regarding a Shuttle servicing mission for Hubble following the 
two successful Return to Flight missions. In the interim, the Agency 
will keep all stakeholders apprised as this work progresses. NASA 
remains committed to a world-class, affordable program of space-based 
astronomy.

                       PREPARING FOR EXPLORATION

    The fiscal year 2006 budget request of $3.2 billion for the ESMD 
includes $753 million for continuing development of the CEV, the 
vehicle that will serve as the core element for future exploration 
beyond Earth orbit. The CEV promises safer travel for astronauts into 
space, continuing U.S. human access to space as soon as possible after 
retirement of the Shuttle.
    Our earlier plans called for operational deployment of the CEV not 
later than 2014. However, given the role of the CEV as a replacement 
for the Shuttle in providing human access to space, we are now seeking 
programmatic alternatives to allow development of the CEV to be 
completed as soon as possible. Acceleration of the CEV program will be 
accomplished by down-selecting to a single contractor sooner than 
originally planned, and by deferring other elements of the Exploration 
Systems Research and Technology plan not required for the CEV or for 
the early phases of human return to the Moon.
    The fiscal year 2006 budget request includes $919 million (a 27 
percent increase) for Exploration Systems Research and Technology that 
will enable designs for sustainable exploration, including $34 million 
for a revamped technology transfer program and $34 million for the 
Centennial Challenges prize program. The Agency continues to seek the 
support of the Congress for authorization to enable larger prize 
awards. This budget also includes $320 million for a restructured 
Prometheus Nuclear Systems and Technology Theme for space-qualified 
nuclear systems. The technology and capabilities being developed by the 
Prometheus Nuclear Systems and Technology Theme are critical for 
enabling the power and propulsion needs of the Vision for Space 
Exploration. As part of the Agency's effort to define an Exploration 
Systems Architecture, NASA will examine alternative nuclear systems, 
including surface nuclear power, nuclear thermal, and nuclear electric 
systems. NASA will restructure Project Prometheus for space-qualified 
nuclear systems to support human and robotic missions with clear 
priorities focused on near-term needs. We expect to make program 
decisions to focus our nuclear technology efforts on our highest 
priorities for near-term applications as part of the Exploration 
Architecture study, to be completed this summer. In addition, the 
fiscal year 2006 budget request provides $806 million for Human Systems 
Research and Technology, which has been restructured so its programs 
are now linked directly to exploration requirements for human missions 
to the Moon, Mars, and beyond.

                          AERONAUTICS RESEARCH

    NASA's fiscal year 2006 request for the Aeronautics Research 
Mission Directorate is $852 million, a significant portion of the 
government's overall investment in aeronautics research. To make the 
most of this investment, NASA's technical expertise and facilities for 
aeronautics research are becoming more focused and results-oriented. 
NASA's current aeronautics research is focused on enhancing the public 
good. NASA is also working to maintain a strong basic aeronautics 
research program and to establish a series of far-reaching objectives, 
each of which, if enabled, could significantly transform civil 
aeronautics. The results from the basic research, technology 
development, and demonstrations achieved by NASA's Aeronautics efforts 
will be transitioned for use by both Government and industry. The 
President's fiscal year 2006 request increased the vital research of 
the Aeronautics program in Aviation Safety and Security and in Airspace 
Systems. These two priority programs are fully funded to ensure timely 
results critical to meeting national goals. NASA works closely and 
constructively with other Executive Branch agencies to enhance our 
Nation's aeronautics capability. In this vein, NASA, along with the 
Departments of Defense, Homeland Security, Commerce, and 
Transportation, is a principal member of the interagency Joint Planning 
and Development Office (JPDO), which was chartered by the Century of 
Aviation Revitalization Act to oversee research and technology efforts 
for the Next Generation Air Transportation System. NASA is working 
closely with industry consortia and other Government agencies to 
develop advanced aircraft demonstrations, such as those that would 
expand the capabilities of high-altitude, long-endurance, unmanned 
aerial vehicles, which could have numerous commercial, scientific, and 
homeland security applications.
    At this time, NASA is also working with other U.S. Government 
departments and agencies and industry to assess its facilities for 
aeronautics research. NASA will need to consider the possibility of 
closing some underutilized aeronautics facilities, while modernizing 
some others to become state-of-the-art facilities.
    As we move forward, a broader national dialog on aeronautics R&D 
goals may be appropriate as we enter the second century of aviation. 
These discussions should include a range of stakeholders and customers, 
including the Congress. This process could lead to a national consensus 
for aeronautics R&D goals.

                               EDUCATION

    NASA's fiscal year 2006 budget request includes $167 million for 
the Office of Education to support programs that will keep the United 
States strong in science, technology, engineering, and math education. 
NASA will establish clear goals, metrics, and monitoring capabilities 
for its education initiatives in the coming months to ensure that these 
funds will achieve the greatest benefit.

                        MEETING OUR OBLIGATIONS

    The fiscal year 2006 budget request of $6.8 billion for the Space 
Operations Mission Directorate (SOMD) reflects the first step in the 
Vision for Space Exploration: returning the Space Shuttle safely to 
flight and resuming flight operations. Going forward, all SOMD 
expenditures will be consistent with the retirement of the Space 
Shuttle by 2010, while maintaining operational safety of flight 
throughout the program. The fiscal year 2006 budget includes $4.5 
billion for the Space Shuttle program. The budget also provides $1.9 
billion for the ISS. NASA currently is examining configurations for the 
Space Station that meet the goals of the Vision for Space Exploration 
and needs of our international partners, while requiring as few Shuttle 
flights as possible to complete assembly.
    A key element in the future of the ISS program is the purchase of 
alternate cargo transportation services to supplement the Space 
Shuttle, and the development of new crew transportation capabilities to 
replace Shuttle when it retires. Because the ESMD has the mission to 
develop and acquire such crew and cargo capabilities for the ISS and 
beyond, I have transferred management responsibility for the activities 
and budget of ISS Cargo/Crew Services to ESMD from SOMD, as stated in 
the May update to NASA's fiscal year 2005 Operating Plan. The budget 
request before the Congress provides $160 million for these services in 
2006.
    We are making final preparations to return the Space Shuttle safely 
to flight in 2005. We have made more than 100 major maintenance 
modifications and upgrades to Discovery and its supporting systems, 
including new cabling and wiring that will support leading edge 
sensors, a digital camera, and a boom extension for the Shuttle's 
robotic arm that will enable us to inspect nearly all the outside areas 
of the orbiter's Thermal Protection System during missions. Technicians 
have installed the Forward Reaction Control System and the Reinforced 
Carbon-Carbon Nose Cap, and 88 sensors are being installed on each 
wing, of which 66 will measure acceleration and impact data, and 22 
will take temperature data during Discovery's journey. Discovery and 
its propulsion elements are now at the launch pad undergoing the final 
tests and checks required prior to launch, currently scheduled to occur 
not earlier than July 13, 2005.
    As the United States implements the Vision for Space Exploration, 
the Administration recognizes the value of effective cooperation with 
Russia to further our mutual space exploration goals. At the same time, 
we must appropriately reflect U.S. nonproliferation policy and 
objectives in our relationship with Russia. The Administration is thus 
seeking a balanced approach that continues to maintain strongly our 
nonproliferation goals while advancing potential U.S. cooperation with 
Russia on the Vision for Space Exploration. Such a balanced approach 
must include the Iran Nonproliferation Act of 2000 (INA), which 
currently constrains cooperation with Russia on the ISS, and threatens 
to have an adverse impact on cooperation with Russia in our future 
space exploration efforts related to human space flight. To that end, 
the Administration will soon engage the Congress, and we look forward 
to working with Congress to ensure that the Vision for Space 
Exploration is successful, while remaining fully consistent with 
broader U.S. national security and nonproliferation goals.
    This year, we began our fifth year of continuous astronaut presence 
on the ISS. Astronauts continue their international cooperation onboard 
the Station through a variety of joint research activities.

                           TRANSFORMING NASA

    For the last three decades, NASA and the Nation's human spaceflight 
program have been focused on the development and operation of the Space 
Shuttle and the Space Station. In its final report, the CAIB was very 
forthright in its judgment that these goals are too limited to justify 
the expense, difficulty, and danger inherent in human spaceflight, 
given the limitations of today's technology. The CAIB was equally 
forthright in calling for a national consensus in the establishment of 
a program having broader strategic goals. The Vision for Space 
Exploration proposed by the President is that program, and NASA has 
embraced this new direction. But to effect these changes, NASA must 
engage in a major transformation--taking the capabilities we have 
throughout the Agency and restructuring them to achieve these 21st 
Century goals. This is an enormous challenge, but we have begun to 
transform our entire organization to foster these changes and to 
enhance a positive, mission-driven culture.
    The CAIB was also clear in its assessment that the lack of open 
communication on technical and programmatic matters was a direct cause 
of the loss of Columbia. We have understood and embraced this 
assessment, and are absolutely and completely committed to creating an 
environment of openness and free-flowing communication by continuing to 
assess our leadership practices.
  --Embracing Competition.--NASA is embracing competition as a way to 
        elicit the best from NASA's Centers, industry, and academia. 
        The Agency is using competitive processes to encourage more 
        cost-effective, innovative solutions to the scientific and 
        technical challenges presented by the Vision. Over the past 
        year, competitive selections in exploration have demonstrated 
        increased collaboration between NASA's Centers and industry and 
        academia. The engine of competition is the primary force behind 
        the American economy, the greatest the world has ever known, 
        and we plan to make greater use of this engine than has been 
        the case at NASA in the past. NASA plans to pursue appropriate 
        partnerships with the entrepreneurial and commercial space 
        sector to the maximum practical extent.
  --The Role of the Centers.--While competitive processes are crucial 
        to maintaining NASA at the ``cutting edge'' of science and 
        technology, we must acknowledge that the NASA Centers and other 
        Federal research and development laboratories exist, and have 
        existed for decades, precisely because industrial competition 
        does not serve to accomplish all of our national goals. In 
        order to accomplish the national goals set forth by the 
        President and Congress, NASA must set realistic priorities 
        within limited resources. NASA Centers will have an important 
        role in definition of the architecture and requirements for 
        exploration beyond low-Earth orbit, and for the systems 
        engineering and integration functions used in building the 
        systems of that architecture. We will continue to assess the 
        skill-mix that we require, the number of people we require, 
        their location, and how we are organizing ourselves to fulfill 
        our obligations to the President and Congress. To begin to 
        create some of the workforce flexibility necessary for the 
        future, NASA has offered voluntary separation incentives 
        (buyouts) to employees in positions identified with excess 
        competencies. To the extent that NASA's workforce needs 
        revitalization, NASA will propose legislative initiatives to 
        the Congress as part of the Agency's draft fiscal year 2006 
        Authorization Bill. Congress's enactment of the NASA Workforce 
        Flexibility Act of 2004 is helping the Agency toward that end, 
        and additional authorities will provide even more aid in 
        managing the Agency's workforce.
  --Improved Decision-Making.--NASA recently transformed its 
        organizational reporting in order to provide more integrated 
        decision-making. NASA field Center Directors now report 
        directly to the Administrator, and I am drafting a position 
        description for a new Associate Administrator who will manage 
        the internal activities of the Agency. The Office of Education 
        reports directly to the Director of Strategic Communications, 
        who is also in charge of Public Affairs, External Relations, 
        and Legislative Affairs, in order to provide a more integrated 
        picture of what NASA is doing and can do for its stakeholders 
        and public. NASA's new Office of Program Analysis & Evaluation 
        has been created in order to provide analyses and assessments 
        for strategic planning and budgeting decisions, independent 
        cost estimates, evaluation of projects at major milestones, and 
        feedback from the Centers on their capabilities and work 
        climate. This is to ensure that the acquisition strategies, if 
        done as planned, are executable, have exit and entrance 
        criteria, contain clear approval milestones, and involve 
        independent reviews.
  --Improving Financial Management.--For the past two years, NASA has 
        received a disclaimer of audit opinion on its annual financial 
        statements due largely to two issues--financial system 
        conversion, and accounting for property, plant and equipment, 
        and materials and supplies. In fiscal year 2003, NASA converted 
        the 10 separate NASA Center accounting systems and the 
        associated 120 subsidiary systems, along with over 12 years of 
        historical financial data, into a single integrated Agency-wide 
        core accounting system. Problems associated with this 
        conversion have been greater than expected and are taking 
        longer than expected to correct. I regard improvement of NASA's 
        financial management as one of my priorities.
  --Capital Asset Management.--The management of NASA's capital assets, 
        valued at $37.6 billion (83 percent of NASA's assets on the 
        balance sheet), lacks the necessary internal controls and 
        systems to support the proper valuation for management analysis 
        as well as for audit purposes. Therefore, NASA is developing a 
        comprehensive plan that will reform the manner in which we are 
        accounting for and managing our assets.

            THE NATION'S FUTURE IN EXPLORATION AND DISCOVERY

    The aftermath of the tragic loss of the Space Shuttle Columbia on 
February 1, 2003, brought us to a watershed moment in the American 
civil space program. Choices had to be made. The President has put 
forth a choice, a strategic vision for the space program. That vision 
has been enunciated with exceptional clarity, and has been subjected to 
considerable public debate for over a year. While differences of 
opinion exist, the President's proposal has attained broad strategic 
acceptance. As a Nation, we can clearly afford well-executed vigorous 
programs in robotic and human space exploration, Earth science, and 
aeronautics research.
    For America to continue to be preeminent among nations, it is 
necessary for us to be the preeminent spacefaring nation. It is equally 
true that great nations need allies and partners in this journey. That 
is what the Vision for Space Exploration is about.
    As President George W. Bush said, ``We choose to explore space 
because doing so improves our lives and lifts our national spirit. So 
let us continue the journey.''

                                                         [Budget authority, dollars in millions]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                 Full Cost
                                                 -------------------------------------------------------------------------------------------------------
      By Appropriation Account, By Mission          Initial       April         May
              Directorate, By Theme                Operating    Operating    Operating   Fiscal Year  Fiscal Year  Fiscal Year  Fiscal Year  Fiscal Year
                                                  Plan Fiscal  Plan Fiscal  Plan Fiscal      2006         2007         2008         2009         2010
                                                   Year 2005    Year 2005    Year 2005
--------------------------------------------------------------------------------------------------------------------------------------------------------
Science, Aeronautics, and Exploration...........     $9,334.7     $9,335.0     $9,051.0     $9,661.0    $10,549.8    $11,214.6    $12,209.6    $12,796.1
                                                 =======================================================================================================
    Science \1\.................................      5,527.2      5,527.0      5,554.0      5,476.3      5,960.3      6,503.4      6,853.0      6,797.6
        Solar System Exploration................      1,858.1      1,858.0      1,787.0      1,900.5      2,347.7      2,831.8      2,998.9      3,066.1
        The Universe............................      1,513.2      1,513.0      1,475.0      1,512.2      1,531.5      1,539.4      1,495.0      1,406.7
        Earth-Sun System........................      2,155.8      2,156.0      2,291.0      2,063.6      2,081.2      2,132.2      2,359.0      2,324.8
                                                 =======================================================================================================
        Exploration Systems \2\.................      2,684.5      2,684.5      2,356.0      3,165.4      3,707.0      3,825.9      4,473.7      5,125.5
        Constellation Systems...................        526.0        526.0        422.0      1,120.1      1,579.5      1,523.7      1,990.9      2,452.2
        Exploration Systems Research and                722.8        722.8        766.0        919.2        907.3        989.2      1,050.3      1,078.5
         Technology.............................
        Prometheus Nuclear Systems and                  431.7        431.7        270.3        319.6        423.5        500.6        614.0        779.0
         Technology.............................
        Human Systems Research and Technology...      1,003.9      1,003.9        897.7        806.5        796.7        812.4        818.5        815.8
                                                 -------------------------------------------------------------------------------------------------------
    Aeronautics Research: Aeronautics Technology        906.2        906.0        962.0        852.3        727.6        730.7        727.5        717.6
    Education Programs: Education Programs......        216.7        217.0        179.0        166.9        154.9        154.7        155.4        155.4
                                                 =======================================================================================================
Exploration Capabilities........................      6,704.4      6,830.0      7,114.0      6,763.0      6,378.6      6,056.7      5,367.1      5,193.8
    Space Operations............................      6,704.4      6,830.0      7,114.0      6,763.0      6,378.6      6,056.7      5,367.1      5,193.8
        International Space Station.............      1,676.3      1,676.0      1,676.0      1,856.7      1,835.3      1,790.9      2,152.3      2,375.5
        Space Shuttle...........................      4,543.0      4,669.0      4,964.0      4,530.6      4,172.4      3,865.7      2,815.1      2,419.2
        Space and Flight Support................        485.1        485.0        474.0        375.6        370.9        400.0        399.7        399.1
                                                 =======================================================================================================
Inspector General...............................         31.3         31.0         31.0         32.4         33.5         34.6         35.2         37.3
                                                 -------------------------------------------------------------------------------------------------------
      TOTAL.....................................     16,070.4     16,196.0     16,196.0     16,456.3     16,962.0     17,305.9     17,611.9     18,027.1
Year to year increase...........................  ...........  ...........  ...........          2.4          3.1          2.0          1.8          2.4
Emergency Hurricane Supplemental................        126.0  ...........  ...........  ...........  ...........  ...........  ...........  ...........
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Science Mission Directorate reflects the combination of the former Space Science and Earth Science Enterprises.
\2\ Beginning in fiscal year 2006, Exploration Systems moves from Exploration Capabilities to Science, Aeronautics and Exploration. Exploration Systems
  Mission Directorate reflects the combination of the former Biological & Physical Research and Exploration Systems Enterprises.

Totals may not add due to rounding.

                        SPACE SHUTTLE RETIREMENT

    Senator Shelby. Thank you, Dr. Griffin.
    The proposed budget for NASA has the Space Shuttle 
scheduled for retirement in 2010. We have been talking about 
that. And the next man-rated vehicle, the crew exploration 
vehicle, CEV, is expected to be ready by 2014. The critical 
funding for the CEV, I understand, is dependent on the 
retirement of the Shuttle. It has been widely reported, Dr. 
Griffin, that you are an advocate of closing this 4-year gap--I 
mentioned it in my opening statement--in the U.S. launched 
manned space flight.
    Whenever I hear about the acceleration of such programs, 
concerns arise, being an appropriator, about cost increases and 
development setbacks. So how much do you anticipate 
accelerating the CEV will increase the near-term costs of this 
vehicle? And where will these funds come from?
    Mr. Griffin. Sir, the widely circulated reports of my 
dissatisfaction with the gap in manned space flight have the 
virtue of being true.
    Senator Shelby. I am glad. Thank you.
    Mr. Griffin. I am dissatisfied with those, and we will be 
working to close that gap.
    I will say at the outset that I cannot say, at this moment, 
what the near-term cost increases will be because that study 
effort is ongoing as we speak. When I have some knowledge of 
that, it will be communicated to this subcommittee and to the 
Congress. But let me outline the broad plan for things we might 
do to accomplish that.
    First of all, I might add also, I believe it is true, when 
one stretches a project out beyond its appropriate and natural 
lifetime, that also causes cost increases.
    Senator Shelby. It does.
    Mr. Griffin. The 10-year period that we have been planning 
on as our first plan to design and develop and procure the new 
crew exploration vehicle is a lengthy period of time relative 
to our prior history in manned spacecraft development, and I 
believe reflects lack of the best possible planning as much as 
it does any fiscal realities.
    That said, what could we do to make a difference? The first 
thing, as I have indicated, that we could do is we, NASA, have 
announced in our early planning documents to carry two 
contractors through 2008 before making a final down-select. I 
believe that the design of the crew exploration vehicle should 
be sufficiently straightforward, should be sufficiently within 
our experience base, that it may not be necessary to carry two 
contractors that long, that it may be more appropriate to down-
select earlier, as I said, in fiscal year 2006. That saves an 
amount of money on the order of $1 billion or more, which can 
be used in the near term to fully fund one vehicle.
    Second, some of our early planning has focused on the 
possibility of hardware demonstrations in mid-term development 
for the crew exploration vehicle. Those may or may not be 
necessary. We will be examining that, as we will be examining 
the rest of these issues, but certainly such early 
demonstrations will require money that might best be spent 
bringing the vehicle to completion.
    Third, as I have indicated, we have a substantial 
technology development line in exploration systems. I have been 
in charge, on behalf of the Defense Department in prior 
experience, of even more substantial technology development 
budgets, and I would say that, regarding my personal 
preferences, nothing would give me more pleasure than to sow 
the seeds widely in our NASA technology development. It has 
been a long time since we have been able to afford to do that. 
I would like to do it. But we must put development of new 
technology in second place behind the development of existing 
capability on the part of the United States to ferry astronauts 
and limited amounts of cargo to and from the Space Station and 
to get started down the path back to lunar return.

                  COST CONTROL AND TECHNICAL VIABILITY

    Senator Shelby. Doctor, along those same lines, financial 
responsibility, we have a great challenge, all of us here. What 
steps is NASA taking to ensure that the contracts it enters 
into are independently assessed for cost control and technical 
viability?
    Mr. Griffin. Sir, you raise a very important area. As I 
know that everyone knows, whether directly or not, you are 
referring to the fact that our audit posture is not a favorable 
one. We received at the end of 2004 a red audit. We expect to 
receive another one, I am told. We, NASA, need to frankly get 
busy on our financial accounting and make sure it passes all 
the tests.
    We also need, in terms of the conduct of our programs, to 
make sure that, when we sign contracts, they have clearly 
specified goals, funding profiles are clearly made available, 
and, in general, we know what we are doing.
    I am in the process of establishing a new Office of 
Program, Analysis, and Evaluation (PA&E), which will carry a 
set of forward-looking and backward-looking responsibilities, 
to wit: for backward-looking responsibilities, we will be 
assessing programs as they carry forward and determining 
whether they are meeting their cost schedule and performance 
goals, and making recommendations as to what to do if they fail 
with those.
    We will also be looking at our track record for the 
development of hardware in terms of cost and schedule, and we 
will be factoring those estimates from the past into our 
predictions for the future.
    Looking forward, the new PA&E office will carry the 
responsibility for strategic budgeting, making sure that we 
have appropriately accounted for all the exigencies which we 
can determine. And the new office will carry a directorate for 
advanced planning, helping to remove some of the responsibility 
for the advanced planning function from those mission 
directorates, which must carry it out. I have referred to this 
as eliminating the ``fox in the henhouse'' problem. I want my 
mission directorates focused on executing the direction they 
are given, rather than determining what that direction should 
be.
    I hope and believe that this new office will assume a major 
responsibility for helping to get our programs on track.
    Senator Shelby. Senator Mikulski.

                         HUBBLE SPACE TELESCOPE

    Senator Mikulski. Thank you, Mr. Chairman.
    Picking up, I would like to go right to the Hubble space 
telescope. You know the history. Administrator O'Keefe was 
going to cancel the Hubble. He did agree to seeking a second 
opinion, and the National Academy of Science recommended that 
we do it, and they recommended two possibilities: a robotic 
mission to repair Hubble robotically--not repair but give it 
its batteries and its new optics; and then the other was a 
Shuttle mission for which there is some question about the 
safety of the astronauts.
    Now, where are you on the Hubble? And where do you see us 
going? And in support of Hubble, what will it take from this 
subcommittee to support you to do that?
    Mr. Griffin. Senator, as I believe this subcommittee and, 
indeed, most of the world paying attention to Hubble knows, I 
have committed to re-examine the decision to do a Shuttle 
Servicing Mission 4, SM-4, in support of Hubble refurbishment 
and upgrades once we have accomplished our return-to-flight 
objectives.
    To recap the reasons behind that statement, I would say 
that Administrator O'Keefe's decision made in the aftermath of 
the loss of Columbia, and before we had our return-to-flight 
planning fully fleshed out, was the reasonable one for the 
time, but when we return the Shuttle to flight, it will be 
essentially a new vehicle, and in some specific ways it will 
require careful examination to assess its ability to support 
SM-4, and that is what we will do. It is appropriate, I think, 
then to reconsider that earlier decision in light of the fact 
that we will be flying, you know, a very much improved vehicle 
and to assess the relative risks of a Hubble mission.
    The National Academy did suggest that the human servicing 
mission was the proper path to go down, and in addition, there 
was an independent committee established to assess the 
feasibility of a robotic servicing mission. Before I was 
nominated to head NASA, I was the head of that independent 
commission. I think it is safe to say, although my tenure on 
that committee was interrupted by President Bush's nomination 
of me to serve as Administrator, I spent enough time with that 
committee to know definitely that each and every person on that 
committee, all of them very capable engineers and scientists, 
believed that the robotic mission was infeasible to accomplish 
within the time available before Hubble would degrade 
irreversibly and within any reasonable amount of money that 
could be appropriated to accomplish it.
    I believe that is the best technical judgment that we will 
get concerning the feasibility of robotic servicing of the 
Hubble within the available time, and I think we should simply 
get off that page.
    Senator Mikulski. Without getting on to the page, first of 
all, number one, we thank you for taking this so seriously and 
giving it such a high level of professional attention. In your 
testimony, both on page 3 and 6 about the Hubble, as I 
understand it, you say servicing of the Hubble will depend on 
the performance of the return to space on the Shuttle safely 
and the return of the astronauts and that it would take two 
missions to do that, to assess whether, according to the 
testimony on page 3 and 6, whether the station was up to a 
Hubble mission.
    My question then: What would be the timeline where you 
would see those two missions being accomplished? And in the 
meantime, what should Goddard do? Does it just stand down and 
we could lose everybody and everything? Or do you see things 
moving forward in a simultaneous way? And what would be the 
price tag on that if that is your administrative 
recommendation?
    Mr. Griffin. Yes, Senator. I will return to this in a 
moment, but it is correct that we need the two Shuttle return-
to-flight missions in order to fully assess certain technical 
issues that I will get to in a moment.
    If we were to wait for the conclusion of those two missions 
to begin work at Goddard on SM-4, we would, if I could use a 
colloquial expression, get ourselves behind the eight ball on 
doing that servicing. And so I----
    Senator Mikulski. It would be too late.
    Mr. Griffin. It would be too late.
    Senator Mikulski. So when do you----
    Mr. Griffin. So I have directed Goddard to begin work on 
Shuttle Servicing Mission 4 under the assumption that we will 
be successful with return to flight and in our technical 
assessment of Shuttle capabilities. The first return-to-flight 
mission should occur in July, the second one in September, and, 
by that time, we will have accomplished the detailed test 
objectives we need to accomplish in order to know that it will 
be safe and effective to allow astronauts to service Hubble 
from the Shuttle.

                        EARTH AND SPACE SCIENCES

    Senator Mikulski. Well, we, of course, wish Godspeed to our 
astronauts, and I know Senator Hutchison will be raising some 
important Shuttle questions, I presume. Number one, that is 
heartening. Number two, we look forward to talking about what 
we need to put in the appropriations to keep the simultaneity 
of these two endeavors going.
    But if I could add just another thing--because we need to 
address the Shuttle; we are Shuttle obsessed, as you can 
imagine. Earth science and space science, do you see new--as 
you know, there was another National Academy study that said we 
were losing ground on the study of Earth science, that projects 
were either descoped, delayed, detoured, derailed, et cetera. 
And now with NOAA being in this subcommittee, do you see the 
potential to continue or to focus on a true Earth science set 
of projects that truly serve this Nation and even friends 
around the world in terms of understanding our planet both in 
terms of any number of aspects that have a great impact, from 
atmospherics to ocean currents to ocean winds and a variety of 
other things that truly impact the global environment and also 
how to make those projections that save lives and save 
livelihoods, kind of a NOAA, NASA, and perhaps NSF partnership?
    Mr. Griffin. Yes, Senator, I absolutely look forward to 
enhancing the NOAA, NASA, and NSF partnership in Earth science. 
Several comments on your points.
    First of all, we at NASA have heard the response of the 
community to the changes we made or proposed and carried out in 
our science program in fiscal year 2005. We had allocated, and 
planned to allocate, in fiscal year 2006 a substantial 
increment to funding Mars exploration, robotic Mars exploration 
in the out-years. We have withdrawn from that and are 
rebalancing our portfolio to again provide emphasis on Earth 
science as an important part of our portfolio. So we have heard 
the response of the science community, and we in turn are being 
responsive. And you will see that as we go forward in our op 
plan for 2005 and in 2006.
    Senator Mikulski. Well, my time is up, and if we have a 
second round, we will return to some other important issues.
    Senator Shelby. We will have a second round.
    Mr. Griffin. Okay.
    Senator Shelby. Senator Hutchison.

                           BUDGET PRIORITIES

    Senator Hutchison. Thank you, Mr. Chairman.
    Dr. Griffin, we have heard that some Members of the House 
have urged moving funds from the International Space Station 
budget for 2006 into the aeronautics line to offset the 
proposed reductions in that area. That was the President's 
budget, and clearly having the International Space Station and 
the return to flight are the highest priorities. I wanted to 
ask you if you can tell the subcommittee what impact any 
reduction such as that in the International Space Station 
funding would have. And will you oppose that?
    Mr. Griffin. Senator Hutchison, I am the President's 
appointee and I support the President's budget. The 
administration's allocation of relative priorities between 
human space flight, science, and aeronautics is clear, and I do 
not propose any changes to those priorities.
    Within those lines, we may choose to emphasize or de-
emphasize certain things, but I simply cannot support moving 
money from completing the assembly of the International Space 
Station to any other activity.
    Senator Hutchison. Thank you.
    The Space Shuttles were originally intended to be capable 
of flying 100 missions. The Columbia had flown the most at 27. 
When you were talking about the expense of making the Shuttles 
go longer, I am sure that maintaining them does get more 
expensive as they grow older. But is that still something that 
would be more feasible since they were supposed to have been 
able to have longer terms anyway as a way to lengthen--or 
shorten the gap between the crew return vehicle coming on if, 
in fact, you are not able to bring that in at an earlier stage?
    Mr. Griffin. Senator, I cannot support that position. 
Again, I am the President's appointee, and the administration 
is committed to Shuttle retirement in 2010. The expense of 
maintaining the Shuttle fleet year after year is so great that, 
in order to move effectively ahead on the crew exploration 
vehicle systems, we must retire the Shuttle. We must retire it 
in an orderly fashion. We must fly every flight safely. But we 
must get it behind us.
    The Shuttle is inherently flawed. It does not have an 
escape system for its crew, and we all know that since human 
perfection is unattainable, sooner or later there will be 
another Shuttle accident. I want to retire it before that 
flight can occur.
    I want to work with you and this subcommittee to understand 
how we can accelerate the development of the crew exploration 
vehicle so that there is the minimal possible gap in 
transitioning from one system to another.
    On a personal note, in my late 20s and early 30s, I was 
working in the space program, as I have most of my life, when 
we underwent a 6-year gap between the completion of the last 
Apollo, the Apollo-Soyuz flight, and the first Shuttle flight. 
That gap damaged our program. It damaged our unmanned program 
as well. It was damaging to the United States. I don't want to 
do it again, and I know you share that view. But the way to 
prevent that is not to continue to rely upon the Shuttle, which 
is an outdated system, but to move as expeditiously as we may 
toward the new system. And that is what I am here to support.
    Senator Hutchison. I accept that, and I think you have made 
the case very well. Let me ask you this: If you are going to 
put more emphasis on the crew return vehicle, there have been 
other suggestions that you would take money out of the basic 
research budget and the International Space Station. Is that 
something that would be viable in your mind? And what impact 
would it have on the long-term national science asset that we 
have there if you take money from the research projects in the 
Space Station for the crew return vehicle?
    Mr. Griffin. Senator, the impact would be of delay, not of 
deletion. Yes, if I need the money to close the gap in human 
space flight between the end of the Shuttle program and the 
beginning of its replacement, my recommendation would be to 
take money from the research to be done on Space Station or 
other exploration systems research and technology development, 
simply because, as I said in my opening statement, we cannot do 
everything on our plate and we have to have priorities and 
first things first.
    Now, the research of which you speak is very valuable, and 
it must be done. But if it is delayed a very few years in order 
to allow us to complete, in effect, a suitable transition 
between systems, then I believe that that delay would be worth 
it, and that would be where I would look for the money.
    Senator Hutchison. Let me just ask my final question then. 
If you did something like that, you do not mean that you would 
stop all of the research on the Space Station at any point, do 
you? Or would it be just some projects that could be put off?
    Mr. Griffin. The phrase I have used is that when cutting 
budgets, you need to use a meat axe rather than a scalpel--or a 
scalpel rather than a meat axe, pardon me.
    Senator Hutchison. Thank you.
    Mr. Griffin. Yes. It needs to be done carefully. We would 
obviously not go in and stop, on a wholesale basis, everything 
which is ongoing. Stopping projects in their middle is usually 
not an effective way to save money. I would look generally 
toward delaying projects which have not yet started.
    The Space Station, once built, will be an excellent 
platform for a number of different kinds of engineering, 
physical science, and biological research. And we will do that. 
It will be flying for many, many years. But if, in order to 
produce the next vehicle, which will allow us to ferry 
astronauts back and forth to the Space Station, I need to delay 
some of that research, then that is what I will have to do.
    Senator Hutchison. ``Some'' is the operable word.
    Mr. Griffin. Yes.
    Senator Hutchison. Thank you.
    Mr. Griffin. Thank you, Senator.
    Senator Shelby. Senator Cochran.
    Senator Cochran. Mr. Chairman, thank you.
    Let me first congratulate you, Mr. Chairman, on assuming 
the responsibility of chairing this subcommittee with an 
enlarged scope of jurisdiction.
    Senator Shelby. Thank you.
    Senator Cochran. We look forward to working closely with 
you to help ensure that we meet our goals and identify our 
priorities in a thoughtful way. And I think starting the 
process with a new Administrator of NASA is an exciting 
opportunity for all of us. I want to congratulate you, Dr. 
Griffin, for your selection as Administrator of this important 
agency and say that we appreciate the fact that you are a 
person of experience, a great deal of education in these 
technical and scientific areas. I was just looking at the 
number of Master's degrees that you have been awarded at 
various universities, and it is really quite impressive, and I 
hope you do not mind my referring to you as ``Dr. Griffin,'' 
because you did get a Ph.D. also, and that was in the 
University of Maryland system, which I know Dr. Mikulski may 
identify with, with some pleasure. This is a big job, and I 
know you are well suited and totally well qualified for it. And 
even though you have indicated that you support the budget 
request because you are the President's nominee and you are in 
this position to carry out these policies, we do notice that 
the research funding has been reduced because, I guess, of the 
increase in exploration initiative costs, over $675 million for 
the Moon and Mars exploration initiative. So this decreases 
other activities.
    Have you looked at ways that you can balance that 
competition inside the agency so that there is not any serious 
harm done to interests for traditional activities that have 
been carried out by NASA?
    Mr. Griffin. Senator Cochran, the science budget in the 
large at NASA has not been cut to serve the needs of 
exploration, Moon and Mars. The science budget request for 2006 
is $5.5 billion. We expect it to grow with inflation in the 
out-years. We have not, and, unless under the most extreme 
budget pressure, I would not, cut science in order to fund 
manned space flight. I believe that NASA has several 
substantially differing activities: human space flight, 
science, and aeronautics.
    The President's priorities among those differing activities 
are expressed in his fiscal year 2006 budget, as are the 
proportions among those numbers, and I would intend to respect 
those proportions. If we need to solve problems in human space 
flight, we will do it within the human space flight suite of 
activities.
    So I must respectfully suggest we have not cut the science 
budget in order to do exploration. In fact, I would say that 
the exploration budget has been reduced and exploration 
activities have been delayed in order to accommodate Shuttle 
return-to-flight costs.

             INTERNATIONAL COOPERATION IN THE SPACE PROGRAM

    Senator Cochran. In looking at the global situation in 
terms of our relationships with other countries and cooperation 
in the space program--Russia has been actively involved in the 
manned program for a good many years--are there other nations 
that are interested or active in becoming partners in space 
exploration?
    Mr. Griffin. Senator, I have not had the opportunity to 
assess that yet. I will be, in fact, attending the Paris Air 
Show next month, and there will be, as you know, other 
international events at which my attendance will be expected, 
and I will be there. And then there will be formally arranged 
meetings, government-to-government meetings as well. And in the 
course of the next few months, I hope to get a feel for which 
nations wish to join us in this venture. I hope there are some.
    I think one of the best things to come out of the Space 
Station program is the international partnership that has been 
developed, and the administration takes very seriously this 
Nation's commitments to those partners. So I look forward to 
it. I have not had an opportunity to assess it yet.
    Senator Cochran. Well, we look forward to working more 
closely with you as we go through this budget process, and we 
intend to closely consult with you along the way to be sure 
that we cooperate in supporting the administration's 
initiatives in these areas. We appreciate your leadership.
    [The statement follows:]

               Prepared Statement of Senator Thad Cochran

    Mr. Chairman, I am pleased to join you in welcoming Dr. 
Griffin to the hearing today. NASA's history is without 
comparison. Continued human exploration will broaden our 
understanding of the universe, and coupled with its dedicated 
pursuit of scientific research, NASA will help secure our 
nation's position at the cutting edge of technology well into 
the future.
    Dr. Griffin, I note that you are a man of action. While you 
have been in your job for less than a month, you have already 
made important decisions for the future of NASA, to include 
awarding the Shared Services Center contract and accelerating 
the development and launch of the shuttle replacement into 
orbit.
    Stennis Space Center in Mississippi has been known for its 
engine testing work, and I am proud to acknowledge the recent 
selection of Stennis as the location for the NASA Shared 
Services Center. We welcome the center to Mississippi and look 
forward to the contribution that the men and women of 
Mississippi will make to help NASA be more efficient in 
conducting its administrative activities.
    I look forward to working with you in the future and to 
hearing your testimony today.

                          NUCLEAR POWER SYSTEM

    Mr. Griffin. Thank you, Senator, and I will offer you my 
full cooperation as Administrator.
    Senator Shelby. Dr. Griffin, Project Prometheus has been a 
priority for NASA over the past 2 years. This nuclear program 
has the potential of providing great benefit to future NASA 
missions and the exploration vision. However, the Jupiter Icy 
Moons Orbiter mission has been determined to be too technically 
difficult, and the same operating plan you have mentioned in 
your written testimony also includes a reduction of $161 
million to the Prometheus program to reflect the mission 
deferment.
    With the deferment of the Jupiter Icy Moons mission, NASA 
is looking at alternative missions to demonstrate a nuclear 
power system in space. Was the Jupiter Icy Moons Orbiter 
mission too ambitious? If so, what are the possibilities that 
NASA intends to explore? And how will this affect the funding 
level from Prometheus in the 2006 budget?
    Mr. Griffin. Senator, there were several questions there, 
and if I miss one, you can remind me. Let me address the 
issue----
    Senator Shelby. I bet you won't miss one.
    Mr. Griffin. I don't want to bet too much, but we will try.
    The Jupiter Icy Moons Orbiter mission was, in my opinion, 
too ambitious to be attempted. Let me give a couple of 
specifics.
    The vehicle would have required at least two heavy-lift 
launches to put into orbit where it would have been assembled 
prior to its departure from Earth to go to Jupiter. That would 
have been an extremely expensive undertaking, one which we have 
not performed before.
    The nuclear electric propulsion system being developed for 
it does not presently exist, would not exist for some time, and 
if successfully developed, would have required approximately 
twice the world's annual production of xenon to be fueled to 
carry out the mission. It was not a mission, in my judgment, 
that was well formed.
    The original purpose of the Jupiter Icy Moons Orbiter was 
to execute a scientific mission to Europa, a moon of Jupiter 
which is extremely interesting on a scientific basis. It 
remains a very high priority, and you may look forward in the 
next year or so, maybe even sooner, to a proposal for a Europa 
mission as part of our science line. But we would, again, not 
favor linking that to a nuclear propulsion system.
    With that mission taken off the table as being something 
just too big for our plate at this time, the question then 
arises as to what shape and form we want the space nuclear 
program to be. I will say categorically we cannot effectively 
explore space without nuclear power and in the longer run 
nuclear propulsion. But having taken JIMO off the plate, 
Jupiter Icy Moons Orbiter, the proper ordering of priorities 
now changes.
    The first thing we will need is surface nuclear power for 
our astronauts when they return to the Moon in a decade or so. 
The next thing we will need will be nuclear thermal 
propulsion----
    Senator Shelby. How difficult will that be?
    Mr. Griffin. Sorry, sir?
    Senator Shelby. How difficult will that be?
    Mr. Griffin. We need to execute some development programs 
that we have not done in a while, but many nuclear reactors 
have been flown in space--one by the United States, many by the 
former Soviet Union. We have that technology. We merely have to 
integrate it again.
    Nuclear thermal propulsion will be the next step. A nuclear 
upper stage is the most effective way to take humans to Mars. 
The United States had prototype versions of such engines back 
in the late 1960s and early 1970s. In 1972, when President 
Nixon decided that the Nation would not be going to Mars under 
his tenure as President, the NERVA, nuclear engine for rocket 
vehicle applications, program was terminated. We have not had a 
need for such a program in the last three decades. As we 
journey forward to Mars, we will need it.
    Finally, the last priority would be the nuclear electric 
propulsion which was linked to JIMO, and that will be useful 
for cargo missions to Mars, but well after we start sending 
humans there.

    MAINTAINING SKILLED WORKFORCE WITHIN SPACE SHUTTLE AND STATION 
                               ACTIVITIES

    Senator Shelby. Doctor, in another area, to what extent 
will it be possible or even desirable to maintain employment of 
skilled workers currently involved in Space Shuttle and station 
activities as NASA transitions to a post-Shuttle era and 
reduces its station-related programs?
    Mr. Griffin. Senator, it will be absolutely crucial. As I 
pointed out earlier in response to Senator Hutchison's 
question, I, as a professional, lived through the gap in manned 
space flight from 1975 to 1981, and I do not propose to repeat 
it. One of the things that happened during that period was the 
loss of skilled and experienced personnel in space flight of 
all varieties, both manned and unmanned, to other pursuits. 
When those people have gone to other occupations, our 
experience is we do not get them back. So we must effect an 
orderly transition from the shuttle to the new system.
    I owe this Congress a plan for doing that, and I have said 
on several occasions in several ways that the first step is 
minimizing that gap.

              FIELD CENTERS ROLE IN THE PROMETHEUS PROGRAM

    Senator Shelby. What is your view, doctor, of the role of 
the field centers in the Prometheus program? In other words, do 
you believe that the program is doing a good job of utilizing 
the full range of research and development capabilities that 
exists within the field centers, and if not, what action do you 
plan to take to employ the technical talent base within NASA?
    Mr. Griffin. Senator, the question was applied by you to 
Prometheus, but it goes beyond that. I have not had an 
opportunity to look at the Prometheus program directly. As I 
said, we will be restructuring it, not because it is not a 
valuable program, it is incredibly valuable, but I want to 
change the definition of what is produced first.
    Senator Shelby. Sure.
    Mr. Griffin. Now, with regard to your broader question of 
what are the value of the field centers, I have also in public 
utterances been most specific on this point. The President's 
Vision for Space Exploration is a multi-generation program. It 
will require decades. The people who will be taking us to Mars 
are in elementary and middle school today. Contractors and 
businesses come and go. They succeed and they fail. The 
Government ownership of the intellectual property that sustains 
our space exploration journey will be with us always, as long 
as there is a Government.
    The core capability, the core intellectual property that 
will sustain this journey, must reside within NASA as an 
organization, and in particular within the NASA field centers. 
I am committed to maintaining and to restoring capability where 
we need to do it. I am committed to changing the skill mixes of 
the centers as we transition from a Shuttle operations culture 
to the development culture required for the new vehicle systems 
we must bring about. But in the process of adjusting the 
details of how the field centers accomplish their missions and 
what they do, I am committed to retaining strong field center 
capability.

                       HEAVY LIFT LAUNCH VEHICLE

    Senator Shelby. Doctor, what is the status of planning for 
a heavy lift launch vehicle to send large quantities of mass to 
low Earth orbit or directly to the Moon?
    Mr. Griffin. Senator, that is a very interesting question. 
I can plan the development of a heavy lift launch vehicle from 
a clean sheet of paper, which would likely be too expensive for 
this subcommittee or the full committee to provide me the 
money, or I can utilize the heavy lift launch vehicle that I 
presently own as the NASA Administrator, which is the Space 
Shuttle. We talk about retiring the Space Shuttle. What is 
really meant is that we need to retire the Space Shuttle 
Orbiter. The Space Shuttle is a system of systems. It consists 
of a number of very, very valuable, very expensive to develop 
components, the Shuttle external tank, the Shuttle solid rocket 
boosters, Shuttle main engines and other lesser things, as well 
as the assembly and launch pad infrastructure at the Cape.
    Every time that stack lifts off, it carries 120 or 20 
metric tons into orbit. If I remove the orbiter and put on a 
cargo module, I have a heavy lifter. To me, I have indicated on 
several occasions, that seems the shortest path to a heavy 
lifter. If money were free and being provided in unlimited 
quantities, I would enjoy the challenge of developing a new 
vehicle, but we all know it is not, so I believe that that is 
the appropriate way forward.

                            LAUNCH VEHICLES

    Senator Shelby. Where are we regarding the expendable 
launch vehicle versus a Shuttle derived launch vehicle?
    Mr. Griffin. Do you mean the evolved expendable launch 
vehicle?
    Senator Shelby. Yes, evolved.
    Mr. Griffin. The evolved expendable launch vehicle 
families, offered by Lockheed Martin and Boeing, are the 
Nation's transportation fleet for payloads of 20 metric tons or 
less, and I certainly would propose no NASA development of such 
vehicles because we do not need more.
    In terms of payload capability above about 20 metric tons, 
the field is open, and again, from NASA's perspective to meet 
my heavy lift needs, I would probably stick with what I have. 
Again, we need to make these judgments on a cost basis and I am 
in the process of assessing those costs, but it looks likely to 
me that sticking with what I have is the way to go.
    Senator Shelby. Senator Mikulski.

                    STATION ASSEMBLY-SHUTTLE FLIGHTS

    Senator Mikulski. Thank you, Mr. Chairman.
    I want to pick up a line of questioning both from Senator 
Shelby and Senator Hutchison, and it goes to the Shuttle and 
the completion of the station. How many flights will it take to 
complete the station, how many Shuttle flights, and how long do 
you anticipate that this is going to take?
    Mr. Griffin. Senator, the current plan on the table at NASA 
is a 28 flight sequence, of which 18 flights are assembly 
flights, 5 flights are logistics flights, and 5 are utilization 
flights. I have indicated, in response to the Senator's 
question, that some of the research to be accomplished on the 
utilization flights could be deferred until we have a new 
system. With some time to plan, 2 or 3 years in the future, out 
to 2008 or so, some of the logistics flights cargo could be 
offloaded onto expendable vehicles, the Arian Transfer Vehicle, 
the Japanese HTV or new commercial systems which we would 
develop.
    That leaves a core of 18 Shuttle assembly flights. Again, 
with time to plan, even some of that hardware could be put up 
by alternate means, but right now we are looking at a core of 
about 18 assembly flights.
    Senator Mikulski. Well, let me jump in here because first 
of all, again, we are very concerned about the Shuttle, the 
safety of our astronauts, but also those 15,000 people, both 
contractors and civil servants who are employed.
    Now, it is 2005. We are talking about retiring the Shuttle 
in 2010. So that gives us essentially 4\1/2\ years to do 15 
flights. Do you think it can be done? Well, actually, that is 
not the question. I am really concerned that with the magnitude 
that it will take to complete the station, and we know it must 
be completed for both scientific reasons, and honoring our 
commitment to international partners. We do not want to 
jeopardize that relationship because we are going to need it, 
we both need and want international partners for other things 
that we hope to do in space. But my point is then, if you have, 
let us just say 18 in 4\1/2\ years, that seems like a robust 
schedule, given the fact that by the time we do the next two 
flights, presuming everything goes the way we hope, that will 
be--we are then into 2006. So that gives you 2006, 2007, 2008, 
et cetera. How do you see all of this unfolding?
    Mr. Griffin. Directly answering your question, it is an 
extremely robust schedule. We are not sure we can accomplish 
it. We are looking at alternative assembly sequences for the 
Shuttle that we would use in case we are not able to get all 18 
assembly flights accomplished with the Shuttle. I will provide 
a set of options for this Congress by midsummer.
    Senator Mikulski. I think what we are looking at then is 
the impact on the workforce, and also presuming then that they 
are working nonstop to do this, we would be concerned about 
then its impact on safety, just even general fatigue, of both 
people and the Shuttle itself. We have three orbiters and one 
has to go, one has to be ready to go, and one is taking a 
breather. That is kind of a liberal arts graduate's description 
of this.
    But then, of course, what would be the cost to do this? 
Will it accelerate, et cetera? I think you might not be able to 
do this today. We know you support the President's budget, but 
we would like to also know the consequences of this because we 
are then talking about five or six flights a year, and we have 
not even ever met that--have we ever met that type schedule?
    Mr. Griffin. I believe we have, but it was very difficult, 
and it was in a different environment. With the care that we 
are taking today we are not planning on a six flight per year 
schedule. We would need roughly four flights a year to fly 20 
flights in the fiscal years 2006, 2007, 2008, 2009 and 2010.
    Senator Mikulski. And with one flight hopefully going to 
Hubble.
    Mr. Griffin. And one going to Hubble.
    Senator Mikulski. Which would be an additional flight.
    Mr. Griffin. Senator, your question is extremely on point. 
There is no question, as I said before, it is an extremely 
aggressive schedule and we must have fall-back options if we 
are not able to meet it, because we do not want the program to 
be schedule driven. We do not want safety to be compromised. We 
will provide, by midsummer, a set of options that we can offer 
to avail ourselves of if we are not able to carry out the 
aggressive flight rate required to get all 18 assembly flights 
completed by the time we are ready to retire.
    Senator Mikulski. I think this subcommittee is looking 
forward very much to working with you and with our authorizer, 
Senator Hutchison, on this endeavor.
    I had the good fortune to visit Texas with Senator 
Hutchison to see the kinds of research that we are talking 
about in the Shuttle, and also at Marshall, physical science, 
life science, that could be stunning, and that for an 
international partnership to have a completed Shuttle where we 
are really working together on breakthrough ideas, I think 
would go a long way to science, a long way to international 
cooperation. I think the world would feel better about the 
United States and its preeminence in space, particularly in the 
civilian side. So we want to be able to do that.
    I know that my time is up, and my next area would be of 
course aeronautics.
    Senator Shelby. Senator Hutchison.

                 INTERNATIONAL SPACE STATION COMPLETION

    Senator Hutchison. I just want to follow along with what 
Senator Mikulski was saying because it seems to me that you 
have got two major priorities here. You were very firm about 
wanting to retire the Shuttle on time, but also equally firm, 
as is the President, on finishing the Space Station for all of 
the reasons that Senator Mikulski said. If we cannot finish the 
Space Station with what you have available--let me rephrase. 
Are you prepared to say that finishing the Space Station is the 
top priority?
    Mr. Griffin. Well, the administration has said that we will 
finish the Space Station. For the next 2 to 3 years, 
unequivocally, we are dependent upon the Shuttle to go to the 
Space Station and begin the process of completing that 
assembly. If we look further out, there are alternative means 
we could engage to get that hardware up there, and we of course 
would look at that because we need options. In the longer term, 
if time comes to retire the Shuttle and we are not finished, 
then I have said for the record on several occasions, both 
before and after becoming Administrator, that the United States 
should complete the station, but we may again encounter some 
delays in accomplishing that until we have the new system on 
board.
    I do want to complete it. I think it is worth a lot for the 
United States to keep its word, to maintain our obligations to 
the partnership and to go forward together, and we will try to 
do that.
    All we are discussing here are ways and means of 
accomplishing it, not whether or not the President is committed 
to completing the station, because with his speech of 1 year 
ago and his budget in 2006, he clearly is committed to that 
completion.
    Senator Hutchison. As all of us have said, we are going to 
work with you. We know that you have to have time to put 
alternatives together, but just one more time to reemphasize, 
in addition to keeping our word to the international community, 
which is very, very important, it just seems if we are not 
committed to the science that one of the key reasons that we 
have NASA is diminished, and I do not want to ever have any 
indication that the actual science that will be done at the 
Space Station is in any way a lesser priority.
    Mr. Griffin. Yes, Senator. I do not think it is a lesser 
priority either, but again, if the funding to do science is 
getting in the way of the funding to complete the station, I 
would be presented with a Hobson's choice. I will work with you 
and with the subcommittee to minimize the dislocations, but if 
completion is the first priority, I must do what I must do.
    Senator Hutchison. I understand, and we will work with you 
in every way. I just hope we do not end up being the hospital 
that is clean because there are not any patients.
    I mean we really have to----
    Mr. Griffin. Yes, Senator, I understand.
    Senator Hutchison [continuing]. Remember the mission.
    Thank you.
    Mr. Griffin. I understand.
    Senator Shelby. Thank you, Senator.
    Dr. Griffin, as we move forward how many Shuttle flights do 
you think will be needed to complete construction of the 
International Space Station?
    Mr. Griffin. Well, again, the final answer on that may 
depend on the outcome of some of the studies we have ongoing 
and which I have promised to you by midsummer, and I understand 
that commitment. The current baseline is 18 assembly flights, 5 
logistics flights, 5 utilization flights.

                        INTERNATIONAL AGREEMENTS

    Senator Shelby. In regard to international partners, it no 
longer seems that NASA plans to provide everything that it 
promised or could in international agreements that govern the 
International Space Station program. What discussions are 
planned or underway with the other partners to rebalance what 
each partner is required to do and what it gets in return? In 
other words, where are we going there?
    Mr. Griffin. Senator, as we stand today, we are committed 
to orbiting the partner hardware and providing the partner 
flights. Disasters can ensue, as we know. If there is any 
planned change to that, I would come forward to this 
subcommittee and discuss it first.
    Senator Shelby. Have any agreements been made in this 
regard at this time?
    Mr. Griffin. Not at this time.

                          FINANCIAL MANAGEMENT

    Senator Shelby. Okay. Financial management, we have to do 
this because we are in appropriation business here. NASA 
continues to face significant challenges in improving financial 
management. I know you have not been at NASA long, but in the 
past 2 years NASA's auditors were unable to issue an opinion on 
NASA's financial statements because NASA could not provide the 
auditors with sufficient evidence to support the statements. 
While NASA implemented a new integrated financial management 
system in 2003, NASA auditors found pervasive errors in 2004 
financial statements generated from the new system. In October 
of this past year, the NASA Inspector General reported that one 
of the most serious management challenges facing NASA is, and I 
quote, ``ensuring that the integrated financial management 
system improves NASA's ability to allocate costs to 
programs''--we have been talking about this--``efficiently 
provides reliable information to management and supports 
compliance with the Chief Financial Officer's Act.''
    Also in January of this year, 2005, the Government 
Accountability Office, in its High Risk Series Report stated, 
and I quote, ``While it has taken recent actions to improve the 
contract management function, NASA continues to face 
considerable challenges in implementing financial management 
systems and processes that would allow it to manage its 
contracts effectively.''
    My question, Dr. Griffin is, does NASA have a written 
corrective action plan that addresses the scope of its problems 
and the resources at the time that will be needed to fix these 
problems pointed out by the Inspector General and GAO?
    Mr. Griffin. Senator, we do not at this point. I take the 
GAO's comments and our independent auditor's comments as 
seriously as I know how to say. We understand, as an Agency, 
that our financial accountability has been lacking. I will not 
hedge. We have lacked that. I have, as we speak, a team of 
people working on putting a plan together for how we will get 
from where we are to where you require and where we want us to 
be.
    Senator Shelby. You are committed to doing whatever is 
necessary?
    Mr. Griffin. I am absolutely committed to providing the 
resources necessary to get our financial management on track, 
and I will share with you the plan to do that when we have it.
    Senator Shelby. What obstacles have you encountered that 
would have an impact on your financial management efforts? Are 
you there yet?
    Mr. Griffin. We are really not. I have not been able to see 
obstacles so much as we simply have not stepped up to the plate 
on it. The major aspects of the situation are driven, as you 
know, by the fact that NASA has 10 field centers. They did not 
even historically all come from the same agencies. Some came 
from the Department of Defense (DOD), some were created out of 
a whole cloth, some came from NACA. They evolved their own 
financial management systems and they were never really linked 
up. Part of our integrated financial management plan, as the 
name implies, is to have, if you will, one NASA, one system, 
and be able to account for all the money in a common framework. 
Linking those 10 centers and headquarters together in a 
transparent and straightforward way has proven to be more of a 
challenge than anyone had thought. Clearly it has, because we 
flunked the last couple of years. I am absolutely dedicated to 
seeing to it that, as my tenure goes forward, we do not flunk, 
that we pass with flying colors.
    Senator Shelby. Thank you.
    Senator Mikulski, you have any more questions?

               RETAINING AND ATTRACTING SKILLED WORKFORCE

    Senator Mikulski. Thank you.
    First of all, I want to associate myself with Senator 
Shelby's questions about fiscal accountability, fiscal 
responsibility and implementing the reforms in the GAO report.
    I also want to thank you in this testimony here for your 
candor about what you are facing. Actually, I think we are off 
to a good start even if some of the things are giving us 
heartburn, at least we feel that we are getting a candid 
conversation and look forward to more.
    I am going to raise an issue about workforce. You talked 
about the astronauts that will be on the trip to Mars are now 
in elementary school, and we also know that NASA has an aging 
workforce in certain projects, so you need to retain, you need 
to recruit, and there needs to be a development of our future 
scientists and technologists.
    Could you give us your view on two things, number one, the 
workforce at NASA and our ability to retain the qualified 
people that you need to complete the priorities that you 
outline and we support; and number two, what do you see NASA's 
role in really helping generate, cultivate, that next 
generation of scientists and technologists?
    Mr. Griffin. Well, Senator, this is a subject that, as I 
believe you know, I am quite passionate about.
    Senator Mikulski. I know you are.
    Mr. Griffin. I sometimes say, who is it that you will find 
who loves education more than I do? That said, two things. 
First of all, we have $167 million in the NASA Education 
Program and more in the mission directorates as we sit here 
today. I believe that we need to focus that education program, 
establish goals and metrics for it, and make it effective, but 
it is a substantial amount of money.
    In addition, I think it is time to recognize that NASA's 
biggest, most important, most lasting contribution to education 
for our future workforce is to do the kinds of things that 
excite young kids enough to want to be part of the space 
program and to get an education to do it. They can get almost 
any kind of an education and we will have a place for them at 
NASA. We are a very broad Agency. We need a lot of different 
specialties, but an education is a requirement.
    If we return to the Moon, if we set up a permanently manned 
lunar base there, if we go to Mars, if we visit the nearest 
asteroids, if we service the James Webb space telescope in 
future years, if we look beyond the Moon and Mars, young kids 
today and young kids of the future will want to be part of that 
program, as I did when I was a small boy, and they will do what 
is necessary with their education to get it.
    It is in that sense that NASA best served the educational 
community in my humble opinion.
    Senator Mikulski. On a personal note, you grew up in 
Maryland. You grew up in Aberdeen, close to a military base. It 
is the home of Cal Ripken.
    Mr. Griffin. Yes, Senator, I was born on a military base.
    Senator Mikulski. That is exactly right, and you went to 
our public schools. What was it that got you interested in--
what do you think--you have outlined those projects, but what 
got you interested?
    Mr. Griffin. This story is almost embarrassing to recount. 
I have not told it in public for some years, but it is true 
that--my mother was a teacher when I was a kid, and the first 
book that I was ever given was a book on astronomy and space. I 
have since commented that sometimes that based on what we know 
today, everything in that book was wrong.
    Senator Mikulski. Gee, and I started with ``The Three 
Bears.''
    Mr. Griffin. Well, we went down different tracks. I still 
have that book actually, and I was 5. This was in 1954, and I 
was absolutely fascinated by it, and from that time forward I 
never considered for myself anything other than being a 
scientist or engineer or mathematician and involving myself in 
the space business. And I never did. So that was what motivated 
me.
    I have no doubt--I hear often from--they are not kids any 
more--you know, men or women in their 30s whose early memories 
are the Apollo landings on the Moon, stimulated them into 
science, development of science and engineering. I hear from 
other young men and women who have technical educations that 
they were fascinated by Bob Ballard's discovery of the Titanic. 
Any sort of exploration into the unknown, any sort of discovery 
of the new and unknown excites our kids. And if you catch them 
at that age, they are with you forever.
    We all went through puberty. If you let kids get to middle 
school and high school before having fastened onto that 
interest, they are going to be interested in girls and 
football, or guys and football, whatever it is, but it is less 
likely to be science and engineering because science and 
engineering are hard.
    Senator Mikulski. They are hard. Well, first of all, I 
could not agree with you more that it is, number one, people 
interested in young people to expose it to them; number two, 
that it is wonderful projects that get people excited and young 
people knowing and hearing about them. And then also, I 
believe, that with that $167 million in NASA's education 
budget, that we really get perhaps more of a focus on where we 
would like to do it. Should it be in those areas like what we 
would call extra educational institutions like science centers 
and others? Today is not the day of doing that, but we want 
this year to be a success. But we want to be preeminent for the 
decade. We want to be preeminent for the century in science and 
exploration.
    So we look forward to working with you, and we would hope 
that all the work you do, you can start a treaty negotiation 
with NOAA and we will look forward to hearing about that. And I 
and the Hubble will be keeping an eye on you.
    Mr. Griffin. Senator, I will make sure that you do not have 
to keep a sharp eye. I will make sure that you know what we are 
doing with Hubble and with NOAA.
    Senator Mikulski. Thank you very much.
    Senator Shelby. Thank you, Senator Mikulski.

                     ADDITIONAL COMMITTEE QUESTIONS

    Dr. Griffin, I want to thank you for appearing here today 
before our subcommittee. I am sure you will be back many times. 
We will all be carrying on a dialogue with you. You have a lot 
of work cut out for you. I think you are up to the challenge. 
You bring the experience. You are candid, which is something we 
like, it is refreshing. We look forward to working with you. We 
have some hurdles to jump over, and you will be our leader in 
that regard.
    [The following questions were not asked at the hearing, but 
were submitted to the Administration for response subsequent to 
the hearing:]

            Questions Submitted by Senator Richard C. Shelby

    Question. The implementation plan for the Vision laid out in the 
fiscal year 2005 budget request was prepared based on underlying 
assumptions. How have these assumptions changed? What is the impact of 
any changed assumptions on NASA's funding needs?
    Answer. As communicated in its September 2005 Operating Plan 
Update, NASA has concluded the Exploration Systems Architecture Study 
(ESAS) to implement the Vision for Space Exploration. Based on ESAS 
recommendations, NASA has laid out a detailed plan to support sustained 
human and robotic lunar exploration operations. This plan features 
accelerated development of the Crew Exploration Vehicle (CEV) and Crew 
Launch Vehicle (CLV) systems for missions to the International Space 
Station, Moon, and Mars, and identifies key technologies required to 
enable this exploration architecture.
    ESAS results are broadly consistent with the assumptions on which 
the fiscal year 2005 budget request was based. However the specific 
architecture defined by the ESAS study allows NASA to accelerate CEV 
and CLV and to further focus and refine ESMD research and technology.
    To stay within planned budget guidance for Exploration Systems 
while accelerating CEV and these launch systems, it is necessary to 
redirect existing funding for longer-term and lower-priority research 
and technology (R&T) elements within the Exploration Systems Mission 
Directorate (ESMD), while focusing on those R&T activities that support 
the acceleration of the CEV, launch systems, and high-priority, long-
lead items.
    In the fiscal year 2006 budget amendment, $292 million was 
identified as moving from R&T activities into Constellation for CEV and 
CLV acceleration. Following the results of the ESAS, as described 
above, an additional $493 million is identified from the R&T activities 
for acceleration of CEV and CLV, as detailed below. This yields a total 
shift from R&T to Constellation for acceleration in fiscal year 2006 of 
$785 million, relative to original plans for fiscal year 2006.
    Constellation Systems.--NASA plans to accelerate the timeline for 
flight of the next human flight system by two years, from 2014 to a 
goal of not later than 2012. The first flights will be to the 
International Space Station (ISS), but the primary goal of the CEV is 
to support exploration efforts, including enabling humans to return to 
the Moon for weeklong stays as early as 2018, but no later than 2020. 
Longer-duration human presence on the Moon is targeted for 2022. The 
changes in the R&T programs will provide funds required to accelerate 
the design, development, and fabrication of the elements and systems 
needed to support a return to the Moon on the above timeline.
    Human System Research and Technology.--NASA is focusing HSRT 
funding on program elements that mature technologies needed to support 
ISS access and lunar sortie missions, while reducing program elements 
targeting longer-term or lower priority needs. As NASA concentrates the 
use of the Shuttle on ISS assembly, ISS utilization will be deferred.
    Exploration Systems Research and Technology.--NASA is realigning 
projects to support the ESAS recommended architecture requirements. 
This realignment has resulted in a focused and phased, requirements 
driven, R&T program in which some projects are curtailed, some are 
adjusted, and some are added. Ongoing projects are streamlined to 
deliver Technology Readiness Level 6 capabilities when needed (system 
preliminary design review) so as to enable the CEV, launch systems, and 
lunar lander development schedules. Examples of technology projects 
focused on the near-term include ablative thermal protection and 
oxygen-methane propulsion for CEV. Additional work is phased in after 
the first few years for lunar lander propulsion systems and nontoxic 
power and reaction control for launch vehicles. Finally, funding for 
technologies, such as in-situ resource utilization (ISRU) and those 
applicable to lunar surface systems, are phased in only during the out 
years. Discontinued, descoped or delayed technology projects include 
nanomaterials, inflatable structures, large-scale solar power, 
intelligent robotic systems, Mars mission specific technologies, and 
electric propulsion.
    Prometheus Research and Technology.--Program elements have been 
deferred as a result of the ESAS architecture study. Surface nuclear 
power systems to support potential long- duration stays on the Moon 
will not be required until after 2018. Nuclear propulsion will not be 
required until planning for Mars missions begins in earnest. The result 
will be a total reformulation in the nuclear program, yielding $76 
million in fiscal year 2006 to accelerate development of CEV and CLV. 
NASA's funding of the DOE's Naval Reactors program, the JIMO mission, 
and several technology research programs related to electric propulsion 
will be curtailed.
    Question. The fiscal year 2006 budget request contains less than 
half the percentage increase proposed by President Bush last year. [It 
was projected to increase by 4.7 percent above fiscal year 2005, but 
instead is 2.4 percent more when compared with what was appropriated in 
the fiscal year 2005 regular appropriations bill, or only 1.6 percent 
more if the $126 million provided by the emergency supplemental for 
hurricane relief are included.] How would the lower-than expected 
funding affect execution of the Vision?
    Answer. NASA is pleased to have received a 2.4 percent increase in 
the President's fiscal year 2006 budget request. This is about half the 
increase that was planned in the fiscal year 2005 budget runout, with 
the reduction representing NASA's contribution toward overall deficit 
reduction efforts--a priority for the President.
    In his State of the Union Address on February 2, 2005, the 
President underscored the need to restrain spending in order to sustain 
our economic prosperity. The fiscal year 2006 budget request includes 
more than 150 reductions, reforms, and terminations in non-defense 
discretionary programs, of which 3 affect NASA programs. Overall, 
NASA's budget is up, growing 2.4 percent in fiscal year 2006 and is 
projected to continue to climb thereafter at the approximate rate of 
inflation. This is a significant increase, when compared with other 
non-defense, non-homeland security funding, which is generally flat or 
declining.
    In comparison with last year's fiscal year 2005 budget projected 
runout, the fiscal year 2006 budget is about $546 million less. This 
reduction, contributing to overall deficit reduction, is spread among 
NASA's Exploration, Science and Aeronautics Mission Directorates, while 
enabling increased funds for Shuttle Return to Flight requirements. 
None of the reductions in Science and Aeronautics Programs is directed 
to Exploration Systems.
    With proposed fiscal year 2006 funding levels, NASA is capable of 
implementing the Vision for Space Exploration and other national 
priorities. It should be noted that, as a result of the President's 
fiscal year 2006 budget amendment and NASA's proposed adjustments in 
the fiscal year 2005 Operating Plan September update, NASA has 
identified realigned a total of $785 million within planned fiscal year 
2006 Exploration Systems funds from Research and Technology efforts to 
Constellation for acceleration of CEV and CLV relative to original 
fiscal year 2006 plans.
    Question. In your opinion, should NASA be a ``single-mission'' 
agency focused on implementing the President's Vision for Space 
Exploration, or a multi-mission agency as it has been in the past? If 
you intend to lead NASA as a multi-mission agency, to what extent is 
the budget you are requesting for fiscal year 2006-2010 sufficient to 
accomplish that objective?
    Answer. NASA is and should remain a multi-mission agency. Over the 
past year, NASA has made great strides in meeting national priorities 
in its missions not directly connected to milestones in the President's 
Vision for Space Exploration:
  --Earth Science.--We have completed deployment of the Earth Observing 
        System and are supporting investments in the Global Change 
        Science and Technology Program and the next generation Earth 
        observing satellites for numerous applications, including 
        improved weather forecasts, earthquake prediction, resource 
        management, and other hazard warnings.
  --Aeronautics.--We are re-establishing NASA's dedication to mastery 
        of core competencies in subsonic, supersonic and hypersonic 
        flight, along with aviation safety, and airspace systems. NASA, 
        with its industry partners, recently demonstrated the 
        feasibility of significantly reducing the sonic boom from 
        supersonic aircraft, and, last November, NASA's hypersonic X-
        43A demonstrated that an air-breathing engine can fly at nearly 
        10 times the speed of sound.
  --Exploring our Solar System and the Universe.--The Mars rovers, 
        Spirit and Opportunity, have exceeded all expectations and made 
        unprecedented discoveries that will help prepare for eventual 
        human exploration; the Cassini/Huygens mission is providing 
        stunning views of Saturn and Titan; the Genesis mission, 
        despite its hard landing, has returned primordial samples from 
        space; new missions have been launched to Mercury and to 
        comets; and amazing discoveries continue with Hubble, Chandra, 
        and Spitzer.
    NASA's fiscal year 2006 budget request provides a balanced 
portfolio of programs to meet the needs of our national priorities in 
space and aeronautics.
  --The fiscal year 2006 budget request of $5.5 billion for the Science 
        Mission Directorate will support 55 missions in orbit, 26 in 
        development and 34 in design phase. By 2010, the Science budget 
        will increase by 23 percent over current levels. NASA will 
        continue to expand its exploration reach with an armada of 
        existing and new space observatories operating in many 
        different wavelengths and looking at different parts of our 
        exotic universe. The three ``Great Observatories''--Hubble, 
        Spitzer, and Chandra--will continue to bring wondrous images to 
        our eyes and exciting new scientific discoveries. Missions such 
        as Kepler will provide a new understanding and knowledge of the 
        planets orbiting stars far from our solar system.
  --NASA's fiscal year 2006 request for the Aeronautics Research 
        Mission Directorate is $852 million, a significant portion of 
        the government's overall investment in aeronautics research. To 
        make the most of this investment, NASA's technical expertise 
        and facilities for aeronautics research are becoming more 
        focused and results-oriented. NASA's current aeronautics 
        research is focused on enhancing the public good. NASA is also 
        working to maintain a strong basic aeronautics research program 
        to ensure continued mastery of core competencies in subsonic, 
        supersonic, and hypersonic flight. The results from the basic 
        research, technology development, and demonstrations achieved 
        by NASA's Aeronautics efforts will be transitioned for use by 
        both Government and industry.
  --The President's fiscal year 2006 budget amendment, submitted July 
        15, 2005, continues to reinforce a balanced, multi-mission 
        proposal, allowing NASA to address national priorities in Space 
        Science, Earth Science, and Aeronautics, while maintaining 
        focus on the Vision for Space Exploration outlined by the 
        President in January 2005. The multiyear budget plan is 
        sufficient to accomplish this balanced portfolio. It should be 
        noted that the President's fiscal year 2006 budget amendment 
        accomplished several objectives within the request level, 
        including initial steps to accelerate development of the Crew 
        Exploration Vehicle (CEV) and Crew Launch Vehicle (CLV), while 
        preserving funding for Science and Aeronautics Programs. NASA's 
        fiscal year 2005 Operating Plan September update identifies 
        further reallocation within proposed fiscal year 2006 funding 
        levels for Exploration Systems to support these objectives. It 
        is important to note that NASA has not redirected funding from 
        Science and Aeronautics activities to support exploration 
        activities.
    Question. How important is meeting the milestones set out in the 
President's speech--2008 for a demonstration flight of the Crew 
Exploration Vehicle, 2008 for the first Vision-related robotic lunar 
probe, and 2015-2020 for a human return to the Moon? Is there 
flexibility in the dates so that other NASA activities do not 
necessarily have to be sacrificed in order to meet them? If there is 
flexibility in meeting those dates, is there also flexibility in the 
2010 date for retiring the shuttle?
    Answer. The President's fiscal year 2006 budget request, as 
amended, provides resources to enable NASA to implement the milestones 
established in the Vision for Space Exploration. These key milestones 
include the Shuttle Return-to-Flight, 2008 Lunar Robotic Orbiter, and 
accelerated development of the Crew Exploration Vehicle (CEV) and Crew 
Launch Vehicle (CLV), to return Americans to the Moon before 2020. NASA 
is not prepared to be flexible with respect to the major milestones 
established for the agency by the President.
    It is important to note that NASA has not redirected funding from 
Science and Aeronautics activities to support exploration activities, 
either in the fiscal year 2006 budget request as submitted in February 
2005, or in the President's fiscal year 2006 budget amendment, 
submitted to Congress on July 15, 2005. NASA has no plans to reduce 
funding for other NASA activities to support exploration goals.
    In accordance with the President's direction, NASA intends to fly 
out the Shuttle program in an orderly, safe, and disciplined fashion, 
with retirement not later than 2010.
    Question. Please clarify what your plans are for personnel cutbacks 
over the next year and a half. How many full time equivalents (FTEs) 
does NASA employ today, and how many will have to leave the agency, 
voluntarily or involuntarily, by the beginning of fiscal year 2007? 
What is the breakdown of those personnel cuts by center and by 
discipline?
    Answer. NASA's fiscal year 2005 actual FTE (Full Time Equivalents) 
including the NASA Inspector General's office, was 18,807. As of early 
October 2005, the current rate is 18,630.
    NASA is implementing the Vision for Space Exploration. In doing so, 
we are implementing an orderly retirement of the Space Shuttle by 2010, 
defining the architecture for space exploration, and accelerating the 
development of the new exploration vehicles and associated launch and 
support systems. We are continuing to work on the International Space 
Station, fulfilling our commitments to our partner countries. We are 
establishing an aeronautics program focused on technological advanced 
in cutting-edge areas of research and development. In addition, we are 
retaining a robust science portfolio.
    These activities require a balanced workforce skill mix and 
productive NASA Centers to complete the work over several years. We are 
in the process of developing plans to reshape our workforce and capital 
asset portfolio to ensure that we can meet our goals. In the short 
term, however, we have an imbalance of skills at the Centers because we 
have not yet fully matched up the new and revised work with the 
existing workforce.
    We have already taken several actions to reduce the uncovered 
capacity at the Centers, including two early retirement/buyout programs 
which resulted in approximately 650 employees retiring or resigning 
from the Agency. In addition, job fairs were held at NASA Centers, 
which resulted in 119 jobs offers and 95 placements. While these 
actions have helped reduce the extent of the problem, a significant 
imbalance still exists. As of early October 2005, the following 
uncovered capacity existed.

------------------------------------------------------------------------
                                                              Uncovered
                           Center                              Capacity
------------------------------------------------------------------------
ARC........................................................          246
GRC........................................................          268
LaRC.......................................................          181
MSFC.......................................................          226
                                                            ------------
      Total................................................          921
------------------------------------------------------------------------

    In August 2005, the senior leadership at NASA initiated an 
aggressive plan to reduce the uncovered capacity for fiscal year 2006 
and fiscal year 2007, with the ultimate goal of avoiding or minimizing 
the need for a Reduction in Force (RIF) in fiscal year 2007. Targets 
numbers were established for each NASA Center to either identify 
program work within their Center for their own uncovered personnel or 
identify work packages from existing or newly-assigned programs that 
other Centers can perform. The goal is to assign work equitably to 
maintain a reasonable balance among 10 healthy NASA Centers. A team of 
representatives from all NASA Centers and Mission Directorates are 
working together to identify the competencies available at the Centers 
and the work packages available for placement. Work packages will be 
transferred as soon as possible, with a goal of completing the action 
no later than June 2006. At that time, an assessment will be performed 
to determine the remaining uncovered capacity and the likelihood of 
NASA needing those competencies in the near future. For those 
competencies that will not be needed, RIF proceedings will be 
initiated, with a targeted implementation date in fiscal year 2007.
    By identifying required skills and working collaboratively to match 
those skills with funded work, NASA intends to retain the expertise 
we'll need to achieve the Vision for Space Exploration.
    Question. What is NASA's total estimated cost to develop and 
implement IFMP?
    Answer. Development and implementation of IFMP (now Integrated 
Enterprise Management Program) will be completed in fiscal year 2008. 
Investment through that time will be $662.6 million.

                              AERONAUTICS

    Question. NASA's requested budget for aeronautics in fiscal year 
2006 is $852 million, a reduction from $906 million this year. Further 
reductions are projected for fiscal year 2007. According to the 
program, this will mean the elimination of about 1,100 jobs at NASA 
centers. Since coming on board as NASA Administrator, have you 
reexamined these proposals? Do you anticipate modifying them at all?
    How does NASA reconcile the National Institute of Aerospace's call 
for increased funding with NASA's funding stream which can only be 
interpreted as de-emphasizing aeronautics research and development? To 
what extent is NASA using the NIA report in its planning for future 
aeronautics research investment?
    Answer. NASA is using the NIA report, along with the 
Congressionally directed Joint Program and Development Office report on 
the Next Generation Air Transportation System, the report of the 
Congressionally-chartered Commission on the Future of the U.S. 
Aerospace Industry, past reviews by the National Research Council, and 
the newly formed Decadal Survey of Civil Aeronautics, to contribute to 
identification of potential opportunities for additional research and 
establishment of priorities for aeronautics programs and projects. NASA 
agrees with the national needs and critical aviation technology sectors 
called out in the NIA report. We are beginning to address the 
technological needs listed in the NIA report by initiating a national 
dialogue within the Executive Branch and the Congress about the future 
of aeronautics research and the role of the Federal government in this 
research arena. In addition, H.R. 2862, the fiscal year 2006 Science, 
State, Justice, Commerce, and Related Agencies appropriations bill 
calls upon the President to develop a comprehensive, national 
aeronautics policy similar to the one we now have for space 
exploration. In a Statement of Administration Policy regarding H.R. 
2862, the Administration endorsed the Committee's call for the 
development of a national aeronautics policy. While the NIA report 
makes several significant and useful recommendations, the doubling of 
the aeronautics budget will not be possible to achieve within projected 
funding levels for NASA. Rather, NASA must ensure that our current 
investments in aeronautics research and technology are prioritized and 
effective.
    The Agency is addressing its workforce and institutional issues 
with two teams. The NASA Workforce Transition Review team is focusing 
on identification of additional work the Agency needs done in the near 
future that both contributes to the Agency's mission agenda and which 
could be directly assigned to NASA Centers. The Systems Engineering and 
Institutional Transitions Team (SEITT) is conducting a long-term study 
focused on the institutional requirements needed to ensure the Agency's 
goals are met with minimum cost, maximum reliability, and measurable 
high performance. NASA is attempting to identify additional activities 
from other Agency programs, such as Exploration Systems, to assign to 
Agency Research Centers, but it remains unclear whether this will 
totally resolve projected ``uncovered capacity'' within the Agency 
workforce by the end of fiscal year 2006.
    As NASA Administrator, I am working to the best of my abilities to 
resolve these workforce issues, and I will continue to work with the 
Congress to resolve them.

                                SCIENCE

    Question. Funding constraints are forcing difficult choices in 
NASA's Science programs. What process or processes, and criteria, do 
you use to prioritize among your space and earth science programs that 
are in planning or development? For example, the National Research 
Council prepares decadal strategies that prioritize within particular 
disciplines (planetary exploration, astrophysics, etc.), but what 
mechanism and criteria does NASA use to prioritize across disciplines? 
Similarly, how do you determine which existing probes--such as 
Voyager--should be turned off because they are past their design 
lifetimes, even though they continue to return useful data? What is the 
status of your decision-making on whether or not to turn off Voyager?
    Answer. NASA works to maintain a balanced portfolio of investment 
over time among the several disciplines in the Earth and Space 
Sciences. We start from the baseline of existing programs and most 
recent strategic plans, and update them based on recent progress, 
Presidential initiatives, and science community advice. As you point 
out, the NRC decadal surveys are very useful in prioritizing within 
major disciplines. In any given period, choices among programs in 
different disciplines can be driven by recent scientific discovery, 
technology readiness, or partnership opportunities that can leverage 
NASA's investment. A chief factor is ``science value''--the anticipated 
scientific return per dollar investment--though that is not always 
readily estimable. Over the longer term, portfolio balance is 
maintained as we listen to our stakeholders in the science community 
and the Executive and Legislative branches of government.
    Regarding extension or termination of existing probes and 
satellites that have fulfilled their prime missions, NASA also relies 
heavily on science value as determined by independent scientific peer 
review. Those nearing or beyond their prime mission (the period of 
operation proposed when selected) are subjected to a Senior Review 
Process. In this process, mission science teams are required to submit 
a proposal describing what science they propose to accomplish via 
continued operation, and at what cost. An independent panel of external 
scientists reviews, evaluates, and scores the proposals on their 
merits. NASA uses this ranking in deciding which missions to operate 
and for how long, given the funds available.
    There are currently 12 operating missions funded within the Earth-
Sun System division of NASA's Science Mission Directorate that have 
fulfilled their primary mission and are in the extended mission phase, 
including Voyager 1 and 2. Additional funding is identified in the 
President's fiscal year 2006 budget amendment to maintain continued 
operation of the fleet of spacecraft conducting space and solar physics 
missions pending decisions on scientific priorities to be made once 
NASA receives input from both the Sun-Earth Connection and Earth System 
Science Senior Review Panels. These Panels, composed of external and 
independent senior researchers with relevant knowledge and experience, 
meet periodically to review proposals for innovative research, 
accomplished with existing space assets. NASA will permit the Sun-Earth 
Connection missions to operate while the Senior Review process provides 
for a new assessment of the future scientific value of these operating 
missions. At the conclusion of the Panels' deliberations, NASA will use 
their assessment and findings to develop Agency decisions regarding the 
continued operation of these missions.
    Question. The National Research Council recently issued an interim 
report on NASA's Earth Science program, saying that it is ``at risk,'' 
citing reduced funding levels for Earth Science projects following the 
announcement of the Vision for Space Exploration. What is your reaction 
to that report?
    Answer. While funding for Earth science declined in the fiscal year 
2005 budget request, the Earth science budget was largely protected 
from further reduction in the fiscal year 2006 request. The President's 
fiscal year 2006 budget amendment reallocates funding within the 
Science Mission Directorate to focus resources on near-term 
requirements while deferring investments in longer-term activities. 
Specifically, the Earth-Sun Theme is increased by $88.3 million to 
fully fund a standalone Glory mission, provide additional funding for 
extending the missions of currently operating satellites, and maintain 
the launch schedule for the Solar Dynamics Observatory. To the extent 
possible, we will address some concerns raised in their interim report 
in the fiscal year 2007 budget process. We look forward to receiving 
the NRC's decadal survey report for Earth science (expected around the 
end of next year), which will help guide NASA's future investments in 
Earth science and observation.
    Question. The fiscal year 2006 budget request and its projections 
through 2010 assume a cut of about $1 billion to programs within the 
new Science Mission Directorate compared with the fiscal year 2005 
budget projections. How much of that $1 billion cut was taken from 
programs previously under the former Office of Space Science versus 
those in the former Office of Earth Science?
    Answer. Given past budget reductions to former Office of Earth 
Science programs, the Science Mission Directorate protected these 
programs from further reductions in the fiscal year 2006 budget 
request. As a result, the vast majority of reductions contained within 
the fiscal year 2006 budget request for the Science Mission Directorate 
came from planned growth in programs previously part of the Office of 
Space Science. Of the reductions in the Earth-Sun System Theme, only 
the Earth System Science Pathfinder (ESSP) program and Glory reductions 
affected programs from the former Earth Science Enterprise. It is 
important to note that the reduction to ESSP was used to offset a 
budget increase for the Hydros mission. The fiscal year 2006 budget 
request has since been amended to increase funding for the Earth-Sun 
System Theme by $88.3 million to fully fund a standalone Glory mission, 
provide additional funding for extending the missions of currently 
operating satellites, and maintain the launch schedule for the Solar 
Dynamics Observatory. All reductions in the fiscal year 2006 budget 
amendment in the Solar System Exploration and Universe division budgets 
were taken from former Office of Space Science programs.
    Question. What is the status of planning to send a probe to further 
study Jupiter's moon Europa? NASA proposed a Europa mission in fiscal 
year 2002, but replaced it a year later with the Jupiter Icy Moons 
Orbiter (JIMO). Now JIMO has been indefinitely deferred. Does the 
planetary science community still have a Europa mission at the top of 
its list for the next large-class planetary mission? If so, when do you 
expect to launch such a probe?
    Answer. The 2003 National Research Council decadal survey report 
entitled, ``New Frontiers in Solar System Exploration: An Integrated 
Exploration Strategy,'' identified a Europa mission as the top priority 
flagship-class mission (those missions costing $650 million or more). 
NASA recognizes the priority the scientific community places on the 
science returned from the Europa mission. Therefore, we are continuing 
to examine the technological challenges and our mission options for 
such a probe.
    Question. You have stated that once the shuttle returns safely to 
flight, you will reexamine the option of a shuttle mission to service 
the Hubble space telescope. What has changed since your predecessor's 
decision that safety considerations preclude using the shuttle to 
service Hubble?
    Answer. Based on analysis of the relative risks immediately 
following the loss of Columbia, NASA decided not to proceed with a 
Shuttle servicing mission. NASA's decision not to service the Hubble 
was a very difficult one, given the Hubble's record of spectacular 
successes. That decision was made at a time when significant 
uncertainty remained, regarding the technical solutions and risks 
associated with return to flight. After the two successful Space 
shuttle flights needed to achieve our return to flight objectives, NASA 
will have learned a great deal more regarding the risks and operations 
of the vehicle than was known when the previous decision was made. The 
Administrator has committed to reassess the earlier decision, after 
return to flight, based on the relative risks to the Space Shuttle as 
well as our efforts to preserve the option for a Shuttle servicing 
mission for Hubble in advance of that decision. He has further 
indicated that he will make a decision regarding a Shuttle servicing 
mission for Hubble following the second successful Return to Flight 
mission. In the interim, the Agency has funded the option for a Hubble 
servicing mission in the fiscal year 2005 Operating Plan at $291 
million. In addition, $30 million has been included in the President's 
fiscal year 2006 budget amendment to continue to preserve the option 
for a Hubble servicing mission, pending the second return to flight 
mission of the Space Shuttle. NASA will keep the Committee informed of 
our efforts and conclusions in this regard.
    Question. Is the option of servicing Hubble robotically now 
completely off the table? What is the last date at which a decision 
could be made to service Hubble robotically? What have we learned from 
the work that was done on this option?
    Answer. Based on analysis of the relative risks immediately 
following the loss of Columbia, NASA decided not to proceed with a 
Shuttle servicing mission (the previously planned Servicing Mission 4, 
or SM-4). That decision was made at a time when significant uncertainty 
remained regarding the technical solutions and risks with Return to 
Flight. In response to Congressional direction, NASA tasked the 
National Academy of Sciences (NAS) to examine all reasonable options 
for extending the lifetime of the HST. The NAS concluded that it was 
``highly unlikely that NASA will be able to extend the science life of 
[Hubble] through robotic servicing,'' and recommended that ``[a] 
robotic mission approach should be pursued only to de-orbit Hubble.'' 
Consistent with the conclusions of the NAS study, NASA discontinued the 
robotic servicing effort this past spring.
    In the future, however, robotic concepts for an eventual de-orbit 
mission for HST may be considered, and, in the meantime, much of the 
work done for the robotic servicing concept is being used in developing 
new capabilities needed for the Exploration Vision as well as other 
advanced robotics concepts. The Agency believes that an aggressive use 
of robotics in the Exploration Vision is required to execute many of 
the elements of that program.
    Question. If NASA proceeds with a Hubble servicing mission, and it 
is successful, how much longer will Hubble operate? What will be the 
annual operating costs for extending Hubble's lifetime? What impact 
will these additional costs have on other NASA astronomy programs? At 
the end of Hubble's extended lifetime, should we anticipate calls for 
yet another extension?
    Answer. The expected (design) life of the equipment planned for the 
potential SM-4 is 5 years. That said the design of the HST and its 
hardware is robust and redundant. The Agency has not done an extensive 
analysis of the potential lifetime of the HST after servicing, but the 
prime mechanism for the end of science is loss of the fine pointing 
gyroscopes. With new batteries, gyros, and science instruments 
installed on SM-4, and the improved operational concepts developed as 
part of the ongoing life extension program, it is reasonable to expect 
that the system as a whole will be producing quality science for up to 
7 years after servicing.
    The cost of operations of the HST after servicing depends on 
several variables, including the amount of overlap with other programs 
using the Space Telescope Science Institute (STScI) and the outcome of 
negotiations with the contracted management organization. It is 
expected that it will cost less to operate the HST in the future if 
there are no subsequent servicing missions.
    Existing operational missions should not be impacted by additional 
years of operations of the HST. At present, we have budgeted sufficient 
funds to operate the telescope until the end of our present budget 
cycle. The greatest impact to Space Science has been and continues to 
be the additional costs driven by the delay in SM-4 due to the Shuttle 
accident and NASA's goal to demonstrate two successful Shuttle Return 
to Flight missions before proceeding with a Hubble servicing mission.
    After SM-4, any future required servicing, if desired, to further 
extend the life of HST, would be after the retirement of the Shuttle 
fleet.

                              EXPLORATION

    Question. The fiscal year 2006 budget request indicates that NASA 
plans to spend through fiscal year 2010 over $10 billion on the Earth 
Orbit Capability (Spiral 1) program to develop, demonstrate and deploy 
the capability to safely transport a crew to and from earth orbit, by 
2014, in preparation for future missions to the moon. The five-year 
forecast in your fiscal year 2006 request shows steep increases in 
anticipated funding needs for the Spiral 1 program in fiscal years 2009 
and 2010. What is a reasonable timeframe in which we could expect you 
to share the total cost of the Spiral 1 program and future Spirals with 
the Congress?
    Answer. Exploration Systems is no longer using the term ``Spiral'' 
to categorize its development process. The initial capability developed 
by the Constellation Program will be transportation of crew and 
supplies to the International Space Station in low-Earth orbit.
    As part of its Exploration Systems Architecture Study, the Agency 
has completed preliminary cost estimates for the new Exploration 
architecture. NASA has briefed Committee staff on these estimates and 
the methodology followed to arrive at them.
    Question. You said last year that the issue wasn't whether there 
was enough money allocated to the Vision, but ``why we are expecting so 
little for the money which has been allocated?'' How, specifically, 
will you get more ``bang for the buck'' as you execute the Vision?
    Answer. In order to provide the maximum return for the taxpayer's 
investment, NASA must make priority decisions within the exploration 
program by focusing on those activities that are best able to produce 
significant results, and by ensuring that individual programs 
complement each other.
    In September, NASA promulgated an integrated exploration 
architecture derived from the Vision for Space Exploration that 
specifies the capabilities necessary for future exploration activities. 
Based on that architecture, clear priorities have been established to 
focus NASA efforts on those development activities designed to provide 
the greatest return to the taxpayer. Teams have been established to 
assess how to best utilize our resources and workforce to ensure that 
we get the most ``bang for the buck.'' Funds have already been 
redirected from projects that do not need immediate funding (such as 
Project Prometheus) towards those that do (e.g., the CEV). Additional 
cost savings and efficiencies will be realized through a careful, 
focused transition between Shuttle infrastructure and new exploration 
capabilities. These new capabilities will create new opportunities for 
exploration, discovery and understanding.
    Question. NASA has announced that it will accelerate its plans for 
the Crew Exploration Vehicle. Given this maiden flight was not to have 
occurred until 2014, where do you anticipate the associated funding 
will come from and which NASA programs will be impacted as the result 
of advancing the development of the CEV? What steps would you take to 
ensure that accelerating the program would not lead to excessive cost 
growth and/or technical risk?
    Answer. The capability to accelerate the development of the CEV 
will be driven by development schedules, test schedules, safety 
considerations, and funding. These were areas of interest for the 
Exploration Systems Architecture Study (ESAS).
    To stay within planned budget guidance for Exploration Systems 
while accelerating CEV and these launch systems, it is necessary to 
redirect existing funding for longer-term and lower-priority research 
and technology (R&T) elements within the Exploration Systems Mission 
Directorate (ESMD), while focusing on those R&T activities that support 
the acceleration of the CEV, launch systems, and high-priority, long-
lead items.
    In the fiscal year 2006 budget amendment, $292 million was 
identified as moving from R&T activities into Constellation for CEV and 
CLV acceleration.
    Constellation Systems.--NASA plans to accelerate the timeline for 
flight of the next human flight system by two years, from 2014 to a 
goal of not later than 2012. The first flights will be to the 
International Space Station (ISS), but the primary goal of the CEV is 
to support exploration efforts, including enabling humans to return to 
the Moon for week-long stays as early as 2018, but no later than 2020. 
Longer-duration human presence on the Moon is targeted for 2022. The 
changes in the R&T programs will provide funds required to accelerate 
the design, development, and fabrication of the elements and systems 
needed to support a return to the Moon on the above timeline.
    Human System Research and Technology.--NASA is focusing HSRT 
funding on program elements that mature technologies needed to support 
ISS access and lunar sortie missions, while reducing program elements 
targeting longer-term or lower priority needs. As NASA concentrates the 
use of the Shuttle on ISS assembly, ISS utilization will be deferred.
    Exploration Systems Research and Technology.--NASA is realigning 
projects to support the ESAS recommended architecture requirements. 
This realignment has resulted in a focused and phased, requirements 
driven, R&T program in which some projects are curtailed, some are 
adjusted, and some are added. Ongoing projects are streamlined to 
deliver Technology Readiness Level 6 capabilities when needed (system 
preliminary design review) so as to enable the CEV, launch systems, and 
lunar lander development schedules. Examples of technology projects 
focused on the near-term include ablative thermal protection and 
oxygen-methane propulsion for CEV. Additional work is phased in after 
the first few years for lunar lander propulsion systems and non-toxic 
power and reaction control for launch vehicles. Finally, funding for 
technologies, such as in situ resource utilization (ISRU) and those 
applicable to lunar surface systems, are phased in only during the out 
years. Discontinued, descoped or delayed technology projects include 
nanomaterials, inflatable structures, large-scale solar power, 
intelligent robotic systems, Mars mission specific technologies, and 
electric propulsion. Transitional action is being taken in fiscal year 
2005 to discontinue plans for 80 tasks and activities, previously 
planned at $206 million in fiscal year 2006, which do not directly 
support ESAS architecture or schedule requirements. These actions will 
yield $174 million in fiscal year 2006 that will be applied towards 
accelerated development of CEV and CLV.
    Prometheus Research and Technology.--Program elements have been 
deferred as a result of the ESAS architecture study. Surface nuclear 
power systems to support potential long-duration stays on the Moon will 
not be required until after 2018. Nuclear propulsion will not be 
required until planning for Mars missions begins in earnest. The result 
will be a total reformulation in the nuclear program, yielding $76 
million in fiscal year 2006 to accelerate development of CEV and CLV. 
NASA's funding of the DOE's Naval Reactors program, the JIMO mission, 
and several technology research programs related to electric propulsion 
will be curtailed.
    Further, in order to reduce cost and technical risks, ESMD and 
Constellation Systems are currently investigating innovative approaches 
to software development, early incorporation of operational expertise 
into the program, a lean program and theme office, and a robust 
oversight role for the theme and program.
    Question. Generally speaking, do you anticipate that the decision 
to merge the EELV programs will save money for the government, and 
specifically for NASA? If so, how will it save money, and how much?
    Answer. The Department of Defense is in the best position to 
evaluate impacts to EELV due to changes in the program structure. 
Nonetheless, NASA is an important customer for EELV and we are very 
interested in potential efficiencies that could reduce our costs over 
the long run.
    We have been following the initiative to consolidate elements of 
the individual EELV programs into common, integrated activities under 
the proposed ``United Launch Alliance (ULA).'' We understand that this 
initiative could drive economies of scale and allow us to reduce the 
individual ``standing armies'' that contribute to fixed costs for each 
of the EELV programs. This approach holds some potential for 
significant cost savings and we look forward to benefiting from them if 
and when they occur. However, we have not evaluated the ULA proposals 
in enough detail to quantify any potential cost savings.
    Question. Considering the large amount of information that we have 
from the Apollo program, and the number of lunar probes being launched 
by other countries, why does NASA plan to launch lunar probes of its 
own prior to a human return to the Moon? Please explain what these 
probes will be doing that is crucial to accomplishing the President's 
goal. What is the status of planning for these lunar probes?
    Answer. NASA intends to launch lunar probes--including orbiters and 
lenders--in order to prepare for extended human presence on the Moon. 
As a synergistic benefit, NASA also expects to contribute to the 
advancement of scientific knowledge of the Moon, which in turn will 
advance our understanding of our own planet's evolution.
    As noted in the question, other countries are also launching probes 
to the Moon. NASA expects to take full advantage of the knowledge 
gained from those probes. However, there are more questions NASA must 
answer to meet the lofty goals of the Vision for Space Exploration. 
NASA probes will focus on filling gaps in knowledge needed to ensure 
the safety of future human missions to the Moon. They will address 
specific questions related to human exploration of the Moon, and 
demonstrate key technologies required for future human missions. The 
programs are designed to avoid unnecessary redundancy and take full 
advantage of the results from other probes.
    For example, NASA is planning a Lunar Reconnaissance Orbiter (LRO) 
launch in 2008, which will provide a much higher fidelity map of a 
larger portion of the lunar surface, especially the poles, than is 
offered by any other probe. Such a map is critical for selecting future 
sites for human landing. LRO instruments will also provide information 
to help NASA protect our astronauts from the Moon's radiation 
environment and to identify likely sources of water.
    Shortly after the LRO mission, NASA plans to send a lander to the 
Moon. This lander will help demonstrate precision navigation techniques 
that will be important for positioning humans on the exact lunar 
landing site of choice. It will conduct a more detailed survey of a 
potential human landing site and confirm the existence and composition 
of resources that can support an extended human presence. Eventually, 
lenders may demonstrate capabilities needed for extended human 
presence, such as the ability to convert lunar water into hydrogen and 
oxygen for life support and propulsion.
    In summary, NASA's lunar probes are intended to meet the needs of 
the Vision for Space Exploration. Other probes complement planned NASA 
lunar probes. We design our probes to provide additional knowledge 
critical to ensuring future successful human missions to the lunar 
surface.

 SPACE OPERATIONS: THE INTERNATIONAL SPACE STATION (ISS) AND THE SPACE 
                                SHUTTLE

    Question. What is your current cost estimate for returning the 
space shuttle to flight status--for fiscal year 2005 and fiscal year 
2006, specifically, and the total cost (fiscal year 2003-2009)?
    Answer. NASA's estimate for Space Shuttle Return to Flight (RTF) 
costs from fiscal year 2003 through the end of fiscal year 2006 is just 
over $1.4 billion. Overall, Return to Flight costs are stabilizing as 
technical solutions have reached maturity and implementation of 
solutions nears completion. The estimates provided in the latest 
Implementation Plan for Space Shuttle Return to Flight and Beyond, 
dated June 3, 2005 (attached), remain valid and have not substantially 
changed since November 2004. Management tools are in use to monitor 
progress and provide early warning of potential problems. However, the 
potential exists for additional content that may be required in the 
post-Return to Flight time frame depending on the ongoing work 
addressing issues seen during STS-114 and the results of the Shuttle's 
performance on the second Return to Flight mission, STS-121.
    Current estimates for RTF costs are: Fiscal year 2003--$42 million; 
fiscal year 2004--$496 million; fiscal year 2005--$602 million; and 
fiscal year 2006--$288 million.
    If there are any increases in Return to Flight costs, NASA is 
committed to accommodating them within its total budget request.
    Actual costs to date are tracking very closely with the November 
2004 estimate provided to Congress. The total estimated cost for 
returning the Shuttle to flight status through fiscal year 2009 is 
approximately $1.98 billion. The outwear costs are associated with 
added manpower for Systems Engineering. NASA's plan and our budget 
reflect the end of RTF after the second RTF mission and subsequent 
post-flight assessment actions. These milestones will take the Agency 
through most of fiscal year 2006. RTF, from a budget perspective, will 
end in fiscal year 2006, and will no longer be tracked as a separate 
effort, beginning in fiscal year 2007.

   Implementation Plan for Space Shuttle Return to Flight and Beyond
                     return to flight cost summary

    Proposed Program solutions for all return to flight (RTF) actions 
are reviewed by the Space Shuttle Program Requirements Control Board 
(PRCB) before receiving final NASA implementation approval. The PRCB 
has responsibility to direct studies of identified problems, formulate 
alternative solutions, select the best solution, and develop overall 
cost estimates. The membership of the PRCB includes the Space Shuttle 
Program Manager, Deputy Manager, all Project and Element Managers, 
Safety and Mission Assurance personnel, and Management Integration and 
Planning Office. This process applies to solutions to the Columbia 
Accident Investigation Board (CAIB) recommendations as well as to the 
Space Shuttle Program (SSP) corrective actions.
    In the process of down-selecting to two or three ``best options,'' 
the projects and elements approve funding to conduct tests, perform 
analysis, develop prototype hardware and flight techniques, and/or 
obtain contractor technical expertise that is outside the scope of 
existing contracts.
    The Space Flight Leadership Council (SFLC) is regularly briefed on 
the overall activities and progress associated with RTF and becomes 
directly involved when the SSP is ready to recommend a comprehensive 
solution to a CAIB recommendation or an SSP corrective action. The SFLC 
receives a technical discussion of the solution as well as an 
assessment of cost and schedule. With the concurrence of the SFLC, the 
SSP then receives the authority to proceed. The membership of the SFLC 
includes the Associate Administrator for the Office of Space 
Operations, Associate Deputy Administrator for Technical Programs, 
Deputy Associate Administrator for ISS [International Space Station] 
and SSP, Associate Administrator for Safety and Mission Assurance, 
Space Shuttle Program Manager, and the Office of Space Operations 
Center Directors (at Johnson Space Center, Kennedy Space Center, 
Marshall Space Flight Center, and Stennis Space Center).
    All recommended solutions are further reviewed, for both technical 
merit and to determine whether the solution responds to the action, by 
the Return to Flight Task Group (also known as the Stafford-Covey Task 
Group).
    Processes established by NASA to estimate and capture all costs 
related to RTF have steadily improved the accuracy of Agency budget 
forecasts. As the technical plan for RTF has matured, so the cost 
estimates have matured. NASA incurred costs in fiscal year 2003, valued 
at $42 million, to initiate RTF actions based on preliminary CAIB 
recommendations. Since November 2003, additional corrective actions 
have been initiated, in accordance with the process described above and 
based on the final CAIB Report recommendations and internal SSP 
actions.
    During fiscal year 2004, RTF activities moved rapidly from planning 
to execution, with several key option ``downselect'' decisions being 
made by the end of the year. The July 2004 RTF cost estimate is 
considered the first credible Agency projection because it was based on 
a more mature technical plan. NASA estimated that RTF activities in 
fiscal year 2004 would cost about $465 million. By the end of the year, 
the actual costs totaled $496 million. The costs incurred included work 
carried over from fiscal year 2003 as well as late-year changes in 
fiscal year 2004 technical content.
    The value of RTF activities for fiscal year 2005 is estimated at 
$602 million, of which $413 million have been approved through the 
PRCB. Of the remaining $189 million, $73 million represent the 
estimated value of work review by the control board, but with 
additional technical effort required before a directive is released, 
and $116 million is the value of activities that are still in technical 
definition. As NASA gains actual flight experience, the estimates for 
fiscal year 2005 and fiscal year 2006 will be adjusted and the changes 
will be reported to Congress as soon as they are fully assessed.
    Fiscal year 2006 is planned to be a transition year for the Shuttle 
Program. RTF technical content that must be sustained for the Program's 
remaining service life, along with the workforce required to continue 
safe flight, will be absorbed into the Program's baseline. Therefore, 
at the end of fiscal year 2006, RTF costs will no longer be budgeted or 
reported separately.
    Excluded from the cost estimates provided below are other RTF-
related funding requirements resulting from a complete evaluation of 
Columbia accident impacts across the Program, such as replacement of 
hardware (e.g., cargo integration, Orbiter pressure tanks). Several 
solutions to improve NASA's culture and some of the Program's actions 
detailed in ``Raising the Bar--Other Corrective Actions'' are 
integrated into existing processes and do not always require additional 
funding.

                                                               TABLE 1.--RETURN TO FLIGHT BUDGET ESTIMATES/IMPLEMENTATION PLAN MAP FOR NEW ESTIMATES INCLUDING THREATS \1\
                                                                                                          [Dollars in millions]
----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                       Fiscal year--                                                               Recommendation Numbers Map to Implementation Plan
                                             -------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                                                CAIB #
                                               2003    2004    2005    2006  --------------------------------------------------------------------------------------------------------------------------------------------       SSP
                                                                              3.2-1  3.3-1  3.3-2  3.3-3  3.3-4  3.3-5  3.4-1  3.4-2  3.4-3  3.8-1  4.2-1  4.2-2  4.2-3  6.2-1  6.4-1  7.5-1  7.5-2  7.5-3  9.1-1  9.2-1  Recommendation
----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
  ( \2\ Total Initiated SSP RTF Activities      42     496     602     288  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  ..............
    RE/RP   Orbiter RCC Inspections and     ......      39      41       5  .....     X      X   .....  .....  .....  .....  .....  .....     X   .....  .....  .....  .....     X   .....  .....  .....  .....  .....  ..............
             Orbiter RCC-2 Shipsets Spares
    RE/RP   On-orbit TPS Inspection and         20      71     167      49  .....  .....  .....  .....  .....  .....  .....     X   .....  .....  .....  .....  .....  .....     X   .....  .....  .....  .....  .....           X
             EVA Tile Repair
            Orbiter Workforce               ......  ......      38      46  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....     X   .....  .....  .....     X   .....  .....           X
    RE/RP   Orbiter TPS Hardening           ......      29       1  ......  .....  .....     X   .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  ..............
            Orbiter/GFE                     ......       8       4  ......  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  ..............
       RE   Orbiter Contingency             ......       8       4  ......  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  ..............
    RE/RP   Orbiter Certification/          ......      47       9  ......  .....     X   .....     X      X   .....  .....  .....  .....  .....  .....     X   .....     X   .....  .....  .....  .....  .....     X            X
             Verification
    RE/RP   External Tank Items (Camera,        10      93      88      14     X   .....  .....  .....  .....  .....  .....  .....     X   .....  .....  .....     X   .....  .....  .....  .....  .....  .....  .....  ..............
             Bipod Ramp, etc.)
    RE/RP   SRB Items (Bolt Catcher, ETA         1      14       4  ......  .....  .....  .....  .....     X   .....  .....  .....     X   .....     X   .....  .....  .....  .....  .....  .....  .....  .....  .....           X
             Ring Invest., Camera)
    RE/RP   Ground Camera Ascent Imagery         8      40      13      11  .....  .....  .....  .....  .....  .....     X   .....  .....  .....  .....     X      X   .....     X   .....  .....  .....  .....  .....  ..............
             Upgrade
            KSC Ground Operations           ......      15      38      42  .....  .....  .....  .....  .....     X   .....  .....  .....  .....  .....     X      X   .....     X   .....  .....  .....  .....  .....           X
             Workforce
 RE/RP/AC   Other (System Intgr. JBOSC           4     132     178     121  .....     X      X      X      X   .....  .....  .....  .....  .....  .....  .....  .....  .....  .....     X      X      X      X   .....           X
             Sys. Full Cost, Additional
             FTEs, etc.)
    RE/RP   Stafford-Covey Team             ( \3\    \4\ 1   \5\ 4  ( \6\   .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....           X
                                                 )                       )
                                           =============================================================================================================================================================================================
        Other RTF Related: NASA             ......      45      77      79  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....     X      X      X   .....  ..............
         Engineering and Safety Center
         (NESC) \7\
----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
        RE = Reestimated Item; RP = Rephased; AC = Added Content.

        \1\ These estimates could change due to improved estimates, additional tasks, and added scope as we better understand the implementation of RTF recommendations.
        \2\ This update includes added scope of work and improved estimates. RTF costs are stabilizing as technical solutions reach maturity. The Congress will be kept informed as we refine these requirements and associated cost
          estimates.
        \3\ NASA assumed an estimate of $94 million in budget authority for fiscal year 2003 of which $52 million of fiscal year 2003 planned work and associated cost were carried into fiscal year 2004.
        \4\ The fiscal year 2004 RTF cost estimate of $496 million includes $423 million of activities that have been approved for implementation. The remaining $73 million of RTF activities are pending approval. As soon as these
          additional activities are definitized, they will be shared with Congress.
        \5\ The fiscal year 2005 RTF cost estimate of $602 million includes $413 million of activities that have been approved for implementation. Of the remaining $189 million potential, $73 million is in work and $116 million of
          activities are in technical definition. As soon as these additional activities are definitized, they will be shared with Congress.
        \6\ The fiscal year 2006 RTF cost estimate of $288 million includes $188 million of activities that have been approved for implementation. Of the remaining $100 million potential activities, $26 million is in work and $74
          million of activities are in technical definition. As soon as these additional activities are definitized, they will be shared with Congress.
        \7\ The NASA Engineering and Safety Center (NESC) is funded through NASA's Corporate G&A. The NESC at NASA's Langley Research Center in Hampton, VA, provides comprehensive examination of all NASA programs and projects. The
          Center thus provides a central location to coordinate and conduct robust engineering and safety assessment across the entire Agency.

               Chart 1.--February 2005 RTC/CAIB Estimates
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


------------------------------------------------------------------------
                                             Fiscal year--
                             -------------------------------------------
                                 2003       2004       2005       2006
------------------------------------------------------------------------
Estimates Published in July          42        465        643        331
 2004.......................
                             ===========================================
Value of Control Board               42        423        413        188
 Directives Issues..........
Estimates for Control Board   .........         73         73         26
 Actions Work...............
Estimates for Activities      .........  .........        116         74
 Still in Technical
 Definition.................
                             -------------------------------------------
      Total Board Actions/           42        496        602        288
       Pending Board Actions
------------------------------------------------------------------------


                   TABLE 2.--FEBRUARY 2005 RTF STATUS
------------------------------------------------------------------------
                                             Fiscal year--
                             -------------------------------------------
                                 2003       2004       2005       2006
------------------------------------------------------------------------
RTF Activities--Control              42        423        413        188
 Board Directive............
RTF Activities--Been to       .........         73         73         26
 Control Board/Awaiting.....
RTF Activities--In Review     .........  .........        116         74
 Process....................
                             -------------------------------------------
      TOTAL RTF.............         42        496        602        288
                             ===========================================
RTF Activities--Control
 Board Directive:
    Orbiter RCC Inspections   .........         39         22  .........
     & Orbiter RCC-2
     Shipsets Spares........
    On-Orbit TPS Inspection          20         71        151         20
     & EVA Tile Repair......
    Orbiter Workforce.......  .........  .........         33         41
    Orbiter Hardening.......  .........         29          1  .........
    Orbiter/GFE.............  .........          7          4  .........
    Orbiter Contingency.....  .........          8         12  .........
    Orbiter Certification/    .........         47  .........  .........
     Verification...........
    External Tank Items              10         42         25          2
     (Camera, Bipod Ramp,
     etc.)..................
    SRB Items (Bolt Catcher,          1         14          4  .........
     Camera)................
    Ground Camera Ascent              8         40         13         11
     Imagery Upgrade........
    KSC Ground Operations     .........         15         38         42
     Workforce..............
    Other (System Intgr.,             4        110        107         71
     JBOSC Sys., SSME Tech.
     Assess, Ground Ops
     Workforce).............
    Stafford-Covey Team.....  .........          1          4  .........
                             -------------------------------------------
      Total, RTF Activities--        42        423        413        188
       Control Board
       Directive............
                             ===========================================
RTF Activities--Been to
 Control Board/Awaiting:
    Orbiter RCC Inspections   .........  .........  .........  .........
     & Orbiter RCC-2
     Shipsets Spares........
    On-Orbit TPS Inspection   .........  .........          6          8
     & EVA Tile Repair......
    Orbiter Workforce.......  .........  .........          5          5
    Orbiter Hardening.......  .........  .........  .........  .........
    Orbiter/GFE.............  .........  .........  .........  .........
    Orbiter Contingency.....  .........  .........          5  .........
    Orbiter Certification/    .........  .........  .........  .........
     Verification...........
    External Tank Items       .........         51         50          9
     (Camera, Bipod Ramp,
     etc.)..................
    SRB Items (Bolt Catcher,  .........  .........  .........  .........
     Camera)................
    Ground Camera Ascent      .........  .........  .........  .........
     Imagery Upgrade........
    KSC Ground Operations     .........  .........  .........  .........
     Workforce..............
    Other (System Intgr.,     .........         22          7          4
     JBOSC Sys., SSME Tech.
     Assess, Ground Ops
     Workforce).............
                             -------------------------------------------
        Total RTF             .........         73         73         26
         Activities--Been to
         Control Board/
         Awaiting...........
                             ===========================================
RTF Activities--In Review
 Process:
    Orbiter RCC Inspections   .........  .........         19          5
     & Orbiter RCC-2
     Shipsets Spares........
    On-Orbit TPS Inspection   .........  .........         10         21
     & EVA Tile Repair......
    Orbiter Workforce.......  .........  .........  .........  .........
    Orbiter Hardening.......  .........  .........  .........  .........
    Orbiter/GFE.............  .........  .........  .........  .........
    Orbiter Contingency.....  .........  .........  .........  .........
    Orbiter Certification/    .........  .........          9  .........
     Verification...........
    External Tank Items       .........  .........         14          3
     (Camera, Bipod Ramp,
     etc.)..................
    SRB Items (Bolt Catcher,  .........  .........  .........  .........
     Camera)................
    Ground Camera Ascent      .........  .........  .........  .........
     Imagery Upgrade........
    KSC Ground Operations     .........  .........  .........  .........
     Workforce..............
    Other (System Intgr.,     .........  .........         64         46
     JBOSC Sys., SSME Tech.
     Assess, Ground Ops
     Workforce).............
                             -------------------------------------------
        Total RTF             .........  .........        116         74
         Activities--In
         Review Process.....
------------------------------------------------------------------------

    Question. You have said that the United States will (1) terminate 
the space shuttle by 2010, and (2) fulfill our commitments to the 
partners in the International Space Station (ISS) program. How will 
that be accomplished, considering that the partners were relying on the 
availability of the shuttle during the operational phase of the ISS 
program?
    Answer. NASA is currently studying the options, including the 
utilization of commercial or partner vehicles and acceleration of the 
Crew Exploration Vehicle, to meet our obligations to our International 
Partners and to meet our commitment to retire the Shuttle by 2010.
    Question. Under what circumstances would you advocate waiver of the 
Iran Nonproliferation Act?
    Answer. Section 6 of the Iran Nonproliferation Act of 2000 (Public 
Law 106-178) (INA) restricts U.S. Government payments, in cash or in 
kind, to certain Russian entities for work related to human space 
flight, including the International Space Station (ISS). Section 6 
adversely impacts U.S. interests by limiting/eliminating U.S. human 
access to space and pursuit of the President's Vision for Space 
Exploration. Russia has said they will no longer provide critical ISS 
crew rescue and logistics services and have publicly stated their 
intention to interrupt Soyuz training for 2006 ISS U.S. astronauts 
unless they are compensated. The United States is dependent on Russia 
for Soyuz crew rescue with no other options until the new NASA Crew 
Exploration Vehicle is available. By April 2006, INA restrictions will 
prevent the United States from maintaining American crew members on the 
ISS expect during Space Shuttle visits.
    On July 12, 2005, the Administration proposed to Congress an 
amendment to INA to advance U.S. Government interests by enabling 
NASA's work and cooperation with the Russian Federal Space Agency to 
proceed: (1) operationally on the ISS and meet U.S. commitments to 
International Partners; and (2) programmatically in implementing the 
Vision for Space Exploration in a manner that maintains the strong 
commitment of the U.S. Government to nonproliferation. The 
Administration's proposed amendment took into consideration 
Congressional concerns voiced to date by proffering an amendment that 
retained all nonproliferation elements of INA (Sections 1-5) and made a 
minimal change to definition in Section 6 which, in effect, removed the 
prohibition on payments to Russian entities related to most ISS and 
human space flight activities.
    The Senate passed S. 1713, the Iran Nonproliferation Amendments Act 
of 2005, by unanimous consent on September 19, 2005. As passed, the 
measure amends INA to a limited degree, allowing NASA to meet near-term 
ISS operational and programmatic needs, but maintaining the 
restrictions of the INA for any payments related to human space 
exploration, and for ISS-related payments, beyond January 1, 2012.
    Question. If NASA is unable to get relief from the Act, how do you 
plan to provide crew rotation/rescue services?
    Answer. Assured crew return is an important safety protection under 
current ISS operational plans. Should the Soyuz vehicle be unavailable 
at any time in the future, U.S. crews would only be maintained on the 
ISS while the Space Shuttle or a potential future vehicle capable of 
serving as a crew rescue vehicle (e.g., the CEV or a commercial crew 
transfer vehicle) is docked.
    Question. What are the potential costs to NASA if you are given the 
authority to purchase crew rotation/rescue services from Russia?
    Answer. Actual costs are subject to negotiations with Russia, but 
NASA anticipates that the total amount of purchases of crew and cargo 
services from Russia would fit within the total funds appropriated by 
Congress for fiscal year 2005 and requested for fiscal year 2006 for 
the ISS Cargo and Crew Services budget line. [Fiscal year 2005--$98 
million; fiscal year 2006--$160 million; fiscal year 2007--$160 
million; fiscal year 2008--$160 million; fiscal year 2009--$500 
million; and fiscal year 2010--$890 million.] Costs for other services 
would fit within the total ISS budget.
    Question. What decision has been made about whether to continue 
building the centrifuge? How much has Japan spent on it to date? If 
NASA decides the centrifuge no longer is needed for ISS, are there 
alternative uses for it? Will NASA have to reimburse Japan for its 
costs if the program is canceled? What other termination costs would be 
associated with a decision to cancel it?
    Answer. Pursuant to the NASA-Government of Japan Memorandum of 
Understanding for the International Space Station (ISS) and an 
Agreement in Principle for JEM Launch Offset, Japan is developing the 
U.S. Centrifuge for NASA to partially offset NASA's costs for launching 
the Japanese Experiment Module, Kibo, to the ISS.
    On September 27, 2005, NASA informed officials from the Japan 
Aerospace Exploration Agency (JAXA) and the Japanese Ministry of 
Education, Culture, Sports, Science and Technology (MEXT) that the 
United States had withdrawn its requirements for development and launch 
of the U.S. Centrifuge Accommodation Module based on a re-
prioritization of research requirements with greater focus on research 
having a direct and near-term benefit to the exploration mission.
    NASA has not incurred termination costs and we believe we do not 
have an obligation to directly reimburse Japan for its costs. Under the 
arrangements described above, however, NASA is committed to launch the 
Japanese Experiment Module to the International Space Station in 
exchange for Japan's provision of the Centrifuge, associated hardware 
and H-IIA launch services.
    Discussions are currently underway between NASA and Japanese 
officials to discuss the implications of this NASA decision including 
areas of continuing commitment by both parties.
    While the Japanese Government has not provided NASA with the 
detailed Japanese budget for development of the U.S. Centrifuge, the 
following information is known:
  --In April 2004, the Japan Aerospace Exploration Agency (JAXA) 
        informed NASA that they had contracted $425 million to date for 
        the Centrifuge. JAXA's estimate for total Centrifuge 
        development costs at that time was $692 million.
    Question. When will the Administration submit its plan to Congress 
for coping with the issues posed by the Iran Nonproliferation Act in 
terms of assuring access to ISS by U.S. astronauts after 2006? What can 
you tell us today about the strategy the Administration plans to take?
    Answer. Section 6 of the Iran Nonproliferation Act of 2000 (Public 
Law 106-178) (INA) restricts U.S. Government payments, in cash or in 
kind, to certain Russian entities for work related to human space 
flight, including the International Space Station (ISS). Section 6 
adversely impacts U.S. interests by limiting/eliminating U.S. human 
access to space and pursuit of the President's Vision for Space 
Exploration. Russia has said they will no longer provide critical ISS 
crew rescue and logistics services and have publicly stated their 
intention to interrupt Soyuz training for 2006 ISS U.S. astronauts 
unless they are compensated. The United States is dependent on Russia 
for Soyuz crew rescue with no other options until the new NASA Crew 
Exploration Vehicle is available. By April 2006, INA restrictions will 
prevent the United States from maintaining American crew members on the 
ISS expect during Space Shuttle visits.
    On July 12, 2005, the Administration proposed to Congress an 
amendment to INA to advance U.S. Government interests by enabling 
NASA's work and cooperation with the Russian Federal Space Agency to 
proceed: (1) operationally on the ISS and meet U.S. commitments to 
International Partners; and (2) programmatically in implementing the 
Vision for Space Exploration in a manner that maintains the strong 
commitment of the U.S. Government to nonproliferation. The 
Administration's proposed amendment took into consideration 
Congressional concerns voiced to date by proffering an amendment that 
retained all nonproliferation elements of INA (Sections 1-5) and made a 
minimal change to definition in Section 6 which, in effect, removed the 
prohibition on payments to Russian entities related to most ISS and 
human space flight activities.
    The Senate passed S. 1713, the Iran Nonproliferation Amendments Act 
of 2005, by unanimous consent on September 19, 2005. As passed, the 
measure amends INA to a limited degree, allowing NASA to meet near-term 
ISS operational and programmatic needs, but maintaining the 
restrictions of the INA for any payments related to human space 
exploration, and for ISS-related payments, beyond January 1, 2012.
    Question. How many Shuttle flights are needed to complete 
construction of the ISS? What is your plan if that number of flights 
cannot be accomplished by the end of 2010, when the Shuttle program is 
supposed to be terminated?
    Answer. The NASA Administrator commissioned an assessment known as 
the Shuttle/Station Configuration Options Team (S/SCOT) study to 
evaluate options for the assembly and utilization of the ISS, taking 
into account the plan to retire the Space Shuttle by 2010 and honor 
U.S. commitments to the Space Station International Partners. The 
assessment also considered that Space Shuttle flight rate planning must 
account for the limitations of the Shuttle that became apparent after 
the loss of Columbia, namely that NASA's ability to successfully 
conduct 28 Shuttle flights by 2010 was no longer technically feasible.
    The results of the study now have been thoroughly reviewed by the 
Space Operations Mission Directorate and other NASA offices and the 
Administrator has approved a plan for discussion with the ISS 
International Partners. The International Partners were informed of 
NASA's proposed approach the week of September 26, 2005.
    NASA is operating under four key parameters:
  --Retiring the Shuttle by the end of fiscal year 2010;
  --Developing an achievable and robust Shuttle flight manifest;
  --Meeting our International Partner commitments; and
  --Completing the Space Station with a sustainable configuration with 
        acceptable vehicle and crew risk.
    Each of these parameters brings with it a number of unique 
considerations and constraints, which were assessed using a series of 
potential approaches. NASA management together with technical experts 
from the ISS and Space Shuttle programs developed a plan to optimize 
the capability of each program.
Key Elements of NASA's Proposed Plan for Space Station
    NASA's proposed plan, subject to the normal budget and 
appropriation process, as well as ongoing return-to-flight 
considerations, is to fly the Shuttle in a disciplined, measured 
fashion, targeting 19 Shuttle flights. The 19 flights include 18 
flights to the ISS beginning with STS-121, plus a possible additional 
flight to service the Hubble Space Telescope. The flights to the ISS 
would provide the infrastructure for the International Partner modules 
first, followed immediately by the Partner laboratories. Maintenance 
and logistic flights for sustainability are at the end of the sequence. 
The order and flight strategy is as important a consideration as the 
specific number of flights.
    The plan includes the launch of key NASA-provided infrastructure 
elements and other capabilities to enable a potential 6 person crew and 
meaningful utilization of the ISS. NASA has determined, however, that 
its exploration research objectives no longer require the Centrifuge 
Accommodation Module that is being developed for NASA by JAXA under a 
barter arrangement.
    The approach would also accommodate almost all of the International 
Partner elements currently planned for launch to the ISS, with the 
notable exceptions of the U.S. Centrifuge and the Russian Solar Power 
Module. In both cases, NASA is prepared to immediately engage in 
detailed bilateral discussions to establish a mutually beneficial 
arrangement to accommodate the proposed change.
    The first 13 flights, scheduled to occur over the three years after 
the Shuttle returns to flight, would not vary significantly from the 
reference assembly sequence endorsed at the Multilateral Coordination 
Board and Heads of Agency meetings in Montreal last January.
    Question. To what extent does imposing a date certain on ending the 
shuttle program create schedule pressure similar to that which existed 
prior to the Columbia accident (according to the Columbia Accident 
Investigation Board)?
    Answer. The Columbia Accident Investigation Board recognized that 
schedules were a recognized, even unavoidable tool for managing large 
and complex systems such as the Space Shuttle and International Space 
Station programs. As such, the Columbia accident wasn't caused by 
schedule pressure per se, but rather by a safety system that had lost 
much of its independence and had grown too weak to act as an effective 
check on safety issues in the face of normal schedule factors.
    The Vision for Space Exploration outlines an ambitious series of 
goals, including completing assembly of the International Space 
Station, retiring of the Space Shuttle Orbiter fleet, and developing 
the next-generation of crew and cargo vehicles that will support ISS 
utilization and missions to the Moon, Mars, and beyond. These goals are 
now supported by a strong, independent, and proactive safety 
organization, one that has played a key role in returning the Space 
Shuttle to flight as expeditiously and as safely as possible and that 
will continue to ensure safe mission execution throughout the rest of 
the Space Shuttle's operational lifetime.
    Question. What are the current plans for the ISS once it has 
reached the end of its useful life? What is the current plan for de-
orbiting, or decommissioning, the ISS?
    Answer. There is no current specific plan for de-orbiting or 
decommissioning the ISS. The budget plans announced in 2004 indicated 
the completion of essential U.S. exploration research in 2016, and an 
end of the funding for ISS operations. Some hardware elements of the 
ISS reach their service life limitations in 2016. Prior to 2016, a 
determination will be made on the costs of extending the Station's 
service life and benefits of continuing U.S. ISS operations beyond 
2016. Based on that determination, NASA will develop plans to address 
the potential future involvement of NASA, the U.S. government, 
International Partners, the private sector, and academic institutions 
in ISS operations and utilization.
                                 ______
                                 
            Questions Submitted by Senator Pete V. Domenici

    Question. Dr. Griffin, in the President's new National Space 
Transportation Policy, you are directed, in coordination with the 
Secretary of Defense, to recommend an option to meet future heavy lift 
requirements. This Committee, as well as that chaired by Senator 
Stevens, is keenly interested in the costs of the preferred option.
  --Have your studies progressed far enough to identify the potential 
        most cost effective solution?''
  --Is the process of ``coordination'' with DOD working to your 
        satisfaction?
  --What are the implications of the recent news about the Air Force's 
        intention to increase their space presence?
    Answer. NASA has conducted a detailed assessment of our launch 
vehicle requirements, including heavylift requirements and crew launch 
requirements. We believe those studies have identified highly effective 
solutions that include cost-effectiveness, schedule, minimization of 
programmatic risk, mission reliability, and crew safety. Based on all 
of these factors, NASA and the Department of Defense (DOD) have agreed 
on a policy for use and development of national launch systems. The 
attached letter, signed on August 5, 2005, by the NASA Administrator 
and the DOD Executive Agent for Space, outlines that policy. 
Specifically, NASA has chosen Shuttle-derived options for its future 
crew and very heavy cargo lift requirements because of their proven 
safety and superior cost and schedule availability. Specifically, the 
Space Shuttle propulsion elements are reliable, human-rated, and best 
able to fit the available architecture within the available timeframe.
    Throughout the process, we have been actively engaged with the DOD, 
including senior management and staff levels. We have been very 
encouraged by the constructive dialogue and support at all levels, and 
believe the process of coordination is working well.
    We look forward to continuing our close working relationship with 
the Air Force. While the Air Force and NASA each has unique and 
independent roles and responsibilities, it is also true that we benefit 
from each others investments, experience, and talents.
    Question. Dr. Griffin, in your response to questions from my 
colleagues in other sessions, you stated that it costs about $4.5 
billion to own the Shuttle, whether it flies or not. Unlike the post-
Challenger return to flight efforts, your current continuing extensive 
efforts are not being funded by a supplemental appropriation. You are 
trying to execute four major tasks in the human space flight program: 
return the Shuttle to flight, fly the Shuttle safely until 2010, 
complete the assembly of the International Space Station, and have a 
new CEV available in a timeframe consistent with Shuttle retirement. 
How much money has been spent on return to flight?
    Answer. NASA's estimate for Space Shuttle Return to Flight (RTF) 
costs from fiscal year 2003 through the end of fiscal year 2006 is just 
over $1.4 billion. Overall, Return to Flight costs are stabilizing as 
technical solutions have reached maturity and implementation of 
solutions nears completion. The estimates provided in the latest 
Implementation Plan for Space Shuttle Return to Flight and Beyond, 
dated June 3, 2005 (attached), remain valid and have not substantially 
changed since November 2004. Management tools are in use to monitor 
progress and provide early warning of potential problems. However, the 
potential exists for additional content that may be required in the 
post-Return to Flight timeframe depending on the ongoing work 
addressing issues seen during STS-114 and the results of the Shuttle's 
performance on the second Return to Flight mission, STS-121.
    Current estimates for RTF costs are: Fiscal year 2003--$42 million; 
fiscal year 2004--$496 million; fiscal year 2005--$602 million; and 
fiscal year 2006--$288 million.
    If there are any increases in Return to Flight costs, NASA is 
committed to accommodating them within its total budget request.
    Actual costs to date are tracking very closely with the November 
2004 estimate provided to Congress. The total estimated cost for 
returning the Shuttle to flight status through fiscal year 2009 is 
approximately $1.98 billion. The out-year costs are associated with 
added manpower for Systems Engineering. NASA's plan and our budget 
reflect the end of RTF after the second RTF mission and subsequent 
post-flight assessment actions. These milestones will take the Agency 
through most of fiscal year 2006. RTF, from a budget perspective, will 
end in fiscal year 2006, and will no longer be tracked as a separate 
effort, beginning in fiscal year 2007.
    Question. What is your strategy for executing the other three 
priorities while coping with the cost impact of return to flight?
    Answer. NASA has completed the Exploration Systems Architecture 
Study (ESAS), which outlines NASA's approach to implementing the Vision 
for Space Exploration. The Vision calls for the Agency to return the 
Space Shuttle to flight, complete the International Space Station, 
return to the Moon, and move on the exploration of Mars and beyond. 
Based on ESAS recommendations, NASA has now laid out a detailed plan to 
support sustained human and robotic lunar exploration, operations, 
accelerate the development of the Crew Exploration Vehicle and launch 
systems for missions to the International Space Station, Moon, and 
Mars, and identify key technologies required to enable this exploration 
architecture. This plan is a safe and sustainable approach that seeks 
to affordably accelerate the pace of space exploration. An important 
aspect of this plan is that it is a ``go-as-you-can-afford-to-pay'' 
approach,'' within planned budgets for Exploration Systems, through 
redirection of funding for longer-term and lower-priority research and 
technology (R&T) elements within the Exploration Systems Mission 
Directorate.
    NASA has also completed the Shuttle/Station Configuration Options 
Team (SSCOT) study to evaluate options for the assembly and utilization 
of the International Space Station, taking into account the President's 
decision to retire the Space Shuttle by 2010, while still honoring U.S. 
commitments to the Space Station International Partners. Based in part 
on this assessment, NASA has developed a plan, subject to the normal 
budget and appropriations process, as well as ongoing return-to-flight 
considerations, to move forward and begun discussions with our 
international partners.
    Question. In an ideal world, I suspect that your agency would be 
relieved if some of the return-to-flight costs could be funded through 
a supplemental appropriation so as not to detract from other 
activities, many of which have been supported in the past by the 
Congress. What would the supplemental requirements be were the 
supplemental avenue open to NASA?
    Answer. The President requested budgets for NASA that were 
sufficient to return the Shuttle to flight without the need for a 
supplemental appropriation, and NASA does not expect to need any future 
supplemental to pay for residual return to flight costs. As stated in 
response to Question 2(a), actual costs to date for RTF are tracking 
very closely with the November 2004 estimate provided to Congress. If 
there are any increases in RTF costs, NASA is committed to 
accommodating them within its total budget request.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray

    Question. While the President's budget proposal would add resources 
for its plans to finish construction of the International Space 
Station, increase exploration of the solar system, and develop the 
technologies needed for future Moon and Mars missions it would cut a 
servicing mission critical for the survival of the Hubble Space 
Telescope, as well as drastically decrease aeronautics research.
    In addition, I have concerns about the NASA education programs and 
their ability to work with community education efforts to inspire and 
prepare the next generation of scientists and engineers.
    It is my understanding that many experts in the field claim that 
the Hubble Space Telescope is one of the most beneficial programs 
currently being operated by NASA, as it has helped expand our 
understanding of the universe in ways scientists never thought possible 
just 15 years ago. Administrator Griffin, if you were to move forward 
with a plan to end the Hubble program what research programs would take 
its place to keep increasing our scientific understanding of distant 
parts of the universe?
    Answer. NASA has a number of missions capable of investigating 
distant parts of our universe. Currently we operate three Great 
Observatories: The Hubble Space Telescope, the Chandra X-ray 
Observatory, and the Spitzer Space Telescope. Each of these facilities 
(all of which will be operational until 2009 and possibly beyond) is 
used daily by the astronomical community to further our understanding 
of the heavens. In addition to these operating programs, we have a 
number of missions in development that will advance our understanding 
of the distant universe. The Gamma-ray Large Area Space Telescope 
(GLAST) will launch in 2008 and enable astronomers to study high-energy 
phenomena with unprecedented precision. The Wide-area Infrared Survey 
Explorer (WISE), scheduled for launch in 2009, will map the sky in 
infrared bands of light providing astronomers with a new catalog of 
objects (both near and distant) for additional study. The James Webb 
Space Telescope (JWST) will follow these missions in the middle of the 
next decade and will be the premier platform for observing the distant 
universe. By virtue of its large collecting area and infrared coverage, 
JWST will see the earliest galaxies to form in the universe. Finally, 
NASA also supports a number of cosmic microwave background studies, 
such as the Wilkinson Microwave Anisotropy Probe, or the Balloon-borne 
Large Aperture Submillimeter Telescope, that permit astronomers to 
study the remnants of the Big Bang, very first light ever emitted by 
the universe. These missions were designed to provide unique views of 
the universe beyond those obtainable from Hubble. Servicing Hubble 
would provide additional time to sequence some of these missions, but 
would not replace the need for this follow-on research.
    Question. As you know NASA has been built around the dual missions 
of space exploration and aviation research. Representing an aviation 
rich state I am concerned that recent proposals by NASA demonstrate 
that its commitment to aeronautics and aviation is waning. Aeronautics 
experts from NASA have developed innovations throughout its history 
including the X-15 ``rocket plane'' of the 1950s and 1960s, de-icing 
systems, and the ``supercritical wing''--the rounded-bottom wing design 
used today by virtually every commercial jetliner to increase speed, 
improve range and save fuel. Administrator Griffin, I am curious as to 
why it is that NASA has decided to move away from its critical mission 
on aeronautics and aviation? And what you foresee is NASA's role, if 
any, in helping to advance aviation technology in the future?
    Answer. Dr. Lisa Porter was recently selected as Associate 
Administrator to lead NASA's Aeronautics Research Mission Directorate. 
In that role she has begun the process of reshaping NASA's Aeronautics 
research program allowing the Agency to take responsibility for the 
intellectual stewardship of the core competencies of Aeronautics for 
the Nation. This will require us to reinvest in the Agency's in-house 
expertise to ensure that we retain the world-class skills, knowledge, 
and facilities needed to guarantee our Nation's ability to consistently 
contribute world-class innovation to aeronautical challenges, both 
civilian and military.
    The reshaped aeronautics program will strengthen our partnerships 
with the Department of Defense (DOD) and Federal Aviation 
Administration (FAA), capitalizing on each agency's unique capabilities 
and resources to strengthen the Nation's leadership in aeronautics. Our 
partnership with DOD will include close collaboration to establish an 
integrated national strategy for management of the Nation's most vital 
wind tunnels. We will forge new partnerships and continue to benefit 
from partnerships built in the past with academia and industry. We will 
seek long-term, intellectual partnerships with industry that will be 
able to rely on us to invest in the ``seed corn'' that is the critical 
ingredient in revolutionary technological advancement.
    As a first step, NASA is reshaping the three major programs within 
the Aeronautics Mission Directorate. The previous Vehicle Systems 
Program is being renamed the Fundamental Aeronautics Program in order 
to reflect properly its new focus on basic aeronautical sciences. 
Within Fundamental Aeronautics, and consistent with direction we 
received from the Congress, we will re-establish the Agency's 
dedication to the mastery of core competencies in subsonic, supersonic, 
and hypersonic flight. We will create projects that provide continual, 
long-term investment in the fundamentals and that build upon that 
investment to develop system-level, multidisciplinary capabilities that 
will enable both the civilian and military communities to build 
platforms that meet their specific needs. As part of our investment in 
fundamental aeronautics, we are positioning the program to continue 
important long-term research activity in fiscal year 2006 that 
preserves the core competencies in rotorcraft and hypersonics, drawing 
upon NASA's critical inhouse expertise. We are transforming the 
Aviation Safety and Security Program into the Aviation Safety Program, 
where we will focus research on safety areas that are appropriate to 
NASA's unique capabilities. Projects in Aviation Safety will address 
integrated vehicle health management, resilient aircraft control, 
intelligent flight deck technologies, and aging aircraft. The Airspace 
Systems Program is being realigned to directly address the air traffic 
management needs of the Next Generation Air Transportation System 
(NGATS) as defined by the Joint Planning and Development Office (JPDO).
    Leading scientists and engineers from the NASA field centers 
participated in workshops in September and October to lay the 
foundation for a technical plan to reshape the Aeronautics Research 
program. As the year progresses, this technical plan will be guided by 
the National Aeronautics Policy that is being developed by Office of 
Science and Technology Policy and NASA in collaboration with other 
agency partners. (Dr. Porter is co-chair of the National Science and 
Technology Council's Aeronautics Science and Technology Subcommittee.) 
In addition, the National Research Council is currently conducting a 
decadal survey for aeronautics, which will also provide inputs to our 
plan.
    Question. On the issue of NASA's education programs I have several 
questions. As you know the Office of Space Science once operated a 
widely-respected program that focused on all of NASA's core missions. 
Under Administrator O'Keefe there was a major shift to centralize the 
education programs and focus efforts on space-exploration focused 
schools and sending a teacher into space. Furthermore it is my 
understanding that the NASA Explorer Schools have been focused on 
manned space flight instead of broad scientific endeavors. Can you 
explain why NASA made this shift in the focus on education and what the 
thoughts and analysis behind eliminating and or altering the old 
programs were? At a broader level, what is NASA doing within its 
education program to develop lasting enthusiasm in science to truly 
help create the scientists of the future?
    Answer. Early in fiscal year 2003 NASA did indeed shift management 
responsibility for some of its education programs by establishing its 
Office of Education, separate from the Mission Directorates but to 
address and coordinate within NASA and for NASA education endeavors 
with other federal agencies. This shift did not eliminate or 
significantly alter any education programs conducted by either the 
Office of Space Science or the Office of Earth Science.
    In August 2004, the Office of Space Science and Office of Earth 
Science were merged to create the new Science Mission Directorate. The 
education programs of these predecessor organizations have continued 
and efforts are underway to exploit synergies to enhance the science 
education program. These efforts will build on the strengths of the 
current programs and focus on engaging learners of all ages in the NASA 
mission of exploration and discovery. In fact, for the most recent 
reporting year [2004] the space science programs reached over 400,000 
direct participants in workshops, community and school visits, and 
other interactive special events; 7 million Internet participants for 
web casts, web chats, and other web events, and, a potential audience 
of over 200 million for lectures, planetarium shows, museum 
exhibitions, conference exhibits, radio, television, and other forms of 
public media. Through the NASA Science Mission Directorate, NASA backed 
science education can be found in all 50 states, the District of 
Columbia, Puerto Rico, and the Virgin Islands. The Mission Directorates 
continually assessing the educational opportunities and content 
presented to ensure
    The NASA Explorer Schools (NES) project, launched in 2003 and 
managed by NASA Office of Education as one of four Pathfinder 
Initiatives, is designed to engage all NASA Centers and the four 
Mission Directorates, has six primary objectives:
  --To increase student interest and participation in mathematics, 
        science, technology and geography;
  --To increase student knowledge about careers in mathematics, 
        science, engineering and technology;
  --To increase student ability to apply mathematics, science, 
        technology and geography concepts and skills in meaningful 
        ways;
  --To increase the active participation and professional growth of 
        educators in science, mathematics, geography and technology 
        resulting in higher quality education for K-12 students;
  --To increase the academic assistance for and technology use by 
        educators in schools with high populations of underserved 
        students; and
  --To increase family involvement in children's learning.
    The NES project is specifically designed to meet the individual 
needs of each competitively selected school. Upon entering the project, 
each school completes a needs assessment which NASA uses to create a 
multifaceted approach to meeting school needs, and which reaches far 
beyond the NES network to provide opportunities to highlight and 
implement all Mission Directorate programs. Content material includes: 
pre-algebraic concepts, inquiry-based math modules related to the 
science, engineering and technology of space flight, digital image 
processing and analysis (IPA) and geographic information systems (GIS), 
integrate NASA earth and space content, updated NASA-content as we 
learn more about the space environment, and providing symposia for 
participating schools in topics ranging from spaceflight to robotics to 
Mars exploration.
    NES will also provide opportunities to all interested schools in 
the United States. These challenges focus on science, technology, 
engineering, and mathematics--subject areas needed for technical 
careers at NASA. Areas to be addressed included: Space Flight 
Opportunities; Imagine the Moon; Crew Exploration Vehicle Design; and 
Multi-media Explorations. Furthermore, the NASA Aerospace Education 
Services project utilizes all available NASA content and resources to 
support not only the NASA Explorer Schools but schools from across the 
country that express an interest in our assistance. Content and 
resources come from across NASA.
    NASA education continues to create and promote educational 
materials and opportunities within all Mission Directorates--
Aeronautics Research, Science, Space Operations, and Exploration 
Systems, as well as through its Office of Education.
    Question. Furthermore, I am interested in how NASA can improve its 
education mission to build long-term partners with community based 
science and education efforts? Specifically, what ways are you looking 
at to take NASA resources and imbed them within the efforts of 
community based organizations in order to make NASA's education 
programs sustainable and ensure that those efforts become institutional 
and long-lasting?
    Answer. NASA is continuing efforts to expand education in the 
sciences, technology, engineering and mathematics through numerous 
venues within the informal education community, to include museums, 
science centers planetariums, youth and community groups among others. 
These activities take place every day, conducted through the four 
Mission Directorates, the ten NASA Centers, and the NASA Office of 
Education.
    In fact, one of the nationwide NASA Pathfinder Initiatives, the 
NASA Explorer Institutes (NEI) project is specifically designed to 
enhance the capabilities of the informal education community to inspire 
the next generation of explorers by:
  --Providing access to NASA staff, research, technology, information, 
        and/or facilities and by engaging the informal education 
        community in discussions about how to involve the public in 
        shaping and experiencing NASA-related missions;
  --Identifying NASA-related instructional content, resources, and 
        information, in collaboration with the informal education 
        community that will enhance informal education program goals 
        and objectives;
  --Providing NASA-related professional development opportunities for 
        members of the informal education community across the nation; 
        and
  --Facilitating the formation of collaborative partnerships between 
        informal and formal education communities.
    The project is in the second full year of its 3-year roll out. In 
fiscal year 2004, activities involved organizations in 46 states, the 
District of Columbia, Puerto Rico, the Virgin Islands, and the Overseas 
Military Program. Organizations represented science centers, museums, 
planetariums, libraries, parks, aquariums, nature centers, youth 
groups, community-based organizations, and state and federal agencies.
    In fiscal year 2004, NASA conducted eleven focus groups across the 
nation on a variety of topics, with each group focused on a different 
set of strategies. But, each shared similar goals of improving the 
public's understanding and appreciation of science, technology, 
engineering, and mathematics (STEM) disciplines; establishing linkages 
that promote new partnerships/relationships between providers of 
informal and formal education; exciting youth, particularly those who 
are underrepresented and underserved, about STEM disciplines; and 
expanding STEM informal education programs and activities to 
communities/locations that have been traditionally underserved by such 
opportunities. Many of the focus groups resulted in previously 
unconsidered collaborations, such as now-growing connections in Native 
American communities with space scientists, and connections in nascent 
or changing industries, such as data visualization and digital 
productions. Participants of these focus groups represented over 200 
institutions (museums, science centers, community groups, industry, 
etc.), and they expressed support at NASA's willingness to listen and 
openness to new ideas.
    NASA Explorer Institutes also supported six pilot professional 
developments workshops, connecting informal educators to NASA's unique 
facilities and expertise. These workshops led to a number of successful 
follow-up projects, including a number of regional collaborations by 
workshop attendees. Based upon results of the workshops and focus 
groups, the NASA recently released a new solicitation for NASA Centers 
to host NASA Explorer Institutes later this year.
    Through the NEI project NASA also leveraged partnerships with 
several organizations to share NASA's discoveries and experiences: (1) 
For the Nation's afterschool programs, the American Museum of Natural 
History conducted an eighteen-month study and demonstration project 
that included a scan of existing science programming in afterschool 
environments, the development of prototype curriculum packets based on 
NASA resources, pilot testing and staff training in three afterschool 
programs in New York City, a review of science education research and 
promising practice literature, and consultations with experts in 
science education, afterschool, and curriculum development. (2) With 
the National Park Service, NASA developed an agreement that resulted in 
the design of professional development experiences for interpreters 
that include NASA content to enhance the compelling stories of natural 
and cultural resources of the parks.
    Workshop participants adapted space science and earth sciences 
resources for use in their parks, and developed new interpretive 
material. (3) With the Girl Scouts of the USA (GSUSA), NASA broadened 
the knowledge of national master trainers to increase their 
understanding of an integrated NASA Earth and Space Science Story. 
These master trainers are now mentoring trainers across the nation, 
competitively selected from GSUSA councils with significant populations 
of ethnically, economically, and/or geographically underserved girls. 
(4) Finally, several NASA Centers are collaborating to produce the 
Workshop for Informal Education Specialists, a Return to Flight public 
engagement event with over 80 informal education venues (museums, 
science centers, planetariums) to prepare partners to help NASA 
positively engage the public in experiencing the excitement of 
exploration and human space flight.
    Question. Finally, Mr. Administrator, as you know, the country 
needs capability to deliver cargo to and recover it from the 
International Space Station. NASA has indicated that it intends to 
release a ``request for proposal'' (RFP) this year for the 
International Space Station commercial cargo transportation services. 
What is NASA's timetable for its release and response?
    Answer. NASA has undertaken a number of steps to assess its future 
requirements for crew and cargo transportation in support of the ISS 
and future human exploration. A Request for Information (RFI), issued 
in September 2004, solicited information regarding capabilities and 
market interest from existing and emerging domestic commercial space 
transportation providers. NASA also conducted an ISS Cargo Industry Day 
earlier this year to exchange technical information with potential 
commercial providers. Within the next month, NASA will issue a draft 
solicitation requesting commercial service demonstrations for ISS crew 
and cargo delivery and return. Where commercial providers have 
demonstrated the ability to meet NASA needs and safety requirements, 
commercial services will be purchased instead of using government 
assets and operations.
                                 ______
                                 
             Questions Submitted by Senator Byron L. Dorgan

                   UPPER MIDWEST AEROSPACE CONSORTIUM

    Question. Last year, Congress earmarked a number of projects in the 
fiscal year 2005 Omnibus bill including $2,000,000 to the University of 
North Dakota in Grand Forks for the Northern Great Plains Space 
Sciences and Technology Center under the Earth Science account. What is 
the status of these funds?
    Answer. NASA has completed review of the proposal from the 
University of North Dakota for the Northern Great Plains Space Sciences 
and Technology Center, and funding has been approved for release. Grant 
award is expected within the next few weeks.

                        SPACE AND EARTH SCIENCE

    Question. NASA conducts both Space and Earth Science. Earth Science 
appears to be more weakly supported within the agency. What role do you 
envision for Earth Science?
    Answer. NASA maintains a vigorous program in Earth science that 
makes important contributions to several interagency Administration 
initiatives, including Climate Change Science, Earth Observations, and 
Ocean Action, as well as NASA's Vision for Exploration. As an example, 
NASA's contribution to the Administration's Climate Change Science 
Program (CCSP) is far and away the largest of any Federal agency, 
constituting some 60 percent of the total CCSP investment by the U.S. 
government. NASA's support for Earth science has remained consistent, 
and recent statements by Dr. Griffin emphasize NASA's commitment to a 
robust portfolio across Earth and space science disciplines that will 
continue NASA's historic support.

             WINDOW OBSERVATIONAL RESEARCH FACILITY (WORF)

    Question. The University of North Dakota has been developing AgCam, 
a sensor intended to operate on the International Space Station. With 
the problems with the Shuttle, and getting equipment to the Space 
Station, there is some question as to when AgCam will be able to go up. 
AgCam was designed to go into the WORF (Window Observational Research 
Facility). The WORF provides an enclosed environment at a comfortable 
temperature and pressure, so that AgCam did not have to be built to the 
specifications of devices in the vacuum of interplanetary space. 
However, the WORF is not scheduled for a shuttle flight until May 2007 
and may not be sent then.
    Is the Window Observational Research Facility (WORF) scheduled for 
a launch on the Space Shuttle? When?
    Answer. NASA has assessed its plans for the utilization of the ISS, 
and focused its research and technology development goals toward those 
activities that most closely support the Vision for Space Exploration. 
In this environment of limited opportunities for the launch of 
facility-class payloads, it is critical that utilization planning align 
as closely as possible with the needs of the human exploration planning 
effort. The only missions for which specific payloads have been 
manifested on the Space Shuttle are the first two Return to Flight 
missions. Consistent with the Vision, the Space Shuttle will be retired 
by 2010. Prior to its retirement, it will be utilized primarily for the 
assembly of the ISS. Our top priority will be to make each flight safer 
than the last. As we noted in our November 2004, correspondence to you 
on this topic, in the event that a future flight opportunity does 
become available on the Space Shuttle, the WORF facility will be 
considered for delivery to the ISS. The University of North Dakota has 
been apprised of the situation and is aware that NASA cannot commit to 
the flight of WORF on the Space Shuttle.
    Question. If the WORF cannot be launched to the ISS, could AgCam be 
accommodated some other way?
    Answer. The AgCam hardware has been designed and built to be 
operated in the WORF. The WORF would provide resources such as power, 
thermal control, data and mounting positions for operations of the 
AgCam. The hardware as designed could not operate independently of the 
WORF. It might be possible to redesign the AgCam hardware and its 
operations concepts, but the University would require additional 
funding, testing, and development time; even with such a redesign, it 
is unclear whether the redesigned hardware could achieve the expected 
scientific value without the WORF.
    Question. What are the plans for Earth observations from the 
International Space Station?
    Answer. While NASA is not pursuing new Earth sciences research on 
the ISS because of the limited launch opportunities on the Space 
Shuttle, we are continuing with two Earth observations programs already 
on-orbit.
    The Earth Knowledge Acquired by Middle Schools (EarthKAM) program 
allows middle school students to command, via computer, a digital 
camera mounted in a window of the ISS and integrate Earth images taken 
by the camera with inquiry-based learning for 5th-8th grade students. 
Photos are made available on the Web for viewing and study by 
participating schools around the world. Educators use the pictures in 
conjunction with curricula for projects involving Earth Science, 
geography, physics, math, and technology. To date, over 80 schools with 
more than 1,600 students from the United States, Japan, Germany, and 
France have participated in the EarthKAM program.
    The Crew Earth Observations (CEO) program continues, with the ISS 
crew photographing various Earth sites on a daily basis. Hand-held 
photography of the Earth from human spaceflight missions, spanning more 
than 40 years, provides insights and documents changes on the Earth. 
The ISS crew members are building on this time series of imagery, which 
was started in 1961.

                  INTERNATIONAL SPACE STATION PROPOSAL

    Question. Mr. Administrator, it is my understanding that in the 
coming months NASA is expected to release a ``request for proposal'' 
(RFP) for International Space Station (ISS) commercial cargo 
transportation services, which would provide the necessary means for 
getting cargo to and from the ISS. In order for markets to have time to 
plan, could you provide a general timeframe for the RFP's release and 
the expected response time?
    Answer. NASA has undertaken a number of steps to assess its future 
requirements for crew and cargo transportation in support of the ISS 
and future human exploration. A Request for Information (RFI), issued 
in September 2004, solicited information regarding capabilities and 
market interest from existing and emerging domestic commercial space 
transportation providers. NASA also conducted an ISS Cargo Industry Day 
earlier this year to exchange technical information with potential 
commercial providers. Within the next month, NASA will issue a draft 
solicitation requesting commercial service demonstrations for ISS crew 
and cargo delivery and return. Where commercial providers have 
demonstrated the ability to meet NASA needs and safety requirements, 
commercial services will be purchased instead of using government 
assets and operations.

                          SUBCOMMITTEE RECESS

    Senator Shelby. The subcommittee will now stand in recess 
until 10 o'clock, on Tuesday, May 24, when we will hear 
testimony from the Attorney General, Alberto Gonzales, and the 
Director of the Federal Bureau of Investigation, Robert 
Mueller, on the Department of Justice's budget for 2006.
    The subcommittee is recessed.
    [Whereupon, at 3:28 p.m., Wednesday, May 11, the 
subcommittee was recessed, to reconvene at 10 a.m., Tuesday, 
May 24.]


  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2006

                              ----------                              


                         TUESDAY, MAY 24, 2005

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:01 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Richard C. Shelby (chairman) 
presiding.
    Present: Senators Shelby, Stevens, Mikulski, Leahy, Kohl, 
Murray, Harkin and Dorgan.

                         DEPARTMENT OF JUSTICE

                     Office of the Attorney General

STATEMENT OF HON. ALBERTO R. GONZALES, ATTORNEY GENERAL
    Senator Shelby. The subcommittee will come to order.
    I want to welcome Attorney General Alberto Gonzales and the 
Director of the Federal Bureau of Investigation (FBI), Robert 
Mueller. Thank you both for appearing before the subcommittee 
this morning. This is your first appearance before the newly 
created Subcommittee on Commerce, Justice, Science, and Related 
Agencies. Previously in my capacity as the chairman of the 
Senate Select Committee on Intelligence we had the opportunity 
to work together, and I hope to continue that relationship with 
you.
    I look forward to hearing from each of you about your 
vision of the Justice Department and the FBI respectively, and 
the challenges each of you see in the coming fiscal year. In 
particular I want to take this opportunity to thank the men and 
women who work at the Justice Department and all they do to 
keep America safe.
    Based on my review of your budget request and the 
constraints of the subcommittee, I believe it will take your 
leadership to make the tough choices regarding the allocation 
of resources given the budget constraints we are facing.

                    FISCAL YEAR 2006 BUDGET REQUEST

    The fiscal year 2006 budget request for the Department of 
Justice is $20.3 billion and represents an increase of 1 
percent over the 2005 enacted funding level. While the budget 
proposes increases for the FBI, the United States Attorneys, 
the United States Marshals Service, and the Bureau of Alcohol, 
Tobacco, Firearms and Explosives (ATF), this budget proposes 
severe cuts to other important programs. In particular it 
proposes to cut $1.4 billion to State and local law enforcement 
programs. It rescinds $314 million in funds for the 
construction of new prisons, and proposes $123 million in new 
fees to fund base operations for critical law enforcement 
activities. This budget also proposes to rescind $1.3 billion 
held in trust for victims of crime to offset costs elsewhere. 
With that proposed offset, the Justice Department's request is 
actually $19.1 billion and represents a 5 percent decrease from 
the 2005 level.
    I find these cuts to be unacceptable and perhaps 
irresponsible, particularly as they relate to the rescission of 
important funds and the proposal of new fees.
    I want to be supportive of this request, but these 
reductions and the budget maneuvers concern me and will concern 
others on the subcommittee. For example, the budget proposes to 
increase a fee on the explosives industry to generate revenue 
of $120 million in offsetting collections in 2006. I want to 
point out that even if Congress passed this proposal today I am 
told it would take the Department 2 years to even begin 
collecting the fee. If that is true, I do not understand how 
the Department of Justice proposes to use the receipts from 
this fee to offset fiscal year 2006 law enforcement operations. 
This $120 million hole is just one example of many contained in 
this request. These shortfalls will force the committee to make 
some extremely difficult choices.
    Another offset that concerns me is the proposal to rescind 
funding previously provided by this subcommittee for new prison 
construction. Not only are we facing significant overcrowding 
at Federal prison facilities, but you are projecting the 
addition of approximately 8,000 new prisoners each year to 
those already crowded facilities. The budget proposes to 
rescind $314 million for funding already provided to build two 
medium security facilities. Without construction and activation 
of these two facilities, projected medium security crowding, 
which is already 50 percent over capacity, will be 10 percent 
higher by 2009.
    As for increases, Mr. Attorney General, your budget request 
proposes that $2.7 billion be spent on information technology, 
also, I expect there to be some direct oversight by you of the 
systems being developed by the Department and in its bureaus. 
The fact that the Department's CIO has control of less than 10 
percent of the information technology (IT) resources and the 
employees who build, run and maintain these systems, explains 
why there is no universal plan for systems development in the 
Department. But given the current budgetary constraints there 
are not sufficient resources to continue building these 
stovepipe systems that fail to deliver the results promised to 
the taxpayers and to the users.
    I am especially interested in hearing what specific 
oversight the Department is conducting with respect to the 
FBI's Virtual Case File (VCF). I was extremely disappointed to 
learn of VCF's failure and the significant loss of funds 
associated with it. While I wholeheartedly support bringing the 
FBI into the 21st century and realize the importance of 
information technology to the FBI's mission, we cannot support 
unlimited and unchecked resources, and will not tolerate broken 
promises for results that are never realized or delivered. I 
believe, given one failed attempt, it is imperative that you 
proceed with caution to ensure that we do not make the same 
mistakes twice. We expect results and will do everything we can 
to ensure that there is congressional oversight for this 
program. Someone must be accountable for the success or failure 
of VCF and all of the Department's programs.
    There are many other issues that we anticipate discussing 
during this hearing, including the FBI's use of resources on 
priority missions, the relationship of the FBI Director and the 
new Director of National Intelligence, and the funding 
implications of that relationship, and the critical human 
resources issues the FBI is now confronting.
    Attorney General Gonzales and Director Mueller, I look 
forward to hearing your thoughts on the Justice Department's 
budget request and will look forward to working with you on 
other important issues facing this country.

            OPENING STATEMENT OF SENATOR BARBARA A. MIKULSKI

    Senator Mikulski.
    Senator Mikulski. Thank you very much, Mr. Chairman, and 
good morning to the subcommittee and to the Attorney General 
and to Director Mueller.
    This is our first hearing of the Senate Appropriations 
newly constituted Commerce, Justice, Science Subcommittee, and 
as I said, I look forward to working with Senator Shelby. This 
is a great subcommittee due to Senator Shelby's long experience 
and involvement in this, and also because we both were on the 
Intelligence Committee together. As Senator Shelby said, we 
look forward to really working with you in both unclassified 
and classified situations. And we have Senator Leahy, the 
ranking member on Judiciary, which hopefully means we will be 
able to combine sound policy with a good budget.
    We also note that as of this morning the Justice Department 
and the White House have sent forth a name for the U.S. 
Attorney in the State of Maryland. We have met with him and we 
feel confident that he will make a good one, and I assure you 
that I will do all that I can to move his nomination 
expeditiously.
    As we look at what the Justice Department is facing, it is 
one of the most critical agencies in our country. It must join 
together to fight the global war against terrorism, and yet 
protect us against other threats of organized crime, white-
collar crime and the rising gang violence. Its agencies are 
some of the most important that serve our Nation. In addition 
to the overall Justice framework, there is the FBI, the Drug 
Enforcement Administration, ATF, and our Marshals Service, 
often overlooked.
    In serving in this subcommittee we look forward to working 
with you to build a safer and stronger country. And like 
Senator Shelby, I too am very concerned about this budget. 
Particular concerns to me are the drastic cuts to local law 
enforcement programs which have to be the hallmark of law 
enforcement in our community, and law enforcement, when it is 
coordinated, really serves the national interest.
    Also, I am deeply concerned about the irresponsible $1.3 
billion rescission in the Crime Victims Fund. My job is to make 
sure the Department stands sentry on protecting America and our 
country and to make sure that we are the safer and stronger 
country.
    In order for our law enforcement strategy to work, we need 
to really focus on local law enforcement, and I have been 
concerned about programmatic cuts in the community oriented 
policing services (COPS), the Byrne program and others at the 
local level.
    I just would like to commend you, Mr. Attorney General, and 
then also to thank Director Mueller. We had a terrible 
situation here a few years ago with the sniper case, and it was 
a phenomenal effort of coordination, and we could not have done 
what we did without the FBI and Gary Bald and our ATF, who 
worked closely with our county executive, Doug Duncan. But we 
did not federalize it. We worked with the local law enforcement 
people. We had a national effort without federalizing. The 
Federal Government came in with its highest and best use of 
resources, but because of all of the funding and work of local 
law enforcement and the insistence that they coordinate, there 
was a brotherhood of the Beltway, truly a brotherhood around 
the Beltway. What they were able to do is to find the killers, 
and now as you know, they are in our judicial system.
    That to me is the model of local law enforcement, 
particularly when a nation or a community is under threat. So I 
am very committed to being able to make sure that local law 
enforcement has what it needs and that we have this kind of 
intense partnership.
    The other issue that we see on the rise is the issue of 
gang violence, and we hope to discuss this with you more, 
particularly because this issue is not only in our region, but 
it is a growing one.
    In an ideal world we could have had a separate hearing just 
on the FBI, but we need to move expeditiously in this 
appropriations cycle so that we are part of the cycle, and I 
want to thank Senator Shelby for the way he is organizing the 
subcommittee. But for the FBI, we really look forward to our 
continued relationship with the Director. We have worked with 
him in the intelligence effort. But now as we look at the FBI, 
we know we look at the request for increased funding for more 
analysts, language training, all of these things which we 
intensely support. We must go back though to the issues of 
Trilogy and to make sure we are on track with that, and at the 
same time as we work on making sure there is the technology to 
work, we cannot let domestic issues fall by the wayside, and I 
will be raising issues on an effort on health care fraud, the 
bilking of our citizens.
    So we will be talking about that as well as the gang issue 
and the prisoner reentry program.
    I am very interested, and I know Senator Shelby has raised 
the issue of new prisons. We have a Federal prison in 
Cumberland, Maryland and I compliment you on its staff. But 
what happens when the prisoners come home, and do we have a way 
that prevents recidivism and reintegrates them into the 
community and into the family?
    Mr. Gonzales, I know this is a keen issue with you, and 
perhaps this is one of the areas where faith-based initiatives 
really work best because of its community-based initiative to 
welcome the prisoner, coordinate with parole or probation, and 
at the same time make sure that when they reenter we move them 
to a new way of life and we look forward to discussing this 
with you.
    Mr. Chairman, that concludes my statement. There is so much 
to talk about, but we agree on a lot of the priorities. We just 
need to agree now on the wallet.
    Senator Shelby. Senator Leahy.

             OPENING STATEMENT OF SENATOR PATRICK J. LEAHY

    Senator Leahy. Thank you, Mr. Chairman. I join you and 
Senator Mikulski in welcoming Attorney General Gonzales and FBI 
Director Mueller here, and I know they represent the hard-
working men and women of the Justice Department, the FBI, 
people who work around the clock every single day of the week, 
protect all Americans, and I would hope that all Americans are 
grateful.
    They are here to talk not only directly on policy but 
indirectly on policy because they are going to talk about the 
budget request for the Justice Department, a request which 
recommends lessened priorities, substantial cuts in several 
programs that are critical to State and local agencies. They 
are in charge of fighting crime and preventing terrorism and 
assisting victims.
    I share the frustration of local and State law enforcement. 
All of us, both Republicans and Democrats have heard from them, 
and the first responder agencies because they see a budget 
request that includes elimination and reduction of funding by 
$1.5 billion. That is a 46.2 percent reduction in programs 
crucial to their day-by-day efforts. As a Senator from a rural 
State I've seen the partnerships we have made with our rural 
law enforcement, and how our State police have been called upon 
to carry out duties they had never done before, in cooperation 
with the Federal agencies. So when the administration proposes 
a 46.2 percent cut in what they have for law enforcement it is 
a matter of concern.
    The Department's top priorities continue to be the 
prevention, investigation, and the prosecution of terrorist 
activities against U.S. citizens and interests, as we see in 
their request for $535 million in new investments for the FBI 
including counterintelligence activities and Justice 
information systems technology. But I think it is legitimate to 
ask questions about how the FBI has handled some of these 
resources. At our last hearing in February we examined the lack 
of a Virtual Case File and the millions wasted on lessons 
learned. I hope that the Director will have new information 
today on the program successor, so-called SENTINEL, on the 
status and cost and make sure that this is not money down the 
drain like the last time.
    There have been concerns that traditional duties to the 
Justice Department have garnered too little attention and 
support. They have to lead the Nation in deterring, 
investigating, prosecuting gun, drug, civil rights violations, 
incarcerating offenders, partnering with State, local and 
community groups to prevent crimes, and of course leadership 
and assistance in meeting the needs of crime victims. We have 
seen an end to the downward trend in violent crimes with rates 
leveling out instead of continuing to climb. The FBI has 
reported an overall violent crime decline of 3 percent in 2003. 
That is great news, but murders increased by 1.7 percent, and 
that of course creates a concern especially as it reflects a 
change and a downward slide.
    The President says that he wants to ensure that our State 
and local police receive the resources necessary to do the job. 
Last week at the National Press Club the Attorney General 
said--and I totally agree with what he said--``we rely on local 
information, local partners to fight local crime, the beat cop, 
the county sheriff, and the lifelong investigator. They 
understand what is happening in the towns and cities and what 
needs to be done to stop it.''
    Attorney General Gonzales. I could not agree with you more. 
But I worry when I see the drastic cuts in those programs. 
Under the President's budget we are going to see an end to 
grants for hiring on the beat and school resources officers. We 
see under the President's budget severe reductions in equipment 
and support staff grants to combat illegal drugs, particularly 
methamphetamine production and distribution. We are going to 
see drastic cuts of 50 percent to programs that support 
activities to prevent juvenile delinquency and address juvenile 
crime, something we were finally getting a handle on. The Boys 
and Girls Clubs of America, for example, something that has 
been proven to be a success, is going to see its budget cut by 
30 percent.
    And finally, and this I really cannot understand, in the 
Crime Victims Fund, which has had enormous bipartisan support, 
the President has proposed to take all the amounts remaining in 
the fund, all of them, at the end of fiscal year 2006. That is 
a cut of $1.2 billion. It is going to place crime victim 
service programs in serious jeopardy. I think it sends a wrong 
message to law enforcement officers and crime victims. They see 
us spending billions of dollars for victims of crimes in Iraq, 
but we are cutting out every single cent in this budget for 
crime victims in America. I am not saying we should cut out the 
money in Iraq. That is not the question, but if we can find it 
in our hearts and our pocketbooks to help crime victims in 
Iraq, why are we taking away all the money that was put in 
there for crime victims in the United States. I do not think we 
should be eliminating initiatives that we know to be effective.
    Strengthening security, information sharing, and disaster 
response programs to combat terrorism must not totally 
overshadow the prevention of more traditional crimes. Frankly, 
most people are far more worried about a burglar, a rapist, a 
murderer or somebody who is stealing their identity, doing 
these crimes, than they are about an airplane flying into their 
homes or the buildings where they work. Of course we watch out 
for the airplanes, but I think that the average person is far 
more worried about the safety of their home and their business 
and their person, and when they go shopping or with their 
children going to school. And if they have been a victim of a 
crime they are worried about being helped as a victim.
    Mr. Chairman, I commend you for having this hearing. I 
think it is very important, and I congratulate you on your new 
chairmanship.
    Senator Shelby. Thank you.
    Senator Stevens.
    Senator Stevens. I have no opening statement. Thank you.
    Senator Shelby. Senator Harkin.

                OPENING STATEMENT OF SENATOR TOM HARKIN

    Senator Harkin. Thank you, Mr. Chairman. I will be brief.
    Mr. Attorney General, between 1993 and 2003, violent crime 
in this country declined by more than 50 percent, from 49.1 to 
22.3 incidents of violence per 1,000 persons. During this same 
period of time the Federal Government provided an increased 
level of assistance to local law enforcement agencies in the 
form of grants. Three programs in particular, the Edward Byrne 
Memorial grant, the local law enforcement block grant, and the 
COPS program, have been critical in providing resources to pay 
for more law enforcement officers and to fund more regional 
cooperation.
    However, between fiscal year 2003 and 2005 over $1 billion 
in grant assistance to State and local law enforcement was cut 
from the Department of Justice (DOJ) budget. This year you are 
taking the final step and eliminating what remains of these 
programs, and depriving law enforcement agencies across the 
country of an additional $1.3 billion. This is quite a way to 
say thank you to the men and women in law enforcement. It is 
quite a way to handle programs that have contributed to this 
amazing reduction in violent crime.
    Just as an example of what these cuts mean, the Byrne 
program, which is being eliminated, funds 4,316 cops and 
prosecutors working on 764 drug enforcement task forces 
nationally. Byrne funding led to 130,000 drug arrests in 32 
States, the seizure of 136 tons of illegal drugs, the 
confiscation of over 7,000 weapons and the seizure of 7,691 
meth labs. Yet the administration's rationale for doing away 
with the program is that it has not demonstrated results.
    So, Mr. Attorney General, I would like very much for you to 
visit Iowa, where like many other midwestern States we are in 
the middle of a methamphetamine crisis. Our Byrne dollars, the 
ones that may not exist next year, fund 74 task forces and pay 
for an additional 84 law enforcement salaries. They fund task 
forces responsible for the seizure of 63 percent of the meth 
labs in my State of Iowa. They fund a women's prison treatment 
program, where only 9 percent have gone back on meth after 
their release. It is an award-winning dual diagnosis treatment 
program.
    These funds are, quite simply, critical to the fight 
against meth. They are making a difference. When it comes to my 
turn for questioning I would like to again question you further 
about the taking away especially of the Byrne grant programs.
    Thank you, Mr. Chairman.
    Senator Shelby. Senator Murray.

               OPENING STATEMENT OF SENATOR PATTY MURRAY

    Senator Murray. Mr. Chairman, thank you very much, and 
thank you to both Attorney General Gonzales and FBI Director 
Mueller for being here today, and I thank you and the ranking 
member for holding this hearing.
    I do not have an official opening statement. Let me just 
say I echo the concerns about the cuts to the Byrne justice 
assistance grants and to the COPS Program. I am very deeply 
concerned about those cuts and the impacts, as well as the 
proposal not only to cut HIDTA funding but to move it, and the 
implications there. I am also very concerned that the 
Department of Justice has not done enough to stop the spread of 
methamphetamine and other synthetic drugs, and I will be asking 
you about that during the questioning as well.
    Mr. Chairman, most importantly to my State, as we have been 
dealing with challenges along the northern border and being 
much more aggressive, it has been good, but a lot of the costs 
have been dumped on our local jurisdictions to be able to deal 
with some of the drug smuggling and money laundering and other 
crimes, that as a result of more intense border security, we 
have been pushing these to the local jurisdictions to deal with 
it. It is a tremendous cost to the communities on our northern 
border. So I will be asking about that during the questioning.
    Thank you for having this hearing.
    Senator Shelby. Mr. Attorney General, your written 
testimony, your written statement will be made part of the 
record, and so will yours, Director Mueller. You proceed as you 
wish. Welcome to the subcommittee.

             OPENING STATEMENT OF ATTORNEY GENERAL GONZALES

    Attorney General Gonzales. Good morning, Mr. Chairman, 
Senator Mikulski and members of the subcommittee. It is my 
pleasure to appear before you with Director Mueller to present 
the President's fiscal year 2006 budget of the Department of 
Justice.
    This budget reflects some tough decisions, but it is a 
budget that I fully support. It reflects the President's charge 
for every public servant, which is not to simply spend more 
with the best of intentions, but to spend more wisely with an 
eye toward results.
    It builds on our number one priority by including over $500 
million in new investments for preventing and combatting 
terrorism. I would like to present a few highlights from the 
budget that we believe will lead to a stronger Justice 
Department, better homeland defense, a more effective 
counterterrorism effort, and even smarter crime-fighting 
initiatives.

   FEDERAL BUREAU OF INVESTIGATION INTELLIGENCE AND COUNTERTERRORISM 
                                PROGRAMS

    First, the President's budget includes funding to 
strengthen the FBI's intelligence and counterterrorism 
programs, as has been mentioned, including additional resources 
to hire 499 intelligence analysts and 288 new agents for the 
counterterrorism program.
    Our request also continues efforts to partner with State 
and local governments to maximize resources targeted to 
homeland security. It includes over $90 million in directed 
investment grants for counterterrorism and counterintelligence 
efforts.

                        DRUG FIGHTING STRATEGIES

    Second, the President's budget request will lead to even 
more effective drug fighting strategies. We request 
enhancements of $245 million for drug enforcement efforts. For 
the first time in a decade, drug use has decreased among 8th, 
10th, and 12th graders. With extraordinary collaboration 
between Federal law enforcement agencies, in the past 2 years 
we have hurt international trafficking organizations 
responsible for the U.S. drug supply.
    We know from experience that law enforcement agencies must 
pool their resources and expertise to target trafficking 
networks effectively. The Department of Justice's drug 
enforcement strategy refocuses the organized crime drug 
enforcement task force (OCDETF) program to conduct coordinated 
investigations of major drug supply and money laundering 
organizations, targeting the entire infrastructure of these 
enterprises. For this successful program, we are requesting 
additional resources of $172 million and 517 positions.
    Also included are enhancements of $72.9 million for the 
Drug Enforcement Administration (DEA). This money will mean 122 
new positions, including 76 new agents for the DEA.
    To assist State and local efforts in implementing drug 
enforcement programs and strategies, the Department's fiscal 
year 2006 request also includes $206.7 million in directed 
investments, including a $19.3 million increase for residential 
substance abuse treatment, an additional $30 million for drug 
courts, a $19.4 million increase for Southwest border drug 
prosecution, $20 million to continue methamphetamine lab 
cleanup, and $5 million to continue the prescription drug 
monitoring program.

                          FIGHT VIOLENT CRIMES

    Third, the President's budget will continue to build on the 
President's vision for policies that fight violent crime with 
hard time. Violent crime and firearms trafficking continue to 
be significant law enforcement problems throughout our Nation. 
We are committed to reducing violence and getting gun criminals 
off the streets through the Project Safe Neighborhoods (PSN) 
Initiative. The Department is requesting a total of $379 
million for PSN in fiscal year 2006. PSN is a comprehensive 
strategy that brings together Federal, State and local agencies 
to reduce violent crime in our communities. Working with the 
Department, each community tailors a program to target local 
gun violence problems.

                       PROTECT WOMEN AND CHILDREN

    Fourth, the President's budget builds on our successful 
efforts to protect women and children and to build a more just 
and safer society for all. Over the last year we have worked 
aggressively with other law enforcement agencies to target and 
prosecute a large variety of offenders posing grave threats to 
children, including large international rings of organized and 
predatory child molesters and commercial producers and sellers 
of child sex abuse images. Through these efforts more than 150 
child victims were rescued. The fiscal year 2006 budget 
increases funding by $10.4 million for our efforts to fight 
child pornography and obscenity.

                 COURT SECURITY AND DETENTION RESOURCES

    Fifth, as a result of aggressive law enforcement policies 
targeting terrorism, violent crime, immigration violations and 
drug crimes, as well as increases in the number of FBI, DEA and 
U.S. Immigration and Customs Enforcement (ICE) agents, the 
number of criminal suspects appearing in Federal court 
continues to grow, as does the number of individuals ordered 
detained and ultimately incarcerated. The fiscal year 2006 
budget provides significant resources needed to improve 
courtroom security and the detention and incarceration of those 
accused or convicted of violent crimes. During fiscal year 2004 
the Nation's Federal prison population rose 4.3 percent. That 
is an increase of more than 7,300 inmates. At the same time the 
Federal prison detention population rose 11.8 percent. Our 
fiscal year 2006 budget requests $509.6 million in additional 
resources for the Federal Bureau of Prisons, U.S. Marshals 
Service, and the Office of the Detention Trustee to manage this 
growth.
    Finally, the President's budget includes many directed 
investments and efficiencies to ensure that the Department 
continues down the path of wise and effective financial 
management so that we maximize every dollar that is provided to 
us.

                          PREPARED STATEMENTS

    Chairman Shelby, Senator Mikulski, members of the 
subcommittee, I am honored to testify here, and I look forward 
to working with you in the days and months ahead for a budget 
that will lead to a safer, more secure, and more just America.
    Thank you, and I would be pleased to answer any questions 
you might have.
    [The statements follow:]

               Prepared Statement of Alberto R. Gonzales

    Good morning Chairman Shelby, Senator Mikulski and Members of the 
Subcommittee: It is my pleasure to appear before you for the first time 
to present the President's fiscal year 2006 budget for the Department 
of Justice. I assumed this office knowing that the Department of 
Justice (DOJ) is fully committed to protecting the lives and the 
liberties of our citizens. As such, the budget proposal I bring before 
you today requests resources to continue protecting Americans and 
keeping our streets safe. For fiscal year 2006, the President's budget 
requests $19.1 billion for the Department of Justice, including $535.2 
million in new investments for preventing and combating terrorism, 
including counterintelligence.
    The budget I present to you is also mindful of our need to ensure 
that programs achieve their intended result. We propose a number of 
reforms and, where warranted, program reductions or eliminations. As a 
result, the spending increases proposed in our budget are offset by 
$1.88 billion in program savings and I look forward to working with you 
to achieve these savings.
    The Department's fiscal year 2006 budget requests $3.1 billion in 
homeland security spending, including funding to strengthen the 
Nation's counterterrorism investigative capabilities to identify, track 
and prevent terrorist cells from operating in the United States and 
enhance the Nation's counterintelligence analysis capabilities. This 
request also provides necessary resources to continue our efforts to 
deter, investigate and prosecute federal crimes, including gun, drug 
and civil rights violations; incarcerate offenders; partner with state, 
local, community and faith-based groups to prevent crime, including 
crimes against children; and provide leadership and assistance in 
meeting the needs of crime victims.

   PREVENTING AND COMBATING TERRORISM, INCLUDING COUNTERINTELLIGENCE

    Over the past three years, the Department has steadfastly allocated 
resources to counterterrorism and has undergone a transformation in our 
priorities, as well as our organization. Within DOJ, the Federal Bureau 
of Investigation is in the process of standing up a comprehensive 
Intelligence Program to prevent terrorist attacks, an effort that has 
been accelerated by the passage of the Intelligence Reform and 
Terrorism Prevention Act of 2004. The fiscal year 2006 budget includes 
funding to strengthen the FBI's Intelligence and Counterterrorism 
Programs, such as additional resources to hire an additional 499 
Intelligence analysts and 288 agents for the Counterterrorism Program.
    Tremendous strides in the war on terrorism were made under the 
leadership of Attorney General John Ashcroft. In the past year alone, 
the Department of Justice has arrested 379 individuals on 
counterterrorism-related charges and prosecuted and obtained 
convictions in 200 terrorism-related cases.
    Under my leadership, we in the Department will continue to be 
resolute in our quest to address terrorism and other threats to our 
Nation with integrity and devotion to our highest ideals. I appreciate 
the support shown by this Subcommittee and the Congress in providing 
the necessary resources for the Department of Justice to be a champion 
and build a culture dedicated to protecting the lives and liberties of 
Americans. The budget that I present to you today reflects this support 
and seeks to enhance the Department's ability to protect America.
Enhancing Counterterrorism/Counterintelligence Capabilities
    Since September 11, 2001, the Federal Bureau of Investigation's 
(FBI) counterterrorism workload has more than tripled, from 9,340 cases 
pending and received in the field to over 33,000 in fiscal year 2004. 
This budget request includes resources for the FBI to provide critical 
counterterrorism investigation capabilities. This funding will allow 
the FBI to strengthen its effort to identify, track, and prevent 
terrorist cells from operating in the United States. Principal 
increases would provide funding to: double the size of the Hostage 
Response Team, hire 499 additional intelligence analysts, enhance the 
foreign language translation program by $26 million, and expand the 
Legal Attache program.
    This budget also includes funding for two Presidential initiatives, 
the National Counterterrorism Center (NCTC) and the Terrorist Screening 
Center (TSC). The NCTC, established in May 2003 as the Terrorist Threat 
Integration Center, is a multi-agency effort that merges and analyzes 
intelligence information to provide a comprehensive threat analysis to 
the intelligence and law enforcement communities.
    The Terrorist Screening Center, which was established by Homeland 
Security Presidential Directive/HSPD-6 on September 16, 2003, and 
became operational on December 1, 2003, consolidates terrorist watch 
lists. Several initiatives require additional resources in this area, 
including: continuing education of state and local law enforcement; 
more stringent screening at U.S. borders; and screening passengers on 
domestic and international flights without unduly delaying commerce or 
travel. To meet these increased requirements, this budget includes an 
additional 61 positions and $75 million for TSC, bringing total TSC 
funding up to $104 million.
    Additionally, successful counterterrorism requires the cohesive 
intelligence, investigative, and prosecutorial efforts of many 
government agencies, including the federal, state, and local law 
enforcement agencies participating in the Joint Terrorism Task Forces 
(JTTF). A key to the success of the JTTF concept remains the melding of 
personnel from various law enforcement agencies into a single focused 
unit. Also, since the events of September 11, 2001, the U.S. Attorneys 
and the Department's Criminal Division have utilized the full cadre of 
anti-terrorism statutes to prosecute terrorist activities, including 
disrupting terrorist financing. Our budget seeks an additional $13.2 
million and 91 positions to enhance these efforts, including funds to 
support the investigation of terrorism, primarily through the 
application of warrants under Foreign Intelligence Surveillance Act and 
Department-wide continuity of operations investments.

Additional Enhancements to Counterterrorism/Counterintelligence 
        Infrastructure
    A key element in our efforts to prevent future acts of terrorism is 
our ability to effectively share information about terrorists, criminal 
activity and threats to public safety within DOJ and with other 
federal, tribal, state and local law enforcement partners. To support 
this effort, this budget requests an additional $63.9 million and 5 
positions for the Justice Information Sharing Technology (JIST) 
Program. This program will ensure that investments in information 
sharing technology are well planned and aligned with the Department's 
overall information technology strategy and enterprise architecture. 
JIST will also ensure that all DOJ components are able to operate in an 
interoperable environment, particularly with respect to preventing 
terrorist attacks on the United States.
    This request also continues efforts to partner with state and local 
governments to maximize resources targeted to homeland security 
efforts. The fiscal year 2006 budget maintains this commitment and 
includes $90.3 million in directed investment grants for 
counterterrorism/counterintelligence efforts.

                            DRUG ENFORCEMENT

    For the first time in a decade, drug use has decreased among 8th, 
10th, and 12th graders. With extraordinary collaboration between 
federal law enforcement agencies, in the past two years the Department 
of Justice has crippled international trafficking organizations 
responsible for the U.S. drug supply. In fiscal year 2004, the 
Department dismantled 36 Consolidated Priority Organization Target 
(CPOT)-linked drug trafficking organizations and severely disrupted an 
additional 159 organizations
    The fiscal year 2006 budget requests enhancements of $245.4 million 
for drug enforcement efforts: $172.5 million is for the Organized Crime 
Drug Enforcement Task Force (OCDETF) Program, the cornerstone of the 
Department's drug enforcement strategy, and $72.9 million is for the 
Drug Enforcement Administration (DEA), the Nation's sole law 
enforcement entity dedicated exclusively to drug enforcement. The 
request also includes an additional $32.6 million in new initiatives 
for DEA's Diversion Control Fee Account and $206.7 million in directed 
investments for the Office of Justice Programs.
    Law enforcement agencies must pool their resources and expertise to 
target trafficking networks effectively. The Department's Drug 
Enforcement Strategy refocused the OCDETF Program to conduct 
coordinated investigations of major drug supply and money laundering 
organizations, targeting the entire infrastructure of these 
enterprises. For this successful program, the Department requests 
additional resources of $172.5 million and 517 positions. This 
increased level of funding will address staffing imbalances that exist 
within the U.S. Attorney workforce; increase FBI OCDETF drug resources 
that focus on major trafficking organizations; implement Phase II of a 
multi-year plan to increase the capacity of the U.S. Marshals Service 
to apprehend OCDETF fugitives; and provide for ongoing operations and 
maintenance of the OCDETF Fusion Center beyond fiscal year 2005.
    This request also reflects the President's proposal to transfer the 
High Intensity Drug Trafficking Area (HIDTA) Program from the Office of 
National Drug Control Policy (ONDCP) to the Department of Justice, with 
funding provided through OCDETF at a level of $100 million including 5 
positions. A smaller refocused HIDTA program, will enable law 
enforcement to target the drug trade in a manner that is strategic and 
complementary of the OCDETF Program and preserves HIDTA's most 
effective elements, such as intelligence sharing and fostering multi-
agency law enforcement coordination.
    Our fiscal year 2006 budget requests $72.9 million and 122 
positions, including 76 new agents, for the DEA. The investments 
requested will provide permanent funding for DEA's Overseas Rightsizing 
plan; expand DEA's presence in Afghanistan, Central Asia, and the 
Middle East; enhance intelligence sharing to fully exploit, gather, 
analyze and share intelligence information; and maintain and upgrade 
DEA's intelligence capabilities. These resources will also strengthen 
the investigation of drug trafficking and money laundering priority 
target organizations through enhanced communications intercept 
capabilities and investigative technologies.
    For DEA's Diversion Control program, our fiscal year 2006 request 
proposes an increase of $32.6 million and 97 positions to enhance 
investigations and enforcement actions against the illegal sale, use, 
or diversion of controlled substances. The request also proposes to 
transfer funding associated with the Chemical Program from the Salaries 
and Expenses account to the Diversion Control Fee Account to complete 
the transfer effectuated in the fiscal year 2005 Appropriations Act. 
Funding all Diversion Control Program activities from the Diversion 
Control Fee Account will help streamline the program's financial 
management activities.
    The Department's fiscal year 2006 budget also includes $206.7 
million in directed investments to assist state and local efforts in 
implementing drug enforcement programs and strategies. Among these 
directed investments are: a $19.3 million increase for residential 
substance abuse treatment; an additional $30.0 million for drug courts; 
a $19.4 million increase for southwest border drug prosecution; $20 
million to continue methamphetamine lab cleanup; and $5 million to 
continue the prescription drug monitoring program.

                       VIOLENT CRIME ENFORCEMENT

    Violent crime and firearms trafficking continue to be significant 
law enforcement problems throughout the Nation. The Administration is 
committed to reducing violence and getting gun criminals off the 
streets through the Project Safe Neighborhood (PSN) initiative. The 
Administration is requesting $379 million for PSN in 2006. PSN is a 
comprehensive strategy that brings together federal, state, and local 
agencies to reduce violent crime in our communities. Working with the 
Department, each community tailors the program to target local gun 
violence problems. The Administration has also launched a companion 
initiative, the Violent Crime Impact Teams (VCIT), led by the Bureau of 
Alcohol, Tobacco, Firearms and Explosives (ATF). VCIT, currently active 
in 15 cities, expands to 25 cities in the fiscal year 2006 budget.
    Multiple Justice components play key roles in the Department's 
effort to reduce violent crime. The fiscal year 2006 request for PSN 
includes $154.2 million in new investments, including $136.2 million in 
additional funding for PSN initiatives such as Project ChildSafe, the 
National Criminal History Improvement Program, and State and Local Gun 
Crime Prosecution Assistance--all funded within the Office of Justice 
Programs. Funding also is requested under the PSN umbrella for ATF, the 
U.S. Attorneys, and the Criminal Division.
    Since joining the Department in January 2003, ATF has become an 
integral part of the Department's efforts to reduce the violent use of 
firearms by criminals and gangs. Over 72 percent of ATF's resources 
($666.0 million) are dedicated to firearms regulation and enforcement 
efforts, including licensing and inspection of federal firearms 
dealers, ballistics gun tracing, and criminal investigations of gun 
related crimes in partnership with a variety of federal, state and 
local law enforcement agencies. In addition, the United States 
Attorneys Offices (USAO) across the country, continue to develop 
strategies to make their communities safer. Critical to that goal is 
the aggressive prosecution of violent crimes, particularly those 
involving firearms. Another key component to helping to forge strong 
and effective partnerships with state and local law enforcement, is the 
Office of Justice Programs which provides grant funding that focuses on 
youth gun violence deterrence, firearms safety, criminal records 
improvements, and strategic planning.

                               LITIGATION

    The Department's fiscal year 2006 request includes $31.6 million 
and 227 positions in new investments for litigation to enforce federal 
laws and represent the rights and interests of the American people, as 
well as $1 million in Office of Justice Programs directed investments. 
The Department serves as the Nation's chief litigator, representing the 
United States in court and enforcing federal civil and criminal 
statutes, including those protecting civil rights, safeguarding the 
environment, preserving a competitive market structure, defending the 
public against unwarranted claims, and preserving the integrity of the 
Nation's bankruptcy system.
    The President's fiscal year 2006 budget request includes funding to 
fortify the U.S. Attorneys' immigration and intellectual crime 
prosecutions; the Criminal Division's ability to investigate and 
prosecute child sex exploitation, trafficking, and obscenity; the Civil 
Division's efforts to address immigration litigation; and the 
Environment and Natural Resources Division's litigation needs 
associated with tribal trust cases.
    Key investments include: $1.9 million and 36 positions for 
additional paralegals to narrow the gap between the private sector 
industry average and that found in the U.S. Attorneys' Offices; $3.7 
million and 46 positions to ensure there is sufficient U.S. Attorney 
presence to meet the steadily increasing caseload generated by 
increased Immigration and Customs Enforcement cases; $5 million and 58 
positions in U.S. Attorney and Civil Division resources for Health Care 
Fraud investigations and prosecutions; and $1 million and 11 positions 
to expand the Computer Crime, High Tech and Intellectual Property 
program.
    Between fiscal year 2001 and fiscal year 2004, the Civil Division's 
Office of Immigration Litigation (OIL) workload tripled to 
approximately 15,000 cases and will likely surpass 21,000 by fiscal 
year 2006 due to the avalanche of appeals by aliens challenging 
decisions to detain, deport, exclude, and remove them. By fiscal year 
2006, the attorney workload is projected to reach 186 cases--a number 
that is impossible for any attorney to handle effectively. Inadequate 
resources to defend these cases could result in adverse judgments, 
hindering the government's ability to pursue a consistent, unified 
strategy for upholding immigration enforcement actions and, 
consequently, undermining our national security. The fiscal year 2006 
budget requests $5.8 million and 58 positions to protect our Nation by 
excluding and deporting those aliens who pose a threat to national 
security and aliens who otherwise lack entitlement as defined by the 
Immigration and Naturalization Act. The request also includes enhanced 
resources for the Civil Division's Spent Nuclear Fuel Litigation to 
provide automated litigation support for the sixty-six cases filed by 
nuclear utility companies against the Department of Energy.
    The fiscal year 2006 budget also requests $7.4 million and 18 
positions to defend the United States in lawsuits filed by Indian 
Tribes for allegations regarding the management of Tribal assets by the 
Bureau of Indian Affairs. The United States' potential exposure in 
these cases is more than $200 billion. Adequate resources are necessary 
to limit exposure and establish proper precedent for the United States. 
These cases differ from lawsuits brought against the United States by 
individual Tribal members, like Cobell, due to the extent of the 
potential exposure and the amount of document management/production 
required. The document management is astronomical: approximately 55 
million pages of documents need to be reviewed. Thus the requested 
increase includes $6.1 million to address these document management-
related expenses.

            CRIMES AGAINST WOMEN AND CHILDREN AND OBSCENITY

    The Violence Against Women Act has made a critical difference in 
the lives of countless women and children. During this Administration, 
the Office on Violence Against Women (OVW) has awarded nearly $1.25 
billion in grants and cooperative agreements to enable communities to 
increase their efforts in addressing violence against women and to 
support and enhance services for victims. To build on these efforts 
this budget requests a $363 million total investment for Violence 
Against Women Act programs, including the Office on Violence Against 
Women.
    The Department's budget reflects its commitment to protect the most 
defenseless and youngest victims from human trafficking and other forms 
of exploitation. During the last year, the Department worked 
aggressively with other law enforcement agencies to target and 
prosecute a large variety of offenders posing grave threats to 
children, including large international rings of organized and 
predatory child molesters and commercial producers and sellers of child 
sex abuse images. Through these efforts, more than 150 child victims 
were rescued. As the Nation's expert in the prevention and prosecution 
of child exploitation and obscenity, the Department's Criminal Division 
attorneys prosecute defendants who have violated federal child 
exploitation and obscenity laws and also assist the 94 United States 
Attorney Offices in investigations, trials, and appeals related to 
these offenses. Additionally, the FBI's Innocent Images National 
Initiative (IINI) identifies, and investigates sexual predators who use 
the Internet and other online services to sexually exploit children, 
identifies and rescues child victims, and establishes a law enforcement 
presence on the Internet as a deterrent to subjects that exploit 
children. This budget increases funding by $10.4 million for the 
Justice Department's efforts to fight child pornography and obscenity, 
including the Criminal Division programs, the FBI's IINI and Child 
Obscenity Enforcement efforts, and the Internet Crimes Against Children 
Task Forces.
    In fiscal year 2004, the FBI located 300 missing children, shut 
down 2,638 child pornography websites or web hosts, and assisted in 
obtaining 881 convictions/pretrial diversions for crimes against 
children via online computer usage. This budget requests an increase of 
$9.1 million and 85 positions to continue these efforts.
    The Office of Justice Programs plays a significant role in reducing 
crimes against children through training and technical expertise to our 
state and local law enforcement partners and public safety entities. 
Since the President announced an administration effort to expand and 
coordinate the AMBER Alert network in October 2002, it has been 
credited with the recovery of over 150 children, or over 80 percent of 
the188 recoveries since the initiative began in Texas in 1996. In 2005 
the Amber Alert plans were established in all 50 states marking a 
milestone in our efforts to prevent child abductions. This budget seeks 
$5.0 million to maintain this system.

                       STATE AND LOCAL ASSISTANCE

    State and local law enforcement departments are critical partners 
in the war against terror and the fight against crime. Fiscal year 2006 
budget selectively maintains and grows effective programs with over 
$1.5 billion in grant assistance to state and locals agencies, 
including $185.3 million to strengthen communities through programs 
providing services such as drug treatment, $90.3 million to fight 
terrorism, and $335 million to combat violence. This includes 
enhancements to grant funding provided under Project Safe 
Neighborhoods; $235.2 million for law enforcement technology, including 
funding to continue and enhance the Administration's DNA initiative; 
and $92.5 million to support drug enforcement, including funding to 
continue and expand the Southwest Border Drug Prosecution Program.
    Programs targeted to helping strengthen our community remains a 
priority for the Department of Justice. A total investment of $185.3 
million in fiscal year 2006 provides $15 million to increase support 
for the Administration's offender re-entry program, which includes the 
participation of the Departments of Labor and Housing and Urban 
Development. An increase of $19.3 million is requested to assists 
states and units of local government in developing and implementing 
residential and substance abuse treatment programs. An increase of 
$29.9 million is requested for the drug courts program, which will 
result in a 2 percent improvement in the graduation rate from the drug 
courts program as compared to fiscal year 2005 estimates.
    Our request proposes the establishment of a program to provide $20 
million in fiscal year 2006 ($50 million over three years) for training 
to private defense counsel and public defenders, state and local 
prosecutors, and state judges to improve the competency of all 
participants connected with the trial of state capital cases.
    Efforts to improve our ability to combat terrorism would not be a 
success without our state and local partners. The fiscal year 2006 
request invests $90.3 million in state and local programs to combat 
terrorism including a $4.5 million increase for the Regional 
Information Sharing System; $14 million for state and local anti-
terrorism training; $7 million to develop tools and approaches to 
improve the ability of state and local first responders to detect and 
effectively respond to terrorist attacks; $16 million to fund the USA 
Freedom Corps program; and a total of $6.2 million for the National 
Criminal Intelligence Sharing Plan -the state and local complement to 
the Department's Law Enforcement Information Sharing Program.
    A $227.4 million investment is also proposed to assist state and 
local communities in combating other violent crimes, including $10.2 
million to prevent prison rape and prosecute persons committing it. The 
Department is committed to upholding the rights and to defending human 
dignity of all citizens, including prisoners.
    The fiscal year 2006 budget requests an additional $72.7 million to 
continue efforts to reduce convicted offender and crime scene backlogs, 
strengthen the capabilities of labs, fund DNA research and development 
projects, provide specialized training to law enforcement and lab and 
medical personnel, pay for programs and educational materials that 
employ DNA technology to identify missing persons, and to fund a post-
conviction DNA testing program. Also included in the fiscal year 2006 
budget is a $29.9 million total investment in the Bulletproof Vests 
Program.

            JUDICIAL PROTECTION, DETENTION AND INCARCERATION

    As a result of aggressive law enforcement policies targeting 
terrorism, violent crime, immigration violations, and drug crimes, as 
well as the increases in the number of FBI and DEA agents, the number 
of criminal suspects appearing in federal court continues to grow, as 
does the number of individuals ordered detained and ultimately 
incarcerated. The fiscal year 2006 budget request provides significant 
resources needed to improve courtroom security and the detention and 
incarceration of those accused or convicted of violent crimes. During 
fiscal year 2004, the Nation's federal prison population rose 4.3 
percent, by 7,396 inmates. At the same time, the federal prisoner 
detention population rose 11.8 percent, increasing by approximately 
5,200 detainees on a daily basis. The request provides additional 
resources for the Bureau of Prisons and Office of the Detention Trustee 
to manage this growth, including activation costs for three new 
facilities and two expansions of existing facilities. The fiscal year 
2006 DOJ budget requests $509.6 million in additional resources in 
these areas
    The U.S. Marshals Service (USMS) ensures that the federal justice 
system operates effectively and securely by providing judicial and 
courtroom security to deter and respond to threats and protect federal 
judges, court personnel, witnesses and other participants in federal 
judicial proceedings. This budget will provide the resources needed for 
the Department to continue to ensure that no judicial proceedings are 
interrupted due to inadequate security as well as to continue to 
identify, assess, and respond to the threats against court personnel 
and property; enhance the physical security of federal courthouse 
facilities; and provide for the long-term protection of federal 
witnesses and their families.
    Additionally, the USMS has primary jurisdiction to conduct and 
investigate fugitive matters involving escaped federal prisoners; 
probation, parole and bond default violators; warrants generated by DEA 
investigations; and certain other related felony cases. In fiscal year 
2004, the USMS apprehended 39,000 federal felons--more than all other 
law enforcement agencies combined. In addition, working with 
authorities at the federal, state, and local levels, USMS apprehended 
79,740 fugitives. This budget provides $790.2 for the USMS, which is 
$42.6 million and 114 positions over the 2005 enacted level.
     For the Bureau of Prisons (BOP), our fiscal year 2006 budget seeks 
an increase of $148 million and 1,007 positions, which includes $37.2 
million for the subsistence cost of the increasing inmate population. 
The BOP projects that it will receive 4,269 additional inmates between 
fiscal year 2005 and fiscal year 2006. These resources will enable the 
BOP to meet the marginal costs, $8,712 per inmate, of providing 
security, food, medical care, clothing, education, and other costs 
associated with the population increase. An increase of $85.0 million 
and 1,002 positions is also included to begin the activation process 
for 3 newly constructed facilities, activate a 50 cell expansion to the 
existing Special Housing Unit at United States Penitentiary Florence, 
Colorado and to begin the activation process for a 362 bed low security 
housing unit at Federal Correctional Institution (FCI) Sandstone, 
Minnesota. In addition, $19.8 million and 5 positions are requested to 
begin the process to obtain 1,600 additional beds in contract 
facilities to house low security and female inmates for 6 months in 
fiscal year 2006. In addition, the budget requests the rescission of 
$314 million in unobligated prison construction balances. The funds are 
associated with prisons not scheduled to activate until 2009 or beyond. 
During 2006, the Bureau of Prisons will undertake a thorough review of 
all of its existing minimum and low security facilities to evaluate the 
potential of upgrading or modifying these prisons to house higher 
security inmates, where the inmate crowding level is the highest. BOP 
remains committed to contracting out for low and minimum security 
inmates which currently makes up 58 percent of the federal inmate 
population. Lastly, the BOP request seeks $6.0 million to establish a 
residential re-entry program at 6 institutions that will build 
partnerships with faith based and community organizations.
    For the Office of the Federal Detention Trustee, our request 
reflects an additional $347.4 million to house USMS detainees in state, 
local and private facilities. The number of federal prisoners detained 
is expected to increase 14.9 percent over fiscal year 2005, resulting 
in an average daily population of over 60,000 detainees compared to 
approximately 27,000 three years ago. This enhancement will ensure the 
availability of adequate, cost-effective detention capacity for the 
anticipated jail days that will be spent in state, local or private 
facilities.
    Lastly, with the recent violence perpetrated in courthouses in the 
southeast and midwest, I have directed that a review of judicial 
security measures be undertaken so the Department, as well as state and 
local law enforcement, can benefit from a compilation of best practices 
from across the nation.

                MANAGEMENT AND STEWARDSHIP IMPROVEMENTS

    In his February 2nd State of the Union Address, the President 
underscored the need to restrain spending in order to sustain our 
economic prosperity. As part of this restraint, it is important that 
total discretionary and non-security spending be held to levels 
proposed in the fiscal year 2006 budget. The budget savings and reforms 
in the budget are important components of achieving the President's 
goal of cutting the budget deficit in half by 2009 and we urge the 
Congress to support these reforms. The fiscal year 2006 budget includes 
more than 150 reductions, reforms, and terminations in non-defense 
discretionary programs, of which 1.88 billion affect DOJ programs. The 
Department wants to work with the Congress to achieve these savings
    As part of our efforts to improve management and stewardship, the 
Department continues to evaluate its programs and operations with the 
goals of achieving both component-specific and departmental economies 
of scale, increased efficiencies, and cost savings/offsets to permit us 
to fund initiatives that are of higher priority. The Department is 
engaged in a multi-year process to implement a wide range of management 
and information technology improvements that will result in substantial 
savings. The cost absorptions and crosscutting efficiencies identified 
in this budget impact virtually every component in the Department. 
Additional investments in management and information technology 
improvements, such as e-gov, e-training and e-travel initiatives, will 
ensure all DOJ components are able to function in an interoperable 
environment, particularly with respect to preventing terrorist attacks 
on the United States.

DOJ Financial Management
    The Department is committed to continuous improvement in financial 
management in order to maximize every dollar that is provided to us. 
The fiscal year 2006 budget requests $33.0 million and 6 positions to 
continue support for the Unified Financial Management System (UFMS), 
including hardware and software acquisition, integration and 
implementation, and project management activities. The annual financial 
audits of DOJ and its components have found fault with several of the 
seven core financial management systems in use at DOJ. Continuing the 
UFMS initiative will result in a significant improvement to the 
efficiency and integrity of our financial and accounting system.

DOJ Diversity
    The fiscal year 2006 request seeks $.8 million to enhance attorney 
recruitment and retention through an enhanced student loan repayment 
program and to implement an automated attorney hiring system. The 
Department is committed to casting the widest net to attract the most 
qualified and diverse applicants.

                               CONCLUSION

    In closing, I would like to thank the members of the subcommittee 
for your recent actions on the fiscal year 2005 Supplemental. The funds 
provided for the Department of Justice are critical to our efforts both 
domestic and abroad.
    Chairman Shelby, Senator Mikulski, Members of the Subcommittee, I 
have brought before you today the resources necessary to carryout the 
Department's priorities for fiscal year 2006. I am honored to testify 
before you and look forward to the days and months ahead working with 
you on this budget proposal and other issues.
    Thank you. I would be pleased to answer any questions you might 
have.
                                 ______
                                 
 Prepared Statement of Carl J. Truscott, Director, Bureau of Alcohol, 
        Tobacco, Firearms and Explosives, Department of Justice

    Mr. Chairman, Senator Mikulski, and distinguished members of the 
Subcommittee: thank you for this opportunity to submit a statement 
about the accomplishments of the men and women of the Bureau of 
Alcohol, Tobacco, Firearms and Explosives (ATF) and discuss the 
President's fiscal year 2006 budget for the ATF. We are working 
together to protect America. Our agents, inspectors/investigators, 
administrative, professional, and technical personnel have earned 
renown and respect for their contributions to the Department of Justice 
and to law enforcement. I am honored to lead such capable and motivated 
colleagues, and to serve our great Nation as the Director of ATF.
    I appreciate very much the support the Subcommittee has given to 
ATF and the interest the Subcommittee has demonstrated in ATF's 
missions and programs. With your support during fiscal year 2005 
appropriations, ATF received funding and positions for the Safe 
Explosives Act (SEA) and explosives enforcement, Project Safe 
Neighborhoods (PSN) and anti-gang efforts, the National Tracing Center 
(NTC), and relocation of the Federal Licensing Center to West Virginia.
    The President's budget request for fiscal year 2006 builds on your 
fiscal year 2005 investment with $30.3 million to expand the number of 
Violent Crime Impact Teams (VCIT) targeting the most violent criminals 
in specific areas within selected cities and $6 million to develop the 
Terrorist Explosive Device Analysis Center (TEDAC) database which will 
record, inventory, and catalog improvised explosive devices being used 
in Iraq and Afghanistan. These investments are in direct support of 
ATF's core missions.
    As Director, I lead our efforts to reduce violent crime, prevent 
terrorism, and protect the public. Thanks to the leadership and support 
of this Committee, and through our dedicated work, the men and women of 
ATF are improving the lives of Americans. Your investment, and our 
efforts, produce real results: safer neighborhoods, where all of us, 
including children and senior citizens, can live without fear.
    Since being sworn in as Director of ATF last May, I have visited 
all 23 ATF field divisions. I have talked with special agents and 
inspectors/investigators who are: taking violent criminals, including 
gang members, off the streets; preventing the illegal diversion of 
firearms; ensuring the security and accountability of explosives and 
firearms commerce; investigating bombings and thefts of explosives; 
solving arsons, through investigation and research; investigating 
alcohol and tobacco diversion schemes; and sharing information and 
intelligence with our law enforcement partners.

                                FIREARMS

    ATF continues to fight violent crime on the streets of America. We 
enforce Federal firearms laws and provide extensive support to Federal, 
State, and local law enforcement officials in their fight against crime 
and violence.
    ATF agents investigate a broad range of firearms violations that 
can be generally divided into three categories: investigations of those 
persons who are prohibited by law from possessing firearms, such as 
felons, illegal aliens, and drug traffickers; investigations of 
firearms diversion; and investigations of persons possessing those 
firearms that are generally prohibited, such as machineguns and sawed-
off shotguns.
    From these types of investigations, ATF agents concentrate on 
illegal firearms traffickers and the diversion of firearms out of 
lawful commerce into the hands of criminals. Firearms trafficking 
investigations can be complex and time-consuming. They can involve 
illegal straw purchases of firearms for those unable to legally possess 
firearms (with or without the complicity of a Federal firearms 
licensee, or FFL), illegal dealing at gun shows or other locations, 
robberies of gun stores, and thefts from interstate shipments.
    ATF combines state-of-the-art technology and effective partnerships 
into an Integrated Violence Reduction Strategy, or IVRS. We are a major 
participant in the Administration's PSN initiative, which began in 
2001. This cooperative program builds upon the enforcement efforts of 
the past, and includes the use of advanced technology and effective 
sharing of intelligence and information. Law enforcement, prosecutors, 
and community leaders work together on deterrence and prevention. 
Agencies develop focused enforcement strategies to investigate, arrest, 
and prosecute violent offenders, prohibited possessors of firearms, 
domestic and international firearms traffickers, and others who 
illegally attempt to acquire firearms. ATF, local law enforcement, U.S. 
attorneys, and local prosecutors evaluate which set of laws and 
circumstances can best be employed against the violators and/or 
prohibited possessors and seek the most appropriate venue for firearms 
prosecution. Under PSN, the number of Federal firearms cases filed 
increased 76 percent between fiscal year 2000 and fiscal year 2004. In 
fiscal year 2004, ATF opened 29,440 firearms investigations, and during 
the same timeframe, there were over 7,000 convictions.
Violent Crime Impact Teams
    In June 2004, former Attorney General Ashcroft, Deputy Attorney 
General Comey, and I announced the VCIT initiative, a new program to 
reduce violent crime in 15 targeted communities. Through VCIT, ATF-led 
teams work with local law enforcement to identify and arrest the most 
violent offenders in each area. The selected communities are: 
Albuquerque, New Mexico; Baltimore, Maryland; Chattanooga, Tennessee; 
Tampa, Florida; Miami, Florida; Richmond, Virginia; Greensboro, North 
Carolina; Tulsa, Oklahoma; Pittsburgh, Pennsylvania; Las Vegas, Nevada; 
Columbus, Ohio; Philadelphia, Pennsylvania; Los Angeles, California; 
Tucson, Arizona; and the Washington, DC/Northern Virginia area.
    ATF-led VCIT teams in these cities bring the targeted area's 
Federal, State, and local law enforcement officials together. Each team 
creates an individualized strategy, then works together to remove those 
responsible for violent crime. I can tell you that VCIT is working: in 
our first 8 months of operation, 3,100 State and Federal arrests were 
made, and 3,700 firearms were recovered. Civic leaders and law 
enforcement officials have praised VCIT's positive impact on their 
communities. News reports credit VCITs with contributing to a decrease 
in homicides, as has occurred in Greensboro, Tulsa, and Columbus, among 
others. For example, a November report by the Albuquerque Journal 
stated that the VCIT contributed to a 23 percent decrease in the 
homicide rate in Albuquerque alone, compared with the same period last 
year.

Anti-Gang Efforts
    We have developed expertise in working against criminal groups, 
particularly gangs, and this is recognized by the Department of Justice 
(DOJ). ATF played a prominent role in the development of the 
Department's Gang Strategy Report for the House Appropriations 
Committee. This reflects our years of experience in working against 
violent gangs, including outlaw motorcycle organizations active in 
firearms and narcotics trafficking. In fact, ATF oversees a 
comprehensive gang strategy, combining education, prevention, training, 
and a variety of criminal enforcement tactics to take violent gang 
members and their organizations off the streets. ATF shares 
investigative information on gangs nationally through its case 
management system. This system allows every agent and task force member 
the ability to access information about other cases in order to 
coordinate efforts. ATF recommended more than 5,000 gang members and 
their associates for prosecution during the past 5 years (2,000 of them 
during fiscal year 2004 alone) for charges including firearms 
violations, continuing criminal enterprise violations, Racketeer 
Influenced Corrupt Organization Act violations, and arson and 
explosives violations. In the past 2 years, we also traced more than 
11,000 firearms linked to gang activity, and initiated more than 1,500 
cases involving gang members participating in firearms trafficking.
    We are fighting gangs with proactive efforts as well as enforcement 
actions: the Gang Resistance Education And Training (G.R.E.A.T.) 
Program has been presented to more than 3.8 million middle school 
students since its inception in 1992. And thanks to a new agreement 
with Boys and Girls Clubs of America, ATF's G.R.E.A.T. program is being 
used to help young people make positive decisions and resist negative 
influences. In this way we are not just working to deter crime--we are 
working to prevent it.

National Tracing Center
    ATF's National Tracing Center (NTC) is the largest operation of its 
kind in the world. This facility conducts traces of firearms recovered 
at crime scenes for any Federal, State, local, or international law 
enforcement agency. In fiscal year 2004, the NTC traced over 250,000 
firearms. The NTC stores information concerning multiple sales of 
firearms, suspect guns, and firearms with obliterated serial numbers, 
and is also the only repository for all records of FFLs that have gone 
out of business. The NTC provides ATF personnel and other law 
enforcement agencies with crime gun data specific to their geographic 
areas, and helps them identify emerging trends and patterns in 
firearms-related criminal activity.
    The NTC has established and provides support to four Regional Crime 
Gun Centers. These centers are located in Washington, DC; Chicago; New 
York; and Los Angeles. Each provides focused analysis of crime gun 
trace information in these major metropolitan areas for ATF and local 
partners from other Federal, State, and local law enforcement agencies 
to reduce firearms-related violent crime within their regions. The 
information gathered and analyzed through these centers and the Crime 
Gun Analysis Branch (CGAB) provides law enforcement with specific leads 
through the use of firearms tracing and geographic information to 
discern indicators of trafficking activity within a city that has a 
high violent crime rate involving gangs and illegal use and possession 
of firearms. This allows law enforcement to efficiently apply resources 
to combat violent firearms activities.
    Another NTC program is called Access 2000. This initiative benefits 
both ATF and our industry partners. Servers supplied by ATF have been 
installed at 36 manufacturers and major wholesale distributors, all of 
them FFLs, who have partnered with ATF in this effort. FFLs enter 
firearms information into the servers; the NTC connects to these 
servers remotely and can obtain information on a firearm's disposition 
in the course of a crime gun trace. This program substantially reduces 
administrative costs to the FFL and the time it takes ATF to trace a 
firearm.
    In order to reduce violent crime, ATF will continue to develop and 
employ technology that will help law enforcement at all levels. Through 
the National Integrated Ballistic Information Network (NIBIN) Program, 
ATF has installed automated ballistic comparison equipment at 230 sites 
in participating forensic laboratories in the continental United States 
and its territories, giving these State and local law enforcement 
agencies the opportunity to identify ballistic links between crimes not 
otherwise known to be connected.

                               EXPLOSIVES

    In addition to our investigative efforts against firearms 
trafficking and violent firearms crime, ATF agents investigate 
bombings, unlawful distribution of explosives, thefts of explosives, 
and other violations of explosives laws. ATF inspectors/investigators 
ensure that the manufacture, importation, and commerce in firearms and 
explosives are conducted lawfully. Other programs combine advanced 
technology with ATF's years of expertise, providing critical 
intelligence for Federal, State, and local law enforcement to use in 
investigating fire and explosion incidents in their areas.
    As part of the Department of Justice's efforts to ensure the 
coordination of explosives investigations, explosives information 
sharing, and other related explosives matters amongst its law 
enforcement components, the Department of Justice reviewed the 
explosive programs of ATF, FBI, and others and on August 11th, issued a 
policy memo outlining roles and responsibilities as they relate to 
explosives issues. Former Attorney General Ashcroft's policy memorandum 
regarding coordination of explosives investigation and related matters 
helped to clarify the responsibilities of ATF.
  --The Attorney General mandated that ATF would control the 
        investigation of all explosives incidents except those related 
        to terrorism. I am honored by the confidence that the Attorney 
        General placed in ATF when he made this decision, and I note 
        that approximately 98 percent of the bombings in America are 
        unrelated to terrorism. In instances of terrorism, ATF stands 
        ready to assist with Department-wide efforts.
  --The Attorney General also tasked ATF to maintain all DOJ arson and 
        explosives databases currently maintained by other DOJ 
        components. Our state-of-the-art system for documenting arson 
        and explosives incidents, known as the Bomb Arson Tracking 
        System or BATS, has become the DOJ standard.
  --Further, his decision mandated the consolidation within ATF of all 
        budget, curriculum, teaching, and scheduling functions related 
        to post-blast explosives training for Federal, State, local, 
        and international entities.
    Mr. Chairman, I believe that this decision will be responsible for 
significant financial efficiencies.
    ATF special agents work with State and local law enforcement 
throughout all aspects of bombing and explosion incidents, from the 
post-blast recovery of evidence through the subsequent investigation. 
ATF has explosives and arson groups nationwide, each consisting of 
special agents, including certified fire investigators (CFIs) and 
certified explosives specialists (CESs), as well as State and local 
police or fire personnel. These ATF special agents are dedicated full-
time to investigating explosives and arson incidents and violations. In 
fiscal year 2005, the Congressional appropriation directed ATF to form 
four specialized explosives groups. These groups are enhancing our 
ability to prevent criminal acts involving explosives, respond to 
criminal acts, plan for special events, and assist first responders by 
adding special agents trained in rendering improvised explosive devices 
(IEDs) safe.
    Some ATF special agents receive even more intense explosives 
training than the substantial amount received in Special Agent Basic 
Training. Special agent CESs are among the most experienced, best-
trained explosives experts in the Federal Government. They provide 
explosives crime scene examinations, lend expertise in support of 
security measures implemented at special events, and assist ATF's law 
enforcement counterparts at the Federal, State, local, and 
international levels in their efforts to investigate explosives-related 
incidents. The CESs are highly trained in all aspects of explosives 
handling, instruction, identification, demonstration, and destruction. 
Because of their proficiency in explosives investigation, CESs are used 
regularly as instructors for explosives-related training at the 
International Law Enforcement Academies in Budapest, Hungary; Bangkok, 
Thailand; and Gaborone, Botswana. They have also instructed post-blast 
investigation techniques for foreign law enforcement officers in South 
American, Central American, and Eastern European countries, and are 
currently providing this instruction in supporting coalition forces in 
Iraq.
    ATF investigates each and every report of theft or loss of 
explosives in the United States in order to ensure that these 
explosives do not fall into the hands of terrorists or criminals. When 
explosives are used for criminal purposes, ATF brings the full weight 
of its explosives programs and investigative assets to the task of 
identifying and bringing the perpetrator to justice. On July 6, 2004, a 
theft of explosives occurred from a San Mateo County, CA, explosives 
storage facility used by law enforcement. ATF immediately responded to 
the crime scene and began an investigation. Working with the California 
Highway Patrol, the Alameda County Sheriff's Office, the Hayward Police 
Department, the Union City Police Department, the Oakland Police 
Department, and others, the stolen explosives were recovered and ATF 
arrested four individuals on charges relating to the theft, possession, 
and distribution of explosives.
    ATF has other experts in the field of explosives. ATF's explosives 
enforcement officers (EEOs) provide technical assistance and support in 
explosives matters. These bomb technicians have between 12 and 35 years 
of experience in explosives and bomb disposal. EEOs render explosive 
devices safe, disassemble explosive and incendiary devices, prepare 
destructive device determinations, and render expert testimony in 
support of such determinations in State and Federal criminal court 
proceedings. EEOs also provide expert analysis and onsite investigative 
technical assistance at bombing and arson scenes and scenes where 
explosions of an undetermined nature have occurred. They provide 
assistance and training in all aspects of explosives handling, usage, 
and destruction; threat vulnerability assessments; and all other 
explosives-related matters for ATF and State and local law enforcement 
agencies. EEOs use a full range of bomb disposal equipment, such as 
explosives-actuated disrupters; radiographic (x-ray) equipment; 
personal protective equipment (bomb suits); and robotic equipment, 
including the All-purpose Remote Transport System (ARTS), which is 
designed to remotely disrupt car and truck bombs that are too large to 
disarm by traditional methods. ATF is one of the few Federal agencies 
with ARTS capability.
    Maintained within ATF's Arson and Explosives National Repository 
(AENR) is this country's most comprehensive set of data describing 
fire/explosion incidents. The incidents are divided into specific 
categories such as targets, locations, motives, and victims. Trends, 
patterns, and criminal methodologies, as well as the identities of 
known previous offenders, can be derived from the data set. Most 
importantly, ATF agents or other law enforcement officials can contact 
the Repository to query the construction characteristics of an 
explosive device, and match the device to others with similar 
characteristics.
    ATF is now using the latest information management technology to 
make case information available to law enforcement nationwide through 
BATS. This program facilitates and promotes the collection and 
dissemination of fire, arson, and explosives incidents and information 
among participating agencies. Law enforcement agencies and members with 
established National Crime Information Center access can access BATS 
via personal computer in a secure Internet environment. End users are 
able to enter their case information and query information entered by 
others, both locally and across agencies. BATS benefits its users by 
providing real-time incident-based information, records management 
functions, and advanced features, such as spatial representation of 
incidents via an integrated Geographical Information System--all within 
a secure law enforcement environment. Eventually, the wealth of case 
information available through the Repository will also be accessible 
through BATS.
    ATF is sharing its expertise by training Federal, State, local, 
military, and international bomb technicians and investigators in 
explosives disposal and investigation techniques at the National Center 
for Explosives Training and Research (NCETR) at Fort A.P. Hill, 
Virginia. This course was developed in response to data showing that 
more bomb technicians were injured or killed during explosives disposal 
operations than when performing render safe procedures on explosive 
devices. ATF offers numerous advanced courses related to explosives 
disposal and post-blast investigation techniques at the NCETR, which 
was authorized in the Homeland Security Act of 2002. Since ATF began 
holding training classes at Fort A.P. Hill in 2000, we have provided 
training to over 4,000 Federal, State, local, and international bomb 
technicians and investigators. In cooperation with the U.S. Army, we 
are currently training Army explosives units prior to their deployment 
to Iraq. In addition, ATF provides post-blast training to members of 
the Department of State, the Naval Criminal Investigative Service, and 
the Air Force Office of Special Investigations. This facility will 
include a permanent classroom facility and an advanced explosives 
research and training range for the study of various explosive devices. 
This dedicated facility will advance our expertise in the investigation 
of bombings and explosives-related crimes. The NCETR is ideally located 
close to the Washington, DC, area, but remote enough to offer unlimited 
opportunities for expansion and enhancement as the needs of the 
Department require it.
    ATF has found a unique niche with its delivery and cosponsorship of 
an underwater explosives recovery course for State and local bomb 
technicians and divers. ATF worked with the Edmond, Oklahoma, Police 
Department to develop the course, which was established in response to 
the growing number of investigations in which evidence either directly 
or indirectly ended up in a body of water. The TWA Flight 800 
investigation in July 1996 further justified the need to train law 
enforcement/bomb squad personnel to recover fire- and explosives-
related evidence.

                                 ARSON

    One recent example of ATF's investigative work is the arson 
committed in December 2004 in a neighborhood in Charles County, 
Maryland. Our field agents investigated this crime scene, where 26 
homes were damaged, ten of which were destroyed entirely. I visited 
this enormous and complex crime scene, and I was stunned by the 
devastation. ATF's state-of-the-art Fire Research Laboratory is 
analyzing the evidence gathered. By investigating and solving these 
crimes, we are also helping to prevent future arsons.
    ATF's arson enforcement efforts are an integral part of ATF's 
overall violent crime reduction strategy, and are directed toward 
preventing the crime of arson, providing effective post-incident 
response, and reducing the community impact of crimes involving fire. 
The long-term, strategic goal of the arson program is to provide 
effective investigative and technical expertise, rapid response, 
assistance, and state-of-the-art training to reduce the impact of 
violent crimes that involve fire. ATF investigative efforts are 
generally focused on arsons of Federal interest, including those at 
houses of worship, commercial buildings, and reproductive health 
clinics. In fiscal year 2004, ATF opened approximately 2,000 arson 
investigations. I would like to address some of ATF's arson program 
areas and assets, including the CFI program, the ATF Church Arson Task 
Force, ATF's response to animal-rights extremists and environmental-
rights extremist fires, the ATF Fire Research Laboratory, and others.
    After fire departments extinguish the flames, the work begins for 
cause and origin investigators who must determine whether the fire was 
intentionally set and whether a crime was committed. The agents 
participating in ATF's CFI program are at the forefront of fire 
investigation. The special agents who participate in this program are 
the only federally trained and federally certified cause and origin 
investigators in the Federal Government. These CFIs are able to qualify 
as expert witnesses, that is, opinion witnesses, in fire cause and 
origin determinations. Each CFI has participated in hundreds of 
investigations and has undergone hundreds of hours of training to 
qualify in giving expert testimony. The CFI program is the only one of 
its type in Federal law enforcement and has received national and 
international acclaim. ATF's 107 CFIs are based in 36 States and 
provide support to the entire United States and its territories. ATF 
CFIs responded to over 1,200 fires in fiscal year 2004.
    ATF also investigates bombings and crimes of arson by environmental 
and animal rights extremists using explosives and fire as their 
weapons, such as the Animal Liberation Front (ALF) and the Earth 
Liberation Front (ELF). ATF estimates that property damage committed by 
those groups in the past several years exceed $65 million. Because of 
ATF's expertise in these areas, we have made these investigations a 
priority and will continue to do so. In the last several years, we have 
initiated about 100 explosives and arson investigations believed to be 
linked to ALF and ELF. In the past, many of the fires set by these 
extremists have been set utilizing a particular methodology, and the 
Arson and Explosives National Repository (AENR)--which has kept records 
and intelligence on these acts for decades--stands ready to assist fire 
investigators in determining the methodology used in future incidents, 
linking events, and identifying suspects.
    One of the most painful and destructive crimes that ATF 
investigates is arson directed at houses of worship. In fiscal year 
2004, ATF responded to approximately 210 such fires and explosives 
incidents. Out of that number, 88 of the fires were determined to be 
incendiary: that is, set by human hands. Of the 210 fires, ATF 
conducted the origin and cause investigation at 61 predominantly 
African-American churches, six Hispanic churches, six temples, and six 
mosques.
    ATF works to prevent future incidents by documenting information 
such as why an incident happened and what human factors were involved. 
Lending additional credence to ATF's scene capabilities is the 
expertise afforded by its fire protection engineers (FPEs), who are 
ATF's experts in fire reconstruction and engineering analysis. Through 
their contributions, lessons can be learned and safeguards can be 
implemented if fire spread and fire progression are analyzed and 
documented properly (e.g., fatalities that are due to smoke and heat). 
These FPEs also provide technical advice and support to U.S. Attorneys 
and testify as expert witnesses in the prosecution of criminal cases.
    One of ATF's newer fire investigation resources is the Fire 
Research Laboratory (FRL), a one-of-a-kind fire test center with the 
capability of replicating initial fire scenarios approaching a quarter 
acre in size, to scale, and under controlled conditions allowing for 
detailed analysis. This facility is the only such facility in the 
United States that is dedicated to providing case support in fire 
investigations using forensic fire science, and the facility will 
support ATF's investigative requirements well into the future.
    ATF has profilers assigned to the National Center for the Analysis 
of Violent Crime at the FBI Academy in Quantico, Virginia. The ATF 
profilers analyze behavior characteristics of serial arsonists and 
bombers and provide investigative suggestions to case investigators. 
Although specializing in bombings and arsons, ATF profilers work on 
other violent crimes such as murders. ATF recently added a position of 
geographic profiler to its resources. This position is the first of its 
kind in the United States. Geographic profiling is a relatively new 
investigative tool being applied in serial crime investigations.

               CRIMINAL DIVERSION OF ALCOHOL AND TOBACCO

    ATF's goal as it relates to alcohol and tobacco diversion is to 
reduce violent crime and prevent terrorism by preventing the illegal 
domestic and international trafficking of alcohol and tobacco products. 
To accomplish this goal, ATF is enforcing laws that prohibit the 
diversion of alcohol and tobacco products, and providing Federal, 
State, and local agencies with the tools needed to identify trafficking 
schemes. From the hijacking of tractor trailer loads and cargo 
containers of cigarettes, to the armed robbery of tobacco wholesalers 
and distributors, to the smash and grab techniques at the retail level, 
ATF has successfully investigated and prosecuted the criminals 
involved.
    ATF is engaged in ongoing efforts to reduce the rising trend of the 
illegal diversion of alcohol and tobacco products by criminal gangs, 
organized crime, and terrorist groups. Current investigations have 
identified several instances of terrorist groups forming alliances with 
tobacco traffickers to generate funding to support their organizations 
and activities. We have built complex cases against individuals and 
organizations that have used proceeds from the illegal sales of 
cigarettes to fund organized crime and terrorism, including those 
involving the channeling of funds to Hezbollah, and these cases have 
been successfully prosecuted. ATF also works in partnership with other 
Federal, State, and local agencies to enforce the laws under their 
jurisdiction. The investigation of alcohol and tobacco crimes is unique 
in that the penalties are not commensurate with the profits that can be 
made.

                  INDUSTRY OPERATIONS: ATF'S DUAL ROLE

    ATF's role in Federal firearms and explosives laws, with both 
regulatory and enforcement responsibilities, is unique. In addition to 
our investigative efforts against firearms trafficking and violent 
firearms crime, ATF agents investigate bombings, unlawful distribution 
of explosives, thefts of explosives, and other violations of explosives 
laws. ATF inspectors/investigators ensure that the manufacture, import, 
and sale of firearms and explosives are conducted lawfully. Through 
education and industry partnerships, we work to keep firearms and 
explosives out of the wrong hands.
    According to the Institute of Makers of Explosives, over 5.5 
billion pounds of commercial explosives are used every year in the 
United States in mining and other applications. ATF ensures compliance 
with explosives laws and regulations through its explosives regulatory 
program. The purpose of this program is to protect interstate and 
international commerce against interference and interruption by 
reducing hazards to persons and property arising from the misuse and 
unsafe or insecure storage of explosive materials.
    This is accomplished through the explosives field inspection 
effort; through the development, implementation, and evaluation of 
regulatory enforcement procedures and policy; through the screening of 
prospective and current explosive licensees/permittees and their 
employees; and through regular and open communication with the 
explosives industry and its representatives. ATF's field inspection 
program includes the thorough review of records and inventory to ensure 
product accountability, as well as the visual inspection of explosives 
storage facilities to ensure safe and secure product storage to prevent 
theft and misuse of explosives. Inspectors/investigators verify that 
explosives storage magazines meet Federal construction and location 
requirements, including the required distance from explosives storage 
areas to roads or residential areas.
    Approximately 580 of ATF's inspectors/investigators are assigned to 
the field, and are responsible for inspections of FFLs and Federal 
explosive licensees (FEL). They are responsible for working with the 
population of 106,000 FFLs and over 12,000 FELs.
    The Safe Explosives Act (SEA) enhanced ATF's unique statutory 
mission of regulating the explosives industry. With the passage of this 
Act in 2002, ATF assumed a significant additional workload such as 
continued issuance of renewal licenses/permits for 12,000 explosives-
related businesses; increased inspection efforts and more thorough 
license application processing, including background checks for all 
employees who possess explosives. Further, the SEA decreed that ATF 
physically inspect every new explosives licensee applicant to ensure 
public safety.
    ATF's field inspectors/investigators are also responsible for 
firearms licensee inspections. Day in and day out, these inspectors/
investigators ensure that FFLs follow appropriate guidelines and 
procedures. Their work truly makes America safer by helping to prevent 
the acquisition of firearms by prohibited persons. Further, by 
promoting proper recordkeeping and business practices, they help ensure 
effective firearms tracing in critical investigations by all of the 
Nation's law enforcement community. Cooperative programs such as 
``Don't Lie for the Other Guy,'' a joint venture between ATF and the 
National Shooting Sports Foundation, provide essential education for 
FFLs. In addition, our Federal Firearms Licensing Center in Atlanta 
screens all FFL applicants by coordinating background checks on persons 
responsible for firearms operations.
    ATF formulated its Explosives Threat Assessment and Prevention 
Strategy, or ETAPS, in the spring of 2004. This strategy gives us the 
opportunity to respond to changes in the explosives industry and the 
society in which it operates. It is a dynamic process--we gather 
information, evaluate it, plan programs in response to it, and evaluate 
the results. By combining ATF's assets involving technical explosives 
expertise, criminal and regulatory enforcement experience, and 
partnership with industry and law enforcement, we are able to 
continually assess risks and focus resources appropriately. It is 
through this dynamic process that ATF is best prepared to accomplish 
our vision of ``Working for a Safer and More Secure America Through 
Innovation and Partnership.''

                        INTELLIGENCE/TECHNOLOGY

    ATF recognized the opportunity to perfect intelligence support 
internally and externally, and created an Office of Strategic 
Intelligence and Information (OSII) last year. The new directorate, 
headed by a new assistant director, ensures that ATF accomplishes its 
missions and that our special agents and inspectors/investigators 
receive the necessary information to disrupt criminal organizations and 
individuals that threaten public safety. This arrangement aligns with 
the E-Government aspect of the President's Management Agenda, the DOJ's 
strategic goals relating to the enforcement of Federal laws and 
protection of America against terrorism and violent crime, and the 
Attorney General's priorities, including the Law Enforcement 
Information Sharing Program and VCIT.
    OSII's mission is to provide timely, accurate, and focused 
intelligence through the collection and analysis of information, to 
enhance decision-making for all Bureau customers. The creation of OSII 
was a big step toward enabling ATF to put its information to the best 
possible use. The intelligence process is a continuous loop in which 
data are gathered, evaluated, and analyzed. Analytical reports are then 
distributed to end users, including the source of the original 
information. The dynamic exchange of intelligence information between 
Headquarters and field offices allows ATF to leverage data collection 
and analytical expertise to aid in providing accurate and timely 
intelligence support. The ultimate outcome of these efforts will be 
better information to investigators, which could help prevent future 
incidents.
    ATF's laboratories are an invaluable resource in perfecting ATF 
cases and in serving as a resource for State and local law enforcement. 
ATF's laboratory system is composed of the National Laboratory Center 
(NLC) in Ammendale, Maryland, and the regional laboratories in Atlanta, 
Georgia, and San Francisco, California. The laboratories are equipped 
with state of the art forensic and scientific technologies. Whether 
performing fire debris analysis, tool mark comparisons, explosives 
scene evidence examinations, searching for the presence and comparing 
identifiable latent fingerprints, or examining trace evidence from 
crime scenes such as hair, paint, or fibers, the ATF's laboratory 
personnel provide the finest laboratory service in the Federal 
Government.
    The NLC is also the home of the ATF National Firearms Examiners 
Academy. Attendees from State and local law enforcement agencies attend 
this rigorous 1-year program to become firearms and toolmark examiners, 
qualified to confirm a ballistic link between two crimes and to analyze 
firearms evidence. This program has become the benchmark for training 
in this field. The NLC also houses the Fire Research Laboratory.
    ATF is a valued participant in the Terrorist Explosive Device 
Analytical Center, or TEDAC, operated at the FBI laboratory in 
Quantico, Virginia. At this center, ATF and other partners analyze 
explosive devices from Iraq and Afghanistan, in an effort to identify 
bombers and to prevent further attacks. Experts work to technically 
evaluate IED components to identify similarities and potential bomb 
makers, provide timely intelligence to military and law enforcement, 
and collect latent prints and DNA from terrorist IEDs to link the same 
person to similar devices. Four ATF employees work full-time at the 
center, providing their technical expertise in identifying components 
of IEDs. TEDAC has provided invaluable assistance to U.S. military and 
intelligence personnel in preventing fatal detonations of IEDs and in 
tracking down bombing suspects. This is a great example of how we are 
working within DOJ to prevent terrorism, and contributing our knowledge 
to a common goal.

                            SPECIAL PROGRAMS

    Several of ATF's programs, such as the National Response Team 
(NRT), Special Response Team (SRT), and the canine program, strengthen 
our efforts in firearms, explosives and arson, and alcohol and tobacco 
diversion. They contribute to our missions of preventing terrorism, 
reducing violent crime, and protecting the public.
    In the wake of a major fire or explosives incident, law enforcement 
investigators can rely on the expertise and advanced technology of 
ATF's NRT. Capable of responding within 24 hours to major explosives or 
fire incidents, NRT members work alongside State and local officers in 
reconstructing the scene, identifying the seat of the blast or origin 
of the fire, conducting interviews, sifting through debris to obtain 
evidence related to the explosion and/or fire, assisting with the 
ensuing investigation, and providing expert court testimony.
    Deployed teams include highly trained special agent CFIs, CESs, 
FPEs, forensic mappers, EEOs, and chemists. Intelligence and audit 
support, and technical and legal advisors further complement the team. 
The teams use state-of-the-art tools, including specialized response 
vehicles, each equipped with forensic, computer, and crime scene 
mapping equipment.
    In its 25 years, the NRT has responded to nearly 600 fires and 
explosive incidents, with 32 NRT callouts in fiscal year 2004 alone. 
The effectiveness of this response capability and the expertise of the 
team members were evident in the NRT's responses to incidents, such as 
the 1993 World Trade Center and 1995 Oklahoma City Federal Building 
bombings and the 2001 attack on the Pentagon. NRTs have investigated a 
wide range of events, including the deadly fire at the Dupont Plaza 
Hotel in Puerto Rico in 1986, in which 97 people were killed in less 
than 12 minutes. Analysis of the quick and deadly spread of this fire 
gave valuable information about fire protection measures that could 
prevent such extensive loss of life in future buildings.
    One of ATF's major assets in the fight against violent criminals is 
our SRTs consisting of some of the bravest, most dedicated, and most 
professional special agents in Federal law enforcement. The special 
agents on these teams conduct high-risk tactical operations such as 
arrest warrants, search warrants, and buy/bust operations. These are 
ATF's ``best of the best'' when it comes to tactical experts. The SRT 
was called out 108 times in fiscal year 2004, and its expertise is 
critical to our success in confronting crisis incidents.
    ATF's explosives and accelerant detection canine program also plays 
a critical role in ensuring public safety. ATF's unique training 
methodology enables its 35 explosives detection canines to find 
explosives and gunpowder residue, IEDs, post-blast debris, firearms, 
ammunition, bulk explosives, and spent shell casings. The canines can 
detect explosives used in up to 19,000 known explosives compounds. Our 
60-accelerant detection canines help to identify potential points of 
origin at a fire scene. In addition to supporting local authorities, 
the canines respond with the NRT and are used by ATF field offices on a 
case-by-case basis. ATF-trained canines are also deployed to other 
Federal, State, and local law enforcement agencies.
    Although the original goal of the explosives detection canine 
program was to locate explosive devices, these canines have also proven 
themselves to be a valuable asset in firearms investigations through 
their ability to locate hidden firearms and ammunition. Using this 
existing asset in a new way has been invaluable during search warrants 
and following shootings when other means of locating firearms, 
ammunition, and spent shell casings have failed.

                             INTERNATIONAL

    ATF's expertise and efforts benefit not only Americans, but law-
abiding citizens worldwide. Through our international activities, ATF 
employees are working to support American interests. As discussed 
earlier, ATF provides post-blast and render safe training for U.S. and 
coalition forces in Iraq and for the Iraqi National Police. ATF also 
has special agents assigned to the Regime Crimes Liaison Office in Iraq 
to assist in the investigation and prosecution of war crimes. Law 
enforcement agencies worldwide use our firearms tracing capabilities to 
gain additional information about crime guns. In fiscal year 2004, ATF 
traced over 27,000 firearms for foreign law enforcement representing 50 
foreign countries. Our international activities enhance public safety 
in many countries worldwide, and in so doing, they protect American 
interests.
    ATF provides extensive support to America's diplomatic activities. 
Regional Security Officers from the Department of State's Diplomatic 
Security Service (DSS) participate in post-blast training led by ATF. 
The training focuses on explosives crime scene processing, management 
and preservation, and includes explosives identification and effects. 
Other countries have benefited from ATF's expertise in training 
explosives detection canines: through a partnership with the Department 
of State, ATF has trained approximately 450 canines for international 
law enforcement agencies since the program's inception in 1990. Also, 
our International Response Team (IRT) deploys in support of DSS 
investigative responsibilities and foreign government requests. The IRT 
has been deployed 24 times in response to fire and explosives incidents 
since its inception in 1991, most recently to investigate a deadly fire 
in Paraguay. ATF investigators quickly determined the cause and origin 
of this fire, which claimed 456 lives.
    Attache offices in Canada, Mexico, France, and Colombia support law 
enforcement within those countries and help ATF achieve our firearms 
and explosives missions. Our international work with IEDs provides 
insight into the tools used by international terrorists, and this 
information is critical to the protection of our homeland. With the 
Department's support, I am examining ATF's international presence to 
identify instances where a stronger international presence would help 
reduce violent crime and reduce our Nation's vulnerability to 
terrorism.
    ATF works with agencies worldwide to prevent firearms from reaching 
the hands of organized criminal gangs, drug traffickers, terrorist 
organizations, and other criminals. ATF enforces provisions of the Arms 
Export Control Act (AECA), and has primary jurisdiction over permanent 
firearms and ammunition imports. The Department of State administers 
the temporary import and export provisions of the AECA, and the 
Department of Homeland Security enforces all AECA provisions at U.S. 
ports and borders.
    ATF personnel are also included on U.S. delegations to the United 
Nations, the Organization of American States, and the Group of Eight 
when these bodies are negotiating instruments relating to firearms, 
ammunition, and explosives. The Department of State values the 
expertise ATF personnel bring to the delegations, which is crucial in 
ensuring that treaties resulting from such negotiations include 
effective measures to combat international trafficking and terrorist 
access to these dangerous commodities. ATF participation is also 
essential to ensure that binding international agreements do not 
obligate the United States to implement policies that impose undue 
burdens on sportsmen, firearms enthusiasts, and the firearms industry.

                              PARTNERSHIPS

    At ATF, we believe that working together is not just a good idea--
it is a matter of national security. Our agency has a long history of 
collaborating effectively with other Federal, State, and local law 
enforcement agencies; in fact, other Federal, State, and local agencies 
consistently turn to ATF because of our expertise and our commitment to 
partnerships.
    We are proud to be part of the Department of Justice, and to 
contribute our efforts toward reaching the Department's strategic 
goals. We are participating in Joint Terrorism Task Force (JTTF) 
operations, and working to improve information sharing between 
agencies. We share our expertise in firearms, explosives, and alcohol 
and tobacco diversion, as part of our robust support for joint efforts 
to counter the grave threat of terrorism. We make significant 
contributions to the law enforcement community, and our presence within 
the Department helps use the benefits we provide more effectively. This 
transition has provided both financial and operational efficiencies, 
which have improved effectiveness. Former Attorney General Ashcroft and 
Deputy Attorney General Comey have provided invaluable support to ATF, 
and this productive and supportive relationship is continuing with 
Attorney General Gonzales.
    As I mentioned, ATF contributes to the Department of Justice's 
fight against terrorism through the JTTF program. Sixty-four ATF 
personnel are assigned to JTTFs across the Nation, and others support 
the remaining JTTFs as needed. ATF personnel assigned to JTTFs perform 
multiple roles: they function as in-house experts on firearms and 
explosives violations and on tobacco diversion; they act as liaisons 
between the FBI and ATF at the local level on intelligence matters; and 
they are a vital part of the joint investigative team that is truly the 
backbone of the JTTF mission.
    ATF fosters innovation and cooperation in the explosives 
investigation community through its partnerships with other agencies, 
through liaison efforts with the legal explosives industry, and through 
research and development efforts. ATF works closely with other Federal 
agencies and with the academic and scientific communities, to conduct 
research and monitor developments in explosives research, blast 
mitigation, and explosives detection. Such agencies include the 
Department of State, the Department of Defense, the Transportation 
Security Administration, and others. ATF representatives also serve as 
co-chairs and task managers on several research efforts funded through 
the Technical Support Working Group (TSWG). The TSWG is administered by 
the Department of Defense under the auspices of the National Security 
Council. The principal mission of the TSWG is to conduct rapid 
research, development, and prototyping of multiple use technologies for 
law enforcement and military purposes. ATF also has collaborative 
research partnerships with Oak Ridge National Laboratory; Lawrence 
Livermore National Laboratory; University of Missouri, Rolla; and 
University of Massachusetts, Lowell. Also, ATF closely and regularly 
collaborates with representatives of foreign governments, including the 
United Kingdom, Israel, and Canada.
    ATF employees hold key positions in many prestigious professional 
organizations. Since 1990, an ATF agent has chaired the Arson and 
Explosives Committee of the International Association of Chiefs of 
Police. Similarly, ATF has maintained outstanding relationships with 
the International Association of Bomb Technicians and Investigators, 
the International Association of Arson Investigators, and the National 
Bomb Squad Commanders. Also, as stated previously, ATF has a 
partnership with the National Shooting Sports Foundation in conducting 
the ``Don't Lie for the Other Guy'' program which provides essential 
education for FFLs.
    ATF leverages its resources to better inform, advise, and educate 
its stakeholders and customers. In partnership with The Fertilizer 
Institute, ATF's voluntary ``Be Aware for America'' campaign raises the 
awareness of industry, law enforcement, and the public of the need for 
vigilance in connection with the sale and security of ammonium nitrate. 
This chemical mixed with fuel oil was used in the Oklahoma City 
bombing. ATF later launched, again in partnership with The Fertilizer 
Institute, the voluntary ``Be Secure for America'' campaign, which 
focuses on the safe storage and transportation of ammonium nitrate.

                  STRATEGIC PLAN/JURISDICTIONS/VISION

    ATF is striving every day to meet the strategic goals of the 
Attorney General and Department of Justice: preventing terrorism and 
promoting the Nation's security; enforcing Federal laws and 
representing the rights and interests of the American people; and 
assisting State, local, and tribal efforts to prevent or reduce crime 
and violence.
    With the Department's goals in mind, ATF created an internal set of 
strategic goals consisting of the following: Preventing violent crime 
and terrorist related crime involving firearms; providing effective 
arson and explosives investigative and technical expertise to protect 
the public from violent crime and terrorism; and preventing illegal 
domestic and international trafficking of alcohol and tobacco products.
    Firearms, explosives, and arson are the tools of terrorist groups 
and ATF's role in firearms and explosives enforcement is significant in 
the battle against terrorism. ATF, while working against violent 
firearms crime, is also helping to prevent terrorism by monitoring and 
investigating violations of the Federal firearms and explosives laws. 
ATF is preventing violent crime through its own enforcement efforts and 
its effective partnerships with other agencies.
    ATF prides itself on its assistance to State and local law 
enforcement agencies, supporting the third DOJ strategic goal to 
``assist State, local, and tribal efforts to prevent or reduce crime 
and violence.'' As discussed earlier, ATF makes a wealth of resources 
available to State and local law enforcement agencies, including expert 
investigators, ballistic comparison technology, and explosives incident 
information.
    ATF's jurisdictional responsibilities are directly related to 
efforts to combat violent crime on America's streets. ATF, as the lead 
Federal law enforcement agency fighting violent firearm crime, enforces 
the Gun Control Act of 1968 (GCA), the National Firearms Act, and other 
related statutes. In section 101 of the GCA, Congress declared that its 
primary purpose was to ``provide support to Federal, State, and local 
law enforcement officials in their fight against crime and violence.'' 
I would note that the GCA section goes on to state that it is not 
intended to ``place any undue or unnecessary Federal restrictions or 
burdens on law-abiding citizens with respect to the acquisition, 
possession, or use of firearms appropriate to the purpose of hunting, 
trapshooting, target shooting, personal protection, or any other lawful 
activity . . .'' I want to assure the committee that ATF is mindful of 
this provision while maintaining a vigorous enforcement of all Federal 
firearms laws.
    Mr. Chairman, ATF's dual role to enforce and administer Federal 
explosives laws is unique. While ATF agents investigate bombings, 
unlawful distributions of explosives, thefts of explosives, and other 
violations of the Federal explosives laws, ATF inspectors/investigators 
are carrying out the vital work of insuring the integrity of explosives 
as they move through commerce. While other agencies may have the 
resources to respond to and investigate explosives incidents, only ATF 
regulates the legal explosives industry, and only ATF is responsible 
for tracking and investigating explosives losses and thefts.
    The Anti-Arson Act of 1982 gave ATF broad-based jurisdiction in 
arson offenses. ATF's arson enforcement efforts are directed toward 
preventing the crime of arson, providing effective post-incident 
response, and reducing the community impact of crimes involving fire. 
ATF enforces Federal laws related to alcohol and tobacco diversion, and 
is applying its past experience in governing and regulating these 
products of commerce to investigating the violent crimes that often 
accompany diversion activity.
    Even as we work to solve the problems of the present, we have 
developed a strategic vision for the future. Pursuing this vision will 
help us to remain an effective and respected law enforcement 
organization while adapting to changing circumstances. We are working 
on using what we know to its maximum effectiveness--sharing 
intelligence information, ensuring that employees have the training and 
technology to accomplish their work effectively, and communicating with 
the public. We are focusing on working together--maintaining the 
partnerships that sustain us, and ensuring that administrative actions 
and personnel policies support ATF's fulfillment of its missions. And 
we are growing with purpose--seeking out opportunities to expand our 
contributions, focusing on prevention, and focusing our efforts 
internationally as well as here at home. Abiding by these principles 
will enable us to work most effectively and get the best results for 
the American people.

                               MANAGEMENT

    Mr. Chairman, ATF is a well-managed and effective organization, and 
external evaluations of our abilities confirm this. In the last 2 
years, the Office of Management and Budget has evaluated ATF's 
explosives and arson programs and our firearms programs. In each 
review, we received some of the highest scores achieved by Federal law 
enforcement programs. Also, as part of the President's Management 
Agenda, the Office of Personnel Management sponsored a survey of 115 
Federal subcabinet agencies. On this survey of employee satisfaction, I 
am proud to say that ATF ranked eighth, the highest of any law 
enforcement agency.
    With the continued support of the Department and this subcommittee, 
we will continue to provide innovative management and personnel 
projects such as the Pay Demonstration project. This program uses an 
alternative to the General Schedule pay scale so that pay is more 
directly based on performance. This program has allowed ATF to recruit 
and retain technically skilled employees, especially those with 
science-based skills and intelligence research capabilities.
    We are also implementing a Bureau-wide telework program. We 
recognize the many benefits of telework, including improved work 
operations, better customer service, improved employee morale, 
assistance with recruitment and retention efforts, and reduced traffic 
on area highways. After two successful telework pilot programs in the 
last 2 years, we recently conducted an analysis of all positions at 
ATF, and concluded that 1,300 positions were suitable for telework. 
Employees who occupy these positions have been notified that they may 
apply for a telework arrangement. In the next few weeks, managers and 
supervisors will review employee requests to telework, and begin 
implementing telework agreements.
    The ATF Headquarters building is being constructed here in 
Washington, DC, and is promising to be a model of future Government 
construction. The facility will combine security and advanced design 
technology for an environmentally friendly and cost-effective facility. 
ATF is scheduled to move to its new Headquarters in 2006.

          FISCAL YEAR 2006 PRESIDENT'S BUDGET REQUEST FOR ATF

    Congressional funding for ATF in past years is money well invested 
in the safety of the American people. The President's Budget for fiscal 
year 2006 requests $923,613,000 and 5,128 full-time equivalent (FTE) 
positions. I believe these additional investments will provide 
essential benefits to the American people.
    One important new initiative will provide for the expansion of the 
VCIT program I mentioned earlier. Because VCIT has proven so 
successful, the Administration has requested $30.3 million and 150 FTEs 
to establish a VCIT base in 10 additional cities that have experienced 
an increase in armed violence in specific geographic areas or have not 
followed the national trend of reduced homicides and armed violence. 
Establishing a VCIT base in a total of 25 cities will offer more 
Americans the opportunity to enjoy safer neighborhoods again.
    Additional funding will also enable us to increase our 
participation in TEDAC. Four ATF employees currently work with experts 
from other agencies to identify components of IEDs. The $6 million will 
provide two additional special agents to analyze the devices and to 
continue intelligence support to law enforcement and military 
organizations to work against the threat of terrorist IEDs.
    The funds will also provide for the creation of a new database that 
will record, inventory, and catalog IEDs used in Iraq and Afghanistan. 
This database would use association software to identify similarities 
between explosives events and devices, and to match characteristics of 
bombings/bombers in real time, including latent prints, DNA reports, 
components of the explosives, and other forensic information. We will 
have the ability to extract information from the database and share it 
with State, local, and international law enforcement partners. The 
development of the database would be a partnership led by DOJ's Chief 
Information Officer and coordinated by ATF and the FBI.

                               CONCLUSION

    Mr. Chairman, Ms. Mikulski, members of the subcommittee: On behalf 
of the men and women of ATF, I thank you for your support of our 
crucial work. In the last year, we have worked to stop those whose 
violent and criminal behavior threatens the peace of our communities. 
We have investigated explosives incidents and arsons. We have helped to 
ensure that the firearms and explosives industries operate safely and 
lawfully. And we have shared our knowledge with other law enforcement 
personnel through extensive training programs and effective 
partnerships. Yet I believe that our greatest achievements are still to 
come. We have made much progress--but we know there is much more to do. 
We are determined to succeed in our missions of reducing violent crime, 
preventing terrorism, and protecting the public. And we look forward to 
working with you to pursue this goal.

                    Federal Bureau of Investigation

STATEMENT OF HON. ROBERT S. MUELLER, III, DIRECTOR
    Senator Shelby. Director Mueller.
    Mr. Mueller. Good morning, Mr. Chairman, Senator Mikulski 
and members of the subcommittee. I thank you for the 
opportunity to appear here today in front of you for the first 
time. I am sure it will not be the last.
    My prepared statement sets forth the FBI's 2006 budget 
request and the program areas in which we seek expansion, but 
for purposes of my opening remarks, I would like to briefly 
address two of the areas that I believe are most important to 
the FBI's continuing success. The first is the progress we have 
made in establishing the Directorate of Intelligence, and the 
second is the improvement and expected improvement in our 
information technology.

              <greek-l>FBI deg.DIRECTORATE OF INTELLIGENCE

    Let me spend a moment on establishing the Directorate of 
Intelligence. In response to direction from the President and 
the Congress, including the findings of the Joint Intelligence 
Committee inquiry, the 9/11 Commission, and the Intelligence 
Reform and Terrorism Prevention Act of 2004, we established the 
Directorate of Intelligence earlier this year. This directorate 
has clear authority and responsibility over all of our FBI 
intelligence functions. This newly established directorate is 
comprised of a dedicated headquarters element that sets policy 
and direction to be carried out by all of our embedded 
elements, and then with embedded intelligence entities in each 
of our headquarters operational divisions, as well as embedded 
intelligence entities in every one of our FBI field offices. 
And these entities are called the field intelligence groups.
    These field intelligence groups are central to the 
integration of the intelligence cycle into our field 
operations, and they include special agents, analysts, language 
specialists, surveillance specialists, as well as officers and 
analysts from other intelligence and law enforcement agencies. 
They are responsible for coordinating, managing, and executing 
all of the functions of the intelligence cycle and have 
significantly improved the FBI's intelligence capabilities and 
capacity.
    Our efforts to date have focused on aligning our processes 
with partners and customers outside the FBI and increasing our 
intelligence production. We have had over the last year a 312 
percent increase in the dissemination of intelligence 
assessments and over a 200 percent increase in the 
dissemination of intelligence information reports.
    We have also made substantial progress over the last year 
toward expanding and strengthening our intelligence workforce. 
In fiscal year 2005 we initiated a plan to accelerate the 
interviewing and processing of applicants residing in the 
Washington, DC, and Baltimore region. We had a 1-week vacancy 
announcement advertised in 2005 for analysts and it yielded 
over 2,800 high-qualified applicants for the analyst position. 
We have filled 533 of these positions to date, and have a 
hiring objective of 880 analysts by the end of this year.
    In order to continue to build on the progress we have made 
to date, we are taking measures to assure a consistent level of 
knowledge across our workforce, and we have instituted 
mandatory training for analysts. We have also taken steps to 
strengthen the special agent component of the workforce.
    First, in this coming year we are establishing a clear path 
that gives all agents experience in intelligence collection, 
analysis, and dissemination. We also are building the capacity 
of agents to develop specialized skills, experience, and 
aptitudes in one of five areas including counterterrorism, 
counterintelligence, and intelligence. We are making an 
intelligence officer certification a prerequisite for 
advancement to the senior supervisory ranks. All of this is 
important and key to achieving full integration of the 
intelligence operations with our law enforcement operations.
    I mention this, Mr. Chairman, because if you look at many 
of the requests that we have in this upcoming year, those 
requests are supportive of our building this Intelligence 
Directorate within the FBI. We continue to make progress in 
strengthening this capability and we absolutely believe that 
establishing this capability is instrumental to preventing 
attacks in the future.
    Let me add, as I discuss the Intelligence Directorate, a 
note to say that we are currently reviewing the recommendations 
of the Weapons of Mass Destruction (WMD) Commission. As you 
know, the Commission recently completed its report and offered 
a number of recommendations for the FBI as well as for the rest 
of the intelligence community. The Commission's work makes a 
significant contribution to understanding ways we can improve 
our intelligence capabilities, and we are looking forward to 
continuing to build and reform our national security program in 
light of the Commission's recommendations, and I believe you 
will find that a number of our requests in the 2006 budget are 
supportive of that goal.

                   <greek-l>FBI deg.SENTINEL PROJECT

    Let me turn for a second to the second area that I wish to 
discuss, and that is information technology. We absolutely 
recognize the importance of strong information technology as a 
backbone if we are to effectively collect, analyze, and share 
intelligence both within the FBI but also with our intelligence 
and law enforcement partners.
    Mr. Chairman, we are committed to delivering to the 
desktops of the men and women of the FBI the enhanced 
technology capabilities they need and deserve. I believe that 
overall the Trilogy program was successful. I have before and 
continue to acknowledge that the Virtual Case File aspect of it 
was not successful. Yet our efforts to enhance our information 
technology during the past several years have provided us with 
a much improved understanding of program management as well as 
technical expertise. We are in a much better position to shape 
the FBI's next generation of electronic information management. 
This next generation, as I believe you have noted, is called 
SENTINEL and it remains one of my highest priorities.
    This new system called SENTINEL is different from the 
Virtual Case File Program in a number of ways. I believe you 
have a chart that illustrates the additional capabilities that 
will be available under SENTINEL, capabilities that were not 
contemplated as a part of Virtual Case File when Virtual Case 
File was on the drawing boards in 2000 and 2001.
    And while I am, as I expressed here before, disappointed at 
the time and effort and monies that were expended on Virtual 
Case File without success, I do believe we have an opportunity 
to provide our employees more of what they need to do their 
jobs.
    A major difference between SENTINEL, the new system, and 
Virtual Case File is that SENTINEL represents our first step in 
deployment of a service-oriented architecture, what is known in 
the trade, I believe, as SOA. That means that SENTINEL will 
serve as a platform for the gradual deployment of capabilities 
and services needed by all FBI divisions. At the same time, we 
will gradually roll out key technical services through the 
SENTINEL program, such as automated work flow, search 
capabilities, records and case management and reporting 
protocols, rather than doing it through one massive flash cut-
over as was contemplated by Virtual Case File.
    The service-oriented architecture will raise our business 
practices to the next level by providing enhanced capabilities, 
new services, and better efficiency, while also ensuring a 
smooth transition from our legacy applications to a more state-
of-the-art technical platform. This special oriented 
architecture will further support the FBI's mission by helping 
manage our investigative, administrative and intelligence needs 
while also improving ways to encourage information sharing 
among our counterparts.
    SENTINEL is a four-phase project, each phase developing a 
stand-alone capability to our users. The phased rollout will 
facilitate ease of user transition, training, deployment, and 
support. Phase I will be ready for deployment approximately 12 
months after the contract award date, which we expect to be 
toward the end of this year. We have taken the first step in 
the deployment strategies--I believe your staff has been 
briefed--by selecting our contracting vehicle. Our next step of 
the procurement process is to consider the proposals from 
interested and qualified vendors.
    I know a question that all would ask is what is the cost? 
And let me try to give an answer that may at this point not be 
altogether satisfactory in open session, but we have a cost 
estimate. However, because of the procurement process and the 
sensitivity of the procurement process, our preference would be 
to discuss those with you off the record.
    Let me just say, as we complete the remarks on the 
technology, that I fully understand the scrutiny that is 
necessary and appropriate to ensure that the SENTINEL Project 
is successful from beginning to end, and we have implemented a 
number of undertakings to ensure that that will be the case.
    In conclusion, Mr. Chairman, thank you again for the 
opportunity to testify before you today and to highlight the 
importance of both the Directorate of Intelligence as well as 
our plans for SENTINEL.

                           PREPARED STATEMENT

    In closing, I will also refer to the comment that I believe 
you may have made, that is, we are looking forward to working 
with the new Director of National Intelligence, Ambassador 
Negroponte. We expect to support him and his efforts in any way 
we can. The expansion of our intelligence capabilities I 
believe fits directly into what he anticipates he needs in 
assuring that he is able to bring together domestic 
intelligence with intelligence that is derived from overseas.
    I also would be happy to answer any questions you have, Mr. 
Chairman.
    Senator Shelby. Thank you.
    [The statement follows:]

              Prepared Statement of Robert S. Mueller, III

    Good morning, Mr. Chairman, Senator Mikulski, and Members of the 
Subcommittee. I am pleased to appear before you today with Attorney 
General Gonzales and I appreciate the opportunity to discuss the 
President's fiscal year 2006 budget for the Federal Bureau of 
Investigation (FBI). I would first like to express my gratitude for the 
continued support and guidance you have provided the FBI as we continue 
our efforts to ensure that we are able to address current threats and 
keep America safe from those who would do us harm. Specifically, I 
would like to thank you for recently passing the fiscal year 2005 
Supplemental, which included $74 million for the FBI. In addition to 
including critical funding for the FBI's operations in Iraq, the 
Supplemental will allow the FBI to improve its efforts at home in the 
war on terrorism.

                          2006 BUDGET REQUEST

    The FBI's fiscal year 2006 budget request totals 31,475 positions, 
including 12,140 agents and 2,745 Intelligence Analysts, and $5.7 
billion. This includes 2,086 new positions--615 agents, 508 
Intelligence Analysts, and 963 support positions--and $496 million in 
new investments to continue strengthening our Intelligence Program and 
support our Counterterrorism and Counterintelligence activities. In 
addition, the fiscal year 2006 budget request includes resources to 
address the FBI's information technology and infrastructure 
requirements. These resources are critical to the Intelligence, 
Counterterrorism, and Counterintelligence Programs, as well as to our 
traditional criminal investigative efforts, and maintain the support we 
provide to our state, local, and tribal partners. The following 
highlights critical areas of operations and support functions.

                               TECHNOLOGY

    Since I last appeared before the Subcommittee in February of this 
year, the FBI has taken significant steps in planning for our future 
case management system. I want to take an opportunity to provide you 
with an update on our plans, and proposed time-line.
    The FBI's commitment to delivering enhanced technology capabilities 
remains resolute. Our efforts with regard to the Trilogy Project 
resulted in a better understanding of program management and technical 
expertise. The lessons learned have resulted in changes that have 
already facilitated successful programs, including the pilot testing of 
VCF Initial Operating Capability (IOC), which concluded at the end of 
March 2005. As a result of VCF IOC, we were able to gain user input 
that will better direct the development and roll-out of future 
capabilities. Additionally, lessons learned have better positioned us 
to shape the FBI's next generation electronic information management 
system, SENTINEL. Successful deployment of SENTINEL remains one of my 
top priorities.
    SENTINEL is different from the VCF program because it will serve as 
a vehicle in which capabilities can be gradually deployed. We will 
roll-out key technical services in phases, such as records and case 
management capabilities, to smoothly transition into the new system 
while retiring legacy applications. SENTINEL will raise our business 
practices to a higher level of performance by providing enhanced 
capabilities, new services and better efficiency. SENTINEL will further 
encourage information sharing within the FBI and among our 
counterparts.
    The current planning has SENTINEL functions divided into four 
phases, which will be incrementally developed and deployed. Each phase 
will deliver stand-alone capabilities. The phases take into 
consideration migration of legacy data and retirement of legacy 
systems. An initial estimate for full development and implementation of 
SENTINEL is 39 to 48 months. The first phase of the development is 
estimated to begin late this calendar year. As I mentioned, SENTINEL 
will replace a number of legacy applications, the most important of 
which is the Automated Case Management System; other applications to be 
replaced include: ASSET; Criminal Informant Management System; Bank 
Robbery Statistical Application; Financial Institution Fraud and 
Integrated Statistical Reporting Analysis Application. Additionally, 
SENTINEL incorporates support for XML standards to facilitate internal 
and external information sharing.
    The total estimated cost of SENTINEL has not yet been finalized, 
but would be distributed over two to four fiscal years. However, 
development costs for each phase will be fully funded in the year in 
which work begins on that phase.

                      DIRECTORATE OF INTELLIGENCE

    At the direction of the Congress and President, the FBI has 
established the Directorate of Intelligence. As required in the FBI's 
fiscal year 2005 Appropriation legislation, the Directorate will lead 
the FBI's integrated, dedicated national intelligence workforce--``A 
Service within a Service.'' The guiding principle for FBI intelligence 
is the integration of law enforcement and intelligence operations. To 
achieve this integration, we use a management principle of centralized 
management and distributed execution. The Directorate establishes 
priorities, processes and policies for intelligence operations that are 
executed by fully integrated intelligence elements in other 
Headquarters offices and the Field. The priorities, processes, and 
policies are fully aligned with those of the Attorney General, and the 
Director of National Intelligence (DNI):
  --This integrated intelligence service leverages our traditional law 
        enforcement culture--with particular attention to the pedigree 
        of sources and fact-based analysis--while ensuring no walls 
        exist between collectors, analysts, and those who must act upon 
        intelligence information.
  --The term ``Directorate'' signifies that intelligence is not the 
        responsibility of one office or one division, but crosses 
        program lines and permeates all we are charged with doing.
  --FBI intelligence professionals will integrate all partners--
        particularly state, local and tribal law enforcement--into our 
        intelligence structures. Through joint operations in a shared 
        information space, we create a common view of the threat and a 
        clear understanding of our respective roles in countering the 
        threat.
    The FBI's fiscal year 2006 budget request includes an enhancement 
of $26 million for the Directorate of Intelligence. The resources would 
strengthen three critical areas: program development; training; and 
recruitment and retention. These areas have been identified as critical 
to the success of our Intelligence Program.
    We are requesting resources to continue restructuring and 
integrating the enterprise-wide Intelligence Program, which would 
enable us to centrally manage our core intelligence functions and 
implement programs, standards, policies, and training for analysts 
consistent with standards to be determined by the Director of National 
Intelligence (DNI). This would also allow us to manage intelligence 
requirements and intelligence collection activities in accordance with 
national intelligence priorities, and to ensure that all intelligence 
gathered and analyzed is disseminated to those who need it, both inside 
and outside the FBI. Our efforts to date have focused on aligning our 
processes with partners and customers outside the FBI, and increasing 
our intelligence production. The FBI had a 312 percent increase in the 
dissemination of intelligence assessments from calendar year 2003 to 
2004, and a 222 percent increase in the dissemination of Intelligence 
Information Reports during that same period.
  --In order to ensure a consistent level of knowledge across the 
        workforce, we have instituted specialized training, which is 
        now mandatory for all FBI Intelligence Analysts. This year, 
        more than 150 analysts have received intelligence training and 
        our goal is to train at least 1,000 analysts by December 2005. 
        In addition, intelligence training has been incorporated into 
        new agent training. As directed in the FBI's fiscal year 2005 
        Appropriation, we are making additional improvements to expand 
        and enhance our training program, to include joint training 
        sessions with other members of the Intelligence Community, 
        creation of a fellows program to exchange staff with other 
        federal agencies and the private sector, and opportunities for 
        academic sabbaticals to pursue advanced degrees. Our fiscal 
        year 2006 request would enhance the basic intelligence analyst 
        course, and provide support for advanced Intelligence Analyst 
        training.
  --We have made substantial progress towards expanding and 
        strengthening our intelligence workforce. As a result of our 
        hiring efforts, we have received overwhelming interest in the 
        Intelligence Analyst position. A one-week vacancy announcement 
        advertised in February 2005 yielded over 2,218 applicants. We 
        have hired 476 Intelligence Analysts through February and have 
        a hiring objective of 880 by the end of the year. The fiscal 
        year 2006 budget request includes resources to continue 
        recruitment and retention initiatives.
    Finally, the FBI has integrated management of the Foreign Language 
program within the Directorate of Intelligence. This integration aligns 
foreign language and intelligence management activities and provides 
for delivery of service across all program areas. At the end of 
February 2005, there were 406 language specialists on-board. In 
addition, we use the services of over 900 contract linguists. This 
represents a 67 percent increase in the number of total linguists since 
9/11. During calendar year 2004, our Language Services program reviewed 
over 532,000 hours of audio and over 1.9 million pages of text in 
support of the counterterrorism and counterintelligence missions. We 
are requesting an enhancement of 274 positions and $26 million in 
fiscal year 2006 to enhance the program's capacity in counterterrorism 
and counterintelligence-related languages, and to integrate a permanent 
staff of linguists within the National Virtual Translation Center.

                            COUNTERTERRORISM

    The FBI is committed to defeating terrorists and preventing 
terrorist attacks. We endeavor to deny terrorists and their supporters 
the capacity to plan, organize, and carry out logistical, operational, 
and support activities. In order to be successful, we must be able to 
develop intelligence about their plans and disrupt their efforts. In 
conjunction with our partners, we will pursue appropriate sanctions 
against terrorists and their supporters. Success is dependent on 
networked information technology systems and the capacity to manage and 
share information effectively. Resources are also critical to the 
mission. In fiscal year 2006, we are requesting an enhancement of 791 
positions, including 468 agents, and $122 million for national security 
field investigations.
    A critical mission within the Counterterrorism Division is the 
Foreign Terrorist Tracking Task Force (FTTTF). FTTTF was created in 
response to Homeland Security Presidential Directive-2 (HSPD-2). The 
mission of the FTTTF is to provide information that helps keep foreign 
terrorists and their supporters out of the country or leads to their 
exclusion, removal, surveillance, or prosecution. The FTTTF specializes 
in combining public, proprietary and government data sources to support 
the FBI's counterterrorism mission, including support to other U.S. and 
international operations.
    Current collaborative partners and key players include: FBI's 
Counterterrorism Division--National Joint Terrorism Task Force; Central 
Intelligence Agency; Department of Defense; DOD Counterintelligence 
Field Activity; Department of State; and Department of Homeland 
Security.
    In February 2005, the FBI and DHS executed an agreement to provide 
for the sharing of information from the US-VISIT and Student and 
Exchange Visitor Information Systems (SEVIS) programs. As a result of 
the agreement, the FBI will be able to retrieve and analyze all of the 
biographic and biometric data on foreign travelers and students 
collected in US-VISIT and SEVIS. FBI personnel will be able to access 
this information through the Investigative Data Warehouse and FTTTF 
databases, as well as through established user accounts at FBIHQ and 
field office.
    The agreement requires the FBI to verify information and coordinate 
with DHS before taking action on leads or disseminating intelligence 
products developed as a result of information under this shared 
agreement. It also broadly provides the FBI authority to share US-VISIT 
and SEVIS information as necessary with other federal, state and local 
personnel.

                       TERRORIST SCREENING CENTER

    The Terrorist Screening Center (TSC) is a multi-agency effort 
designed to consolidate the screening process for known and suspected 
terrorists, and to provide for the appropriate and lawful use of 
terrorist information. The TSC operates 24/7 to provide a unified 
approach to terrorist screening. Through February 2005, TSC received 
21,650 calls (over 3,500 from state and local law enforcement), made 
over 11,300 positive identifications, and assisted in over 340 
arrests--including six with a terrorism nexus. For fiscal year 2006, we 
are requesting an increase of 61 positions, to include six Intelligence 
Analysts and eight agents, and $75 million. These resources would 
provide the TSC with the ability to not only continue fulfilling the 
TSC's mission as mandated by Homeland Security Presidential Directive 
6, but also begin to address the requirements generated by several 
other initiatives--more stringent screening at United States borders, 
new requirements for the government to screen passengers on domestic 
and international flights without unduly delaying commerce or travel, 
and ensuring organizations receiving public funds do not have terrorist 
links. TSC projects that its workload will increase by up to 3 million 
queries per day by fiscal year 2006.

                          COUNTERINTELLIGENCE

    As the lead counterintelligence agency in the United States, the 
FBI is responsible for identifying and neutralizing ongoing national 
security threats. In counterintelligence, we are alert to the potential 
of a foreign power to penetrate the United States Intelligence 
Community and to compromise Critical National Assets. We are also 
deeply concerned about an agent of a hostile group or nation producing 
or using weapons of mass destruction. Furthermore, the players in the 
espionage game have diversified. We are no longer dealing exclusively 
with intelligence agents. Today the threat can just as easily come from 
students, business executives, or hackers.

                  OFFICE OF CHIEF INFORMATION OFFICER

    In fiscal year 2006, we are also requesting an enhancement of $7 
million to provide contract support for the Office of the Chief 
Information Officer. With these resources, we will be able to better 
ensure that disciplined processes are applied to our project management 
activities and that our projects accurately reflect operational 
requirements and our architecture standards while supporting our 
information technology systems development and engineering.

     INTEGRATED AUTOMATED FINGERPRINT IDENTIFICATION SYSTEM (IAFIS)

    We appreciate the support you provided us for the Integrated 
Automated Fingerprint Identification System (IAFIS) program in the 
fiscal year 2005 Appropriation language. It allows us to move forward 
with our plans to modernize our hardware and software to ensure 
interoperability and increased information sharing with other agencies 
through use of emerging technologies. In fiscal year 2006, we are 
requesting an increase of $16.8 million for Next Generation IAFIS to 
improve its speed and accuracy, allow for flat print capture, and 
enhance the Criminal History Record Information Database. These 
initiatives will support both our state and local partners and the 
security of our nation's borders.

                      LAW ENFORCEMENT ONLINE (LEO)

    We are also focused on developing technology to promote information 
sharing with our state and local law enforcement partners. The FBI is 
requesting an increase of $8 million to upgrade the Law Enforcement 
Online (LEO) network with cost effective solutions to accommodate law 
enforcement user and content growth, and to conduct annual security 
audits, reviews, and technology assessments to ensure LEO remains 
compatible with emerging technologies and customer needs. As of March 
1, 2005, LEO supported over 41,000 users. In addition to the current 
LEO user base, there are approximately 17,000 Regional Information 
Sharing System users who have the ability to access LEO. During fiscal 
year 2004, the FBI added more than 4,000 National Alert System, or NAS, 
users. NAS provides immediate notification regarding crisis events.

                          OVERSEAS COOPERATION

    International cooperation has been, and will continue to be, 
crucial to effectively prevent and disrupt terrorist networks. We are 
continuing to develop foreign partnerships through expansion of our 
Legal Attache program. Currently, we have 51 Legal Attache offices 
open, covering over 200 countries around the world, supporting our 
efforts to neutralize transnational threats. We anticipate opening 
three additional Legal Attache offices by the end of this year: Kabul, 
Afghanistan; Sofia, Bulgaria; and Sarajevo, Bosnia. In fiscal year 
2006, we are requesting an enhancement of 60 positions and $11 million 
for the Legal Attache program and related information technology 
infrastructure requirements. We propose to open one new office and to 
enhance our presence in several existing critical locations. Augmenting 
the Legal Attache presence overseas will provide an operational benefit 
by reducing the span of control of affected offices, resulting in more 
manageable workloads to address terrorist and criminal investigations. 
Foreign law enforcement cooperation is a central ingredient in fighting 
the international war on terrorism, and an effective Legal Attache 
program is essential to maintaining our success in this area.

                      INFRASTRUCTURE IMPROVEMENTS

    The last few years have seen rapid reorganization and expansion of 
our organization. We have undergone much change and hired many new 
personnel. One of our highest priorities has been maintaining the 
strength of our workforce. We conducted a study in 2004 to improve the 
hiring process of support personnel. The study's recommendations 
included streamlining several business practices and realigning 
resources to more effectively execute our hiring efforts. The majority 
of these recommendations are in the process of being implemented. For 
fiscal year 2005, we have initiated a plan to accelerate the 
interviewing and processing of applicants residing in the Washington, 
DC and Baltimore region for the FBI's top priority programs, including 
the Directorate of Intelligence, in an effort to achieve this year's 
hiring goals.
    As we expand our hiring, our training capacity must improve as 
well. In fiscal year 2006, we are requesting $15 million to continue 
addressing the more pronounced deficiencies at the FBI Academy. We need 
to ensure that our facilities at the FBI Academy are suitable for 
training agents and Intelligence Analysts, as well as maintaining our 
support of the National Academy. Quantico provides training to an 
average of 1,500 intelligence and law enforcement personnel each day. 
We are renovating and modernizing our facilities in order to meet the 
demands of our new intelligence-driven training initiatives.
    As part of our initiative to improve physical infrastructure and 
support the counterterrorism mission, we are requesting $10 million in 
construction funding to conduct architectural and engineering studies 
for a new Critical Incident Response Group (CIRG) facility. The funding 
would also be available for the purchase of land once a suitable 
location is found. A new complex would provide for adequate training 
space, and would allow CIRG's executive management, command and 
control, and crisis response elements to be centralized in one 
location.

                    CRIMINAL INVESTIGATIVE DIVISION

    We are also continuing to enhance our Criminal Program. In 2004, we 
realigned our program structure. The realignment maximizes the 
effectiveness of resources, mirrors actual work processes, focuses on 
threats from criminal enterprises, and promotes the collection, 
exchange and dissemination of intelligence throughout the FBI and other 
authorized agencies. In fiscal year 2004, we reported more than 21,000 
arrests, 15,000 indictments, and 16,000 convictions. The focus of the 
Criminal Investigative Program is in areas where we provide a unique 
skill and provide a critical contribution to law enforcement.
    We have placed additional emphasis on targeting violent gangs. 
Gangs and other criminal enterprises operating in the United States and 
throughout the world pose increasing concerns for the international law 
enforcement and intelligence communities. Today, gangs are more 
violent, more organized and more widespread than ever before. They pose 
one of the greatest threats to the safety and security of all 
Americans. The Department of Justice estimates there are approximately 
30,000 gangs with 800,000 members, impacting 2,500 communities across 
the United States. The innocent people in these communities face daily 
exposure to violence from criminal gangs trafficking in drugs and 
weapons, gangs fighting amongst themselves to control or extend their 
turf and their various criminal enterprises, which pose a significant 
threat.
    In response to the threat, we have developed the National Gang 
Strategy. Priority is given to efforts to disrupt and dismantle gangs 
that are national in scope. One of the first to be targeted is MS-13, a 
violent gang that originated in Los Angeles and has spread across the 
country. We have created a National Gang Task Force specifically to 
address MS-13. We are establishing a new National Gang Intelligence 
Center (NGIC) at FBI headquarters, which has been made possible through 
resources the Congress provided this year. The NGIC will collect 
intelligence on gangs from across the United States, analyze this 
intelligence, and disseminate it to help law enforcement authorities 
throughout the country plan and execute strategies to prevent further 
gang activity and violence.
    The FBI views identity theft as a significant and growing crime 
problem, especially as it relates to the theft of consumer information 
from large wholesale data companies. Identify theft has emerged as one 
of the dominant white-collar crime problems of the 21st century. The 
FBI opened 889 investigations related to identity theft in fiscal year 
2004. That number is expected to increase as identity thieves become 
more sophisticated and as the crime is further embraced by large 
criminal organizations, placing more identity theft crime within FBI 
investigative priorities. Identify theft crosses all program lines and 
is usually perpetrated to facilitate other crimes such as credit card 
fraud, check fraud, mortgage fraud, and health care fraud. At present, 
the FBI has over 1,600 active investigations involving some aspect of 
identity theft.
    The National Sex Offender Registry (NSOR) is under the control of 
the Criminal Division's Crime Against Children Section and the Criminal 
Justice Information System (CJIS). As directed by Congress, the FBI 
maintains a national database to track the whereabouts and movements of 
sex offenders. The foremost goal of the Registry is to prevent sexual 
offenders from committing further sex crimes and protecting the public, 
and the NSOR is a critical tool that is educating and protecting the 
public and children from harm. The system uses an FBI number to connect 
information in the National Crime Information Center (NCIC) to existing 
criminal history information in the Integrated Automated Fingerprint 
Identification System (IAFIS). In order for this to occur, the 
convicted offender must have a preestablished FBI criminal history 
record, which can be based on any prior arrest. Recent murders of 
innocent children have highlighted the need to make the public even 
more aware of the NSOR, which is available as a link from the FBI's 
website, fbi.gov, and state and local government agencies.

                               CONCLUSION

    Mr. Chairman, Senator Mikulski, and Members of the Subcommittee, 
the FBI's overriding priority has been protecting America by preventing 
further terrorist attacks. The FBI has made many significant changes, 
and will continue to adapt to protect our country. We have reorganized 
from an agency whose primary focus was law enforcement into an integral 
member of the Intelligence Community. The men and women of the FBI are 
its greatest asset. Working together, Special Agents, analysts, 
scientists, managers, and support employees attack threats as a team, 
with a unified determination to protect our country and our civil 
liberties.
    Once again, I thank you for your strong support of the FBI. It will 
be my pleasure to answer any questions you may have.

                             IDENTITY THEFT

    Senator Shelby. Attorney General Gonzales, I understand 
that some of the Department of Justice's travel card accounts 
may have been compromised recently. Can you describe your 
efforts as they relate to stealing and compromise of account 
and other personal information? In other words, what are you 
doing at the Justice Department in helping to stop identity 
theft?
    Attorney General Gonzales. Mr. Chairman, identity theft is 
regrettably one of the fastest growing crimes in our country. 
One of the consequences, regrettably, of our growing technology 
and the use of the Internet is making it easier for those with 
bad intentions to engage in identity theft.
    The Department's approach is basically three-prong. The 
first is enforcement. In connection with that, of course, there 
was legislation recently passed, the Identity Theft Penalty 
Enhancement Act, which imposes additional penalties above and 
beyond penalties related to the underlying criminal conduct, 
such as credit card fraud. The past few years we have engaged 
in some major sweeps around the country, but clearly, more 
needs to be done.
    Second, in relation to that, we are engaged in a very 
strong educational program providing training to State and 
local officials, and providing education to the public, to tell 
them what is possible, what can possibly be done by these 
criminals, and what good God-fearing citizens can do to protect 
their assets.
    The final component, of course, is to continue to look to 
see whether or not additional legislation is necessary or 
appropriate to deal with this threat. We obviously are very 
concerned about it. I am committed to working with the 
Department of Homeland Security (DHS). I know for Mike Chertoff 
this is a security issue, the fact you have people that are 
able to take the identity of someone else. It does create a 
security issue for this country, and we are committed to 
working with DHS to try to address this problem.
    Senator Shelby. It is involving billions of dollars, is it 
not?
    Attorney General Gonzales. It is a massive problem, yes, 
Mr. Chairman.

              NATIONAL REGISTRY WEBSITE FOR SEX OFFENDERS

    Senator Shelby. Shift to another area. According to the 
National Center for Missing and Exploited Children, there are 
549,000 registered sex offenders in the United States. These 
are people who have been convicted of preying on our families 
and especially our children. They are largely unknown. They 
have a high rate of recidivism. It is estimated that nearly 
100,000 sex offenders do not register, fail to update the 
information, or have just disappeared.
    Last Friday the Department of Justice, under your 
leadership, announced the creation of a national registry 
website for sex offenders. Could you discuss that just a little 
bit, and how is this website different from sites currently 
operated by the Bureau, FBI, and the Bureau of Immigration and 
Customs Enforcement, and will people be able to enter a name 
and the site will search all of the sites it is linked to? How 
will it work, in other words, Mr. Attorney General?
    Attorney General Gonzales. Thank you, Mr. Chairman. The 
Department saw a need to try to provide additional information 
to the public about sex offenders who may possibly be within 
their neighborhoods, and there were too many families crying 
out for information in order to protect their kids. We took 
existing technology with existing information on the websites 
of States and territories who require registration of sex 
offenders, and provided a vehicle free of charge for any 
American who has access to the Internet to simply type in a 
name, a precinct, a county, a ZIP code, a State, and able to 
pull up the names of all registered sex offenders within that 
scope.
    It relies upon State databases, and for that reason, 
obviously, we are dependent upon the information----
    Senator Shelby. Are they interoperable?
    Attorney General Gonzales. Pardon me?
    Senator Shelby. Will the databases be interoperable?
    Attorney General Gonzales. Absolutely. We rely upon the 
States' information, and, therefore, we are dependent upon the 
accuracy of the information within the State. The beauty from 
my perspective is that it does rely upon existing technology. 
The cost is minimal. We have existing funds from 2005 and 2006 
to operate this facility, and obviously we will look for ways 
to find additional funding for future years. But in my 
judgment, it is a good start in providing additional 
information to families.

                             EXPLOSIVES FEE

    Senator Shelby. Mr. Attorney General, the budget request 
proposes a $120 million fee increase that I mentioned earlier 
on the explosives industry. What is your schedule for getting 
this authorization through Congress? Has the authorizing 
language for the fee been transmitted by the administration? 
And if not, when will it be transmitted?
    Attorney General Gonzales. Mr. Chairman, I don't know what 
the schedule is, but I will find out and get that information 
to you. Let me just say that with respect to the administration 
of fees, it has been longstanding administration policy that in 
appropriate circumstances there should be fees charged in 
connection with the administration of certain laws, and this 
would be one such example. But I will get that information to 
you as quickly as I can.

                STATE AND LOCAL LAW ENFORCEMENT FUNDING

    Senator Shelby. I think I mentioned it and Senator Mikulski 
did, too. The funding for State and local law enforcement, the 
proposed cuts here, a lot of us believe they are critical 
partners in homeland security, the war on terrorism, law 
enforcement and so forth. How do you justify the funding cut 
there, Mr. Attorney General? I know it is a tough budget deal.
    Attorney General Gonzales. Mr. Chairman, the budget does 
reflect some very tough decisions. There are priorities within 
this administration, one priority being, of course, the 
protection of this country. And then we have other priorities, 
and regrettably, there may be some good programs that we just 
do not have enough money to fund. And so the budget reflects 
some tough decisions.
    With respect to State and local law enforcement, let me 
first begin by emphasizing that we understand and appreciate 
the importance of cooperation and coordination with State and 
local officials. We cannot be successful unless we have the 
help of State and local officials in addressing not just 
terrorism, but other crimes in this country.
    There are various reasons why certain programs may be cut, 
irrespective of whether or not they are actually good programs. 
For example, we may discontinue funding because the objective 
of the initial funding may have been met, such as the COPS 
program, where initially that was a program created to put 
100,000 cops on the street. We met that objective.
    Second, some programs reflect a one-time grant and, 
therefore, they are not funded again.
    Third, a program, quite frankly, may not score well with 
respect to the OMB standards about whether or not a particular 
program can justify continued funding.
    And, finally, there is a longstanding administration policy 
to sort of discourage funding of programs that are not 
competitively bid, that are sort of earmarked. And so there are 
a variety of reasons why certain programs may receive 
discontinued funding.
    Now, with respect to cuts to State and local law 
enforcement, let me just emphasize there is a tremendous 
increase in the budget within the Department of Homeland 
Security (DHS) to provide monies to first responders. Some 
might argue, well, those are monies that will not find their 
way to the cops on the streets. But, in truth, many of the 
monies will be spent on resources and technology, computers 
that can be shared by first responders, and by the beat cop. 
And so I think it is not a fair assertion to look at the monies 
cut out of these programs and say that the administration is 
somehow not providing resources to State and local officials.
    We are finding other ways to do it, and obviously we are 
working as hard as we can to be more efficient in the monies 
that we continue to provide to State and locals, which is a 
significant amount. But the bottom line is this budget does 
reflect some very tough decisions.

                    PRISON CONSTRUCTION RESCISSIONS

    Senator Shelby. Mr. Attorney General, how do you justify 
ignoring this subcommittee's direction regarding prison funding 
by rescinding funding for two prison construction projects? And 
in your view, does the budget request support the real needs of 
the Federal prison system? It continues to grow. It is 
overcrowded.
    Attorney General Gonzales. It does continue to grow, and it 
is a serious problem. It does require us to become more 
efficient. We are looking at finding ways to be more efficient 
by consolidating facilities, by looking to create prisons that 
are not stand-alone facilities but are located in proximity to 
other Federal facilities so that we can share resources.
    The prisons that we are contemplating to retire are very 
old facilities. They are minimum-bed facilities. We had the bed 
space available with respect to minimum security beds in other 
prisons. We are committed, if these prisons are retired, to 
ensure--we will do our best to make sure that the people that 
are working there have the opportunity to find a job in other 
facilities.
    If you look at the age of the facilities and what it would 
cost to renovate these facilities and provide additional needed 
infrastructure, we believe it simply makes more sense to retire 
these facilities as opposed to continue to try to fund to keep 
these facilities open.
    Senator Shelby. Senator Mikulski.

                 NATIONAL REGISTER FOR SEXUAL PREDATORS

    Senator Mikulski. Thank you, Mr. Chairman. I want my first 
round of questions to be directed at Mr. Gonzales, unless it is 
appropriate for Mr. Mueller to come in, and then in my second 
round to talk about the FBI.
    Mr. Gonzales, I am so pleased in your national budget you 
are talking about how to protect children, and women and 
children. I want to pick up on one question with the National 
Register for Sexual Predators.
    I am so pleased that you have established this registry. 
This is an enormous threat to our own community. In Maryland, 
we have had children die because of sexual predators. Also, 
most recently we have had them lurking around schools and 
playgrounds again, and parents need tools that they can use, as 
well as local crime watch.
    Could I just understand, if I type in a zip code or a 
parent types in a zip code, would then the registry show the 
name of the predator, the convicted predator, and the address 
of the predator?
    Attorney General Gonzales. That is my understanding, 
Senator. You would get that information. Again, the way this 
has been structured, we can do it fairly quickly because we are 
relying upon information that currently already exists in 
databases of States and territories. We are dependent upon the 
information that is within the State databases. But you would 
get that information.
    Senator Mikulski. It will come back to the State databases 
because the Federal funds go to State and local law 
enforcement, which I know many of my other colleagues will 
focus on. In the interest of time, I am going to stick with the 
children's issue.
    This is a really big issue, and we thank you for your 
leadership. We were so dismayed to hear our colleague, Senator 
Schumer, bring to our attention that Medicaid is now paying for 
Viagra for these predators. What a despicable thing. What a 
ripoff of the taxpayer. And we hope that the Department of 
Health and Human Services is going to take action on this, and 
we look forward to your working together on this.
    I would like to compliment your office as well as the FBI 
on the leadership it has taken to protect children not only in 
their community but virtually in what we would call the virtual 
playground. And we are so pleased that it was the FBI through 
its project called Innocent Images, started in Maryland because 
of the death of a child in Maryland, that has really been 
standing sentry on the sexual predators on the Internet, a 
despicable situation. And as we fight our global war against 
terrorism, there are many predators that pose threats in our 
communities, so we want to encourage the ongoing efforts to 
have these efforts to protect our children in our neighborhood 
as well as on Innocent Images. And when you come back, Mr. 
Director, we would like to know that is not being shortchanged.

                            VICTIMS OF CRIME

    Then let me go to the victims of crime. While we see how we 
are trying to protect, we are concerned very much about the 
cuts in the victims of crime assistance. Could you share with 
us what this one--because we see what is happening. Most 
recently, the little girl that was found buried alive, an 8 
year old, after she had been raped and buried alive, thanks 
again, local law enforcement found her. The murder of the girl 
that was trying to get out of a gang life who was stabbed 16 
times. We have these terrible victims of crime, and yet there 
is a rescission here in the victims of crime program.
    Could you tell us--the Crime Victims' Fund, as I understand 
it, is paid for fees collected from convicted criminals. I 
believe the money should be made available to victims. Number 
one, will that money be made available? And, number two, with 
the rescission of $1.3 billion from the Victims of Crime Fund, 
what services will be either eliminated or diluted?
    Attorney General Gonzales. Senator, let me----
    Senator Mikulski. Because we have got to really think about 
these victims.
    Attorney General Gonzales. Senator, I do think about the 
victims. Attending several victims ceremonies recently in 
connection with Victims' Rights Week, I heard their stories and 
I really understand that we have an obligation. The Department, 
I believe, has a very strong obligation to look out for the 
rights and the interests and the concerns of victims. I care 
about them very, very deeply.
    I would remind you, of course, that the President feels the 
same way, and he advocated a constitutional amendment with 
respect to victims' rights.
    Our budget request does lift the cap on spending out of the 
Crime Victims Fund from $620 million to $650 million. So we 
view it as an increase in terms of spending for victims' 
rights.
    Now, we have requested a rescission of prior year unspent 
balances. As you know, because of the way our budget process 
works, that amount gets rolled over from year to year. We just 
felt it was a more straightforward way of dealing with this 
budget issue, but it does not, in my judgment, reflect 
lessening of a commitment to victims' rights. In looking at the 
receipts, it appears that the receipts will be sufficient to 
maintain the level of funding that we have come to expect with 
respect to this fund. Again, this just reflects a budgetary 
decision.
    Senator Mikulski. Mr. Gonzales, I don't question your 
commitment, but I am here as an advocate, not an accountant. 
And my question is: If you rescind close to $1 billion, what 
does that mean? That you had a pile-up of money from collecting 
funds from these convicted criminals, that you did not spend 
it? And shouldn't this be rolled over then and more direct 
assistance to the victims as well as other kinds of programs?
    Attorney General Gonzales. You are correct, it was a pile 
of money that was collected, fees, that could not be spent 
because there were caps placed upon it. Therefore, it could not 
be spent, and it kept rolling over from year to year.
    Senator Mikulski. Why couldn't it have been spent? There 
was not enough ``demand'' by the victims?
    Attorney General Gonzales. I don't know if it is a question 
of demand, Senator. It is a question of this was a cap imposed 
by the Congress and agreed to by the administration, and there 
was--I think it was to provide some level of certainty because 
the fact that the level of fees collected year to year varied, 
and there was a decision to provide some level of certainty as 
to how much money would be spent every year, and so the 
decision was made as to what the cap should be. And as I have 
indicated, we propose raising the cap from $620 million, which 
it had been, to $650 million.
    Senator Mikulski. Well, I think what I am trying to 
understand, then, is why did the money pile up. Number two, 
what is a better use of the money?
    I know my time has expired, and perhaps we could have that 
in more detail from your Department so that, number one, we 
really are on the side of the victims. And we will come back to 
some other issues on that.
    Attorney General Gonzales. We would be happy to try to get 
your more information about that, Senator. Thank you.
    [The information follows:]

Crime Victims Fund--Why Did the Money Pile Up and What is a Better Use 
                             for the Money?

    The Fund is set up as a separate account in the United 
States Treasury with deposits coming predominantly from 
criminal fines; the proceeds of forfeited appearance bonds, 
bail bonds, and collateral, special forfeitures of the 
collateral profits of crime proceeds retained in an escrow 
account for more than 5 years, and penalty assessments for 
federal misdemeanor and felony convictions. Money is collected 
and deposited in the Fund account in one year and made 
available for obligation the succeeding fiscal year. Hence, 
money deposited into the Fund in fiscal year 2005 will serve as 
the source of funding for programs in fiscal year 2006. The 
collection and deposit period runs from October 1 through 
September 30 of a given fiscal year.
    For the last several years, both Congress and the 
Administration have proposed to control the level of 
expenditures made from the Crime Victims Fund (CVF) by imposing 
an obligation limitation. The fiscal year 2006 President's 
Budget continues to propose a cap on the CVF, as it is 
necessary to ensure a more continuous level of service provided 
by the partners in the field. Any collections in excess of the 
cap for a given year are carried forward into the following 
year, which is how collections have accumulated in the Fund. 
The fiscal year 2006 budget proposes to rescind these 
accumulated balances. The accumulated balances are due to 
exceptionally large collections that have occurred in recent 
years. As to a better use of the money, collections should be 
used for the purposes for which they are authorized, to provide 
assistance and compensation to victims of crime. The 
Administration's proposal simply seeks to end the current 
practice in which unspent balances are carried forward into the 
next fiscal year, creating a discretionary budget ``offset'' 
that permits spending for other, unrelated activities.

    Senator Shelby. Senator Leahy, Senator Stevens is going to 
yield to you right now.
    Senator Leahy. I appreciate that. I appreciate my friend 
from Alaska. I have to be on the floor.
    Attorney General, I am troubled by your answer to Senator 
Mikulski. Are you concerned about the victims of crime? I am 
sure you are. You and I have discussed this before. I have no 
doubt of your sincerity. But we can talk about, well, we are 
going to raise the limits, we are going put more money, we are 
going to do this, that, and the other thing for the victims of 
crime. But this money is from criminal fines, forfeitures, 
assessments. It does not come from the American taxpayers. And 
you are zeroing out the fund. At the end of fiscal year 2007 
there will be no money left. The administration's fiscal year 
2006 budget proposal would siphon off all the funds. You know 
and should know full well that as we put together--and these 
have all been bipartisan efforts to put together these victims' 
funds--and suddenly the money is zeroed out, it has this 
chilling effect all the way down the line. The victims' 
programs are not going to be funded. People are going to say 
there is no money there. Sure, the money is rolled over. Sure, 
the money is rolled over each year. That is what the Congress 
wanted the money to do, to roll over each year, because new 
programs are coming online, whether it is in your State of 
Texas, my State of Vermont, Director Mueller's State of 
California, or anywhere else. They are coming online. Our 
country is growing all the time. Unfortunately, there are more 
victims of crime all the time.
    I would hope that you and the administration would go and 
review this again because it creates in my mind a somewhat 
chilling effect. We can talk about how we all want to raise the 
caps on these, but if the money is gone, it does not make any 
difference.

                   <greek-l>FBI deg.COST OF SENTINEL

    Director Mueller, I am concerned about your testimony on 
the cost of SENTINEL, the Virtual Case File replacement. We 
have been unable--our staff, including staff cleared for 
security matters, has been unable to get an estimate of what 
this is going to cost. You suggest we might do this in a 
closed-door hearing. Frankly, I get kind of worried because for 
years we were unable to get estimates on a virtual case file, 
even in testimony here. A few days later we find out how much 
was wasted, how badly it went down the drain. I think you are 
going to find that many of us want to get those briefings, and 
I would suggest that stonewalling staff up here is not the way 
to do it.

          <greek-l>FBI deg.FBI SEARCH OF TERRY NICHOLS' HOUSE

    But my question to you in the time I have is: On March 31--
and I happened to notice this date because it was my birthday--
FBI agents acting on a tip searched the house where Terry 
Nichols lived just before the bombing of the Alfred P. Murrah 
Federal Building in April 1995, 10 years ago, one of the worst 
acts of domestic terrorism on our soil.
    So 10 years later, 10 years after the fact, 10 years after 
the time Terry Nichols was in jail, the FBI searched his house 
and they found blasting caps and other explosive materials 
apparently related to the bombing. Ten years?
    Mr. Mueller. I would be happy to explain that, Senator.
    Senator Leahy. I would love to hear the explanation because 
I understand that they took--an informant gave them a tip. He 
failed a lie detector test. To have a lie detector test be the 
determining factor on something like this--yes, go ahead and 
explain it.
    Mr. Mueller. Well, first of all, let me clarify that we are 
not stonewalling your staff, Senator. We have not. We would be 
happy to provide you with the briefings. As I told you before, 
in terms of the cost, we have estimates now. The reason for not 
putting it in public is because there are certain procurement 
sensitivities that are involved. But we are happy to provide 
you the briefings that you request, and I do believe we have 
provided them in the past, certainly with regard to the outline 
of the SENTINEL program.
    With regard to the explosives that were found in Terry 
Nichols' house, we did search the house way back. In fact, 
there were a number of searches of the house during the course 
of the investigation.
    Senator Leahy. You were not the Director at that time.
    Mr. Mueller. I was not, but I know that there were searches 
of the house back in the wake of the Oklahoma City bombing. We 
did get an informant or a tip that came from Nichols, as to 
where additional explosives were buried. We followed up on 
that, and we found that they were buried under the house, under 
the earth under the house where they would not have been easily 
found in the previous searches. It took the additional 
information by way of Nichols to identify the location of these 
particular explosives, and we followed through on that tip and 
found them.
    Senator Leahy. How long after getting the tip was the 
search made?
    Mr. Mueller. I would have to check. I am not certain of the 
timeframe.
    Senator Leahy. I think it was a few weeks, but feel free to 
provide that for the record.
    Mr. Mueller. We will.
    [The information follows:]

  Timeframe for Locating Explosives in the Former Home of Terry Lynn 
             Nichols in Herington, Kansas on March 31, 2005

    On March 1, 2005, the Bureau of Prisons contacted the FBI 
Denver Field Office regarding information it obtained from an 
inmate about explosives under the former home of Terry Lynn 
Nichols. On March 4, 2005, the inmate failed an FBI polygraph 
exam regarding this information. Although the inmate did not 
pass the polygraph examination, the FBI continued to review and 
investigate the information. Additional detailed information 
about the location and alleged existence of the explosives was 
received on March 11, 2005, from an FBI source from another FBI 
Field Office. Based upon the information provided by the 
sources, the FBI continued to investigate the allegations to 
determine their veracity. The investigation included, but was 
not limited to, locating the home and its owner, and obtaining 
permission to search the premises. On March 31, 2005, the 
buried cache of explosives was successfully recovered without 
incident and forwarded to the FBI Laboratory for analysis.

                        INNOCENCE PROTECTION ACT

    Senator Leahy. In October 2004, the Congress passed and 
then the President signed the Justice for All Act that had the 
Innocence Protection Act, the IPA, which I authored. And, 
Attorney General, at your confirmation hearing you said that 
you would work with us on IPA, on the Innocence Protection Act.
    The Innocence Protection Act authorized a total of $375 
million for this program over a 5-year period. This was 
carefully worked out over months, actually years of 
negotiations, by everybody from Chairman James Sensenbrenner 
and Majority Leader Tom DeLay, to myself, to others. We wanted 
to have effective systems for appointing counsel in death 
penalty cases. The President, the White House was involved. The 
President was happy to sign it and stated it when he stepped 
forward and was to sign it. But now we find that the 
administration has proposed zero funding on this, and they are 
trying to figure out a new program, ignoring the work of 
Republicans and Democrats in both bodies, across the political 
aisles, across the political spectrum, on a bill the President 
signed.
    Is this a sign to us don't bother to try to form bipartisan 
coalitions, don't bother to work with this administration, 
don't bother to work with you or anybody else, because we will 
just zero it out? I am somewhat troubled, as you may have 
noticed.
    Attorney General Gonzales. Yes, sir. I would not describe 
it in that fashion. We obviously care very much, the President 
cares very much about ensuring that those who are facing the 
death penalty have adequate representation.
    Senator Leahy. I am talking about the IPA. The Innocence 
Protection Act was part of the bill that the President signed, 
which has now been zeroed out for the money that was 
authorized.
    Attorney General Gonzales. I thought you were talking about 
providing lawyers in connection with----
    Senator Leahy. I am talking about the program that the 
Congress, after years of work, of hearings, put together, 
signed into law by the President, is now in law, has been 
basically zeroed out by the administration, and you are 
basically inventing a new program.
    Attorney General Gonzales. I am sorry. I misunderstood you, 
Senator. I think that the President--this is the DNA 
initiative, Senator?
    Senator Leahy. Yes.
    Attorney General Gonzales. Okay.
    Senator Leahy. And zeroed out the part that we had in there 
on capital cases.
    Attorney General Gonzales. The President has a DNA 
initiative that was announced and funded prior to the enactment 
of the Justice for All Act. It has been successful, and it has 
worked, and we believe that this is the way to deal with 
ensuring that we provide resources and training so that we can 
use DNA to clear up the backlog of DNA cases----
    Senator Leahy. Everybody here supports that. I am one of 
the ones that helped get the funding for that program, so that 
is not the question. We all want to clear up the backlog in 
DNA. It is going to help our prosecutors. It is going to help 
our defense counsel. I am talking about the Justice for All Act 
with the Innocence Protection part that was carefully 
negotiated by Republicans and Democrats, signed into law, and 
is now being zeroed out.
    Attorney General Gonzales. Senator, the position of the 
Department is that the President's DNA initiative is a better 
way to deal with this problem, and we can do it in a way that 
requires less money and can be more effective in dealing with 
the issues relating to the use of DNA.
    Senator Leahy. So basically you are saying ignore what we 
did in the Congress and the law the President signed with great 
fanfare and praise.
    Attorney General Gonzales. Senator, we believe that the 
most effective way to deal with this is with respect to the 
decisions made to fund the DNA initiative announced by this 
President.
    Senator Leahy. Mr. Chairman, thank you.
    Senator Shelby. Senator Stevens.

                     NATIONAL SEX OFFENDER REGISTRY

    Senator Stevens. First let me agree with the Senator from 
Maryland. We do have this National Sex Offender Registry, and 
that is supposed to help us keep track of these people so that 
parents can help protect their children from harm. Is there a 
requirement that these people continue to report their changes 
in address? There seems to be a policy that these people can 
just sort of disappear and show up in new communities. How does 
that happen?
    Attorney General Gonzales. They have an obligation to 
report, Senator. As you might expect, these are criminals and 
some people do not abide by the rules. And so part of our 
charge is to try to identify when people move and identify 
where they are.
    Senator Stevens. Is the law strong enough? Shouldn't we put 
through a provision that says that if they don't report, they 
go back to jail?
    Attorney General Gonzales. I don't know what the law 
requires at this time. It may already have such a requirement, 
but if it does not, I think that would be something that we 
should be looking at.
    Senator Stevens. I would tell the Senator from Maryland, I 
would be pleased to join in such a provision to strengthen 
that.

                            USA PATRIOT ACT

    Let me ask you as a former U.S. attorney about the PATRIOT 
Act. It expires at the end of this year, and in my judgment, in 
terms of things we have seen in terms of the working 
relationship between agents and making available intelligence 
without chimneys, it is working very well. Are you seriously 
urging the Congress to extend the PATRIOT Act?
    Attorney General Gonzales. Senator, I agree with you. I 
think the PATRIOT Act has been effective in protecting America, 
and I think it reflects a careful balance of protecting our 
country and respecting our civil liberties and the privacy 
rights of all Americans.
    There are 16 provisions that are set to expire at the end 
of this year. We have had a good debate about how this 
Department has exercised those authorities. I think the record 
shows that the Department has been very careful in the use of 
these authorities. I think the record also shows that the Act 
has been effective and, therefore, in my judgment, the PATRIOT 
Act is deserving of reauthorization.
    Senator Stevens. When the Defense Subcommittee traveled to 
Iraq, we interviewed some people there who were multinational 
and multiagency people who had really functioned extremely well 
because of the PATRIOT Act. I think you ought to bring some of 
those people in and have them testify to Congress and tell us 
how that act has changed their lives and increased their 
ability to track down terrorists and to bring them to justice. 
It seems to me that there should be no opposition to extending 
that act and continuing to give that authority to the people 
who are really trying to seek out terrorists throughout the 
world.
    Mr. Mueller, your agency in particular has used it very 
effectively. Do you have any comment about it?
    Mr. Mueller. I think we would be going back 10 years if the 
PATRIOT Act is not reauthorized, particularly those provisions 
that have broken down the walls in the sharing of information. 
The ability to share information between the intelligence 
community and the law enforcement community has been 
instrumental in securing the safety of United States citizens, 
both in the United States but also overseas, in allowing us to 
share information between our various agencies and also with 
our counterparts overseas. We have testified previously on a 
number of occasions how absolutely essential it is to have the 
reauthorization of the PATRIOT Act to prevent additional acts 
of terrorism. A number of our investigations have been 
successful in the United States because of our ability to share 
information and utilize the provisions of the PATRIOT Act.
    Senator Stevens. Well, take the Terrorist Screening Center 
(TSC), which you commented on in your statement. Could it 
effectively work without the PATRIOT Act?
    Mr. Mueller. It would be very difficult for it to be able 
to perform its functions because it would still be beset by 
walls segmenting information between the intelligence community 
and the law enforcement community. And, consequently, the 
PATRIOT Act in its breaking down those walls enables the 
Terrorist Screening Center to assemble information from a 
variety of sources to determine the appropriateness of putting 
somebody on the terrorist screening watchlist and to follow 
through if that person comes within the United States or 
attempts to get into the United States.
    Senator Stevens. This is a multiagency effort, as I 
understand, the Terrorism Center, right?
    Mr. Mueller. Yes, it is.
    Senator Stevens. And in your statement, you said through 
February 2005 TSC received 21,650 calls, over 3,500 from State 
and local law enforcement agencies, made over 11,300 positive 
identifications, and assisted in 340 arrests, including six 
with terrorist nexus.
    Now, none of that would be available without knocking down 
the walls that the PATRIOT Act knocked down. In the past, they 
all would have had to go to the top of their agency, and the 
information would have to be shared at the top of the agency, 
and the top of the agency would have to be aware of the fact 
that someone down here had that information. Is that not right?
    Mr. Mueller. The PATRIOT Act broke down those walls, along 
with rulings of the Foreign Intelligence Surveillance Act 
court. Between the two of those entities, it broke down the 
walls, enabling the Terrorist Screening Center to have that 
record of success.

           <greek-l>FBI deg.DIRECTOR OF NATIONAL INTELLIGENCE

    Senator Stevens. Let me shift over to the National Director 
of Intelligence, and I appreciate your visit. I am sure you 
visited others. But I see that there are several functions you 
have mentioned that really now will be integrated with the 
National Director of Intelligence. And you created a special 
section within the FBI to deal with that, right?
    Mr. Mueller. That is correct. What we are trying to do is 
build up within the FBI what is called a Directorate of 
Intelligence that, from the headquarters perspective, is the 
brains of intelligence, regardless of whether it comes from a 
criminal program, a cyber program, a counterintelligence 
program, or a counterterrorist program, where the agents are 
collectors. The Intelligence Directorate is that entity that 
pulls in the information, analyzes the information, and makes 
certain that that information as analyzed gets to the right 
policymaker. It may be an agent himself or herself. It could be 
a supervisor in the FBI. Or it could be somebody at the Central 
Intelligence Agency (CIA), Defense Intelligence Agency (DIA), 
or now the Director of National Intelligence.
    The other substantial role that the Directorate of 
Intelligence plays is to identify what we know but, most 
particularly, what we don't know and establish requirements for 
intelligence collection in the United States so we have a much 
fuller picture of the threats that we face in the United 
States, complemented with the information that may be brought 
to the table by the CIA, the National Security Agency (NSA), or 
one of the other intelligence actors. And it is tremendously 
important for the Bureau to build up this capability, but it 
would not be able to build up this capability without the 
information that it now has access to by reason of the PATRIOT 
Act and rulings of the FISA court.
    Senator Stevens. And it is the act that makes that center 
operable, right? All these agencies now share information 
really at the inception of knowledge, right? They come in and 
they are shared and they are made available throughout the 
community, and this is an underpinning for the National 
Director of Intelligence, isn't it?
    Mr. Mueller. As far as our National Director of 
Intelligence, it absolutely is. We have that capability. But 
also we complement the National Counterterrorism Center where 
both the intelligence agencies and the law enforcement agencies 
share space, have access to our various databases so that there 
can be in very short order a complete picture of a threat or a 
group or an individual who presents a terrorist threat. And 
having the ability to access these databases, having the 
ability to pull this information together, to analyze it in the 
National Counterterrorism Center, was made practical and legal 
by the passage of the PATRIOT Act and the FISA court rulings.

                             DNA INITIATIVE

    Senator Stevens. Last, Mr. Attorney General, in your 
discussion with the Senator from Vermont about the DNA concept, 
it is our understanding the program that is in effect now is a 
broader one and has been more effective in dealing with DNA and 
its use in prior convictions and throughout the whole system of 
the Department of Justice. Is that your feeling?
    Attorney General Gonzales. It is hard for me to compare, 
Senator, but I will say that it has been, in my judgment, very 
effective in clearing out the DNA backlog and providing 
training to State and local officials, to help them find 
missing people. And so it has been very effective.
    Senator Stevens. Has there been a reduction in funding for 
the DNA effort?
    Attorney General Gonzales. No, Senator.
    Senator Stevens. What is the budget this year for?
    Attorney General Gonzales. I don't have it at my 
fingertips, but I will get you that information.
    Senator Stevens. Thank you.
    Thank you very much, Mr. Chairman.
    Senator Shelby. Senator Harkin.
    Senator Harkin. Thank you very much, Mr. Chairman.
    [The information follows:]

            What is the Budget This year for DNA Initiative?

    In fiscal year 2004, Attorney General John Ashcroft 
announced the awarding of nearly $95 million in DNA grants 
nationwide as part of President Bush's DNA initiative, 
Advancing Justice Through DNA Technology. The awards represent 
the greatest investment in DNA technology to date--more than 
twice the amount of any previous year's funding--and the first 
grants to be awarded under the President's initiative. In 
fiscal year 2005, approximately $168 million will go to 
activities under the DNA initiative. The fiscal year 2006 
request includes an increase of $69 million for a total funding 
level of more than $236 million.

                              BYRNE GRANTS

    Senator Harkin. Mr. Attorney General, back to Byrne grants, 
funding for the Byrne grant program has been eliminated from 
the budget. One of the rationales offered is that the program 
has not demonstrated a satisfactory level of performance 
results. However, the law enforcement people in Iowa tell me 
there has never been any effort on the part of the Bureau of 
Justice Assistance to actually measure the performance results 
of this program.
    My question is: Has there been a valid effort to determine 
if Byrne dollars are working nationally as well as they are in 
Iowa?
    Attorney General Gonzales. I believe there has been a valid 
effort to determine whether or not these dollars are being used 
effectively. Again, Senator, as I indicated in response to an 
earlier question, there are a variety of reasons why a decision 
is made not to continue funding a certain program. That may not 
reflect a decision that the program is not an effective 
program, but may reflect a determination that there are other 
priorities that deserve funding. There may be other ways to 
provide resources to State and local officials to address the 
problem, and that is why the decision was made to deal with the 
Byrne grant program in this fashion.
    Senator Harkin. Could you provide to the subcommittee a 
list of the efforts that were made by the Bureau of Justice 
Assistance to measure the performance results of this program?
    Attorney General Gonzales. I will try to provide you that 
information, Senator.
    Senator Harkin. I would like to see that because I am told 
that there never was any effort to really measure, so I would 
like to kind of get to the bottom of that one.
    [The information follows:]

 Efforts That Were Made by the Bureau of Justice Assistance to Measure 
 the Performance Results of the Byrne Justice Assistance Grant Program

    There are a number of efforts underway to measure whether 
Byrne dollars are working nationally. The Byrne Justice 
Assistance Grant (JAG) program is currently undergoing an 
Office of Management and Budget Program Assessment Rating Tool 
(PART) review to assess Byrne JAG's purpose and design, 
strategic planning, management, and results and accountability. 
While final National Institute of Justice (NIJ) evaluations of 
Byrne JAG are not yet completed, many state-initiated 
independent evaluations have been conducted, including a study, 
``Multi-Jurisdictional Drug Task Forces in Ohio,'' commissioned 
by the Ohio State Administering Agency and conducted by the 
University of Cincinnati and Kent State University. Another 
example is in Oklahoma, where the Oklahoma District Attorneys 
Council contracted with the University of Oklahoma to conduct a 
comprehensive review of the evaluation activities of other 
states that fund drug task forces. Through a literature review, 
they found that 39 states have in the past or are currently 
conducting independent evaluations of their Byrne JAG-funded 
drug task forces and other grant-funded programs. Phase II of 
NIJ's evaluation of Byrne JAG-funded Multi-Jurisdictional Drug 
Task Forces will build on the effort to provide a complete 
picture of the overall effectiveness of the Bureau of Justice 
Assistance of the Byrne JAG Program.

                       JUSTICE ASSISTANCE GRANTS

    Senator Harkin. Last year, the President's budget merged 
the local law enforcement block grant with the Byrne program 
and called it the Byrne justice assistance grant. It required 
an entirely new application process, set entirely new criteria. 
The merger of the programs was particularly painful for States 
like Iowa, in which the majority of our people do not live in a 
major city.
    Now, given that the budget eliminates this newly merged 
Byrne program, which is now called the Byrne justice assistance 
grant program, I would be interested in learning exactly how 
much we have spent on merging the two programs and 
administering it for just 1 year? In other words, we merged 
them last year. You set up new criteria, set up a new 
application process, merged the two, did it for 1 year, and now 
you are eliminating it. What did it cost us to do that for 1 
year? And why did we do it?
    Attorney General Gonzales. I don't know that information, 
Senator, but I will try to get that for you.
    [The information follows:]

What Did It Cost to Merge Local Law Enforcement Block Grant Within the 
             Byrne Program For 1 Year and Why Did We Do It

    Proposed to streamline justice funding and grant 
administration, the Edward Byrne Memorial Justice Assistance 
Grant (JAG) Program allows states, tribes, and local 
governments to support a broad range of activities to prevent 
and control crime based on their own local needs and 
conditions. JAG blends the previous Byrne Formula and Local Law 
Enforcement Block Grant (LLEBG) Programs to provide agencies 
with the flexibility to prioritize and place justice funds 
where they are needed most. As the Office of Justice Programs' 
Bureau of Justice Assistance (BJA) works to administer JAG 
requests for state and local grantees, there has been a 
savings--not cost--associated with the program's streamlined 
application, review, and award processes. Savings 
considerations include: the mandatory match requirement was 
eliminated, allowing states to measure their own match needs 
and implement at the state level if indicated; awards are 
distributed up front instead of on a reimbursement basis, 
giving recipients immediate control over their funds; direct 
recipients can earn interest on their awards, generating 
additional funding for future justice projects; projects can be 
funded beyond a 4-year period, allowing successful initiatives 
to receive funding to continue and expand their efforts; 
various fiscal and programmatic reports have been replaced with 
fewer, but more targeted, reporting, saving State Administering 
Agencies (SAA) and local programs valuable staff time and 
resources; and mandatory set-asides have been eliminated, 
encouraging states and communities to spend justice funds more 
strategically.

    Senator Harkin. There is something bureaucratic going on 
here, and I am not quite certain what it is. The reason for my 
question is because my law enforcement people in Iowa--and I 
checked in the Midwest. These Byrne grants have been a lifeline 
for the coordinated efforts for drug intervention, for arrests, 
getting meth labs; as I mentioned in my opening statement, even 
in terms of programs for rehabilitation. And they have worked 
from everything I have ever seen. And so I am really trying to 
figure out why this rationale for eliminating it after we just 
merged it for 1 year. I know you say you have priorities and 
stuff, but I am wondering about what has more priority than 
this and why this was done away with. This is not just being 
cut. This is eliminated. That is a big body blow to law 
enforcement all over.
    Attorney General Gonzales. Again, Senator, in cases like 
this, decisions are made as to which programs are the most 
effective and what's the most efficient use of taxpayers' 
dollars. And so there may be a particular problem that is being 
addressed by the expenditure of Byrne grants that we believe 
can be more efficiently dealt with through other programs or 
coordinating resources in a different kind of way. And I guess 
what I want to do is reassure you and the people in your State 
that we, like you, consider these drug issues very, very 
serious and that we ought to be looking at ways to try to deal 
with this in the most effective and most efficient way. We are 
committed to work with people in your State to address these 
problems.
    Senator Harkin. The only thing I am asking you, again, to 
give to the subcommittee, is the efforts that have been made to 
determine the outcomes results of the Byrne grant program.
    Attorney General Gonzales. I will try to get that to you, 
Senator.
    [The information follows:]

 Efforts That Were Made by the Bureau of Justice Assistance to Measure 
 the Performance Results of the Byrne Justice Assistance Grant Program

    There are a number of efforts underway to measure whether 
Byrne dollars are working nationally. The Byrne Justice 
Assistance Grant (JAG) program is currently undergoing an 
Office of Management and Budget Program Assessment Rating Tool 
(PART) review to assess Byrne JAG's purpose and design, 
strategic planning, management, and results and accountability. 
While final National Institute of Justice (NIJ) evaluations of 
Byrne JAG are not yet completed, many state-initiated 
independent evaluations have been conducted, including a study, 
``Multi-Jurisdictional Drug Task Forces in Ohio,'' commissioned 
by the Ohio State Administering Agency and conducted by the 
University of Cincinnati and Kent State University. Another 
example is in Oklahoma, where the Oklahoma District Attorneys 
Council contracted with the University of Oklahoma to conduct a 
comprehensive review of the evaluation activities of other 
states that fund drug task forces. Through a literature review, 
they found that 39 states have in the past or are currently 
conducting independent evaluations of their Byrne JAG-funded 
drug task forces and other grant-funded programs. Phase II of 
NIJ's evaluation of Byrne JAG-funded Multi-Jurisdictional Drug 
Task Forces will build on the effort to provide a complete 
picture of the overall effectiveness of the Bureau of Justice 
Assistance of the Byrne JAG Program.

                             HIDTA PROGRAM

    Senator Harkin. I would appreciate that. Last--well, no, 
two quick things. High-intensity drug trafficking (HIDTA) 
program, the budget has been slashed by 50 percent, and it 
says, ``The Department's budget states that the program will be 
redesigned to focus on efforts to stop drugs entering the 
country.'' Well, what effect is that going to have on the 
Midwest HIDTA program, high-intensity drug trafficking area 
program in the Midwest, which is engaged in fighting a meth 
epidemic--and it is an epidemic--in Iowa, South Dakota, 
Missouri, Nebraska, that whole area there. That is after the 
drugs have entered the country. So if we are slashing it by 50 
percent, again, we are going to have a problem in funding the 
high-intensity drug trafficking areas in the upper Midwest.
    Again, I don't know how we are going to continue to do this 
by slashing it by 50 percent.
    Attorney General Gonzales. HIDTA has traditionally been 
within the Office of National Drug Control Policy. That is a 
policy-focused organization, and we believe that these funds 
ought to be administered through the Department of Justice, 
which has as its primary focus law enforcement. It just makes 
sense, quite frankly. The question then is whether----
    Senator Harkin. I don't mind that. That is fine.
    Attorney General Gonzales. And in doing so, we are able to 
take the organized crime drug enforcement task force (OCDETF) 
program and the HIDTA programs under sort of the joint 
supervision of the Deputy Attorney General and make sure that 
they remain a priority, both of those programs.
    I want to reassure everyone that the fact that it is moving 
into the Department of Justice does not mean that we are going 
to in any way merge the two programs. I think OCDETF has more 
focus on national and international programs and HIDTA is more 
regional.
    The fact that the monies are being reduced to HIDTA does 
not mean that there will be a change in the first year with 
respect to providing funding for intelligence-sharing and 
critical infrastructure. Those will be funded with respect to 
all the HIDTAs. In 2006, every single HIDTA will continue. We 
will take the HIDTA funding and we will allocate it according 
to priorities: first intelligence, then infrastructure, and 
then we will look at each of the HIDTAs and have the HIDTAs 
make the best case as to where the remaining dollars should go. 
And that is what we intend to do with respect to the HIDTA 
program going forward.
    Senator Harkin. Thank you, Attorney General.

                <greek-l>FBI deg.DEFINITION OF TERRORISM

    Mr. Director, since September 11, 2001, the FBI's 
counterterrorism workload, as you stated in your written 
statement, has more than tripled, from 9,340 cases to over 
30,000 in fiscal year 2004. My question is: How much of this is 
redefining criminal and drug activities as ``terrorism?'' Do we 
have a definition of terrorism? And has it changed in the last 
3 years? Or are we just seeing a tripling of terrorist 
activities? How much of this is just redefining normal 
criminal--not normal, but abnormal criminal and drug activities 
as just, oh, this is terrorism, justifies more money?
    Mr. Mueller. No, I would say it is not redefinition. There 
may be a little of that where cases, if you have a terrorist 
group, an acknowledged terrorist group that is engaged in 
criminal activity and the results of that criminal activity, 
the funding is going overseas to Palestine or Lebanon or 
elsewhere to support terrorist activities, it may have been 
identified principally as a criminal case but now is identified 
as a terrorist case. I think that is a very, very small sliver 
of those cases where there was some redefinition.
    But the fact of the matter is we now have--we had 1,300 
agents pre-9/11; we now have almost 3,000 agents that are 
directed to counterterrorism. We had on our joint terrorism 
task forces prior to September 11 just over 900 Federal, State, 
and local officers serving on those joint terrorism task 
forces. There were only 34 task forces. We now have 103 joint 
terrorism task forces, and we have 3,700 Federal, State, and 
local officers serving on them.
    Terrorism investigations are not directed just at that 
person who is gathering the explosives, but it is those persons 
who are recruiting, those persons who are sending persons to 
camps overseas, those persons who are engaged in criminal 
activity to develop funding that supports terrorism. And so we 
have been far more effective because we have the additional 
personnel, and because of the breakdown of the rules separating 
intelligence and the criminal side, to address those persons 
within the United States who either would want to conduct a 
terrorist attack or are in some ways supporting terrorism.
    Senator Harkin. Well, Mr. Director, my time is up. You 
know, we are doing everything. We are closing down cells 
overseas. I hear about all the successes we are having in 
Afghanistan, we are having in other parts of the world in 
closing down these networks. And yet terrorism has tripled in 
this country. I just have this uneasy feeling that we are just 
redefining it and putting a bigger blanket over what is just 
normal--not normal, but criminal activities, drug activities, 
that type of thing, and just calling it ``terrorism.''
    Mr. Mueller. I would have to disagree.
    Senator Harkin. Well, do you have a definition of 
``terrorism''?
    Mr. Mueller. There is a definition in title 18 that we 
utilize, yes. I would have to get you the specific definition, 
but----
    Senator Harkin. It is in title 18. Has that changed in the 
last 3 years?
    Mr. Mueller. No.
    Senator Harkin. It is the same today as it was before?
    Mr. Mueller. No, but there are various aspects to terrorism 
that include fundraising, training, and recruiting; we have 
many ongoing investigations into those aspects of it that we 
did not investigate in the past. The large number of open 
terrorism investigations that you reference relate in large 
part to a number of these other areas that are important in 
addressing terrorism.
    Senator Harkin. Thank you.
    Thank you, Mr. Chairman.
    Senator Shelby. Senator Murray.
    Senator Murray. Thank you very much, Mr. Chairman.

                            NORTHERN BORDER

    Attorney General Gonzales, as I talked about in my opening 
statement, I have some real concerns about the challenges 
facing northern border States with respect to Federal, 
typically border-related, cases. And as you know, many of these 
cases are being referred to local jurisdictions by Federal 
agencies and the U.S. Attorney's Office. And I, like everyone, 
fully support the efforts to increase the Federal agents along 
the border. It is important. But as those numbers have 
increased post-9/11, more criminals are being apprehended for 
drug smuggling, money laundering, and other crimes on the 
border. And as you know, these cases are often declined and 
referred for prosecution and detention to local jurisdictions 
by the U.S. Attorney's Office.
    Now, the southwestern States have a Federal program for 
reimbursement of costs run out of the Department's Office of 
Justice Programs. It is the Southwest Border Prosecution 
Initiative. But there isn't any program like that for the 
northern border States, and I think it is long past time to do 
that because these cases really put an immense burden on cities 
and counties in my State and across the northern border.
    In Whatcom County in my State, which is where I-5 crosses 
the border into British Columbia, they are spending over $2 
million a year to handle these federally initiated declined and 
referred cases. And those costs are placing a tremendous strain 
on local jurisdictions. In fact, the situation in Whatcom 
County is already forcing that county to release criminals from 
the county jail in order to make room for the increased 
referred caseload.
    Now, back in fiscal years 2004 and 2005, as part of the 
omnibus appropriations bills, your Department was asked to do a 
study on the need to expand the Southwest border program to the 
northern border States, and to my knowledge--and I am not going 
to hold you accountable; I know you are new to the role. But to 
my knowledge, that study has not been completed or done, which 
is disconcerting to all of us who have been involved in this.
    But my question to you today is: Would you support an 
effort to expand the Southwest Border Prosecution Initiative 
program to our northern border States?
    Attorney General Gonzales. Senator, I would have to look at 
all the facts before I could answer that question, quite 
frankly. I am certainly aware of the strains that exist on all 
the border States. I understand your concerns.
    With respect to the study, I was not aware of the study, 
but I am now aware of the study and I will find out where we 
are on that. And maybe you and I can have a further dialogue 
about what we can do to try to help your State deal with these 
additional costs.
    [The information follows:]

    Status of the Study to Expand the Southwest Border Prosecution 
Initiative Program to the Northern Border, and Comment on the Expansion 
                             of the Program

    The Department does not support an effort to expand the Southwest 
Border Prosecution Initiative to the Northern Border at this time.
    Although the United States Attorneys' Offices along the Northern 
Border believe that the expansion of this grant program to the Northern 
Border districts would be helpful in that they have similar border 
issues and limited resources for prosecutions, a review of the 
Department's statistics indicate that the declination rate for federal 
prosecutions is higher along the Southwest Border because of the 
substantial number of illegal immigrants who cross that border daily, 
but who are not prosecuted federally because of limited resources and 
other issues.
    The study of immigration cases in Northern Border districts to 
which you refer was submitted to the Committee on Appropriations on 
August 11, 2004. A copy of the report is inserted.

                                U.S. Department of Justice,
                                   Washington, DC, August 11, 2004.
The Honorable Frank R. Wolf,
Chairman, Subcommittee on the Departments of Commerce, Justice and 
        State, the Judiciary, and Related Agencies, Committee on 
        Appropriations, U.S. House of Representatives, Washington, DC 
        20515.
The Honorable Ernest F. Hollings,
Ranking Minority Member, Subcommittee on the Departments of Commerce, 
        Justice and State, the Judiciary, and Related Agencies, 
        Committee on Appropriations, U.S. Senate, Washington, DC 20510.
The Honorable Jose Serrano,
Ranking Minority Member, Subcommittee on the Departments of Commerce, 
        Justice and State, the Judiciary, and Related Agencies, 
        Committee on Appropriations, U.S. House of Representatives, 
        Washington, DC 20515.
The Honorable Judd Gregg,
Chairman, Subcommittee on the Departments of Commerce, Justice and 
        State, the Judiciary, and Related Agencies, Committee on 
        Appropriations, U.S. Senate, Washington, DC 20510.
    Dear Mr. Chairman, Senator Hollings, Congressman Serrano, and 
Senator Gregg: The Conference report accompanying the Fiscal Year 2004 
Appropriations Act for the Department of Justice (Public Law 108-199), 
directs the Department of Justice to submit to the Senate and House 
Appropriations Committees, a report on the number of Northern Border 
Prosecutions referred to state and local prosecutors. This report 
provides the requested information with the U.S. Attorneys' caseload 
and referrals on the Northern Border as compared to those on the 
Southwest Border.
    The report was recently approved by the Office of Management and 
Budget. Please feel free to contact me if you or your staff have 
additional questions.
            Sincerely,
                                             Paul R. Corts,
                     Assistant Attorney General for Administration.

Report of the Department of Justice Regarding Immigration Cases in the 
                       Northern Border Districts

                              INTRODUCTION

    The conference report accompanying the Consolidated Appropriations 
Act of 2004 requested a report from the Department of Justice regarding 
the number of cases referred to local prosecutors from Federal arrests 
along the Northern Border. The conference report adopts by reference 
the House report language directing the Department of Justice to report 
the following:

    Southwest Border Prosecutions.--The Committee recommends 
$40,000,000 to assist State and local law enforcement agencies, 
including prosecutors, probation officers, courts, and detention 
facilities along the Southwest border with the handling and processing 
of drug and alien cases referred from Federal arrests. The Committee 
directs the Department of Justice to study whether a similar number of 
cases are being referred to local prosecutors from Federal arrests 
along the Northern border. The Department shall report its findings to 
the Committee within 90 days of enactment of this Act.

    This report summarizes three categories of information relative to 
Immigration Matters considered by the United States Attorneys Offices 
in Northern Border Districts.\1\
---------------------------------------------------------------------------
    \1\ For the purpose of this Report, Northern Border Districts are 
the District of Alaska, the District of Idaho, the Northern District of 
Illinois, the Northern District of Indiana, the District of Maine, the 
Eastern and Western Districts of Michigan, the District of Minnesota, 
the District of Montana, the District of New Hampshire, the Northern 
and Western Districts of New York, the District of North Dakota, the 
Northern District of Ohio, the Western District of Pennsylvania, the 
District of Vermont, the Eastern and Western Districts of Washington, 
and the Eastern and Western Districts of Wisconsin.
---------------------------------------------------------------------------
                               BACKGROUND

    Within the Department of Justice, United States Attorneys' Offices 
have responsibility for prosecuting immigration offenses. Typically 
immigration cases are referred to United States Attorneys' Offices by 
agents for the Department of Homeland Security, including the Bureau of 
Immigration and Customs (ICE), the Bureau of Customs and Border 
Protection, and Border Patrol, but may also be referred by other 
federal agencies and local officers.

    MATTERS RECEIVED, CASES FILED AND DECLINATIONS BY UNITED STATES 
                           ATTORNEYS OFFICES

    This chart sets forth the Matters Received,\2\ Cases Filed,\3\ and 
Declinations \4\ for immigration offenses considered by United States 
Attorneys' Offices in the Northern Border Districts during fiscal years 
2000-2003.
---------------------------------------------------------------------------
    \2\ Matters Received.--All proceedings on which Assistant United 
States Attorneys (AUSA) spend one hour or more of time and the AUSAs 
entry are recorded in their case management system. Matters Received 
includes criminal referrals from investigative agencies, and matters 
that may be handled as misdemeanor cases in U.S. Magistrate Court. 
Matters Received does not include criminal miscellaneous matters 
(requests for arrest warrants, search warrants, etc.), petty offenses 
or infractions, or matters that are immediately declined.
    \3\ Cases Filed.--All proceedings for which a significant paper has 
been filed in court, other than U.S. Magistrate Court and below the 
appeals court level. Significant papers include indictments and 
informations filed in district court.
    \4\ Declinations.--All proceedings terminated (closed) during the 
reporting period without ever having attained case status.

           NORTHERN BORDER DISTRICTS IMMIGRATION CASELOAD DATA
------------------------------------------------------------------------
                                 2000       2001       2002       2003
------------------------------------------------------------------------
Matters Received............      1,026        902      1,030      1,136
Cases Filed.................        800        704        780        905
Matters Declined............        270        272        290        263
------------------------------------------------------------------------

    This chart sets forth the Matters Received, Cases Filed, and 
Declinations for immigration offenses considered by United States 
Attorneys' Offices in the Southwest Border Districts during fiscal 
years 2000-2003.

        SOUTHWEST BORDER DISTRICTS \1\ IMMIGRATION CASELOAD DATA
------------------------------------------------------------------------
                                 2000       2001       2002       2003
------------------------------------------------------------------------
Matters Received............     10,023     10,042     10,658     14,175
Cases Filed.................      7,942      7,851      8,805     10,933
Matters Declined............        146        111        227        987
------------------------------------------------------------------------
\1\ For the purpose of this Report, Southwest Border Districts are the
  District of Arizona, the Southern District of California, the District
  of New Mexico, and the Southern and Western Districts of Texas.


                  CASES REFERRED FOR LOCAL PROSECUTION

    The figures set forth in this report represent immigration cases 
handled by the United States Attorneys' Offices for the Northern and 
Southwest Border districts. United States Attorneys' Offices do not 
maintain records of cases referred for local prosecution by Federal 
Investigative agencies. Offenses may be referred to local jurisdictions 
by federal law enforcement agents without involvement from the United 
States Attorney's office.
    This report provides comparison data on caseload for the Northern 
Border districts and the Southwest Border districts. The matters 
received and cases filed in the Northern Border districts are 
approximately one-tenth of those of the Southwest Border. The 
declinations for the Northern Border are greater in fiscal year 2000-
2002 than the Southwest Border. However, in fiscal year 2003, the 
declinations for the Southwest Border are almost four times greater 
than those of the Northern Border. Declinations by the USAO would not 
suggest that these matters could or would be prosecuted by the state 
and locals.
    The United States Attorneys' Case Management system contains a 
declination code which indicates that a criminal suspect will not be 
prosecuted by the United States Attorney's Office but may be considered 
for prosecution by another authority. The referral is then returned to 
the referring federal investigative agency; however, we do not have the 
ability to determine whether that agency refers that matter to a state 
or local authority.

    Senator Murray. Okay. Well, I would like to know what you 
want these communities to do short of releasing the criminals.
    Attorney General Gonzales. Well, we are committed to 
working with them. Obviously, no one wants criminals running 
around in the streets, and we are committed to working with 
your communities to see if we can find additional resources, 
and to see whether or not there are additional things that we 
can do at the Federal level. But I want to assure you that this 
Attorney General does not want to have criminals released onto 
the streets because we do not have the facilities to deal with 
them. So I look forward to working with you on this very, very 
difficult issue.
    Senator Murray. I would very much like to do that because 
we have tried to pursue this for several years now, and our 
communities really are at, you know, their last strain here.
    Attorney General Gonzales. Thank you, Senator.
    Senator Murray. So I would like to work with you to find 
some additional resources to help them out.
    I also wanted to ask you about the U.S. Attorney's Office 
because it appears they really lack some of the resources to 
handle the caseloads that are being forced on them as well. Is 
this something your agency is trying to address to make sure 
that our U.S. Attorney's Offices can handle the cases that are 
being brought forward?
    Attorney General Gonzales. One thing that is currently 
ongoing is we are engaged in a review across the country to 
evaluate the caseloads amongst the various U.S. Attorney's 
Offices and to assess whether we have the proper allocation of 
resources across the country.

                  NEEDS OF THE CRIMINAL JUSTICE SYSTEM

    Senator Murray. Okay. Well, I would like to hear more 
specifically from you on that because I am very concerned about 
that, too, and some of the fallout we have seen.
    Also, in my State and in other States, the increase in 
Federal police presence, you know, we welcome it. However, we 
are seeing an increase in demand for Federal courtrooms, for 
judges, for detention facilities, more regional justice 
centers. In fact, in my State some of our Federal agents are 
now driving criminals 2 to 3 hours each way just to have their 
first appearances in Federal courtrooms. And I am really 
concerned about the costs associated with that system, as well 
as, you know, the delay it is taking in getting these 
individuals before a Federal judge. And I would like to ask you 
how you think we are going to meet those needs.
    Attorney General Gonzales. Well, I am likewise concerned, 
Senator. It is a rising cost for the budget of the Department 
of Justice. We are looking at various ways that we can reduce 
those costs. For example, it makes no sense that we have to 
drive someone a long way in order to bring them to justice. So 
are there ways that we can reduce the costs? This is something 
that we are looking at; particularly, it is a problem that is 
likely to increase as we look at issues like enforcing our 
borders. We are going to be detaining more people. As we 
continue to enforce the laws that are passed by this Congress, 
we have to do something with these people. And so this is a 
cost that I have a great deal of concern about. The Department 
is looking at developing a strategy that looks at the total 
cost of someone that goes through the justice system from the 
beginning, not just when they are in prison or afterwards, but 
from the time that they are arrested. There are definite costs, 
fixed costs that we cannot avoid.
    And so I have asked for an examination of how we can better 
coordinate how we enforce justice around this country.
    Senator Murray. Okay. Well, I would like to hear more from 
you as quickly as possible specifically how we can do that, 
because we want criminals apprehended, but just dumping the 
costs on our local communities means they end up out on the 
street. And that is where I don't think you want any of them to 
end up.

                              DRUG CARTELS

    One more question, Mr. Chairman, for the Attorney General, 
and that is: According to a 2001 Drug Enforcement 
Administration estimate, drug cartels make up 80 percent of 
America's methamphetamines, and these cartels require about 200 
metric tons of ephedrine and pseudoephedrine each year, or 
about 10 percent of the world's output of these legal 
chemicals. I am really concerned that we may be missing an 
opportunity to work with chemical factories abroad to help 
prevent some of the cartels from getting their hands on the 
chemicals. And if either one of you could talk to me about what 
we are doing to try and break these cartels' supply chain of 
ephedrine and pseudoephedrine, I would really appreciate it.
    Attorney General Gonzales. I can tell you that we are 
working with law enforcement officials in other countries. I 
believe that this problem cannot be effectively dealt with 
without the cooperation of other countries. And so we are 
working in that respect, and I think we are making some 
progress. Obviously, more needs to be done, and as I have 
traveled the country in these first 2\1/2\ months, I have been 
surprised when I talk to law enforcement officials, the two 
issues that they raise as the most pressing concerns for them 
are the explosion of meth labs, particularly these mom-and-pop 
labs, and gangs.
    And so for that reason, both of those have become a 
priority for me. I have asked the folks within the Department 
to make sure that we are doing everything that we can do under 
existing authorities to address this problem, and one, of 
course, is communicating with our counterparts in other 
countries regarding the supply of ephedrine and 
pseudoephedrine.
    Senator Murray. Mr. Mueller, do you have any comment on any 
of that?
    Mr. Mueller. I have not looked at this issue in a while, 
but I know that both DEA and Customs had a substantial program 
looking at those manufacturers of ephedrine and pseudoephedrine 
overseas and attempting with our counterparts overseas to track 
those shipments. I also know that there is a substantial 
undertaking within the United States in those stores that sell 
quantities of ephedrine or pseudoephedrine to monitor those 
sales.
    Senator Murray. We are making some progress there, but I 
think unless we look at the supply chain from some of the 
cartels, we are not going to get to where we need to be. And 
meth is probably the biggest issue I hear about, particularly 
in our rural counties across Washington State, and the impact 
it is having on their communities.
    Thank you, Mr. Chairman.
    Senator Shelby. Thank you.
    Senator Kohl.
    Senator Kohl. Thank you, Mr. Chairman.

                        CONVICTED SEX OFFENDERS

    Mr. Attorney General, as a point of information, when sex 
offenders and pedophiles are released from prison, are they 
adjudged to no longer be a threat to society, or have they 
simply served their term?
    Attorney General Gonzales. Well, they certainly have served 
their term. I for one would not concede that they are no longer 
a threat to society.
    Senator Kohl. So when they are released, they have served 
their term.
    Attorney General Gonzales. They have served their term, but 
there are ongoing obligations. They have an obligation, for 
example, to register so that law enforcement authorities know 
where they are.
    Senator Kohl. I appreciate that. But, you know, if there is 
an issue out there that really, really ticks people off, it is 
the existence of these sex offenders out there in our society, 
registered or not--I mean, you know, if you know that one lives 
on the next block, what do you do about it? You are really sort 
of powerless to deal with the fact. You may be scared as hell 
to know, but there is not anything you can do about it.
    I am not holding you accountable. I am suggesting that we 
in our society are not dealing properly with sex offenders, 
convicted sex offenders, who, to my knowledge, for the most 
part are simply released back into society after they have 
served their 2 or 5 or 10 years. Families are scared as can be.
    I talked to a friend of mine who lives in Illinois just 
yesterday, and she was talking about the issue, and she told 
me, ``If there is one thing you can do, just one thing to make 
my life easier, and life easier in my neighborhood, it is to do 
something about these sex offenders who are still out there, 
released from prison,'' and, she says, fully capable and she 
expects that they will continue to commit sex offenses and 
molest children, which we cannot tell her she is wrong.
    Attorney General Gonzales. Senator, I cannot tell her that 
she is wrong.
    Senator Kohl. She said to me that if a person is convicted 
of a sex offense or a pedophile offense, they should be put in 
jail and not released until somebody attests to the 
overwhelming likelihood that they will not commit this kind of 
a crime again. Wouldn't you agree?
    Attorney General Gonzales. I think in an ideal world, 
Senator, anyone who is a danger to our children, arrangements 
should be made--everything should be done within the limits of 
our Constitution to ensure that those folks, like pedophiles, 
do not have access to our children.
    It seems to me that it is certainly a good start--it may 
not be where we want to end up, but it is certainly a good 
start to provide as much information as we can to parents and 
let them make the decisions or judgments about what they can do 
to protect their families.
    Now, is there more that we can do? I would be happy to sit 
down and talk with you about that because I have got two young 
boys, too, and I worry about them.
    Senator Kohl. Sure.
    Attorney General Gonzales. And I do not want any, you 
know----
    Senator Kohl. If a person is adjudged to commit a crime 
because they are criminally insane and, you know, they go to 
prison for an indefinite period of time, it is my understanding 
that they will not get out until they are said to be no longer 
criminally insane. Isn't that true?
    Attorney General Gonzales. That is correct.
    Senator Kohl. In large part, this is no different, is it?
    Attorney General Gonzales. I don't know if I'm qualified, 
quite frankly, Senator, to render that opinion, but I think it 
is certainly a question that ought to be asked and one that we 
ought to be discussing.

                              BYRNE GRANTS

    Senator Kohl. On the Byrne grant program, I know you have 
been really pummeled on it, but I just want to add my 2 cents. 
Last year, it was $700 million in both discretionary and 
formula funds, and as you know, they pay for State and local 
drug task forces, community crime prevention programs, 
substance abuse treatment programs, prosecutions, many other 
local crime control programs. And you ask any sheriff or police 
chief around the country, and I guarantee you back in my State 
of Wisconsin, which I think is not unusual, and they will tell 
you that this Byrne grant program is the backbone of Federal 
aid for local law enforcement. The backbone.
    Now, if they are right, then I would like to hope that you 
might be willing to reconsider your position on Byrne grant 
programs. You know, hearings of this sort are for a purpose. We 
listen to you, you listen to us; we go back and think about 
what you said, you go back and think about what you are 
hearing. Otherwise, the hearing has no purpose, right?
    Attorney General Gonzales. That is correct, Senator.
    Senator Kohl. And I am telling you, this Byrne grant 
program, if you ask some of your people to look at it more 
closely, I believe that you will conclude that it is one 
Federal program that deserves support.
    Attorney General Gonzales. We are always looking at these 
kinds of issues, Senator, and we are looking at ways to make 
sure that not just Federal officials but also State and local 
officials have the necessary tools they need to deal with the 
problems that confront our society.
    Senator Kohl. Thank you.

               <greek-l>FBI deg.FBI INTELLIGENCE ANALYSTS

    One question for Director Mueller. In 2002, the Inspector 
General of the Justice Department found that, ``The FBI lacked 
the ability to connect the dots or establish relationships 
among varied pieces of information.'' Nearly 4 years after 9/
11, the FBI's analytical capabilities are still often limited, 
as you know, to supporting individual cases. As everyone knows, 
part of the problem is the inadequate number of qualified 
intelligence analysts at the Bureau, and in your most recent 
proposal, you asked for money to hire 499 more analysts to 
improve this vital capability. However, last year, your goal 
was to hire 787 analysts, and you only hired about 173. Nearly 
32 percent of FBI's analyst positions are still vacant. Is the 
FBI capable of hiring enough qualified analysts to fill these 
positions? And if so, do you have the capability to train that 
many analysts?
    Mr. Mueller. By the end of this year, I believe we will be 
fully hired up on our analysts. We did fall behind last year, 
but we made it up in the beginning of this year through some 
innovative methods for getting analysts on board. I can tell 
you that on September 11 we had 218 analysts in 
counterterrorism; we now have 808 analysts working in 
counterterrorism.
    I also would dispute, I think, some of the premise of the 
question in terms of our analysts solely doing case support 
work. I would be happy to provide you a full portfolio of our 
intelligence products. I think they are first-rate. We are 
doing first-rate assessments. We have provided, I think, close 
to 8,000 intelligence investigative reports over the last 
several years. We have, I believe, close to 200 reports 
officers. We had none before September 11.
    I believe that we are not where we ultimately want to be, 
but we have made substantial strides, particularly over the 
last 6 to 8 months, where much of the preparatory work that we 
were doing to bring these people on board had been done, but we 
then had to execute.
    With regard to training, all of our analysts are required 
to go through a training program. By the end of this year, we 
are expecting that close to 1,000 will have gone through that 
training program down at Quantico. That, again, had to be 
established from scratch in the wake of September 11, but it 
was established and I believe it is a first-rate course at this 
point.
    Senator Kohl. Thank you.

                       JUVENILE JUSTICE PROGRAMS

    One last question for you, Mr. Attorney General. Juvenile 
justice and delinquency programs are allocated, as you know, 
$187 million in the President's budget for next year. This is 
about half of what was allocated last year. So we are talking 
about, you know, a 50-percent cut from last year's number.
    I hope you are not concluding that juvenile justice 
programs are not very important and that Federal funding for 
juvenile justice programs is not very, very important. And, you 
know, the only way that we attest to that here in large part--
not entirely--is by allocating a certain amount of money to 
States for juvenile justice programs. And these programs really 
work. You know, there are several of them in our State. I am 
not going to go into them in detail.
    One school that was built outside of Racine, Wisconsin, is 
the Southern Oaks Girls School. It built a new mental health 
wing with Federal funds to provide counseling service for the 
girl inmates, and the school's administrator says that there is 
a 56-percent drop in violent behavior since the new mental 
services have been offered at that school.
    Now, this is just one of many, many successes in the 
program, and I would like to hope that juvenile justice funding 
is something that the administration continues to regard as 
important and does not put on the chopping block.
    Attorney General Gonzales. Well, addressing the juvenile 
justice issue is important. Juveniles represent the future 
employees and the future leadership of our country and the 
future leaders of communities around the country. And so we 
need to do what we can to try to help wayward youth.
    From the Department's perspective, obviously our primary 
focus is on enforcement, to ensure that juveniles who engage in 
criminal behavior are, in fact, held to account. But a 
successful juvenile justice program has got to do more than 
prosecution and enforcement. You have got to look at education. 
You have got to look at rehabilitation. You have got to look at 
mentoring programs.
    I do agree with you that there are certain juvenile justice 
programs that should continue to be supported.
    Senator Kohl. I thank you, and I thank you, Director 
Mueller.
    Thank you, Mr. Chairman.
    Senator Shelby. Thank you, Senator Kohl.

                        ADMINISTRATIVE SUBPOENAS

    Attorney General Gonzales, regarding the PATRIOT Act, it is 
my understanding that the USA PATRIOT Act is up for renewal and 
so forth. It would give the FBI the authority to use 
administrative subpoenas to fight terrorists and spies. I 
personally think the FBI should have every constitutional tool 
available to help fight terrorists.
    My question to you: Are administrative subpoenas a good 
addition to the toolbox? In other words, what do you gain as 
the chief law enforcement officer--and I will address this to 
Director Mueller, too--and what do the American people lose? 
This has been talked about a lot, as you know.
    Attorney General Gonzales. I am aware of that, Mr. 
Chairman. Let me first begin by emphasizing that administrative 
subpoenas are not part of the provisions that are subject----
    Senator Shelby. They are not part of it?
    Attorney General Gonzales. Part of the provisions subject 
to reauthorization of the PATRIOT Act. But with respect to 
administrative subpoenas----
    Senator Shelby. But they have been proposed, have they not?
    Attorney General Gonzales. They have been proposed as an 
additional necessary tool. Administrative subpoenas are a tool 
that is available to various other agencies to deal with a wide 
variety of other criminal conduct, such as health care fraud. 
And I think my view is that if you can use an administrative 
subpoena to go after the bad conduct of doctors, why can't you 
use this tool to go after terrorists?
    Oftentimes, it is in terrorism cases where speed is 
essential, speed and gathering information. And there may be an 
instance where you need to move very, very quickly in accessing 
information which is held in the hands of third parties, and so 
you do not have the same level of expectation of privacy, and 
you need to be able to get that information from a third party, 
and that is why we think it is a valuable tool.
    Senator Shelby. Director Mueller.
    Mr. Mueller. I know it would be a very valuable tool for 
us. As the Attorney General has indicated, it is authorized in 
drug-trafficking cases, crimes against children, health care 
fraud, and also for the Secret Service where there is a threat 
against one of its protectees. And the reason is exemplified 
there. There is a threat, and the Secret Service may need to 
get information about where a person is staying, what kind of 
communications device he or she is using. And the 
administrative subpoena gives the Secret Service the ability to 
get that information quickly, as the administrative subpoena 
would give us the ability to get that type of information 
exceptionally quickly.
    Now, you ask what is the benefit to those who are served 
the subpoena. One is their right to challenge it. But it also 
gives us the right to enforce it. The proposals require the 
authorization of the Attorney General for an order directing 
that it be kept secret for a period of time, and then the 
Attorney General would have to determine when that level of 
secrecy comes off.
    So it provides a balance between giving us the capability 
very swiftly to get the information we need, but it also gives 
those who are served the subpoena some benefits that in other 
cases they would not have.

                           JUDICIAL SECURITY

    Senator Shelby. Judicial security, Mr. Attorney General. 
Recent violence in courthouses in the Southeast and in the 
Midwest have raised significant concerns about the safety of 
the judges, jurors, attorneys, and even the public who appear 
in court. I understand that you have ordered a review of 
judicial security measures. Are you ready to give us a report 
on that? Would you do that for the record? Or where are you?
    Attorney General Gonzales. We are close, Mr. Chairman, 
expect the results of that report shortly. Let me again repeat 
what I have said often about this issue. It is intolerable that 
we have judges in any way fearful for their lives or safety or 
fearful for the lives or safety of any family member. And so we 
are working as hard as we can to ensure that we have done what 
we need to do to protect our judges.

               <greek-l>FBI deg.AGENTS FOR COUNTERRORISM

    Senator Shelby. Director Mueller, the FBI is on pace to 
need an additional 700 or 800 agents for terrorism 
investigations, which are not supported by your budget request. 
Since 9/11, the FBI has relied on agents from other divisions 
to handle its terrorism caseload. While you have permanently 
shifted 480 agents to counterterrorism, I believe back in 2002, 
it does not appear to be nearly enough if you are still 700 to 
800 agents short, if you are, in fact.
    Given the workforce requirements within the terrorism 
program, the continuing threat, and the fact that terrorism is 
your top priority, why haven't you permanently shifted 
additional agents to the counterterrorism program? And where 
are you in this regard?
    Mr. Mueller. Each year I have this discussion, both with 
our people and with the committee, in terms of where we are 
going on this. I expected that there would be a greater drop in 
the number of agents who are working on counterterrorism cases 
over the years since September 11. There has been a 
diminishment of the numbers that are assigned to 
counterterrorism cases, but it still has not closed the gap. At 
the same time, each year I have asked for additional agents 
from Congress and through the administration to help close that 
gap, and I have gotten that. My expectation is that by the end 
of 2006, if trends continue, we will still have a gap of 
approximately 400. And I will be looking at how we can close 
that gap, whether it means additional requests from Congress or 
another reassignment of agents.
    One of the concerns I have about doing it too precipitously 
is that you can assign agents to a particular squad doing 
counterterrorism someplace in the country. But what we have 
found is that terrorism cases that require all our resources 
will pop up all over the place--Lackawanna, New York; Northern 
Virginia; Portland, Oregon. Understanding that our first 
priority is to prevent terrorist attacks and that we have to 
surge the manpower wherever the investigation is, it has 
provided some flexibility in terms of where we surge that 
manpower in order to address a particular investigation. Each 
year I will be looking at it. Each year we will be having a 
discussion, and I would be interested in your views about how 
you think we ought to best close that gap.

      <greek-l>FBI deg.FEDERAL BUREAU OF INVESTIGATION RECRUITMENT

    Senator Shelby. How is your recruiting going on at the FBI?
    Mr. Mueller. Very well. There are a number of people out 
there who want to be FBI agents. There are a tremendous number 
of people out there who want to be FBI analysts. I think we had 
an ad out for 1 week, and we got something like 2,200 
applications from persons who want to be FBI analysts. Our 
recruiting is going very well. We still are recruiting in other 
areas where we need different language capabilities, for 
instance, and scientific capabilities. But we are getting a 
very good response to what we have been doing.

           <greek-l>FBI deg.DIRECTOR OF NATIONAL INTELLIGENCE

    Senator Shelby. Director Mueller, Ambassador Negroponte is 
setting up the Office of the Director of National Intelligence, 
or DNI. The Intelligence Reform and Terrorism Prevention Act of 
2004 gives the DNI more direct authority over the FBI than was 
previously afforded the Director of Central Intelligence. For 
example, it is my understanding that the DNI, the Director of 
National Intelligence, Negroponte, has authority over the 
individual that you choose to serve as the Executive Assistant 
Director, or EAD, for Intelligence.
    What do you see as the role, sir, of the DNI in overseeing 
the intelligence functions of the Bureau? Do you have any 
concerns over the DNI trying to direct FBI operations--you 
know, if they do--as opposed to focusing on intelligence 
collection requirements, coordinating community efforts, and 
setting overall policy? And do you see any potential chain of 
command problems with the DNI in this authority over the EAD 
for Intelligence?
    Mr. Mueller. Let me start by saying the President has made 
it clear that the chain of command in the respective agencies 
is retained. But going to the DNI, I believe that with regard 
to the Executive Assistant Director for Intelligence, it is 
appropriate that any selection put forth by myself and approved 
by the Attorney General should include the input from the DNI 
before we put that person in place because that person will be 
a principal interlocutor with the DNI.
    Senator Shelby. Okay.
    Mr. Mueller. I believe the DNI appropriately should 
establish the requirements for collection, not just outside the 
United States but to the extent that it is a national threat 
nationally and we should be responsive. I believe the DNI 
should have some role in coordinating activities between the 
various agencies on particular threats.
    I do not perceive that, in working with John Negroponte, we 
will have any difficulties in sorting out those relationships. 
We look forward to working with him in order to become much 
more a part of the intelligence community than we have been in 
the past.

             <greek-l>FBI deg.WMD COMMISSION RECOMMENDATION

    Senator Shelby. Director Mueller, the key recommendation 
from the President's WMD Commission was to unify the Bureau's 
intelligence, counterterrorism, and counterintelligence 
programs under a single Executive for National Security who 
would report to you and Ambassador Negroponte. Currently, you 
have separate Executive Assistant Directors for Intelligence 
and for Counterterrorism Counterintelligence. What are the 
advantages and disadvantages of the WMD Commission's 
recommendation? And how do you plan to respond to this 
recommendation?
    Mr. Mueller. We are in the process with the Attorney 
General of making recommendations to the President in response 
to those recommendations that were made by the WMD Commission. 
In terms of the benefits of doing that, you have one person who 
is in a position to sort out whatever disagreements or 
differences of perception there may be between 
counterintelligence, counterterrorism, and the Intelligence 
Directorate. It also is in some sense beneficial because we 
perceive those three entities as being a national security 
service. We are developing career paths for both intelligence 
personnel to come up through the Intelligence Directorate, but 
also career paths for counterintelligence and counterterrorism. 
And that will help to build that national security service.
    The details of how it will be structured within the Bureau 
and the relationship with the DNI are still under discussion 
with the Attorney General and with the White House.
    Senator Shelby. Senator Mikulski, I would just note we have 
a vote on the floor of the Senate.
    Senator Dorgan. Mr. Chairman, I have not yet had a chance 
to ask questions.
    Senator Shelby. I apologize. I know you were in and out. I 
am sorry.
    Senator Dorgan. A vote has just started on the floor, so I 
apologize, but I----
    Senator Shelby. I went ahead of you. I shouldn't have done 
that.
    Senator Dorgan. No problem. But let me again apologize for 
being late. I had three subcommittee hearings this morning, but 
thank you, both of you, for being here.

                            SEXUAL PREDATORS

    Let me ask you, Attorney General Gonzales, about an issue 
that you have been asked about by several people on the 
subcommittee this morning, and that is the issue of sexual 
predators. Martha Stewart was let out of prison and wore an 
electronic ankle bracelet to go bake bread and do gardening, I 
guess. Today, there is perhaps a high-risk type 3 sexual 
predator being let out of prison with not much more than a ``So 
long, see you later.'' And you and I talked in January about 
this issue.
    My interest was stimulated by the murder of a young woman 
in Grand Forks, North Dakota, by a sexual predator who had been 
in prison for 23 years, a high-risk sexual predator, judged to 
be at high risk for reoffending, let out after 23 years; within 
6 months, moved on the Minnesota side of the border, so the 
registry in North Dakota would not have identified that person 
was living nearby; and within 6 months has been arrested for 
the murder of Dru Sjodin.
    When you and I visited in January, I talked about three 
things in a piece of legislation that I have introduced in the 
Senate with Arlen Specter, the chairman of the Judiciary 
Committee:
    One, a national registry of sex offenders. I was delighted 
with what you announced on Friday. Congratulations to you. I 
think it is exactly the right thing to do. I appreciate your 
agency and your leadership in doing it. We need a national 
registry of sex offenders.
    The other two provisions in my legislation are, two, before 
a high-risk sexual predator is let out of prison, the local 
State's attorney in the jurisdiction where that person was 
prosecuted should be notified in the event they wish to seek 
additional civil commitment. In the case of the person arrested 
for Dru Sjodin's murder, he was judged by the experts to be at 
high risk for reoffense and a more violent reoffense. I think 
the local authorities should be notified so that they can seek 
additional civil commitment where they think appropriate.
    And third, and very important, if, in fact, high-risk 
offenders reach the end of their sentence and are not 
recommitted civilly and are released, there needs to be 
monitoring, high-level monitoring for a period of time. As I 
said, if Martha Stewart wears an ankle bracelet, so, too, 
should a violent sexual predator who has finished his or her 
term of incarceration.
    So having said all that, first, congratulations to you. I 
think what you did Friday is wonderful. I am fully supportive 
of it. Second, can you give me your analysis of the other two 
provisions of the bill that Senator Specter and I have? One, as 
I said, is notification of local authorities, and the second is 
required monitoring upon release of a high-risk predator.
    Attorney General Gonzales. Senator, thank you, first of 
all, and thank you for reminding me about our conversation, the 
two points. I did ask my staff to go back and look at that 
specifically. I have not talked with them, but let me just give 
you sort of my gut reaction--which sometimes can be dangerous. 
I understand that. But it seems to me that providing notice to 
local officials seems to make sense. If you have got someone 
who is especially dangerous, notifying the local officials that 
you are about to release a very dangerous sexual predator in 
that community seems to make sense to me.
    In terms of monitoring, I don't know what can be done after 
the fact, after someone has already been sentenced and has 
served their time and is now being released. Clearly, if we are 
talking about people that are being tried today as part of the 
condition of their confinement, it might be possible to include 
supervision, part of the penalty, like under the PROTECT Act, 
under which I understand you can get lifetime supervision of 
dangerous pedophiles. So with respect to people going in, I 
think there are certainly steps that you can do to provide some 
kind of monitoring, but in terms of after the fact, I would 
have to look to see whether or not that is something that could 
be done. We would obviously be happy to look at that.
    Senator Dorgan. Well, I would like--and I am sure speaking 
for Senator Specter, we would really like to work with you on 
that to see if, number one, when we pass this legislation--and 
we will. It was already passed by the Senate last year. I am 
sure this legislation will be embraced by the Congress. Can we 
be helpful in the construct of the national registry, anything 
that we need to do to authorize or to be helpful to you on 
that? And then, second, we would like to work with you on the 
other two pieces as we proceed forward, and I appreciate the 
invitation to do that.
    Attorney General Gonzales. Thank you.
    Senator Dorgan. The last piece would be an unfunded mandate 
to the extent that we can do it, but it should not be a massive 
amount of expenditure by local governments, and it is just a 
thoughtful thing to do.

                            USA PATRIOT ACT

    Let me make one final point. Director Mueller, you both 
have talked about the PATRIOT Act because you have been asked 
questions about it. As you know, there is great controversy 
about that in some circles, and while I think it has been very 
helpful in some areas, it also has some provisions that are 
controversial. It was passed very quickly post-9/11. I don't 
think those of us in the Congress would believe that we ought 
to get rid of the PATRIOT Act wholesale at this point. But 
there may need to be some adjustments in the PATRIOT Act.
    Are there any complaints about the PATRIOT Act that you 
think have some merit? And you no doubt have heard many 
complaints about the PATRIOT Act. Are they all without merit, 
or are there some that have some merit and as we begin looking 
through reauthorization of the PATRIOT Act, what should we look 
to with respect to valid complaints about it?
    Attorney General Gonzales. Well, let me just say that I 
think it is never inappropriate to express concerns about the 
exercise of Government authority that might impact or does 
impact upon civil liberties and the privacy rights of any 
American. That is a good debate to have, and people ought to be 
worried about that.
    However, as we have considered the allegations of abuses, 
we have yet to find one verifiable instance when there has been 
an abuse under the PATRIOT Act. And I think the record reflects 
that the Department has been very judicious in the way it 
exercises its authority. I think the record reflects that the 
Congress did a good job in including within the PATRIOT Act 
appropriate safeguards to protect the civil liberties and the 
private rights of Americans.
    Senator Dorgan. My question was not so much about abuse. My 
question was about the authority itself. And there is some 
controversy about certain areas of authority. But let me submit 
some questions in writing, and undoubtedly the Congress will 
proceed in this area, and not, in my judgment----
    Senator Shelby. The record will stay open for these.
    Senator Dorgan. Let me just submit that to you. And, again, 
let me thank both of you for being here.
    Senator Shelby. Senator Mikulski.
    Senator Mikulski. Mr. Chairman, I note that there is a vote 
on, and this is the vote that shows our willingness to cross a 
divide that was growing in the Senate on judicial nominations. 
I want to be on the floor. The number of Senators who 
participated kind of minimizes my time for a second round, but, 
Mr. Mueller, I hope to be able to continue a conversation with 
you on a couple of issues. One, you are leading a major 
transformation of the FBI, and know that we want to be very 
supportive.

                   <greek-l>FBI deg.HEALTH CARE FRAUD

    I note that there was a scathing article in the New York 
Times about the FBI and health care fraud and the issue of the 
FBI mishandling health care fraud cases. I will give you the 
article. But what it comes down to is that you could not 
account for the data and what agents were doing what, et 
cetera. We cannot enter into a conversation about this as I had 
hoped to, but this then takes me to technology----
    Mr. Mueller. Can I just say, the GAO report takes us to 
task for not adequately showing that the agents were actually 
working health care fraud cases. They were. And so it is our 
ability to account for that that is being----
    Senator Mikulski. That was going to be my next question, 
which then takes us to the whole issue of technology and the 
use of technology, and also the fact that I understand you now 
have a prime time chief information officer that will be 
involved in procurement.
    Again, my time is up. I have to go to the floor to vote. 
But I do hope that we can continue the discussion as well as 
the transformation on counterterrorism. We want to support you. 
We want you to do what you can do.
    Mr. Chairman, thank you for an excellent hearing.
    Senator Shelby. Thank you.

                     ADDITIONAL COMMITTEE QUESTIONS

    First of all, Mr. Attorney General and Director Mueller, we 
want to thank you for your appearance. We do have a number of 
additional questions for the record we will send to you. We 
look forward to working with you. We want to make sure that 
both of you have the resources that you need here to do your 
job.
    [The following questions were not asked at the hearing, but 
were submitted to the agencies for response subsequent to the 
hearing:]
               Questions Submitted to Alberto R. Gonzales
            Questions Submitted by Senator Pete V. Domenici

                     IMMIGRATION BACKGROUND CHECKS

    Question. What immigration applications require an FBI background 
check?
    Answer. Federal Bureau of Investigation (FBI) Name Checks are 
provided with respect to six specific applications: Form N-400, 
Application for Naturalization; Form I-192, Application for Advance 
Permission to Enter as Nonimmigrant; Form I-485, Application to 
Register Permanent Residence or Adjust Status; Form I-589, Application 
for Asylum; Form I-601, Application for Waiver of Grounds of 
Excludability; and Form I-687, Application for Status as a Temporary 
Resident Under Section 245A of the Immigration and Nationality Act.
    Further details may be available from U.S. Citizenship and 
Immigration Services (USCIS).
    Question. When was the policy that requires these background checks 
created?
    Answer. The FBI began conducting name checks for naturalization 
applicants after the Immigration and Nationality Act was passed in 
1952.
    Question. Is there another way to safely review these applications 
in a more expedited manner?
    Answer. It is the FBI's understanding that no other source of 
information would contain the extensive biographical and historical 
information found in FBI files (including information concerning 
violations of law and threats to our national security), which is the 
product of the FBI's long history of conducting criminal and 
counterintelligence investigations. The current global situation 
requires diligence in the screening of applicants for entry into the 
United States and for citizenship. Without considering all pertinent 
facts, informed decisions cannot be made regarding the suitability of 
foreign individuals for immigration or for naturalization as United 
States citizens.
    On average, the FBI's National Name Check Program Section (NNCPS) 
returns 68 percent of name check requests to the USCIS within 48 hours. 
An additional 22 percent of these requests are responded to within 30 
days, on average. The remainder of the requests require extensive 
research and processing and often take 120 days or more. Much of this 
work requires analysts to retrieve and review paper documents, which is 
a time consuming but necessary step. To improve the performance of the 
National Name Check Program and reduce the time required to process 
name check requests, the FBI continues to leverage technology and to 
identify management actions that will improve efficiency.
    Question. Could another agency be equipped with the tools to 
conduct these background checks?
    Answer. The FBI is not aware of another source that could provide 
the type and depth of information, including historical information, 
necessary for these checks. The FBI's NNCPS works cooperatively with 
its customer base and continuously seeks to improve the quality of its 
customer service through the innovative application of technology and 
effective resource management.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy

                       VIRTUAL CASE FILE/SENTINEL

   Question. What were the two cost estimates provided by Mitretek and 
Aerospace, and when does the FBI expect to have a final cost estimate? 
If this information is classified, please make arrangements to provide 
this information to cleared staff.
    Answer. The Federal Bureau of Investigation (FBI) has reconciled 
the cost estimates from Aerospace and Mitretek and has developed a cost 
estimate to be used for budgetary purposes. Although this information 
is not classified, revealing it would alert potential contractors to 
the government's expectations regarding contract price, and would 
compromise the ability of the bid process to identify the lowest 
responsive, responsible bidder. The FBI will provide a final cost 
estimate when the contractor has been selected.
    Question. Based on the two cost estimates you have received so far, 
how much additional funding or reprogrammed funds will the FBI require? 
If reprogramming is required, what programs do you anticipate will lose 
funds?
    Answer. On September 27, 2005, the Department of Justice (DOJ) 
submitted a reprogramming to Congress for Phase 1 of SENTINEL, totaling 
$97 million. Since SENTINEL will support all investigative activities 
across the FBI, all programs were reviewed as potential sources to 
support SENTINEL.
    Question. Please reconcile these statements. Will the FBI utilize 
the interface or any element of the IOC, and on what basis did the 
Bureau reach this conclusion? Please also indicate whether the FBI has 
received any assessment from Mitretek of the IOC pilot, and if so, 
please describe those results.
    Answer. The pilot was intended to test case management concepts as 
well as actual software code developed by the Virtual Case File (VCF) 
contractor. While the user interface code developed for VCF will not be 
re-used in SENTINEL, user interface concepts tested in the pilot proved 
to be essential tools and were incorporated into SENTINEL's 
requirements document. In addition, portions of the VCF interface code 
will be used in an on-going project to make data in the existing case 
management system (the Automated Case Support system) accessible 
through SENTINEL. This on-going effort will support Phase 1 of 
SENTINEL.
    Mitretek Systems' VCF Initial Operating Capability Final Report, 
delivered in April 2005, was consistent with the conclusions described 
above. In addition, its evaluation stressed the importance of waiting 
to deploy an electronic workflow capability until it can be supported 
by an electronic records management capability. The notional phases in 
which SENTINEL will be developed have been structured to reflect this 
conclusion.
    Question. Has the list of requirements been refined and does the 
FBI now have a final requirements list for the SENTINEL project? If 
not, when will the FBI have a final list?
    Answer. Review of the SENTINEL System Requirements Specification 
(SRS) by line-of-business owners and stakeholders has been completed 
and comments from this review have been incorporated into the SRS.
    Question. Has a project manager been appointed for SENTINEL, and if 
so, who is the project manager? If not, when will a project manager be 
appointed?
    Answer. Miodrag Lazarevich was appointed as SENTINEL's Program 
Manager on 6/13/05. Prior to his detail to the FBI, Mr. Lazarevich 
served as the Deputy Director for a joint special program office at the 
Central Intelligence Agency (CIA). During that assignment and numerous 
assignments in the military, diplomatic, and intelligence communities, 
Mr. Lazarevich has managed large programs dealing with the development 
of communications systems, information technology, strategic investment 
plans for future systems, research and development technology 
insertion, and cross-agency policy. Mr. Lazarevich is program manager 
and a Contracting Officer Technical Representative certified at level 
3, and has had extensive field experience and executive management 
training and experience. Mr. Lazarevich is also a former United States 
Army Signal Corps officer, including both active and reserve duty, and 
holds a Bachelor of Science degree in Electronic Engineering from the 
University of Wisconsin at Madison and a Master of Science degree in 
Electronic Engineering from the University of Arizona at Tucson.
    Question. Director Mueller testified on May 24 that the FBI intends 
to complete the SENTINEL project in 4 phases with phase one to be 
completed 12 months after the contract award and an overall timeline of 
39 to 48 months. In light of the time we have already lost on the 
Virtual Case File effort, the prospect of 4 more years before agents 
will have these full capabilities disappoints and concerns me. Please 
describe what functionalities will be available to FBI agents when each 
of these phases is complete, and please also provide the estimated 
completion dates for phases 2 and 3.
    Answer. As indicated in the below chart, Phase 1 will establish a 
single point of entry for legacy case management. The user will be 
presented with the look and feel of a single integrated system instead 
of stove-piped applications. Phase 1 will also expand the search 
capability, allowing searches across multiple case-related systems, and 
subsuming and expanding Automated Case Support capabilities by 
summarizing a user's workload on a dashboard, rather than requiring the 
user to perform a series of queries to obtain it. To simplify the entry 
of data into the Universal Index (UNI), an entity extraction tool will 
be used to automatically index appropriate persons, places, and things. 
Finally, the core infrastructure components will be selected during 
Phase 1.
    Phase 2 will provide case document management and records 
management repositories, beginning the transition to paperless case 
records and implementing the electronic records management capability. 
A workflow tool will support the flow of electronic case documents 
through their review and approval cycles, and a new security framework 
will support role-based access controls, single sign on, externally 
controlled interfaces, and electronic signatures based on Public Key 
Infrastructure. This phase will address the concern expressed by users 
of Virtual Case File's Initial Operating Capability that a paperless 
environment is necessary to leverage the benefits of automated 
workflow.
    Phase 3 will replace and improve the Bureau-wide global index for 
persons, places, and things. In the ``Connect the Dots'' paradigm, the 
``dots'' are represented by UNI, the legacy index that is, in effect, a 
database of entities (i.e., persons, places, and things) that have case 
relevance. Unlike the current UNI index, which supports a limited 
number of attributes, the new global index will improve the richness of 
the attributes associated with the indexed entities, permitting more 
precise searching.
    Phase 4 will implement the new case and task management and 
reporting capabilities and will begin the systematic consolidation of 
case management systems. This phase will consolidate and incorporate 
functions currently performed by stovepipe legacy systems, which will 
be retired at this point.
    The following chart identifies the functionalities that will become 
available through each phase of SENTINEL's development.

----------------------------------------------------------------------------------------------------------------
            Phase                            Description                         Functionality Provided
----------------------------------------------------------------------------------------------------------------
Phase 1.....................  SENTINEL Portal Access to ACS...........  SENTINEL portal access to legacy data
                                                                        Case Management Workbox
                                                                        Entity extraction for the UNI
                                                                         application
                                                                        Expanded search capability, including
                                                                         Electronic Case File (ECF) and
                                                                         IntelPlus
                                                                        Service Oriented Architecture (SOA)
                                                                         framework and foundation services
Phase 2.....................  ECF Replacement.........................  Case Document Management (DM)
                                                                        Records Management Repository (RM)
                                                                        Workflow management
                                                                        Extended security with role-based access
                                                                         controls, Public Key Infrastructure
                                                                         (PKI), and digital signatures
                                                                        Searching and reporting for DM/RM
                                                                        Adjustments to interfaces
Phase 3.....................  UNI Replacement.........................  Improved Global Index with expanded
                                                                         attributes, including Data Extraction
                                                                         and Extension Project (DEEP)
                                                                        Expanded searching and reporting
                                                                        Adjustments to interfaces
Phase 4.....................  Case Management Consolidation, including  Case Management and Reporting
                               Investigative Case Management, Asset     Task Management
                               Database, Criminal Management Informant  Collected Items Management
                               System, Financial Institution Fraud,     Adjustments to interfaces
                               Bank Robbery Statistical Application,
                               Integrated Statistical Reporting and
                               Analysis Application, and Guardian.
----------------------------------------------------------------------------------------------------------------

    Question. Director Mueller testified on May 24 that ``SENTINEL is 
different from the Virtual Case File program in a number of ways'' and 
referenced a ``chart that illustrates the additional capabilities that 
will be available under SENTINEL, capabilities that were not 
contemplated as part of Virtual Case File. . .'' Please provide a copy 
of this chart.
    Answer. The Request for Proposals (RFP) was not made public, but 
was instead published only to those contractors eligible to bid under 
the Government Wide Acquisition Contract. Because the chart comparing 
VCF capabilities with those we will seek in SENTINEL would convey much 
the same information as the RFP (though in far broader terms), we 
cannot provide the chart until the RFP is made public. We will be happy 
to provide the chart when that occurs.
    Question. In response to questions from the Feb. 3, 2005, VCF 
hearing, Director Mueller stated that the FBI ``plans to request 
additional government software and systems engineers in the future to 
bolster its resource pool for dealing with complex and critical 
information technology projects.'' Do the funds requested in this 
budget cycle address the FBI's needs for additional software and 
systems engineers, and how much do you anticipate will be necessary for 
these purposes?
    Answer. The FBI's portion of the President's fiscal year 2006 
budget includes $7 million in nonpersonnel funding for ``Enterprise 
Information Technology Management.'' Of this $7 million, $5.8 million 
would be used to hire 23 contractors in the Office of the Chief 
Information Officer, 5 of whom would focus on systems engineering. 
Future budget requests for additional contractors or full-time FBI 
software engineers will be based on an assessment of personnel and 
operational needs related to the evolving technologies that support the 
FBI's mission.
    Question. When do you expect that the FICMS framework will be 
finalized?
    Answer. A draft white paper describing the Federal Investigative 
Case Management System (FICMS) framework has been forwarded to DOJ for 
its use in assisting other law enforcement agencies' case management 
projects.
    Question. What will the FBI's role be in the FICMS project?
    Answer. FICMS serves as the framework that will guide the 
development of DOJ and Department of Homeland Security investigative 
case management systems. The FICMS framework complies with the Federal 
Enterprise Architecture (FEA), uses FEA reference models, and will 
contribute to our national security by strengthening the sharing of 
terrorist information as required by Executive Order 13356. Each agency 
participating in FICMS has unique needs and will employ its own 
mechanisms to manage investigative workflow, manage records, and 
analyze data. These individual systems will, however, follow the FICMS 
blueprint, permitting data to flow easily and securely between 
agencies. As the FICMS Executive Agent, the FBI is moving forward with 
the development and deployment of the SENTINEL system, which will 
follow the FICMS framework and establish key architectural components 
for the FICMS infrastructure.
                                 ______
                                 
             Questions Submitted to Robert S. Mueller, III
            Questions Submitted by Senator Patrick J. Leahy

                         OKLAHOMA CITY BOMBING

    Question. You indicated at the hearing that the FBI failed to find 
all the evidence when it searched Nichols' home ten years ago because 
the evidence was buried under the earth. Are you considering any 
changes to the Bureau's search protocols as a result of this incident?
    Answer. The Federal Bureau of Investigation (FBI) used all 
appropriate investigative techniques when searching Terry Nichols' home 
in April 1995, and it does not appear that, short of dismantling the 
residence, the explosives buried under the crawl space could have been 
located given the technology available at that time. Among other 
investigative techniques, the FBI used an Ion Mobility Spectrometer 
(IMS), which is an instrument designed to detect explosives. It is 
likely the IMS did not detect the presence of explosives, which were 
later found based upon information provided by Nichols, because these 
explosives were in their original packaging, then wrapped in paper, 
then further shrink-wrapped with several layers of plastic, and finally 
buried beneath rocks and dirt. The 1995 search revealed only normal 
construction debris and stones left from the construction of the stone 
foundation, and no anomalies or indicia of recent disturbance were 
identified.
    While the FBI constantly seeks advancements in technology that can 
aid in our investigative mission, and the capabilities of the FBI's 
Evidence Response Team have increased significantly in the past decade, 
the FBI forensic personnel deployed to the site in 1995 were both 
appropriate for the circumstances and highly qualified. The team of 
personnel included a Supervisory Special Agent from the FBI's 
Explosives Unit, a chemist, a latent fingerprint supervisor, and a 
fingerprint examiner, as well as a team of United States Army Explosive 
Ordnance Disposal personnel and bomb technicians from the Bureau of 
Alcohol, Tobacco, and Firearms. This group was highly effective, 
locating numerous items of incriminating evidence, including weapons, 
explosives, blasting caps, chemicals, United States currency, and 
documents. While the forensic tools available to the FBI improve as 
technology advances, the FBI does not believe that a different search 
protocol would have yielded a different result.
    Question. Is there anything about the recent discovery that changes 
the Bureau's understanding of who did what in the conspiracy to bomb 
the Murrah building--and if not, why not?
    Answer. The information derived from the recent discovery does not 
change the FBI's determination of who was responsible for or involved 
in the conspiracy to bomb the Murrah Building. An extensive and 
exhaustive investigation determined that the two subjects responsible 
for the bombing of the Murrah Building were Timothy McVeigh and Terry 
Nichols. The FBI thoroughly investigated the allegation that Roger 
Edwin Moore was involved in that bombing, but the investigation yielded 
no credible evidence supporting the allegation.

                          SUBCOMMITTEE RECESS

    Senator Shelby. The subcommittee will now stand in recess 
until Thursday, May 26, at 2 p.m., when we will hear testimony 
from the Secretary of Commerce on the Department's budget for 
2006.
    The subcommittee is recessed.
    [Whereupon, at 12:12 p.m., Tuesday, May 24, the 
subcommittee was recessed, to reconvene at 2 p.m., Thursday, 
May 26.]


  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2006

                              ----------                              


                         THURSDAY, MAY 26, 2005

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:02 p.m., in room S-146, the 
Capitol, Hon. Richard C. Shelby (chairman) presiding.
    Present: Senators Shelby, Gregg, Stevens, Cochran, and 
Mikulski.

                         DEPARTMENT OF COMMERCE

                        Office of the Secretary

STATEMENT OF HON. CARLOS M. GUTIERREZ, SECRETARY OF 
            COMMERCE
    Senator Shelby. The subcommittee will come to order. I want 
to welcome the Secretary of Commerce, Secretary Gutierrez, who 
is here today. This is your first appearance before the newly 
created Senate Appropriations Subcommittee on Commerce, 
Justice, Science, and Related Agencies. Welcome, Mr. Secretary.
    Secretary Gutierrez. Thank you.

                             BUDGET REQUEST

    Senator Shelby. We thank you for joining us for this budget 
discussion.
    We look forward to hearing from you about your vision for 
the Commerce Department and the challenges that you see as the 
Secretary in the coming year. Given the tight budget, we seem 
to always have tight budget constraints that we are facing, 
this subcommittee will need your assistance big time in making 
some very tough choices about the distribution of resources as 
well as your guidance regarding the essential priorities of the 
Department of Commerce.
    The fiscal year 2006 budget request which is before us for 
the Department of Commerce is $9.4 billion. This includes $3.7 
billion for the President's strengthening America's communities 
initiative, and with the initiative, the Department's total 
budget increases by $3 billion over last year's funding level. 
Without the initiative, however, the Department's total budget 
decreases by $656 million.
    While this initiative has laudable goals, I believe there 
may be some obstacles ahead. The program consolidates 18 
Federal economic and community development programs from a 
variety of agencies into a single direct grant program to be 
housed in the Commerce Department. Legislation has not yet been 
introduced to authorize the program, and the details of the 
initiative are still unknown. I hope today you will provide us 
some information regarding the details that have been lacking 
about the initiative as well as your plan for moving forward. I 
think it is important for us as appropriators to know where we 
are going and how we're going to get there.
    The Department's budget also, Mr. Secretary, proposes 
significant increases for the Census Bureau, the Patent and 
Trademark Office (PTO), and the Bureau of Industry and Security 
(BIS). I understand that the increase for the Census Bureau 
primarily supports the decennial census, and the increase for 
PTO reflects full access to its fees and will support 
minimizing application processing time and enhancing the 
quality of products and services for the patent process and the 
trademark process. I hope we can discuss these increases.
    We would also like to discuss whether the increases 
proposed for the Bureau of Industry and Security are sufficient 
to support BIS' critical mission regulating the export of 
sensitive goods and technologies. Your budget does include some 
programmatic decreases and this concerns me. Mr. Secretary, the 
administration proposes to cut funding for the National Oceanic 
and Atmospheric Administration (NOAA) by 8.5 percent. The cut 
comes at a time when the Presidentially appointed U.S. Ocean 
Commission recommended doubling our Federal expenditures on 
ocean and coastal research, and given the recommendation, the 
subcommittee finds such a decrease a little puzzling.
    Mr. Secretary, following your confirmation, I am sure you 
were surprised to learn that NOAA makes up 65 percent of your 
budget. While we appreciate that you must balance many 
important priorities within the Department of Commerce, you 
will find on this subcommittee, there is significant interest 
in NOAA. NOAA produces nautical charts and tide predictions 
critical to trade and commerce. It manages fish and shellfish 
for world consumption. It provides weather and climate 
predictions vital to the agriculture and energy sectors and to 
commerce as a whole. Mr. Secretary, I hope as you begin to 
write your first budget request for the Commerce Department, 
you consider carefully the concerns of this subcommittee 
regarding the funding for NOAA.
    I am pleased that the administration continues to show 
support in its budget request for the labs of the National 
Institute of Standards and Technology, better known as NIST, by 
proposing $426 million, a 12.5 percent increase above last 
year's appropriation. Your labs play a vital role in the 
development of measurements, standards and technology to 
enhance productivity, facilitate trade and improve the quality 
of life. NIST's standards and measurements contribute to the 
development of such things as bulletproof vests, mammogram 
technology, DNA analysis, computer security, nanotechnology, 
voting machines, and manufacturing.
    Unfortunately, the administration proposed to terminate the 
Advanced Technology Program and reduce the Hollings 
Manufacturing Extension Program by over 50 percent. I am sure 
you will find, Mr. Secretary, that these programs enjoy support 
on both sides of the aisle here from a number of members. I 
plan to work with Senator Mikulski to ensure that all of NIST's 
programs are funded so it can carry out its mission of 
standards and technology.
    In addition, the budget proposes to terminate the public 
telecommunications facilities, planning, and construction 
program, grants which provide support for public broadcasting's 
digital conversion. The proposal assumes these grants can be 
provided through the Corporation for Public Broadcasting (CPB), 
even though CPB's assistance has traditionally been a lot more 
limited. I would like to discuss the impact of the shift of 
responsibilities that it would have, especially on rural 
stations in the United States.
    Mr. Secretary, I look forward to hearing your thoughts on 
the Commerce budget request and look forward to working with 
you in the years ahead.
    Senator Mikulski.
    Senator Mikulski. Thank you very much, Mr. Chairman, and I 
want to associate myself with the priorities you have outlined 
here.
    I do want to welcome Secretary Gutierrez to the hearing 
today, his first appearance, and we look forward to ongoing 
conversation not only in these formal public hearings. Knowing 
of his distinguished career in business, we know that we can 
count on him to promote American business both here at home and 
abroad.
    Mr. Secretary, you know you have a tough job. Our trade 
deficit is at a record high, over $600 billion. Our 
manufacturing is fading. Where will the new ideas and the new 
jobs come from? And also, the challenges of protecting our 
intellectual property as well as moving many ideas into a 
patent framework so that they can be protected. I am concerned 
that we could be losing our competitive edge in the global 
economy.
    But here, as we look at your budget, we feel that we could 
be working for a stronger economy, and we look forward to 
working with you. As I go through my questions, one of the 
areas we will be looking at is how will this budget help 
develop innovation? Because that will be the key to our future, 
to develop new technologies and new innovations, new ideas that 
create the new jobs in the future.
    Also, I want to know how this year's budget actually 
focuses on saving lives and saving property. And this takes us 
to NOAA as well as to NIST. NOAA safeguards and protects 
property by forecasting the weather, protecting natural 
disasters, and helping citizens and communities prepare as well 
as the mapping that it does. NIST, our own National Institute 
of Standards, as Senator Shelby says, is developing 
breakthrough ideas on technology.
    We do not always think of them as life savers; yet, when I 
visited NIST, I saw they had a replica and computer models and 
actual physical renditions of the World Trade Center. And 
there, just in very modest laboratory circumstances, they were 
identifying why did that building collapse? Why was there so 
much smoke? All of the questions that led to such death and 
destruction. And they wanted to know not only so we could honor 
what happened but will lead to new ideas and building codes and 
architectural reform and better standards and toxic materials 
in buildings. They are saving lives. They had digital cameras 
they were testing.
    Mr. Chairman, as we spend millions on homeland security and 
the fire grant program, what are the digital cameras that can 
really help a first responder go into a room and spot whether 
it is a mattress on the floor or whether it is a child wrapped 
in a blanket, and they are doing that, setting those standards. 
So we are proud of them, and we look forward to what we can do 
to work with them. We love the Commerce Department in Maryland. 
It is the headquarters of NOAA. NIST is located there as well 
as the Census Bureau, and I know as you visited them, you see 
how dedicated those civil servants are.
    So as we look at NOAA, I want to reiterate what our 
chairman said: make sure that it is adequately funded so that 
it can save lives and save livelihoods. And also, many of the 
ideas that they develop, we are seeing that they move into the 
commercial marketplace. They seem to be developing public-
private partnerships, especially in the weather field. So we 
look forward to hearing your ideas and how you see that while 
they do the research and do the studies how this goes into the 
future.
    In terms of the innovation economy, I am concerned that the 
Task Force on the Future of American Innovation is concerned 
that we are falling behind in innovation. And that is where we 
look to NIST to research these technologies and in these new 
fields such as nanotech, through programs like the Advanced 
Technology Program and the Manufacturing Extension Partnership. 
I will tell you, they have been a tremendous help in the 
biotech field right here in the Capital region and have spawned 
some of these ideas.
    But really, what has me on edge is the backlog of patent 
applications. We have a backlog of almost 500,000 patent 
applications, and if we invent it, we want to protect it so we 
can sell it. And we look forward to your ideas on how to deal 
with the backlog. We know the budget is tight. We have tough 
choices. But I want to be sure that we work in a partnership 
with you. I want to keep their ideas here and protect their 
ideas so that we continue building our market share, so the 
workers are working in a team and having a budget framework 
that works as well.
    Thank you, Mr. Chairman.
    Senator Shelby. Senator Stevens.

 NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION ACTIVITIES AND FUNDING

    Senator Stevens. Mr. Secretary, I welcome you to this 
hearing today. When we had a shift of control in the Senate, 
this was my office for awhile. It sort of reminds me of a lot 
of things, but one of the things it reminds me of is the 
meetings we had here about NOAA. And we just, your Department 
recently discovered that the way that the coastline of the 
United States has been computed is erroneous, and if you 
include offshore islands and archipelagos and those areas of 
tidal water up to a point where it is less than--more than 100 
foot closure of tidal water, that Alaska's coastline is more--
we used to say it was half the coastline of the United States. 
Now, it is greater than all of the coastline of the United 
States.
    NOAA is to us an enormous entity that covers North Pacific 
surveys, Gulf Alaska surveys, North Pacific maritime boundary 
line surveys, the Gulf of Alaska Ecosystem Monitoring, the 
Southeastern Coastal Observing System, the National Invasive 
Species Act, and the Marine Debris Removal Program. It is not 
only important to Alaska's fishing industry, but it is 
important to the whole country, because we are the home of most 
of the marine mammals that live off our coasts.
    The one thing that bothers me the greatest, though, is the 
tsunami warning system. After the great tsunami that we 
witnessed here just in our own lifetime, I went to look at the 
tsunami warning system in Hawaii. Three of the five warning 
devices are off of my State. Senator Inouye and I helped them 
to get there. They have been inoperable for 2 years because of 
lack of funds. Out of the five, only one was working. Had the 
tsunami come the other way, the damage to our United States 
would have been untold, because we would have had no warning, 
although we thought we were the only Nation in the world that 
had a warning system.
    And now, here comes a level of funding that I just cannot 
understand. I know you did not do it. You were not there. But 
someone needs to have their head examined. We exist primarily 
because of the fish that we consume. Our Nation is turning into 
a Nation of fish eaters. Sixty percent of all the fish that 
Americans consume come from off the State of Alaska. All of 
these NOAA programs are designed to protect those species of 
the ocean, to assist on debris removal, to insist on no drift 
nets, to insist on maintaining the concept of limiting 
fisheries so that they never go beyond the sustainable limit. 
And NOAA does that all. I really do not understand the NOAA 
level. It is just impossible for us to understand it.
    So I look forward to working with you somehow or other. I 
think that you will be known as a magician if you can help us 
solve this problem this year, although I have just come from a 
meeting where there is good news: they tell us that the deficit 
this year will be at least $60 billion to $70 billion lower 
than anticipated. I am sure you have seen the good news. The 
income of the Treasury is up by 20 percent more than it was 
predicted. The rate of growth of the country is up. If we can 
get some of that sunshine shining in this room, maybe we can 
solve this problem.
    Welcome.
    Senator Shelby. Senator Gregg.
    Senator Gregg. Thank you, Mr. Chairman.
    Mr. Secretary, I want to follow on to what the President 
pro tempore said regarding NOAA, and I guess I have some 
specific questions in this area. Last year, the subcommittee 
funded DOC's policy proposal nowhere near what it needed but at 
a fairly significant and robust level, Admiral Watkins' 
proposal of $350 million. And your budget submission basically 
eliminates that funding.
    In addition, we made a strong commitment to NOAA as we 
always do, and unfortunately, your budget submission does not 
have the same robust commitment. So I guess my first question 
to you is what is the administration position on the Ocean 
Policy Commission's report? It appears to be one of active 
neglect. I thought maybe you could tell us something else.
    Senator Shelby. We are not in questions yet.
    Senator Gregg. We are just doing opening statements. Oh, I 
apologize. I thought we were in questions.
    Senator Shelby. Just defer.
    Senator Gregg. Well, just reserve that question in the back 
of your mind. I have given you warning.
    Senator Shelby. Maybe you can answer that, Mr. Secretary, 
when you give your statement.
    Senator Gregg. That is my statement.
    Senator Shelby. Thank you.
    Senator Cochran.
    Senator Cochran. As chairman, I could just suggest to the 
Secretary that you have become Secretary of Commerce at a good 
time. I noticed the recent economic forecast and reports of the 
growth in the economy are suggesting that it is way above what 
expectations were. And we did not expect you would be Secretary 
of Commerce. So maybe this is the reason why the economy is 
growing as robustly as it is, and you can discuss that with us, 
and I would appreciate your observations about what we can 
foresee maybe more realistically for growth in the future, if 
it will continue to grow at this rate.
    Thank you, Mr. Chairman.
    Senator Shelby. Mr. Secretary, your written statement will 
be made part of the record. You may proceed as you will.
    Secretary Gutierrez. Thank you, Mr. Chairman. I have a 
summary of the statement in front of me.
    Senator Shelby. Okay.
    Secretary Gutierrez. Mr. Chairman and Senator Mikulski and 
members of the subcommittee, I am pleased to present the 
President's fiscal 2006 budget request for the Department of 
Commerce, and with your permission, I would like to just 
highlight some of the key components of the budget and submit 
my written testimony for the record.
    Senator Shelby. Sure.
    Secretary Gutierrez. As you well know, Congress created the 
Department of Commerce 100 years ago to promote economic growth 
and opportunity for business and workers. Our approach to this 
vital mission is threefold: first, we provide the tools to 
maximize U.S. business development and competitiveness; second, 
we foster technology and innovation; and third, enhance 
environmental understanding and stewardship.
    The President's total budget request for the Department of 
Commerce is $9.4 billion, and it is focused on core programs 
that promote a prosperous, productive, and secure America. 
Included in this budget is $3.71 billion for the President's 
new Strengthening America's Communities Initiative.
    Our economy, as you know, is solid, it is strong, and it 
certainly is stronger than our major trading partners around 
the world. And as you also know, private forecasters predict 
that strong economic growth will continue. We know that there 
are still transitioning communities and workers who need our 
help. We believe that by consolidating 18 Federal programs 
within the Department of Commerce, we can simplify the 
application process, eliminate duplicative programs, and 
establish greater accountability. Most importantly, we can make 
better use of taxpayers' dollars and achieve greater results 
for low-income people in economically distressed areas.
    For the International Trade Administration, we are 
requesting $396 million to continue aggressively promoting U.S. 
exports, opening markets, ensuring a level playing field for 
American companies and workers. Over the last 50 years, the 
contribution of exports to our economy has more than doubled. 
It is more than likely that exports will continue to be an 
increasing share of our growth as we open markets and the 
economies of our trading partners expand.
    Timely and accurate economic information is needed to 
generate growth and jobs. Therefore, an additional $9 million 
is requested for the Bureau of Economic Analysis. These funds 
will support completing a multiyear effort to improve economic 
measures and expand business investment data.
    An increase of $133 million is requested to support 
initiatives in the Census Bureau, including reengineering the 
decennial census. Ongoing efforts include administering the 
American community survey and developing plans for the 2010 
census based on only a short form.
    For our Bureau of Industry and Security, we are requesting 
a $9.5 million increase to target export enforcement of 
advanced technologies. To maximize technology's contribution to 
economic growth, high-wage job creation and the health and 
safety of our citizens, we are requesting $532 million for 
NIST. This includes a 13 percent increase for high priority 
research in areas such as manufacturing, nanotechnology and 
public safety programs.
    For NOAA, we are requesting $3.6 billion to fund research, 
prediction, and stewardship programs critical to the Nation's 
economy and public well-being. This includes funding to begin 
construction of a fourth fishery survey vessel, to address 
ecosystem research priorities, and to complete a 2-year plan 
for providing 100 percent detection capability for a U.S. 
coastal tsunami. The new system will expand monitoring 
throughout the Pacific and Caribbean basin and provide warning 
coverage for regions bordering half of the world's oceans. I 
would like to thank the members for the funds in the fiscal 
year 2005 supplemental for our tsunami efforts.
    Mr. Chairman, this budget concentrates on our Nation's 21st 
century economic and security needs. The President has shown 
strong leadership in laying out a course for cutting the budget 
deficit in half over the next 5 years, and that requires making 
hard choices across the entire Federal Government.
    We have not requested new funding for the Advanced 
Technology Program. We believe other R&D programs address 
higher priority needs of the U.S. science and technology 
community. We have asked Congress to provide phaseout funding 
for public telecommunications facilities planning and 
construction, and we have requested funds for the Manufacturing 
Extension Partnership (MEP) staff which, when combined with 
outside resources, will allow Hollings MEPs to maintain a 
national network. Funding will be targeted to the centers' 
performance and needs.
    I understand that there are those who have differing views 
about these choices. Please know, needless to say, I respect 
your views, and I look forward to working with you and other 
Members of Congress throughout the budget process.

                           PREPARED STATEMENT

    Mr. Chairman, I want to thank you and the subcommittee for 
the generous support you have provided Commerce programs and 
missions in the past. I welcome your comments, and I would be 
pleased to answer any questions that you may have.
    [The statement follows:]

                 Prepared Statement of Carlos Gutierrez

    Mr. Chairman and Members of the Subcommittee, I am pleased to 
appear before you today to present the President's budget request for 
economic, scientific, technological, and environmental programs of the 
Department of Commerce. Our request of $9.4 billion is an increase of 
$3.1 billion above the fiscal year 2005 enacted level. This 
performance-integrated budget, based upon the Department's Strategic 
Plan, includes a proposal to create a new opportunity to foster 
domestic economic and community development through the Strengthening 
America's Communities Grant Program. And, in keeping with Commerce's 
mission to provide the tools to maximize U.S. competitiveness and 
enable economic growth for American industries, workers, and consumers, 
the request continues programs that create conditions for economic 
growth and opportunity for all Americans by promoting innovation, 
entrepreneurship, competitiveness, and stewardship.

Provide the information and tools to maximize U.S. competitiveness and 
        enable economic growth for American industries, workers, and 
        consumers
    The President's new initiative, Strengthening America's Communities 
(SAC), will consolidate and transform 18 Federal economic and community 
development programs from the Departments of Agriculture, Health and 
Human Services, Housing and Urban Development, Treasury, and Commerce 
into a single direct-grant program to be housed within the Department 
of Commerce. The purpose of this initiative is to create an 
Administration-wide unified approach to the Federal government's 
domestic development efforts, rather than one distributing efforts 
across agencies. The results will better focus resources and eliminate 
overlapping and conflicting programs.
    This consolidated economic and community development grant program 
will streamline Federal assistance. It will provide States and 
communities with simplified access to the Federal grant system, focus 
on communities most in need of assistance, and require communities to 
meet substantive accountability standards that will track progress 
toward achieving the community's goals of long-term economic stability 
and growth. By consolidating those programs that share a similar 
mission, the Strengthening America's Communities initiative will help 
provide a more coherent, strategic and results-oriented focus to 
federal economic development efforts. In addition, by providing 
incentives and increased accountability, we can reward communities that 
make concrete economic improvements in distressed areas. The fiscal 
year 2006 budget requests a total of $3.71 billion for the new 
Strengthening America's Communities Grant Program. The Administration 
intends to prepare and present to Congress legislation to implement the 
initiative as soon as possible.
    This past February, I met with European Union officials in 
Brussels, Belgium, to discuss the Administration's continued commitment 
to working with other nations to achieve common goals. The strength of 
the U.S. economy is closely tied to our success in fostering 
international partnerships and encouraging broad support for the sound 
fiscal and monetary policies that create jobs at home and produce 
prosperity around the world.
    The Bureau of Economic Analysis (BEA) seeks to strengthen the 
understanding of the United States economy and its competitive 
position. BEA accomplishes this task by providing accurate economic 
accounts data in a timely and cost-effective manner, and by supplying 
many of the Nation's key economic statistics, including the Gross 
Domestic Product. To ensure we have sufficient tools to provide our 
decision-makers with the necessary information, we have included in 
this request a 12 percent increase for BEA to support key initiatives: 
to improve international statistics to better describe offshore 
outsourcing, expand business investment data, and finish a multi-year 
effort to improve the timeliness, relevance, and accuracy of economic 
measures.
    The Bureau of the Census requests an increase of $133 million to 
support initiatives that will significantly improve the quality of the 
information it collects and provides to the country. The most 
significant increase supports the three key components of re-
engineering the Decennial Census. First, the American Community Survey, 
the annual replacement to the once-in a-decade long form, will be fully 
implemented with funding for group quarters enumeration and a methods 
panel to update the questionnaire. Second, modernization of the 
geographic database information remains on schedule. Third, preparation 
for a short-form only 2010 Decennial Census continues with the 2006 
Census Test and development of support systems. Several other notable 
program changes are supported by this request: improvements to the 
Automated Export System will produce more accurate trade statistics; 
expansion of the measurements of services will add detail to this 
important sector; creation of a Longitudinal Employer/Household 
Dynamics data base infrastructure will fill critical gaps in local 
employment data; and strengthening the measurements of migration will 
improve state-level estimates. In addition, the Bureau of the Census 
also plans to furnish and move into its new office building at the 
Suitland Federal Center.
    The globalization of trade and the rapid development of technology 
presents great opportunity and risk to the United States' economic and 
national security. The Bureau of Industry and Security (BIS) regulates 
the export of sensitive goods and technologies. The 14 percent budget 
increase requested will give BIS the necessary tools and personnel to 
effectively deal with these challenges. The request includes funding 
for additional licensing personnel to address the rising numbers of 
licenses, and an Office of Technology Evaluation to ensure that the 
Department is controlling the appropriate new technologies while not 
restricting exports of products that are widely available. As license 
requests have increased so has the need for additional enforcement 
resources. We are asking for additional enforcement agents, and 
resources for a seized computer evidence recovery program and 
additional overseas end-use verification. We are also asking for 
funding for a program to recruit and retain the high-quality personnel 
needed for BIS's critical mission.
    The International Trade Administration (ITA) is charged with 
promoting international trade, opening foreign markets to U.S. 
businesses, and ensuring compliance with trade laws and agreements 
while supporting U.S. commercial interests at home and abroad. In 
carrying out its mission, ITA conducts detailed domestic and 
international competitive analyses to ensure that the U.S. 
manufacturing and service sectors compete effectively and meet the 
demands of global supply chains, as well as understand the competitive 
impact of regulatory and economic changes. ITA supports the U.S. 
exporting community directly by providing a variety of products and 
services, and by operating a Trade Information Center to provide a 
single point of customer contact to government export assistance 
programs.
    The Minority Business Development Agency (MBDA) is focused on 
accelerating the growth and competitiveness of minority-owned 
businesses by closing the gap in economic opportunities and capital 
access. We are requesting an increase of $0.2 million for MBDA to 
expand the Agency's capabilities to disseminate, analyze and deliver 
vital statistical data for the minority business community. We are also 
requesting an increase of $0.5 million for MBDA to provide equal 
economic opportunities for full participation of Asian American and 
Pacific Islander businesses in our free market economy, and to increase 
the access of minority business enterprises to global markets.

Foster science and technological leadership by protecting intellectual 
        property, enhancing technical standards, and advancing 
        measurement science
    The President understands the opportunities science and technology 
provide to enhance the lives of all Americans. The President's focus in 
the area of science and technology is reflected in the Department of 
Commerce R&D portfolio. The Commerce budget maintains substantial R&D 
investments in the Technology Administration (TA), which includes the 
National Institute of Standards and Technology (NIST) and the National 
Technical Information Service (NTIS).
    The Technology Administration and its various components seek to 
maximize technology's contribution to economic growth, high-wage job 
creation, and the social well-being of the United States. TA and NIST 
not only serve as advocates for technological innovation but also 
analyze the factors that affect our competitiveness and develop the 
tools needed to enhance productivity, trade, and, in the end, the 
quality of life for all Americans. In addition, NIST is engaged in 
critical research in high-priority areas of technological innovation 
such as nanotechnology, information technology, biotechnology, and 
manufacturing technology. NIST is also conducting research in response 
to the World Trade Center tragedy and the February 2003 nightclub fire 
in Rhode Island to better prepare facility owners, contractors, 
architects, engineers, emergency responders, and regulatory authorities 
to prevent future disasters.
    To meet the Nation's needs in setting technological standards, we 
propose increased funding to NIST laboratories for high priority 
research areas and necessary facilities upgrades and maintenance. The 
increases include $39.8 million to enhance research capabilities in 
manufacturing (particularly in the area of nanotechnology), expand 
public safety and security programs, and provide the measurement 
infrastructure for emerging needs of the Nation's research community, 
and $32 million to support the Facilities Improvement Plan for critical 
construction, major repair, and renovation projects at the NIST sites 
in Boulder, Colorado, and Gaithersburg, Maryland. Consistent with the 
Administration's continuing emphasis on shifting resources to reflect 
changing needs, the fiscal year 2006 budget proposes to terminate the 
Advanced Technology Program. We propose to fund the Hollings 
Manufacturing Extension Partnership Program (HMEP) at $46.8 million. 
This level of funding, combined with expanding partnerships with other 
agencies and institutions, will allow the HMEP to maintain a national 
network.
    The U.S. Patent and Trademark Office (USPTO) request will support 
the USPTO strategic plan for the 21st Century to keep pace with 
workload growth and to enhance the quality of products and services. 
The Administration continues to support giving USPTO full access to its 
fees in the year of collection. This $148.5 million increase will allow 
the USPTO to improve processing capacity by hiring additional patent 
and trademark examiners, continue development of an operational system 
to process patent applications electronically, continue the transition 
of the trademark operation to a fully electronic environment, enhance 
the current quality assurance programs by integrating reviews to cover 
all stages of examination, and work to achieve greater patent examiner 
productivity by reducing the prior art search burden. I have visited 
USPTO's new headquarters in Alexandria, Virginia, and appreciate your 
support for that facility.
    The fiscal year 2006 National Telecommunications and Information 
Administration (NTIA) request will continue to provide the resources 
necessary to improve NTIA's research and Federal spectrum management 
capabilities and provide support for NTIA to implement the President's 
Spectrum Policy Initiative for the 21st Century.

Observe, protect and manage the earth's resources to promote 
        environmental stewardship
    The National Oceanic and Atmospheric Administration's (NOAA) 
mission is to understand and predict changes in the Earth's 
environment, as well as to conserve and manage coastal and marine 
resources to meet our Nation's economic, social, and environmental 
needs. The work performed at NOAA touches the daily lives of every 
person in the United States and in much of the world, since NOAA: 
provides weather, water, and climate services; manages and protects 
marine resources ecosystems; conducts atmospheric, climate, and 
ecosystems research; promotes efficient and environmentally safe 
commerce and transportation; and provides emergency response and vital 
information in support of homeland security.
    In addition to using science and technology to create jobs and 
improve economic prosperity, the Department is also directing resources 
toward disaster prevention, to better understand and minimize the loss 
of life and property from disasters.
    While in Brussels, I led the U.S. delegation to the Global Earth 
Observation Summit and presented the Administration's plan for the U.S. 
component of a Global Earth Observation System of Systems (GEOSS). A 
large portion of the increase requested for NOAA in fiscal year 2006 
will support the effort to better understand the complex interactions 
on our planet. With this improved knowledge, decision-makers around the 
world will be able to make more informed decisions regarding climate, 
the environment, and other issues.
    I applaud the Congress for passing the Emergency Supplemental 
Appropriations Act for Defense, the Global War on Terror, and Tsunami 
Relief, 2005, which embraced the President's desire to protect the 
American people by providing the initial resources necessary to meet 
the need for 100 percent detection capability for a U.S. coastal 
tsunami. To continue this effort in fiscal year 2006, we propose to 
invest $9.5 million to expand the U.S. tsunami warning system. Once 
fully implemented by mid-2007, the new system will extend monitoring 
capabilities throughout the Pacific and Caribbean basins and provide 
tsunami warning coverage for regions bordering half of the world's 
oceans.
    Currently, NOAA leads the Nation and world in ocean and ecosystem 
science, policy and management. In December 2004, the Administration 
released the ``U.S. Ocean Action Plan,'' a response to the U.S. 
Commission on Ocean Policy's report entitled, ``An Ocean Blueprint for 
the 21st Century.'' Working under the leadership of the Council on 
Environmental Quality, and with several other agencies, NOAA 
substantially assisted in the development of this action plan. NOAA 
will play a key role in implementing many of the ocean policy measures 
that the plan contains, including supporting the establishment of a 
coordinated ocean governance structure. Consistent with this approach, 
the Administration continues to support Commerce's leadership role in 
oceans policy and activities by promoting passage of a NOAA Organic 
Act. An Administration drafted Organic Act was sent to Congress on 
April 5th and is awaiting introduction.
    In accordance with the President's U.S. Ocean Action Plan, the 
Department continues to request significant resources for ocean and 
coastal programs and improved fisheries management, as well as 
protected species activities. The President's Budget includes more than 
$1 billion for these ongoing programs, including $61.2 million to 
address state and regional ecosystem research priorities at the 
National Sea Grant College Program, $22.7 million in support of NOAA's 
Ocean Exploration Program, $32.5 million to begin construction of a 
fourth fisheries survey vessel that will substantially improve the 
quality of NOAA fisheries research, and $25.4 million for fisheries 
stock assessment. The Budget proposes reforms to the Pacific Coastal 
Salmon Recovery Fund to help ensure that funds are allocated to high 
priority activities, and to require matching contributions from State 
and local recipients of grants.
    NOAA's global leadership also extends to monitoring the planet 
through the development of the GEOSS. The GEOSS will provide NOAA and 
others with the tools to better understand our planet through an 
integrated, comprehensive, and sustained Earth observation program. We 
are requesting a significant increase for GEOSS of $94.7 million, which 
includes the development of the next generation of weather satellites.
    In addition, the Administration is committed to continuing the 
LANDSAT mission. Our budget requests $11 million to begin the process 
of integrating LANDSAT sensors on future weather satellites. NOAA's 
satellite programs secure the observational data necessary for more 
timely and accurate weather forecasts, hurricane predictions, and the 
development of climate predictive models.
    NOAA leads the Administration's interagency Climate Change Science 
Program. As needs for water, climate, and air quality information 
increase worldwide, NOAA has been working to improve our understanding 
of climate and helping develop products and services that provide 
useful information for national and regional management decisions. One 
example of this is the National Integrated Drought Information System 
(NIDIS), which provides early drought warning on a regional level.
    Finally, the budget includes investments for improvements in 
transportation. Additional funding for electronic navigational charts 
and for accurate current and water level data is essential to safe and 
environmentally sound shipping. Improving aviation ceiling/visibility 
forecasting will result in an estimated $250 million annual fuel cost 
savings for U.S. airlines.

Achieve organizational and management excellence
    The Department's headquarters building, the Herbert C. Hoover 
Building (HCHB), is in critical need of major renovation and 
modernization. The 70 year-old HCHB is one of the last historic 
buildings in the Federal Triangle to be scheduled for renovation and 
modernization. To meet basic health and safety codes, meet industry 
standards, and replace failing mechanical, electrical, and plumbing 
systems, the Department is requesting $30 million for its fiscal year 
2006 portion of the joint General Services Administration/Department of 
Commerce project. The request also includes funding of the Department's 
renovation office that will coordinate the movement of tenants and 
GSA's work to minimize the disruption of the Department's missions and 
provide necessary oversight of the project.
    Both the Office of the Inspector General and Departmental 
Management are requesting funding increases to improve acquisition 
oversight, provide additional training to contract officers and make 
targeted reviews of both specific contracts and the procurement 
process. A quarter of Commerce's appropriation is spent on major 
procurement activities, such as satellites, the Decennial Census and 
the renovation of HCHB. Improving the acquisition process is one of the 
Department's top management challenges because, with proper oversight 
and improvements, taxpayer money can be better utilized.

Conclusion
    In his February 2nd State of the Union Address, the President 
underscored the need to restrain spending in order to sustain our 
economic prosperity. As part of this restraint, it is important that 
total discretionary and non-security spending be held to levels 
proposed in the fiscal year 2006 President's budget. The fiscal year 
2006 President's budget includes more than 150 reductions, reforms, and 
terminations in non-defense discretionary programs, of which six affect 
Department of Commerce programs. To meet this fiscal requirement we are 
proposing terminating the Advanced Technology Program, the Emergency 
Steel Guarantee Loan Program, and the Public Telecommunications, 
Facilities, Planning, and Construction Program. In addition, we are 
proposing a major reduction from fiscal year 2005 enacted levels in the 
Hollings Manufacturing Extension Partnership Program. The budget also 
contains the reform proposals for the Strengthening America's 
Communities Grant Program and the Pacific Coastal Salmon Recovery Fund 
discussed above. The Department wants to work with the Congress to 
achieve these savings and reforms.
    The Department of Commerce's fiscal year 2006 budget has been 
crafted to focus on funding the core functions that the American people 
rely on from this Department, in the most efficient manner. I look 
forward to working with the Committee to ensure that together we are 
providing the best services to the American people--promoting 
``American Jobs and American Values.''

             STRENGTHENING AMERICA'S COMMUNITIES INITIATIVE

    Senator Shelby. Thank you.
    Mr. Secretary, when do you plan to present legislation 
authorizing strengthening America's communities?
    Secretary Gutierrez. Mr. Chairman, we have an advisory 
committee and we expect to have legislation to you later in the 
year. That legislation will have a recommendation on how we 
allocate funds in the future. We have a funding system that has 
two formulas, and depending which formula you use, you can find 
money for just about any community. We have communities today 
at a 2 or 3 percent poverty level who are receiving funds and 
some communities that have a 20 percent poverty level that are 
not receiving enough funds. So the challenge for the advisory 
committee will be how to develop funding criteria that will 
ensure that the money goes to those communities that really 
need the money. So we look forward to working with you, and we 
will have that recommendation to you in late June.
    Senator Shelby. What impact, if any, would this have, if 
this came about, on the Economic Development Administration 
(EDA)?
    Secretary Gutierrez. This would expand what we currently 
do. Essentially, we have EDA today, and we have moved to 
strengthening America's communities. We would collapse the six 
different agencies throughout the Government into one program, 
because you have 18 different programs today. And we think that 
by having one program with one criteria and one process, we 
would make it easier for those who request funds.
    We make the criteria transparent for everyone. We ensure 
that there are accountability measures in the communities; that 
the money we give out either improves employment or improves 
private sector investment or improves poverty rates; we would 
like to tie it to measures and results, and that is what we 
look forward to doing.
    Senator Shelby. Some of us would like that to come under 
Commerce, under this subcommittee, but what are your realistic 
prospects on authorizing and passing that legislation?
    Secretary Gutierrez. Well, Senator, we do believe that if 
we get the information out we can ensure that there is 
understanding about the logic for this and why we are doing 
this. The fact that in the Commerce Department, we have 
contacts with the private sector; we believe that community 
development is very much about attracting private sector 
investment. We already do that. A lot of what we do is in the 
private sector, so we have that skill set within Commerce, and 
we hope that the logic of this will be seen broadly, because we 
do believe that it will be better use of taxpayers dollars.

                       EXPORT ADMINISTRATION ACT

    Senator Shelby. Mr. Secretary, the Congress has not 
reauthorized the Export Administration Act. We continue to 
confront cases of individuals and companies either deliberately 
or inadvertently seeking to military sensitive dual use 
technologies without regard for the licensing process. Do you 
believe that a $9.5 million increase over last year's funding 
level is sufficient to address this?
    Secretary Gutierrez. I know we are working very hard on 
this. We have actually added some resources outside of the 
country to be able to make some checks on dual use items and 
actually go to the buyers and make sure that they are using 
items for what they said they would use them. We have got very 
good contacts with the intelligence community, and we believe 
that we maximize the use of that. We are always trying to make 
the greatest use of a limited budget.

          REORGANIZATION OF INTERNATIONAL TRADE ADMINISTRATION

    Senator Shelby. Last year, you know, there was a large 
scale reorganization of the International Trade Administration. 
What results are you seeing? Have you been able to measure that 
from that reorganization?
    Secretary Gutierrez. We have been able to concentrate and 
focus on specific regions of the world. So for me, it is very 
helpful to be able to have a European expert who is involved 
primarily in Europe and who understands the issues in Europe 
and who understands regulations in Europe. We have some very 
competent Asian experts. We have North American experts. So 
that level of expertise has been very, very helpful.
    We also have individuals who have been involved in industry 
who have expertise in the steel industry or the textile 
industry. Having that focus and expertise has helped me, and I 
know it helps the Department have a sense of focus and results.
    Senator Shelby. Will this include the trade promotion 
mission?
    Secretary Gutierrez. Yes, sir, yes. We have done missions 
and we are planning missions now. We think that an important 
part of our role is ensuring that our exporters have access to 
markets where we have free trade agreements. We have had export 
missions in the past. We are planning one now to eastern 
Europe. We would like to get more missions going, and I would 
love to hear from you, sir, for any areas of the world that you 
think merit missions. An important part of our role is making 
sure that our businesses know how to access foreign markets.

                       CHINA AS A MARKET ECONOMY

    Senator Shelby. Many people believe that once, or I should 
say if or when, if ever, China floats its currency and engages 
in other economic reforms, there is a probability that your 
Department will declare China to be a market economy looking 
down the road. If that were to happen, the subsidies that are 
being given today while China is a nonmarket economy, will that 
be actionable?
    Secretary Gutierrez. For China, one of their big priorities 
is to become a market economy.
    Senator Shelby. Sure.
    Secretary Gutierrez. That is one of their agenda items that 
I know they will be taking to our Joint Commission on Commerce 
and Trade (JCCT). We have a series of other agenda items that 
we would like to see them address first. Intellectual Property 
Rights (IPR) is one that is right on top of the list; 
Government procurement is also on the list. We know that a lot 
of the software we sell, we cannot sell to the Government. A 
lot of the software they have is counterfeit. So it is very 
important for them, and it is a big symbol to them to be named 
a market economy. We would like to see some things happen 
before that takes place.
    Senator Shelby. Senator Mikulski.

         NATIONAL INSTITUTE OF STANDARDS AND TECHNOLOGY FUNDING

    Senator Mikulski. Thank you very much, Mr. Chairman.
    Mr. Secretary, I would like to discuss the National 
Institute of Standards. I was very troubled by the fact that it 
was decreased by 24 percent and is over close to $500 million. 
For NIST, which is not a big chunk but a big bang agency, that 
is a pretty big hit. Would you tell us how you think they can 
provide the same level of service with the reduction, and why 
did we eliminate the Advanced Technology Program just when we 
need to be moving toward cutting edge technology for high value 
jobs?
    Secretary Gutierrez. I was over at NIST not long ago, and 
their challenge, of course, is to focus on their pipeline of 
ideas and to get them done. As you know, some of those ideas 
are several years down the road. Quite often, by having too 
many projects, they can lose effectiveness. We believe that we 
have that balance of the number of projects and make sure that 
people are focused on those areas that only we can do. We do 
not believe that the private sector is involved in 
nanotechnology to the degree necessary, because they do not 
have a return in nanotechnology yet. But we have nanotechnology 
and we have biotechnology. Some of the other areas that require 
R&D spending are being focused on by the private sector. It's a 
matter of finding a balance between what we should do, what we 
can do, and what we can fund.
    Senator Mikulski. Well, Mr. Secretary, I respectfully 
disagree with you. The Task Force on American Innovation says 
that inventors in Asia are applying for patents at a faster 
rates than inventors in America. Asian nations are increasing 
their share of high tech exports while the United States is 
falling. So we have got to be competitive.
    And then, I agree with your focus. So I respect your 
managerial ability and the management effort and focus. But you 
cannot, even with focus, you still need money. Focus without 
funds is unfocused. And to cut the Advanced Technology Program, 
which is a $140 million decrease, I think is really stunning. 
And I would like, as we go through our appropriations, for you 
to read this, and, you know, sure, we could meet with the lab, 
but you are the Secretary of Commerce.
    We want to work with you because we believe that this is a 
very, very, very important program in terms of them being the 
link there. And as you said, our private sector knows about 
nano, and they are already working in nano. But then, they are 
going to need standards: what is the smart dust? Are there 
unintended occupational hazards, because of the small 
particles? So we want to keep on doing it.
    And then, my colleagues are going to ask questions about 
the ocean policy. They are going to ask about the tsunami. 
Senator Stevens is here. I want to ask about NOAA about the 
reduced funding of research there. NOAA research is reduced by 
$40 million. And I know we, we are coastal Senators here, and 
seafood is our life's blood, whether it is our oysters and 
crabs where we have been doing research. We understand New 
England has a lobster disease. We are working on those issues.
    Senator Gregg. New Hampshire is a coastal State.
    Senator Shelby. An important part.

                  OCEANS POLICY REPORT RECOMMENDATIONS

    Senator Mikulski. As you can see, we enjoy each other.
    But what do you think are the consequences of reducing NOAA 
funding for research by $40 million? What are we not going to 
do?
    Secretary Gutierrez. As you know, Senator, we received 200 
recommendations on the Oceans Policy Report. It is hard to 
tackle 200 recommendations at once. The President does not 
really disagree with them, but we picked 50. We have $23 
million in the request to make sure that we have 100 percent 
tsunami protection and coverage. We have $32 million for a new 
fisheries vessel. The big projects, the projects that we 
believe have to be done are funded. And once again, it is a 
matter of choices and priorities, and we hope we have chosen 
the right priorities. But you will note that there is about $1 
billion to respond to the Oceans Policy Report.
    Senator Mikulski. No, there is $40 million less in 
research.
    Secretary Gutierrez. Yes.
    Senator Mikulski. In addition to the broad ocean policy for 
NOAA and research you know, again, there is often the specific 
research. So we are concerned again. I do not know if there is 
a strategic plan for the implementation of the ocean report? 
What, then, are the strategic priorities? In some ways, the way 
the National Science Foundation goes about it.

                            PATENT BACKLOGS

    But my time, I know other Senators would like to ask 
questions. Let me go to an important thing with me. That is the 
patent backlogs. As I understand it, there is a backlog of 
500,000 applicants. You and I have talked about intellectual 
property, and I think we share an interest in it. But you 
cannot protect intellectual property unless you have patents.
    Could you tell us what is the plan to cope with the 
backlog, and why is the PTO funded through fees paid by 
inventors? Should we be able to be looking at other revenue 
streams? Is it the lack of money? Is it the lack of management? 
Is it the lack of technology at the Patent Office? Because this 
is probably one of the most important tech transfer agencies. 
And I will stop there.
    But my own State, where biotech is on the rise, my 
entrepreneurs say we stand in two lines: one to get an FDA 
approval, and that is pretty rigorous. Then, we are standing in 
another line to get our patents, and we feel incredibly 
disadvantaged. You cannot accelerate a clinical trial. You have 
to be careful. The patent process is something that we should 
be able to help them with.
    Secretary Gutierrez. Senator, I agree with you. I feel very 
uncomfortable with the lead times. I feel very uncomfortable 
with 500,000 patents pending in 5 years. The time for pendency 
is about 18 months. It is my understanding that there are some 
projects that have been around for even longer than that.
    There are two areas in the budget to address that, and we 
will report back whether it is speeding up and whether it is 
making progress. One is adding people.
    Senator Mikulski. Adding people?
    Secretary Gutierrez. Adding people. There are quite a few 
new reviewers in the budget who actually review the patents and 
make sure they get through the system quickly. There are over 
600 new positions. I am usually skeptical about just adding 
people to a problem.
    Senator Mikulski. Yes.
    Secretary Gutierrez. But I do think in this case, they do 
need more people; and then, automating more of what we do at 
the agency. We can use technology to be more efficient. So 
those two things have been budgeted. They are in the plan.
    In terms of a management challenge, that is probably our 
biggest one. The part I cannot tell you is how well is the 
agency managed. Do we have the process? Do we have 
measurements? Do people know what they are supposed to do? 
Because I agree, our innovators depend on us to help them get 
through the system, and I am not sure that we are doing that.
    Senator Mikulski. Well, this is an area where we will work 
with you in very intense partnership. I know the chairman of 
the full committee is here. I am going to hold my questions.

                            ECONOMIC OUTLOOK

    Senator Shelby. Senator Cochran, the Chairman.
    Senator Cochran. Mr. Chairman, thank you very much.
    Mr. Secretary, welcome to the subcommittee. I am very glad 
to have an opportunity to be here when you present the budget 
request for your Department to the Appropriations Committee. In 
addition to gathering information about the health and vitality 
of the economy, which I mentioned in my opening remarks and 
congratulated you on the role that you have had in promoting 
growth in the economy, it is exciting to see the United States 
growing certainly in comparison with our major trading 
partners, as you pointed out.
    I wonder what your outlook is now, if you can tell us. Do 
we have the strength, the underlying strength in the economy? 
Is the structure the right structure to help provide 
opportunities for businesses in America to continue to prosper 
and grow in the years ahead? What is your outlook for our 
potential in the near term?
    Secretary Gutierrez. I think it is important to recognize 
that we are at a time today where we have unprecedented 
prosperity in the country, and it is often hard to conclude 
that based on how the economy is editorialized.
    Our growth was just raised today, the outlook for gross 
domestic product (GDP) for the first quarter to 3.5 percent. 
The first number was 3.1 percent. That comes off 4.4 percent 
last year. Our unemployment is down to 5.2 percent. The 
President always says we are not satisfied. We are not 
complacent. 5.2 percent is below the average of the past three 
decades.
    In spite of energy prices, our inflation remains at about 
3.1 percent. So that says a lot about the strength of our 
infrastructure. We have been able to offset that increase in 
energy prices. And in homeownership, more Americans own a home 
today than at any point in our history. I think about what is 
prosperity. People owning their home is a great indicator of 
prosperity.
    Mortgages as a percent of income are actually declining. So 
people can afford the houses they are buying, which I think is 
also a great indicator. Now, the challenge is, we have got this 
prosperity, how do we keep it going?
    I believe that we have seen that the President's strategy 
and his approach to the economy is working. Keep taxes low. We 
want to make the tax cut permanent. Get unnecessary regulations 
out of the way. We do not want businesspeople worried about 
getting sued; we want businesspeople to worry about creating 
jobs. Tort reform is a major step forward. There is more 
regulation to address whether it be asbestos, whether it be 
medical malpractice, but that is part of the agenda. And also a 
long-term energy plan so we can work strategically on energy 
long term and not just be reacting to short-term changes in 
prices.
    Health care; and then, very importantly, opening up markets 
around the world so that we can continue to export market by 
market. That is one of the reasons why CAFTA is so important. 
We are paying tariffs going into Central America, while most of 
their products are not paying tariffs coming into our country. 
This levels the playing field, and it is good for small 
manufacturers, for farming, for services. It is just one more 
example of staying on plan. I think we have to stay on plan. It 
worries me that we do not recognize sometimes, how good we have 
it today, how fragile it is and how quickly we can lose it if 
we do not stay on course.

              TRADE ASSISTANCE FOR NEW AND SMALL COMPANIES

    Senator Cochran. One of the services that I am familiar 
with the Department of Commerce provides to emerging owners of 
business, those who are trying to learn how to more effectively 
compete either in exporting goods and services or doing 
business with the Federal Government as a way to assure success 
of small and new businesses. In my State, for example, there 
are a lot of young people, like in any other State, I suppose, 
but getting started in business for the first time. The 
Department of Commerce once had a program--I can remember 
Elliot Richardson coming to Mississippi at my request when I 
was a Member of the House of Representatives and had a public 
forum on how to do business with the Federal Government, and it 
was specifically designed for small business owners, men and 
women who may not have had the experience that others in 
business had had and were just getting started.
    But the United States is the largest dollar volume 
purchaser of goods and services in America. So it is a 
fantastic opportunity if someone understands how to go about 
getting started. Is there an office now in the Department of 
Commerce that has the responsibility of making available 
information like this in States throughout the country? If 
there is, do you know whether or not you have enough money in 
the budget to see that it is sustained and maybe even expanded?
    Secretary Gutierrez. Yes, sir. We have a minority business 
development agency in Commerce which works very closely with 
small business, and then, there is the Small Business 
Administration, which now works out of the White House. We work 
very closely together.
    And you are right, what drives growth over time is small 
business. People think it is the big corporations such as IBM 
and Kellogg, but it is really the small entrepreneur that 
creates the jobs and comes out with the ideas. Microsoft was a 
small business 30 years ago.
    Your point on the Federal Government being a customer is a 
great point. If that is how they can get started, our standards 
are high. If they can meet our standards, most likely, they can 
go out and sell to consumers as well. So I will take that with 
me.
    Senator Cochran. Thank you.
    Thank you, Mr. Chairman.
    Senator Shelby. Senator Gregg.
    Senator Gregg. Thank you. Thank you, Mr. Chairman.
    I know a lot--I apologize for having to leave. The only 
people who have this number are my children, and when my son 
calls who is at college, it is a rare event.

                    OCEAN COMMISSION RECOMMENDATION

    So I know you addressed the ocean policy issue, and I was 
interested in your point that you have taken 50 of the items 
and picked them out and that you put $32 million, I think, into 
those items. But the budget proposal, as I read it, basically, 
$350 million Congress put in last year was gone, and that was 
sort of a starting. That was a number to try to build the 
emphasis. So I guess my question is how does this 
administration see the Ocean Commission's recommendations? What 
does it see as the priority, the top priorities of that 
Commission, and how is it going to promote those items?
    Secretary Gutierrez. I came in right after the report was 
issued. I believe it was in December. And I remember going 
around preparing for my confirmation hearing, and that was a 
big topic of discussion. We just received this report, which 
was very important, taken very seriously. There were 200 
recommendations, and the challenge was which ones do we start 
with, and how do we get started?
    And my understanding is that 50 were chosen. I think there 
is very clear alignment between the administration and the 
report. We want clear skies. We want clear oceans. We want our 
fisheries to be sound, to be healthy. I do not think that there 
is a philosophical difference at all. I will give you some 
examples of the big ticket items that were funded in our 
budget. There was $61 million for a sea grant program, which we 
believe is important, and that allows us to allocate the funds 
in the areas where we believe they will make a difference; $32 
million for a fourth fishery survey vessel; $23 million for 
ocean exploration.
    We have funded additional buoys, and Senator Stevens 
mentioned that four out of five were not working. I remember 
that during my last hearing. They are all working today. I 
checked that before I came here.
    We want full tsunami detection capabilities for the Pacific 
and the Caribbean by 2007, 100 percent. That requires, I 
believe it is 32 new detection devices. There are big things 
budgeted; not everything, but again, I think we can make a lot 
of progress by focusing on some things, getting them done, 
getting them done right and then moving on to the next listed 
priority.
    Senator Gregg. Well, that is obviously true. We cannot do 
everything. We could not last year either. But a lot of what 
you mentioned there is core NOAA activities versus the ocean 
policy initiative.
    Secretary Gutierrez. Right.
    Senator Gregg. And of course, the budget that came up is 
significantly below what NOAA was funded at last year by about 
$400 million, I think. So even core activities are going to 
have some pressure on them. But let us take a specific idea. 
You asked specifics. You maybe are not up to speed on it on the 
CELP program, which is the coastal estuary protection.
    Senator Mikulski. What?
    Senator Gregg. CELCP. It is called CELCP. It is where you 
protect coastal estuary marine areas. And there are a lot of 
them in Maryland.
    Senator Mikulski. Yes.
    Senator Gregg. Are you familiar with that? You can get back 
to me.
    Secretary Gutierrez. I would love to get back to you on 
that.
    [The information follows:]

            Coastal and Estuarine Land Conservation Program
What is the Coastal and Estuarine Land Conservation Program?
    The Coastal and Estuarine Land Conservation Program (CELCP) has 
been established to help protect estuaries and coastal lands that are 
important to our nation's environment, economy and communities. The 
program provides coastal states with funding for projects that ensure 
conservation of these areas for the benefit of future generations. 
CELCP was created by the Fiscal Year 2002 Appropriations Act for the 
Departments of Commerce, Justice and State (Public Law 107-77) and 
codified at 16 USC 1456d.

Who is eligible for funding through the CELCP?
    Coastal states that have a federally approved Coastal Zone 
Management Plan or National Estuarine Research Reserve are eligible to 
participate in the program. A state is eligible to submit projects for 
competitive funding at the national level once it has developed and 
received approval of a Coastal and Estuarine Land Conservation Plan. 
The state must be able to match CELCP funds, 1 to 1, from other funding 
sources.

What projects will CELCP fund?
    CELCP funds are intended to complement current federal, state and 
local coastal and estuarine conservation plans. To be considered, the 
project should address the following:
  --Protect important coastal and estuarine areas that have significant 
        conservation, recreation, ecological, historical or aesthetic 
        values, or that are threatened by conversion from their natural 
        or recreational state to other uses;
  --Give priority to lands that can be effectively managed and 
        protected and that have significant ecological value;
  --Advance the goals, objectives or implementation of federal, 
        regional, state or local coastal management plans.
What kind of funding is available?
    NOAA has received Congressionally directed funded for this program 
since fiscal year 2002.

                        [In thousands of dollars]
------------------------------------------------------------------------
                                                                Amount
------------------------------------------------------------------------
Fiscal year:
    2002...................................................       15,825
    2003...................................................       37,422
    2004...................................................       50,558
    2005...................................................       41,697
    2006 Req...............................................  ...........
------------------------------------------------------------------------

 STATUS OF NATIONAL INTELLECTUAL PROPERTY LAW ENFORCEMENT COORDINATION 
      COUNCIL AND STRATEGY TARGETING ORGANIZED PIRACY INITIATIVES

    Senator Gregg. Let me say I do support you on your ATP 
proposal. As chairman of this subcommittee, for years, I was 
trying to do exactly what you suggested, and I hope the present 
chairman is more successful than I was. There is another 
acronym called NIPLECC (National Intellectual Property Law 
Enforcement Coordination Council), which last year, we stood up 
with some money, tried to get all of these different groups 
coordinated on protection of international intellectual 
property rights, because we found that there were a whole lot 
of agencies which were supposed to be communicating with each 
other and using NIPLECC as its coordinating effort but were 
not.
    And the initiatives were falling, you know, the protection 
of intellectual property is falling through the cracks because 
so many different people are trying to do it, but nobody is 
doing it. What sort of coordinating effort is being pursued 
there, specifically with the initiative that I think we put $35 
million into last year?
    Secretary Gutierrez. We have NIPLECC in place, and we have 
just received authorization for an intellectual property 
coordinator who will oversee the activities of NIPLECC and 
making sure that those activities are coordinated with other 
agencies. As you know, NIPLECC could be having some great 
sessions and discussions, but if they are not coordinated with, 
say, the Justice Department or the Homeland Security----
    Senator Gregg. Well, that is the whole purpose of NIPLECC.
    Secretary Gutierrez. Right, and that is what this person is 
going to ensure happens.
    We have the Strategy Targeting Organized Piracy (STOP) 
program, and we are taking that to the next level. STOP has 
done some great things, making sure that we have a website so 
people can communicate and a hotline so that people can call in 
with intellectual property rights violations.
    The challenge is then doing something about all of those 
violations, and that requires, a lot of coordination across the 
agencies. We are in the process of putting together what that 
next step is. And we thought about a very simple framework. How 
do we make people more aware that we have a problem? And people 
not just here but consumers.
    How do we make sure that our partners have the right laws? 
How do we make sure that they are enforcing those laws? And 
then, very importantly, and this goes back to the Patent Office 
question, is how do we ensure that we are the role models for 
the rest of the world? Because I think it is important that we 
can point to our intellectual property standards in the United 
States and say that is how we do it, and that is how we expect 
you to do it.
    I would love to come back and present to this subcommittee 
what it is we plan to do in those four areas. To answer your 
question more specifically, as opposed to just telling you this 
is an important priority for me. We are going to make sure that 
NIPLECC works and that it does what it is intended to do and 
that this coordinator does a great job. I would love to share 
with you the plan and get your input as to what else we should 
be doing. I can assure you this is a top priority.
    Senator Gregg. That is good news. I would be glad to help 
in any way that I can.
    Secretary Gutierrez. Thank you.

                   STANDARDS AND INTERNATIONAL TRADE

    Senator Shelby. Mr. Secretary, I guess along those lines, 
standards and international trade: the U.S. manufacturers, 
suppliers, and testing labs are concerned about the new 
requirements of the European Union directive on the restriction 
use of certain hazardous substances with electrical and 
electronic equipment.
    This directive would restrict the amount of certain 
hazardous substances used in electrical and electronic 
equipment such as household appliances, telecommunications 
equipment, lighting, electrical tools, toys, and sports 
equipment. A product must meet these restrictions in order to 
be sold in the European Union.
    The problem is that the directive is vague, and no standard 
has been agreed upon to determine the amount of hazardous 
substance, if any, is in these products. Enforcement, I think, 
is supposed to begin July 1, 2006, a little over 1 year from 
now. Where are you on this? What steps is the Department of 
Commerce taking to assist our manufacturers and suppliers in 
complying with this European Union directive? Where are we 
going? Will that result in a barrier to trade? We have to watch 
what people do.
    Secretary Gutierrez. Yes; that is a great point, and this 
is actually quite recent.
    Senator Shelby. It is important, is it not?
    Secretary Gutierrez. It is very important. And this comes 
on top of another program, which is registration of every 
single chemical used in every single product. It is more 
regulation in an area where we had heard they want to reduce 
regulation. The first step is to meet with our European trading 
partners and our people and ensure that we understand what it 
is they are trying to get at.
    But this worries us, because this is just one more example 
of more and more regulation that impedes trade, that has 
unnecessary steps for businesses, that is not clear, and that 
can become a trade barrier.
    Senator Shelby. It could be a huge trade barrier.
    Secretary Gutierrez. Absolutely.
    Senator Shelby. We are going to be on top of that.
    Secretary Gutierrez. We are very worried, and we will 
report back.
    Senator Shelby. Interoperability, you know, it is all part 
of the--some manufacturers say their radios meet the public 
safety standards for interoperability, but they do not. There 
is no procedure to verify that this standard is being met is my 
understanding. We are aware that NIST has conducted some 
testing on these radios, and not one of the radios tested met 
the standard. It is alarming. It is widely known that one of 
the fatal flaws in our response to the 9/11 attacks was our 
inability to communicate across different radio systems.
    Now, we are spending a lot of money to outfit first 
responders with supposedly interoperable radios; yet, these 
radios fail to meet the interoperability standards. In the 2005 
appropriation, the subcommittee directed NIST's Office of Law 
Enforcement Standards working with the National Institute of 
Justice Communication Tech Program and the Department of 
Homeland Security Safecom program to issue interim standards 
that can be used to specify the required functionality and 
testing validation for emergency radio systems.
    Where does the process stand at the Department of Commerce, 
and what are the expected time lines and milestones for the 
issuance of intercommunications standards? This is a big deal.
    Senator Mikulski. A very big deal.
    Secretary Gutierrez. Yes, I agree with that. This falls 
under the National Telecommunications and Information 
Administration, and the balance here, is to have 
interoperability without overregulating. I would love to get 
back to you on that.
    [The information follows:]

                      Interoperable Communications

    The Department of Commerce, through the National Institute of 
Standards and Technology (NIST) and the National Telecommunications and 
Information Administration (NTIA), supports Project 25 (P25), which is 
a set of standards for interoperable communications equipment used by 
first responders. The steering committee for P25 is governed by the 
Telecommunications Industry Association (TIA), which comprises 1,000 
member companies.
    The following table gives the status of the four P25 interface 
standards that are key for interoperable communications.

------------------------------------------------------------------------
             Standard                              Status
------------------------------------------------------------------------
Common Area Interface............  Complete.
Inter-RF-Sub-System Interface....  Completion expected first quarter
                                    2006.
Console Interface................  Completion expected first quarter
                                    2006.
Fixed Station Interface..........  Completion expected first quarter
                                    2006 (interim form).
------------------------------------------------------------------------

    To accelerate the completion of the standards, NIST and its federal 
sponsors at DHS and DOJ are providing additional engineering support to 
the corresponding technical committees. The second and third standards 
will be completed on the following timeline, pending approval by the 
steering committee and the absence of major technical issues.
  October 2005--Vote by P25 steering committee.
  December 2005--Testing and validation of the standard completed.
  December 2006--First products based on the new standard on the 
        market.
    The Fixed Station Interface standard will follow the same timeline, 
but as an interim standard for federal grants and procurement contracts 
until a final standard is published.
    As noted by the Appropriations Committee, there is no formal 
process for ensuring that products sold as P25 compliant indeed meet 
the P25 standards. Recent testing by NTIA showed that none of the P25 
subscriber units (walkie-talkies) met all of the requirements of the 
Common Air Interface standard.
    Therefore, NIST and NTIA are developing a third-party conformity 
assessment program that will allow accredited private laboratories to 
test equipment for P25 compliance. It is expected that DHS will require 
the use of this program when dispersing federal grants to local and 
state public safety agencies. In addition, the program can be used by 
Federal agencies when procuring land mobile equipment for their own 
use. By January 2006, NIST expects to have all documentation to begin 
the laboratory accreditation process for the P25 Common Air Interface, 
and hopes to have products tested in accredited labs by the summer of 
2006.

    Senator Shelby. Okay; you can get back to us on that. We 
have several entities under our subcommittee that are focused 
on this problem. We have the Bureau. Senator Mikulski is on the 
Intel Committee, dealing with all of the intelligence agencies. 
I spent 8 years on this issue. But you are going to be on top 
of that.
    Secretary Gutierrez. Yes, sir.

                               U.S. TRADE

    Senator Shelby. You know the WTO Doha Round talks are 
accelerating. They are moving along. But I have been told that 
virtually all of the proposals that have been made to date 
would weaken U.S. trade laws with regard to trade law remedies, 
in other words, where we have remedies, and the United States 
has only made several small proposals.
    Some of us are concerned that the United States does not 
have aggressive proposals on the table in these negotiations to 
strengthen trade law rules. Will you initiate and would you 
support an aggressive agenda for developing trade law 
strengthening measures in an interagency process that can be 
offered in the negotiations? And if so, will you let us know 
what we are doing? Both of us have a lot of manufacturing in 
our States, and this trade is important.
    Secretary Gutierrez. I appreciate that, Mr. Chairman. If I 
could just say, there was a ministerial meeting in December, 
and of course, the Doha Round. One of the reasons why I think 
CAFTA is so important is that we want a strong position at the 
table. We have to make sure we hold our own, and I am concerned 
that if we cannot pass CAFTA that we will not be as strong as 
we need to be. There will be a sense that the United States is 
losing its edge. We could not get Central America, so that 
gives other negotiators a sense of strength at the table. I 
agree we cannot weaken our position at the WTO.
    Senator Shelby. Sure. But trade has got to go on. We have 
got to be on top of it. And a lot of that comes under your 
jurisdiction.
    Secretary Gutierrez. Absolutely.

                          SPECTRUM MANAGEMENT

    Senator Shelby. Mr. Secretary, given the Department's 
critical role, the Commerce Department, in implementing the 
President's Spectrum Policy for the 21st Century, what are the 
long-term plans for spectrum management, and how will you work 
with the Federal Communications Commission and other relevant 
agencies in this endeavor? In other words, what are your 
priorities with spectrum management, and what do you see as the 
most significant impact it will have on the commercial 
industry? Because it certainly will have some.
    Secretary Gutierrez. Spectrum, as you know, is incredibly 
valuable. The President has said we want to give every citizen 
digital access. We do not want to take away access to digital. 
That is going to take some time, but by 2007, we want all homes 
in the country to have access to digital.
    Senator Shelby. How are you going to get there?
    Secretary Gutierrez. A lot of these come down to local 
communities and how we ensure that we do not just take away 
service from people who rely on analog television and analog 
services. But once that is done, and that is in the planning 
now, that spectrum can be allocated to businesses. We are also 
getting spectrum from the Defense Department.
    Senator Shelby. It will have a tremendous value, will it 
not?
    Secretary Gutierrez. It is one of the most valuable 
allocations that we will do over the next couple of years. It 
is the most valuable real estate we have. So I agree, and I 
would like to report back on how that is shaping up.
    [The information follows:]

                          Spectrum Management

    President Bush recognized that ensuring needed access to 
the spectrum resource is a critical element in satisfying 
diverse U.S. interests, such as national defense, public 
safety, transportation infrastructure, scientific research, and 
consumer services. The goals of the President's Spectrum Policy 
are to: foster economic growth; ensure our national and 
homeland security; maintain U.S. global leadership in 
communications technology development and services; and satisfy 
other vital U.S. needs in areas, such as public safety, 
scientific research, federal transportation infrastructure, and 
law enforcement.
    The Department's long-term plans for spectrum management 
are to carry out President Bush's direction and implement the 
recommendations which we have provided the President, to carry 
out his Spectrum Policy for the 21st Century that will 
significantly improve the spectrum management system.
    The recently enacted Commercial Spectrum Enhancement Act 
creates a spectrum relocation fund, an important mechanism to 
facilitate the reallocation of spectrum from governmental to 
commercial uses. The Department, through the National 
Telecommunications and Information Administration (NTIA), will 
carry out the provisions in the Act associated with federal 
government spectrum management. In June 2006, the FCC plans to 
auction 90 MHz of spectrum for advanced wireless services, half 
of which is spectrum that will be transferred from Federal 
government to commercial use under the provisions of the 
Commercial Spectrum Enhancement Act.

    Senator Shelby. Mr. Secretary, does CPB, the Corporation 
for Public Broadcasting, provide more limited assistance to 
public broadcasting stations than PTFP? Do you know? Will CPB 
be able to provide grants previously provided by PTFP, that is 
the Public Telecommunications Facilities Planning and 
Construction Program grants?
    Secretary Gutierrez. My understanding, Mr. Chairman, is 
that they will.
    Senator Shelby. That gets into digital conversion.
    Secretary Gutierrez. Yes, and we have reduced our 
involvement. I think we have money in the budget for phasing 
out that program. The Public Broadcasting System continues, and 
I believe that the money allocated in the budget is sufficient, 
and that they will be able to operate. Does that answer your 
question?
    Senator Shelby. Senator Mikulski.
    Senator Mikulski. Thank you, Mr. Chairman.

             INTELLECTUAL PROPERTY AND INTERNATIONAL TRADE

    Mr. Secretary, the questions offered by the chairman very 
much parallel my own. We have worked together since we were in 
the House of Representatives, as I said. A lot of what we are 
talking about here can definitely be done on a bipartisan 
basis.
    I would like to pick up once again on the international 
trade issue. Your comment that you just got an intellectual 
property coordinator was fascinating, because this is a new--
this is the first time I have heard this. Could you share with 
us what that intellectual property coordinator will do and how 
that person will work with the international trade rep? Is this 
one person? Is this one person with 100 people? What is the----
    Secretary Gutierrez. Yes; one person with 100 percent of 
his or her time on intellectual property only. That is all they 
will do. They will report to me. They will work with NIPLECC 
very closely and they will be the conduit to all of the other 
agencies. There is a lot of work that we can be doing with 
USTR, but there is also work we can be coordinating with the 
Justice Department, because a lot of this is enforcement. A lot 
of this is frankly just tearing down some networks of 
intellectual property violations and making sure that people 
are punished.
    A lot of it is just straightforward implementation. This 
person will ensure that we have got priorities, that we are 
coordinating it, that we know what we are trying to do, that we 
are measuring progress, because today, it is just very general.
    Senator Mikulski. It is very general.
    Secretary Gutierrez. It is very general because it is such 
a complex area, and we know it is a problem, but we are not 
sure if we are making progress or not. Hopefully, we will be 
able to report to you with specific measures as to how much 
progress we are making such as how many networks have we 
prosecuted, how many countries have put laws in place, and how 
many companies have been shut down in foreign countries. I look 
forward to doing that.
    [The information follows:]

                          International Piracy

    The U.S. Department of Commerce is working at making combating 
international piracy and counterfeiting a priority. For example, it is 
working on the Strategy Targeting Organized Piracy (STOP) Initiative, 
which has been developed over the last year. STOP is the most 
comprehensive U.S. government-wide initiative ever advanced to demolish 
the criminal networks that traffic in fakes, stop trade in pirated and 
counterfeit goods at America's borders, block bogus goods around the 
world, and help small businesses secure and enforce their rights in 
overseas markets. While STOP is a multi-agency effort (e.g., the 
Department of Justice focusing on the criminal prosecution of criminal 
networks), Commerce is involved in many facets of this initiative.
Building Coalitions
    The ultimate success of the STOP Initiative involves building 
coalitions with many of our like-minded trading partners, such as 
Japan, the United Kingdom, and France, who have all recently launched 
similar initiatives. We are seeking to continue working with our 
partners in the G-8, Organization for Economic Cooperation and 
Development (OECD) and the Asia-Pacific Economic Cooperation (APEC) 
forum. Cooperation on new initiatives to improve the global 
intellectual property environment is essential to disrupting the 
operations of pirates and counterfeiters.

Criminal Prosecution
    Earlier this year, the U.S. Department of Justice announced the 
successful prosecution an international piracy enterprise. ``Operation 
Higher Education'' focused on the highest levels of these so-called 
``release groups.'' The top release groups, also frequently referred to 
as ``warez groups,'' are the first-providers--the original source for 
the illegal trading and online distribution of pirated works. Once a 
release group prepares a stolen work for distribution, the material is 
distributed in minutes to secure, top-level servers and made available 
to a select clientele. From there, within a matter of hours, the 
pirated works are illegally distributed throughout the world, ending up 
on public channels on IRC and peer-to-peer file sharing networks 
accessible to anyone with Internet access.
    The three convictions, while the first U.S. convictions for 
Operation Higher Education, bring the total number of domestic 
convictions for Operation Fastlink to six thus far.

International Outreach
    A delegation of U.S. officials from seven federal agencies, 
including Commerce, recently kicked-off our international outreach 
effort to promote STOP internationally. Earlier this year, we visited 
various capitals in Asia generating much interest and fruitful 
discussions. On each leg of the trip, U.S. officials shared information 
on our efforts to combat the theft of inventions, brands and ideas. 
This first leg abroad is advancing our commitment by enlisting our 
trading partners in an aggressive, unified fight against intellectual 
property theft. Outreach to Asia was followed by visits to other 
capitals, for example, sending a delegation to Europe. We have 
tentatively planned that countries receptive to cooperation on STOP 
will be invited to attend a meeting in Washington, D.C. (likely in the 
fall of 2005) designed to formalize their participation and finalize a 
work plan.
    As we look to the future, however, let me state a positive note. 
Although by all accounts counterfeiting and piracy appear to be growth 
``industries,'' there have been some recent successes in attacking the 
problem. Between 2001 and 2002, the software industry estimates that 
software piracy in Indonesia decreased from 89 percent to 68 percent. 
In South Africa, it fell from 63 percent to 36 percent. The motion 
picture industry has reported a decrease in piracy levels in Qatar from 
30 percent in 2001 to 15 percent in 2002. In Bahrain, there have been 
dramatic and systemic improvements in IP protection and enforcement 
over the past few years. These include the signing of numerous 
international IP conventions and the virtual elimination of copyright 
piracy and counterfeiting in retail establishments.
    There is some reason for optimism. I remain hopeful that with the 
continued support and partnership of the Subcommittee, we will be able 
to do even more to provide American businesses and entrepreneurs with 
the IP knowledge and protection they need. As we proceed with this and 
other IP initiatives, we will be pleased to describe our specific 
progress.

                       OFFICE OF CHINA COMPLIANCE

    Senator Mikulski. Well, we look forward to hearing about it 
too, because this is essentially a form of, you know, unarmed 
robbery in some ways. Now, we also note that we in the Congress 
supported an Office of China Compliance to focus particularly 
on China issues in the area of international trade that would 
affect small and medium-sized business. Can you tell us, then, 
what does the Office of China Compliance as you see it do, and 
do you see them as promoting us to sell products there or also 
to one of these areas where we would be again protecting our 
intellectual property?
    Secretary Gutierrez. It is a combination of assuring that 
our partners in China are abiding by our agreements and that we 
have access to their market. It includes intellectual property 
rights violations. It is a very broad agenda, and that is one 
of the reasons why it is good to have a coordinator. It also 
includes enforcement of antidumping provisions.
    Senator Mikulski. That is a big job, this Office of 
Compliance.
    Secretary Gutierrez. I brought some facts.
    Senator Mikulski. Do you have enough resources for this 
office? Because I think this and India are--there will be other 
countries, but these will be our two big----
    Secretary Gutierrez. We have had more antidumping cases in 
the last 2 or 3 years than we have in the past 10. We have 
increased the activity substantially and we believe we can be 
even more effective.
    Senator Mikulski. What areas of antidumping? You know, we 
were brought to our knees in steel.
    Secretary Gutierrez. Let me give you some examples of 
cases: folding gift boxes, glass windshields, tables and 
folding metal chairs. These are all antidumping cases against 
China. And by the way, it is 28 against China. In the last 8 
years, we had 25. So you already had more than what was done in 
the past 8 years: structural steel beams, welded carbon quality 
steel pipes, furnace coke products, saccharin.
    Senator Mikulski. Saccharin?
    Secretary Gutierrez. You name it: ball bearings, tubular 
goods, fence posts.
    Senator Shelby. Machine tools.
    Secretary Gutierrez. We have some machine tools. We have 
iron pipe fittings, television receivers. I would love to share 
this with you.
    Senator Mikulski. I would like to see.
    There are many issues in this area, and I just want to 
share two yellow flashing lights, and then, I want to just go 
to an NIST issue and an EDA issue in the interests of time.
    I mean, that can drive you crazy. I mean, it sounds like 
small folding chairs. But then, the next thing you know, it is 
dining room sets, and then, it is this, and then, it is that. 
And then, all of a sudden, whole towns in North Carolina or 
Alabama or Maryland are just switched in and out. So it is one 
thing to compete, but it is another to deal with this. So that 
is one issue.

                    INTELLECTUAL PROPERTY VIOLATIONS

    The other area where I am worried about violation of 
intellectual property is where they are sending in essentially 
knockoffs of pharmaceuticals or over the counter medications 
and so on. You just mentioned saccharin. Diabetes is a 
characteristic in our economy. So we use these kinds of 
products. Just imagine if somebody made something under very 
paltry circumstances, and if my mother, God rest her soul, 
thought she was using saccharin, but it really was not 
saccharin, and all of a sudden, it messes up her with her 
insulin and everything else.
    Then, that's just a small thing. That's an over the 
counter. It is not small to a diabetic. But then, let us get 
into someone bringing in phony glucophage or phony abandia or 
knockoff this or that do not meet the standards. It is one of 
the things that raises my concern about the inflow of drugs. Is 
this an area that you are involved with? Is this Justice? Is 
this another agency? Because this, then, goes to not only our 
economic security but actually our physical, our very physical 
safety.
    Secretary Gutierrez. There is a big component to this, the 
importation of pharmaceuticals.
    Senator Mikulski. Oh, no, we know.
    Secretary Gutierrez. And that is really what is driving it. 
It is more about getting the safety. If we can get that right, 
then, we can talk about the commercial part.
    Senator Mikulski. But that is where you would have to team 
up with FDA, right?
    Secretary Gutierrez. Yes. And that is why we absolutely 
support what FDA is doing. If they are saying the safety is not 
there, then, there is no commerce.
    Senator Mikulski. Let us go, though, back to your--you 
know, Mr. Chairman, I found it interesting as Mr. Gutierrez has 
shared with us all these rules and chemical ever made and every 
chemical that might be made, et cetera. Do you see this as a 
way that they are using it to protect, say, their own societies 
for safety, or do you see this as inventing bureaucracy as a 
way to be Fortress Europe, or is that something you would 
rather comment in more genteel terms?
    Secretary Gutierrez. It is a great question.
    Senator Mikulski. You are part of our commercial business 
diplomatic corps.
    Secretary Gutierrez. I can comment in my business 
experience with Europe. I can tell you it is a very difficult 
place to do business. There are a lot of regulations. There are 
European regulations, and there are also country regulations, 
and sometimes, they are not the same. I think there is an 
element where they believe that they are doing the right thing 
for their societies by having all of these regulations that 
they believe will protect.
    But what is happening is that they are actually impeding 
the growth of many of their businesses, because their 
businesses would rather take their capital elsewhere. That is 
why we would love to see Europe grow faster than 1.5 or 2 
percent. I think it grew 1.7 percent last year. Countries like 
Germany, where the unemployment is 12 percent, the growth rate 
is less than 1 percent, and we believe, respectfully, that a 
lot of this has to do with unnecessary regulation and very 
aggressive tax policy. Taxes are too high, and they have too 
many regulations.
    Senator Mikulski. So these are--coming back to my desire 
for an innovation economy and working in partnership, these are 
lessons learned from us.
    Secretary Gutierrez. Yes.
    Senator Mikulski. In other words, let us protect public 
health, let us protect public safety, but let us not----
    Secretary Gutierrez. Yes.
    Senator Mikulski [continuing]. Move in a direction that is 
so excessive and overexuberant we end up with--you cannot have 
a safer society unless you have a stronger economy.
    Secretary Gutierrez. You are absolutely right. That is the 
key. That is what they have learned from us, that if they can 
grow, they can do a lot of things for their society. If they 
cannot grow, they can do a lot of damage.

             STRENGTHENING AMERICA'S COMMUNITIES INITIATIVE

    Senator Mikulski. Let me go to the EDA totally shifting 
gears. We know that you are going to be introducing legislation 
on strengthening American communities, but should not pass as 
we go through the appropriation this year, there is no money 
for EDA here except to monitor existing grants. Do you have a 
plan A and plan B, plan A being the President's position, we 
understand, moving that legislation forward against, I might 
add, quite a bit of resistance? But should that not be passed 
by October 1, this now being June 1, what would be your plan B 
to fund EDA? To keep it at this year's level or----
    Secretary Gutierrez. We would have to go back and revisit 
our programs, the programs we are bringing over. Our plan is 
based on being able to bring over all the programs from five, 
six different agencies, HUD being one of them. And that is what 
we are planning for and what we are looking forward to. If that 
for some reason does not take place, we will have to go back 
and revisit the whole design.
    Senator Mikulski. I know the chairman was, you know, 
representing the majority party, I know. I will tell you: our 
communities depend on EDA, and while we are working on 
strengthening America's communities, and that is being more 
creative and more efficient, the fact is that they are going to 
want to know what about this year? Will there be an EDA? And, 
you know, what we will do or the way that we can do that.

                     STANDARDS AND INTEROPERABILITY

    The last just comment I want to make about NIST and the 
fact that we are so concerned about its reduction in funds, 
pick up on Senator Shelby and homeland security. What we are 
saying is we spent a lot of money on protecting your nation, 
and we are now concerned that this could go to boondoggle. And 
there are a lot of--there is a lot of, quote, gear being sold. 
Senator Shelby spoke about the interoperability. Crucial. 
Because remember, we in the Capital region are several Maryland 
jurisdictions, the District of Columbia as well as Northern 
Virginia. So this is big stuff.
    But then, at the same time, there are now all of these 
things from digital cameras to a lot that law enforcement and 
first responders are buying, and what we hear continually from 
the private sector, whether it is in IT or other types of 
protective things that they buy that there is a lack of 
Federal, national standards, that this is not a priority with 
Homeland Security, and it needs to be a priority.
    And we feel that NIST would be one of the places, 
particularly those things that are used so that when they are 
buying it, they know whether it will be interoperable, whether 
there will be certain standards in terms of efficacy, et 
cetera. Is this an area where you see NIST coordinating with 
the Secretary of Homeland Security, where we really are getting 
value for our dollar in terms of those things that they buy 
really to either protect the first responder or protect the 
community?
    Secretary Gutierrez. Absolutely. NIST, as you know, has 
been working very closely on the World Trade Center.
    Senator Mikulski. I know. It is fascinating. We enjoy it.
    Secretary Gutierrez. That leads to standards for the 
future.
    Senator Shelby. Mr. Secretary, without standards, though, 
there is no interoperability.
    Secretary Gutierrez. That is absolutely right.
    The other part about standards that we have to tackle, is 
the international part, because some countries may be using 
standards as a trading strategy.
    Senator Shelby. Sure.
    Secretary Gutierrez. So if they can get their standard into 
China, we are left out, because our standard does not work in 
China. So it is domestic; it is international; and it is also a 
very big issue down the road.
    Senator Shelby. Somebody has got that edge.
    Senator Mikulski. Well, let us look right now, because we 
may not be able to deal always with some of these issues facing 
us internationally. But America is committed to protecting its 
homeland and protecting, whether it is law enforcement or other 
first responders. We are committed to protecting them as 
citizens and as taxpayers. So this is why I think they are so 
keen on the standards issue, particularly in the area of those 
things that are most frequently bought in the area of homeland 
security and the need for efficacy, interoperability, things 
that the chairman has raised and that, you know, I have seen 
examples of exactly what you said, from the bullet proof vest 
to the digital camera to some other things.
    Secretary Gutierrez. I will take that with me. I know it is 
a big priority for you, and I will be glad to come back and 
report.
    Senator Mikulski. I think that is it, Mr. Chairman. There 
are many things that we could discuss, like the helicopter; 
saving lives and saving livelihoods.
    Senator Shelby. Let us keep talking, Mr. Secretary, over 
time. We know our staffs will.
    [The information follows:]

                        International Standards

    The Department of Commerce's National Institute of 
Standards and Technology (NIST) provides the measurement and 
standards infrastructure and information needed to support U.S. 
manufacturing competitiveness in the global marketplace.
    Some examples of NIST efforts already underway to ease 
regulatory barriers to U.S. exporters include working with 
industrial laboratories to ensure that manufacturers of 
telecommunications equipment have efficient access to foreign 
markets. NIST is the U.S. authority empowered under the Asia-
Pacific Economic Cooperation (APEC) Telecommunications 
Equipment Mutual Recognition Arrangement and the U.S.-European 
Union Mutual Recognition Agreement to designate qualifying U.S. 
organizations as competent to certify U.S. telecommunications 
equipment as meeting foreign regulatory requirements and ready 
for direct export to APEC and European Union countries. As a 
result of NIST's work, U.S. manufacturers of telecommunications 
equipment are now able to certify their products in the United 
States and ship directly to Canada. Two-way trade of 
telecommunications equipment between the two neighbors totals 
some $7 billion annually. U.S. organizations designated by NIST 
can test products for three other APEC markets--Australia, 
Chinese-Taipei and Singapore--as well as for the European 
market.
    NIST has led efforts to align United States and 
international legal metrology standards to ensure acceptance of 
U.S. instrumentation for scales and meters both domestically 
and internationally. The development and implementation of the 
International Organization of Legal Metrology Mutual Acceptance 
Arrangement will reduce the number of evaluations to which 
scale and meter manufacturers must be subjected, thereby 
reducing costs to manufacturers and reducing the time-to-market 
for new products. The total market for measuring instruments is 
estimated to be $5 billion worldwide.
    NIST is also supporting U.S. manufacturers of in vitro 
diagnostic (IVD) medical devices in maintaining access to the 
$6 billion a year European market. U.S. manufacturers supply 
approximately 60 percent of this market. Recently implemented 
European regulations codified traceability requirements for 
control of these devices, requiring reference to ``available 
reference measurement procedures and/or reference materials of 
higher order.'' U.S. IVD manufacturers requested that NIST 
provide the internationally recognized certified reference 
materials and reference methods needed to meet this 
traceability requirement. NIST led the efforts of the Joint 
Committee on Traceability in Laboratory Medicine to establish a 
process for identifying and reviewing the reference materials 
and methods against agreed upon criteria. NIST has published 72 
of the approximately 150 Certified Reference Materials and 30 
of the approximately 100 Reference Measurement Procedures 
required for compliance with the European Community directive 
regarding IVD medical devices.
    NIST has identified work needed to ensure that state-of-
the-art measurement technologies and standards that are under 
development in fields such as nanotechnology, biotechnology, 
and information technology are applied in support of U.S. 
manufacturing trade and exports. If U.S. businesses are to 
compete successfully in global markets, they need to design and 
manufacture products to globally accepted standards and tie 
their processes and products to international standards of 
measurement that are provided by NIST. NIST has identified key 
areas where U.S. standards and calibrations must be aligned 
with international standards to give U.S. manufacturers 
seamless access to foreign markets. NIST highlighted the need 
to monitor the development of foreign and international 
standards for potential impact on U.S. exports and the 
importance of making the resulting information easily 
accessible to U.S. manufacturers. The funding for this effort 
was requested in the President's fiscal year 2006 budget 
request for NIST. NIST's fiscal year 2006 budget also included 
funding to expand its current cooperative standards-related 
information and assistance programs that target emerging 
markets (such as China, India, South Korea, Brazil, Russia) 
where standards-related requirements are still being formulated 
and to accelerate global recognition of measurements performed 
by U.S. manufacturers.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Shelby. We appreciate your appearance here today. 
We know it is your first appearance, and we appreciate your 
coming to this small room. It has got its advantages, too. But 
we will continue to work with you, because you have got some 
real challenges, and so do we working with you on this budget 
and programs. We need certainty when we are funding things. You 
need certainty, too, in carrying them out.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

            Questions Submitted by Senator Richard C. Shelby

                             BOULDER FENCE

    Question. What is the status of the fence surrounding the Boulder 
facilities? Where do things stand with the city of Boulder? What are 
the current plans, timelines, and costs estimates? How does the 
Department intend to pay for the fence's construction?
    Answer. The final location of the fence line has been determined 
and the City Manager was notified on April 13, 2005. Tribal 
representatives have been notified as well. Design and material 
selection is continuing and should be at 90 percent completion by 
September 2005.
    DOC has worked in close consultation with the City of Boulder 
throughout the process to assure compliance with the Memorandum of 
Agreement (MOA) with the City and Tribes, and we have taken into 
account the concerns and suggestions from Boulder citizens, as well as 
from agency staff at the Boulder Laboratories.
    A response letter to this official notification was sent to the 
National Institute of Standards and Technology (NIST) Boulder Director 
on June 9, 2005, from the City of Boulder, Office of the City Manager. 
The letter states, ``The City is appreciative of the changes that the 
Department of Commerce has made to the proposed security improvements 
in response to concerns that the City has expressed about earlier 
proposals . . . At this time the City remains unconvinced of the need 
for a fence. If Commerce chooses to go forward in developing a fence, 
the City will insist that the terms of the MOA and the easement be 
abided by should any portion of such proposed fence trigger these 
agreements.'' The City has requested additional information on the 
outdoor lighting that will be part of the proposal; the design and 
material of the proposed fence and its effect on wildlife migration; 
the location, size and design of the boulders or bollards proposed to 
be placed on the east side of the NOAA building and where these would 
be located within the protected area or the City's right-of-way. The 
letter further states, ``depending on a review of this information, the 
City may still express concerns or objections to this latest 
proposal.''
    The NIST Boulder Director met again with City staff on June 24, 
2005, and is writing a letter that will be delivered to the City in the 
near future in response to the questions posed in the June 9th letter 
and during the June 24th meeting. It is expected that the letter will 
provide assurances on most of the details of compliance with the MOA 
and with City codes.
    Fence design is continuing in more detail now that the fence 
location is determined, and a 90 percent complete design is expected by 
September 2005. Costs including fence material, installation, and 
electronics (cameras) cannot be accurately estimated until the design 
is final.
    Once the design is finalized and cost estimates developed, the 
Department will work through the President's Budget process to 
determine where funding for the effort falls within other Department 
and Administration priorities.
    The President's fiscal year 2006 budget does not include funding 
for the fence construction. Additionally, the Senate Appropriations 
Committee mark on NIST's fiscal year 2006 Budget Request contains 
language that requires the Department of Commerce to consult with the 
committee prior to proceeding with any security enhancements at the 
Boulder location and prohibits the redirection of funding from other 
proposed construction projects at Boulder for security improvements.

    HOLLINGS MANUFACTURING EXTENSION PARTNERSHIP: ``SMALL AND RURAL 
                         STATES'' PILOT PROGRAM

    Question. Congress required NIST to submit an implementation plan 
for the ``Small and Rural States'' pilot program within the Hollings 
Manufacturing Extension Partnership. This plan was due April 15, 2005. 
The plan is now a month and a half late. When can the Committee expect 
to see the plan?
    Answer. The implementation plan is currently under development and 
review within the Administration.
                                 ______
                                 
             Questions Submitted by Senator Robert C. Byrd

             EMERGENCY STEEL LOAN GUARANTEE PROGRAM (ESLGP)

    Question. Throughout his time in office, President Bush has 
stated--over and over again--that he is a staunch defender of America's 
steel industry. He has told West Virginia steelworkers and other 
steelworkers across the nation that he will stand by them. Yet his 
budget for each of the past three years has recommended rescission of 
all of the available funds in the Emergency Steel Loan Guarantee 
Program (ESLGP).
    I helped establish the ESLGP in 1999 to help American steel 
companies in distress. The program has been absolutely critical in 
helping U.S. steel producers obtain necessary financing. It has saved 
the day for thousands of steelworkers and retirees across the nation--
from Hanna Steel Corporation in Tuscaloosa and Fairfield, Alabama, as 
well as Pekin, Illinois, to Wheeling-Pittsburgh Steel in Wheeling, West 
Virginia. I understand that even the loan that was awarded to Geneva 
Steel in Utah, a company that initially was in default, is now being 
repaid.
    So this has been and continues to be a very successful program. It 
therefore needs to remain available to ensure the future of America's 
steel companies, their workers, and thousands of retirees, who are in 
critical need of health insurance and pension benefits, and may now 
live on limited incomes.
    I would appreciate the Administration's support in maintaining this 
important program.
    Answer. There has been a low level of utilization of the Steel 
Program since its inception. Only three loan guarantees under the 
program have been closed and funded. And only two of these are still 
performing.
    The fiscal year 2004 Appropriations Act extended to December 31, 
2005, the authority to guarantee new loans under the Emergency Steel 
Loan Guarantee Program. No applications were received during this 
extension period so far and no applications are currently pending. The 
Administration proposes rescinding $50.2 million of unobligated 
balances of loan subsidy in 2006.

                        WTO NEGOTIATION STRATEGY

    Question. The Trade Act of 2002 requires significant effort by the 
Bush Administration to preserve U.S. trade laws in the ongoing WTO 
Round. During your confirmation, you assured Senator Rockefeller that 
you would ``vigorously defend and enforce our existing trade remedy 
laws, and implement those laws as intended to stop dumped or subsidized 
goods from injuring U.S. industries.''
    While other countries are making a multitude of proposals to 
dismantle U.S. trade laws, there appear to be few creative, new 
proposals being proposed by the U.S. government to preserve and enhance 
our critical antidumping and countervailing duty laws.
    Can you please explain the Bush Administration's strategy to 
``vigorously defend and enforce our existing trade remedy laws'' in the 
Doha Round's trade negotiations?
    Answer. Our negotiating strategy is quite clear: (1) To maintain 
the strength and effectiveness of the trade laws; (2) to enhance 
transparency and due process requirements; (3) to enhance disciplines 
on trade distorting practices that lead to unfair trade; and (4) to 
ensure that dispute settlement panels and the Appellate Body do not 
impose obligations that are not clearly contained in the Agreements.
    Furthermore, the specific concerns raised by Congress in the Trade 
Promotion Authority have been identified and will be addressed as part 
of the Rules negotiations. The Administration has actively participated 
in the Rules negotiations thus far, both in terms of pursuing our own 
objectives and challenging the proposals of others. The Commerce 
Department is committed to strengthening WTO trade remedy rules and 
ensuring that they remain effective in addressing the problems of 
unfair trade.

                CONTINUED DUMPING AND SUBSIDY OFFSET ACT

    Question. The Administration has recognized that the WTO decision 
on the Continued Dumping and Subsidy Offset Act of 2000 or ``CDSOA,'' 
also known as the Byrd Amendment trade law, incorrectly imposed 
obligations on the United States by prohibiting the distribution of 
monies collected as antidumping and countervailing duties on unfairly 
traded U.S. imports. Congress has repeatedly called for negotiations in 
the Doha Round to address this issue, not only in many letters sent to 
the Administration, but also in the fiscal year 2004 and fiscal year 
2005 Consolidated Appropriations Acts. Report language accompanying 
both of those appropriations bills, signed into law, also directed the 
Administration to report to the Appropriations Committee every 60 days 
on the status of those negotiations.
    I have not been briefed one time on the status of these 
negotiations. I understand that Commerce Department officials have a 
very important role in those negotiations, as do USTR negotiators. By 
law, the Administration has been directed to negotiate a solution to 
this trade dispute.
    In April 2004, the United States did submit a proposal in the Rules 
negotiations to recognize ``the right of Members to distribute monies 
collected from antidumping and countervailing duties.'' During the 
confirmation process, you explained that the Department of Commerce and 
the Office of the U.S. Trade Representative were consulting to ensure 
proper implementation of the requirements of U.S. law regarding 
negotiations over CDSOA distributions and would complete those 
consultations as soon as possible. You also agreed to continue to work 
to advance congressional objectives in the Doha Round negotiations, 
including reversal of the adverse CDSOA decision.
    Since committing to ``pursue changes to those Agreements that will 
reverse specific adverse findings, including those regarding the 
Continued Dumping and Subsidy Offset Act,'' the United States has not 
submitted any further proposals to recognize the right of Members to 
distribute monies collected from antidumping and countervailing duties.
    On May 23, 2005, U.S. Trade Representative Rob Portman sent me a 
letter in which he stated that he wants to work closely with me on the 
Byrd Amendment to determine ``the best way to forge the required 
consensus in the negotiations.''
    Can you please explain how the Administration intends to obtain an 
acceptable and expeditious solution to the CDSOA dispute at the WTO? 
When will there be a briefing by the Administration on the status of 
the negotiations concerning this dispute?
    Answer. The Administration intends to continue to address this 
issue in the context of the WTO's ongoing Doha Round of multilateral 
trade negotiations. While the United States has not proposed any legal 
text on this issue, in April 2004, the Administration did submit a 
paper in the WTO Negotiating Group on Rules indicating our intent to 
negotiate on this matter, as you noted.
    The Rules negotiations are entering a critical phase, and the 
Commerce Department is working earnestly and in concert with the Office 
of the U.S. Trade Representative (USTR) to satisfy Congressional 
objectives. The Commerce Department is working with USTR to draft a 
second-generation proposal on this issue. We are also prepared to 
assist the USTR with its responsibilities in reporting to Congress on 
the progress of these negotiations, and specifically on negotiations 
over the right of Members to distribute antidumping and countervailing 
duties. We would be pleased to consult with you and your staff on this 
paper as the drafting process advances.

              COLLABORATION WITH U.S. TRADE REPRESENTATIVE

    Question. Over the past two years, the United States has been on 
the receiving end of more adverse GATT and WTO challenges than any 
other WTO Member. Roughly half of all WTO decisions have been issued in 
cases that challenged U.S. measures, and over three-quarters of those 
decisions addressed the administration of our trade remedy laws. It is 
clear that the WTO dispute settlement system has been used unfairly to 
threaten U.S. sovereignty and to erode the effectiveness of our trade 
remedy laws. Despite this, the United States has only made four 
publicly available submissions in the dispute settlement negotiations 
concerning two topics.
    How do you intend to collaborate with USTR to redress this 
imbalance? What is your strategy to rapidly generate textual proposals 
that can protect and enhance the U.S. trade laws?
    Answer. I intend to continue working very closely with the Office 
of the United States Trade Representative to advance the negotiation of 
changes to the WTO Dispute Settlement Understanding, as well as the 
Antidumping and Subsidies Agreements, that aim to correct the most 
egregious WTO decisions and to ensure that, in future disputes, the 
panels and the Appellate Body will adhere to the appropriate standards 
of review.
    In the dispute settlement negotiations, the United States has 
already submitted detailed textual proposals that would serve to 
achieve the first two elements of our strategy: increasing WTO Members' 
control over the dispute settlement process and increasing the 
transparency of that process. With respect to the Rules negotiations, 
the Administration believes that the negotiations should now focus on 
``clearing the underbrush'' so that the way forward to a text-based 
negotiation sometime after the Hong Kong Ministerial Meeting is clear. 
At that time, the Administration will be prepared to pursue our Rules-
specific dispute settlement concerns with textual proposals.
    Question. Specifically concerning the issue of the Doha Dispute 
Settlement negotiations, during your confirmation process, you offered 
a general strategy of: (1) increasing member nations' control over the 
dispute settlement process; (2) increasing transparency; (3) pursuing 
changes to the Rules Agreements to ensure that panels and the Appellate 
Body adhere to the appropriate standards of review; and (4) pursuing 
changes to the Rules Agreements that ``will reverse specific adverse 
findings, including those regarding the Continued Dumping and Subsidy 
Offset Act, `zeroing,' and injury determinations.'' The United States 
has not submitted any recent, concrete proposals addressing any of the 
items highlighted in your strategy.
    Can you please explain how you intend to advance the negotiation of 
changes to the WTO dispute settlement system or the Rules Agreements to 
reverse this long line of adverse trade remedy decisions? Can you 
provide a timeline of when we can expect such proposals to be 
submitted?
    Answer. I intend to work very closely with the Office of the United 
States Trade Representative to advance the negotiation of appropriate 
changes to the WTO Dispute Settlement Understanding, as well as the 
Antidumping and Subsidies Agreements.
    In the context of the dispute settlement negotiations, the 
Administration intends to continue pursuing the textual proposals the 
United States has submitted that would increase WTO Members' control 
over the dispute settlement process and the transparency of that 
process.
    In the Rules negotiations, the United States has identified as an 
issue for further negotiation the need to ensure that panels and the 
Appellate Body adhere to the appropriate standards of review. With 
respect to zeroing, the United States has already identified the topic 
as one of our priorities in the Rules negotiations and is taking the 
necessary steps to address this important issue. The United States 
tabled a paper that outlines our views on zeroing and will continue to 
advocate for the continuance of our long-standing practice as the 
discussions move forward. With respect to injury determinations, the 
United States tabled a paper in early July addressing the Appellate 
Body's adverse findings with respect to this issue. The Administration 
intends to pursue these proposals vigorously as the negotiations 
advance.
                                 ______
                                 
            Questions Submitted by Senator Daniel K. Inouye

                       NOAA PACIFIC REGION CENTER

    Question. For several years, my office has worked in partnership 
with the National Oceanic and Atmospheric Administration toward the 
construction of a consolidated regional facility for the agency in 
Hawaii. A site--Ford Island in Pearl Harbor--has been selected after an 
exhaustive search, and the design process and environmental permit 
process is underway. All told, the Hawaiian Archipelago comprises over 
20 percent of the United States' Exclusive Economic Zone. We are in the 
midst of a designation process that will lead, I believe, to the 
creation of the world's largest marine sanctuary. Our pelagic fisheries 
produce the world's best sashimi-grade tuna, and although they are 
currently healthy, vigilance in management is necessary to ensure that 
the international fleets follow America's lead in responsible fishing 
practices. Our National Weather Service region is the largest in the 
nation, and our climate and weather scientists lead the world in 
pushing back the frontiers of understanding the Pacific's meteorology. 
Their excellent work is matched by corresponding initiatives for 
coastal disaster management from an all-hazards point of view--
initiatives that are developed in Hawaii and then used as patterns 
among other Pacific Islands.
    These efforts are currently hosted in a variety of inadequate and 
scattered spaces throughout the Island of Oahu. Lease costs are high, 
and in some cases, the physical plants of the buildings are in serious 
decay. I would appreciate learning your thoughts on the NOAA 
consolidated facility.
    What NOAA programs are currently in Hawaii?
    Answer. The following NOAA operations are supported on the island 
of O'ahu, Hawaii:
  --NMFS--National Marine Fisheries
    --Pacific Islands Regional Office
    --Pacific Islands Fisheries Science Center and Honolulu Lab
    --Office of Law Enforcement
  --NWS--National Weather Service
    --Pacific Region Headquarters
    --International Tsunami Information Center
    --Honolulu Electronics and Technical Support Unit
    --Tsunami Warning Center (this program is not planned for 
            consolidation at the Pacific Region Center, due to 
            operational considerations)
    --Weather Forecast Office
  --NOS--National Ocean Service
    --Pacific Regional Office
    --National Marine Sanctuary Program
    --NW HI Coral Reef Ecosystem Reserve
    --HI Humpback Whale National Marine Sanctuary
    --Pacific Services Center
  --OMAO--Office of Marine Aviation Operations
    --Marine Operations Center--Pacific
  --OAR--Oceanic & Atmospheric Research
    --Climate Monitoring and Diagnostics Laboratory
    --Forecast Systems Laboratory
    --Joint Institute for Marine and Atmospheric Research
    --Office of Global Programs
    --Undersea Research Center
  --Office of General Counsel and Office of Public Affairs
    Question. How many NOAA employees are currently in Hawaii?
    Answer. There are nearly 400 employees (NOAA, Joint Institute for 
Marine and Atmospheric Research, contractors, etc.) in Hawaii.
    Question. What facilities are currently available for these 
programs and employees?
    Answer. There are ten different facilities currently used to 
support these programs and employees:

----------------------------------------------------------------------------------------------------------------
                  Occupant                                                 Location
----------------------------------------------------------------------------------------------------------------
OMAO........................................  #1 Sand Island Snug Harbor
NMFS........................................  300 Ala Moana Blvd
NMFS........................................  2570 Dole Street
NMFS........................................  Kewalo Basin
NMFS........................................  501 Sumner
NMFS........................................  1601 Kapiolani
NOS.........................................  6700 Kalanianole Highway Hawaii Kai Plaza
NWS/NOS.....................................  737 Bishop St
NWS.........................................  220 Kalihi St
NMFS........................................  9-193 Aiea Heights
----------------------------------------------------------------------------------------------------------------

    Question. Describe the status of these facilities. In particular, 
give reference to the age and physical condition of laboratory 
facilities, pier space and facilities for NOAA vessels, and the 
adequacy of space for the number of employees housed at each facility.
    Answer. The current facilities are overcrowded and inadequate to 
support current and future NOAA programs in the Pacific Region. Over 
the next 5-10 years, NOAA expects program growth in Pacific Region 
programs to increase this employee base by a modest amount.
    NOAA's program space requirements can generally be broken down into 
three types of space/operations: Office/Lab Space; Ship Operations 
Space; and Sea-Water (``Wet Lab'') Lab Space.
    Office/Lab Space.--The NOAA laboratory located at the University of 
Hawaii, Manoa Campus (Dole Street Lab) was constructed in 1949 to house 
45 employees of the National Marine Fisheries Service. By the mid-
1990s, the lab's programs had grown to over 129 staff and the 
facilities had deteriorated significantly; thus prompting the plan to 
replace the Dole Street Lab with another lab facility on the same site. 
In addition to this location, NOAA leases office/lab space for other 
programs (including National Oceans Service, National Weather Service).
    Ship Operations.--NOAA's ship operations are supported at the Snug 
Harbor location. The current location of the ship operations support 
facility was barely able to adequately support two ships (due to 
limited pier space and operational facilities) and cannot support the 
existing three ships (KA'IMIMOANA, OSCAR ELTON SETTE, HII'IALAKAI). 
NOAA requires a permanent and cost-effective docking and ship 
operations solution that will accommodate both current and future ship 
operations requirements, and has been forced on an interim basis to 
negotiate temporary berthing arrangements with Navy Region Hawaii at 
the Ford Island site.
    Seawater Lab Space.--The current seawater (wet lab) facility at 
Kewalo Basin supports critical fisheries, marine mammal, and 
sanctuaries programs. This facility is overcrowded, cannot be expanded 
at its current location, operates on a month-to-month rental basis, and 
is at risk of being forced out of its current location because of a 
larger development plan for the area (published plans from the Hawaii 
Community Development Authority call for a major redevelopment of the 
Kewalo Basin and surrounding area). Therefore, a more permanent 
solution to NOAA's seawater laboratory facility needs is required.
    Question. What financial costs would be necessary to remediate any 
deficiencies identified in the previous question?
    Answer. If NOAA were to maintain the separate locations identified 
above to support NOAA's operations and programs, substantial 
investments would be required to replace the facilities at Dole Street 
Lab, and to develop alternative facilities to replace the current Snug 
Harbor and Kewalo Basin facilities. The existing facilities have either 
outlived their useful lives (as is the case with Dole Street Lab); will 
not be available in the future (as is the case of Kewalo Basin); or 
their capacity cannot support current or future programs and operations 
(Snug Harbor, et al.). In addition, given the growth projected in 
NOAA's programs over the next five to ten years, NOAA would also need 
to lease increasing amounts of office space to support a modest 
increase in employee population. These investments in both increased 
leased space and in capital investments that would otherwise be 
required to support NOAA's current and future mission and operations in 
the Pacific Region are estimated at more than $265 million. This is 
substantially more than preliminary estimates for the projected cost of 
the Pacific Region Center.
    Question. What is the projected growth for the agency in Hawaii?
    Answer. There are nearly 400 employees (NOAA, Joint Institute for 
Marine and Atmospheric Research, contractors, etc.) in Hawaii. Over the 
next 5-10 years, NOAA expects a program growth in Pacific Region 
programs to increase this employee base by a modest amount.
    Question. What are the projected financial costs of accommodating 
that growth if each program continues as it does now--pursuing its own 
facilities needs independent of one another, and without any central 
planning? Compare these costs with those of the consolidated facility.
    Answer. The investments in both increased leased space and in 
capital investments that would otherwise be required to support NOAA's 
current and future mission and operations in the Pacific Region are 
estimated at more than $265 million. This is substantially more than 
preliminary estimates for the projected cost of the Pacific Region 
Center.
    Question. What is the position of the Department of Commerce on the 
consolidated NOAA facility in Hawaii? Please explain the Department's 
rationale.
    Answer. The Department of Commerce supports the development of a 
NOAA Pacific Region Center on Ford Island, and appreciates the support 
the Senator and his staff have provided to NOAA over the past several 
years in working towards this objective. NOAA's programs in the Pacific 
Region are diverse and geographically wide-ranging. They affect not 
just Hawaii, but also the larger Pacific Region. By bringing its 
programs together into one facility, NOAA expects to realize benefits 
in improved operations and mission performance, as well as longer-term 
operational savings, including the following:
  --Create greater focus and attention to the vital role that NOAA's 
        programs play in understanding and predicting the Pacific 
        Region's climate;
  --Improve the agency's ability to protect the environment and enhance 
        the sustainability of Pacific Basin resources;
  --Provide greater synergy and integration across NOAA in delivering 
        its products and services in the Pacific Region;
  --Advance its mission and promote community development through its 
        outreach efforts, cooperative relationships with educational 
        institutions, and growth of internship programs;
  --Achieve operational efficiencies and control program expenditures 
        by locating NOAA facilities and services in a common location 
        on existing U.S. government property.
                                 ______
                                 
               Questions Submitted by Senator Tim Johnson

                  BASE REALIGNMENT AND CLOSURE (BRAC)

    Question. On May 13 of this year, the Department of Defense (DOD) 
released its recommendations for realignment or closure of U.S. 
military bases. These recommendations will now be considered by the 
Base Realignment and Closure (BRAC) Commission. A revised list of 
recommendations will likely be considered by the President and 
Congress. Base closures, particularly in rural states like mine, can 
have devastating effects on local and regional economies. To mitigate 
these effects, several federal agencies offer grants and technical 
assistance to communities forced to cope with a base closure. In the 
four previous BRAC rounds, the Economic Development Administration 
(EDA) has been one of the largest, if not the single largest, sources 
of funding for BRAC-affected communities. The Administration's deep 
proposed cuts to community development programs including EDA would be 
of great concern to me under any circumstances. These cuts look even 
more inadvisable this year, however, in light of the fact that the 
current BRAC round will generate a significant increase in demand for 
EDA's assistance. Given that other forms of federal assistance have not 
grown to accommodate this increased demand, would you please indicate 
whether EDA has established a plan for ensuring that the needs of BRAC 
affected communities are met? If EDA has established such a plan, 
please characterize it. If EDA has not established such a plan, please 
justify the Administration's willingness to provide less assistance for 
communities affected by its base closure and realignment decisions.
    Answer. EDA continues to be an active participant in national Base 
Realignment and Closure (BRAC) activities, including working with the 
bureau's federal partners to coordinate assistance to address the 
forthcoming BRAC recommendations. In fact, pursuant to Executive Order 
12788, entitled Defense Economic Adjustment Program, as amended by 
President George W. Bush on May 12, 2005, the Secretary of Commerce 
serves as co-vice chair of the President's Economic Adjustment 
Committee (EAC), the role of which is to coordinate assistance across 
the federal government in support of forthcoming base closure and 
realignment decisions.
    Furthermore, EDA has an existing Memorandum of Agreement (MOA) with 
the Department of Defense's Office of Economic Adjustment (OEA) ``to 
facilitate the award and administration of grant and cooperative 
agreement activities and to promote consultation between the agencies'' 
on base realignment and closure issues. Pursuant to this agreement, OEA 
transfers funds to EDA to assist with economic adjustment projects on 
former military installations including grants for infrastructure 
improvements to facilitate the reuse of former military bases.
    Finally, when the President's Strengthening America's Communities 
initiative (SACI) is implemented and its administrative structure 
established, it is anticipated that the Department, under the auspices 
of a new bureau, will retain its authority and maintain its historic 
role assisting BRAC-impacted communities under soon-to-be proposed SACI 
legislation designed to, among other things, respond to economic 
adjustment problems. Under the anticipated framework for SACI, a base 
closing might cause a sudden and severe economic event that could 
trigger eligibility as a result of the economic dislocation caused by 
the closure.

             STRENGTHENING AMERICA'S COMMUNITIES INITIATIVE

    Question. Part of the Administration's justification for 
reorganizing community development grant programs as part of the 
Strengthening America's Communities (SAC) initiative is its assertion 
that federal funds are not always directed to the neediest communities. 
Yet the Administration also touts the merits of the block grant method 
of distributing federal funds, whereby state and local officials decide 
how such funds should be allocated. They are presumed to understand 
local needs and priorities more comprehensively than federal officials. 
These two positions appear to be incompatible--the Administration's 
critique of how community development funds have been distributed seems 
to contradict its belief in the wisdom of local officials. Could you 
please explain this apparent contradiction?
    Answer. The Administration strongly supports the block grant method 
of distributing federal funds as an effective mechanism to target 
taxpayer dollars to address locally established needs and priorities. 
The Administration notes, however, that existing federal block grant 
programs, such as the Community Development Block Grant (CDBG) and 
Community Services Block Grant (CSBG) programs, were developed to 
address the community and economic development challenges of another 
era and are no longer achieving their intended purpose of aiding the 
nation's neediest communities.
    The Administration strongly believes that funding should be 
targeted to those communities most in need. For example, the CDBG 
program was created to serve distressed communities, but currently 
allocates 38 percent of its funds to communities (including both 
entitlement communities and the State portion) with below average 
poverty rates. The President's Strengthening America's Communities 
initiative (SACI) will address this deficiency by designing a new 
program targeted exclusively to the nation's most economically 
distressed communities.
    The SACI represents a shift in federal community and economic 
development policy. The President and his Administration believe first 
and foremost that direct federal grants in local development efforts 
should be easy to access, flexible to use, and targeted directly to the 
most-distressed communities with an expectation of achieving results.
    In focusing on results, accountability for the use of taxpayer 
dollars will be a critical component of SACI. In exchange for the 
flexible use of funds at the local level, recipients will be expected 
to achieve, and be held accountable for results. This initiative 
represents a new approach to economic and community development 
assistance by placing the focus on long-term outcomes that demonstrate 
improvement toward community self-sufficiency. Communities will be 
required to show that they have made progress toward locally selected 
goals for development (such as job creation, homeownership, and 
commercial development) in return for being able to determine how best 
to spend federal dollars to meet those outcomes.
    Question. A February 2005 overview booklet about the SAC initiative 
contains a Frequently Asked Questions (FAQ) section which includes the 
following question. ``Isn't [the SAC initiative] really just a disguise 
for cutting funding?'' The pamphlet goes on to explain that despite the 
initiative's proposed cuts, community development efforts would be 
improved by the initiative's reforms. To my knowledge, though, the 
Administration has not released any analysis to indicate the harm of 
reducing community development funding will be more than offset by 
gains from reorganizing the programs. Has the Administration conducted 
any analysis to indicate whether the SAC initiative is net-beneficial? 
If so, please share this analysis with me and other members of the 
Appropriations Committee. In the absence of such analysis, how does the 
Administration justify its claim that the SAC is something other than 
``a disguise for cutting funding''?
    Answer. When the Strengthening America's Communities initiative 
(SACI) is implemented, the Administration anticipates that there will 
be administrative savings from reducing the number of programs that 
communities must work with from 18 to 1. These savings will occur at 
the federal, as well as state and local levels where redundant staffing 
and administrative structures can be eliminated. To date, the 
Administration has not conducted an analysis that quantifies the 
administrative savings at the federal level, and it would be virtually 
impossible to quantify the enormous benefits that would accrue by 
eliminating redundancy at the state and local levels.
    In addition to the anticipated administrative savings, the goal of 
the consolidation is to provide a more streamlined delivery system 
resulting in better service and reduced upfront costs for the 
communities receiving assistance. An important principle behind the 
SACI is to avoid the need for communities, especially rural and 
economically distressed communities with limited resources, to have to 
expend those valuable resources coordinating a vast array of similar 
domestic community and economic development programs.
    These concerns about the status quo mirror the growing consensus 
among the nation's leading economists and economic development 
researchers and practitioners that because of the fragmented, 
unfocused, and duplicative nature of the programs, there is a need to 
fundamentally rethink and refocus the federal role in support of state 
and community efforts to promote economic growth and spur job creation 
in the 21st century economy. For example, one GAO report noted that the 
fragmentation and excessive bureaucracy make it difficult for 
communities to obtain assistance and ``limit the development of 
critical knowledge [and] hinder organizations and partnerships.'' \1\ 
The Administration's new proposed grant program would significantly 
improve the coordination of resources at the local level by 
streamlining federal resources.
---------------------------------------------------------------------------
    \1\ U.S. General Accounting Office, ``Community Development: 
Challenges Face Comprehensive Approaches to Address Needs of Distressed 
Neighborhoods,'' GAO/T-RECD-95-160BR, April 13, 1995.
---------------------------------------------------------------------------
    The recently issued report of the SACI Secretarial Advisory 
Committee reinforces these findings. The report's overarching premise 
is that globalization has fundamentally changed the American economy, 
and that the economic health of our nation is now dependent upon the 
competitiveness of its regions. Despite these economic changes, our 
nation continues with policies, organizational structures, and 
investment strategies built for a past era. Therefore, it is necessary 
to build a new system of federal economic and community development 
that invests in the strengthening of regions and their communities. The 
report emphasizes the need to better target federal resources to 
communities and regions of high distress.
    On the whole, it is anticipated that SACI's new allocation formula 
will direct more funds to the neediest places. The President's 
initiative will focus resources on the nation's most economically 
distressed communities. By focusing on communities most in need, fewer 
communities may be funded, but they will be funded under an allocation 
methodology that allows them to receive increased funding along with 
more flexibility, more control and more focus on activities that drive 
their local economy or make their communities more livable.
    In addition, the President's proposal is more equitable in that it 
will streamline access to federal assistance by providing a single 
access point for all communities. By targeting funds on the basis of 
need, we can direct funding to the communities that are most deserving 
regardless of whether they are urban, exurban, suburban, or rural.

                         CONCLUSION OF HEARINGS

    Senator Shelby. Thank you very much. The subcommittee is 
recessed.
    [Whereupon, at 3:20 p.m., Thursday, May 26, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]


  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2006

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [The following testimonies were received by the 
Subcommittee on Commerce, Justice, Science, and Related 
Agencies for inclusion in the record. The submitted materials 
relate to the fiscal year 2006 budget request for programs 
within the subcommittee's jurisdiction.]
      Prepared Statement of the American Society for Microbiology
    The American Society for Microbiology (ASM) appreciates the 
opportunity to submit testimony on the fiscal year 2006 appropriation 
for the National Science Foundation (NSF). The ASM is the largest 
single life science organization in the world with more than 43,000 
members. The ASM mission is to enhance the science of microbiology, to 
gain a better understanding of life processes, and to promote the 
application of this knowledge for improved health and for economic and 
environmental well-being.
    The NSF is the premier source of Federal support for scientific, 
mathematic, and engineering research and education across many 
disciplines. NSF plays a critical role in supporting the health of the 
Nation's research and education system, which is a principal source of 
new ideas and human resources in science and engineering. Although NSF 
represents less than 4 percent of the total Federal funding for 
research and development, it accounts for approximately 13 percent of 
all Federal support for basic research and 40 percent of non-life-
science basic research at U.S. academic institutions. NSF's broad 
support for basic research, particularly at U.S. academic institutions, 
provides not only a key source of funds for discovery in many fields, 
but also unique stewardship in developing the next generation of 
scientists and engineers. NSF is also the primary Federal agency 
charged with promoting science and engineering education at all levels 
and in all settings, from pre-kindergarten through career development. 
This educational effort helps to ensure that the United States has 
world-class scientists, mathematicians, and engineers, as well as, 
educated and prepared citizens.
    ASM appreciates the support that both the Congress and the 
administration have demonstrated for the National Science Foundation 
through enactment of the NSF Authorization Act of 2002 (Public Law 107-
368). Public Law 107-368 authorizes a 5-year period of 15 percent 
annual budget increases for the NSF. Recognizing the current fiscal 
climate, we encourage Congress to increase the funding for NSF in 
fiscal year 2006 to $6 billion, approximately 6 percent above the 
fiscal year 2004 funding level and 9 percent over fiscal year 2005. 
Increasing NSF's budget to $6 billion will allow for additional 
investments in grants, fellowships, and in crosscutting research 
priorities such as Microbial Biology, Nanoscale Science and 
Engineering, the National Ecological Observatory Network (NEON), and 
meet biological infrastructure needs.

                         RESEARCH GRANT FUNDING

    Fundamental research in the biosciences has laid the foundation for 
exploring the human genome and now offers new possibilities for 
understanding the living world from molecules to organisms to 
ecosystems, providing discoveries applicable to meeting national 
health, environmental, agricultural, and energy needs. The fiscal year 
2006 budget request for NSF is $5.61 billion, a 2.4 percent or $132 
million increase over fiscal year 2005. However, because NSF received a 
3.1 percent cut in fiscal year 2005, the overall request for fiscal 
year 2006 would still fall approximately 1 percent below the fiscal 
year 2004 level. Moreover, because NSF is being asked to pay for the 
upkeep of ships used for icebreaking, an expense that formerly was 
borne by the Coast Guard, the net increase for agency programs in 
fiscal year 2006 amounts to only 1.5 percent.
    The success rate for grant proposals submitted to NSF has dropped 
from a level of about 33 percent to below 20 percent, while the number 
of proposals submitted to the agency has increased to more than 45,000 
per year. The projected number of grants funded for fiscal year 2006 is 
expected to remain steady, while the average annual award size will 
also remain level at an estimated $137,000. Increasing NSF's budget to 
$6 billion would allow NSF to increase the size of individual awards 
and also the number of grants awarded.
    The NSF Directorate for Biological Sciences (BIO) provides support 
for research that advances understanding of the underlying principles 
and mechanisms governing life. The fiscal year 2006 budget request for 
the BIO directorate is $581.8 million, an increase of 0.9 percent over 
the fiscal year 2005 level. Research programs range from the study of 
the structure and dynamics of biological molecules, such as proteins 
and nucleic acids, through cells, organs, and intact organisms to 
studies of populations and ecosystems. It encompasses processes that 
are internal to particular organisms as well as those that are 
external, and includes temporal frameworks ranging from immediate 
measurements through life spans of mere minutes for some microorganisms 
to the full scope of evolutionary time. Within the BIO and other 
Directorates at the NSF, programs and priorities of particular interest 
to the ASM include:

                   MOLECULAR AND CELLULAR BIOSCIENCES

    The Molecular and Cellular Biosciences (MCB) Division within NSF 
included several research activities in microbiology that are being 
transferred to the Emerging Frontiers Subactivity for a new emphasis in 
Microbial Biology in fiscal year 2006. The request for MCB core 
research for fiscal year 2006 is $109.8 million, which is a decrease of 
$8.4 million from fiscal year 2005. Although some of this decrease is 
due to activities being transferred, overall decreases in core funding 
will lead to fewer MCB awards in fiscal year 2006.

                    BIOCOMPLEXITY IN THE ENVIRONMENT

    The fiscal year 2006 budget request for Biocomplexity in the 
Environment (BE) is for $30.43 million, which is nearly a 24 percent 
decrease from the previous level. This priority area provides support 
for the Ecology of Infectious Disease, Microbial Genome Sequencing, and 
Assembling the Tree of Life programs, and will help to support a new 
program emphasizing environmental genomics in fiscal year 2006, each of 
which will be managed under the Emerging Frontiers Subactivity. This 
effort to expand multidisciplinary research will result in our 
developing a more complete understanding of natural processes and 
better ways to use new technology effectively to sustain life on earth. 
Increasing NSF's budget would allow NSF to increase its investment in 
the BE effort.

                   NANOSCALE SCIENCE AND ENGINEERING

    The Nanoscale Science and Engineering effort within the BIO 
Directorate faces a decrease of $2 million, or 34 percent, to a total 
of $3.85 million for fiscal year 2006. This effort encompasses the 
systematic organization, manipulation, and control of matter at the 
atomic, molecular, and supramolecular levels. With the capacity to 
manipulate matter at the nanometer scale (one-billionth of a meter), 
science, engineering, and technology are realizing revolutionary 
advances in areas, such as, individualized pharmaceuticals, new drug 
delivery systems, more resilient materials and fabrics, catalysts for 
industry, and computer chips. NSF has been a pioneer among Federal 
agencies in fostering the development of nanoscale science. The 
President's request of $127.8 million in fiscal year 2006 for the 
overall Nanoscale Science and Engineering effort remains unchanged from 
the fiscal year 2005 plan.

                   DIVISION OF ENVIRONMENTAL BIOLOGY

    The budget request for the Division of Environmental Biology (DEB) 
for fiscal year 2006 is $107.1 million, an increase of about 1.1 
percent over the fiscal year 2005 plan. DEB priorities for fiscal year 
2006 are to support research on complex ecological systems, including 
aquatic or watershed systems, systematic biology, microbial ecology, 
and invasive species, with particular emphasis on the quantitative 
understanding of complex interrelationships. These efforts will depend 
on biological infrastructure such as advanced instrumentation and 
research collections. Also within DEB, the National Center for 
Ecological Analysis and Synthesis budget is to be increased by 
$350,000.

                       BIOLOGICAL INFRASTRUCTURE

    The budget request for the Division of Biological Infrastructure 
for fiscal year 2006 is for $82.9 million, an increase of about 2.9 
percent over the fiscal year 2005 plan. The fiscal year 2006 budget 
request for the National Ecological Observatory Network (NEON) within 
this program is for $6 million, which is less than a 1 percent increase 
from the previous year and is allocated for planning this program. NEON 
has the potential to transform ecological research. The program calls 
for developing a continental-scale research instrument consisting of 
geographically distributed infrastructure that will be networked via 
state-of-the-art communications to obtain a predictive understanding of 
the Nation's environment. A very large number of scientists, students, 
resource managers, and decision makers could make use of NEON data, 
both directly and indirectly, through the network capabilities and the 
Internet. Increasing NSF's budget to $6 billion would allow NSF to 
increase its investment in NEON.

                           EMERGING FRONTIERS

    The budget request for the Emerging Frontiers (EF) Subactivity for 
fiscal year 2006 is for $85.9 million, an increase of about 16 percent 
over the fiscal year 2005 plan. This increase is partly the result of 
several programs being transferred from the Division of Molecular and 
Cellular Biosciences, including programs that support microbial genome 
sequencing, microbial observatories, research on interactions and 
processes, and training activities. The EF Subactivity includes a 
priority in Microbial Biology for fiscal year 2006, emphasizing all 
levels from the molecular to the ecological. Several programs are being 
transferred from the Division of Molecular and Cellular Biosciences, 
including programs that support microbial genome sequencing, microbial 
observatories, research on interactions and processes, and training 
activities.
    The Microbial Genome Sequencing Program is to be conducted jointly 
with a competitive grants program in the U.S. Department of 
Agriculture. The fiscal year 2006 funding request is for $12.2 million 
for the Microbial Observatories and Microbial Interactions and 
Processes Program to support researchers who are analyzing microbial 
genomic sequence and other data.
    The Ecology of Infectious Diseases is an interagency partnership 
with the National Institutes of Health to support the development of 
predictive models and discovery of principles for relationships between 
environmental factors and transmission of infectious agents. Potential 
benefits include the development of disease transmission models, 
understanding unintended health effects of environmental change, and 
improved prediction of disease outbreaks, including the emergence or 
reemergence of disease agents. Examples of environmental factors 
include habitat transformation, biological invasion, biodiversity loss, 
and contamination.

                BIOENGINEERING AND ENVIRONMENTAL SYSTEMS

    The Bioengineering and Environmental Systems (BES) Division, within 
the Engineering Directorate, supports research that: expands the 
knowledge base of bioengineering at scales ranging from proteins and 
cells to organ systems, including mathematical models, devices and 
instrumentation systems; applies engineering principles to the 
understanding of living systems, development of new and improved 
devices, and products for human health care; improves our ability to 
apply engineering principles to avoid and/or correct problems that 
impair the usefulness of land, air and water, and advances fundamental 
engineering knowledge of the ocean environment and develops 
technological innovation related to conservation, development, and use 
of the oceans and their resources.
    In fiscal year 2004, BES was funded at $51 million, in fiscal year 
2005, it was funded at $48.2 million. The budget request for BES in 
fiscal year 2006 is $50.7 million, 0.6 percent below fiscal year 2004. 
BES plays a vital role in supporting research, innovation, and 
education in the rapidly evolving fields of bioengineering and 
environmental engineering. Increasing NSF's budget to $6 billion would 
allow NSF to increase its investment in BES, supporting technological 
innovations that will advance the global competitiveness of our 
industries and the health of our environment.

                               CONCLUSION

    In addition to adverse impacts on the pace of new scientific 
discoveries, constrained funding has equally important consequences for 
the vitality of the Nation's scientific workforce. Constrained funding 
decreases job opportunities for current and future scientists, and 
reduces the attractiveness of science as a career choice.
    The NSF plays a key role in support of basic science and scientists 
in the United States, and knowledge gained from NSF studies directly 
benefits industry and contributes to the economy and U.S. international 
competitiveness. The NSF is in a singular position among all the 
Federal research and development agencies to support fundamental 
research in a wide range of important areas, including microbiology and 
molecular biology. ASM urges Congress to protect ongoing and future 
U.S. scientific and technological advancements by supporting an 
increase to $6 billion for the fiscal year 2006 budget for the NSF. The 
ASM believes NSF should continue to emphasize fundamental, 
investigator-initiated research, research training, and science 
education as its highest priorities.
    The ASM appreciates the opportunity to provide written testimony 
and would be pleased to assist the subcommittee as it considers its 
appropriation for NSF for fiscal year 2006.
                                 ______
                                 
    Joint Prepared Statement of the Association of National Estuary 
 Programs; the Coastal States Organization; The Conservation Fund; the 
International Association of Fish and Wildlife Agencies; the Land Trust 
  Alliance; the National Estuarine Research Reserve Association; The 
           Nature Conservancy; and the Trust for Public Land

    On behalf of the organizations listed below, we would like to thank 
you for your long-standing support of coastal zone management and 
coastal land conservation. We are writing today in support of the 
Coastal and Estuarine Land Conservation Program. This subcommittee 
created CELCP in fiscal year 2002 in order to ``protect those coastal 
and estuarine areas with significant conservation, recreation, 
ecological, historical or aesthetic values, or that are threatened by 
conversion from their natural or recreational states to other uses.'' 
Thus far, this program has invested nearly $145 million towards 90 
conservation projects in 23 States. All Federal funding has been 
leveraged by at least an equal amount at the local level. We hope to 
continue this Federal-State partnership and encourage you to fund CELCP 
at $60 million for fiscal year 2006.
    Our Nation's coastal zone is under significant pressures from 
unplanned development. In fact, it is estimated that by 2025, nearly 75 
percent of the Nation's population will live within 50 miles of the 
coast, in addition to millions more who enjoy America's storied 
coastlines. From Maine to Washington State, beaches and waterfronts 
have always been the destination of choice for Americans. Billions of 
dollars of the Nation's GDP are generated by coast-based economic 
activities, inexorably linking our coastal zone with the economic 
health of the Nation.
    As a result of this economic boom, rapid, unplanned development has 
marred the once-pristine viewsheds and substantially reduced public 
access to the coast. The resulting increase in impervious surfaces has 
correspondingly increased non-point source pollution and seriously 
degraded coastal and estuarine waters. The loss of coastal wetlands has 
drastically impaired estuaries, some of the most productive habitat on 
earth. The U.S. Commission on Ocean Policy has also stressed the 
importance of land conservation as part of its broader recommendations 
to Congress and the Nation.
    From our work at the local level, we know from first-hand 
experience that this program will significantly leverage ongoing 
community-based conservation, and will provide a much needed boost to 
local efforts. Given the importance of healthy, productive and 
accessible coastal areas, a Federal commitment to State and local 
coastal protection is a sound investment.
    We urge you to fund the Coastal and Estuarine Land Conservation 
Program at $60 million in fiscal year 2006. We look forward to working 
with you as this program evolves, and stand ready to assist you.
                                 ______
                                 
        Prepared Statement of the American Geological Institute

    To the Chairman and members of the subcommittee, the American 
Geological Institute (AGI) supports fundamental Earth science research 
sustained by the National Science Foundation (NSF), the National 
Oceanic and Atmospheric Administration (NOAA), the National Institute 
of Standards and Technology (NIST) and the National Aeronautics and 
Space Administration (NASA). This frontier research has fueled economic 
growth, mitigated losses and sustained our quality of life. The 
subcommittee's leadership in expanding the Federal investment in basic 
research is even more critical as our Nation competes with rapidly 
developing countries, such as China and India, for energy, mineral, air 
and water resources. Our nation needs skilled geoscientists to help 
explore, assess and develop Earth's resources in a strategic, 
sustainable, economic and environmentally-sound manner. AGI supports 
full funding as authorized for NSF's EarthScope project and Research 
and Related Activities; full funding for NOAA's Tsunami Warning 
Network; authorized support for NIST's and NSF's responsibilities in 
the National Earthquake Hazards Reduction Program (NEHRP) and continued 
support for NASA's Earth observing campaigns.
    AGI supports the Coalition for National Science Funding, which 
encourages increases in total funding for NSF and the NEHRP Coalition, 
which encourages full funding for NEHRP within NSF and NIST. In 
addition, AGI supports funding for Earth science education through 
NSF's Math and Science Partnership (MSP) program. Earth science 
education helped to save lives during the tragic Indian Ocean tsunami 
and will be important for future hazard mitigation in the United States 
and elsewhere.
    AGI is a nonprofit federation of 42 geoscientific and professional 
societies representing more than 100,000 geologists, geophysicists, and 
other Earth scientists. Founded in 1948, AGI provides information 
services to geoscientists, serves as a voice for shared interests in 
our profession, plays a major role in strengthening geoscience 
education, and strives to increase public awareness of the vital role 
the geosciences play in society's use of resources and interaction with 
the environment.

                                  NSF

    We applaud the NSF's emphasis on funding the long-neglected and 
critically underfunded physical sciences and hope that the subcommittee 
shares this commitment to the physical sciences, including the 
geosciences. Enhanced and essential funding should remain broad enough 
to ensure the multidisciplinary nature of today's science, mathematics, 
engineering, and technology research. Congress wisely authorized 
increased funding for NSF in Public Law 107-368, such that the total 
NSF budget would increase to $7.378 billion and the Research and 
Related Activities budget would grow to $5.543 billion in 2005. NSF 
only received $5.473 billion in 2005 and remains underfunded. AGI would 
strongly support an increase of NSF's total budget to $6 billion in 
fiscal year 2006 and we believe that such a wise and forward-looking 
investment in tight fiscal times will pay important dividends in future 
development and innovation that drives economic growth.
    NSF Geosciences Directorate.--The Geosciences Directorate is the 
principal source of Federal support for academic Earth scientists and 
their students who are seeking to understand the processes that 
ultimately sustain and transform life on this planet. The President's 
budget proposal requests a small increase of 2.2 percent ($14.9 
million) for a total budget of $709.1 million. Within this directorate 
the Earth Sciences Division's budget would increase 3.4 percent or $5.1 
million from $149.0 million to $154.1 million. AGI fully supports this 
increase to fund EarthScope's operation and maintenance budget. We 
would encourage increases in funding to the authorized level for the 
Research and Related Activities account, to allow NSF to strengthen 
core research by increasing the number and duration of grants. The 
NEHRP Coalition also requests that Congress appropriate the full 
funding level contained in the reauthorization for fiscal year 2006 of 
$39.1 million dollars for NEHRP responsibilities at the NSF.
    NSF Major Research Equipment Account.--EarthScope AGI urges the 
subcommittee to support the Major Research Equipment, Facilities and 
Construction budget request of $50.62 million for EarthScope. Taking 
advantage of new technology in sensors and data distribution, this 
multi-pronged initiative will systematically survey the structure of 
Earth's crust beneath North America, imaging faults at depth, hidden 
faults and other structures that may be hazardous or economically-
valuable. The fiscal year 2006 request includes continued support for 
deployment of three components: a dense array of digital seismometers 
that will be deployed in stages across the country; a 4-km deep 
borehole through the San Andreas Fault, housing a variety of 
instruments that can continuously monitor the conditions within the 
fault zone; and a network of state-of-the-art Global Positioning System 
(GPS) stations and sensitive strain meters to measure the deformation 
of the constantly shifting boundary between the Pacific and North 
American tectonic plates in an area susceptible to large earthquakes 
and tsunamis.
    EarthScope has very broad support from the Earth science community 
and received a very favorable review from the National Research 
Council, which released a report in 2001 entitled ``Review of 
EarthScope Integrated Science''. All data from this project will be 
available in real time to both scientists and students, providing a 
tremendous opportunity for both research and learning about Earth. 
Involving the public in Earth science research will increase 
appreciation of how such research can lead to improvements in 
understanding the environment, utilizing natural resources and 
mitigating natural hazards. EarthScope can also provide a mechanism to 
integrate a broad array of Earth science research data in a unified 
system to promote cross-disciplinary research and avoid duplication of 
effort.
    NSF Support for Earth Science Education.--Congress can improve the 
Nation's scientific literacy by supporting the full integration of 
Earth science information into mainstream science education at the K-12 
and college levels. AGI strongly supports the Math and Science 
Partnership (MSP) program as it has existed at NSF. This is a 
competitive peer-reviewed grant program and funds are only awarded to 
the highest quality proposals. Shifting the MSP program entirely to the 
Department of Education would mean that all MSP funds would be 
distributed to states on a formula basis. This would provide no 
incentive for top researchers to continue to participate in this 
important program and would limit the flexibility of States to target 
areas of greatest need. The NSF's MSP program focuses on modeling, 
testing and identification of high-quality math-science activities 
whereas the Department of Education program does not. The NSF and 
Department of Education MSP programs are complementary and are both 
necessary to continue to reach the common goal of providing world-class 
science and mathematics education to elementary and secondary school 
students. AGI opposes the transfer of the MSP from NSF to the 
Department of Education.
    Improving geoscience education to levels of recognition similar to 
other scientific disciplines is important because:
  --Geoscience offers students subject matter that has direct 
        application to their lives and the world around them, including 
        energy, minerals, and water.
  --Geoscience exposes students to a diverse range of interrelated 
        scientific disciplines. It is an excellent vehicle for 
        integrating the theories and methods of chemistry, physics, 
        biology, and mathematics.
  --Geoscience awareness is a key element in reducing the impact of 
        natural hazards on citizens--hazards that include earthquakes, 
        volcanic eruptions, hurricanes, tornadoes, and floods. For 
        example, lives were saved in the tragic Indian Ocean tsunami by 
        a 12-year-old girl who understood the warning signs of an 
        approaching tsunami because of her Earth science class and 
        warned others to seek higher ground.
  --Geoscience provides the foundation for tomorrow's leaders in 
        research, education, utilization and policy making for Earth's 
        resources and our Nation's strategic, economic, sustainable and 
        environmentally-sound natural resources development.

                                  NOAA

    Within NOAA's National Weather Service, some of the proposed 
increases are for improving the U.S. Tsunami Warning Network. President 
Bush requested $24 million over 2 fiscal years ($14.5 million in fiscal 
year 2005 and $9.5 million in fiscal year 2006) to add 32 detection 
buoys (7 for the Atlantic Ocean, Caribbean Basin and Gulf of Mexico and 
25 for the Pacific Ocean), procure 38 new sea level monitoring/tide 
gauge stations, and to provide comprehensive warning coverage. AGI 
supports full funding for this program. AGI also supports the proposed 
increased funding for the development of the geostationary operational 
environmental satellite (GOES-R) and the National Polar-Orbiting 
Operational Environmental Satellite System (NPOESS). Both satellite 
systems will maintain a global view of the planet to continuously watch 
for atmospheric triggers of severe weather conditions such as 
tornadoes, flash floods, hailstorms, and hurricanes.

                                  NIST

    In 2004 President Bush signed the National Earthquake Hazards 
Reduction Program (NEHRP) reauthorization (Public Law 108-360). This 
legislation reauthorized NEHRP for another 5 years and authorized 
$176.5 million in spending spread over four agencies (NIST, FEMA, USGS 
and NSF). As the lead agency, the law says NIST is eligible to receive 
up to $11 million for NEHRP in fiscal year 2006. No funds were 
requested for this program in the President's fiscal year 2006 budget. 
AGI strongly supports $11 million for NIST to carry out its NEHRP 
responsibilities and we further support adequate funding for core 
laboratory functions at NIST to ensure that NEHRP funds are protected.

                                  NASA

    AGI supports the Earth observing programs within NASA. NASA has a 
unique capability to provide observations of our planet. Currently the 
topography of Mars has been measured at a more comprehensive and higher 
resolution than Earth's surface. While AGI is excited about space 
exploration and values aeronautics research to help build better 
aircraft, we firmly believe that NASA's Earth observing program is 
effective and vital to solving global to regional puzzles about Earth 
systems, such as how much and at what rate is the climate changing. 
Among Earth science programs, the Earth Systematic Missions program is 
slated for a $118 million (40 percent) cut, stalling the Glory Mission, 
which was planned to address climate change. We hope this subcommittee 
will be committed to full funding of the Earth Systematic Missions 
program.
    I appreciate this opportunity to provide testimony to the 
subcommittee and would be pleased to answer any questions or to provide 
additional information for the record.
                                 ______
                                 
      Prepared Statement of the American Public Power Association

    The American Public Power Association (APPA) is the national 
service organization representing the interests of over 2,000 municipal 
and other State and locally owned utilities in 49 of the 50 States (all 
but Hawaii). Collectively, public power utilities deliver electricity 
to one of every seven electric consumers (approximately 43 million 
people), serving some of the Nation's largest cities. However, the vast 
majority of APPA's members serve communities with populations of 10,000 
people or less.
    The Department of Justice's Antitrust Division (DOJ) and the 
Federal Trade Commission (FTC) play critical roles in monitoring and 
enforcing antitrust laws affecting the electric utility industry. With 
the continuing uncertainty created by wholesale electricity 
restructuring, this oversight is more crucial than ever.
    APPA supports adequate funding for staffing antitrust enforcement 
and oversight at the FTC and DOJ. Specifically, we support the 
administration's request of $212 million for fiscal year 2006 for the 
FTC. However, we urge the subcommittee to carefully consider allocating 
the full $144.5 million requested by the administration for fiscal year 
2006 to provide the U.S. Antitrust Division with the necessary 
resources to enforce U.S. antitrust laws to help APPA's members adapt 
to the ever changing wholesale electricity market.
    We appreciate the opportunity to submit this statement outlining 
our fiscal year 2006 funding priorities within the Commerce-Justice-
Science Subcommittee's jurisdiction.
                                 ______
                                 
                      Prepared Statement of Oceana

    Chairman Shelby, Ranking Member Mikulski and other subcommittee 
members, on behalf of the more than 250,000 supporters of Oceana, an 
international, non-profit conservation organization devoted to 
protecting ocean waters and wildlife, I submit the following testimony 
on the fiscal year 2006 budget for the National Oceanic and Atmospheric 
Administration (NOAA) within the Department of Commerce. I request that 
this testimony be submitted for the official record. Oceana urges the 
subcommittee, as it has done in previous years, to significantly 
increase funding for NOAA overall and specifically recommends the 
following for critical ocean research and conservation programs:
  --$42.4 million for fishery observer programs;
  --$4.8 million for the reducing bycatch initiative;
  --$12.5 million for the national undersea research program (NURP);
  --$82.0 million for marine mammal research and management;
  --$15.0 million for sea turtle research and management;
  --$30.0 million for expanding fish stock assessments;
  --$20.0 million for fishery cooperative research;
  --$54.2 million for fishery enforcement, including $9.3 million for 
        vessel monitoring systems; and
  --$8.0 million for National Environmental Policy Act activities in 
        fishery management.
    We are greatly concerned about the impact of the administration's 
request for a $333 million cut (-8.5 percent) to NOAA below existing 
funding levels. The National Marine Fisheries Service is targeted for a 
$95 million cut (-12.0 percent) and the National Ocean Service is 
targeted for a $255 million cut (-38.0 percent). These steep reductions 
do not match the recommendations of the Presidentially-appointed United 
States Commission on Ocean Policy's final report issued last fall. The 
Commission emphasized the importance of taking immediate action to 
conserve ocean and coastal waters, wildlife, and habitats and called 
for substantial increases in our Nation's investments for ocean 
research, conservation, and management. We hope you will follow the 
Commission's advice and strengthen our Nation's commitment to 
sustainable oceans and coasts by increasing funding for the important 
NOAA programs and activities described below.
    Fishery Observer Programs--$42.4 million.--Oceana recommends that 
the fiscal year 2006 budget provide $42.4 million for more effective 
national and regional observer programs. The information gathered by 
observers helps track how many fish, marine mammals, sea turtles, sea 
birds, and other ocean wildlife are caught directly and as bycatch, 
thereby improving management of our fish populations. According to 
NMFS, observers are currently deployed to collect fishery dependent 
data in less than 40 of the Nation's 300 fisheries. Existing coverage 
levels for many of the fisheries with observers are inadequate. In its 
final report, the U.S. Commission on Ocean Policy concluded that 
``accurate, reliable science is critical to the successful management 
of fisheries'' and endorsed the use of observers as key to bycatch 
reduction efforts. More specifically, Oceana recommends $9.0 million 
for the national observer program; $11.0 million for the New England 
groundfish observer program; $7.8 million for the Atlantic Coast 
observer program; $2.0 million to establish a Gulf of Mexico/South 
Atlantic reef fish observer program; $350,000 for the East Coast 
observer program; $3.979 million for Hawaii longline observer program; 
$1.835 million for North Pacific marine resources observer program; 
$650,000 for North Pacific observer program; $800,000 for the South 
Atlantic/Gulf of Mexico shrimp observer program; and $5.0 million for 
the West Coast groundfish observer program. The administration's 
request seeks slightly more than the current funding level of $24.5 
million.
    Bycatch Reduction--$4.8 million.--One of the primary issues 
threatening the future of our fisheries is the catch and subsequent 
injury or death or unwanted fish and ocean life. For the past few 
years, Congress has provided additional Federal support to help address 
the challenges of bycatch. This initiative supports enhanced technical 
solutions and outreach to reduce bycatch, improved cooperative research 
activities with fishermen, and international transfer of technology, 
gear modifications, and fishing practices that benefit domestic 
fisheries that target highly migratory fish species. We would strongly 
encourage the subcommittee to consider funding this new initiative at 
$4.8 million to accelerate bycatch reduction efforts. Current funding 
for this initiative is $3.745 million.
    National Undersea Research Program--$12.5 million.--Oceana supports 
a slight increase above current enacted levels for NOAA's National 
Undersea Research Program. This program can help managers locate and 
map areas of ancient, deep sea corals and other vital undersea habitats 
that are important for healthy fish and marine mammal populations.
    Marine Mammal Protection--$82.0 million.--Oceana recommends 
sustaining the level of funding provided to support marine mammal 
research and management activities in the fiscal year 2005 budget 
($82.0 million). These funds will help the National Marine Fisheries 
Service more fully assess and adopt measures to recover depleted and 
strategic marine mammal species, such as bottlenose dolphins, pilot 
whales, and common dolphins. It will also help the agency improve the 
knowledge of marine mammal populations; currently, the status of more 
than 200 protected and at-risk marine species is unknown. Activities 
that will be supported by these funds include funding top priority 
studies identified by the take reduction teams; designing and 
implementing take reduction plans for certain depleted marine mammal 
populations; conducting research on population trends; working on 
recovery plans; and conducting critical research on health and respond 
to marine mammal die-offs.
    Sea Turtle Conservation--$15.0 million.--Oceana urges the 
subcommittee to sustain work currently underway on sea turtle research 
and conservation by providing $15.0 million to NMFS programs dedicated 
to protecting sea turtles. Current funding levels for sea turtle work 
are $14.943 million. All sea turtles found in U.S. waters are 
officially protected as endangered or threatened. Additional funding 
will enhance research, recovery, and protection activities for 
imperiled sea turtle species. We also encourage additional funding to 
support the agency's Atlantic sea turtle bycatch reduction strategy 
that will examine needed gear modifications for conservation.
    Expanding Stock Assessments of our Nation's Fisheries--$30.0 
million.--Due to a lack of funding for basic research, we do not have 
adequate information about the status of many commercial fish stocks. 
Almost two-thirds of the Nation's fish populations lack basic 
information to determine their status; there are 85 ``major'' stocks 
where the information about their status is classified as ``unknown.'' 
Oceana encourages the subcommittee to provide $30.0 million so that 
NMFS can hire additional biologists to produce annual stock 
assessments, fund necessary charter days at sea to collect data, and 
ultimately significantly reduce the number of fish stocks with unknown 
status. Accelerating this information gathering will help rebuild 
overfished stocks and improve fish management decisions. Current 
funding levels for fish stock assessment are $20.5 million.
    Fishery Cooperative Research--$20.0 million.--Oceana recommends the 
subcommittee provide $20.0 million to support research partnerships 
between NMFS, scientists, and individual fishermen. Current funding 
levels for this research are $19.173 million.
    Fishery Enforcement--$54.2 million.--Oceana strongly supports the 
administration's request of $54.2 million for fishery enforcement, 
which includes $9.3 million for the Vessel Monitoring System (VMS). 
This increase supports expansion of VMS, which helps to improve 
monitoring and enforcement of areas closed for protection of endangered 
species, critical habitat, and rebuilding sustainable fisheries.
    National Environmental Policy Act (NEPA) Implementation--$8.0 
million.--Oceana supports the administration's request of $8.0 million 
to enhance NMFS work in satisfying NEPA requirements. These funds will 
support NEPA specialists within the agency and in the eight regional 
fishery management councils and will help build the analytical 
capability needed to move toward ecosystem-based approaches to 
management.
    Thank you for your consideration of these recommendations.
                                 ______
                                 
    Prepared Statement of the National Fish and Wildlife Foundation

    Mr. Chairman and members of the subcommittee, I appreciate the 
opportunity to submit testimony for the record regarding the fiscal 
year 2006 funding request for the National Fish and Wildlife Foundation 
(Foundation). The Foundation respectfully requests that this 
subcommittee fund the Foundation at $4 million ($2 million from both 
National Ocean Services and National Marine Fisheries Services) through 
the National Oceanic and Atmospheric Administration (NOAA) 
appropriation. This request would allow the Foundation as the official 
Foundation to NOAA to continue to leverage scarce Federal dollars and 
expand its highly successful grant program to better assist NOAA in 
forwarding their mission for coastal and marine conservation, as well 
as species recovery. This request lies well within the authorized 
amount for the Foundation.
    Federal dollars appropriated by this subcommittee allow us to 
leverage State, local, and private dollars for on-the-ground 
conservation. Since our founding in 1984, the Foundation has supported 
over 7,273 conservation grants and leveraged over $305.1 million in 
Federal funds into more than $918.8 million for on the ground 
conservation. This has resulted in more than 17.4 million acres of 
restored and managed wildlife habitat; new hope for countless species 
under stress; new models of private land stewardship; and, stronger 
conservation education programs in schools and local communities. We 
recognize that without the seed money this committee provides, many 
conservation benefits would not be realized. None of our federally 
appropriated funds are used for lobbying or litigation, or for the 
Foundation's administrative expenses. All of our federally appropriated 
funds go to on-the-ground projects. Furthermore, our general 
administrative expenses, including fundraising, public relations, and 
finance and administration is below 8 percent.
    In 1999, Congress expanded the Foundation's mandate to expressly 
include the National Oceanic and Atmospheric Administration (NOAA) and 
its mission. For nearly a decade, NOAA and the Foundation have jointly 
supported projects in marine conservation through public-private 
partnerships. By the end of fiscal year 2004, over $34 million in NOAA 
and Foundation funds had been leveraged to produce $94 million for on-
the-water conservation.
    In fiscal year 2004, we were appropriated $2.497 million in NOAA 
funds which we were able to leverage with over $6 million in additional 
Foundation and partner dollars for a total conservation of $8.8 
million. We achieved this leveraging of the Federal dollar by 
cultivating partnerships. In fiscal year 2004, the Foundation partnered 
these funds with seven other foundations and several private sector 
corporations like Shell Oil, Pacific Life Insurance, Bass Pro Co., and 
ConocoPhillips.
    In the fiscal year 2005 Omnibus Bill, we only received $1.7 million 
of our historical $2.5 million mark for our NOAA partnership. In 
addition to this lower allocation, 3 rescissions totaling 1.44 percent 
were also assigned by Congress which further impacts our level of 
funding. This brings the total for our NOAA program down to $1,675,600. 
This number could be further impacted by NOAA ``Administrative Fees'' 
before the money comes to the Foundation and can be up to 5 percent of 
the total.
    Although we have not received our fiscal year 2005 funds yet, we 
have already received over $5 million in good project proposals 
competing for these dollars and expect more good proposals than we are 
able to fund as the fiscal year progresses. A 30 percent decrease will 
greatly impact funding available for our NOAA program, one of NOAA's 
largest leveraging vehicles and broadest brush for general marine and 
coastal conservation projects. The fiscal year 2005 budget cuts will 
only compound this need and compromise NOAA's ability to support 
desired quality projects. Projects often directly assist NOAA in 
achieving under funded management objectives and come to the Foundation 
with strong support from regional and program offices. In addition to 
supplementing these NOAA priorities through our appropriation, the 
Foundation leverages NOAA's dollar for an even greater impact than what 
they could achieve on their own.
    Six special issue programs that we administer will also be impacted 
by the reduction in funds as they are also supported through the 
appropriation. Many of these programs were created at the request of 
NOAA to help focus more funds and attention to key priorities within 
the agency. The fiscal year 2005 cuts will obviously impact some or all 
of these programs in the number of projects they can support, and may 
have additional impacts if NOAA is the main or only partner. An even 
bigger concern may be in the need to have Federal monies to leverage 
the private funds that NOAA has asked us to raise to grow these special 
programs. Our fiscal year 2006 appropriations request will put us back 
on track to continue leveraging scarce Federal resources, and allow us 
to leverage even more and increase the resulting conservation benefits.
    Although NOAA and the Foundation have partnered together in the 
conservation of specific priorities from great whales to the Chesapeake 
Bay, the heart of the partnership is the general conservation grant 
program. This general challenge grant program has allowed the 
Foundation to be highly successful in assisting NOAA in accomplishing 
its mission to help people conserve, maintain and improve our natural 
resources and environment and provide flexible response to achieving 
short and long-term objectives. In fiscal year 2004 the general call 
program supported partnerships that restored 70 acres of coastal, 
estuarine and nearshore habitat and helped rivers and streams that 
support anadromous fish habitat across the nation to be restored or 
managed more effectively.
    Working Watersheds.--The Foundation awarded 7 projects to aid 
coastal and marine habitats in 2004 with $521,300 in NOAA dollars that 
was successfully leveraged with other Federal (this includes 
Environmental Protection Agency and U.S. Fish and Wildlife Service 
partnerships) and non-Federal dollars to apply more than $1.5 million 
to conservation. Our grant program was uniquely able to provide 
expertise by engaging local aquariums and community groups, fishermen, 
conservancies, universities, and local government to undertake on-the-
ground hands-on restoration and replanting activities to off-set the 
tide of habitat loss in many of our coastal and nearshore systems. 
Areas of focus include:
  --Restoring Estuarine and Coastal Habitats.--The steady rate of 
        coastal development and damaging up-stream activities are 
        causing our estuarine and coastal habitats to be lost at an 
        alarming rate. The Foundation has had tremendous success in 
        countering these problems by partnering NOAA funds with other 
        agencies like the Environmental Protection Agency to address 
        these issues from a whole watershed perspective as in the case 
        of our Chesapeake Bay Small Watershed Grants Program and 
        Delaware Estuary Grants Program. This model has proved so 
        successful that in fiscal year 2004, we expanded our coastal 
        habitat portfolio with a new program in Long Island Sound. The 
        Long Island Sound Futures Fund partners NOAA, FWS, NRCS, and 
        EPA and draws from State and Federal planning documents for 
        priorities. In its launch year, the new program will be 
        awarding 25-30 projects using approximately $1 million in 
        Federal and non-Federal funds, resulting in $2.7 million to the 
        region through leveraging. In addition to these monetary 
        partnerships, these Foundation programs are tapping into local 
        community resources. For example, one project allowed a 
        community to complete and expand a wetland restoration near a 
        former industrial area enhancing the biological value and 
        visual appeal of the site located near a shoreline nature 
        trail.
      In fiscal year 2006, we plan to build on this success by 
        launching a similar program in the Great Lakes region, as well 
        as investigate future programs in other priority areas in the 
        San Francisco Bay area and the Puget Sound region.
  --Protecting Coral Reefs.--In the marine environment, $1 million in 
        NOAA dollars were leveraged in fiscal year 2004 to apply more 
        than double that amount, $2.4 million, to 26 projects to 
        conserve coral reefs. Project examples include protecting coral 
        reefs and fish nurseries in Hawaii, quantifying the impact of 
        sport divers on the reefs in the Florida Keys, evaluating 
        management activities, implementing a volunteer fisheries data 
        collection program, and building stakeholder support for reef 
        management in Belize. Fiscal year 2005 priorities for the Fund 
        consist of reducing nutrient run-off and sedimentation to 
        coastal reefs, as well as supporting community leadership to 
        improve the management and effectiveness of existing marine 
        protected areas. This year will also build off of a new 
        partnership with the White Water to Blue Water Initiative--
        Anchors Away! Program to establish mooring buoys programs to 
        reduce the damage from anchoring on coral reefs.
    Conserving Fish, Wildlife, and Plants.--With our NOAA dollars, the 
Foundation funds projects that directly benefit diverse fish and 
wildlife species including albatross in the waters off the Pacific, 
manatees and sea turtles in the Gulf and Southern Atlantic and right 
whales in the Northern Atlantic.
  --Threatened and Endangered Species Solutions.--We measure our 
        success by preventing the listing of species under the 
        Endangered Species Act and by stabilizing and (hopefully) 
        moving others off the list. We invest in common sense and 
        innovative cooperative approaches to endangered species, 
        building bridges between the government and the private sector. 
        In fiscal year 2004, the Foundation used $584,460 in NOAA funds 
        to support marine species conservation and recovery from Maine 
        to Latin America. We leveraged this investment with an 
        additional $1.6 million in Federal and non-Federal match 
        funding, and expanded our coordination of this work with 
        Federal, State, and local entities.
    Expanding Conservation Education Opportunities.--The Foundation 
made great strides in diversifying our education and outreach 
activities with NOAA funds, in fiscal year 2004. All told, the 
Foundation awarded over $400,000 last year in NOAA funds for marine 
education--three times the support under this category than last year! 
This commitment was leveraged to more than $1.6 million in other 
Federal and non-Federal partnership dollars. Examples included a 
``Look, Don't Touch'' billboard campaign to protect coral reefs in the 
Pacific, support for marine education spots on national public radio, 
and sponsorship of over 10 student scholarships in marine sciences. 
Other grants awarded will enhance or expand conservation education and 
training for students, teachers, private landowners, community groups 
and others.
    Through these and other efforts, the Foundation remains committed 
to the conservation goals of our partners--Federal, State, local and 
private. In fiscal year 2006, we will continue to multiply our efforts 
to foster public-private partnerships. We also recognize that there are 
many unmet challenges, and we stand ready to help local communities and 
other conservation stakeholders to achieve success.
    Accountability and Grantsmanship.--All potential grants are subject 
to a peer review process involving State and Federal agency staff, 
academics, community and environmental interests, corporations, and 
others. The review process examines the project's conservation need, 
technical merit, the support of the local community, the variety of 
partners, and the amount of proposed non-Federal cost share. We also 
provide a 30-day notification to the member of Congress for the 
congressional district in which a grant will be funded, prior to making 
the grant. In addition, the Foundation requires strict financial 
reporting by grantees and is subject to an annual audit.
    Basic Facts About the Foundation.--The Foundation promotes 
conservation solutions by awarding matching grants using its federally 
appropriated funds to match private sector funds. We have a statutory 
requirement to match Federal funds with at least an equal amount of 
non-Federal funds, which we consistently exceed. No Federal 
appropriations are used to meet our administrative expenses.
    The Foundation is governed by a 25-member Board of Directors, 
appointed by the Secretary of the Interior and in consultation with the 
Secretary of Commerce, and operates on a nonpartisan basis. Directors 
do not receive any financial compensation for service on the Board; in 
fact, all of our directors make financial contributions to the 
Foundation. It is a diverse Board, representing the corporate, 
philanthropic, and conservation communities; all with a tenacious 
commitment to fish and wildlife conservation.
    The National Fish and Wildlife Foundation continues to be one of, 
if not the, most cost-effective conservation program funded in part by 
the Federal Government. By implementing real-world solutions with the 
private sector while avoiding regulatory or advocacy activity, we serve 
as a model for bringing private sector leadership to Federal agencies 
and for developing cooperative solutions to environmental issues. We 
are confident that the money you appropriate to the Foundation is 
making a positive difference.
                                 ______
                                 
        Prepared Statement of the American Astronomical Society

    I submit this testimony on behalf of the American Astronomical 
Society and have attached a disclosure statement of the Society's 
various Federal grants by agency and program received during the 
previous 2 fiscal years.

                              INTRODUCTION

    The American Astronomical Society (AAS) is the largest professional 
organization for research astronomers in the United States. With 
approximately 6,500 members, the AAS publishes the major astronomical 
research journals and also organizes meetings to highlight recent 
results and discoveries. The organization was founded in 1899 and has 
helped the profession grow to its present robust state.
    Government support has been essential to the stunning achievements 
of astronomy research in the United States. Within just the past 15 
years, U.S. astronomers supported by NASA, the NSF and the DOE have led 
the way in discovering the first planets around other stars and in 
determining that we live in a Universe whose expansion is speeding up, 
driven by a previously undetected component of the Universe, the dark 
energy. These discoveries appeal to the imagination of a wide segment 
of the public and confront our most basic understanding of the physical 
world. Discoveries made with government-funded telescopes, both on the 
ground and in space, appear daily on the front pages of the Nation's 
newspapers. The American public values astronomy and endorses 
government support for astronomy research. Although only a small 
portion of the Federal investment in basic research goes to astronomy, 
astronomy plays a vital role for all of physical science by drawing 
interested students into careers in physical science, engineering, and 
mathematics. Statistics show that fewer than 20 percent of 
undergraduate astronomy students ultimately work in basic astronomy 
research, but nearly all of them find work in technical fields, 
bolstering our Nation's economy, and improving our quality of life.

            THE DECADAL SURVEY OF ASTRONOMY AND ASTROPHYSICS

    The Astronomy community has a long history of setting priorities 
within the field. Each decade, supported by NASA and NSF as well as the 
AAS, astronomers meet over a 2-year period to decide what physical 
resources are needed for the coming decade. Through a National Research 
Council committee, the state of the science is reviewed, the areas of 
research most likely to produce significant results are ranked, and the 
facilities needed to carry out this path breaking work are assessed. 
The result is a prioritized, consensus list with realistic costs for 
astronomical facilities on the ground and in space to be built in the 
coming decade. Dubbed the Decadal Survey, the reports are available 
from the National Research Council's Space Studies Board and Committee 
on Physics and Astronomy. By reaching consensus on the telescopes, 
space missions and other needs necessary for the coming decade, 
astronomers aim to help policy makers as they decide what projects to 
fund. Because the Decadal Survey represents a carefully constructed 
consensus among the astronomy research community, legislators can be 
sure that the community will endorse funding projects that are on this 
list. Missions or projects not on the list may still be of great 
importance, but unless they are included in the survey or the mid-
course review of the survey (also prepared by the NRC and representing 
community consensus as each decade progresses), additional projects 
deserve careful scrutiny prior to being funded.
    Astronomers are proud of this process and we are happy to see that 
our close colleagues, the planetary science community and the solar and 
space physics community have initiated similar efforts, publishing 
their first decadal survey reports in just the past 4 years. The AAS 
has formally endorsed all three reports and actively works to educate 
policy makers about their importance for our discipline. Because we 
have seen how effective a well-ordered list of priorities can be in 
helping with the policy making process, we hope that other fields will 
attempt to undertake their own priority-setting efforts.
    Another recent report, Quarks to the Cosmos, has been published by 
the National Research Council to highlight the growing synergy between 
basic physics and astronomy. This report provides 11 basic questions 
and outlines a way toward answering them through partnerships among the 
three basic funding agencies that support astronomy, NASA, NSF and the 
DOE. The AAS has endorsed this report and supports its recommendations. 
One recent development is the establishment by Congress of a FACA 
committee: the Astronomy and Astrophysics Advisory Committee (AAAC). 
This committee is charged with assessing and making recommendations 
concerning the astronomy and astrophysics activities of NASA, NSF, and 
DOE and in monitoring their progress in fulfilling the outlines of the 
Decadal report and its sequels. Their report is sent each March 15 to 
the appropriate Congressional committees, the NASA Administrator, the 
NSF Director, and widely distributed within OMB, OSTP, and to agency 
personnel.

                       THE HUBBLE SPACE TELESCOPE

    As all U.S. citizens are aware, the Hubble Space Telescope (HST) is 
in danger of failing on orbit due to declining battery performance and 
fine guidance gyroscope failure. The former administrator of NASA, Sean 
O'Keefe, decided to cancel long-planned astronaut servicing of the 
telescope. A National Research Council committee was ultimately formed 
to investigate alternatives for the future of the HST. Chaired by Lou 
Lanzerotti and composed of experts from a variety of backgrounds 
including engineering, aerospace and safety, the committee recommended 
that NASA service the telescope using astronauts on the Shuttle. The 
AAS has formally endorsed this report and its recommendations. We are 
delighted to see that the new NASA Administrator, Mike Griffin, 
promises to undertake an internal review of a possible Shuttle 
servicing mission immediately after the first flight of the Shuttle. 
Further, the AAS endorsement points out that a serviced HST will 
continue to produce excellent science results. If, in a departure from 
past practice and understandings, the cost of servicing the telescope 
were funded completely from NASA's science budget, this would have a 
serious impact on the entire range of science that NASA supports. A 
creative funding solution is necessary to both service HST and retain 
the vitality of NASA's existing science programs. The present budget, 
even without costs attributed to Hubble servicing, has caused many 
useful science programs to be curtailed at NASA, disrupting productive 
research by AAS members. We recommend that Congress find a way to meet 
both of these important needs.

                     LARGE FACILITIES FUNDED BY NSF

    Astronomers require large telescopes to collect faint light from 
the furthest reaches of the Universe. The National Science Foundation 
plays a critical role in astronomy research through its construction, 
operation and enhancement of ground-based telescopes that are available 
to all U.S. astronomers and through support of instrumentation at 
telescopes run by universities or by private organizations. The 
National Optical Astronomy Observatories, National Radio Astronomy 
Observatory, National Astronomy and Ionospheric Center, and the 
National Solar Observatory all provide access to large telescopes with 
cutting-edge technology to astronomers from both large and small 
colleges and universities. The Gemini Observatories: two 8-meter 
telescopes, one located in the Northern hemisphere and one in the 
Southern, have recently been completed. The Atacama Large Millimeter 
Array: a radio wavelength interferometer that will allow a wide range 
of studies ranging from the furthest reaches of the Universe to the 
formation of nearby stars and planets is now under construction. The 
Advanced Technology Solar Telescope: a telescope that will provide the 
best images of the nearest star's surface and allow new insight into 
the complex role of magnetic fields and the impact of solar variability 
on our Earth.
    These large facilities are expensive to build and expensive to 
operate, but they are of fundamental importance. A new generation of 
telescopes seems within out technical reach, much larger and more 
powerful than any that have gone before. The Giant Segmented Mirror 
Telescope is a top priority in the Decadal Report, and it seems likely 
to come to fruition as a public-private partnership. A forward-looking 
approach to developing the technologies for the giant telescopes of the 
not-too-distant future will require creative thinking at the NSF to 
plan ahead for these large facilities. Similarly, the potential for 
developing a new kind of astronomy based on frequent surveys of the sky 
will harness the revolution in electronic detectors and in data 
processing to astronomical ends. These synoptic surveys promise to find 
everything from rogue objects in the solar system to exploding stars at 
the edge of the Universe.
    The AAS strongly supports the construction and operation of the 
Nation's large research facilities, especially the telescopes supported 
by the NSF. We recommend that Congress continue to support these 
facilities adequately. One important part of any effective plan is 
provision of adequate operations support for the lifetime of any new 
facility. This needs to include funds for upgrading the instrumentation 
as new technology becomes available. Old telescopes can provide new 
insight when adequate development support is provided to the engineers 
and scientists who build new instruments for these large telescopes. 
This recommendation is also one of the high priority items in the most 
recent Decadal Survey and is strongly supported by the astronomy 
community.

                   THE VISION FOR EXPLORATION AT NASA

    NASA's space science program is returning excellent results on a 
very broad range of topics. Their work is visible to the public 
worldwide. There are excellent programs in progress, following the 
precepts of the Decadal Survey, including the highest ranked large 
project in space: the James Webb Space Telescope. However, the 
challenges for NASA are very substantial. Within the current budget 
constraints, NASA is being asked to complete the International Space 
Station and ramp down the Space Shuttle while initiating the 
Exploration Vision. We expect that NASA will find a way to integrate 
its broad and vigorous space science program into the stated strategic 
goals of the agency in a way that strengthens the Exploration Vision. 
NASA should do this for the scientific returns, the inspirational value 
to the Nation, and as a continuing demonstration of NASA's value to the 
Nation and to the world. Exploration without science is tourism.

                               CONCLUSION

    The Congress continues to support a vital and energetic research 
program in the astronomical sciences. The AAS thanks Congress for this 
support on behalf of the U.S. astronomy community. The budgets of NASA, 
NSF and the DOE are all important for astronomy research. Astronomy 
makes a direct connection to the U.S. public: we know they support the 
use of public funds to support astronomy research. The AAS understands 
that there are many pressures on the Federal budget, but we know that 
investment in astronomy is important and wise use of public funds. 
People want to know what the Universe is and how it works. Many 
students are drawn to science through astronomy. They very often end up 
helping our economy in other areas, especially in technology 
development, the physical sciences, or engineering. Astronomy is good 
for the United States and a valuable investment for the Congress.

                          STATEMENT ON GRANTS

    The American Astronomical Society has held in the past 2 fiscal 
years the following grants.
NASA
    NAG5-4537 Astronomical Research Projects.--$341,000 (fiscal year 
2005-fiscal year 2008).
    NAG5-12126 Astronomical Research Projects.--$294,737 (fiscal year 
2002-fiscal year 2004).
NSF
    AST002-28004 International Travel Grant Program.--$325,500 (fiscal 
year 2002-fiscal year 2005).
    AST004-31452 Request for the Annual ISEF Bok and Lines Awards.--
$77,880 (fiscal year 2004-fiscal year 2007).
                                 ______
                                 
    Prepared Statement of the Great Lakes Indian Fish and Wildlife 
                               Commission

    Agency Involved.--Department of Justice.
    Program Involved.--COPS Tribal Resources Grant Program.
    Summary of GLIFWC's Fiscal Year 2006 Testimony.--The Commission 
requests that Congress support the administration's proposal to fund 
this program at $51,600,000 in fiscal year 2006, an increase of 
$31,867,000 above last year's Congressional appropriation.
    Disclosure of DOJ Grants Contracted.--The Commission is an 
intertribal organization which, under the direction of its member 
tribes, implements Federal court orders governing tribal harvests of 
off-reservation natural resources and the formation of conservation 
partnerships to protect and enhance natural resources within the 1836, 
1837, and 1842 ceded territories (See map). Under COPS Tribal Resources 
Grant Program, the Commission contracted:
  --$172,924 in fiscal year 2000 for the purposes of replacing obsolete 
        radio equipment and to improve the capacity of GLIFWC's 
        officers to provide emergency services throughout the Chippewa 
        ceded territories;
  --$292,190 in fiscal year 2001 for the purposes of replacing obsolete 
        patrol vehicles (boats, ATVs, and snowmobiles), purchasing 
        portable defibrillators, and training GLIFWC officers;
  --$302,488 in fiscal year 2002 for the purposes of replacing obsolete 
        patrol vehicles (ATVs and snowmobiles), improving officer 
        safety (in-car video cameras), increasing computer 
        capabilities, and expanding training of GLIFWC officers in 
        interagency emergency response;
  --$280,164 in fiscal year 2003 for the purposes of hiring three 
        additional officers, providing basic recruit training, and 
        supplying standard issue items; and
  --$108,034 in fiscal year 2004 for the purposes of purchasing patrol 
        vehicles (three patrol trucks, an ATV and snowmobile), digital 
        cameras, and providing instructor development and basic recruit 
        training.
    Ceded Territory Treaty Rights and GLIFWC's Role.--GLIFWC was 
established in 1984 as a ``tribal organization'' within the meaning of 
the Indian Self-Determination Act (Public Law 93-638). It exercises 
authority delegated by its member tribes to implement Federal court 
orders and various interjurisdictional agreements related to their 
treaty rights. GLIFWC assists its member tribes in:
  --securing and implementing treaty guaranteed rights to hunt, fish, 
        and gather in Chippewa treaty ceded territories; and
  --cooperatively managing and protecting ceded territory natural 
        resources and their habitats.

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    For the past 20 years, Congress and administrations have funded 
GLIFWC through the BIA, Department of Justice and other agencies to 
meet specific Federal obligations under: (a) a number of U.S./Chippewa 
treaties; (b) the Federal trust responsibility; (c) the Indian Self-
Determination Act, the Clean Water Act, and other legislation; and (d) 
various court decisions, including a 1999 U.S. Supreme Court case, 
affirming the treaty rights of GLIFWC's member Tribes. GLIFWC serves as 
a cost efficient agency to conserve natural resources, to effectively 
regulate harvests of natural resources shared among treaty signatory 
tribes, to develop cooperative partnerships with other government 
agencies, educational institutions, and non-governmental organizations, 
and to work with its member tribes to protect and conserve ceded 
territory natural resources.
    Under the direction of its member tribes, GLIFWC operates a ceded 
territory hunting, fishing, and gathering rights protection/
implementation program through its staff of biologists, scientists, 
technicians, conservation enforcement officers, and public information 
specialists.
    Community Based Policing.--GLIFWC's officers carry out their duties 
through a community-based policing program. The underlying premise is 
that effective detection and deterrence of illegal activities, as well 
as education of the regulated constituents, are best accomplished if 
the officers live and work within tribal communities that they 
primarily serve. The officers are based in 10 satellite offices located 
on the reservations of the following member tribes: In Wisconsin--Bad 
River, Lac Courte Oreilles, Lac du Flambeau, Red Cliff, Sokaogon 
Chippewa (Mole Lake) and St. Croix; in Minnesota--Mille Lacs; and in 
Michigan--Bay Mills, Keweenaw Bay and Lac Vieux Desert.
    Interaction with Law Enforcement Agencies.--GLIFWC's officers are 
integral members of regional emergency services networks in Minnesota, 
Michigan and Wisconsin. They not only enforce the tribes' conservation 
codes, but are fully certified officers who work cooperatively with 
surrounding authorities when they detect violations of State or Federal 
criminal and conservation laws. These partnerships evolved from the 
inter-governmental cooperation required to combat the violence 
experienced during the early implementation of treaty rights in 
Wisconsin. As time passed, GLIFWC's professional officers continued to 
provide a bridge between local law enforcement and many rural Indian 
communities. GLIFWC remains at this forefront, using DOJ funding, to 
develop inter-jurisdictional legal training attended by GLIFWC 
officers, tribal police and conservation officers, tribal judges, 
tribal and county prosecutors, and State and Federal agency law 
enforcement staff. DOJ funding has also enabled GLIFWC to certify its 
officers as medical emergency first responders, including CPR, and in 
the use of defibrillators, and train them in search and rescue, 
particularly in cold water rescue techniques. When a crime is in 
progress or emergencies occur, local, State, and Federal law 
enforcement agencies look to GLIFWC's officers as part of the mutual 
assistance networks of the ceded territories. This network includes the 
Wisconsin Department of Natural Resources, Minnesota Department of 
Natural Resources, Michigan Department of Natural Resources, U.S. Coast 
Guard, USDA-Forest Service, State Patrol and Police, county sheriffs 
departments, municipal police forces, fire departments and emergency 
medical services.
    GLIFWC Programs Currently Funded by DOJ.--GLIFWC recognizes that 
adequate communications, training, and equipment are essential both for 
the safety of its officers and for the role that GLIFWC's officers play 
in the proper functioning of interjurisdictional emergency mutual 
assistance networks in the ceded territories. GLIFWC's COPS grants for 
the past 4 years have provided a critical foundation for achieving 
these goals. Significant accomplishments with Tribal Resources Grant 
Program funds include:
  --Improved Radio Communications and Increased Officer Safety.--GLIFWC 
        replaced obsolete radio equipment to improve the capacity of 
        officers to provide emergency services throughout the Chippewa 
        ceded territories. GLIFWC also used COPS funding to provide 
        each officer a bullet-proof vest, night vision equipment, and 
        in-car videos to increase officer safety.
  --Emergency Response Equipment and Training.--Each GLIFWC officer has 
        completed certification as a First Responder and in the use of 
        life saving portable defibrillators. In 2003, GLIFWC officers 
        carried First Responder kits and portable defibrillators during 
        their patrol of 275,257 miles throughout the ceded territories. 
        In remote, rural areas the ability of GLIFWC officers to 
        respond to emergencies provides critical support of mutual aid 
        agreements with Federal, State, and local law enforcement 
        agencies.
  --Ice Rescue Capabilities.--Each GLIFWC officer was certified in ice 
        rescue techniques and provided a Coast Guard approved ice 
        rescue suit. In addition, each of GLIFWC's 10 reservation 
        satellite offices was provided a snowmobile and an ice rescue 
        sled to participate in interagency ice rescue operations with 
        county sheriffs departments and local fire departments.
  --Wilderness Search and Rescue Capabilities.--Each GLIFWC officer 
        completed Wilderness Search and Rescue training. The COPS 
        Tribal Resources Grant Program also enabled GLIFWC to replace 
        many vehicles that were purchased over a decade ago including 
        10 ATV's and 16 patrol boats and the GPS navigation system on 
        its 31 foot Lake Superior Patrol Boat. These vehicles are used 
        for field patrol, cooperative law enforcement activities, and 
        emergency response in the 1837 and 1842 Chippewa Ceded 
        Territories. GLIFWC officers also utilize these vehicles for 
        boater, ATV, and snowmobile safety classes taught on 
        Reservations as part of the Commission's Community Policing 
        Strategy.
  --Hire, Train, Supply, and Equip Three Additional Officers.--Funding 
        has been contracted to provide three additional officers to 
        ensure tribes are able to meet obligations to both enforce off-
        reservation conservation codes and effectively participate in 
        the myriad of mutual assistance networks located throughout a 
        vast region covering 60,000 square miles.
    Consistent with numerous other Federal court rulings on the 
Chippewa treaties, the United States Supreme Court recently affirmed 
the existence of the Chippewa's treaty-guaranteed usufructuary rights 
Minnesota v. Mille Lacs Band, 526 U.S. 172 (1999). As tribes have re-
affirmed rights to harvest resources in the 1837 ceded territory of 
Minnesota, workloads have increased. This expanded workload, combined 
with staff shortages would have limited GLIFWC's effective 
participation in regional emergency services networks in Minnesota, 
Michigan and Wisconsin. The effectiveness of these mutual assistance 
networks is more critical than ever given: (1) National homeland 
security concerns, (2) State and local governmental fiscal shortfalls, 
and (3) staffing shortages experienced by local police, fire, and 
ambulance departments due to the call up of National Guard and military 
reserve units.
    Examples of the types of assistance provided by GLIFWC officers are 
provided below:
  --as trained first responders, GLIFWC officers routinely respond to, 
        and often are the first to arrive at, snowmobile accidents, 
        heart attacks, hunting accidents, and automobile accidents 
        (throughout the ceded territories) and provide sheriffs' 
        departments valuable assistance with natural disasters (e.g. 
        floods in Ashland County and a tornado in Siren, Wisconsin).
  --search and rescue for lost hunters, fishermen, hikers, children, 
        and elderly (Sawyer, Ashland, Bayfield, Burnett, and Forest 
        counties in Wisconsin and Baraga, Chippewa, and Gogebic 
        counties in Michigan).
  --being among the first to arrive on the scene where officers from 
        other agencies have been shot (Bayfield, Burnett, and Polk 
        counties in Wisconsin) and responding to weapons incidents 
        (Ashland, Burnett, Sawyer, and Vilas counties in Wisconsin).
  --organize and participate in search and rescues of: (1) ice 
        fishermen on Lake Superior (Ashland and Bayfield counties in 
        Wisconsin), (2) Lake Superior boats (Baraga county in Michigan 
        and with the U.S. Coast Guard in other parts of western Lake 
        Superior), (3) lost airplanes (Ashland, Forest and Washburn 
        counties in Wisconsin), and (4) drowning incidents (St. Croix 
        River on the Minnesota/Wisconsin border, Sawyer county in 
        Wisconsin, Gogebic county in Michigan).
    Simply put, supporting GLIFWC's officers will not only assist 
GLIFWC in meeting its obligations to enforce tribal off-reservation 
codes, but it will enhance intergovernmental efforts to protect public 
safety and welfare throughout the region by the states of Wisconsin, 
Minnesota, and Michigan. The COPS Tribal Resources Grant Program 
provides essential funding for equipment and training to support 
GLIFWC's cooperative conservation, law enforcement, and emergency 
response activities. We ask Congress to support increased funding for 
this program.
                                 ______
                                 
        Prepared Statement of the American Psychological Society

                       SUMMARY OF RECOMMENDATIONS

    APS supports the Coalition for National Science Funding 
recommendation of $6 billion for the National Science Foundation in 
fiscal year 2006.
    We ask that the Social, Behavioral and Economic Sciences (SBE) 
Directorate be funded at the 10.3 percent increase the President 
proposed in last year's NSF budget request.
    Mr. Chairman, members of the committee, thank you for this 
opportunity to present the views of the American Psychological Society 
(APS) on the fiscal year 2006 appropriations of the National Science 
Foundation (NSF). APS is a nonprofit organization dedicated to the 
promotion, protection, and advancement of the interests of 
scientifically oriented psychology in research, application, teaching, 
and the improvement of human welfare. Our 16,000 members are scientists 
and academics at the Nation's universities and colleges. The NSF 
supports many members of APS, and a great deal of basic research in our 
field simply could not exist without NSF funding.

            THE NATION'S PREMIERE BASIC RESEARCH ENTERPRISE

    When the administration requested a mere 2.47 percent ($132 
million) increase for the National Science Foundation in fiscal year 
2006, it placed the progress of scientific research on hold. We are 
extremely disappointed as the request will barely maintain the costs of 
inflation, and will not sustain and advance the Nation's investment in 
scientific research.
    In the spirit of the NSF Authorization Act of 2002 (H.R. 4664) 
passed by the 107th Congress and signed by the President (Public Law 
107-368), we join with the Coalition for National Science Funding 
(CNSF) in recommending $6 billion for the National Science Foundation. 
Matching the reauthorization would lead us toward a much-needed 
doubling of the Nation's premiere basic research enterprise--bringing 
NSF from $4.8 billion to $9.8 billion over 5 years. The basic science 
community asks the committee to make the underlying intent of this 
authorization a reality. The increases Congress has provided for NSF in 
the past, and the increase we are recommending today, are important 
steps in offsetting the under-funding that is a chronic condition for 
NSF. We hope you will continue to expand NSF's budget.

     THE SOCIAL, BEHAVIORAL AND ECONOMIC SCIENCES (SBE) DIRECTORATE

    On June 1, David W. Lightfoot, Ph.D. will become NSF Assistant 
Director for Social, Behavioral and Economic Sciences. We ask the 
committee to join us in welcoming Dr. Lightfoot.
    The Directorate for the Social, Behavioral and Economic Sciences 
(SBE) supports funding for basic behavioral research. Under the 
administration's budget plan, SBE would receive $198.8 million, 1 
percent over fiscal year 2005. This comes on the heels of a series of 
below-average increases in previous years.
    Over the years, many initiatives of the SBE Directorate have been 
encouraged. But this is not what has occurred recently. Although the 
President proposed a 10.3 percent increase for SBE in fiscal year 2005, 
SBE received an increase of only 6.8 percent over fiscal year 2004. A 
similar process occurred the previous fiscal year. We are concerned 
about this shortfall, given the enormous potential of behavioral 
science to address many critical issues facing the Nation. To offset 
previous years' under-funding, we ask the committee to fund SBE at the 
10.3 percent increase the President proposed in last year's NSF budget 
request. At the very least, we ask that the SBE Directorate share 
proportionately in any such increases ultimately received by NSF.
    An Overview of Basic Psychological Research.--NSF programs and 
initiatives that involve psychological science are our best chance to 
solve the enigma that has perplexed us for so long: How does the human 
mind work and develop? APS members include many scientists who conduct 
basic research in areas such as learning, cognition, and memory, and 
the linked mechanisms of how we process information through visual and 
auditory perception. Others study judgment and decision-making (the 
focus of a Nobel prize recently awarded to APS Fellow and NSF grantee 
Daniel Kahneman); mathematical reasoning (the focus of the most recent 
President's Medal of Science awarded to APS Fellow and NSF Grantee R. 
Duncan Luce); language development; the developmental origins of 
behavior; and the impact of individual, environmental and social 
factors in behavior.
    What's more, basic psychological research supported by NSF and 
conducted by APS members ultimately has had a wide range of 
applications, including designing technology that incorporates the 
perceptual and cognitive functioning of humans; teaching math to 
children; improving learning through the use of technology; developing 
more effective hearing aids and speech recognition machines; increasing 
workforce productivity; and ameliorating social problems such as 
prejudice or violence. While this is a diverse range of topics, all 
these areas of research are bound together by a simple notion: that 
understanding the human mind, brain, and behavior is crucial to 
maximizing human potential. That places these pursuits squarely at the 
forefront of several of the most pressing issues facing the Nation, 
this Congress, and the administration.
    We also believe that progress in psychological science will lead to 
advances in our powers to predict, detect, and prevent terrorism, in 
support of the basic science related to Homeland Security. In this time 
of uncertainty, where we can come to rely so heavily on technology to 
keep us safe and confident, we must turn to social behavior and 
cognition in order to maximize this technology. An understanding of how 
people process information will enable us to design technology that 
fits our needs and make us comfortable when using them. The potential 
for advances are limitless.

                             SBE HIGHLIGHTS

    Research supported by the SBE Directorate has the potential to 
increase employee productivity, improve decision making in critical 
military or civilian emergency situations, and inform the public 
policymaking processes across a range of areas. To give just a few 
examples:
    Perception, Action, and Cognition.--The perception, action, and 
cognition program at NSF supports research on these three functions, 
and the development of these capacities. Topics include vision, 
audition, attention, memory, reasoning, written and spoken discourse, 
motor control, and developmental issues in all topic areas. The program 
encompasses a range of theoretical perspectives such as symbolic 
computation, complex systems, and a variety of methodologies including 
experimental studies and modeling. By studying high-level cognitive 
activities, we can discover the core of cognition and what cognition 
qualities are universal.
    Cognitive Neuroscience Initiative.--Cognitive neuroscience, within 
the last decade, has become an active and influential discipline, 
relying on the interaction of a number of sciences, including 
psychology, cognitive science, neurology, neuroimaging, physiology and 
others. The cross-disciplinary aspects of this field have spurred a 
rapid growth in significant scientific advances. Cognitive 
neuroscientists are able to clarify their findings by examining 
developmental and transformational aspects of these phenomena across 
the lifespan. With brain imaging and other non-invasive techniques, we 
are poised to confirm and extend these theories through studies of the 
living brain. The Cognitive Neuroscience program solicits innovative 
proposals aimed at advancing an understanding of how the human brain 
supports thought, perception, emotion, action, social processes, and 
other aspects of cognition and behavior. Scientists from a range of 
areas test theories about normal brain functioning; assess the 
behavioral consequences of brain damage; and reach new levels of 
understanding of how the brain develops and matures.
    NSF's Children's Research Initiative.--Recognizing that a 
combination of perspectives--cognitive, psychological, social, and 
neural--is needed to fully understand how children develop and how they 
acquire and use knowledge and skills, the SBE Directorate supports 
interdisciplinary research centers that focus primarily on integrating 
traditionally disparate research disciplines concerned with child 
development. Known as the Children's Research Initiative (CRI), this 
program brings together such areas as cognitive development, broader 
cognitive science and broader developmental psychology, linguistics, 
neuroscience, anthropology, social psychology, sociology, family 
studies, cross-cultural research, and environmental psychology to name 
a few disciplines.
    And at a broader level, SBE's Social and Economic Sciences (SES) 
Division supports research and related activities aimed at better 
understanding, both nationally and internationally, political, economic 
and social systems and how individuals and organizations function 
within them. Further, it supports research activities related to risk 
assessment and decision making by individuals and groups, methods and 
statistics applicable across the behavioral sciences and broadening 
participation in the social, behavioral and economic sciences.
    Finally, NSF's ever-important Behavioral and Cognitive Sciences 
(BCS) Division supports research activities to advance the fundamental 
understanding of behavioral and cognitive sciences by developing and 
advancing scientific knowledge and methods focused on human cognition 
and behavior, including perception, social behavior and learning.
    In fiscal year 2006, for example, $1.27 million will support core 
research in behavioral and cognitive sciences to enable additional 
research on human origins, documenting endangered languages, the neural 
substrates of cognition, children's development and fundamental human 
social processes. Additional dollars will also support important 
research-related activities focusing on human diversity, including 
those designed to more effectively broaden participation of 
underrepresented groups in behavioral and cognitive science activities.

              CROSS-CUTTING BEHAVIORAL INITIATIVES AT NSF

    Human and Social Dynamics.--Human and Social Dynamics (HSD) fosters 
breakthroughs in understanding human action and development by multi-
disciplinary approaches to the causes and impact of social change. As 
it seeks to explore the convergence of biology, engineering, 
technology, and cognition, we will continue to learn more about 
decision-making and risk taking. For example, in fiscal year 2006 NSF 
is looking to advance understanding by exploring the interplay of 
neurological, sensory-motor, psychological, informational and social 
and organizational systems that produce coordinated efforts between 
individuals.
    As technology and engineering continue to develop at breakneck 
speed, it is essential that we study the human dynamics of such 
advances. One of the biggest challenges facing behavioral scientists is 
the understanding of everyday human performance and action, and how 
that is influenced by rapid change. HSD will support research that 
examines this challenge. The initiative seeks to refine our knowledge 
about decision-making, risk, and uncertainty, and then take this new 
knowledge and translate it into improved decision-making techniques. We 
live in a world where science such as this cannot be allowed to lag 
behind.
    An overlapping area is decision-making under uncertainty. Decision-
making under normal circumstances is complex enough; that complexity is 
compounded in a crisis. It is necessary to study such factors as 
distributed versus centralized decision making systems, new approaches 
to risk analyses, and the development of new tools and approaches to 
facilitate effective decision making and risk analysis under difficult 
or unique circumstances, including behavioral research in response to 
extreme events, such as terrorist attacks or natural disasters.
    The Science of Learning.--How people think, learn and remember are 
core NSF areas, drawing from topics across psychology: brain and 
behavior, learning, memory, perception, social psychology, and 
development. The challenge is: how can we apply and extend our 
knowledge of how people think, learn and remember to improve education?
    The Science of Learning Centers, launched in fiscal year 2003, will 
advance our understanding of the learning process and learning 
technologies. The Centers will strengthen the ties between education 
research and the education workforce. They will build collaborative 
research communities to respond to new challenges as they arise.
    In the administration's request, the Science of Learning Centers 
program is slated for $23 million, a welcome 15.9 percent increase over 
fiscal year 2005. The Centers will extend the frontiers of learning 
knowledge through investigations in human-computer interactions, 
cognitive psychology, cognitive neuroscience, and child learning and 
cognitive development.
    In closing, I want to note that building and sustaining the 
capacity for innovation and discovery in the behavioral sciences is a 
goal of the National Science Foundation. We ask that you encourage 
NSF's efforts in these areas, not just those activities described here, 
but the full range of activities supported by the SBE directorate and 
by NSF at large. Your support will help NSF lay the groundwork for this 
long-overdue emphasis on these sciences. Thank you.
                                 ______
                                 
        Prepared Statement of the Ecological Society of America

    As President of the Ecological Society of America, I am pleased to 
provide written testimony for the National Oceanic & Atmospheric 
Administration, National Aeronautics and Space Administration, and the 
National Science Foundation. The Ecological Society of America has been 
the Nation's premier professional society of ecological scientists for 
90 years, with a current membership of 9,000 researchers, educators, 
and managers.

            NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION

    Of particular interest to our community are NOAA's offices of the 
National Ocean Service (budget request is $414.7 million), the National 
Marine Fisheries Service (proposed budget is $727.9 million), and the 
Oceans and Atmospheric Research (budget request is $372.2 million). 
These offices support intramural and extramural research critical to 
NOAA's mission of managing marine and coastal resources to meet the 
Nation's environmental, economic, and social needs.
    NOAA is the only institution that collects and utilizes nationwide 
atmospheric and oceanic data. Its research on fisheries and coastal 
processes has become increasingly important as pressures on coastal 
areas and on fish populations grow. In-house NOAA research is an 
essential element of ecological research and provides stock 
assessments, basic research on fish species and marine mammals, as well 
as marine habitats. Without this research, NOAA could not meet its 
obligations under the Marine Mammal Protection Act, the Endangered 
Species Act or the Magnuson-Stevens Fisheries Conservation and 
Management Act and our scientific understanding of these topics would 
be greatly diminished. In addition to its intramural research programs, 
NOAA is a major funder of many important external research endeavors 
including research focused on harmful algal blooms, toxic contamination 
of estuaries, coastal habitat loss, non-point source pollution, and 
fishing gear impacts.
    The National Marine Fisheries Service (NMFS) provides the science 
necessary for revitalization of the Nation's fisheries resources and 
for the sustainability of the Nation's marine resources. The 
administration is proposing cutting NMFS by $95.8 million, although 
funding for stock assessments and protected species research and 
management would increase. While these are worthy areas of research, 
they should not come at the expense of other important programs such as 
habitat conservation and restoration.
    Within the National Ocean Service, two programs fund coastal 
ecological assessment or research. The Ocean Assessment Program, which 
funds critical monitoring projects such as coastal observing systems, 
would receive $55.2 million for fiscal year 2006. This represents a 
dramatic drop from the $146.9 million approved by Congress in fiscal 
year 2005. ESA appreciates past congressional support of this 
monitoring program and encourages support beyond the administration's 
request.
    The National Ocean Service also requests $48 million for the 
National Centers for Coastal Ocean Science (NCCOS), which joins NOAA's 
five coastal research centers. This request is $11.6 million below the 
amount appropriated for fiscal year 2005. ESA urges that funding for 
this program be restored to fiscal year 2005 levels, as NCCOS 
activities focus on five areas of ecosystem research that are national 
in scope and crucial to the Nation's research needs: climate change, 
extreme natural events, pollution, invasive species and land and 
resource use.
    The administration's fiscal year 2006 budget request for ocean, 
coastal, and Great Lakes research through the Oceans and Atmospheric 
Research (OAR) office is $118.6 million, a 19.2 percent decrease from 
fiscal year 2005 enacted levels. ESA appreciates past congressional 
support of this monitoring program and encourages support beyond the 
administration's request. Of particular importance to ESA is the 
National Sea Grant Program, administered by OAR, which supports 
research, education, and extension projects to help the United States 
better manage its coastal resources. The administration requests stable 
funding ($61.2 million) for the National Sea Grant Program for fiscal 
year 2006. The Ecological Society of America appreciates the 
recognition by Congress and the administration that this highly 
successful program is an important component of our coastal policy. We 
acknowledge the current budget constraints but would like to see this 
program's funding grow in the future.
    In addition, the National Undersea Research Program, which places 
scientists under the sea to conduct research, would fall by $1 million 
under the President's proposal. If this decrease were to go into 
effect, it would cut underwater ecosystem science projects--which 
support coastal and ocean resource management--by 20 percent. ESA urges 
that funding for this program be restored to the fiscal year 2005 
level.
    NOAA's research programs provide the Nation with valuable 
understanding of the workings of the oceans and atmosphere. NOAA has 
greatly advanced the field of ecological science through both its in-
house science programs and its commitment to funding external research. 
The Ecological Society of America thanks Congress for its past strong 
support of these programs and asks for its support in ensuring that 
NOAA retains its ability to wisely manage the Nation's coastal and 
marine resources using the best scientific information.

             NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

    The Ecological Society of America is disappointed that earth 
science research is not a priority in the President's budget request 
for NASA in fiscal year 2006. Although NASA's total Research and 
Development would grow to $11.5 billion, research in the earth sciences 
(down 4 percent to $2.1 billion), and biological and physical research 
(down 22 percent to $807 million), would face steep cuts in research on 
our home planet in order to fund space exploration.
    ESA urges that funding for this program be restored to the fiscal 
year 2005 level and that NASA increase its in-house research on 
environmental science. Currently, NASA is the leading Federal sponsor 
of the environmental sciences (oceanography, atmospheric sciences, 
geological sciences). The environmental sciences are a quarter of 
NASA's portfolio, but NASA accounts for a third of total Federal 
support for environmental sciences research. NASA has played a vital 
role in developing the Nation's capability to observe and understand 
earth systems, including research on climate change, remote sensing 
technology, ecosystem monitoring, and energy cycling. At a time when 
the Nation and the globe face increasing environmental and natural 
resource challenges, we believe it is critical to continue to support 
NASA's earth systems research.

                      NATIONAL SCIENCE FOUNDATION

    In order to ensure the Nation's future prosperity and security, the 
Ecological Society of America requests that the committee fund the 
National Science Foundation (NSF) at $6 billion. We recognize the 
current fiscal climate, but Federal investment in this agency--the only 
one to fund science and education across all disciplines--has yielded 
tremendous national benefits.
    One indicator of the need to support NSF is the agency's low grant 
proposal success rate--in 2004, 5,400 proposals rated ``very good'' or 
``excellent'' by NSF's peer review process were passed over due to lack 
of funds. The grant proposal success rate for the Biology Directorate 
is among the lowest of all the NSF directorates. We are concerned that 
the low grant success rate will eventually affect the choices of U.S. 
students as to whether or not they will choose to enter the field of 
ecology, a science that is crucial to meeting emerging environmental 
challenges.
    We ask for Congress's support in recognizing the unique role NSF 
plays in supporting non-medical biology. NSF is the principal Federal 
supporter of academic, non-medical research in biology and ecology; 
over 60 percent of the extramural funding for this type of research 
comes from the NSF. Research made possible by funding from NSF has shed 
much light on key environmental processes, the interactions among 
organisms, and the complex responses of ecosystems to stresses such as 
air and water pollutants. The knowledge gained from this research is 
critical input to the wise management of the environment for the 
benefit of humankind.
    Within the Biology Directorate, the Division of Environmental 
Biology (DEB) supports fundamental research on the evolutionary history 
of species and on the interactions of biological communities and 
ecosystems, ranging from the relatively undisturbed to heavily human-
impacted systems. DEB-supported researchers address a range of issues 
important to all of us-the consequences of excess nitrogen in the 
environment; the costly effects of invasive plants and animals; and the 
potential impacts of climate change on the Nation's ecosystems and 
biodiversity.
    In addition to supporting core biology funding, the Biology 
Directorate includes other programs important to the ecological 
community, such as the Long Term Ecological Research (LTER) Program and 
the agency's National Center for Ecological Analysis and Synthesis 
(NCEAS). We ask that the subcommittee support the budget request of 
$17.5 million (no change from last year's enacted amount) for LTER and 
$3.8 million (a 10 percent increase) for NCEAS.
    Finally, we encourage support of the agency's request for $6 
million for the National Ecological Observatory Network (NEON) within 
Biology's Research and Related Activities Account. This request would 
continue development of the NEON execution plan and of related 
cyberstructure, which is a key component of the NEON program. NEON has 
the potential to integrate existing environmental monitoring efforts by 
standardizing the way in which data are collected and thereby improving 
the Nation's overall ability to track environmental changes.
    ESA thanks Congress for its strong support of the National Science 
Foundation. As the only Federal agency to support science and education 
across all disciplines, NSF's contributions have been extremely 
valuable to the U.S. research enterprise. We hope that Congress will 
ensure the agency continues on this path, with support across all 
science disciplines and recognition of the vital role NSF plays in 
supporting non-medical biology.
                                 ______
                                 
  Joint Prepared Statement of the Biological Science Curriculum Study 
    (BSCS); the National Science Teachers Association; The Concord 
       Consortium; the Education Development Center, Inc.; TERC; 
   Exploratorium, San Francisco; and the National Science Education 
                         Leadership Association

    On behalf of the groups listed above which provide research and 
development to build the STEM infrastructure, and the instructional 
materials, professional development, and innovations in technology 
utilized by thousands of schools and students nationwide, we urge you 
to fund fiscal year 2006 K-12 programs at the National Science 
Foundation Education and Human Resources Directorate (EHR) at the 
fiscal year 2004 level of $944 million and provide $206 million in 
funding (the fiscal year 2004 level) for NSF's Elementary, Secondary 
and Informal Education (ESIE) programs.
    Strengthening science and math education is a core mission of the 
NSF. NSF is the only Federal agency with both science and scientific 
education in its charter. It has the mandate, depth of experience, and 
well-established relationships to build the partnerships for excellence 
in K-12 STEM education. The programs in the NSF Education and Human 
Resources (EHR) directorate are designed to support and improve U.S. 
STEM education at all levels and in all settings (both formal and 
informal). These programs are unique in their capacity to move 
promising ideas from research to practice, to develop new and improved 
materials and assessments, to explore new uses of technology to enhance 
K-12 instruction, and to create better teacher training techniques. 
NSF's highly-regarded peer review system that enlists leading 
scientists, mathematicians, engineers, and academicians to improve K-12 
STEM education programs is at the center of this education improvement 
infrastructure.
    The fiscal year 2006 administration budget request recommends major 
cuts to the Education and Human Resources Directorate, largely to 
elementary and secondary education programs. It appears these 
reductions are part of a policy decision to significantly pare the NSF 
role in program implementation, allowing work in this area to migrate 
to the Department of Education.
    Research, education, the technical workforce, scientific discovery, 
innovation and economic growth are intertwined. To remain competitive 
on the global stage, we must ensure that each remains vigorous and 
healthy. That requires sustained investments and informed policies. If 
NSF ceases to fulfill its educational mission of stimulating 
innovations and building capacity in our education systems, then that 
withdrawal would leave a critical gap in applied research and 
development and the infrastructure necessary to effect changes to K-12 
STEM education that could not easily be rebuilt.
    Unlike the NSF, the National Institutes of Health, or NASA, the 
U.S. Department of Education is not a research or development 
institution. The NSF has the capacity to incorporate the best from both 
the science and education R&D communities and can enlist scientists, 
academicians and researchers in a peer review process that generates 
and tests innovations in science-related disciplines for education. 
Unlike the Department of Education, the NSF has the ability to tap into 
basic cognitive research, fold in new content and new ways of teaching 
this content from the disciplines, and explore new technologies for the 
delivery of professional development and for assessing teachers and 
their students.
    Science education is unique because it is concerned with the 
special character of science and its related disciplines--it is at once 
a body of knowledge and a dynamic questioning activity. Because of the 
nature of science it is important to have scientists involved in 
critical questions of science education. It was the recognition of this 
interdependence between scientists and the science education enterprise 
that drove the identification of science education as a key part of the 
NSF agenda when the agency was founded. This connection will be lost if 
funding for the NSF Education and Human Services Directorate is reduced 
or if the responsibility for science education migrates to the U.S. 
Department of Education.
    Here is a small sample of the many K-12 science education programs 
funded by the National Science Foundation. These K-12 programs--and 
many similar science education innovations yet to come from the NSF--
will be crippled or lost without sustained funding to the NSF Education 
and Human Resources Directorate.
  --NSF supported the development of the Centers for Learning and 
        Teaching, which has resulted in partnerships between 15 major 
        universities and non-profit research organizations. The CLTs 
        are currently creating new knowledge for science education and 
        developing new leadership for science and mathematics by 
        producing 400 new Ph.D.s in science and mathematics education. 
        One of these centers, the Center for Informal Learning and 
        Schools, has worked with over 100 museum educators from 50 
        museums to create stronger partnerships between museums and 
        schools and represents the first serious examination of the 
        opportunities to better coordinate these two educational 
        systems. These centers, which study critical issues in 
        mathematics and science such as equity, assessment, curriculum 
        and teacher development, demonstrate the power of using the NSF 
        approach of field initiated research centers.
  --NSF supported a number of technology-based innovations such as 
        Microcomputer Based Labs, Molecular Workbench, and Handhelds in 
        Education.
    --Microcomputer Based Labs.--The idea of attaching electronic 
            sensors to computers for real time data collection and 
            analysis in education was invented in an NSF-funded project 
            called Microcomputer Based Labs (MBL). This idea was 
            directly inspired by the use of such sensors in science 
            research, and NSF understood the importance of applying 
            these ideas to education. This project spawned a small 
            industry that now has seven vendors that offer MBL products 
            to education in grades 3-14; an estimated 10 percent of all 
            science teaching labs in grades 9-14 use some MBL.
    --Molecular Workbench.--This is a sophisticated modeling package 
            developed under several NSF grants that makes the atomic 
            and molecular world easily accessible to students in grades 
            7-14. This is now built into hundreds of educational 
            activities and is use nationwide. Based on software used in 
            scientific research, the Molecular Workbench would not have 
            been developed without the kind of bridge between science 
            and science education that the NSF provides.
    --Handhelds in education.--The idea of using handheld computers in 
            the classroom was a novel idea to Palm when a team of 
            educators who were leaders of an NSF-funded center visited 
            them in 1995. The subsequent development of educational 
            applications and real-time data collection for handhelds 
            was seeded by grants and a contest sponsored by this 
            center. Handhelds are now one of the hottest ideas in 
            educational technology.
  --NSF supported the creation of an elementary school science support 
        infrastructure through the creation of 5 national centers 
        focused on improved teacher development in science. One of 
        these centers, the Exploratorium Institute for Inquiry, has 
        worked with improving the skills of science teacher development 
        staff in over 200 districts in 39 States. These centers 
        represented a critical partnership of scientists, science 
        educators and educational researchers and demonstrate a quality 
        that could only have been produced through the rigorous NSF 
        peer review process.
  --NSF supported the development of eight national Science and 
        Mathematics Implementation and Dissemination Centers. Two of 
        these centers, the EDC K-12 Science Curriculum Dissemination 
        Center and the EDC K-12 Mathematics Curriculum Center, have 
        provided high-quality instructional materials to school 
        districts nationwide, including those that are rural and 
        isolated, serve high populations of poor students, or have 
        limited access to research-based mathematics and science 
        education efforts. The Centers have worked in all 50 States, 
        reaching more than 1,000 districts. The combination of 
        services-seminars, resource materials, technical assistance, 
        and outreach-offered by the Centers has been found to 
        contribute significantly to districts' efforts to improve their 
        mathematics and science programs.
  --NSF supported the creation of Insights: An Elementary Hands-on 
        Inquiry Science Curriculum, one of three NSF-funded research-
        based elementary programs that have reached more than 15 
        percent of the elementary school population. For example, 
        Insights is in use in more than 1,000 school districts 
        nationwide and has been translated into both French and Spanish 
        for use in France, Colombia, and several other countries. The 
        Insights materials have been favorably reviewed by Expert 
        Panels assembled by NSF, as well as by the U.S. Department of 
        Education (ED). Insights are an example of the kinds of high 
        quality instructional materials that result from cross-
        pollination between scientists and educators encouraged by NSF.
  --NSF supported the Using Data Project, which draws on a decade's 
        worth of development of validated data-collection instruments 
        from prior NSF-funded projects, allowing a rigorous process for 
        school or district level data analysis and a step-by-step plan 
        for making decisions and taking action based on those data for 
        instructional improvements in mathematics and science 
        education. Canton City middle schools have doubled their 
        proficiency in mathematics on the Ohio State test from 2003-
        2004 by using a unique approach to data-driven decisionmaking 
        pioneered by TERC.
  --NSF supported the establishment of the Center for Urban Science 
        Education Reform (CUSER), which focused on providing 
        professional development and technical assistance for 22 school 
        districts across the country that were implementing standards-
        based science programs for the first time. CUSER responded to a 
        national need to address science education in urban schools and 
        served more than 30 of the Nation's largest and poorest urban 
        school districts. NSF's support served as a catalyst for 
        directing resources and attention to a nationally neglected 
        equity issue-bringing high quality science instruction to 
        inner-city students.
  --NSF supported Investigations in Data, Number and Space K-5 
        mathematics curriculum, developed by TERC and published by 
        Scott-Foresman, and now in classroom sets in 14 percent of 
        elementary schools nationwide. Students using reformed-based 
        elementary curriculum, including Investigations, consistently 
        scored higher than students in matched comparison groups using 
        more conventional curriculum in a tri-State study on State-
        mandated standardized tests. An ARC Center study included 
        outcomes on more than 100,000 students and all statistically 
        significant differences favored the reform students, including 
        the Iowa Test of Basic Skills. The superior results hold across 
        all student racial and income groups.
  --NSF supported the development of the first subject specific 
        (science) new teacher mentor program at the Exploratorium 
        Teacher Institute that has resulted in an increase in the first 
        5-year retention rate for new teachers from the traditional 50 
        percent to 90 percent. This required the developmental funding 
        of innovative ideas that is only available from an agency like 
        NSF.
  --NSF supported the creation of the on-line Masters Degree Program in 
        Science Education jointly developed by TERC and Lesley 
        University. Teachers enrolled in the online courses 
        outperformed teachers taking the same courses on-campus--in 
        terms of science learning, understanding of scientific inquiry, 
        and lesson planning. In addition, the online students spent on 
        average about 2 hours per week more on the course than the on-
        campus students.
                                 ______
                                 
      Prepared Statement of the American Sportfishing Association
    The American Sportfishing Association (ASA) recommends the 
following as the subcommittee considers appropriations for NOAA-
Fisheries for fiscal year 2006. The American Sportfishing Association 
is a non-profit trade association whose 700 members include fishing 
tackle manufacturers, sport fishing retailers, boat builders, State 
fish and wildlife agencies, and the outdoor media.
    The ASA makes these recommendations on the basis of briefings with 
agency staff and from years of experience with fisheries management in 
this Nation. It is important to note that sportfishing provides $116 
billion in economic output to the economy of the United States each 
year.
    An important but often under-represented NOAA constituency is the 
Nation's 44 million sportfishing anglers, who collectively provide $116 
billion in economic impact each year to the U.S. economy. The 
importance of adequately including this group and their activities in 
management decisions cannot be overstated. Sportfishing in marine 
waters alone provides a $31 billion economic impact to the Nation's 
economy.

                            HABITAT PROGRAMS

    Federal resource agencies are dependent on the assistance of 
volunteers and matching funds from the private sector to accomplish 
habitat restoration goals. NOAA's Restoration Center Community-based 
Restoration Program is a premier example of a Federal agency providing 
funds that are matched by non-Federal monies to accomplish habitat 
restoration that would otherwise be accomplished at a greatly 
diminished scale. For example, the FishAmerica Foundation, one of the 
NOAA Community-based Restoration Center program partners matches NOAA 
funds up to five times with its funds, funds of others, and in-kind 
matching from others at project sites. The President's request of $15.2 
million is appreciated, but we request the committee increase funding 
for this valuable program to $20 million for fiscal year 2006.

                         RECREATIONAL FISHERIES

    With 10 million participants and 91 million fishing days, saltwater 
recreational fishing is the fastest growing segment of sportfishing in 
the United States. The Association remains disappointed in the 
inadequate attention that NOAA-Fisheries invests in recreational 
angling. Sportfishing in marine waters alone provides $8.1 billion in 
salaries and wages to nearly 300,000 wage earners in coastal areas.
    Good socio-economic information is critical for effective marine 
resources management efforts, and the ASA applauds the administration's 
requested increase of $5.5 million (for a total of $9.6 million) for 
additional economic and social science research, data collection and 
analysis. The ASA asks Congress to assure that NOAA-Fisheries utilizes 
this money for assessment of impacts associated with recreational as 
well as commercial fishing activity and provides adequate data for 
sportfishing in marine waters.
    The ASA proposes a nationwide stewardship program designed to 
enhance sustainable marine recreational fishing through cooperative 
research, public awareness, and development of technology and 
techniques. A partnership between government, the sportfishing industry 
and recreational anglers, the program will direct and fund research 
aimed at reducing unintended mortality from recreational fishing. The 
primary purpose of such a project is to fund research on ways to reduce 
mortality in catch-and-release recreational fishing. A secondary 
purpose of the project is to fund outreach programs aimed at promoting 
smart fishing techniques and gear. Based on the long history of 
conservation by anglers and the sportfishing industry, the ASA feels it 
is necessary to give anglers additional opportunities to help preserve 
their long-treasured marine resources. The ASA asks the committee to 
provide $500,000 for the initial organization of this project and 
direct these funds to NOAA's recreational fishing office.
    The ASA urges Congress to remind NOAA-Fisheries of the 
opportunities associated with the increasing popularity of saltwater 
recreational fisheries, and NOAA-Fisheries should direct suitable 
resources to their conservation partners to better manage these 
resources.

                    STOCK ASSESSMENT AND MONITORING

    NOAA-Fisheries has not fully demonstrated an ongoing and 
comprehensive commitment to modernization and improvement of fisheries 
stock assessment and management of marine systems. It will take a 
sustained commitment on the part of the administration, Congress and 
partner agencies to ensure that new these initiatives are in place, 
sustained and effective over the long-term.
    The ASA recognizes and supports the fiscal year 2006 President's 
budget request to increase funds for fisheries stock assessments and 
management by $4.5 million to a total of $25.397 million, but the NOAA-
Fisheries stock assessment program needs to build to the $100 million 
level over the next 5 years if it is to be effective in providing data 
for proper management of marine stocks. The ASA recommends a total 
increase of an additional $10 million dollars to begin building this 
program to its needed level. Funds for stock assessments could be 
allocated by the marine sanctuaries program. This program is at times 
in conflict with proven management measures and the ASA believes it is 
more important to first establish a solid stock assessment program 
before experimenting with the theoretical concept of marine 
sanctuaries.

                        ANADROMOUS FISHERIES ACT

    The ASA remains perplexed and troubled over the continuing low 
level of funding for implementation of the Anadromous Fisheries Act. 
The Anadromous Fisheries Act budget line has traditionally been used to 
fund activities that cannot be supported through other Federal and 
State funds, and the fisheries management community has been unable to 
address the needs of most anadromous fish stocks due to a severe lack 
of resources. Therefore, the ASA urges Congress to fund the Anadromous 
Fisheries Act grants to States at $8 million.
                                 ______
                                 
     Prepared Statement of the Science, Technology, Engineering & 
                 Mathematics (STEM) Education Coalition

    On behalf of the science, technology, engineering, mathematics, 
higher education and business groups listed below, we urge you to 
continue the Federal commitment to K-12 science, technology, 
engineering, and mathematics (STEM) education. In particular, we urge 
you to increase spending for the National Science Foundation (NSF) to a 
level that would permit $200 million in funding for the NSF Math and 
Science Partnership (MSP) program, and restoration of funding for the 
NSF Education and Human Resources Directorate to fiscal year 2004 
levels.
    The current fiscal year 2006 budget proposes to cut education 
programs at the NSF by 12 percent ($737 million, down from $841 million 
in fiscal year 2005). Programs under the Elementary, Secondary and 
Informal Education Division would be cut 22.6 percent ($140 million, 
down from $181 million in fiscal year 2005), and the Research, 
Evaluation, and Communication (REC) budget would be cut by more than 43 
percent ($33 million, down from $59 million in fiscal year 2005). The 
fiscal year 2006 NSF Math and Science Partnerships (MSPs) would see a 
24 percent cut to $60 million.
    In this tight budget environment, we understand that difficult 
choices must be made. Increased and continued investment in these 
programs is critical, however, if we want to ensure that our students--
the future scientists, technologists, engineers, mathematicians, 
workers, and others responsible for our Nation's future innovations, 
our national security, our economy, and our quality of life--receive a 
world class education in the sciences and mathematics, and that we have 
the research base essential to improving it.
    The NSF MSPs are working to develop scientifically sound, model 
reform initiatives that will improve teacher quality, develop rigorous 
curricula, and increase student achievement in these areas. These 
programs are not duplicative of the U.S. Department of Education Math 
and Science Partnerships; in fact, without one program, the other 
program is significantly weakened. The State-based ED MSPs are not 
capable of producing the needed research in these areas and look to the 
NSF MSPs to develop proven models and tools necessary to enhance 
teacher quality and student achievement.
    Other programs in the NSF Education and Human Resources (EHR) 
directorate, such as Instructional Materials Development, the Teacher 
Professional Continuum, and the Centers for Learning and Teaching, are 
designed to support and improve both formal and informal STEM education 
at all levels. These programs are unique in their capacity to move 
promising ideas from research to practice, to develop new and improved 
materials and assessments, to explore new uses of technology to enhance 
K-12 instruction, and to create better teacher training techniques.
    NSF's peer review system that enlists leading scientists, 
mathematicians, engineers, and academicians to improve K-12 STEM 
education programs is at the center of this education improvement 
infrastructure. The NSF peer review model is highly regarded in the 
scientific community and the programs produced under this approach are 
developed, tested, and evaluated to insure their efficacy.
    American Association of Physicists in Medicine; American 
Association of Physics Teachers; American Astronomical Society; 
American Chemical Society; American Educational Research Association; 
American Geological Institute; American Geophysical Union; American 
Institute of Aeronautics and Astronautics; American Institute of 
Biological Sciences; American Institute of Physics; American 
Meteorological Society; American Physical Society; American 
Physiological Society; American Society of Agronomy; American Society 
of Civil Engineers; American Society of Mechanical Engineers; American 
Sociological Association; ASEE Engineering Deans Council; Association 
of State Supervisors of Mathematics; Biological Sciences Curriculum 
Study (BSCS); Center for Educational Outreach, Whiting School of 
Engineering, Johns Hopkins University; Chabot Space & Science Center; 
Crop Science Society of America; Delta Education; Education Development 
Center, Inc.; Exploratorium; Institute of Electrical & Electronics 
Engineers-USA; Institute of Food Technologists; International 
Technology Education Association; Mathematical Association of America; 
Michigan State University; Museum of Science, Boston; National 
Association of Biology Teachers; National Council of Teachers of 
Mathematics; National Education Knowledge Industry Association; 
National Science Teachers Association; Optical Society of America; 
Project Lead the Way; Society of Automotive Engineers; Society of Women 
Engineers; Soil Science Society of America; SPIE--The International 
Society for Optical Engineering; Technology Student Association; TERC; 
The Association of American Geographers; The Federation of Behavioral, 
Psychological, & Cognitive Sciences; Triangle Coalition.
                                 ______
                                 
       Prepared Statement of the Marine Fish Conservation Network

    The Marine Fish Conservation Network (MFCN) is pleased to share its 
views regarding certain National Marine Fisheries Service (NMFS) 
programs in the National Oceanic and Atmospheric Administration's 
(NOAA) fiscal year 2006 budget request. We ask that this statement be 
included in the hearing record for the fiscal year 2006 Commerce, 
Justice, State, and the Judiciary Appropriations Bill. We are 
requesting a budget increase of $51 million from the administration's 
requested $77.7 million for NMFS programs in the fiscal year 2006 
budget to be allocated for stock assessments, fishery observer 
programs, essential fish habitat, vessel monitoring systems, bycatch 
reduction, cooperative research and ecosystem-based management as 
described below.
    MFCN is a national coalition of more than 170 environmental 
organizations, aquariums, commercial and recreational fishing 
associations, and marine science groups dedicated to conserving marine 
fish and promoting their long-term sustainability. We greatly 
appreciate the funding this subcommittee has provided for marine fish 
conservation programs within NMFS in the past and we look forward to 
working with the subcommittee to enact adequate levels of funding for 
the coming fiscal year.
    In 2004, the presidentially appointed U.S. Commission on Ocean 
Policy (USCOP) released a report, which outlined a series of 
recommendations designed to enhance and reform the current Federal 
fisheries management system. The congressional response to this call-
to-action to protect the health and long term sustainability of our 
ocean resources has been heartening, and a bipartisan effort is 
currently underway to address the most critical issues identified by 
the USCOP. Unfortunately, the President's fiscal year 2006 NOAA budget 
request does not provide adequate new funding for many of the priority 
program areas identified by the USCOP. The NMFS funding request for 
fiscal year 2006 amounts to a 12 percent reduction (almost $100 
million) in funding for NMFS. There are seven areas of the NMFS budget 
where we believe the requested funding levels need to be increased to 
help the agency fulfill its obligations as the Federal Government's 
fishery management agency.

                           STOCK ASSESSMENTS

    President's Request.--Total of $25.4 million.
    MFCN Request.--Total of $30 million.
    The USCOP noted that ``accurate, reliable science is critical to 
the successful management of fisheries.'' While we are pleased that the 
administration requested an almost $5 million increase in the expanding 
stock assessments line item, we are concerned that funding in this area 
is insufficient. The NOAA Office of Science & Technology estimates that 
the funds needed to fully assess all commercially important stocks 
total more than $300 million. The administration's line item request 
for a $2 million increase to strengthen living marine resource 
monitoring would provide for an estimated 250 additional charter-vessel 
days at sea (DAS)--an increase of approximately 10 percent over the 
fiscal year 2005 level of 2,500 days. Still, NOAA estimates that 7,566 
DAS are needed to fully modernize and expand its stock assessment 
capabilities. At the current level of funding ($20.5 million), there is 
a deficit of 5,066 days at sea, many of which are used to conduct stock 
assessments. The impact of this deficit is demonstrated by the fact 
that the status of only 33 percent of the 909 ocean fish populations 
managed by NMFS is currently known. This information void is due in 
large part to a lack of funding for basic research and stock 
assessments. An additional $4.6 million to the administration's request 
for $25.4 million to expand stock assessments, would further this 
essential work.

                       FISHERY OBSERVER PROGRAMS

    President's Request.--Total of $26.0 million.
    MFCN Request.--Total of $43.4 million.
    Observer programs are vital to the sustainable management of our 
Nation's fisheries because they provide critical data on the amount and 
type of ocean wildlife killed due to fishing. While we commend the 
administration's efforts to expand and increase funding for Federal 
fishery observer and enforcement programs, the proposed level of 
funding of $26 million is not sufficient to address current management 
needs. The President's fiscal year 2006 budget request amounts to a 
$1.5 million increase overall from fiscal year 2005 funding levels, but 
funding for certain critical regions would be cut. In New England, a 
region plagued by chronic overfishing and mismanagement, the funding 
level for observers would be cut by $3.5 million from the fiscal year 
2005 enacted level. We recommend that funding for the national observer 
program be increased but not at the expense of important regional 
programs such as New England. The $1.5 million requested increase for 
the Observers/Training line item will enable NOAA to employ observers 
in 41 fisheries. NMFS estimates that an additional 22 fisheries outside 
of the 41 with observers currently do not have observer coverage or 
have very low levels of coverage. The estimated total cost to implement 
a small ``baseline'' or ``pilot-level'' program to observe these 22 
additional fisheries is approximately $17.4 million. Recognizing that a 
comprehensive nationwide observer program would demand a significant 
increase in funding, we recommend that Congress provide funding to 
initiate pilot programs in those fisheries currently without observer 
programs. We request that Congress appropriate $43.4 million to expand 
observer programs into all 63 managed fisheries and provide enhanced 
coverage for priority fisheries.

                         ESSENTIAL FISH HABITAT

    President's Request.--Total of $4.7 million.
    MFCN Request.--Total of $15 million.
    Essential fish habitats (EFH) are those waters and substrate upon 
which fish depend for reproduction and growth. Land-based activities 
and destructive fishing practices threaten the viability of these 
habitats and the sustainability of the fish populations that depend on 
them. While the Sustainable Fisheries Act of 1996 gave NMFS a clear 
mandate to identify and protect EFH, too little has been done to 
protect these habitats. The President's budget request for fiscal year 
2006 continues this trend of under-funding this critical element of 
sustainable fisheries management. While we support efforts to reduce 
fishing impacts on essential fish habitat, the President's fiscal year 
2006 budget request of $500,000 to address this issue is inadequate. 
This level of funding is not sufficient for protecting the EFH for 909 
federally managed fish stocks. The administration has also requested 
$999,000 to refine EFH designations. While this represents an increase 
from fiscal year 2005 enacted levels, this request does not provide the 
level of funding necessary to support the research and analysis needed 
to more accurately identify and define areas to be designated as EFH.

                       VESSEL MONITORING SYSTEMS

    President's Request.--Total of $9.3 million.
    MFCN Request.--Total of $18.3 million.
    We commend the administration's commitment to establishing vessel-
monitoring systems (VMS) to better manage our Nation's fishery 
resources. VMS are integral to enhancing data collection, improving 
enforcement capabilities and ensuring greater safety at sea. VMS 
programs assist fishery managers and enforcement officials by providing 
information when a vessel unlawfully enters a closed area or is fishing 
beyond the end of a regulated fishing season. The USCOP highlighted the 
importance of VMS in its final report and recommended that fishery 
managers and enforcement officials ``maximize the use of the Vessel 
Monitoring System (VMS) for fishery-related activities by requiring 
that VMS with two-way communication capability be phased in for all 
commercial fishing vessels receiving permits under federal fishery 
plans, including party and charter boats that carry recreational 
fishermen, incorporating VMS features that assist personnel in 
monitoring and responding to potential violations, and identifying 
state fisheries that could significantly benefit from VMS 
implementation.'' Of the $9.3 million requested by the administration, 
$4.8 million is needed to support and maintain the existing 
infrastructure of the system. The remaining $4.5 million is to cover 
the costs of purchasing and installing units on approximately 2,000 
additional vessels. There are an estimated 10,000 commercial fishing 
vessels in the United States, therefore to ensure more widespread 
implementation of VMS programs, we recommend funding be increased $18.3 
million.

                           BYCATCH REDUCTION

    President's Request.--Total of $2.8 million.
    MFCN Request.--Total of $13 million.
    Bycatch is the incidental catch of non-target species and 
represents a significant portion of overall fish mortality. In order to 
ensure the long-term sustainability of our Nation's fish populations, 
marine mammals and other protected species, it is crucial that programs 
aimed at reducing wasteful bycatch receive adequate funding. The 
President's budget request for fiscal year 2006 for the Reducing 
Bycatch Initiative is $2.8 million, almost $1 million less than the 
current funding level of $3.7 million and $2 million less than fiscal 
year 2004 funding levels. Greater funding is needed to develop and test 
bycatch reduction technologies, to improve cooperative research 
activities and coordination with fishermen, to disseminate information 
and to hire additional observers. We recommend that Congress provide 
$13 million in fiscal year 2006 for the Bycatch Reduction Initiative to 
ensure that measurable progress is made towards decreasing bycatch and 
bycatch mortality.

                          COOPERATIVE RESEARCH

    President's Request.--Total of $9.5 million.
    MFCN Request.--Total of $20 million.
    Cooperative research programs provide an important opportunity for 
fishermen and scientists to work together to investigate and develop 
new fishery technologies, to assess the status of fish stocks and their 
associated habitats, and to share their individual expertise. Involving 
fishermen in the scientific process also reduces industry skepticism 
regarding the integrity and veracity of the science upon which 
management measures are based. The USCOP recommended that Congress 
increase support for an expanded, regionally based cooperative research 
program in NOAA that coordinates and funds collaborative projects among 
scientists and commercial and recreational fishermen. (USCOP 
Recommendation 19-9) The administration's requested budget for fiscal 
year 2006 cuts funding for cooperative research by almost $10 million. 
Investing in cooperative research programs will bolster the credibility 
of science and enhance the rapport between scientists and fishermen. As 
such, funding for cooperative research should be maintained at $20 
million for fiscal year 2006.

                       ECOSYSTEM-BASED MANAGEMENT

    President's Request.--Total of $0.
    MFCN Request.--Total of $4 million.
    In 2004, the USCOP noted that ``[t]o be effective, U.S. ocean 
policy should be grounded in an understanding of ecosystems, and our 
management approach should be able to account for and address the 
complex interrelationships among the ocean, land, air, and all living 
creatures, including humans and consider the interactions among 
multiple activities that affect entire ecosystems.'' To ensure the 
long-term health and productivity of marine ecosystems, the Commission 
also advised fishery managers to move away from the traditional single-
species management strategy and towards an ecosystem-based approach to 
management. (USCOP Recommendation 19-21) This commitment to ecosystem-
based management was echoed in the U.S. Ocean Action Plan, the Bush 
administration's response to the USCOP report. Despite pledges from the 
administration to initiate efforts to transition to a more ecosystem-
based approach to marine resource management, the requested budget for 
fiscal year 2006 contains no funding for ecosystem-based management.
    In fiscal year 2004, Congress allocated approximately $2 million 
for NMFS to conduct ecosystem pilot projects in four regions including 
the South Atlantic, the Mid-Atlantic, New England and the Gulf of 
Mexico. Each of the four regions received a grant of $225,000 to 
address ecosystem governance at the fishery management council level. 
Remaining funds were used to conduct technical workshops and develop 
quantitative decision support tools. While the ecosystem pilot projects 
are a step in the right direction, additional funding is needed to 
build upon existing projects and expand the pilot programs into other 
regions. Increasing funding for ecosystem-based management to $4 
million would ensure that the financial resources necessary to develop 
programs and initiatives that are consistent with the goal of 
ecosystem-based management are available to the eight designated 
Federal fishery management regions.
    Thank you for considering our request for increasing funding for 
these important fishery management programs. These increases will go a 
long way toward ensuring that NMFS can better manage and protect our 
Nation's fish resources now and for the future.
                                 ______
                                 
                Prepared Statement of the Navajo Nation

                              INTRODUCTION

    Chairman Shelby, Ranking Member Murkowski and members of the 
subcommittee, thank you for this opportunity to provide comments on 
behalf of the Navajo Nation with regard to the President's proposed 
fiscal year 2006 Budget for funding Indian public safety programs. My 
name is Hope MacDonald-Lone Tree.\1\ I am an elected delegate to the 
Navajo Nation Council and serve as the Chairperson of the Public Safety 
Committee of the Navajo Nation Council. I also serve as the Navajo 
Nation representative to the joint Bureau of Indian Affairs/Tribal 
Budget Advisory Council's Workgroup on Indian Law Enforcement, a 
national workgroup that advocates for Indian law enforcement budgetary 
needs.
---------------------------------------------------------------------------
    \1\ Hope MacDonald-Lonetree, Chairperson, Public Safety Committee, 
Navajo Nation Council, Window Rock, AZ.
---------------------------------------------------------------------------
    As described in detail below, the public safety situation in Indian 
Country in general, and on the Navajo Nation in particular, is dire. We 
are happy to see that the President's proposed budget provides some 
additional funding to address this situation. However, we are concerned 
that the funding is still insufficient, once it trickles down to the 
Navajo Nation, to even begin to achieve an acceptable level of public 
safety on our vast reservation.

                          APPROPRIATIONS NEEDS

    Immediate and Urgent Navajo Nation Need ($3,133,280).--In the late 
1950's and early 1960's, the Navajo Nation constructed six detention 
facilities. The Tuba City detention facility suspended its operation in 
Winter 2004 due to crumbling ceilings and walls, exposed conduits and 
weakening foundations. In January of this year, the facility suffered 
an electrical fire and has subsequently been condemned. Other 
facilities in Chinle, Kayenta and Dilkon are in similar shape, 
overcrowded or non-existent. The Navajo Nation seeks funding for four 
modular bunkhouse buildings at a cost of $783,320 each, or a total cost 
of $3,133,280, to address an urgent need to provide adequate and decent 
inmate housing.
    Permanent Navajo Facilities Funding--Planning and Design ($1 
Million Per Facility for Seven Facilities).--The Navajo Nation is 
planning to construct seven permanent detention facilities in three 
phases. Phase I involves Tuba City, Chinle and Crownpoint; Phase II 
involves Shiprock and Dilkon; and Phase III involves Kayenta and Fort 
Defiance. The estimated cost for planning and design of each facility 
is approximately $1 million, for a total planning and design cost of 
all facilities of $7 million.

             PUBLIC SAFETY--A GOVERNMENT'S FIRST OBLIGATION

    The first thing that a people demand of their government is that it 
act to ensure the public safety. A crime-free and safe environment is 
essential to the vitality of any community. It is also critical to the 
development of an economic base, including attracting investment as 
well as retaining skilled workers who have the option of living where 
they please. In his 2005 State of the Union Address, President Bush 
proclaimed, ``Our third responsibility to future generations is to 
leave them an America that is safe from danger, and protected by peace. 
We will pass along to our children all the freedoms we enjoy--and chief 
among them is freedom from fear.'' We agree with the President, but 
because of the Federal Government's failure to provide adequate 
resources for public safety on the Navajo Reservation, too many Navajo 
families do not enjoy freedom from fear.
    The Navajo Nation government takes its responsibility to address 
the public safety needs of its citizenry very seriously. Unfortunately, 
we face great challenges that principally arise out of the poor 
economic conditions on the Navajo Nation. Some of these conditions can 
be directly traced to actions by the Federal Government in violation of 
its trust responsibility to the Navajo Nation. Many of them can be 
corrected if the Federal Government fully lived up to its trust 
responsibility, which includes funding a basic level of public safety 
services within our reservation boundaries.
    The Navajo Nation Public Safety Division is responsible for an area 
the size of West Virginia, with a resident population of approximately 
200,000 and, with tourism, a transient population of hundreds of 
thousands of non-Indians every year. The Navajo Nation polices this 
area with a small force of officers (see discussion below). In addition 
to responding to community incidents, the Navajo police force also 
provides protection to major dams and power plants, as well as hundreds 
of miles of interstate highways, high voltage transmission lines and 
gas pipelines. On 9/11, Navajo police officers moved quickly to secure 
as many of these high-value facilities as our limited resources would 
allow.

         THE HIGH INCIDENCE OF VIOLENT CRIME IN INDIAN COUNTRY

    Although violent crime has declined throughout the United States in 
recent years, tragically there is no evidence of a decline in Indian 
Country. According to DOJ statistics, Native men and women are still 
more than twice as likely to be a victim of a violent crime--whether 
you are talking about child abuse, sexual assault, homicide, or 
assault--than any other racial or ethnic group. Native youth are 
significantly more likely to be the victims of rapes, assaults, 
shootings, beatings and related crimes than their counterparts. Nearly 
a third of all American Indian and Alaska Native women will be the 
victim of sexual assault in their lifetime, the highest rate of any 
racial or ethnic group. It takes no imagination whatsoever to 
understand the scarring impact of these high crime rates not only on 
the victims, but also on their communities. In the Native way, when one 
person is harmed, everyone is harmed. Adequate funding for the 
provision of basic public safety services is an essential part of any 
strategy to reduce the Indian Country crime rate and provide the same 
safe and secure environment for Native peoples that is enjoyed by most 
other Americans.
    The U.S. Attorney's Office in Flagstaff estimates that violent 
crime on the Navajo reservation is six times higher than the national 
average. Increased crime includes alcohol and drug abuse, domestic 
violence and child sexual abuse.
    We cannot address domestic violence on Navajo because we cannot 
separate the abuser from the victim due to lack of detention 
facilities--and the abusers know that.
    We cannot protect our children from sexual predators. Just in one 
community, there were 100 reported cases of child sexual abuse in 1 
month. We cannot protect our families without somewhere to put the 
perpetrators threatening our communities.
    Navajo Nation averages one officer for every 4,000 people, compared 
to the national average of three officers per 1,000 people.
    Our officers often perform alone, without partners, and without 
radio communication for backup. In one incident I'd like to share, an 
officer responded to a call and found a man beating his wife and 
family. The wife did not want him arrested. She knew that he would not 
be detained long due to the lack of facilities, and feared that he 
would return even more violent. Because she did not want him arrested, 
she attacked the officer herself and tried to get his gun. The officer 
managed to get away, leaving the abuser with his family.
    In another sad incident, a young boy was arrested for attacking his 
brother. After a short hour in jail, he was let out. A week later, he 
was arrested for attacking his sibling. He was again released after a 
short time in jail. He was later arrested for stabbing his mother.
    Criminal incidents of recidivism such as that one are very high on 
the reservation all due to the factors I have described: criminals are 
allowed to return to their community without incarceration; we cannot 
incarcerate criminals without putting them at significant physical and 
health risk; in many instances, tribal court is just a revolving door 
for many criminals; and criminals and their victims have a complete 
disregard for our criminal justice system. Communities across the 
reservation and neighboring towns are at risk. Public safety officers 
are at risk.

           THE SHOCKING STATE OF INDIAN DETENTION FACILITIES

    This past September, the DOJ Office of Inspector General published 
its study of Indian detention facilities entitled ``Neither Safe Nor 
Secure--An Assessment of Indian Detention Facilities'' (Report No. 
2004-I-0056). The Inspector General's office was shocked by what it 
found. The Inspector General's report was only the latest in a series 
of reports and testimony about the decrepit condition of Indian Country 
detention facilities.
    In the late 1950's and early 1960's, the Navajo Nation constructed 
six detention facilities. Of our many urgent public safety needs, our 
highest priority is to replace or fully renovate these out-of-date and 
dilapidated facilities. For example, the Tuba City detention facility 
suspended its operation in Winter 2004 due to crumbling ceilings and 
walls, exposed conduits and weakening foundations. In January of this 
year, the facility caught fire due to an electrical short. Other 
facilities in Chinle and Shiprock are in roughly the same poor 
condition. Our remaining facilities at Kayenta, Crownpoint and Window 
Rock are only a few years away from joining Tuba City as facilities not 
fit to house animals, much less human beings. The BIA does not operate 
these facilities as the Navajo Nation, pursuant to the Indian Self 
Determination and Assistance Act, has contracted to carryout BIA law 
enforcement programs on the reservation. However, the same funding 
shortfalls that have led to problems in BIA-operated detention 
facilities have affected the Navajo Nation-operated detention 
facilities. Just to bring our detention facilities up to the national 
standard will require $140 million for Navajo.

 HISTORIC FUNDING LEVELS FOR INDIAN COUNTRY PUBLIC SAFETY PROGRAMS--A 
                             QUIET CRISIS?

    In July 2003, the U.S. Commission on Civil Rights released a 
detailed report on Federal funding and unmet needs in Indian Country 
entitled ``A Quiet Crisis''. The Commission engaged in a comprehensive 
analysis of Federal funding of Native programs across all departments, 
concluding that the Federal Government was not meeting its trust 
obligation to Indian tribes. Among the report's many findings, was that 
``. . . per capita federal spending on Native Americans was higher than 
spending for the general population between 1975 and 1980. Between 1980 
and 1985, however, Native American expenditures declined while those 
for the general population increased, until approximate equivalency. 
After 1985, per capita Native American and general population spending 
did not increase at the same rates, resulting in a wide gap.''
    The Commission found that ``[p]erhaps one of the most urgent needs 
in Indian Country is access to basic law enforcement . . .''. The 
Commission noted that the level of police coverage in Indian Country is 
much lower than for other areas of the United States.
    The Commission commented at length on the sporadic and minimal 
levels of funding for tribal courts, as well as on the substandard 
conditions at over-crowded tribal detention facilities, where funding 
also has been scarce. Despite some increases in funding between 1998-
2003, the Commission noted a downward trend ever since. The Commission 
concluded: ``Funding for criminal justice systems in Indian Country 
remains insufficient to meet the immediate needs of these communities, 
much less establish a framework for eventual self-sufficiency. The 
potential for even modest progress will be undone if funding cutbacks 
continue as they have in recent years.''

                         DEPARTMENT OF JUSTICE

    The President has proposed consolidating a number of Indian 
programs in the Justice budget into one flexible COPS/OJP Indian Grant 
program funded at $51.6 million. In fiscal year 2005, for example, 
Indian programs were funded as follows: Tribal courts, $7.9 million; 
Alcohol and substance abuse, $4.9 million; Indian Prison Grants, $5 
million; and Indian Alcohol & Crime Demonstration Program, $5.4 
million. Based on discussions with DOJ budget personnel, historical 
funding for Indian programs at DOJ is as follows:

                     FUNDING FOR DOJ INDIAN PROGRAMS
                        [In millions of dollars]
------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
2004 Actual.............................................            49.4
2005 Enacted............................................            47.4
2006 Request............................................            51.6
------------------------------------------------------------------------

    The increase from 2004 to 2006 is 4.5 percent or about 2.25 percent 
on a yearly basis. This increase barely keeps pace with inflation. The 
President has proposed to nearly eliminate the COPS program, as well as 
several other programs that tribes have accessed. It is not clear from 
the budget documents to what extent these cuts would impact Indian 
tribes.

  WORKING TOGETHER THE CRISIS IN INDIAN COUNTRY PUBLIC SAFETY CAN BE 
                               ADDRESSED

    Thank you for this opportunity to share the concerns of the Navajo 
Nation. The Navajo Nation looks forward to working closely with the 
committee to address public safety concerns in Indian Country. Together 
we can assure a better life for America's first peoples. Please do not 
hesitate to contact me if you have any questions or if we can be of any 
assistance.
                                 ______
                                 
              Prepared Statement of The Nature Conservancy

    Mr. Chairman, thank you for the opportunity to offer the 
recommendations of The Nature Conservancy on the fiscal year 2005 
budget for the National Oceanic and Atmospheric Administration (NOAA).
    The Conservancy recommends the following funding levels for 
programs with which we work closely and that make important and 
substantive contributions to effective and lasting conservation of 
coastal and marine biological diversity:

------------------------------------------------------------------------
                                                           Change From
                                       TNC  Recommends  Fiscal Year 2005
------------------------------------------------------------------------
NOAA Oceans and Coasts (NOS):
    Coastal Zone Management--Grants        $90,000,000      +$23,000,000
     to States......................
    Coastal Services Center.........        23,000,000          +328,000
    Pacific Services Center.........         2,300,000           +50,000
    Coastal Change Analysis.........           500,000           ( \1\ )
    Coastal Storms \2\..............         2,903,000          +403,000
    NERRS--Operation................        22,000,000        +5,600,000
    NERRS--Acquisition/Construction.        15,000,000        +6,000,000
    Coastal and Estuarine Land              60,000,000       +17,700,000
     Conservation Program...........
    National Marine Sanctuaries             51,000,000           ( \1\ )
     Program--Operation.............
    National Marine Sanctuaries             10,000,000          +144,000
     Program--Acquisition/
     Construction...................
    Coral Reef Conservation.........        30,500,000        +2,500,000
NOAA Fisheries (NMFS):
    Fisheries Habitat Restoration/          20,000,000        +1,000,000
     Community-based Restoration....
    Pacific Salmon Recovery Program         90,000,000           ( \1\ )
     \2\............................
    Cooperation with States (ESA             5,000,000        +4,100,000
     Sec. 6 grants to States).......
NOAA Satellites (NESDIS): Coral Reef           737,000           +37,000
 Monitoring \2\.....................
NOAA Research (OAR)--Global Change
 Program:
    Sector Applications Research             2,600,000           ( \2\ )
     Program (SARP) \2\.............
    Regional Integrated Science and          4,800,000         +800,000
     Assessment (RISA) \2\..........
------------------------------------------------------------------------
\1\ No change.
\2\ Requested level equal to the President's fiscal year 2006 budget
  request.

    The Nature Conservancy implements a growing number of site specific 
marine conservation programs in all U.S. coastal and Great Lakes States 
as well as in 28 other nations. A science-based, nonprofit 
organization, the Conservancy works in collaboration with local 
residents, partner organizations, government agencies and other 
stakeholders to identify, protect and manage significant habitats and 
natural systems. We employ pragmatic, non-confrontational strategies to 
reduce threats to biodiversity and ensure the long-term health and 
function of ecosystems.
    The Conservancy works to identify priorities for coastal and marine 
conservation through marine ecoregional plans. We identify present and 
likely future threats to marine biological diversity before attempting 
to identify appropriate strategies for conservation. At over a hundred 
marine sites around the world, the Nature Conservancy has used a 
variety of strategies for marine conservation including habitat 
restoration of important nursery and spawning areas, removal of 
invasive species, coastal land acquisition, private conservation of 
submerged lands, elimination of destructive practices, establishment of 
protected areas, management of extractive marine resources activities, 
and reduction of nutrient and toxic inputs to coastal systems. No 
single strategy works everywhere and at every site, multiple 
conservation approaches are needed. The selection of appropriate 
approaches depends on the biological, socioeconomic, and political 
circumstances at each site.
    The National Oceanic and Atmospheric Administration (NOAA) is an 
important partner to the Conservancy in many aspects of our approach to 
conservation:
  --We rely upon NOAA's data as well as their research and monitoring 
        of coastal and marine systems and have several shared 
        priorities on which we collaborate.
  --We rely on their programs that support site-based conservation--
        those that fund activities such as conservation and restoration 
        and those that provide for management of coastal and marine 
        systems.
  --Finally, their support for State and local implementation and 
        educational programs help to ensure that human capacity exists 
        to address environmental management issues at the scale at 
        which they are best managed.

                 RESEARCH, MONITORING, AND OBSERVATIONS

    Federal investments in marine science have decreased over the past 
decade and information that is collected is often not available to 
ocean and coastal resource managers grappling with the difficult task 
of balancing competing uses of marine resources. The highest priority 
in national ocean and coastal research programs should be the science 
and information needs of resource managers including national, State 
and local coastal agencies. There is an urgent need for better 
information that is readily available to guide the management decisions 
affecting nearshore ecosystems where habitat loss and intensive use now 
threaten the survival of living marine resources. The Conservancy has 
worked closely with Coastal Service Center and NOAA's Coral Reef 
program on a number of shared interests. It is our experience that both 
programs support research and monitoring that directly addresses the 
needs of managers on the ground.
    By supporting a wide variety of scientific work and partnering with 
a multitude of stakeholders, The Coastal Services Center (CSC) and the 
Pacific Services Center (PSC) have helped to forge new partnerships and 
increase our overall understanding of how the coasts work. For example, 
CSC has worked with the Conservancy to:
  --fund regional planning in the Pacific Northwest to identify 
        important habitats and design effective conservation strategies 
        for biological diversity; and
  --provide data, analysis, and mapping support for the Northwest 
        Florida Greenway Partnership--a partnership between the Air 
        Force, State of Florida, U.S. Fish and Wildlife Service, the 
        Conservancy, and many others to manage development encroaching 
        on the USAF training area and to protect vast forests and 
        natural areas in Northwest Florida.
    By maintaining a strong service orientation and working with 
partners like The Nature Conservancy, CSC and PSC consistently use 
Federal dollars for highest leverage results. The Coastal Storms 
program--which is led by CSC--is one of the first research programs to 
be fully integrated across NOAA and yields information that is valuable 
for understanding and predicting the impacts of coastal storms such as 
flooding and storm surges. The Coastal Change Analysis program looks at 
developing topographic/bathymetric maps of coastal areas and analyzing 
changes in coastal vegetation. This information will be invaluable for 
managing for disasters (such as tsunamis and hurricanes), regional and 
global climate changes, siting infrastructure development, 
understanding sediment budgets, and undertaking risk assessment and 
vulnerability assessments for coastal communities.
    NOAA's Coral Reef Program seeks to support research and mapping 
oriented toward the needs of coastal managers. The Conservancy strongly 
supports maintaining the coral program's base budget at $28 million. A 
portion of the increase recommended, $500,000 would allow the program 
to continue to map U.S. coral reefs--a task that, astonishingly, has 
not yet been completed. Funding requested for NOAA's Satellite Service 
also is important for improving our understanding and predictions of 
how corals will respond under stress. This information will help 
managers focus their efforts on areas where it will do the most good.
    Additionally, the Conservancy supports the work of NOAA's Global 
Change program, particularly the Sector Applications Research Program 
and Regional Integrated Science and Assessment. These programs support 
work to understand and project the impacts of climate variability and 
change on ecosystems at various spatial and temporal scales; develop 
local, national and international strategies for adapting to climate 
change related to the management of natural resources and the 
ecosystems and functions supported by these systems; and, to assess and 
apply existing, state-of-the-art climate science to improve the 
management and conservation of natural resources, both today and in the 
future.

                   SUPPORTING SITE-BASED CONSERVATION

    Marine and coastal ecosystems with the highest biodiversity value 
must be protected and restored. Marine ecosystems in our coastal zone 
face greater pressure from population growth and intensive land use 
than any other natural resource in the United States. These ecosystems 
provide significant benefits, protecting shorelines from erosion, 
serving as spawning and nursery grounds for commercial and recreational 
fisheries, cycling nutrients and removing pollutants. Yet, only small 
portions of the most productive ocean and coastal ecosystem have been 
protected in parks, preserves and sanctuaries.
    The Conservancy believes that government and the private sector 
should devote substantially more resources to the permanent 
preservation of ocean and coastal ecosystems with the greatest 
biodiversity value. Federal and State governments should be encouraged 
to use the best available science to identify sites where ecosystem 
protection and restoration will have the greatest potential to protect 
biodiversity--and should be provided the resources to take action.
    Specifically, the Conservancy would like to call to your attention 
two important programs. First, through NOAA's Coral Reef program and 
the U.S. Coral Reef Task Force, NOAA has undertaken a unique 
partnership with States and territories to develop locally based 
strategies to address threats to coral reefs at the local level. The 
administration has included the ``Local Action Strategies'' in the 
President's Ocean Action Plan and has requested funding for both NOAA 
($1.5 million) and the Department of Interior ($1.2 million) in the 
fiscal year 2006 budget request to implement these plans. The program 
requires a 1:1 match, which will likely be waived for projects in the 
territories. However, one of the purposes of this program is to raise 
the profile of these needs to attract other non-Federal resources. The 
Conservancy recommends that NOAA's portion of this funding be provided 
in addition to their base funding.
    The Nature Conservancy strongly supports the President's request 
for $90 million for the Pacific Salmon Recovery Fund which has gone to 
fund activities to protect and restore salmon habitat in western 
States. Generally, in most areas of the country, resources to undertake 
science and management to recover listed species are scarce. To address 
that need, the Conservancy requests $5 million for NMFS Protected 
Resources for Cooperation with the States to implement the Endangered 
Species Act. The $1 million provide each of the last 2 years has been 
extremely well received and additional funds would be similarly well-
spent.
    Finally, we would like to thank the committee for its support for 
the Community-based Restoration program. This program has an 
unparalleled record of getting funding to good projects on the ground, 
raising non-Federal contributions, and engaging communities in 
stewardship of their local resources.

                  PARTNERSHIPS, CAPACITY AND EDUCATION

    The U.S. Commission on Ocean Policy included numerous 
recommendations for improving the way government manages numerous 
competing uses and conservation of coastal and marine resources. They 
also recognized that a shift to the governance that they envisioned 
would require new partnerships, enhanced human capacity, and 
education--not only to inform the public, but also to train the next 
generation of resource managers. The Conservancy is committed to 
working in partnership with NOAA, States, local governments, and our 
fellow stakeholders to take conservation actions that provide the most 
impact for the limited dollars that are available. Funding the people 
and programs that make this work happen is no less important than the 
money that accomplishes a restoration project, creates a refuge, or 
mitigates a threat on the ground. Investing in that infrastructure is a 
critical component of effective coastal and ocean management. The 
Nature Conservancy has a Memorandum of Agreement with NOAA and we work 
closely with a number of their programs to identify shared priorities, 
so that scarce resources are used in the most efficient and 
complementary way possible. Programs that support partnerships include:
  --NOAA's Coral Reef Program.--$500,000 of the increase requested for 
        this program would support coral conservation in the Western 
        Pacific, including Palau and the Federated States of 
        Micronesia. Many of the management strategies being developed 
        in Palau will have direct benefit and application in U.S. 
        States in territories. For example, a coral reef protection 
        model developed in Palau is now being used in Florida Keys 
        National Marine Sanctuary.
  --Coastal Zone Management Act--Grants to States.--State CZM programs 
        are important to the management of coastal resources. The 
        Conservancy works closely with States to set joint priorities 
        for conservation and to protect and restore important coastal 
        areas.
    Thank you for this opportunity to inform the committee of the 
Conservancy's priorities in NOAA's fiscal year 2006 budget. I would be 
pleased to provide the committee with additional information on any of 
the Conservancy's activities described here or elsewhere.
                                 ______
                                 
  Prepared Statement of the American Society for Engineering Education

    On behalf of the American Society for Engineering Education 
Engineering Deans Council (EDC), I would like to express appreciation 
for the opportunity to present testimony for the record on fiscal year 
2006 appropriations for the National Science Foundation. I request that 
my testimony be made part of the record of the hearings on the fiscal 
year 2006 NSF budget. I want to begin by thanking the Chairman Richard 
Shelby and Ranking Minority Member Barbara Mikulski and all the other 
members of this subcommittee for their strong and continuing support 
for a robust budget for the National Science Foundation and for 
supporting the doubling of the NSF budget over 5 years. The NSF plays a 
vital role in supporting and advancing basic research in science and 
engineering and in developing the human capital needed to advance 
science and technology. Funding levels for the agency greatly impact 
engineering educators, as well as the Nation as a whole.
    The Engineering Deans Council thanks the Congress and the 
administration for recognizing the importance of the National Science 
Foundation by enacting the NSF Authorization Act of 2002, which 
provides for doubling the budget of the National Science Foundation 
over a 5 year period. This Act represents a major milestone for the NSF 
and for the scientific community, because it authorizes raising the 
budget of the NSF from its fiscal year 2002 level of approximately $4.8 
billion to the level of $9.8 billion in fiscal year 2007.
    For fiscal year 2006 the EDC advocates raising the NSF budget above 
the fiscal year 2005 request of $5.75 billion, to $6.1 billion. Even in 
tough budget years, this kind of investment is critical to developing 
the human and technical infrastructure that will continue to be the 
basis of economic growth and security for the country.
    The EDC encourages Congress to provide a strong appropriation for 
the NSF Math and Science Partnership program in fiscal year 2006, to 
improve teacher and student quality in science, technology, 
engineering, and mathematics education.
    The NSF occupies a unique position, with the ability to influence 
the economic strength of the Nation through research and innovation. 
Basic research funded through the NSF opens the doors for further 
discoveries that can advance medical care, improve communication 
equipment, and contribute to creating better civilian and military 
security systems. In the current climate of global economic competition 
and a heightened need to protect our citizens and infrastructure, 
strong support of the NSF serves a vital national interest.
    Science and technology have become a core component of economic 
strength and competitiveness. The NSF brings special expertise to the 
task of identifying and promoting the basic science and engineering 
research that underlies the United States' world economic leadership. 
Research sponsored by the NSF is vital to the Nation's investment 
across the scientific disciplines, and yields short term benefits and 
future advances for our national and homeland security, economic 
prosperity, quality of life, and educational growth. A growing chorus 
touts the importance of this kind of Federal engagement with science 
and technology, including Federal Reserve Chairman Alan Greenspan, the 
Council on Competitiveness, and Business Week, among many others. As 
the Council on Competitiveness stated in its December 2004 Innovate 
America report, ``America must champion and lead a new era of openness 
and competition--fueled by agility and constant motion, and enabled by 
lifelong learning, technological prowess and the infinite creativity of 
the innovation process itself.''
    NSF is the sole Federal agency charged with the important task of 
funding a broad range of research, spanning a wide variety of 
disciplines including basic science, engineering, mathematics, and 
computing. It provides necessary financial and intellectual support for 
scientists working on groundbreaking research, much of which will lead 
to innovations that could impact any number of emerging technologies. 
While NSF accounts for less than 4 percent of total Federal research 
and development spending, the agency supports almost half of the non-
medical basic research at American colleges and universities. In the 
field of engineering, NSF provides nearly one-third of all Federal 
support for basic research and has contributed to important 
developments such as computer-aided design, fiber optics, 
biotechnology, advanced composite materials, and magnetic resonance 
imaging (MRI). Renewing support for research and equipment will allow 
the Nation to take advantage of the opportunities presented by these 
new technologies, creating further economic opportunities and improving 
overall quality of life.
    NSF-sponsored research has led to many of the current developments 
in the area of homeland security. Recent NSF projects ranging from 
improving bomb detection to preventing an attack on our water supply 
help bolster our Nation's ability to prevent and respond to terrorist 
attacks.
    The benefits of a strong science investment are evident as the men 
and women of our armed forces respond to unprecedented threats to U.S. 
national security. Because of its superiority, much of it brought about 
by investments in S&T, this Nation's military is successfully waging 
war against terrorism. In this new environment, characterized by 
unforeseen and unpredictable threats, maintaining and enhancing 
technological superiority will become even more imperative.
    Across all fields, NSF support for research produces first-rate 
results on modest levels of investment. NSF-supported work is 
exceptionally well managed, and regularly attracts additional funding 
from outside sources. The agency has a diverse, responsive, results-
oriented staff, efficient business processes that take advantage of 
staff knowledge and technology resources, and state-of-the-art business 
tools and technology. NSF has exceptional business practices, as it 
demonstrated by earning three ``green lights'' on the scorecard that 
tracks the President's Management Agenda. Former OMB Director Mitchell 
Daniels said that the NSF deserves to be strengthened, noting, ``NSF is 
one of the true centers of excellence in the government where 95 
percent of the funds that taxpayers provide goes out on a competitive 
basis directly to researchers pursuing the frontiers of science at a 
very low overhead cost.'' NSF's management successes include doubling 
its budget between 1990 and 2000 while simultaneously decreasing the 
number of employees at the agency.
    Much of NSF's work looks beyond technological innovation by 
engaging new generations of students to aid in discoveries while 
gaining valuable skills that help prepare them for the cutting-edge 
research of the future. Many NSF grants require undergraduate students 
to be involved in performing federally funded research. The NSF's Math 
and Science Partnership Program extends improved science education into 
classrooms by uniting local school districts with the faculties of 
nearby colleges and universities.
    Engaging students in science from their pre-kindergarten education 
through college will help endow growing generations of Americans with 
the skills and interests necessary both to maintain U.S. leadership in 
economic, health, and military fields, as well as to function as 
citizens in an increasingly technology-driven society. A vibrant 
engineering education enterprise benefits civic, economic, and 
intellectual activity in the country. Engineering graduates learn to 
integrate scientific and engineering principles to develop products and 
processes that contribute to economic growth, advances in medical care, 
enhanced national security systems, and ecologically sound resource 
management. As a result, students who graduate with engineering degrees 
bring highly prized skills into a wide spectrum of sectors in the 
American workforce. Some conduct research that results in socially or 
economically valuable technological applications. Others produce and 
manage the technological innovations said to account for one-third to 
one-half of growth in the American economy. Still more bring advanced 
analytical abilities and knowledge of high technology to fields as 
diverse as health care, financial services, law, and government. Within 
all of these groups, the diversity of engineering graduates' 
backgrounds and viewpoints enables them to achieve the advances in 
innovation, productivity, and effectiveness that make them valuable 
contributors to the American workplace.
    In the Addendum immediately following my testimony, I have included 
additional documentation of the many ways NSF support is promoting 
engineering education and research at U.S. colleges and universities. 
This wealth of human capital owes much of its capacity to strategic NSF 
support for engineering education.
    A succession of predictable, sizable increases to the NSF budget 
will permit even greater development of human resources. In addition to 
the Math and Science Partnership initiative, NSF programs have become 
important vehicles for broadening the participation of under-
represented groups such as minorities and women in the fields of 
science, math, and engineering. Through programs like the Experimental 
Program to Stimulate Competitive Research (EPSCoR), NSF works to 
strengthen the research and development infrastructure of many rural 
and low-population States. Consistent growth in the NSF budget will 
permit the allocation and coordination of the activities needed to 
promote the broadest possible development of science, mathematics, and 
technology skills among all Americans.
    A $6.1 billion budget for NSF will enhance the value of the 
agency's other cross-cutting initiatives. New funding for 
multidisciplinary mathematics research will enhance the transfer of 
results and applications from mathematics and statistics research to 
science and engineering disciplines, expanding the cadre of researchers 
trained in both mathematics and science. Dynamic interdisciplinary work 
across engineering and science disciplines promises startling advances 
in, for example, medicine, manufacturing, and communications. The 
assurance of steady resources over extended periods of time for high-
risk, high-reward endeavors--such as research in nanotechnology, 
biocomplexity, and high-speed computing--would greatly enhance their 
prospects for success. As Harold Varmus, former Director of the 
National Institutes of Health and currently President of the Memorial 
Sloan-Kettering Cancer Center, has said, ``it is crucial that leaders 
of science agencies be able to anticipate several years of steady 
growth during periods of expansion. These agencies make multi-year 
awards and are responsible for training and research infrastructure, as 
well as the operational costs of doing research.'' In an increasingly 
interdependent research system, the NSF is uniquely situated to 
initiate and promote productive exchanges across the full range of 
scientific and engineering disciplines.
    Thank you for the opportunity to present this testimony to the 
subcommittee. The Engineering Deans Council would be pleased to respond 
to any questions from you and your staff.
    The Engineering Deans Council of the American Society for 
Engineering Education (ASEE) is the leadership organization of more 
than 300 deans of engineering in the United States. Founded in 1893, 
ASEE in a non-profit association dedicated to the improvement of 
engineering and engineering technology education.
   addendum.--examples of nsf-funded programs at engineering schools
    Quickly Identifying Deadly Viruses.--A portable pathogen detector 
is currently being developed by scientists at the Center for 
Biophotonics at the University of California-Davis to identify 
potentially deadly viruses and other biological agents in an unknown 
sample within 15 minutes. Originally developed at Lawrence Livermore 
National Laboratory with industry partners, the unit aims to help 
paramedics, emergency room specialists, police, and other first-
responders who may unknowingly be exposed to bioterrorism or other 
infectious agents.
    Developing Smaller, More Mobile, Power Sources.--Vanderbilt 
University robotics engineers are working to develop a power source for 
autonomous robots that stores significantly more energy per unit mass 
than batteries and weighs a fraction of the weight of a comparable 
battery/motor system. This power source can be used to run a ``lower 
extremity enhancer'' (also known as an ``exoskeleton'') to enable war 
fighters to easily carry 120 lbs over rough terrain for up to 24 hours. 
Vanderbilt researchers are developing the power system for this device, 
replacing batteries with rocket propellant in motors with pneumatic 
actuators. The Defense Advanced Research Projects Agency (DARPA) and 
the National Science Foundation (NSF) fund this research.
    Realistic Facial Recognition.--Driven by applications in human-
computer-interaction, security, entertainment and psychological 
research, facial analysis is a research topic in both the scientific 
community and industry. The Watson School of Engineering at Binghamton 
University is carrying out research on high definition face modeling 
representation. It is anticipated that this pilot research will lead to 
the development of a humanized system for recognizing human faces and 
their expressions (even emotions) as well as an automatic system for 
generating life-like facial expressions, which is crucial to the next 
generation of the human-computer interface.
    Removing Organic Waste from a Wide Variety of Water.--Researchers 
at the University of Arkansas are developing a device that uses a new 
technology to clean water more efficiently and effectively. Currently, 
the most common treatment of organic wastewater is biological--bacteria 
digest organic material through their respiration cycle. Efficient and 
effective biological wastewater treatment occurs under conditions that 
include oxygen. The micro-bubble oxygenation system they have developed 
operates at approximately one-tenth of the cost of more typical surface 
agitator aeration and one-fifth the cost of bubble aeration methods for 
cleaning water.
    Creating Earthquake-proof Structures.--As we all now know, 
earthquakes cause significant damage to structures and loss of lives. 
One way to prevent structural failures is to build them on strong, 
earthquake-resistant foundation systems. However, the current methods 
are inadequate to design such a foundation system. Researchers at Johns 
Hopkins University developed a new field-testing method to help design 
a pile foundation system for buildings and bridges that can withstand 
even the strongest earthquake and prevent the collapse of such 
structures. The research is funded by the National Science Foundation 
and the Federal Highway Administration.
    Securing the Nation's Power Grid.--The Nation's electric power grid 
was designed decades ago when computer networks were much less advanced 
and a single power company had complete control in each geographic 
region. As a result, the grid's communication infrastructure is 
inadequate, increasing the grid's vulnerability to massive accidental 
failures (such as in August 2003 on the East Coast, and in 1996 on the 
West Coast) and to cyber-attacks. Washington State University 
researchers are developing a new software system, called GridStat, 
which is more versatile than the grid's existing communication 
infrastructure and is able to handle the scaling-up of data that is 
imperative for the reliability and security of a deregulated power 
grid. GridStat has received funding from the Critical Infrastructure 
Protection program of the National Institute of Standards and 
Technology (NIST) and from the National Science Foundation (NSF).
                                 ______
                                 
  Prepared Statement of the Association of Small Business Development 
                            Centers (ASBDC)

    The Association of Small Business Development Centers (ASBDC) urges 
the Subcommittee on Commerce, Justice, Science and Related Agencies to 
provide an appropriation of $109 million for the Small Business 
Administration's Small Business Development Center (SBDC) grant program 
in the fiscal year 2006 appropriations bill.
    An appropriation of $109 million is the level of funding required 
to restore Federal resources lost to all State and regional SBDC 
networks in recent years. It is the funding level recommended by the 
Chair and Ranking Member of the Senate Small Business Committee in 
their Budget Views and Estimates letters; the funding level provided 
for in the Snowe-Kerry amendment to the Senate Budget Resolution; and 
the funding level recommended by every member of the Small Business 
Committee in their letter of April 22 to Chairman Shelby and Ranking 
Member Mikulski.
    Federal funding for the nationwide SBDC network today is lower than 
it was in fiscal year 2001, even without accounting for inflation or 
population growth. If one accounts for the effects of inflation, the 
loss of Federal SBDC resources is clear and dramatic. If the national 
SBDC network is funded at $88 million in fiscal year 2006, as proposed 
by the SBA, State SBDC networks will receive significantly less Federal 
funding (in inflation-adjusted dollars) than they received in fiscal 
year 2001. For example: Alabama will receive $192,010 less; Alaska will 
receive $61,827 less; Hawaii will receive $61,827 less; Iowa will 
receive $197,561 less; Kansas will receive $169,564 less; Kentucky will 
receive $176,740 less; Maryland will receive $214,554 less; Mississippi 
will receive $157,298 less; Missouri will receive $250,778 less; New 
Hampshire will receive $61,827 less; New Mexico will receive $109,916 
less; North Dakota will receive $61,827 less; Texas will receive 
$197,532 less; Vermont will receive $61,827 less; Washington will 
receive $79,029 less; West Virginia will receive $200,769 less; and 
Wisconsin will receive $233,910 less.
    For small-population States, such as Alaska, Hawaii, New Hampshire, 
North Dakota and Vermont, which receive the statutory minimum funding 
for their SBDCs, the decline in Federal funding has been even more 
severe. Small-population States have not had an increase in Federal 
SBDC funding since 1998. These States will receive $103,210 (17 
percent) less Federal funding for their SBDC networks in fiscal year 
2006 (in inflation-adjusted dollars) than they received in fiscal year 
1998, if the national SBDC network is funded at $88 million as proposed 
by the SBA.
    The 24 States (including Alabama, Iowa, Kansas, Kentucky, Maryland, 
Mississippi, Missouri, New Mexico, West Virginia and Wisconsin) that 
suffered Federal SBDC grant reductions after the 2000 Census, have been 
particularly hard-hit by declining Federal funding for the nationwide 
SBDC network. Although the populations of these States grew during the 
1990's, their populations did not grow as fast as the national average, 
and their share of Federal SBDC funding was reduced even further after 
the 2000 Census.
    I realize the tight budget constraints facing the Congress this 
year, and the SBDC network appreciates the small increase in Federal 
funding proposed in the President's budget (from $87.8 million in 
fiscal year 2005 to $88 million in fiscal year 2006). However, as 
custodians of the SBDC program, we feel it is our responsibility to let 
Congress know about the impact of declining Federal resources on SBDC 
services to the small business community, and to urge Congress to alter 
that trend if possible.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    As a result of declining Federal resources, SBDC services to small 
businesses owners and aspiring entrepreneurs have been curtailed, and 
the economic impact of SBDC assistance has been diminished. Last year, 
for example, due to the laying off of SBDC counselors and the closing 
of centers, the number of hours of business counseling provided by the 
nationwide SBDC network declined by 93,826 compared to the year 
before--despite growing demand for SBDC services.
    I urge you to consider that Federal funding for the SBDC program is 
an investment, not a loss for the Federal Treasury. Federal SBDC 
funding actually generates more revenues than it costs the taxpayer. In 
2003, the Federal SBDC appropriation of $88 million helped SBDC in-
depth clients generate an estimated $211.6 million in Federal revenue--
a return of $2.40 in new tax revenues for every Federal dollar spent on 
the SBDC program. And every dollar appropriated by the Federal 
Government for the SBDC national program--to assist small businesses to 
survive, grow and create jobs--leverages at least one additional, non-
Federal dollar in small business assistance. That is so because, to 
secure a Federal dollar, SBDCs must raise a non-Federal matching 
dollar.
    The SBDC network has a proven record of creating jobs and 
generating growth for America's small businesses.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

  --In the sluggish economy of 2003, as larger businesses downsized, 
        SBDC in-depth counseling for small businesses generated 56,258 
        new full time jobs and helped save an additional 59,489 jobs.
  --SBDC counseling clients create more jobs than average businesses. 
        Businesses that received in-depth SBDC counseling experienced 
        25 times the job growth of average businesses (10.2 percent 
        compared to 0.4 percent for U.S. businesses in general) in 
        2003.
  --SBDCs help small businesses increase sales. SBDC in-depth 
        counseling helped small businesses generate $5.9 billion in new 
        sales and save an additional $7 billion in sales in 2003.
  --SBDC clients' sales grow faster than other businesses' sales. 
        Established businesses that received in-depth SBDC counseling 
        experienced sales growth of 17 percent in 2003--compared to 2 
        percent for businesses in general.
  --SBDC clients create new businesses. More than 50 percent of all 
        pre-venture SBDC in-depth counseling clients start new 
        businesses. Between 2002 and 2003, SBDC in-depth counseling 
        clients started 15,157 new businesses.
  --SBDC clients make investments in our economy. SBDCs helped in-depth 
        clients obtain an estimated $2 billion in financing in 2003. 
        Every dollar spent on the SBDC network helped small businesses 
        to access $10.32 in new capital.
    With an appropriation of $109 million, the nationwide SBDC network 
would be able to help small businesses create an estimated 78,000 new 
jobs and $270 million in new Federal revenues.
    Nationwide, SBDCs provided management and technical assistance to 
more than 1.3 million small business owners and aspiring entrepreneurs 
last year. In 2004, SBDC services included face-to-face counseling of 
an hour or more for 279,905 clients; 1.5 million total hours of 
counseling; 27,193 group training sessions; and more than 2.1 million 
total hours of training for small businesses and aspiring 
entrepreneurs. In 2004, 39 percent of SBDC counseling clients 
nationwide were women, 27 percent were minorities and 9 percent were 
veterans. Forty-four percent of SBDC training clients were women, 24 
percent were minorities and 7 percent were veterans.
    America's SBDC network is a unique partnership that includes 
Congress, the SBA and the private sector, as well as the colleges, 
universities and State governments that receive SBDC grants and manage 
the SBDC network. Outstanding institutions of higher education such as 
the University of Alabama at Birmingham, the University of Alaska at 
Anchorage, the University of Hawaii at Hilo, Iowa State University, 
Fort Hays State University, the University of Kentucky, the University 
of Maryland, the University of Mississippi, the University of Missouri 
Extension, the University of New Hampshire, Santa Fe Community College, 
the University of North Dakota, Texas Tech University, the University 
of Houston, the University of Texas at San Antonio, the Dallas County 
Community College District, the Vermont State Colleges, Washington 
State University, and the University of Wisconsin Extension, to name a 
few, are hosts of the SBDC program. SBDC hosts also include State 
government agencies, such as the West Virginia Development Office. 
These agencies, like the institutions of higher learning that host SBDC 
programs, bring to the SBDCs resources, relationships and unparalleled 
leadership in their respective States.
    I appreciate the subcommittee's consideration of the ASBDC's views. 
The Federal investment in America's SBDC Network is a proven, cost-
effective way to grow the small business community, create jobs and 
develop the economy of the future. As such, the ASBDC urges the 
subcommittee to provide an increase in funding for the SBDC program in 
the fiscal year 2006 Commerce, Justice, Science and Related Agencies 
appropriations bill, sufficient to restore Federal resources lost to 
all State and regional SBDC networks in recent years as a result of 
declining Federal funding, inflation and Census-related grant 
reductions.
    The ASBDC also urges the subcommittee to reject non-SBDC related 
earmarks in the appropriation for SBDC grants. The SBDC appropriation 
has for several years included earmarks for SBDC related programs (for 
example, the SBDC defense transition program), and the ASBDC does not 
oppose this funding. However, in fiscal year 2004 and fiscal year 2005, 
the appropriations bills included earmarks for a program (the South 
Carolina Women's Business Center) that is unrelated to the SBDC 
program. The ASBDC opposes such non-SBDC related earmarks to the SBDC 
appropriation and urges the subcommittee to reject such earmarks.
                                 ______
                                 
    Prepared Statement of the National Council for Science and the 
                              Environment

                                SUMMARY

    The National Council for Science and the Environment (NCSE) urges 
Congress to appropriate $6.29 billion for the National Science 
Foundation (NSF) in fiscal year 2006, an increase of 15 percent over 
fiscal year 2005. NCSE supports a 15 percent increase for NSF in order 
to put the agency on the doubling track that Congress and the 
administration deemed necessary when they enacted the National Science 
Foundation Authorization Act of 2002 (Public Law 107-368). Under the 
fiscal year 2006 budget request, funding for NSF would decline by 
approximately 0.5 percent in constant dollars, after accounting for a 
proposed transfer of existing funding from another agency.
    The United States leads the world in scientific discovery and 
innovation, but other nations are on a fast track to pass the United 
States. The long-term prosperity of the Nation, our quality of life, as 
well as our national and homeland security require a strong and steady 
commitment of Federal resources to science and technology. 
Environmental R&D is a critical component of the overall Federal 
investment in research and development. Federal investments in 
environmental R&D must keep pace with the growing need to improve the 
scientific basis for environmental decisionmaking.
    As a result of the recent reorganization of the Senate 
Appropriations Committee, the Subcommittee on Commerce, Justice, and 
Science now has broader jurisdiction over environmental research and 
education. NCSE commends the subcommittee for its past bipartisan 
leadership in support of science to improve environmental 
decisionmaking. The subcommittee has an historic opportunity to address 
pressing national challenges by appropriating strong and growing 
funding for environmental research and education at NSF, NOAA, and 
other science agencies under the subcommittee's expanded jurisdiction.
    The National Council for Science and the Environment is dedicated 
to improving the scientific basis for environmental decisionmaking. We 
are supported by over 500 organizations, including universities, 
scientific societies, government associations, businesses and chambers 
of commerce, and environmental and other civic organizations. NCSE 
promotes science and its essential role in decisionmaking but does not 
take positions on environmental issues themselves.

                      NATIONAL SCIENCE FOUNDATION

    Implementing the NSF Doubling Act.--The National Council for 
Science and the Environment urges Congress to appropriate the funds 
necessary to implement the National Science Foundation Authorization 
Act of 2002, which was passed by Congress on November 15, 2002 and 
signed into law by the President on December 19, 2002 (Public Law 107-
368). A central goal of the Act is to double the budget of the National 
Science Foundation in 5 years. It authorizes a budget increase of 105 
percent for NSF, from $4.8 billion in fiscal year 2002 to $9.8 billion 
in fiscal year 2007. The NSF Authorization Act of 2002 is a major 
milestone for the NSF, the scientific community, and the Nation. It 
recognizes the critical connection between science and the long-term 
economic strength of the Nation. In order to achieve the outcomes 
envisioned by this bold legislation, Congress must appropriate the 
funding levels specified in the NSF Authorization Act.
    The National Council for Science and the Environment urges Congress 
to appropriate $6.29 billion for the National Science Foundation in 
fiscal year 2006, which would increase its budget by 15 percent over 
fiscal year 2005. NCSE supports a 15 percent increase for NSF in order 
to place the agency on the doubling track that Congress deemed 
necessary. Although the authorized funding level is $8.52 billion for 
fiscal year 2006, we understand that this may be beyond reach in the 
current fiscal environment.
    The President's budget request would increase funding for NSF by 
2.4 percent to $5.60 billion in fiscal year 2006. Of the $132 million 
in new funding, $48 million represents a transfer in existing funds 
from the U.S. Coast Guard for operation and maintenance of three polar 
icebreakers. After accounting for this transfer and adjusting for the 
effects of inflation, the NSF budget would decline by approximately 0.5 
percent.
    Expanding NSF's Environmental Research and Education Portfolio.--
The National Science Foundation plays a crucial role in supporting 
environmental R&D. Environmental research often requires knowledge and 
discoveries that reach across disciplinary and institutional 
boundaries. NSF recognizes this and encourages multidisciplinary 
environmental activities across the entire agency, as well as with 
other Federal agencies. NSF has established a ``virtual directorate'' 
for Environmental Research and Education (ERE). Through this virtual 
directorate, NSF coordinates the environmental research and education 
activities supported by all the directorates and programs.
    Although the National Science Board said environmental research and 
education should be one of NSF's ``highest priorities'' (see below), 
the growth of the ERE budget has lagged behind the growth of the 
overall NSF budget in recent years (Table 1). Given that the National 
Science Board has identified environmental research and education as 
one of the agency's highest priorities, funding for the ERE portfolio 
should grow at least as rapidly as the total NSF budget. In order to 
achieve the $1.6 billion funding level recommended by the National 
Science Board, NCSE supports rapid growth in NSF's Environmental 
Research and Education portfolio over the next several years.
    Biocomplexity in the Environment.--NCSE is especially supportive of 
NSF's priority area on Biocomplexity in the Environment, which is the 
flagship of the ERE portfolio. This priority area provides a focal 
point for investigators from different disciplines to work together to 
understand complex environmental systems, including the roles of humans 
in shaping these systems. The Biocomplexity in the Environment priority 
area includes research in microbial genome sequencing and ecology of 
infectious diseases, which improves our understanding of disease 
transmission and potential agents of bioterrorism.
    The Biocomplexity in the Environment priority area was reviewed by 
a Committee of Visitors in 2004. The Committee reported:

    ``This program is highly responsive to a great need for integrative 
research to answer non-linear complex questions. The outcomes are 
helpful to establishing sound science evidence for use in policy 
decisions, in making science relevant to the community, in including 
the human dimension in consideration of environmental change, and in 
integrating these areas of science knowledge and discovery with the 
need for environmental literacy among our students in formal education 
and the education of the general public.'''

    After several years of rapid growth, the fiscal year 2006 budget 
request would cut funding for Biocomplexity in the Environment by 15.5 
percent from $99.2 million in fiscal year 2005 to $83.8 million in 
fiscal year 2006. NCSE urges Congress to support increased funding for 
this critical priority area and its integration into NSF's permanent 
Environmental Research and Education portfolio.

                                    TABLE 1.--NATIONAL SCIENCE FOUNDATION: ENVIRONMENTAL RESEARCH AND EDUCATION (ERE)
                                                         [Budget authority dollars in millions]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                           Environmental R&D                                        Change 2004 to 2005
                                      ------------------------------------------------------------------------------------------------------------------
                                                                                                                     Fiscal Year
                                       Fiscal Year  Fiscal Year  Fiscal Year  Fiscal Year  Fiscal Year  Fiscal Year      2005        Amount     Percent
                                       1999 Actual  2000 Actual  2001 Actual  2002 Actual  2003 Actual   2004 Plan     Request
--------------------------------------------------------------------------------------------------------------------------------------------------------
Research and Related Activities
 (R&RA):
    Biological Sciences..............       $117.9       $125.3       $167.0       $174.5       $188.3       $214.1       $214.1  ...........  .........
    Comp. & Info. Sci. & Eng.........          4.0          7.0         15.1         15.1         22.1         23.9         23.9  ...........  .........
    Engineering......................         38.0         50.0         62.7         63.7         76.0         76.0         74.0        -$2.0       -2.6
    Geosciences......................        320.9        327.9        409.4        442.8        499.1        513.1        513.1  ...........  .........
    Math. and Physical Sci...........         44.3         48.3         56.4         56.4         46.5         32.2         32.2  ...........  .........
    Soc., Behav. & Econ. Sci.........         17.8         17.3         20.1         21.7         21.5         22.4         22.4  ...........  .........
    Office of Polar Programs.........         45.3         45.3         47.5         49.8         50.9         50.9         50.9  ...........  .........
    Integrative Activities \1\.......          7.0         50.0  ...........  ...........  ...........  ...........  ...........  ...........  .........
                                      ------------------------------------------------------------------------------------------------------------------
      Subtotal, R&RA.................        595.2        671.2        778.1        824.0        904.4        932.6        930.7         -1.9       -0.2
Edu. and Human Res. \2\..............  ...........  ...........  ...........  ...........          2.0          2.0          2.0  ...........  .........
                                      ------------------------------------------------------------------------------------------------------------------
      TOTAL ERE Budget...............        595.2        671.2        778.1        824.0        906.4        934.6        932.7         -1.9       -0.2
                                      ==================================================================================================================
      TOTAL NSF Budget...............      3,690.3      3,923.4      4,459.9      4,774.1      5,369.3      5,577.8      5,745.0        167.2        3.0
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ In Fiscal Year 1999 and Fiscal Year 2000, funding for the Biocomplexity and the Environment (BE) Priority Area was included in the Integrative
  Activities account. Beginning in Fiscal Year 2001, BE funds were distributed across the directorates.
\2\ Figures for environmental funding in the Education and Human Resources account are not available prior to Fiscal Year 2003. Although education is
  not generally scored as R&D, $2.0 million for Environmental Education was included in the Education and Human Resources Directorate in the ERE budget
  from Fiscal Year 2003 to 2005 (request).

Source: NSF. ERE funding levels for Fiscal Year 2005 Actual and Fiscal Year 2006 Request are unavailable as of May 2, 2005.

 NATIONAL SCIENCE BOARD REPORT ON ENVIRONMENTAL SCIENCE AND ENGINEERING

    The National Council for Science and the Environment encourages 
Congress to support full and effective implementation of the 2000 
National Science Board (NSB) report, Environmental Science and 
Engineering for the 21st Century: The Role of the National Science 
Foundation, within the context of a doubling of the budget for NSF.
    The National Science Board report sets out an ambitious set of 
recommendations that could dramatically improve the scientific basis 
for environmental decisionmaking. The first keystone recommendation is 
as follows:

    ``Environmental research, education, and scientific assessment 
should be one of NSF's highest priorities. The current environmental 
portfolio represents an expenditure of approximately $600 million per 
year. In view of the overwhelming importance of, and exciting 
opportunities for, progress in the environmental arena, and because 
existing resources are fully and appropriately utilized, new funding 
will be required. We recommend that support for environmental research, 
education, and scientific assessment at NSF be increased by an 
additional $1 billion, phased in over the next 5 years, to reach an 
annual expenditure of approximately $1.6 billion.''

    The report says that the National Science Board expects NSF to 
develop budget requests that are consistent with this recommendation. 
At first, growth in the Environmental Research and Education budget 
reflected its priority status: from fiscal year 1999 to 2001, the ERE 
account grew more rapidly than the overall NSF budget. However, the ERE 
growth rate has trailed the total NSF growth rate since that time 
(Table 1). From fiscal year 2002 to fiscal year 2005 (request), the ERE 
budget grew by only 13.1 percent while the total NSF budget grew by 
20.3 percent. The lagging growth of the Environmental Research and 
Education budget relative to the total NSF budget in recent years 
raises serious concerns about its status as one of NSF's ``highest 
priorities.''
    The National Science Board envisioned a 167 percent increase in 
funding for the ERE portfolio, from approximately $600 million to $1.6 
billion, within the context of a doubling of the total NSF budget over 
5 years. The doubling has not materialized. Nevertheless, if the 
Environmental Research and Education portfolio is one of NSF's highest 
priorities, then the growth rate of the ERE budget should not lag 
behind the growth rate of the total NSF budget.
    The National Science Foundation has taken many steps to implement 
the recommendations of the NSB. Full implementation of the NSB report 
will require strong support from Congress and a significant increase in 
funding for NSF's portfolio of environmental science, engineering and 
education.
                                 ______
                                 
     Prepared Statement of the American Society of Plant Biologists

    Thank you, Mr. Chairman for the opportunity to present this 
testimony on behalf of the American Society of Plant Biologists (ASPB). 
My name is Roger Hangarter and I am President of ASPB and professor of 
biology at Indiana University. ASPB joins with other members of the 
Coalition for National Science Funding in recommending at least $6 
billion in fiscal year 2006 appropriations for the National Science 
Foundation.
    This level of funding will enable NSF to continue to play its key 
role in establishing a leadership position for the United States in 
science and technology. U.S. leadership in a wide range of science 
disciplines is needed to compete and survive in the increasingly 
challenging global market.
    Support for NSF contributes to new job-creating discoveries while 
at the same time, training the highly skilled work force essential for 
business and industry in the Nation. Despite the attractions of lower 
wages and benefits costs to companies considering moving jobs offshore, 
it is the highly skilled workforce in the United States that plays a 
major role in contributing to job starts and business expansions here 
at home. The business magazine, Forbes, looked at the best places of 
the 150 largest cites/regions to start a business in the United States 
in its May 24, 2004 issue. The business magazine turned to an economic 
and financial research firm, Economy.com, to conduct the analysis. One 
of the major criteria mentioned in the survey assessing the best places 
for businesses was an educated workforce. ``To assess the 
qualifications of the work force, we took into account the 
concentration of college graduates and Ph.D.s in an area,'' Forbes 
said. NSF, with its grant support of university-based research and 
education plays a key role in the training of future and current 
college graduates and Ph.D.s in the United States.
    Other criteria in the business survey index included weighing of 
business expenses, job and income growth, migration patterns, crime 
rates. Culture and leisure were also taken into account.
    At the top of its list was Madison, Wisconsin, largely because of 
research and education at the University of Wisconsin and its educated 
workforce. In Madison, 41 percent of the population has a college 
degree--almost twice the national average. That helps create a tight 
labor market where unemployment is the lowest of any of the 150 largest 
metro areas, the article noted.
    ``Brains power the Madison economy: The university, which employs 
17,000 souls but has helped create 70,000 jobs in Madison, generates 
$4.7 billion a year in direct and indirect output, reports NorthStar 
Economics,'' Forbes noted. ``Outsourcing may be all the rage these 
days, but many companies are still looking homeward--with good reason: 
low business costs and an educated workforce.'' Contributions of NSF 
and other federally supported research to universities and local 
economies are also found in many cities across the Nation in addition 
to Madison.
    Huntsville, Alabama captured a top ten position in the business-
appeal rankings. The Forbes article reported, ``What Huntsville lacks 
in size, it makes up for in brains: 31 percent of the population has a 
college degree (U.S. average: 24 percent).'' Huntsville also benefits 
from government investment by the Department of Defense, NASA and large 
private employers, who make use of its educated workforce.
    Lexington, Kentucky, among the top ten cities in the survey to 
start a business or career, benefits from large employers University of 
Kentucky, Toyota Motor, Lexmark International and other employers. In 
addition to educated workers, low business costs also contribute to 
Lexington's appeal to employers, according to Forbes.
    Baltimore, Maryland with its base of major university and other 
employers was in the top half of the Forbes listing of best cities to 
start a business or career. Kansas City, Missouri was in the top half 
of the survey listing, aided by contributions of NSF-supported 
institutions in the State to its educated workforce.
    An educated work force including graduates of universities in New 
Mexico contribute to Albuquerque being ranked high at 12 in the 
business appeal index.
    Austin, Texas, with the University of Texas, was selected as one of 
the three most appealing cities for new business by Forbes and its 
research firm that compiled the business index. Also highly ranked in 
Texas for appealing to business are Houston, Fort Worth, Dallas and San 
Antonio.
    States that did not have one of the 150 largest cities were not 
included in the business index rankings. However, NSF-sponsored 
research and education at universities of less populated States and in 
smaller cities make significant contributions to training of an 
educated workforce and related local business development.
    New technologies resulting from basic research findings supported 
by NSF help create new industries and many new jobs. Often new 
companies spring up as a result of NSF-sponsored research.
    Strong contributions by universities conducting NSF-supported 
research to local economies also lead to a stronger national economy. 
With the higher labor, housing, transportation, commercial and 
industrial property and related costs found in the United States 
compared to a number of world nation competitors, Federal investment in 
science and education through support of NSF helps keep the Nation's 
businesses afloat in a global sea of keen competition.
    NSF support for basic plant research contributes to the local 
economies nationwide, including rural areas, while helping to secure 
the food supply of all Americans. As the first step of every food 
chain, plants and research on plants plays an essential role in meeting 
the nutritional needs of people here and abroad. The NSF Directorate 
for Biological Sciences sponsors examination of basic research 
questions on plants and other organisms. A number of plant research 
discoveries were cited by NSF among its most significant advances in 
science over the first 50 years of the agency's existence.
    NSF supports world leading plant genomic research as part of the 
Plant Genome Research Program. The National Plant Genome Initiative 
Progress Report was published January 2005 by the National Science and 
Technology Council Committee on Science Interagency Working Group on 
Plant Genomes. The report noted, ``Plant genome research holds enormous 
promise for solving global problems in agriculture, health, energy and 
environmental protection. Much still remains to realize this potential 
and the U.S. scientific community is clearly working toward that 
goal.''
    The report cited the importance of research on economically 
important crops and on the model plant, Arabidopsis thaliana--a plant 
with a small and simple genome. Knowledge gained from the Arabidopsis 
genome facilitates understanding of other economically important plants 
through use of comparative genomics.
    Advances in plant genome and other basic plant research combined 
with modern biotechnology will lead to superior food and energy crops, 
more nutritious foods, more environmentally benign plant production 
practices and new plant-produced lifesaving medicines. These advances 
will significantly benefit America's farmers and consumers.
    U.S. leadership in science and technology plays an important role 
in the Nation's war on terrorism at home and abroad. Security related 
enhancements in airports, passenger plane cockpits, landmine sensing 
plants, modern armored vehicles, night-vision equipment and other 
critical areas represent applications of technology that can be traced 
back to basic science.
    ASPB, founded in 1924, represents nearly 6,000 plant scientists. 
The largest segment of ASPB members conducts research at universities 
in each of the 50 States. ASPB membership also includes scientists at 
government and commercial laboratories. We appreciate the strong 
efforts of the committee in support of NSF. Please let us know if we 
can provide any further information.
                                 ______
                                 
              Prepared Statement of The Ocean Conservancy

    The Ocean Conservancy on behalf of the American Society for the 
Prevention of Cruelty to Animals, Cetacean Society International, 
Defenders of Wildlife, Humane Society of the United States, 
International Fund for Animal Welfare, International Wildlife 
Coalition, National Environmental Trust, Natural Resources Defense 
Council, The Marine Mammal Center, The Whale and Dolphin Conservation 
Society is pleased to share our views regarding the marine conservation 
programs in the budgets of the National Oceanic and Atmospheric 
Administration (NOAA), the Department of State's Bureau of Oceans and 
International Environmental and Scientific Affairs and the Marine 
Mammal Commission and requests that this statement be included in the 
official record for the fiscal year 2006 Science, State, Justice, 
Commerce, and Related Agencies bill.
    We cannot overstate the importance of this subcommittee in 
advancing marine conservation and appreciate the funding provided in 
fiscal year 2005. We are deeply troubled by the severe cuts for the 
National Marine Fisheries Service proposed in the administration's 
fiscal year 2006 budget request. If enacted, these cuts will cripple 
the agency's ability to properly manage our oceans and conserve 
protected and highly vulnerable marine species such as sea turtles and 
marine mammals. We recognize the constraints this subcommittee faces, 
but with the recognized threats that these species face, as highlighted 
in the U.S. Commission on Ocean Policy's Report, we urge you to make 
ocean conservation a top priority by restoring reduced appropriations 
to fiscal year 2005 levels.

            NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION

National Marine Fisheries Service
            Marine Mammal Protection
    A lack of adequate resources has severely hampered NMFS's ability 
to effectively implement the Marine Mammal Protection Act (MMPA). We 
are deeply disappointed that the President's budget cut funding for 
this line item in fiscal year 2006 from $81.504 million to $38.023 
million and strongly urge the subcommittee to restore funding for this 
program to the fiscal year 2005 levels. This will allow the National 
Marine Fisheries Services (NMFS) to fund top priority studies 
identified by the take reduction teams; design and implement take 
reduction plans; conduct research on population trends; undertake 
research and status reviews on threatened and endangered whales; 
further investigate the stock structure and abundance of Atlantic 
bottlenose dolphins; conduct critical research on health and respond to 
marine mammal die-offs; undertake research and implement effective 
mitigation measures related to acoustic impacts on marine mammals; and 
carry out monitoring, education, and enforcement programs.

            Protected Species Research and Management-Protected 
                    Resources Stock Assessment Improvement Plans
    The MMPA and ESA require NMFS to regularly evaluate the status of 
more than 200 stocks of marine mammals and other listed species. 
Accurate and precise biological information is necessary to carry out 
effective conservation programs, promote recovery, evaluate listing 
status, and authorize scientifically defensible take reduction plans 
and incidental take permits. Unfortunately, over 200 marine mammal 
stocks and all U.S. sea turtle populations lack the necessary data 
required under MMPA and the ESA. In order to address this problem, we 
urge the subcommittee to consider providing $15 million in fiscal year 
2006, an increase of $13 million from the President's request.

            Endangered Species
    NMFS bears significant responsibility for administering the 
Endangered Species Act with respect to listed marine and anadromous 
species such as North Atlantic right whales, Steller sea lions, and all 
species of sea turtles found in U.S. waters. With only approximately 
300 North Atlantic right whales still alive, funding is needed to 
improve our understanding of right whales, to develop fishing 
technologies to reduce entanglements, and to undertake studies and 
measures to reduce ship strikes. The President's request of $5.8 
million is woefully inadequate for endangered species as a whole and is 
significantly less than what was provided in fiscal year 2005 for Right 
Whale Conservation. We thank the subcommittee for its past support and 
request continued funding of $15 million in fiscal year 2006 for North 
Atlantic Right Whale conservation efforts. In addition, we request that 
the subcommittee provide $10 million for implementation of the ESA.

            Sea Turtles
    The apparent decline of the southern Florida loggerhead turtle 
nesting population and continuing Pacific sea turtle declines 
underscore the need to restore Marine Turtle funding to fiscal year 
2005 levels. The President's request of $9.7 million for marine turtles 
is insufficient. We respectfully request that the subcommittee restore 
funding to fiscal year 2005 levels and provide $14.93 million for sea 
turtle conservation efforts in fiscal year 2006. In particular, we 
support restoration of $1.858 million for Sea Turtle Supplemental 
Funding and $.955 million for the National Fish and Wildlife Foundation 
Species Management program, both of which have been completely 
eliminated in fiscal year 2006. These programs leverage valuable funds 
for sea turtle conservation and foster important private and government 
partnerships.

            Enforcement and Observers/Training
    In addition to better data collection, enforcement of our marine 
mammal and sea turtle protection regulations is critical. 
Unfortunately, lack of funding has hampered NMFS's ability to keep pace 
with the need. We urge $75 million in fiscal year 2006, $20.8 million 
above the administration's request, to address this shortfall so that 
more officers can be hired to better enforce our marine conservation 
laws. Along with stock assessments, reliable, objective information 
must be collected about how many marine mammals and sea turtles are 
being caught, as bycatch is crucial to the conservation of these 
vulnerable species. Observers are a key means of collecting such 
information, yet the coverage for many of the fisheries is less than 5 
percent--completely inadequate to obtain any statistically reliable 
information. We recommend the subcommittee provide an additional $32.5 
million for observers in fiscal year 2006 over the administration 
request of $25.992 million.
    Northeast Observers.--We urge the Appropriations Subcommittee to 
authorize $20 million to support and expand the efforts of the 
Northeast Fisheries Observer Program in fiscal year 2006. These funds 
are critically needed to increase existing levels of observer coverage 
in several Northeast fisheries, to expand the observer-training 
program, and to improve the data management system currently in place. 
This increase of $15.5 million over the administration's request is 
needed to: (1) provide sufficient levels of observer coverage to 
evaluate selective fishing practices, especially through Special Access 
Programs, B-day programs, and real-world testing of innovative gear 
technologies; (2) quantify actual bycatch rates in various regional 
fisheries; (3) assure that total catch (both landings and discards) are 
accurately quantified; (4) develop standardized reporting methodology 
to help assure that fishery managers receive the data collected by at-
sea observers in a timely manner.
    Atlantic Coast Observers.--We believe that a minimum of 20 percent 
observer coverage should be required throughout the Atlantic, with 100 
percent coverage for any further gear research. Monitoring programs in 
the Atlantic longline fleet exemplify low levels of observer coverage. 
Since 2001, Atlantic longline observer coverage has not met even the 5 
percent level required by NMFS in order to comply with the ESA. As a 
result, NMFS estimates that several hundred endangered sea turtles were 
captured in excess of authorized levels before the agency took action 
to require further protections. As NMFS implements various marine 
mammal take reduction plans and its Comprehensive Strategy for Sea 
Turtle Conservation in the Atlantic, observer coverage in a variety of 
fisheries will be a key element. We respectfully request that the 
subcommittee fund Atlantic Coast Observers at $13.348 million in fiscal 
year 2006, $10 million above the administration request.
    Hawaii Longline Observers.--We strongly support $3.979 million in 
funding for Hawaii pelagic longline fisheries observers. High 
interaction rates with endangered sea turtles have resulted in partial 
closures in the fishery in recent years to avoid jeopardizing the 
continued existence of these species. In 2004, fishermen returned to 
the closed areas with gear and bait modifications expected to reduce 
the number and severity of sea turtle interactions. Rates of capture, 
however, have been higher than previously estimated, demonstrating the 
need for continued high levels of observer coverage to determine the 
effectiveness of these modifications in each fishery. We respectfully 
request that the subcommittee fund Hawaii Longline Observers at $8.979 
million in fiscal year 2006, $5 million above the administration 
request.
    West Coast Observers.--We respectfully requests that the 
subcommittee fund West coast observers at $7 million in fiscal year 
2006, $2 million above the administration request.

            National Environmental Policy Act (NEPA) Implementation
    We support the administration's $8.0 million request for 
implementing NEPA. This funding is critical, as NMFS is required by law 
to consider and document potential environmental impacts of agency 
actions, ranging from complex rulemakings to controversial research 
permits. Of these funds, we urge the committee to dedicate $2 million 
to ensure robust NEPA analyses for marine mammal permitting.

                          DEPARTMENT OF STATE

Bureau of Oceans and International Environmental and Scientific Affairs
            International Fisheries Commission Account
    We request $300,000 for the State Department to support the Inter-
American Convention for the Protection and Conservation of Sea Turtles 
and the Memorandum of Understanding on the Conservation and Management 
of Marine Turtles and their Habitats of the Indian Ocean and South East 
Asia. Continued U.S. leadership and support will ensure that the 
initial excellent work of these conventions continues. In the aftermath 
of the Asian tsunami, the Indian Ocean agreement has become 
increasingly important for organizing and generating restoration and 
conservation initiatives in the region.

                        MARINE MAMMAL COMMISSION

    We request that the subcommittee support the Marine Mammal 
Commission's base program at $4.25 million in fiscal year 2006. The 
Marine Mammal Commission plays a vital oversight role to Federal 
agencies charged with implementing the Marine Mammal Protection Act. 
The Commission continues to use wisely the funds that have been 
appropriated, funding innovative research and providing seed money for 
non-governmental researchers, convening workshops on killer whale 
predation on marine mammals, commissioning population viability 
analyses of threatened and endangered marine mammals, hosting a 
workshop and preparing a report identifying research needs in marine 
mammal conservation and science, and convening a stakeholder process to 
evaluate the research and mitigation strategies related to the impacts 
of sound on marine mammals. The Commission's scientific credibility, 
research, and advice are critical components to our Nation's ability to 
conserve marine mammals and evaluate emerging threats to these animals.
    These programs and issues are of the utmost importance to the 
stewardship of the Nation's living marine resources. We greatly 
appreciate your support for these programs in the past and look forward 
to continued, responsible funding for these programs in fiscal year 
2006. Thank you for considering our requests.




       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page
American:
    Astronomical Society, Prepared Statement of the..............   226
    Geological Institute, Prepared Statement of the..............   219
    Psychological Society, Prepared Statement of the.............   231
    Public Power Association, Prepared Statement of the..........   221
    Society:
        for:
            Engineering Education, Prepared Statement of the.....   250
            Microbiology, Prepared Statement of the..............   215
        of Plant Biologists, Prepared Statement of the...........   259
    Sportfishing Association, Prepared Statement of the..........   239
Association of:
    National Estuary Programs, Joint Prepared Statement of the...   218
    Small Business Development Centers (ASBDC), Prepared 
      Statement of the...........................................   253

Bement, Dr. Arden L., Jr., Director, National Science Foundation.    15
    Prepared Statement of........................................    17
Biological Science Curriculum Study (BSCS), Joint Prepared 
  Statement of the...............................................   236
Boesz, Dr. Christine, Inspector General, National Science 
  Foundation, Prepared Statement of..............................    21
Bond, Senator Christopher S., U.S. Senator From Missouri:
    Opening Statement of.........................................     1
    Prepared Statement of........................................     5
    Statement of.................................................    30
Byrd, Senator Robert C., U.S. Senator From West Virginia, 
  Questions Submitted by.........................................   206

Coastal States Organization, Joint Prepared Statement of the.....   218
Cochran, Senator Thad, U.S. Senator From Mississippi, Prepared 
  Statement of...................................................    66

Domenici, Senator Pete V., U.S. Senator From New Mexico, 
  Questions Submitted by........................................93, 169
Dorgan, Senator Byron L., U.S. Senator From North Dakota, 
  Questions Submitted by.........................................    98

Ecological Society of America, Prepared Statement of the.........   234
Education Development Center, Inc., Joint Prepared Statement of 
  the............................................................   236
Exploratorium, San Francisco, Joint Prepared Statement of the....   236

Gonzales, Hon. Alberto R., Attorney General, Office of the 
  Attorney General, Department of Justice........................   101
    Opening Statement of.........................................   108
    Prepared Statement of........................................   110
    Questions Submitted to.......................................   169
Great Lakes Indian Fish and Wildlife Commission, Prepared 
  Statement of the...............................................   228
Griffin, Michael D., Administrator, National Aeronautics and 
  Space Administration...........................................    41
    Prepared Statement of........................................    49
    Summary Statement of.........................................    46
Gutierrez, Hon. Carlos M., Secretary of Commerce, Office of the 
  Secretary, Department of Commerce..............................   175
    Prepared Statement of........................................   182

Harkin, Senator Tom, U.S. Senator From Iowa, Opening Statement of   107
Hutchison, Senator Kay Bailey, U.S. Senator From Texas, Statement 
  of.............................................................    45

Inouye, Senator Daniel K., U.S. Senator From Hawaii, Questions 
  Submitted by...................................................   209
International Association of Fish and Wildlife Agencies, Joint 
  Prepared Statement of the......................................   218

Johnson, Senator Tim, U.S. Senator From South Dakota, Questions 
  Submitted by...................................................   211

Land Trust Alliance, Joint Prepared Statement of the.............   218
Leahy, Senator Patrick J., U.S. Senator From Vermont:
    Opening Statement of.........................................   105
    Questions Submitted by.....................................170, 173

Marburger, Dr. John H., III, Director and Science Advisor to the 
  President, Office of Science and Technology Policy, Executive 
  Office of the 
  President......................................................     1
    Prepared Statement of........................................     9
    Statement of.................................................     6
Marine Fish Conservation Network, Prepared Statement of the......   241
Mikulski, Senator Barbara A., U.S. Senator From Maryland:
    Opening Statement of.........................................   103
    Prepared Statement of........................................    31
    Statement of.................................................    43
Mueller, Hon. Robert S., III, Director, Federal Bureau of 
  Investigation..................................................   129
    Prepared Statement of........................................   132
    Questions Submitted to.......................................   173
Murray, Senator Patty, U.S. Senator From Washington:
    Opening Statement of.........................................   107
    Questions Submitted by.......................................    95

National:
    Council for Science and the Environment, Prepared Statement 
      of the.....................................................   256
    Estuarine Research Reserve Association, Joint Prepared 
      Statement of the...........................................   218
    Fish and Wildlife Foundation, Prepared Statement of the......   223
    Science:
        Education Leadership Association, Joint Prepared 
          Statement of the.......................................   236
        Teachers Association, Joint Prepared Statement of the....   236
Navajo Nation, Prepared Statement of the.........................   244

Oceana, Prepared Statement of....................................   221

Science, Technology, Engineering & Mathematics (STEM) Education 
  Coalition, Prepared Statement of the...........................   240
Shelby, Senator Richard C., U.S. Senator From Alabama:
    Opening Statement of.........................................    41
    Questions Submitted by......................................76, 205

TERC, Joint Prepared Statement of................................   236
The:
    Concord Consortium, Joint Prepared Statement of..............   236
    Conservation Fund, Joint Prepared Statement of...............   218
    Nature Conservancy:
        Joint Prepared Statement of..............................   218
        Prepared Statement of....................................   247
    Ocean Conservancy, Prepared Statement of.....................   261
Truscott, Carl J., Director, Bureau of Alcohol, Tobacco, Firearms 
  and Explosives, Department of Justice, Prepared Statement of...   117
Trust for Public Land, Joint Prepared Statement of the...........   218
Washington, Dr. Warren M., Chairman, National Science Board, 
  National Science Foundation....................................    25
    Prepared Statement of........................................    26


                             SUBJECT INDEX

                              ----------                              

                         DEPARTMENT OF COMMERCE

                        Office of the Secretary

                                                                   Page

Additional Committee Questions...................................   205
Base Realignment and Closure (BRAC)..............................   211
Boulder Fence....................................................   205
Budget Request...................................................   175
China as a Market Economy........................................   187
Coastal and Estuarine Land Conservation Program..................   193
Collaboration With U.S. Trade Representative.....................   208
Continued Dumping and Subsidy Offset Act.........................   207
Economic Outlook.................................................   190
Emergency Steel Loan Guarantee Program (ESLGP)...................   206
Export Administration Act........................................   187
Hollings Manufacturing Extension Partnership: ``Small and Rural 
  States'' Pilot Program.........................................   206
Intellectual Property:
    And International Trade......................................   199
    Violations...................................................   201
International:
    Piracy.......................................................   199
    Standards....................................................   204
Interoperable Communications.....................................   196
National:
    Institute of Standards and Technology Funding................   188
    Oceanic and Atmospheric Administration Activities and Funding   178
NOAA Pacific Region Center.......................................   209
Ocean Commission Recommendation..................................   192
Oceans Policy Report Recommendations.............................   189
Office of China Compliance.......................................   200
Patent Backlogs..................................................   189
Reorganization of International Trade Administration.............   187
Spectrum Management............................................197, 198
Standards and:
    International Trade..........................................   195
    Interoperability.............................................   203
Status of National Intellectual Property Law Enforcement 
  Coordination Council and Strategy Targeting Organized Piracy 
  Initiatives....................................................   194
Strengthening America's Communities Initiative............186, 202, 212
Trade Assistance for New and Small Companies.....................   191
U.S. Trade.......................................................   197
WTO Negotiation Strategy.........................................   207

                         DEPARTMENT OF JUSTICE

                     Office of the Attorney General

Additional Committee Questions...................................   169
Administrative Subpoenas.........................................   163
Arson............................................................   121
Background.......................................................   156
Byrne Grants...................................................149, 160
Cases Referred for Local Prosecution.............................   157
Convicted Sex Offenders..........................................   159
Court Security and Detention Resources...........................   109
Crime Victims Fund--Why Did the Money Pile Up and What is a 
  Better Use for the Money?......................................   142
Crimes Against Women and Children and Obscenity..................   114
Criminal Diversion of Alcohol and Tobacco........................   122
DNA Initiative...................................................   149
Drug:
    Cartels......................................................   158
    Enforcement..................................................   112
    Fighting Strategies..........................................   108
Efforts That Were Made by the Bureau of Justice Assistance to 
  Measure the Performance Results of the Byrne Justice Assistance 
  Grant Program................................................150, 152
Explosives.......................................................   119
    Fee..........................................................   138
Federal Bureau of Investigation Intelligence and Counterterrorism 
  Pro- 
  grams..........................................................   108
Fight Violent Crimes.............................................   109
Firearms.........................................................   117
Fiscal Year 2006:
    Budget Request...............................................   101
    President's Budget Request for ATF...........................   128
HIDTA Program....................................................   152
Identity Theft...................................................   137
Immigration Background Checks....................................   169
Industry Operations: ATF's Dual Role.............................   123
Innocence Protection Act.........................................   145
Intelligence/Technology..........................................   123
International....................................................   125
Judicial:
    Protection, Detention and Incarceration......................   115
    Security.....................................................   164
Justice Assistance Grants........................................   150
Juvenile Justice Programs........................................   162
Litigation.......................................................   113
Management.......................................................   128
    And Stewardship Improvements.................................   116
Matters Received, Cases Filed and Declinations by United States 
  Attorneys Offices..............................................   156
National:
    Register for Sexual Predators................................   140
    Registry Website for Sex Offenders...........................   138
    Sex Offender Registry........................................   146
Needs of the Criminal Justice System.............................   158
Northern Border..................................................   154
Partnerships.....................................................   126
Preventing and Combating Terrorism, Including Counterintelligence   110
Prison Construction Rescissions..................................   140
Protect Women and Children.......................................   109
Report of the Department of Justice Regarding Immigration Cases 
  in the Northern Border Districts...............................   156
Sexual Predators.................................................   166
Special Programs.................................................   124
State and Local:
    Assistance...................................................   114
    Law Enforcement Funding......................................   139
Status of the Study to Expand the Southwest Border Prosecution 
  Initiative Program to the Northern Border, and Comment on the 
  Expansion of the Program.......................................   155
Strategic Plan/Jurisdictions/Vision..............................   127
USA PATRIOT Act................................................146, 168
Victims of Crime.................................................   141
Violent Crime Enforcement........................................   112
Virtual Case File/SENTINEL.......................................   170
What:
    Did It Cost to Merge Local Law Enforcement Block Grant Within 
      the Byrne Program for 1 Year and Why Did We Do It?.........   151
    Is the Budget This Year for DNA Initiative?..................   149

                    Federal Bureau of Investigation

Additional Committee Questions...................................   173
Agents for Counterrorism.........................................   164
Cost of SENTINEL.................................................   143
Counterintelligence..............................................   135
Counterterrorism.................................................   134
Criminal Investigative Division..................................   136
Definition of Terrorism..........................................   153
Director of National Intelligence..............................148, 165
Directorate of Intelligence....................................129, 133
Federal Bureau of Investigation (FBI):
    Intelligence Analysts........................................   161
    Recruitment..................................................   165
    Search of Terry Nichols' House...............................   144
Health Care Fraud................................................   169
Infrastructure Improvements......................................   136
Integrated Automated Fingerprint Identification System (IAFIS)...   135
Law Enforcement Online (LEO).....................................   135
Office of Chief Information Officer..............................   135
Oklahoma City Bombing............................................   173
Overseas Cooperation.............................................   135
SENTINEL Project.................................................   130
Technology.......................................................   132
Terrorist Screening Center.......................................   134
Timeframe for Locating Explosives in the Former Home of Terry 
  Lynn Nichols in Herington, Kansas on March 31, 2005............   145
2006 Budget Request..............................................   132
WMD Commission Recommendation....................................   166

                   EXECUTIVE OFFICE OF THE PRESIDENT

                Office of Science and Technology Policy

Agency Budget Highlights.........................................    10
Budget Request...................................................     7
Environmental Protection Agency..................................     8
K-12 Math and Science Education..................................    37
Managing the Federal Research Budget.............................    14
National Aeronautics and Space Administration....................     8
Priority Initiatives.............................................    12
The President's Fiscal Year 2006 R&D Budget......................     9

             NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

Additional Committee Questions...................................    76
Aeronautics......................................................    80
    Research.....................................................    54
Affordability and Sustainability.................................    51
Budget Priorities................................................    63
Cost Control and Technical Viability.............................    60
Earth and Space Sciences.........................................    62
Education........................................................    54
Exploration......................................................    83
Field Centers Role in the Prometheus Program.....................    68
Financial Management.............................................    73
Heavy Lift Launch Vehicle........................................    69
Hubble Space Telescope...........................................    61
Implementation Plan for Space Shuttle Return to Flight and Beyond    86
International:
    Agreements...................................................    72
    Cooperation in the Space Program.............................    66
    Space Station:
        Completion...............................................    71
        Proposal.................................................   100
Launch Vehicles..................................................    69
Maintaining Skilled Workforce Within Space Shuttle and Station 
  Activities.....................................................    68
Meeting Our Obligations..........................................    54
NASA Priorities..................................................    50
    In the Fiscal Year 2006 Budget Request.......................    52
Nuclear Power System.............................................    66
Preparing for Exploration........................................    53
Retaining and Attracting Skilled Workforce.......................    74
Return to Flight Cost Summary....................................    86
Science..........................................................52, 80
Space:
    And Earth Science............................................    99
    Operations: The International Space Station (ISS) and the 
      Space 
      Shuttle....................................................    85
    Shuttle Retirement...........................................    59
Station Assembly-Shuttle Flights.................................    70
The Nation's Future in Exploration and Discovery.................    56
Transforming NASA................................................    55
Upper Midwest Aerospace Consortium...............................    98
Window Observational Research Facility (WORF)....................    99

                      NATIONAL SCIENCE FOUNDATION

Award Administration.............................................    22
Barrow Arctic Research Center....................................    32
Broadening Participation.........................................20, 38
Budget Request...................................................    15
Crosscutting Activities..........................................    20
Fiscal Year 2006 Budget Request..................................    18
K-12 Education...................................................    38
Management:
    And Oversight of Large Facilities............................    34
    Of Large Infrastructure Projects.............................    22
Plant Genome.....................................................    39
Providing Broadly Accessible Cyberinfrastructure and World-Class 
  Research Facilities............................................    19
Research:
    And Related Activities Account...............................    18
    Equipment and Facilities Construction Account................    16
Strategic Management of Human Capital............................    23
Sustaining Organizational Excellence in NSF Management Practices.    20

                         National Science Board

Fiscal Year 2006:
    NSB Budget Request...........................................    29
    NSF Budget Request...........................................    26
Funding For Basic Research.......................................    36
Management and Oversight of Large Facilities.....................    34
National Science Board Long-Term Vision..........................    33
Overview of NSB Activities During the Last Year..................    28


</pre></body></html>
